No. ____
IN THE

Supreme Court of the United States
_________
CHEROKEE NATION; ONEIDA NATION; QUINAULT INDIAN
NATION; MORONGO BAND OF MISSION INDIANS,
Petitioners,
v.
CHAD EVERETT BRACKEEN, et al.,
Respondents.
________
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
________
APPENDIX TO PETITION FOR A WRIT OF
CERTIORARI
________
ADAM H. CHARNES
KILPATRICK TOWNSEND
2001 Ross Ave., Ste. 4400
Dallax, TX 75201
KATHRYN E. FORT
MICHIGAN STATE UNIV.
COLLEGE OF LAW,
INDIAN LAW CLINIC
648 N. Shaw Lane
East Lansing, MI 48823

IAN HEATH GERSHENGORN
Counsel of Record
KEITH HARPER
ZACHARY C. SCHAUF
ILLYANA GREEN
VICTORIA HALL-PALERM
JENNER & BLOCK LLP
1099 New York Ave., NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

Counsel for Petitioners Cherokee Nation;
Oneida Nation; Quinault Indian Nation;
and Morongo Band of Mission Indians

TABLE OF CONTENTS
Appendix A
Brackeen v. Haaland, 994 F.3d 249 (5th Cir.
2021).............................................................................. 1a
Appendix B
Brackeen v. Bernhardt, 937 F.3d 406 (5th Cir.
2019).......................................................................... 425a
Appendix C
Brackeen v. Zinke, 338 F. Supp. 3d 514 (N.D.
Tex. 2018) ................................................................. 494a
Appendix D
Constitutional, Statutory, and Regulatory
Provisions Involved................................................ 555a

1a
Appendix A
UNITED STATES COURT OF APPEALS,
FOR THE FIFTH CIRCUIT.
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK
NICHOLAS LIBRETTI; STATE OF LOUISIANA; HEATHER
LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs—Appellees,
v.
DEB HAALAND, Secretary, United States Department
of the Interior; DARRYL LACOUNTE, Acting Assistant
Secretary for Indian Affairs; BUREAU OF INDIAN
AFFAIRS; UNITED STATES DEPARTMENT OF THE
INTERIOR; UNITED STATES OF AMERICA; XAVIER
BECERRA, Secretary, United States Department of
Health and Human Services; UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Defendants—Appellants,
CHEROKEE NATION; ONEIDA NATION; QUINAULT
INDIAN NATION; MORONGO BAND OF MISSION INDIANS,
Intervenor Defendants—Appellants.
No. 18-11479
FILED April 6, 2021
Affirmed in part and reversed in part.

2a
DENNIS, Circuit Judge, filed opinion concurring in part
and dissenting in part, in which STEWART and GRAVES,
Circuit Judges, joined, and WIENER, HIGGINSON,
SOUTHWICK, and COSTA, Circuit Judges, joined in part,
and OWEN, Chief Judge, joined in part.
DUNCAN, Circuit Judge, filed opinion concurring in part
and dissenting in part, in which SMITH, ELROD,
WILLETT, ENGELHARDT, and OLDHAM, Circuit Judges,
joined, and JONES, SOUTHWICK, HAYNES, Circuit
Judges, joined in part, and OWEN, Chief Judge, joined in
part.
HAYNES, Circuit Judge, filed opinion concurring in part.
OWEN, Chief Judge, filed opinion concurring in part and
dissenting in part.
WIENER, Circuit Judge, filed opinion dissenting in part.
COSTA, Circuit Judge, filed opinion concurring in part
and dissenting in part, in which OWEN, Chief Judge, and
WIENER, HIGGENSON, and SOUTHWICK, Circuit Judges,
joined in part.*

*

JUDGE HO was recused and did not participate. JUDGE WILSON
joined the court after the case was submitted and did not
participate.

3a
PER CURIAM:
This en banc matter considers the constitutionality
of the Indian Child Welfare Act (ICWA), 25 U.S.C.
§ 1901 et seq., and the validity of implementing
regulations promulgated by the Bureau of Indian Affairs
(BIA) in its 2016 Final Rule (Final Rule). Plaintiffs are
several couples who seek to adopt or foster Indian
children, a woman who wishes for her Indian biological
child to be adopted by non-Indians, and the States of
Texas, Louisiana, and Indiana. Defendants are the
United States, federal agencies and officials charged
with administering ICWA and the Final Rule, as well as
several Indian tribes that intervened in support of
ICWA. The district court granted Plaintiffs summary
judgment in part, declaring that ICWA and the Final
Rule contravene multiple constitutional provisions and
the Administrative Procedure Act (APA). Defendants
appealed. A panel of this court reversed and rendered
judgment for the Defendants. See Brackeen v.
Bernhardt, 937 F.3d 406, 414 (5th Cir. 2019). One panel
member partially dissented, concluding that several
provisions of ICWA violated the Tenth Amendment’s
anticommandeering doctrine. See id. at 441–46 (Owen, J.,
concurring in part and dissenting in part). This case was
then reconsidered en banc.
Neither JUDGE DENNIS’s nor JUDGE DUNCAN’s
principal opinion nor any of the other writings in this
complex case garnered an en banc majority on all issues.
We therefore provide the following issue-by-issue
summary of the en banc court’s holdings, which does not
override or amend the en banc opinions themselves.

4a
First is the issue of standing. The en banc court
unanimously holds that at least one Plaintiff has
standing to challenge Congress’s authority under
Article I of the Constitution to enact ICWA and to press
anticommandeering and nondelegation challenges to
specific ICWA provisions. The en banc court also
unanimously holds that Plaintiffs have standing to
challenge the Final Rule as unlawful under the APA.
The en banc court is equally divided as to whether
Plaintiffs have standing to challenge two provisions of
ICWA, 25 U.S.C. §§ 1913 and 1914, on equal protection
grounds, and the district court’s conclusion that
Plaintiffs can assert this claim is therefore affirmed
without a precedential opinion.1 An en banc majority also
holds that Plaintiffs have standing to assert their equal
protection challenges to other provisions of ICWA.
On the merits, an en banc majority agrees that, as a
general proposition, Congress had the authority to enact
ICWA under Article I of the Constitution.2 An en banc
majority also holds that ICWA’s “Indian child”
classification does not violate equal protection.3 The
district court’s ruling to the contrary on those two issues
is therefore reversed. The en banc court is equally
1

See United States v. Garcia, 604 F.3d 186, 190 n.2 (5th Cir. 2010)
(“Decisions by an equally divided en banc court are not binding
precedent but only affirm the judgment by operation of law.”).
2

See Part II(A)(1) of JUDGE DENNIS’S opinion and Part II of JUDGE
COSTA’s opinion.
3

Part II(B) of JUDGE DENNIS’S opinion is the en banc majority
opinion on this issue, except as to the constitutionality of “other
Indian families” in § 1915(a)(3) and “Indian foster home” in
§ 1915(b)(iii).

5a
divided, however, as to whether Plaintiffs prevail on
their equal protection challenge to ICWA’s adoptive
placement preference for “other Indian families,” 25
U.S.C. § 1915(a)(3), and its foster care placement
preference for a licensed “Indian foster home,”
§ 1915(b)(iii).4 The district court’s ruling that provisions
of ICWA and the Final Rule are unconstitutional
because they incorporate the “Indian child”
classification is therefore reversed, but its ruling that
§ 1915(a)(3) and (b)(iii) violate equal protection is
affirmed without a precedential opinion.
The court’s holdings on Plaintiffs’ various
anticommandeering claims are more intricate. An en
banc majority holds that ICWA’s “active efforts,”
§ 1912(d), expert witness, § 1912(e) and (f), and
recordkeeping
requirements,
§
1915(e),
unconstitutionally commandeer state actors.5 The
district court’s judgment declaring those sections
unconstitutional under the anticommandeering doctrine
is therefore affirmed. However, the en banc court is
equally divided on whether the placement preferences,
§ 1915(a)–(b), violate anticommandeering to the extent
they direct action by state agencies and officials6; on
whether
the
notice
provision,
§
1912(a),
4

Compare Part II(B) of JUDGE DENNIS’S opinion with Part
III(A)(3) of JUDGE DUNCAN’S opinion.
5

Parts III(B)(1)(a)(i), (ii), (iv); III(B)(1)(b); and III(B)(2)(b) (insofar
as it addresses §§ 1912(d)–(f) and 1915(e)) of JUDGE DUNCAN’S
opinion are the en banc majority opinion on these issues.
6

Compare Part II(A)(2)(a)(i) of JUDGE DENNIS’S opinion with Part
III(B)(1)(a)(iii) of JUDGE DUNCAN’S opinion.

6a
unconstitutionally commandeers state agencies7; and on
whether the placement record provision, § 1951(a),
unconstitutionally commandeers state courts.8 To that
extent, the district court’s judgment declaring those
sections unconstitutional under the anticommandeering
doctrine is affirmed without precedential opinion.
Furthermore, an en banc majority holds that several
challenged ICWA provisions validly preempt state law
and so do not commandeer states. Those are provisions
granting certain private rights in state child custody
proceedings—namely, the right to intervene, § 1911(c),
to appointed counsel, § 1912(b), to examine documents,
§ 1912(c), to explanation of consent, § 1913(a), to
withdraw consent, § 1913(b), (c), and (d), to seek
invalidation, § 1914, to seek return of custody, § 1916(a),
and to obtain tribal information, § 1917.9 In addition, an
en banc majority holds that the following provisions
validly preempt contrary state law to the extent they
apply to state courts (as opposed to state agencies): the
placement preferences, § 1915(a) and (b), and the
placement and termination standards, § 1912(e) and (f).10

7

Compare Part II(A)(2)(b) of JUDGE DENNIS’S opinion with Part
III(B)(1)(a)(v) of JUDGE DUNCAN’S opinion.
8

Compare Parts II(A)(2)(a)(ii) of JUDGE DENNIS’S opinion with
Part III(B)(2)(c) of JUDGE DUNCAN’S opinion.
9

Part III(B)(2)(a) of JUDGE DUNCAN’S opinion is the en banc
majority opinion on this issue, except as to the appointed counsel
provision in § 1912(b).
10

Part III(B)(2)(c) of JUDGE DUNCAN’S opinion is the en banc
majority opinion on this issue, except as to the placement record
requirement in § 1951(a).

7a
The district court’s rulings to the contrary are therefore
reversed.
Next, an en banc majority holds that § 1915(c), which
permits Indian tribes to establish an order of adoptive
and foster preferences that is different from the order
set forth in § 1915(a) and (b), does not violate the
nondelegation doctrine.11 The district court’s ruling to
the contrary is therefore reversed.
Last are Plaintiffs’ claims that the Final Rule
violates the APA. An en banc majority holds that the
BIA did not violate the APA by concluding in the Final
Rule that it may issue regulations binding on state
courts.12 But an en banc majority also holds that—
consistently with the en banc court’s holding that
§§ 1912(d), 1912(e), and 1915(e) commandeer states—the
Final Rule violated the APA to the extent it
implemented these unconstitutional provisions.13
Finally, an en banc majority determines that 25 C.F.R.
§ 23.132(b)—the part of the Final Rule interpreting
§ 1915’s “good cause” standard to require proof by clear
and convincing evidence—violated the APA.14 An en
banc majority holds that the Final Rule did not violate
11

Part II(C) of JUDGE DENNIS’S opinion is the en banc majority
opinion on this issue.
12

Part II(D)(2) of JUDGE DENNIS’S opinion is the en banc majority
opinion on this issue.
13

Part III(D)(1) of JUDGE DUNCAN’S opinion is the en banc majority
opinion on this issue, insofar as it applies to §§ 1912(d)–(e) and
1915(e).
14

Part III(D)(3) of JUDGE DUNCAN’S opinion is the en banc majority
opinion on this issue.

8a
the APA in any other respect. The district court’s grant
of relief under the APA is affirmed to the extent it is
consistent with these holdings and reversed to the
extent it is inconsistent with these holdings.
The judgment of the district court is therefore
AFFIRMED in part and REVERSED in part, and
judgment is accordingly RENDERED.
DENNIS, J., delivered the opinion of the en banc
court with respect to Parts II(B), II(C), and II(D)(2) of
his opinion (except as otherwise noted in the PER
CURIAM opinion, supra).
DUNCAN, J., delivered the opinion of the en banc
court with respect to Parts III(B)(1)(a)(i)–(ii),
III(B)(1)(a)(iv), III(B)(2)(a)–(c), III(D)(1), and III(D)(3)
of his opinion (except as otherwise noted in the PER
CURIAM opinion, supra).

9a
JAMES L. DENNIS, Circuit Judge:†
The Indian Child Welfare Act (ICWA) of 1978 is a
federal law that regulates the removal and out-of-home
placement of American Indian children. The Act
establishes minimum federal standards that must be met
in any legal proceeding to place an Indian child in a foster
or adoptive home, and it ensures that Indian tribes and
families are allowed to participate in such Indian child
welfare cases. See 25 U.S.C. § 1901 et seq. Congress
enacted ICWA after finding “that an alarmingly high
percentage of Indian families are broken up by the
removal, often unwarranted, of their children from them
by nontribal public and private agencies and that an
†

JUDGES STEWART and GRAVES join this opinion in full. JUDGES
WIENER, HIGGINSON, and COSTA join all except Discussion Part
I.A.2 (standing to bring equal protection claims other than the
challenges to 25 U.S.C. §§ 1913-14).
CHIEF JUDGE OWEN joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), I.C (standing to bring anticommandeering
claims), II.A.2.a.1 (anticommandeering challenge to §§ 1912(e)-(f)
and 1915(a)-(b) as they pertain to state courts), and II.C
(nondelegation). She further joins Discussion Part I.D (standing to
bring nondelegation claim) except as to the final sentence. See infra
OWEN, CHIEF JUDGE, OP.
JUDGE SOUTHWICK joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), II.A.1 (Congress’s Article I authority), II.B
(equal protection), and II.C (nondelegation). He further joins inpart Discussion Parts II.A.2 (anticommandeering) and II.D (APA
challenge to the Final Rule), disagreeing to the extent the analyses
pertains to § 1912(d)-(f) and the regulations that implement those
provisions.
JUDGE HAYNES has expressed her partial concurrence in her
separate opinion. See infra HAYNES, CIRCUIT JUDGE, OP.

10a
alarmingly high percentage of such children are placed
in non-Indian foster and adoptive homes and
institutions”; “that the States, exercising their
recognized jurisdiction over Indian child custody
proceedings through administrative and judicial bodies,
have often failed to recognize the essential tribal
relations of Indian people and the cultural and social
standards prevailing in Indian communities and
families”; and “that there is no resource that is more
vital to the continued existence and integrity of Indian
tribes than their children and that the United States has
a direct interest, as trustee, in protecting Indian
children who are members of or are eligible for
membership in an Indian tribe.” Id.
Plaintiffs, consisting of the States of Texas,
Louisiana, and Indiana, and seven individuals, challenge
the facial constitutionality of ICWA as well as the
statutory and constitutional validity of the Department
of Interior’s 2016 administrative rule implementing
ICWA (the “Final Rule”). Combined, Texas, Louisiana,
Indiana, and Ohio (which filed an amicus brief in support
of Plaintiffs) are home to only about 1% of the total
number of federally recognized Indian tribes and less
than 4% of the national American Indian and Alaska
Native population. See NAT’L CONF. OF STATE LEGIS.,
FEDERAL AND STATE RECOGNIZED TRIBES (March
2020),
https://www.ncsl.org/research/state-tribalinstitute/list-of-federal-and-state-recognized-tribes.
aspx; Centers for Disease Control and Prevention,
Tribal Population https://www.cdc.gov/tribal/tribesorganizations-health/tribes/state-population.html (last
viewed Mar. 29, 2021). On the other hand, twenty-six

11a
other states and the District of Columbia have filed
amicus briefs asking us to uphold ICWA and the Final
Rule. Those states are California, Alaska, Arizona,
Colorado, Connecticut, Idaho, Illinois, Iowa, Maine,
Massachusetts, Michigan, Minnesota, Mississippi,
Montana, Nevada, New Jersey, New Mexico, New York,
Oklahoma, Oregon, Pennsylvania, Rhode Island, Utah,
Virginia, Washington, and Wisconsin, which are
collectively home to 94% of federally recognized Indian
tribes and 69% of the national American Indian and
Alaska Native population.
We do not decide cases by a show of hands of states’
votes, of course, but we cannot ignore the irony of the
situation with which we are faced. Twenty-six states and
the District of Columbia, which are home to a large
majority of federally recognized tribes and the nation’s
overall indigenous population, do not view ICWA as any
sort of burden on their child welfare systems. They
strongly contend that ICWA is constitutional and have
no problem applying it in their state court systems;
indeed, they view ICWA as the “gold standard” for child
welfare practices and a “critical tool” in managing their
relationships with the Indian tribes within their borders.
Conversely, only four states with relatively few tribes
and Indians regard ICWA as offensive to their
sovereignty and seek to have the law struck down
completely because it intrudes upon their otherwise
unimpeded discretion to manage child custody
proceedings involving Indian children. Further, these
State Plaintiffs and their amicus wrongly assert
repeatedly that ICWA regulates all of their child
custody and adoption proceedings. This is simply not

12a
true. Congress drew ICWA narrowly to provide
minimum protections only to qualified Indian children—
safeguards that Congress found necessary and proper to
stop the abusive practices that had removed nearly a
generation of Indian children from their families and
tribes and that threatened the very existence of the
Indian nations. See generally Margaret Jacobs, A
Generation Removed: The Fostering and Adoption of
Indigenous Children in the Postwar World (2014)
[hereinafter Jacobs, A Generation Removed]. The vast
majority of child custody proceedings in Texas,
Louisiana, and Indiana do not involve Indian children;
therefore, ICWA does not apply in the vast majority of
such proceedings in those states or, for that matter, in
any other state.
Defendants are the United States of America,
several federal agencies and officials in their official
capacities, and five intervening Indian tribes.
Defendants moved to dismiss the complaint for lack of
subject matter jurisdiction, but the district court denied
the motion, concluding, as relevant to this appeal, that
Plaintiffs had Article III standing. The district court
then granted summary judgment in favor of Plaintiffs,
ruling that provisions of ICWA and the Final Rule
violated equal protection, the anticommandeering
doctrine, the nondelegation doctrine, and the
Administrative Procedure Act (the “APA”). Defendants
appealed.
Although we would affirm most aspects of the
district court’s ruling that Plaintiffs have standing, we
would conclude that Plaintiffs’ challenges to ICWA lack
merit and uphold the statute in its entirety. We would

13a
therefore reverse the district court’s grant of summary
judgment to Plaintiffs and render judgment in favor of
Defendants.
BACKGROUND
Before the establishment of the United States, the
North American landmass was “owned and governed by
hundreds of Indian tribes.” COHEN’S Handbook of
FEDERAL INDIAN LAW § 1.01 (Nell Jessup Newton ed.,
2012.) [hereinafter COHEN’S]. These tribes, sovereigns
under international law, came under the jurisdiction of
the United States “through a colonial process that was
partly negotiated and partly imposed.” Id. The
Constitution recognizes the existence of Indian tribes
and, in many respects, treats them as sovereigns in the
same manner as the states and foreign nations. See U.S.
CONST. art. I, § 8, cl. 3 (empowering Congress “[t]o
regulate Commerce with foreign Nations, and among
the several States, and with the Indian Tribes”); Holden
v. Joy, 84 U.S. (17 Wall.) 211, 242, 21 L. Ed. 523 (1872)
(holding that the President’s Article II, Section 2 power
to make treaties with the Indian tribes is coextensive
with the power to make treaties with foreign nations).
But a long line of judicial opinions confirms that, under
U.S. law, Indian tribes occupy a unique position: they are
“domestic, dependent nations.” Cherokee Nation v.
Georgia, 30 U.S. (5 Pet.) 1, 17, 8 L. Ed. 25 (1831). That is,
tribes reside within the United States and are subject to
federal power, but they retain sovereign authority over
a range of matters relevant to their self-government.
COHEN’S, supra § 1.01.
Three key principles underpin the field of FEDERAL
INDIAN LAW. First, Indian tribes possess “inherent

14a
powers of a limited sovereignty that has never been
extinguished.” Id. Because of tribes’ retained
sovereignty, they have a government-to-government
relationship with the United States. Id. Second, the
federal government has expansive and exclusive powers
in Indian affairs, and, relatedly, an ongoing obligation to
use those powers to promote the well-being of the tribes
in what is commonly referred to as a trust relationship.
Id. Third, as a corollary to the federal government’s
broad power in Indian affairs, the supremacy of federal
law, and the need for the nation to speak with one voice
in its government-to-government relations, state
authority in this field is very limited. Id.
In addition to these precepts, we are mindful of the
uniquely crucial importance of historical perspective in
Federal Indian Law. See, e.g., CHARLES A. MILLER, THE
SUPREME COURT AND THE USES OF HISTORY 24 (1969)
(“[I]n disputes concerning American Indian tribes the
courts have also considered and often decided cases
principally on the basis of historical materials[.]”). As
Justice Holmes said about a different issue: “Upon this
point a page of history is worth a volume of logic.” New
York Trust Co. v. Eisner, 256 U.S. 345, 349, 41 S. Ct. 506,
65 L. Ed. 963 (1921); see also N.L.R.B. v. Noel Canning,
573 U.S. 513, 524, 134 S. Ct. 2550, 189 L. Ed. 2d 538 (2014)
(“[L]ong settled and established practice is a
consideration of great weight in a proper interpretation
of constitutional provisions[.]” (quoting The Pocket Veto
Case, 279 U.S. 655, 689, 49 S. Ct. 463, 73 L. Ed. 894
(1929))). Particularly significant to our analysis is the
contemporary understanding of the Constitution’s
treatment of Indian Affairs at the time of its adoption.

15a
See, e.g., District of Columbia v. Heller, 554 U.S. 570,
605-10, 128 S. Ct. 2783, 171 L. Ed. 2d 637 (2008)
(canvassing Founding-era historical sources to
synthesize the original understanding of the
Constitution). We therefore survey the interrelated
history of Indian affairs and the adoption of the
Constitution.
I.

A Brief History of the American Indians and the
United States Constitution

In holding key provisions of ICWA unconstitutional,
the district court disregarded two centuries of precedent
and omitted any discussion of the history of the federal
constitutional power to enter treaties or legislate with
respect to the Indian tribes. Seeking to make up for the
district court’s errors and omissions, the Plaintiffs now
cite to several historical texts. The authorities they cite,
however, mainly support a broad understanding of the
federal government’s exclusive power over Indian
affairs, which includes the authority to prevent states
from exercising their sovereignty in ways that interfere
with federal policy toward the Indians. Careful study of
their references and other scholarly resources reveals
the lack of foundation for the district court’s more
limited conception of federal authority.
Following the American Revolution, the new United
States government supplanted the British Crown as the
self-appointed ruler of most of North America, thereby
inviting expansive white settlement of the continent. See
COHEN’S, supra § 1.02. Americans, then, were optimistic
in 1783; their victory over the British had rendered the
nation, as George Washington put it, “the sole Lord[ ]
and Proprietor[ ] of a vast tract of continent.” Gregory

16a
Ablavsky, The Savage Constitution, 63 DUKE L.J. 999,
1009 (2014) [hereinafter Ablavsky, Savage Constitution]
(quoting George Washington, THE LAST OFFICIAL
ADDRESS,
OF
HIS
EXCELLENCY
GENERAL
WASHINGTON, TO THE LEGISLATURES OF THE UNITED
STATES 4 (1783)). But only four years later, that
optimism “turned to despondence, as the Continental
Congress, with an empty treasury and a barely extant
military, confronted looming wars against powerful
Indian confederacies on the northern and southern
borderlands.” Id. Unrest between the tribes, the states,
squatters, and settlers was largely to blame for this
dramatic shift in national mood—hallmarks of the failure
of the central government’s Indian policy under the
Articles of Confederation. Id. at 1006.
The insolvent Continental Congress desperately
desired both peace with the Indians and annexation of
the western land they inhabited in order to repay the
debt it had incurred during the Revolutionary War. Id.
To accomplish these goals, the new nation followed the
practice of the British, who had treated Indian tribes as
“quasi-foreign nations” and used negotiation, treaties,
and war-making as the primary tools for managing
relations. Br. of Prof. Ablavsky at 5. In other words, the
United States structured its relations with tribes akin to
its regulation of foreign affairs. See id. THE ARTICLES OF
CONFEDERATION accordingly provided that the national
government was to have authority over “managing all
affairs with the Indians.” Articles of Confederation of
1781, art. IX. As the Continental Congress’s Committee
on Southern Indians explained, this authority
comprehended a number of interrelated powers:

17a
“making war and peace, purchasing certain tracts of
[tribal] lands, fixing the boundaries between [Indians]
and our people, and preventing the latter settling on
lands left in possession of the former.” 33 Journals of the
Continental Congress, 1774-1789, 457 (Roscoe R. Hill
ed., 1936). These interconnected powers were, in the
Southern Indians Committee’s view, “indivisible.” Id.
This is to say that, under the Articles of Confederation,
the Continental Congress was intended to possess
Indian affairs powers like those that any sovereign
would hold in conducting affairs with other sovereigns.
See id. (noting that “before the revolution” these powers
“were possessed by the King”). In practice, however, it
was not clear whether, under the Articles, the states also
retained the sovereign power to deal with the Indian
tribes in their own right. See THE FEDERALIST No. 42 at
217 (James Madison) (describing the delineation of
authority as “ambiguous”).
Exercising its federal authority, the Continental
Congress appointed commissioners to secure peace
treaties with tribes throughout the nation. COHEN’S,
supra at 1.02[3]. These treaties serve as some of the
earliest documentary bases for the nation’s continuing
trust relationship with the tribes. For example, in return
for peace and other guarantees, the United States
promised the Cherokees that the tribe would be
“received” into “the favour and protection of the United
States of America.” Treaty with the Cherokees,
preamble, 1785, 7 Stat. 18. Similar language was
included in a treaty with the Six Nations tribes at Fort
Stanwix in New York. TREATY WITH THE SIX NATIONS,
1784, 7 Stat. 15 (Treaty at Fort Stanwix).

18a
While the national government worked to secure
treaties with the tribes, some states resisted—or
outright defied—these efforts, viewing them as
infringements on their sovereignty. COHEN’S, supra at
1.02[3]. New York, for instance, protested the asserted
national “incursion” into its powers posed by the Treaty
of Fort Stanwix. Robert N. Clinton, The Dormant
Indian Commerce Clause, 27 CONN. L. REV. 1055, 1147
(1995). Other states went further. Georgia and North
Carolina seized on ambiguous clauses in the Articles
concerning the scope of federal power over Indian
affairs, construing them in a manner that “le[ft] the
federal powers ... a mere nullity.” 33 Journals of the
Continental Congress at 457. Indeed, Georgia outright
ignored federal treaties and attempted to form its own
compacts with the Creek Indians, see id., “reportedly
resort[ing] to death threats to compel agreement” and
expropriate tribal lands. Ablavsky, The Savage
Constitution, supra at 1028; see also Report of the
Secretary of War on the Southern Indians (July 18,
1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS:
TREATIES AND LAWS, 1607-1789: REVOLUTION AND
CONFEDERATION 449, 450 (Alden T. Vaughan et al. eds.,
1994) [hereinafter EARLY AMERICAN INDIAN
DOCUMENTS].
In a memorandum drafted on the eve of the
Constitutional Convention, James Madison described
Georgia’s “wars and Treaties ... with the Indians,” as
emblematic of the “vices” inherent in the division of
federal and state power under the Articles. JAMES
MADISON, VICES OF THE POLITICAL SYSTEM OF THE
UNITED STATES, in 9 THE PAPERS OF JAMES MADISON

19a
345, 348 (Robert A. Rutland et al. eds., 1975). And in a
letter sent to Congress in the midst of the Convention,
Secretary at War Henry Knox worried that the United
States could not “effectual[y] interfere[ ]” in the many
skirmishes that pitted states and settlers against
Indians and, he predicted that a “general [I]ndian war
may be expected.”1 H. Knox, Report of the Secretary at
War on the Southern Indians (July 18, 1787), in 18
EARLY AMERICAN INDIAN DOCUMENTS 450. Thus,
nationalists like Madison and Alexander Hamilton
“agreed on the problem”: the new nation was “too weak
to exercise the authority it enjoyed on paper” under the
Articles of Confederation, and a stronger federal
government
was
needed.
Ablavsky,
Savage
Constitution, supra at 999. “Indian affairs thus
propelled the creation of a more powerful national
state—one that, in Madison’s words, would possess the
‘ability to effect what it is proper [it] should do.’” Id.
(alterations in original) (quoting Letter from James
Madison to George Nicholas (May 17, 1788), in 18 THE
DOCUMENTARY HISTORY OF THE RATIFICATION OF THE
CONSTITUTION: COMMENTARIES ON THE CONSTITUTION
1

Knox’s position was labeled “Secretary at War” under the Articles.
See 19 JOURNALS OF THE CONTINENTAL CONGRESS, 1774-1789, at
126 (Worthington Chauncey Ford ed., 1912) (establishing under the
Articles of Confederation the position of “Secretary at War”). He
was appointed to the new position of “Secretary of War” in
September 1789. See Harry M. Ward, The Department of War,
1781-1795, at 101-02 (1962); see also Act of Aug. 7, 1789, ch. 7, 1 Stat.
49, 50 (establishing the Department of War and the office of
Secretary of War, a position invested with “such duties as shall be
enjoined on, or entrusted to him by the President of the United
States ... relative to Indian Affairs”).

20a
PUBLIC AND PRIVATE 24, 28 (John P. Kaminski et al.
eds., 1995)). The supporters of a stronger national
authority envisioned a central government that could
“govern not merely in principle but ‘in reality,’” as
Secretary Knox wrote about Indian affairs. Id. (quoting
Report of the Secretary at War on the Southern Indians
(July 18, 1787), in 18 EARLY AMERICAN INDIAN
DOCUMENTS 449, 450).
At the Constitutional Convention, Madison
attributed the failings of Indian policy to state
interference with the Confederation’s authority,
especially its treatymaking power. Id. at 1006. His
solution to Indian affairs was to revise “federalism to
ensure federal supremacy—partly through the Indian
Commerce Clause, but more significantly through the
Treaty, Compact, Supremacy, and Property Clauses.”
Ablavsky, Savage Constitution, supra at 1006-07. At its
heart, Madison’s solution to Indian affairs “envisioned a
strengthened federal government that would protect
and restrain Indians and states alike.” Id. at 1007.
Hamilton and other Federalists took a different but
complementary view; their “concern over external
threats dovetailed with the views of many on the
frontier, who blamed the Articles’ failure on national
military weakness against Native power.”2 Id. The
2

Though the writings and speeches of Madison have traditionally
been regarded as the authoritative encapsulation of the Federalist
case for the Constitution, contemporary research has upset the
assumption that Madison’s views were representative of the
Federalist camp generally. In particular, historians have harnessed
The Documentary History of the Ratification, a rich source of
primary material concerning the Constitutional Convention and the

21a

ratification debates that includes documents such as letters,
petitions, and records of convention debates. See MAX M. EDLING,
A REVOLUTION IN FAVOR OF GOVERNMENT: ORIGINS OF THE U.S.
CONSTITUTION AND THE MAKING OF THE AMERICAN STATE 18-21
(2003) AT 29 [hereinafter Edling, A REVOLUTION IN FAVOR OF
GOVERNMENT] (citing THE DOCUMENTARY HISTORY OF THE
RATIFICATION OF THE CONSTITUTION: COMMENTARIES ON THE
CONSTITUTION PUBLIC AND PRIVATE 24, 28 (John P. Kaminski et al.
eds., 1995)). In addition to the obvious import of the proceedings
during the Constitutional Convention at which the charter was
framed, documentation from the subsequent ratification debates
offers significant insight into how the Constitution should be
interpreted. The Constitution rooted its legitimacy in the consent of
those whom it would come to govern, declaring that the system it
outlined was “ordained and established” by “We the people,” U.S.
CONST. PREAMBLE. To turn the promise of self-rule into a reality,
ratification was conducted through a series of state conventions
with delegates chosen by the voters of each state. Ratification thus
was itself an act of popular sovereignty and representative
democracy that required the public and its chosen delegates to be
educated and deliberate on the meaning of the Constitution. See id.
at 29-31. These ratification debates provided the “first widely
shared” exposition of important constitutional provisions, and the
discussions that took place therein were the starting point for
constitutional interpretation during the early republic. Id. Thus, the
contemporaneous writings that circulated among the public and
within the state ratification conventions are as important as the
records of the Constitutional Convention itself in determining the
charter’s original public meaning. See id.
Mining this trove, historians have concluded that the issues that
motivated Madison were not emphasized by all Federalists. Many
Federalists did not echo Madison’s prototypical liberal “call for
minority rights and limited government,” but rather argued for the
formation of a strong national state. Id. at 14-15. While Madison was
concerned primarily with creating a constitutional structure that
would protect liberty by restraining concentrations of power and
safeguarding the rights of minorities, Hamilton and others sought

22a
approach of Hamilton and likeminded Federalists to
Indian affairs, then, was to create a muscular “fiscalmilitary state that would possess the means to dominate
the borderlands at Indians’ expense.” Id. (citing Max M.
Edling, A REVOLUTION IN FAVOR OF GOVERNMENT:
ORIGINS OF THE U.S. CONSTITUTION AND THE MAKING
OF THE AMERICAN STATE 47-49 (2003)). The Indians
thus served as “both impetus and justification for the
creation of a federal standing army” supportable
through direct taxation. Id.

to establish a robust “national government with the ability to act.”
Id.
This latter group of Federalists, having witnessed the failings of the
weak and insolvent nation under the Articles of Confederation,
were fierce advocates for the Constitution’s grant of unlimited fiscal
and military power to the central government, arguing that
centralizing such authority was necessary to defend against foreign
and domestic aggressors and competitors. Id. Chief among the
adversaries they sought to protect against were the Indian tribes.
Indians presented immediate dangers in the borderlands, and these
Federalists feared the tribes would form confederations with each
other, the British to the north, or the Spanish to the south, creating
strong rival powers for control of the continent. Id. These
Federalists also perceived a need to remove the tribes, by force or
by treaties, as obstacles to the new nation’s capitalization of the
interior lands and their resources. See Ablavsky, Savage
Constitution at 1037-38, 1063-67. Countering the tribes, they
believed, would require a strong central government with unlimited
taxing, borrowing, and military powers. In sum, the need for a
strong national government with robust powers to manage
relations with the Indians played a crucial role in the Federalist case
for the Constitution, and recognizing this motivation is key to
understanding the wide breadth of the Indian affairs power the
Constitution confers on the federal government. See id. at 1058-67.

23a
Ultimately, these arguments in favor of restraining
states and centralizing authority over Indian affairs
resulted in a significant enhancement of the federal
government’s power. Id. at 999. New constitutional
provisions were added declaring the federal
constitution, laws, and treaties the supreme law of the
land; barring state treatymaking; and providing
“exclusive federal power over western territories.” Id.
Added, too, was the Indian Commerce Clause, but the
foregoing more general provisions ensuring supreme
federal power over the states with respect to foreign
affairs and the western territories were of much greater
importance, as they collectively authorized the “fiscalmilitary state committed to western expansion” that the
Federalists had envisioned. Id.
During the ratification of the Constitution, the
constant potential for Indian alliances with other tribes
or European nations also influenced the public
understanding of the Constitution. See id. at 1058-67.
Indeed, “many Federalists repeatedly invoked the
specter of threats posed by the ‘savages’ to justify”
states’ ratifying a stronger federal government and a
standing army. Id. at 1000, 1069. This unifying strategy
worked well: Georgia, for example, ratified the new
Constitution after only three days of debate so that it
could secure federal aid in its ongoing war with the
Creek Indians. Id.
Proponents of the new charter also expressly
contended that its consolidation of power over Indian
affairs in the national government would rectify the
problems that had resulted from the split authority
between the states and Congress under the Articles of

24a
Confederation. Writing in the Federalist Papers,
Madison described the Indian Commerce Clause as
“very properly unfettered” by the ambiguous limits
Article XI of the Articles of Confederation had placed on
state power. THE FEDERALIST NO. 42 at 217 (James
Madison); see also Ablavsky, The Savage Constitution,
supra at 1053-54. The Constitution’s opponents
recognized, too, the import of this redistribution of
power in Indian affairs; Abraham Yates, a leading AntiFederalist, warned that “adopting the new government[
] will enervate” states’ “legislative rights, and totally
surrender into the hands of Congress the management
and regulation of the Indian affairs.” Abraham Yates,
Documentary History of the Ratification of the
Constitution, Vol. XX, p. 1158; see also Ablavsky, The
Savage Constitution, supra at 1053-54. Yet the
Constitution was ratified despite these concerns,
indicating that early Americans viewed the benefits of
centralizing power over Indian affairs to be worth the
surrender of state authority.
The post-ratification history further confirms that
the Constitution created a fiscal-military government
possessing broad, exclusive federal powers over Indian
affairs. The Washington Administration likened federal
authority over Indian affairs to its foreign affairs power.
For instance, Secretary Knox wrote to President
George Washington that “[t]he independent nations and
tribes of Indians ought to be considered as foreign
nations, not as the subjects of any particular state.”
Letter from Henry Knox to George Washington (July 7,
1789), in 3 PAPERS OF GEORGE WASHINGTON:
PRESIDENTIAL SERIES 134, 138 (Dorothy Twohig ed.,

25a
1989). Accordingly, as Knox explained in another letter,
the federal government had supreme authority to
regulate in this field: “[T]he United States have, under
the constitution, the sole regulation of Indian affairs, in
all matters whatsoever.” Letter from Henry Knox to
Israel Chapin (Apr. 28, 1792), in 1 AMERICAN STATE
PAPERS: INDIAN AFFAIRS 231-32 (Walter Lowrie et al.
eds., 1832).
State officials also acknowledged the federal
government’s plenary authority over Indian affairs
under the new constitution. Soon after ratification, for
example, South Carolina Governor Charles Pinckney
wrote to President Washington requesting aid from “the
general Government, to whom with great propriety the
sole management of India[n] affairs is now committed.”
Letter from Charles Pinckney to George Washington
(Dec. 14, 1789), in 4 PAPERS OF GEORGE WASHINGTON:
PRESIDENTIAL SERIES 401, 404 (Dorothy Twohig ed.,
1993); see also Gregory Ablavsky, Beyond the Indian
Commerce Clause, 124 YALE L.J. 1012, 1043 (2015)
[hereinafter Ablavsky, Beyond the Indian Commerce
Clause] (citing similar acknowledgments of federal
supremacy in Indian affairs by the legislatures of
Georgia and Virginia).
Early congressional enactments demonstrate the
Founding-era view that the federal government was
supreme in regulating Indian affairs. Ablavsky, Savage
Constitution, supra at 999. Particularly significant is the
First Congress’s passage of the Indian Intercourse Act
(also referred to as the “Non-Intercourse Act” or “Trade
and Intercourse Act”). Act of July 22, 1790, 1 Cong. ch.
33, 1 Stat. 137. The statute limited trade with Indians to

26a
persons licensed by the federal government and
criminalized offenses by U.S. citizens against Indians in
Indian country, including within states’ borders.
Successor versions were enacted throughout the 18th
and 19th centuries, further expanding the scope of the
law by, for instance, “authorizing federal military force
to arrest violators of the Act found within Indian
country anywhere in the United States.” See Br. of Prof.
Ablavsky at 11.3
That the Constitution was intended to confer on the
federal government unimpeded authority vis-à-vis
Indian relations is evidenced further in how the
government deployed its new fiscal-military power
against the tribes in service of the nation’s westward
expansion.4 The military’s initial western expeditions in
the early 1790s resulted in gross failure, as an Indian
confederacy handed the American forces the U.S.
Army’s worst defeat by Indians in its entire history.
Ablavsky, Savage Constitution, supra at 1077-78. The
Indians’ routing of American troops underscored their
martial strength and the threat that they posed to the
nation’s ambitions to conquer the western lands. In
response, the government ramped up spending on the
3

See also Act of May 19, 1796, 4 Cong. ch. 30, § 3, 1 Stat. 469, 470;
Act of June 30, 1834, ch. 161, 4 Stat. 729; Act of Mar. 30, 1802, ch. 13,
2 Stat. 139; Act of Mar. 3, 1799, ch. 46, 1 Stat. 743; Act of Mar. 1,
1793, ch. 19, 1 Stat. 329.
4

“The army had been brought into existence to deal with western
expansion and to coerce the Indians.” EDLING, A REVOLUTION IN
FAVOR OF GOVERNMENT, supra at 140. Indeed, in the Antebellum
era alone, the U.S. Army fought at least ten wars against the
Indians. Ablavsky, Savage Constitution, supra at 1080 & n.483.

27a
Army over the next few years, swelling its size
severalfold. In subsequent battles with the Indians, the
newly strengthened Army “prevailed, seizing most of
present-day Ohio.” Id. at 1078. The government’s
bellicose stance toward the tribes persisted, and, over
the next century, wars between the Indians and the
United States “remained a near constant” as the
government continued to facilitate westward
expansion.5 Id. at 1078. In this way, the Constitution
operated as the Federalists had predicted: the nation
developed a strong military able to quell any threat

5

The history of the dispossession of the Indians continued apace
throughout the nineteenth and well into the twentieth centuries. In
the early years of the nineteenth century, for example, the United
States negotiated treaties that resulted in the nation acquiring
millions of acres, “often paying pennines on the acre for lands worth
many times more.” COHEN’S, supra § 1.03. Later, during the
“allotment” era of 1887 until 1934, Indians’ land holdings plunged
from 138 million acres to only 48 million acres of land due to the
federal government’s policy of splitting tribal members’ undivided
interests in reservation lands into individually-owned lots and then
selling off “surplus” reservation land to non-Indians. Id. § 1.04. By
the measure of some scholars of the Indian history, “the United
States seized some 1.5 billion acres from North America’s native
peoples” in total since the nation’s founding. Claudio Saunt, The
Invasion of America, AEON (Jan. 7, 2015), https://aeon.co/essays/
how-were-1-5-billion-acres-of-land-so-rapidly-stolen.
Professor
Saunt has authored several books documenting the lengthy history
of injustices that befell the Indians as their lands were taken by nonIndians throughout the eighteenth and nineteenth centuries, often
by the federal government or with its backing. See, e.g., CLAUDIO
SAUNT, WEST OF THE REVOLUTION: AN UNCOMMON HISTORY OF
1776 (2014); CLAUDIO SAUNT, UNWORTHY REPUBLIC: THE
DISPOSSESSION OF NATIVE AMERICANS AND THE ROAD TO INDIAN
TERRITORY (2020).

28a
posed by Indians and, consequently, to open up the west
to Anglo settlement. Id. at 1077-78.
Finally, early Supreme Court decisions confirm that
the Constitution was understood to place the reins of
authority over Indian affairs squarely and solely in the
hands of the federal government. In Worcester v.
Georgia, 31 U.S. (6 Pet.) 515, 559, 8 L. Ed. 483 (1832),
Chief Justice John Marshall explained that the
Constitution
confers on congress the powers of war and
peace; of making treaties, and of regulating
commerce with foreign nations, and among the
several states, and with the Indian tribes. These
powers comprehend all that is required for the
regulation of our intercourse with the Indians.
They are not limited by any restrictions on their
free actions. The shackles imposed on this
power, in the confederation, are discarded.
The Court’s holistic reading of the Constitution
exemplifies how the Founding Generation understood
federal Indian authority: as a bundle of interrelated
powers that functioned synergistically to give the
federal government supreme authority over Indian
affairs. See id. at 519 (“The treaties and laws of the
United States contemplate the Indian territory as
completely separated from that of the states; and
provide that all intercourse with them shall be carried
on exclusively by the government of the union.”); see
also Ablavsky, Beyond the Indian Commerce Clause,
supra at 1040; cf. McGirt v. Oklahoma, 140 S. Ct. 2452,
2463, 207 L. Ed. 2d 985 (2020) (“The policy of leaving
Indians free from state jurisdiction and control is deeply

29a
rooted in this Nation’s history.” (internal quotation
marks omitted)).
In sum, the historical evidence powerfully
demonstrates that the Framers intended the
Constitution, through an array of provisions, to entrust
to the federal government exclusive and supreme
authority in Indian affairs, including the power to
prevent states from interfering with federal policy
toward the Indians. It also reveals that the Founding
Generation, both at the federal and state levels, held this
same understanding regarding the Constitution’s
consolidation of authority in Indian affairs. Wielding its
interconnected, symbiotic powers in this area, the early
federal government at times regulated to encourage
national expansion at the expense of the Indians’
sovereignty and thereby to entrench tribes’ dependency
on the federal government of the United States.
II. The Special Federal-Tribal Trust Relationship
As a result of the federal government’s forcible
annexation of the western lands and envelopment of the
Indian nations, the United States developed a special
obligation with respect to the Indian tribes, with the two
sharing what modern courts generally describe as a
unique “trust relationship.” Matthew L.M. FLETCHER,
PRINCIPLES OF FEDERAL INDIAN LAW § 5.2 (1st ed.
2017) [hereinafter FLETCHER, FEDERAL INDIAN LAW].
In essence, the trust relationship obligates the federal
government to preserve tribal self-governance, promote
tribal welfare, and uphold its fiduciary duty in managing
tribal assets. See id.

30a
The contemporary understanding of the trust
relationship has roots in the centuries-old “doctrine of
the law of nations.” Worcester, 31 U.S. at 520. That
doctrine holds that “when a stronger sovereign assumes
authority over a weaker sovereign, the stronger one
assumes a duty of protection for the weaker one, which
does not surrender its right to self-government.”
FLETCHER, FEDERAL INDIAN LAW, supra § 5.2; see
Worcester, 31 U.S. at 552, 555 (“Th[e] relation [between
the United States and the tribes] was that of a nation
claiming and receiving the protection of one more
powerful: not that of individuals abandoning their
national character, and submitting as subjects to the
laws of a master ... Protection does not imply the
destruction of the protected.”). Of course, the Indian
Nations were originally self-governing sovereigns and
independent from any outside rulers. See McClanahan
v. State Tax Comm’n of Az., 411 U.S. 164, 172, 93 S. Ct.
1257, 36 L. Ed. 2d 129 (1973). But vested with plenary
authority over Indian affairs, the federal government
from its founding asserted a degree of ultimate
sovereignty over the tribes. See Ablavsky, Beyond the
Indian Commerce Clause, supra at 1012. In particular,
the United States insisted that it had the authority
under the law of nations to control the tribes’ external
relations with other sovereigns. See FLETCHER,
FEDERAL INDIAN LAW, supra § 5.2. Under the same law
of nations, then, the United States naturally assumed a
duty of protection to the tribes. See id. And as the nation
expanded westward, an increasing number of Indian
nations, whether through treaty or military conquest,
fell under the authority of the United States and

31a
therefore under its duty of protection. COHEN’S, supra
§ 1.03.
In addition to demonstrating the early federal
government’s view that it held exclusive plenary power
over Indian affairs, the First Congress’s enactment of
the Indian Intercourse Act reveals that the young nation
understood itself to owe a special duty of protection to
the Indian tribes within its borders. Act of July 22, 1790,
1 Cong. ch. 33, 1 Stat. 137. The legislation sought to
prevent abuses against Indians by non-Indians and
states. Specifically, it permitted only federal agents to
purchase Indian lands and provided for criminal
sanctions for offenses by non-Indians against Indians.
See COHEN’S, supra § 1.03. Federal legislation
protective of Indians was crucial because, as the Court
later explained, the tribes “owe no allegiance to the
states, and receive from them no protection. Because of
the local ill feeling, the people of the states where they
are found are often their deadliest enemies.” United
States v. Kagama, 118 U.S. 375, 384, 6 S. Ct. 1109, 30 L.
Ed. 228 (1886).
The
government’s
acknowledgement
and
assumption of a special duty of protection is further
reflected in countless treaties between the United
States and the tribes. See, e.g., Worcester, 31 U.S. at 519
(noting that the United States “assum[ed] the duty of
protection” toward the Cherokee Nation under the
Treaty of Holston, July 2, 1791, 7 Stat. 39, 40). Like the
Indian Intercourse Act, these treaties committed the
government to protecting the tribes from a sometimeshostile non-Indian populace. See, e.g., Treaty with the
Northern Cheyenne and Northern Arapahoe, art. I, May

32a
10, 1868, 15 Stat. 655, 655 (“If bad men among the whites,
or among other people subject to the authority of the
United States, shall commit any wrong upon the person
or property of the Indians, the United States will ...
cause the offender to be arrested and punished
according to the laws of the United States, and also
reimburse the injured person for the loss sustained.”);
see also Mary Christina Wood, Indian Land and the
Promise of Native Sovereignty: The Trust Doctrine
Revisited, 1994 UTAH L. REV. 1471, 1496-97 (1994). The
Supreme Court itself has repeatedly recognized the duty
of protection the treaties memorialized. See, e.g.,
Kagama, 118 U.S. at 384, 6 S. Ct. 1109 (“From the[
tribes’] very weakness and helplessness, so largely due
to the course of dealing of the federal government with
them, and the treaties in which it has been promised,
there arises the duty of protection, and with it the
power.”); Worcester, 31 U.S. at 519.
Regrettably, the federal government’s involvement
in Indian affairs has also often been far from benign.
During the late nineteenth to early twentieth centuries,
Congress interfered in internal tribal affairs and
property interests extensively. FLETCHER, FEDERAL
INDIAN LAW, supra § 5.2; see also McGirt, 140 S. Ct. at
2463 (discussing Congress’s policy in the late 1800’s of
“pressur[ing] many tribes to abandon their communal
lifestyles and parcel their land into smaller lots owned
by individual tribe members,” in order to assimilate
Native Americans and give white settlers “more space
of their own” (citing General Allotment Act of 1887, ch.
119, 24 Stat. 388-90)). The Court, however, held that
such congressional enactments—even when they

33a
resulted in takings of tribal property—were immune
from judicial review as long as Congress acted in “good
faith.” Lone Wolf v. Hitchcock, 187 U.S. 553, 565-66, 23
S. Ct. 216, 47 L. Ed. 299 (1903)). In taking a hands-off,
deferential approach to Congress’s management of
Indian affairs, the Court analogized the federal-tribal
relationship as akin to that of a guardian to its ward. See,
e.g., id. at 565, 23 S. Ct. 216 (stating that “Congress
possess[es] paramount power over the property of the
Indians, by reason of its exercise of guardianship over
their interests”); Kagama, 118 U.S. at 384, 6 S. Ct. 1109
(“These Indian tribes are the wards of the nation. They
are communities dependent on the United States[.]”).
Though intended to suggest that the government played
a salutary role in tribal affairs, the guardianship
metaphor instead underscores a prevailing view of
Indians—both wrongheaded and deeply repugnant—as
primitive people, “untutored and improvident, and still
requiring the protection and supervision of the general
government.” Heckman v. United States, 224 U.S. 413,
417, 32 S. Ct. 424, 56 L. Ed. 820 (1912); see also, e.g.,
Beecher v. Wetherby, 95 U.S. 517, 525, 24 L. Ed. 440
(1877) (describing the Indians as “an ignorant and
dependent race” subject to the “control [of] a Christian
people”).
In 1934, Congress began a “slow retreat” from this
problematic guardianship model when it enacted the
Indian Reorganization Act. FLETCHER, FEDERAL
INDIAN LAW, supra § 5.2 (citing Act of June 18, 1934, 48
Stat. 984, codified as amended at 25 U.S.C. §§ 5101 et
seq.). The Act, for the first time in the history of the
government’s intervention in Indian affairs, required

34a
tribal consent to the statute’s operative provisions. 25
U.S.C. § 5123(a)(1). This trend continued into the latter
half of the twentieth century, and the guardianship
metaphor has now given way completely, with Congress
and the modern Court both explicitly acknowledging
that the government’s relationship with and obligations
to the tribes is instead that of a trustee to a beneficiary.
See, e.g., 25 U.S.C. §§ 5601–02 (recognizing and
reaffirming the federal trust responsibility); 25 U.S.C.
§ 3101 (finding that “the United States has a trust
responsibility toward Indian forest lands”); United
States v. Mitchell, 463 U.S. 206, 225, 103 S. Ct. 2961, 77
L. Ed. 2d 580 (1983) (affirming the “undisputed
existence of a general trust relationship between the
United States and the Indian people”); see also
FLETCHER, FEDERAL INDIAN LAW, supra § 5.2. Rather
than reflecting and justifying a paternalistic approach
that subordinated tribal sovereignty—as the
guardianship model did—the trust relationship commits
the federal government to preserving tribal selfgovernance.6 It also obligates and authorizes Congress
6

This duty to maintain tribal self-governance is embodied in the
congressional statement of policy in the Indian Self-Determination
and Education Assistance Act of 1975:
The Congress declares its commitment to the
maintenance of the Federal Government’s unique and
continuing relationship with, and responsibility to,
individual Indian tribes and to the Indian people as a
whole through the establishment of a meaningful Indian
self-determination policy that will permit an orderly
transition from the Federal domination of programs for,
and services to, Indians to effective and meaningful
participation by the Indian people in the planning,
conduct, and administration of those programs and

35a
to enact statutes that promote the general well-being of
tribes by providing them with governmental services,
including education, health care, housing, and public
safety. FLETCHER, FEDERAL INDIAN LAW, supra § 5.3;
see also Seminole Nation v. United States, 316 U.S. 286,
62 S. Ct. 1049, 86 L. Ed. 1480, 86 L. Ed. 1777 (1942)
(imposing “the most exacting fiduciary standards” on
the government in administering tribal assets). In fact,
“[n]early every piece of modern legislation dealing with
Indian tribes contains a statement reaffirming the trust
relationship between tribes and the federal
government.”7 COHEN’S, supra § 5.04.

services. In accordance with this policy, the United States
is committed to supporting and assisting Indian tribes in
the development of strong and stable governments,
capable of administering quality programs and developing
the economies of their respective communities.
25 U.S.C. § 5301.
7

See, e.g., Indian Trust Asset Reform Act, 25 U.S.C. §§ 5601–5602
(recognizing and reaffirming the federal trust responsibility);
National Indian Forest Resources Management Act, 25 U.S.C.
§ 3101 (finding that “the United States has a trust responsibility
toward forest lands”); American Indian Agricultural Resources
Management Act, 25 U.S.C. § 3701 (finding that “the United States
has a trust responsibility to protect, conserve, utilize, and manage
Indian agricultural lands consistent with its fiduciary obligation and
its unique relationship with Indian tribes”); American Indian Trust
Fund Management Reform Act of 1994, 25 U.S.C. § 4043 (Special
Trustee for American Indians must prepare comprehensive
strategic plan to “ensure proper and efficient discharge of the
Secretary’s trust responsibilities to Indian tribes and individual
Indians”); Native American Housing Assistance and SelfDetermination Act, 25 U.S.C. § 4101(2)–(4) (“[T]here exists a unique
relationship between the Government of the United States and the

36a
In short, the present-day trust relationship between
the United States and Indian nations is an outgrowth of
a complex, centuries-old nation-to-nation political
relationship between the two, and it expresses both the
enduring obligations the federal government owes to the
Indians and its power to discharge this duty.
III. Federal Regulation of Indian Children Before
ICWA
Even before the dawn of the American nation,
Congress had concerned itself with the rearing of Indian
youths. As JUDGE COSTA relates, in 1775 the Continental
Congress appropriated funds ostensibly to educate
Indians at Dartmouth College but with the ulterior aim
of using the Indian pupils as shields to ward off potential
attacks by the British or their Indian allies. See COSTA,
CIRCUIT JUDGE, OP. at 15. In the earliest years of the
Constitutional era, the federal government took a
number of actions to regulate Indian children. For
example, starting in 1794, the federal government
entered into over one hundred treaties with Indian
tribes that obligated the federal government to provide
for Indian education. And stemming from a misguided
paternalistic stance toward the tribes, President
Washington directed American treaty commissioners
dealing with Indian tribes to “endeavor to obtain a
stipulation for certain missionaries ... to reside in the

governments of Indian tribes and a unique Federal responsibility to
Indian people[.]”); 20 U.S.C. § 7401 (“It is the policy of the United
States to fulfill the Federal Government’s unique and continuing
trust relationship with and responsibility to the Indian people for
the education of Indian children.”).

37a
nation” in order to “civilize” the population. Matthew
L.M. FLETCHER & Wenona T. Singel, Indian Children
and the Federal-Tribal Trust Relationship, 95 NEB. L.
REV. 885, 912 (2017) (quoting Letter from George
Washington, President of the United States, to
Benjamin Lincoln, Cyrus Griffin, and David Humphreys,
(August 29, 1789), reprinted in 4 AMERICAN STATE
PAPERS 65, 66 (Walter Lowrie & Matthew St. Clair
Clarke eds., 1832)).
During the late eighteen century the federal
government even expressly involved itself in the
transfer of American Indian children from their families
and tribal communities to non-native homes. FLETCHER,
FEDERAL INDIAN LAW, supra § 3.6. Under the
Washington Administration, for instance, federal
monies financed the rearing of Indian children in Quaker
homes. Br. of Prof. Ablavsky at 20. Though springing
from an intention to do good, like much of the
government’s past Indian policy, the Indian removal
efforts wrought monumental and lasting damage on the
lives of individual Indians and tribes. See FLETCHER,
FEDERAL INDIAN LAW, supra § 3.6.
The campaign to “Christianize” the supposedly
heathen Native peoples greatly expanded in the late
nineteenth century, with the removal of Indian children
constituting the single most important aspect of the
government’s “civilization” policy. See FLETCHER,
FEDERAL INDIAN LAW, supra § 3.6. Government
officials took Indian children from their homes and tribal
lands, at times by force, and enrolled them at coercive,
off-reservation Indian boarding schools. Id. These
federally run or financed schools sought to stamp out all

38a
vestiges of Indian culture. As the Commissioner of
Indian Affairs wrote in 1896, the purportedly
humanitarian course was “for the strong arm of the
nation to reach out, take [Indian children] in their
infancy and place them in its fostering schools,
surrounding them with an atmosphere of civilization, ...
instead of allowing them to grow up as barbarians and
savages.” T.J. Morgan, A Plea for the Papoose, 18
Baptist Home Mission Monthly 402, 404 (1896). The
headmaster of the notorious Carlisle School explained
the policy even more bluntly in his infamous credo,
stating that the schools were meant to take an Indian
child and “Kill the Indian in him, to save the man.”
FLETCHER, FEDERAL INDIAN LAW, supra § 3.6 (quoting
Richard H. Pratt, THE ADVANTAGES OF MINGLING
INDIANS WITH WHITES (1892), reprinted in
AMERICANIZING THE AMERICAN INDIANS: WRITINGS BY
THE “FRIENDS OF THE INDIAN” 1880–1900 260–61
(Francis Paul Prucha ed. 1973)).
Although the total number of children enrolled in
the boarding schools is unknown, in 1895 alone 157
boarding schools housed more than 15,000 Indian
children. Andrea C. Curcio, Civil Claims for Uncivilized
Acts: Filing Suit Against the Government for American
Indian Boarding School Abuses, 4 HASTINGS RACE &
POVERTY L.J. 45, 57 (2006). Many were run directly by
the Bureau of Indian Affairs (“BIA”). Others were
operated by Christian groups that received federal
funds. Schooling was left to Christian groups because
Christianity, and particularly Protestantism, was seen,
at the time, as essential to a “civilized” life. See
FLETCHER, FEDERAL INDIAN LAW, supra § 3.6. The

39a
government thus hoped to eradicate the American
Indians’ native religions by converting young Indians to
Christianity.
The use of government-backed force was central to
the creation of these boarding schools. “Indian parents
who opposed the taking of their children to these schools
faced criminal prosecution and possible incarceration.”
Id. Children were “literally kidnap[ped]” so they could
be shipped off to the Indian schools. For example, one
federal agent described hunting down Hopi “Indian
children who had escaped to caves or cellars, sometimes
defended by their parents, who would have to be
restrained by force to prevent the kidnapping of their
children.” Id.
Life at the schools themselves was pervaded by a
strict regimen of military-style discipline meant to
reform Indian children and assimilate them into Anglo
society. Id. Children were forbidden to speak their
native languages and were punished, including through
beatings, if they lapsed into their native tongues.
COHEN’S, supra § 1.04. And the goal of permanently
severing Indian children’s connections with tribal life did
not stop at the end of the school year. Under an “outing
system,” Indian children were placed in non-Indian
homes far from their reservations during the summer,
ensuring that they never returned to their communities
during their tenure at the boarding schools. FLETCHER,
FEDERAL INDIAN LAW, supra § 3.6.
In 1928, a devastating federally commissioned
report produced by the Brookings Institution laid bare
the problems in Indian boarding schools, concluding that
they were “grossly inadequate.” See Lewis Meriam, THE

40a
PROBLEM OF INDIAN ADMINISTRATION 11 (1928). The
report detailed life at the schools, citing “deplorable
health conditions,” including fire risks, “serious
malnutrition, and high-rates of communicable diseases.”
Id. at 192, 318-19. More generally, the report observed
that the “official government attitude” toward Indian
education had been premised “on the theory that it is
necessary to remove the Indian child[ren] as far as
possible from [their] environment” so as to prepare them
for “life among the whites.” Id. at 346, 618. This way of
thinking, the report explained, was fundamentally
flawed and at odds with the “modern point of view in
education,” which favored rearing the child “in the
natural setting of home and family life.” Id. at 346. The
result of the government’s boarding school policy had
been to “largely disintegrate[ ] the [Indian] family.” Id.
at 15.
By the time of the report, Indian boarding schools
had begun to decline as the BIA charged state public
schools with assuming more responsibility for Indian
education. COHEN’S, supra § 1.04. But the boarding
schools did not vanish; as late as the 1970s, thousands of
Indian children were still being educated at federal
boarding schools. See Indian Child Welfare Act of 1977:
Hearing on S. 1214 Before the Select Comm. on Indian
Affairs, 95th Cong. 603 (1977).
In establishing Indian schools, “the intent of
American policymakers and educators may not have
been to harm Indian people,” but the “end result was the
near-destruction of tribal culture and religion across the
United States.” FLETCHER, FEDERAL INDIAN LAW,
supra § 3.6. The federal government itself has

41a
acknowledged its tragic role in decimating Indian tribes
and families by separating them from their children. In
2000, the Assistant Secretary of the BIA offered a
formal apology to the Indian tribes:
[The BIA] set out to destroy all things Indian.
This agency forbade the speaking of Indian
languages, prohibited the conduct of traditional
religious activities, outlawed traditional
government, and made Indian people ashamed
of who they were. Worst of all, the [BIA]
committed these acts against the children
entrusted to its boarding schools, brutalizing
them emotionally, psychologically, physically,
and spiritually ... Never again will we seize your
children, nor teach them to be ashamed of who
they are. Never again.
146 CONG. REC. E1453 (Sept. 12, 2000) (quoting apology
of Assistant Secretary for Indian Affairs, Department of
the Interior remarks on Sept. 8, 2000).
IV. State Abuses Leading to ICWA
Though federal Indian boarding schools eventually
declined, massive numbers of Indian children continued
to be permanently removed from their families, tribes,
and cultures through the 1970s. Replacing offreservation boarding schools, state courts and child
welfare agencies became the primary vehicle for
severing Indian youth—the lifeblood of tribes—from
their communities. See COHEN’S, supra § 11.02. Surveys
of states with large Indian populations during the 1960s
and 1970s showed that between twenty-five to thirtyfive percent of all Indian children were removed from

42a
their families. See Indian Child Welfare Program:
Hearings before the Subcommittee on Indian Affairs of
the Senate Committee on Interior and Insular Affairs,
93rd CONG. REC. 3 (April 8–9, 1974) (statement of
William Byler, Executive Director, Association of
American Indian Affairs); H.R. REP. No. 95-1386, at 9
(1978). “In 16 states surveyed in 1969, approximately
85% percent of all Indian children in foster care were
living in non-Indian homes,” while in Minnesota in the
early 1970s “90 percent of the adopted Indian children
[were] in non-Indian homes.” H.R. REP. No. 95-1386, at
9 (1978); see also Indian Child Welfare Program:
Hearings before the Subcommittee on Indian Affairs of
the Senate Committee on Interior and Insular Affairs,
93rd CONG. REC. 5 (April 8–9, 1974) (statement of
William Byler, Executive Director, Association of
American Indian Affairs); Miss. Band of Choctaw
Indians v. Holyfield, 490 U.S. 30, 32, 109 S. Ct. 1597, 104
L. Ed. 2d 29 (1989); COHEN’S, supra § 11.01. And in
jurisdictions with significant Indian populations, Indian
children were uprooted by states’ child welfare
machinery at rates far exceeding those for non-Indians.
See Indian Child Welfare Act of 1977: Hearing on S.
1214 Before the Select Comm. on Indian Affairs, 95th
Cong. 539-40 (1977). For example, in North Dakota and
South Dakota, Indian children were over twenty times
as likely to be placed in foster care than non-Indians. Id.
at 540. In Minnesota, Maine, and Utah, the relative
foster care rate for Indian children was, respectively,
nineteen, sixteen, and fifteen times greater than that for
non-Indians. Id. at 540. And in Washington, the
combined rate of foster care and adoptive placements for

43a
Indian children in 1973 was nearly fourteen times
greater than that of non-Indians. Id. at 599.
This nationwide crisis aroused the attention and
indignation of Congress in the mid-1970s. Over the
course of four years, Congress held hearings on,
deliberated on, and debated how to remedy the problem.
FLETCHER, FEDERAL INDIAN LAW, supra § 8.8.
Congress heard “testimony taken from Indian Country
... that many state and county social service agencies and
workers, with the approval and backing of many state
courts and some federal B[IA] officials, had engaged in
the systematic, automatic, and across-the-board removal
of Indian children from Indian families and into nonIndian families and communities.” Id.
State officials attempted to justify these large-scale
removals by invoking Anglo norms that favored rearing
children within a nuclear family structure. See Holyfield,
490 U.S. at 35-36, 109 S. Ct. 1597 (quoting 25 U.S.C.
§ 1901). This approach often reflected the officials’
profound ignorance of or hostility to tribes’ traditional
values and community-oriented approach to child
raising. In Indian communities, for example, it is
common for extended family to play key roles in raising
Indian children. See JACOBS, A GENERATION REMOVED,
supra at 24-25; see also Supreme Court Br. of Indian
Law Professors in Adoptive Couple v. Baby Girl, No. 12–
399, at 5. Non-Indian child welfare agents, however,
interpreted this practice of extended family care as
parental neglect and cited it as a reason for removing
Indian children from their parents and putting them up
for adoption. See Supreme Court Br. of Indian Law
Professors in Adoptive Couple v. Baby Girl, No. 12–399.

44a
In total, this and similar uninformed and abusive
practices resulted in the removal, as noted, of over a
quarter of all Indian children from their homes in states
with large Indian populations. See H.R. REP. No. 951386, at 9 (1978). Thus, even though the widespread
transfer of Indian children to non-Indians may not have
been specifically intended as an assimilation project, it
nonetheless had that effect.
The mass removal of Indian children had profoundly
adverse effects on the children themselves, who suffered
trauma from being separated from their families and
“problems of adjusting to a social and cultural
environment much different than their own.” Id.; see
also Indian Child Welfare Act of 1977: Hearing Before
the S. Select Committee on Indian Affs., 95th Cong. 114
(1977) (statement of Carl E. Mindell, M.D., & Alan
Gurwitt, M.D., American Academy of Child Psychiatry)
(stating that “[t]here is much clinical evidence to suggest
that these Native American children placed in offreservation non-Indian homes are at risk in their later
development” and that “they are subject to ethnic
confusion and a pervasive sense of abandonment”).
Indian parents suffered greatly, too, of course. The evil
of mass removal, however, was systemic, threatening
not only children and families but the tribes themselves.
As Calvin Isaac, the Chief of the Mississippi Band of
Choctaw Indians, explained to Congress, the aggregate
effect of the removal of Indian children threatened the
tribes’ existence:
Culturally, the chances of Indian survival are
significantly reduced if our children, the only
real means for the transmission of the tribal

45a
heritage, are to be raised in non-Indian homes
and denied exposure to the ways of their People.
Furthermore,
these
practices
seriously
undercut the tribes’ ability to continue as selfgoverning communities. Probably in no area is it
more important that tribal sovereignty be
respected than in an area as socially and
culturally determinative as family relationships.
Holyfield, 490 U.S. at 34, 109 S. Ct. 1597.8
V. Congress’s Findings and Aims in Enacting ICWA
In view of the alarming abuses perpetrated through
state Indian child custody proceedings, Congress
enacted ICWA in 1978. Recognizing that a “special
relationship” exists between the United States and
Indian tribes, Congress made the following findings:
Congress has plenary power over Indian affairs.
25 U.S.C. § 1901(1) (citing U.S. CONST. art. I, § 8,
cl. 3 (“The Congress shall have Power ... To
regulate Commerce ... with the Indian
Tribes.”)).

8

As the Supreme Court noted in Holyfield, 490 U.S. at 34 n.3, 109
S. Ct. 1597, “[t]hese sentiments were shared by the ICWA’s
principal sponsor in the House, Rep. Morris Udall,” see 124 CONG.
REC. 38102 (1978) (“Indian tribes and Indian people are being
drained of their children and, as a result, their future as a tribe and
a people is being placed in jeopardy”), and its minority sponsor, Rep.
Robert Lagomarsino, id. (“This bill is directed at conditions which
... threaten ... the future of American Indian tribes [.]” (cleaned up)).

46a
“[T]here is no resource that is more vital to the
continued existence and integrity of Indian
tribes than their children.” Id. § 1901(3).
“[A]n alarmingly high percentage of Indian
families are broken up by the removal, often
unwarranted, of their children from them by
nontribal public and private agencies and ... an
alarmingly high percentage of such children are
placed in non-Indian foster and adoptive homes
and institutions.” Id. § 1901(4).
“States exercising their recognized jurisdiction
over Indian child custody proceedings through
administrative and judicial bodies, have often
failed to recognize the essential tribal relations
of Indian people and the cultural and social
standards prevailing in Indian communities and
families.” Id. § 1901(5).
Based on its findings, Congress declared that it was the
policy of the United States
to protect the best interests of Indian children
and to promote the stability and security of
Indian tribes and families by the establishment
of minimum Federal standards for the removal
of Indian children from their families and the
placement of such children in foster or adoptive
homes which will reflect the unique values of
Indian culture, and by providing for assistance
to Indian tribes in the operation of child and
family service programs.
Id. § 1902.

47a
VI. ICWA’s Provisions
ICWA’s substantive and procedural safeguards
apply in any child custody proceeding involving an
“Indian child,” defined as “any unmarried person who is
under age eighteen and is either (a) a member of an
Indian tribe or (b) is eligible for membership in an Indian
tribe and is the biological child of a member of an Indian
tribe.” Id. § 1903(4). In proceedings for the foster care
placement or termination of parental rights, ICWA
gives “the Indian custodian of the child and the Indian
child’s tribe ... a right to intervene at any point in the
proceeding.” Id. § 1911(c). “In any involuntary
proceeding ... where the court knows or has reason to
know that an Indian child is involved,” ICWA requires
that the parent, the Indian custodian, the child’s tribe, or
the Secretary of the United States Department of the
Interior (“Secretary” or “Secretary of the Interior”) be
notified of pending proceedings and of their right to
intervene. Id. § 1912(a). In voluntary proceedings for the
termination of parental rights or adoptive placement of
an Indian child, ICWA ensures that the parent can
withdraw consent for any reason prior to entry of a final
decree of adoption or termination, at which point the
child must be returned to the parent. Id. § 1913(c). If
consent was obtained through fraud or duress, a parent
may petition to withdraw consent within two years after
the final decree of adoption and, upon a showing of fraud
or duress, the court must vacate the decree and return
the child to the parent. Id. § 1913(d). An Indian child, a
parent or Indian custodian from whose custody the child
was removed, or the child’s tribe may file a petition in
any court of competent jurisdiction to invalidate an

48a
action in state court for foster care placement or
termination of parental rights if the action violated any
provision of §§ 1911 to 1913. Id. § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings
involving Indian children. Section 1915 requires:
In any adoptive placement of an Indian child
under State law, a preference shall be given, in
the absence of good cause to the contrary, to a
placement with (1) a member of the child’s
extended family; (2) other members of the
Indian child’s tribe; or (3) other Indian families.
Id. § 1915(a). Similar requirements are set for foster care
or preadoptive placements. Id. § 1915(b). If a tribe
establishes by resolution a different order of
preferences, the state court or agency effecting the
placement “shall follow [the tribe’s] order so long as the
placement is the least restrictive setting appropriate to
the particular needs of the child.” Id. § 1915(c).
The state in which an Indian child’s placement was
made shall maintain records of the placement, which
shall be made available at any time upon request by the
Secretary or the child’s tribe. Id. § 1915(e). An Indian
adoptee who attains the age of majority may request
that the court which entered the adoption order provide
her with information “as may be necessary to protect
any rights flowing from the ... tribal relationship.” Id.
§ 1917. And a state court entering a final decree in an
adoptive placement “shall provide the Secretary with a
copy of such decree or order” and information as
necessary regarding “(1) the name and tribal affiliation

49a
of the child; (2) the names and addresses of the biological
parents; (3) the names and addresses of the adoptive
parents; and (4) the identity of any agency having files
or information relating to such adoptive placement.” Id.
§ 1951(a). ICWA’s severability clause provides that “[i]f
any provision of this chapter or the applicability thereof
is held invalid, the remaining provisions of this chapter
shall not be affected thereby.” Id. § 1963.
VII. The Final Rule
ICWA provides that “the Secretary [of the Interior]
shall promulgate such rules and regulations as may be
necessary to carry out [its] provisions.” 25 U.S.C. § 1952.
In 1979, the BIA promulgated guidelines (the “1979
Guidelines”) intended to assist state courts in
implementing ICWA but that lacked “binding legislative
effect.” Guidelines for State Courts; Indian Child
Custody Proceedings, 44 Fed. Reg. 67,584, 67,584 (Nov.
26, 1979). The 1979 Guidelines left the “[p]rimary
responsibility” of interpreting certain language in
ICWA “with the [state] courts that decide Indian child
custody cases.” Id. However, in June 2016, the BIA
promulgated the Final Rule to “clarify the minimum
Federal standards governing implementation of
[ICWA]” and to ensure that it “is applied in all States
consistent with the Act’s express language, Congress’s
intent in enacting the statute, and to promote the
stability and security of Indian tribes and families.” 25
C.F.R. § 23.101; Indian Child Welfare Act Proceedings,
81 Fed. Reg. 38,778, 38,868 (June 14, 2016). The Final
Rule explained that while the BIA “initially hoped that
binding regulations would not be necessary to carry out
[ICWA], a third of a century of experience has confirmed

50a
the need for more uniformity in the interpretation and
application of this important Federal law.” 81 Fed. Reg.
at 38,782 (internal citation and quotation marks
omitted).
The Final Rule provides that state courts have the
responsibility of determining whether a child is an
“Indian child” subject to ICWA’s requirements. 25
C.F.R. §§ 23.107; 81 Fed. Reg. at 38,778, 38,869-73. The
Final Rule also sets forth notice and recordkeeping
requirements for states, see 25 C.F.R. §§ 23.140-41; 81
Fed. Reg. at 38,778, 38,875-76, and requirements for
states and individuals regarding voluntary proceedings
and parental withdrawal of consent, see 25 C.F.R.
§§ 23.124-28; 81 Fed. Reg. at 38,778, 38,873-74. The Final
Rule also restates ICWA’s placement preferences and
clarifies when they apply and when states may depart
from them. See 25 C.F.R. §§ 23.129-32; 81 Fed. Reg. at
38,778, 38,874-75.
VIII. The Instant Action
A. Parties
1.

Plaintiffs

Plaintiffs in this action are the states of Texas,
Louisiana, and Indiana,9 (collectively, “State Plaintiffs”),
and seven individual Plaintiffs—Chad and Jennifer
9

There are three federally recognized tribes in Texas: the Ysleta
del Sur Pueblo, the Kickapoo Tribe, and the Alabama-Coushatta
Tribe. There are four federally recognized tribes in Louisiana: the
Chitimacha Tribe, the Coushatta Tribe, the Tunica-Biloxi Tribe, and
the Jena Band of Choctaw Indians. There is one federally
recognized tribe in Indiana: the Pokagon Band of Potawatomi
Indians.

51a
Brackeen (“the Brackeens”), Nick and Heather Libretti
(“the Librettis”), Altagracia Socorro Hernandez
(“Hernandez”), and Jason and Danielle Clifford (“the
Cliffords”)
(collectively,
“Individual
Plaintiffs”)
(together with State Plaintiffs, “Plaintiffs”).
a.

The Brackeens & A.L.M.

At the time their initial complaint was filed in the
district court, the Brackeens sought to adopt A.L.M.,
who falls within ICWA’s definition of an “Indian Child.”
His biological mother is an enrolled member of the
Navajo Nation and his biological father is an enrolled
member of the Cherokee Nation. When A.L.M. was ten
months old, Texas’s Child Protective Services (“CPS”)
removed him from his paternal grandmother’s custody
and placed him in foster care with the Brackeens. Both
the Navajo Nation and the Cherokee Nation were
notified pursuant to ICWA and the Final Rule. A.L.M.
lived with the Brackeens for more than sixteen months
before they sought to adopt him with the support of his
biological parents and paternal grandmother. In May
2017, a Texas court, in voluntary proceedings,
terminated the parental rights of A.L.M.’s biological
parents, making him eligible for adoption under Texas
law. Shortly thereafter, the Navajo Nation notified the
state court that it had located a potential alternative
placement for A.L.M. with non-relatives in New Mexico,
though this placement ultimately failed to materialize.
In July 2017, the Brackeens filed an original petition for
adoption, and the Cherokee Nation and Navajo Nation
were notified. The Navajo Nation and the Cherokee
Nation reached an agreement whereby the Navajo
Nation was designated as A.L.M.’s tribe for purposes of

52a
ICWA’s application in the state proceedings. No one
intervened in the Texas adoption proceeding or
otherwise formally sought to adopt A.L.M. The
Brackeens entered into a settlement with the Texas
state agency and A.L.M.’s guardian ad litem specifying
that, because no one else sought to adopt A.L.M.,
ICWA’s placement preferences did not apply. In
January 2018, the Brackeens successfully petitioned to
adopt A.L.M. The Brackeens initially alleged in their
complaint that they would like to continue to provide
foster care for and possibly adopt additional children in
need, but their experience adopting A.L.M. made them
reluctant to provide foster care for other Indian children
in the future. Since their complaint was filed, the
Brackeens have sought to adopt A.L.M.’s sister, Y.R.J.
in Texas state court. Y.R.J., like her brother, is an Indian
Child for purposes of ICWA. The Navajo Nation
contests the adoption. On February 2, 2019, the Texas
court granted the Brackeens’ motion to declare ICWA
inapplicable as a violation of the Texas constitution, but
“conscientiously refrain[ed]” from ruling on the
Brackeens’ claims under the United States Constitution
pending our resolution of the instant appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby O.
for adoption at her birth, though Hernandez has
continued to be a part of Baby O.’s life and she and the
Librettis visit each other regularly. Baby O.’s biological
father, E.R.G., descends from members of the Ysleta del
sur Pueblo Tribe (the “Pueblo Tribe”), located in El

53a
Paso, Texas, and was a registered member of that tribe
at the time Baby O. was born. The Pueblo Tribe
intervened in the Nevada custody proceedings seeking
to remove Baby O. from the Librettis. Once the Librettis
joined the challenge to the constitutionality of ICWA
and the Final Rule, the Pueblo Tribe indicated that it
was willing to settle. The Librettis agreed to a
settlement with the Pueblo Tribe that would permit
them to petition for adoption of Baby O. The Pueblo
Tribe agreed not to contest the Librettis’ adoption of
Baby O., and on December 19, 2018, the Nevada state
court issued a decree of adoption, declaring that the
Librettis were Baby O.’s lawful parents. Like the
Brackeens, the Librettis alleged that they intend to
provide foster care for and possibly adopt additional
children in need but are reluctant to foster Indian
children after this experience.
c.

The Cliffords & Child P.

The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the White
Earth Band for purposes of ICWA’s application in the
Minnesota state court proceedings. Pursuant to § 1915’s
placement preferences, county officials removed Child
P. from the Cliffords’ custody and, in January 2018,
placed her in the care of her maternal grandmother,
whose foster license had been revoked. Child P.’s
guardian ad litem supports the Cliffords’ efforts to adopt
her and agrees that the adoption is in Child P.’s best
interest. The Cliffords and Child P. remain separated,
and the Cliffords face heightened legal barriers to

54a
adopting her. On January 17, 2019, the Minnesota court
denied the Cliffords’ motion for adoptive placement.
2.

Defendants

Defendants are the United States of America; the
United States Department of the Interior and its
Secretary Deb Haaland, in her official capacity; the BIA
and its Director Darryl La Counte, in his official
capacity; and the Department of Health and Human
Services and its Secretary Xavier Becerra, in his official
capacity (collectively, the “Federal Defendants”).
Shortly after this case was filed in the district court, the
Cherokee Nation, Oneida Nation, Quinalt Indian Nation,
and Morongo Band of Mission Indians (collectively, the
“Tribal Defendants”) moved to intervene, and the
district court granted the motion. On appeal, we granted
the Navajo Nation’s motion to intervene as a defendant10
(together with Federal and Tribal Defendants,
“Defendants”).
B. Procedural History
Plaintiffs filed the instant action against the Federal
Defendants in October 2017, alleging that the Final Rule
and certain provisions of ICWA are unconstitutional and
seeking injunctive and declaratory relief. Plaintiffs
10

The Navajo Nation had previously moved to intervene twice in
the district court. The first motion was for the limited purpose of
seeking dismissal pursuant to Rule 19, which the district court
denied. The Navajo Nation filed a second motion to intervene for
purposes of appeal after the district court’s summary judgment
order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation filed
the motion directly with this court.

55a
argued that ICWA and the Final Rule violate equal
protection and substantive due process under the Fifth
Amendment and the anticommandeering doctrine that
arises from the Tenth Amendment. Plaintiffs
additionally sought a declaration that provisions of
ICWA and the Final Rule violate the nondelegation
doctrine and the APA. Defendants moved to dismiss,
alleging that Plaintiffs lacked standing. The district
court denied the motion. All parties filed cross-motions
for summary judgment. The district court granted
Plaintiffs’ motion for summary judgment in part,
declaring that ICWA and the Final Rule violated equal
protection, the Tenth Amendment, and the
nondelegation doctrine, and that the challenged portions
of the Final Rule were invalid under the APA.11
Defendants appealed. A panel of this court affirmed in
part the district court’s rulings on standing but reversed
and rendered judgment on the merits, with one judge
concurring in part and dissenting in part. The court then
granted en banc review. In total, fourteen amicus briefs
have been filed in this case.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. See Texas v. United States, 497 F.3d
491, 495 (5th Cir. 2007). Summary judgment is
appropriate when the movant has demonstrated “that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). A genuine dispute of material fact
11

The district court denied Plaintiffs’ substantive due process claim,
which Plaintiffs do not appeal.

56a
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106
S. Ct. 2505, 91 L. Ed. 2d 202 (1986).
DISCUSSION
I.

Article III Standing

Defendants first contend that Plaintiffs lack
standing to challenge ICWA and the Final Rule. The
district court denied Defendants’ motion to dismiss on
this basis, concluding that Individual Plaintiffs have
standing to bring an equal protection claim; State
Plaintiffs have standing to challenge provisions of ICWA
and the Final Rule on the ground that they violate the
Tenth Amendment and the nondelegation doctrine; and
all Plaintiffs have standing to bring an APA claim
challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635 (2016) (citing U.S.
CONST. art. III, § 2). “Standing to sue is a doctrine rooted
in the traditional understanding of a case or
controversy.” Id. To meet the Article III standing
requirement, plaintiffs must demonstrate (1) “an injury
in fact” that is (2) “fairly traceable to the challenged
action of the defendant,” and that is (3) likely to be
“redressed by a favorable decision.” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560-61, 112 S. Ct. 2130, 119 L. Ed.
2d 351 (1992) (internal quotation marks, citations, and
alterations omitted). A plaintiff seeking equitable relief
must demonstrate a likelihood of future injury in
addition to past harm. See City of Los Angeles v. Lyons,

57a
461 U.S. 95, 105, 103 S. Ct. 1660, 75 L. Ed. 2d 675 (1983).
This injury must be “concrete and particularized” and
“actual or imminent, not conjectural or hypothetical.”
See Lujan, 504 U.S. at 560, 112 S. Ct. 2130 (internal
quotation marks and citations omitted).
“[S]tanding is not dispensed in gross,” and “a
plaintiff must demonstrate standing for each claim he
seeks to press and for each form of relief that is sought.”
Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650, 198 L. Ed. 2d 64 (2017) (quoting Davis v. Fed.
Election Comm’n, 554 U.S. 724, 734, 128 S. Ct. 2759, 171
L. Ed. 2d 737 (2008)). Nevertheless, “the presence of one
party with standing is sufficient to satisfy Article III’s
case-or-controversy requirement,” and we therefore
need conclude only that one plaintiff in the present case
satisfies standing with respect to each claim. Rumsfeld
v. Forum for Acad. & Institutional Rights, Inc., 547 U.S.
47, 52 n.2, 126 S. Ct. 1297, 164 L. Ed. 2d 156 (2006). “This
court reviews questions of standing de novo.” Nat’l Rifle
Ass’n of Am., Inc. v. McCraw, 719 F.3d 338, 343 (5th Cir.
2013).
A. U.S. Standing to Bring Equal Protection
Claim
Plaintiffs challenged 25 U.S.C. §§ 1913(d), 1914,
1915(a), and 1915(b), and Final Rule § 23.129 to 23.132 on
equal protection grounds, alleging that these provisions
impose regulatory burdens on non-Indian families
seeking to adopt Indian children that are not similarly
imposed on Indian families who seek to adopt Indian
children. The district court concluded that Individual
Plaintiffs suffered and continue to suffer injuries when
their efforts to adopt Indian children are burdened by

58a
ICWA and the Final Rule; that their injuries are fairly
traceable to the actions of Defendants because ICWA
and the Final Rule mandate state compliance; and that
these injuries are redressable because if ICWA and the
Final Rule were invalidated, then state courts would no
longer be required to follow them. Defendants disagree,
arguing that the Individual Plaintiffs cannot
demonstrate an injury in fact or redressability and thus
lack standing to bring an equal protection claim. We will
consider Plaintiffs’ standing to assert challenges to each
of the provisions at issue in turn.
1.

The Challenge to §§ 1913 and 1914

We first conclude that none of the Plaintiffs have
standing to assert an equal protection challenge to
§§ 1913 and 1914. The district court concluded that
§ 1913(d), which allows a parent to petition the court to
vacate a final decree of adoption on the ground that
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years following the final judgment.
Defendants argue that § 1914,12 and not § 1913(d), applies
to the Brackeens’ state court proceedings and that, in
any event, any injury premised on potential future

12

“Any Indian child who is the subject of any action for foster care
placement or termination of parental rights under State law, any
parent or Indian custodian from whose custody such child was
removed, and the Indian child’s tribe may petition any court of
competent jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912, and 1913 of
this title.” 25 U.S.C. § 1914.

59a
collateral attack
speculative.

under

either

provision

is

too

We need not decide which provision applies here, as
none of the Individual Plaintiffs have suffered an injury
under either provision.13 Plaintiffs do not assert that the
biological parents of any Indian child, any tribe, or any
other party are currently seeking or intend in the future
to invalidate the adoption of any of their adopted
children under either provision. Plaintiffs’ proffered
injury under § 1913(d) or § 1914 is therefore too
speculative to support standing. See Lujan, 504 U.S. at
560, 112 S. Ct. 2130; see also Clapper v. Amnesty Int’l
USA, 568 U.S. 398, 409, 414 n.5, 133 S. Ct. 1138, 185 L.
Ed. 2d 264 (2013) (“[T]hreatened injury must be
certainly impending to constitute injury in fact, and ...
allegations of possible future injury are not sufficient. ....
Plaintiffs cannot rely on speculation about the
unfettered choices made by independent actors not
before the court.” (internal quotation marks, citations,
and alterations omitted)).
Plaintiffs and JUDGE DUNCAN cite Time Warner
Cable, Inc. v. Hudson for the proposition that “unequal
positioning” before the law is sufficient to constitute an
injury. 667 F.3d 630 (5th Cir. 2012) (internal quotation
13

State Plaintiffs argue that they have standing to bring an equal
protection challenge in parens patriae on behalf of citizens other
than the Individual Plaintiffs. We disagree. See South Carolina v.
Katzenbach, 383 U.S. 301, 324, 86 S. Ct. 803, 15 L. Ed. 2d 769 (1966)
(“[A] State [does not] have standing as the parent of its citizens to
invoke [the Fifth Amendment Due Process Clause] against the
Federal Government, the ultimate parens patriae of every
American citizen.”).

60a
marks and citation omitted); see DUNCAN, CIRCUIT
JUDGE, OP. at 19-20 & n.30. But that case is inapposite.
In Time Warner, this court considered whether
standing was satisfied when incumbent Texas cable
operators that had franchise agreements to provide
services to municipalities across the state brought an
equal protection challenge to a Texas law that excluded
them from a benefit afforded to other similarly situated
cable operators. 667 F.3d at 633-34. The Texas
legislature had concluded that the cost of negotiating
separate municipal franchise agreements posed a
barrier for new companies seeking to enter the cable
services market. Id. The Texas legislature responded by
passing a law that permitted new entrants to the market
and “overbuilders”—companies that build their own
cable systems in areas already served by a cable
operator—to obtain statewide franchises immediately.
Id. Incumbent cable providers, however, were ineligible
for statewide franchises until after the expiration of
their existing municipal licenses. Id. at 634.
This court concluded that the incumbent operators
had alleged a sufficiently actual or imminent injury
because the statute was presently preventing
incumbent cable providers from competing for the
statewide franchises on equal footing with other market
participants. Id. at 636. The incumbent cable providers
would have been denied statewide licenses under the
law if they had applied for them prior to the expiration
of their existing municipal licenses, and submitting an
application for a state-issued franchise license was
wholly within the incumbent providers’ power. In this
way, the incumbent providers’ claim satisfied Article III

61a
requirements, as the law erected an actual barrier to
companies already providing cable services that
otherwise would be immediately free to seek a statewide
franchise. Id.; see also Northeastern Florida Chapter of
Assoc. Gen. Contractors of America v. City of
Jacksonville, 508 U.S. 656, 666, 113 S. Ct. 2297, 124 L.
Ed. 2d 586 (1993) (in challenging a governmental
program setting aside a certain percentage of contracts
for minority-owned businesses, plaintiff must
“demonstrate that it is able and ready to bid on contracts
and that a discriminatory policy prevents it from doing
so on an equal basis” (emphasis added)).
By contrast, Plaintiffs’ challenges here to §§ 1913(d)
and 1914 rest on the purely theoretical actions of
potential third parties who may (or may not) invoke
these provisions. Cf. Clapper, 568 U.S. at 414 n.5, 133 S.
Ct. 1138. This case is not like Time Warner, but rather
Barber v. Bryant, in which a group of LGBT individuals
and advocacy organizations brought an equal protection
challenge to a Mississippi statute that permitted parties
accused of LGBT discrimination to assert their sincerely
held religious opposition as a defense. 860 F.3d 345, 351
(5th Cir. 2017). This court found that, like in the present
case, the Barber plaintiffs lacked standing to bring their
equal protection challenge because any hypothetical
future injury they would suffer under the statute was
entirely dependent on unknown third-parties choosing
to undertake a course of conduct purportedly authorized
by the statute—there, discrimination against the
plaintiffs. Id. at 357. JUDGE DUNCAN selectively quotes
from Barber to argue that the court based its decision
only on the fact that the plaintiffs had not alleged that

62a
they intended to engage in the activities in relation to
which the Mississippi statute provided a discrimination
defense. DUNCAN, CIRCUIT JUDGE, OP. at 19 n.30. But
the Barber court plainly stated that, “[a]t a minimum,
the challengers would have to allege plans to engage in
[the] conduct in Mississippi for which they would be
subject to a denial of service and would be stripped of a
preexisting remedy for that denial.” Barber, 860 F.3d at
358 (emphasis added). In the absence of allegations that
a third party would take advantage of the statute to act
in a way that would harm the plaintiffs, the plaintiffs
failed to assert the type of imminent injury necessary to
support standing on their equal protection claim.14
In much the same way, the Plaintiffs here allege only
that a third party could come along and challenge their
adoptions under the statute, but they make no
allegations that any party has in fact done so or intends
to do so in the future. In other words, these provisions
have yet to place any Plaintiff on unequal footing. No
harm under the statute has materialized and no certain
injury is imminent, as is required for standing to
challenge the provision. Clapper, 568 U.S. at 409, 133 S.
Ct. 1138. And, to the extent Plaintiffs argue that an
injury arises from their attempts to avoid collateral
attack under § 1914 by complying with §§ 1911 to 1913,
14

The Barber plaintiffs also raised an Establishment Clause
challenge to the statute, a separate issue not presented here and
about which we express no opinion. See Barber, 860 F.3d at 356
(“The Equal Protection and Establishment Clause cases call for
different injury-in-fact analyses because the injuries protected
against under the Clauses are different.” (internal quotations and
citations omitted)).

63a
costs incurred to avoid injury are “insufficient to create
standing” where the injury is not certainly impending.
See id. at 416-17, 133 S. Ct. 1138. Accordingly, Plaintiffs
lack standing to challenge §§ 1913(d) and 1914.
2.

The Remaining Equal Protection Claims

Turning to the Plaintiffs’ remaining claims, we
conclude that the Brackeens have standing to assert an
equal protection claim as to 25 U.S.C. § 1915(a) and Final
Rule §§ 23.129, 23.130, and 23.132, and that the Cliffords
have standing to press this claim as to § 1915(b) and
Final Rule § 23.131. Because at least one Plaintiff has
standing to assert each of these remaining claims, the
“case-or-controversy requirement” is satisfied, and we
do not analyze whether any other Individual Plaintiff
has standing to raise it. See Rumsfeld, 547 U.S. at 52 n.2,
126 S. Ct. 1297.
First, the Brackeens have standing to challenge
§ 1915(a), ICWA’s adoption placement preferences
provision. As Plaintiffs argue, § 1915’s placement
preferences impose on them the ongoing injury of
increased regulatory burdens in their proceedings to
adopt A.L.M.’s sister, Y.R.J., which the Navajo Nation
currently opposes in Texas state court. “An increased
regulatory burden typically satisfies the injury in fact
requirement.” Contender Farms, L.L.P. v. U.S. Dep’t of
Agric., 779 F.3d 258, 266 (5th Cir. 2015). However, we
must also consider whether causation and redressability
are met here. See Lujan, 504 U.S. at 560-61, 112 S. Ct.
2130. The Brackeens’ alleged injury is fairly traceable to
the actions of at least some of the Federal Defendants,
who bear some responsibility for the regulatory burdens
imposed by ICWA and the Final Rule. See Contender

64a
Farms, L.L.P., 779 F.3d at 266 (noting that causation
“flow[s] naturally from” a regulatory injury).
Additionally, the Brackeens have demonstrated a
likelihood that their injury will be redressed by a
favorable ruling of this court. In the Brackeens’ ongoing
proceedings to adopt Y.R.J., the Texas trial court has
indicated that it will refrain from ruling on the
Brackeens’ federal constitutional claims pending a ruling
from this court.15
15

We also conclude that the Brackeens have maintained standing
throughout the course of the litigation. The Brackeen’s initial
complaint, filed in October 2017, alleged that they intended to adopt
A.L.M. In January 2018, the Brackeens completed their adoption of
A.L.M. in state court. In March 2018, they filed a second amended
complaint wherein they alleged that they “intend[ed] to provide
foster care for, and possibly adopt, additional children in need.”
Several months later, in September 2018, the Brackeens undertook
efforts to adopt Y.R.J, and they supplemented the district court
record in October 2018 with exhibits evidencing these efforts. The
injury alleged in the Brackeens’ second amended complaint was
sufficiently imminent to support standing, in part, because the
regulatory burdens they claimed ICWA imposed on their first
adoption constitute “evidence bearing on whether” they faced “a
real and immediate threat of repeated injury.” City of Los Angeles
v. Lyons, 461 U.S. 95, 102, 103 S. Ct. 1660, 75 L. Ed. 2d 675 (1983)
(internal quotation marks omitted). That the Brackeens’ asserted
injury was not too conjectural to support standing is confirmed by
their later attempted adoption of Y.R.J. See Hargrave v. Vermont,
340 F.3d 27, 33-34 (2d Cir. 2003) (plaintiff’s claims that she would be
subject to a state law even though a state court had refused to
enforce the law were not speculative in light of state Supreme
Court’s ruling following the filing of plaintiff’s federal complaint
that the law could go into effect). Further, in this case, promoting
judicial economy counsels in favor of construing the Brackeens’
supplemental filing as correcting any defect in the pleading,
permitting both the court and the parties to “circumvent ‘the

65a
Our esteemed colleague JUDGE COSTA disagrees
that the likelihood that the Texas trial court will follow
our interpretation of ICWA is sufficient to satisfy
Article III’s redressability requirements and asserts
that we are rendering an advisory opinion on this issue.
COSTA, CIRCUIT JUDGE, OP. at 2-4. But “Article III does
not demand a demonstration that victory in court will
without doubt cure the identified injury.” Teton Historic
Aviation Found. v. DOD, 785 F.3d 719, 727 (D.C. Cir.
2015). The plaintiff must show only that its injury is
“likely to be redressed by a favorable decision.” Vill. of
Arlington Heights, v. Metro. Hous. Dev. Corp., 429 U.S.
252, 262, 97 S. Ct. 555, 50 L. Ed. 2d 450 (1977). By stating
that it will defer to our ruling, the Texas court has
removed any need “to engage in undue speculation as a
predicate for finding that the plaintiff has the requisite
personal stake in the controversy.” Id. at 261-62, 97 S.
Ct. 555. Instead, the Texas court’s statement has made
it all but certain that a decision in the Brackeens’ favor
will redress their purported injuries. See Evans v.
Michigan, 568 U.S. 313, 325-26, 133 S. Ct. 1069, 185 L.
Ed. 2d 124 (2013) (“We presume here, as in other
contexts, that courts exercise their duties in good
needless formality and expense of instituting a new action when
events occurring after the original filing indicate[ ] a right to relief.’”
Northstar Fin. Advisors Inc. v. Schwab Investments, 779 F.3d 1036,
1044 (9th Cir. 2015) (quoting WRIGHT, MILLER, & KANE, FEDERAL
PRACTICE AND PROCEDURE: CIVIL 3D § 1505). Therefore, even if
the Brackeens had lacked standing at some point during the district
court litigation, their supplementation of the record with
information related to their attempted adoption of Y.R.J. cured any
defect. See Mathews v. Diaz, 426 U.S. 67, 75, 96 S. Ct. 1883, 48 L.
Ed. 2d 478 (1976).

66a
faith.”). Article III’s redressability requirements are
met with respect to the Brackeens’ claim, meaning at
least one Plaintiff has standing to bring an equal
protection claim challenging § 1915(a) and Final Rule
§§ 23.129 to 23.132. See Lujan, 504 U.S. at 560-61, 112 S.
Ct. 2130; Rumsfeld, 547 U.S. at 52 n.2, 126 S. Ct. 1297.
Similarly, the Cliffords have standing to challenge
§ 1915(b), ICWA’s foster care and preadoptive
placement preferences, and Final Rule § 23.131.16 The
Cliffords have clearly alleged an injury due to this
provision; they fostered Child P., but, pursuant to
§ 1915(b)’s placement preferences, Child. P. was
removed from their custody and placed with her
maternal grandmother, a member of the White Earth
Band. Like the Brackeens’ alleged injury, the Cliffords’
injury is fairly traceable to some of the Federal
Defendants given their responsibility for the burdens
16

The Cliffords also challenged § 1915(a). We need not address this
challenge, however, as we have already concluded that the
Brackeens—and thus all Plaintiffs—have standing to challenge this
provision. See Rumsfeld, 547 U.S. at 52 n.2, 126 S. Ct. 1297 (“[T]he
presence of one party with standing is sufficient to satisfy Article
III’s case-or-controversy requirement.”). In addition, the parties
contest whether the Cliffords’ claim is subject to issue preclusion.
Because issue preclusion is an affirmative defense, it does not
implicate our standing analysis. See, e.g., In re Senior Cottages of
Am., LLC, 482 F.3d 997, 1003 (8th Cir. 2007) (“Whether a party has
standing to bring claims and whether a party’s claims are barred by
an equitable defense are two separate questions, to be addressed on
their own terms.” (quoting Official Comm. of Unsecured Creditors
v. R.F. Lafferty & Co., 267 F.3d 340, 346 (3d Cir. 2001))); WRIGHT &
MILLER, 13A FED. PRAC. & PROC. JURIS. § 3531 (3d ed.)
(“Affirmative defenses against the claims of others are not likely to
raise ‘standing’ concerns.”).

67a
imposed by § 1915(b). Finally, a declaration by the
district court that § 1915(b) violates equal protection
would redress the Cliffords’ injury. Since Child P. has
not yet been adopted, the Cliffords may still petition for
custody. Though no state court—whether within this
circuit or in the Cliffords’ home state of Minnesota—is
bound by a decree of this court, we conclude that it is
“substantially likely that [a state court] would abide by
an authoritative interpretation” of ICWA by this court,
“even though [it] would not be directly bound by such a
determination.” Franklin v. Massachusetts, 505 U.S.
788, 803, 112 S. Ct. 2767, 120 L. Ed. 2d 636 (1992). Thus,
a favorable ruling “would at least make it easier for” the
Cliffords to regain custody of Child P. Duarte ex rel.
Duarte v. City of Lewisville, 759 F.3d 514, 521 (5th Cir.
2014). In sum, Plaintiffs have standing to challenge
§ 1915(a) and (b) and Final Rule §§ 23.129 to 23.132.
B. Standing to Bring Administrative Procedure
Act Claim
Plaintiffs also bring APA challenges to the Final
Rule promulgated by the BIA. They assert that the
Final Rule violates the APA because ICWA does not
authorize the Secretary of the Interior to promulgate
binding rules and regulations and also contend that the
Final Rule’s construction of § 1915 is invalid. The district
court ruled that State Plaintiffs had standing to bring
APA claims, determining that the Final Rule injured
State Plaintiffs by intruding upon their interests as
quasi-sovereigns to control the domestic affairs within

68a
their states.17 A state may be entitled to “special
solicitude” in our standing analysis if the state is vested
by statute with a procedural right to file suit to protect
an interest and the state has suffered an injury to its
“quasi-sovereign interests.” Massachusetts v. EPA, 549
U.S. 497, 518-20, 127 S. Ct. 1438, 167 L. Ed. 2d 248 (2007)
(holding that the Clean Air Act provided Massachusetts
a procedural right to challenge the EPA’s rulemaking
and that Massachusetts suffered an injury in its capacity
as a quasi-sovereign landowner due to rising sea levels
associated
with
climate
change).
Applying
Massachusetts, this court in Texas v. United States held
that Texas had standing to challenge the Department of
Homeland Security’s (“DHS”) implementation and
expansion of the Deferred Action for Childhood Arrivals
program under the APA. See 809 F.3d 134, 152 (5th Cir.
2015). This court reasoned that Texas was entitled to
special solicitude on the grounds that the APA created a
procedural right to challenge the DHS’s actions, and
DHS’s actions affected states’ sovereign interest in
creating and enforcing a legal code. See id. at 152-53.
Likewise, here, the APA provides State Plaintiffs a
procedural right to challenge the Final Rule. See id.; 5
U.S.C. § 702. Moreover, State Plaintiffs allege that the
Final Rule affects their sovereign interest in controlling
child custody proceedings in state courts. See Texas, 809
17

The district court also found an injury based on the Social Security
Act’s conditioning of funding on states’ compliance with ICWA.
However, because we find that Plaintiffs have standing on other
grounds, we decline to decide whether they have demonstrated
standing based on an alleged injury caused by the Social Security
Act.

69a
F.3d at 153 (recognizing that, pursuant to a sovereign
interest in creating and enforcing a legal code, states
may have standing based on, inter alia, federal
preemption of state law). Thus, State Plaintiffs are
entitled to special solicitude in our standing inquiry.
With this in mind, we find that the elements of standing
are satisfied. If, as State Plaintiffs alleged, the Secretary
promulgated a rule binding on states without the
authority to do so, then State Plaintiffs have suffered a
concrete injury to their sovereign interest in controlling
child custody proceedings that was caused by the Final
Rule. Additionally, though state courts and agencies are
not bound by this court’s precedent, a favorable ruling
from this court would remedy the alleged injury to
states by making their compliance with ICWA and the
Final Rule optional rather than compulsory. See
Massachusetts, 549 U.S. at 521, 127 S. Ct. 1438 (finding
redressability where the requested relief would prompt
the agency to “reduce th[e] risk” of harm to the state).
C. Standing to Bring Tenth Amendment Claims
For similar reasons, the district court found, and we
agree, that State Plaintiffs have standing to challenge
provisions of ICWA and the Final Rule under the Tenth
Amendment. The imposition of regulatory burdens on
State Plaintiffs is sufficient to demonstrate an injury to
their sovereign interest in creating and enforcing a legal
code to govern child custody proceedings in state courts.
See Texas, 809 F.3d at 153. Additionally, the causation
and redressability requirements are satisfied here, as a
favorable ruling would likely redress State Plaintiffs’
asserted injuries by lifting the mandatory burdens

70a
ICWA and the Final Rule impose on states. See Lujan,
504 U.S. at 560-61, 112 S. Ct. 2130.
D. Standing to Bring Nondelegation Claim
Plaintiffs also contend that § 1915(c), which allows a
tribe to establish a different order of placement
preferences than the defaults contained in § 1915(a) and
(b), is an impermissible delegation of legislative power
that binds State Plaintiffs. Defendants argue that State
Plaintiffs cannot demonstrate an injury, given the lack
of evidence that a tribe’s reordering of § 1915(a) and (b)’s
placement preferences has affected any children in
Texas, Indiana, or Louisiana or that such impact is “real
and immediate.” State Plaintiffs respond that tribes can
change ICWA’s placement preferences at any time and
that at least one tribe, the Alabama-Coushatta Tribe of
Texas, has already done so. We conclude that State
Plaintiffs have demonstrated injury and causation with
respect to this claim, as State Plaintiffs’ injury from the
Alabama-Coushatta Tribe’s decision to depart from
§ 1915’s default placement preferences is concrete and
particularized and not speculative. See Lujan, 504 U.S.
at 560, 112 S. Ct. 2130. And given that the AlabamaCoushatta Tribe has already filed their reordered
placement preferences with Texas’s Department of
Family and Protective Services, Texas faces a
“substantial risk” that its claimed injury will occur.
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158,
134 S. Ct. 2334, 189 L. Ed. 2d 246 (2014) (“An allegation
of future injury may suffice if the threatened injury is
‘certainly impending,’ or there is a ‘substantial risk that
the harm will occur.’” (internal quotation marks omitted)
(quoting Clapper, 568 U.S. at 409, 414 n.5, 133 S. Ct.

71a
1138)). Moreover, a favorable ruling from this court
would redress State Plaintiffs’ injury by making a state’s
compliance with a tribe’s alternative order of
preferences under § 1915(c) optional rather than
mandatory. See id.
II. Facial Constitutional Challenges to ICWA
Having determined that State Plaintiffs have
standing on the aforementioned claims, we proceed to
the merits of these claims. We note at the outset that
ICWA is entitled to a “presumption of constitutionality”
and “[d]ue respect for the decisions of a coordinate
branch of Government demands that we invalidate a
congressional enactment only upon a plain showing that
Congress has exceeded its constitutional bounds.”
United States v. Morrison, 529 U.S. 598, 607, 120 S. Ct.
1740, 146 L. Ed. 2d 658 (2000) (citing United States v.
Harris, 106 U.S. 629, 635, 1 S. Ct. 601, 27 L. Ed. 290
(1883)).
A. Preemption and Anticommandeering
The district court ruled, and Plaintiffs argue on
appeal, that 25 U.S.C. §§ 1901-2318 and 1951-5219 exceed
18

Title 25 U.S.C. §§ 1901-03 sets forth Congress’s findings,
declaration of policy, and definitions. Sections 1911-23 govern child
custody proceedings, including tribal court jurisdiction, notice
requirements in involuntary and voluntary state proceedings,
termination of parental rights, invalidation of state proceedings,
placement preferences, and agreements between states and tribes.
19

Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior
to promulgate rules and regulations that are necessary for ICWA’s
implementation.

72a
Congress’s constitutional powers by violating the
anticommandeering doctrine and accordingly do not
preempt any conflicting state law. We review de novo
the constitutionality of a federal statute. See United
States v. Perez-Macias, 335 F.3d 421, 425 (5th Cir. 2003).
We start our discussion by explaining the principles
underpinning two intertwined areas of constitutional
law: preemption and anticommandeering. First,
preemption. This concept is derived from the Supremacy
Clause of the Constitution, which provides that “[t]his
Constitution, and the Laws of the United States which
shall be made in Pursuance thereof[ ] ... shall be the
supreme Law of the Land; and the Judges in every State
shall be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.”
U.S. CONST. art. VI, cl. 2; see also Crosby v. Nat’l
Foreign Trade Council, 530 U.S. 363, 372, 120 S. Ct.
2288, 147 L. Ed. 2d 352 (2000) (“A fundamental principle
of the Constitution is that Congress has the power to
preempt state law.”). Therefore, when “Congress enacts
a law that imposes restrictions or confers rights on
private actors” and a “state law confers rights or
imposes restrictions that conflict with the federal law,”
under the Supremacy Clause, “the federal law takes
precedence and the state law is preempted.” Murphy v.
NCAA, 138 S. Ct. 1461, 1480, 200 L. Ed. 2d 854 (2018).
“Even without an express provision for preemption ...
state law is naturally preempted to the extent of any
conflict with a federal statute.” Crosby, 530 U.S. at 372,
120 S. Ct. 2288.
The anticommandeering doctrine, by contrast, is
rooted in the Tenth Amendment, which states that

73a
“[t]he powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.”
U.S. CONST. amend. X. Congress’s legislative powers are
limited to those enumerated under the Constitution, and
“conspicuously absent from the list of powers given to
Congress is the power to issue direct orders to the
governments of the States.” Murphy, 138 S. Ct. at 1476.
“Where a federal interest is sufficiently strong to cause
Congress to legislate, it must do so directly; it may not
conscript state governments as its agents.” Id. at 1477
(quoting New York v. U.S., 505 U.S. 144, 178, 112 S. Ct.
2408, 120 L. Ed. 2d 120 (1992)).
In the present context, these two doctrines—
preemption
and
anticommandeering—represent
opposite sides of the same coin. See New York, 505 U.S.
at 156, 112 S. Ct. 2408 (explaining that in cases
“involving the division of authority between federal and
state governments,” the dual inquiries as to whether a
congressional enactment is authorized under Article I or
violates the Tenth Amendment “are mirror images of
each other”). This is because for a federal law to preempt
conflicting state law, two conditions must be satisfied.
First, the federal law “must represent the exercise of a
power conferred on Congress by the Constitution.”
Murphy, 138 S. Ct. at 1479. Second, since the
Constitution “confers upon Congress the power to
regulate individuals, not States,” New York, 505 U.S. at
166, 112 S. Ct. 2408, the provision at issue must be a
regulation of private actors. Murphy, 138 S. Ct. at 1479.
As discussed in more detail infra, a law does not fail this
second inquiry simply because it also regulates states

74a
that participate in an activity in which private parties
engage. Id. at 1478. Rather, the key question is whether
the law establishes rights enforceable by or against
private parties. See id. at 1480 (citing Morales v. Trans
World Airlines, Inc., 504 U.S. 374, 391, 112 S. Ct. 2031,
119 L. Ed. 2d 157 (1992)). When a federal law fails this
second step by directly commanding the executive or
legislative branch of a state government to act or refrain
from acting without commanding private parties to do
the same, it violates the anticommandeering doctrine.20
See, e.g., New York, 505 U.S. at 188, 112 S. Ct. 2408
(stating that “[t]he Federal Government may not compel
the States to enact or administer a federal regulatory
program”); Printz v. United States, 521 U.S. 898, 932, 117
S. Ct. 2365, 138 L. Ed. 2d 914 (1997). On the other hand,
if Congress enacts a statute pursuant to an enumerated
power and the statute does not violate the
anticommandeering doctrine or another constitutional

20

Though Congress is prohibited from commandeering states’
legislatures and executive officers, it can “encourage a State to
regulate in a particular way, or ... hold out incentives to the States
as a method of influencing a State’s policy choices.” New York, 505
U.S. at 166, 112 S. Ct. 2408. For example, Congress may condition
the receipt of federal funds under its spending power. See id. at 167,
112 S. Ct. 2408. Some of the Defendants contend that ICWA is
authorized under Congress’s Spending Clause powers because
Congress conditioned federal funding in Title IV-B and E of the
Social Security Act on states’ compliance with ICWA. However,
because we conclude that ICWA is constitutionally permissible
even if its provisions are construed as mandatory, we need not reach
the question of whether it is justified as an optional incentive
program in which states voluntarily participate.

75a
provision, then the federal law necessarily has
preemptive force.21
21

Of course, like any other unconstitutional law, a federal statute
that violates the anticommandeering doctrine exceeds Congress’s
legislative authority. See New York, 505 U.S. at 155-56, 112 S. Ct.
2408. The Court has stated, however, that a statute is beyond
Congress’s Article I power for purposes of the premption analysis
either when the statute does not “represent the exercise of a power
conferred on Congress by the Constitution,”—that is, when it
addresses a subject matter that is not included in the powers that
the Constitution grants the federal government—or when the
statute breaches the anticommandeering doctrine, regardless of the
subject matter addressed by the legislation. See Murphy, 138 S. Ct.
at 1479. These are two distinct inquires. Otherwise, Congress could
never violate the anticommandeering doctrine when regulating in a
field over which it holds plenary authority. But the Supreme Court
has held that this is not how the Constitution works. See Reno v.
Condon, 528 U.S. 141, 142, 120 S. Ct. 666, 145 L. Ed. 2d 587 (2000)
(stating that, “in New York [v. United States, 505 U.S. 144, 112 S.
Ct. 2408, 120 L. Ed. 2d 120 (1992)] and Printz [v. United States, 521
U.S. 898, 117 S. Ct. 2365, 138 L. Ed. 2d 914 (1997)], the Court held
that federal statutes were invalid, not because Congress lacked
legislative authority over the subject matter, but because those
statutes violated” the anticommandeering doctrine); cf., e.g.,
Seminole Tribe of Florida v. Florida, 517 U.S. 44, 116 S. Ct. 1114,
134 L. Ed. 2d 252 (1996) (explaining that “[e]ven when the
Constitution vests in Congress complete law-making authority over
a particular area,” that authority is subject to other constitutional
constraints); Williams v. Rhodes, 393 U.S. 23, 29, 89 S. Ct. 5, 21 L.
Ed. 2d 24 (1968) (“[T]he Constitution is filled with provisions that
grant Congress ... specific power[s] to legislate in certain areas;
these granted powers are always subject to the limitation that they
may not be exercised in a way that violates other specific provisions
of the Constitution.”). We therefore address separately whether
ICWA is within the range of subject matter on which Article I
authorizes Congress to legislate and whether the law violates the
anticommandeering inquiry.

76a
1.

Article I Authority

We first address whether ICWA represents a valid
exercise of Congress’s Article I power. “Proper respect
for a co-ordinate branch of the government requires the
courts of the United States to give effect to the
presumption that congress will pass no act not within its
constitutional power. This presumption should prevail
unless the lack of constitutional authority to pass an act
in question is clearly demonstrated.” Harris, 106 U.S. at
635, 1 S. Ct. 601.
The district court concluded that Congress
overstepped its powers in enacting ICWA by breaching
the anticommandeering doctrine, but it never addressed
whether the Act fell within Congress’s Article I power
separate
and
apart
from
any
supposed
anticommandeering violation. On appeal, Plaintiffs
squarely argue that Congress exceeded its authority—
without respect to any anticommandeering violation—in
enacting ICWA.22 For the reasons that follow, we
disagree.

22

“[A] court of appeals sits as a court of review, not of first view.”
Montano v. Texas, 867 F.3d 540, 546 (5th Cir. 2017).
Notwithstanding this general rule, “there are circumstances in
which a federal appellate court is justified in resolving an issue not
passed on below, as where the proper resolution is beyond any
doubt, or where injustice might otherwise result.” Singleton v.
Wulff, 428 U.S. 106, 121, 96 S. Ct. 2868, 49 L. Ed. 2d 826 (1976)
(cleaned up). Given the extensive litigation and the substantial and
exceptional briefing from both the parties and amici, we conclude
that it would work an injustice at this juncture not to resolve the
question of Congress’s authority to enact ICWA. See id. Moreover,

77a
The historical development of the federal Indian
affairs power is essential to understanding its sources
and scope. See Heller, 554 U.S. at 581, 128 S. Ct. 2783.
Earlier, we reviewed the Framers’ dissatisfaction with
the untenable division of authority over Indian affairs
between the states and the national Government under
the Articles of Confederation. We explained how this led
the Framers to endow the national government with
exclusive, plenary power in regulating Indian affairs
under the new Constitution. See supra Background Part
I. This intent, we observed, is revealed through a holistic
reading of the Constitution; the combination of the
charter’s Treaty, Property, Supremacy, Indian
Commerce, and Necessary and Proper Clauses, among
other provisions, operate to bestow upon the federal
government supreme power to deal with the Indian
tribes. See Ablavsky, Beyond the Indian Commerce
Clause, supra at 1043-44. Understandably, then, the
Supreme Court has consistently characterized the
federal government’s Indian affairs power in the
broadest possible terms. See, e.g., United States v. Lara,
541 U.S. 193, 200, 124 S. Ct. 1628, 158 L. Ed. 2d 420 (2004)
(noting that the Indian Commerce and Treaty Clauses
are sources of Congress’s “plenary and exclusive”
“powers to legislate in respect to Indian tribes”); Ramah
Navajo Sch. Bd., Inc. v. Bureau of Revenue of N.M., 458
U.S. 832, 837, 102 S. Ct. 3394, 73 L. Ed. 2d 1174 (1982)
(discussing Congress’s “broad power ... to regulate tribal
affairs under the Indian Commerce Clause”); White
Mountain Apache Tribe v. Bracker, 448 U.S. 136, 142,
we ultimately conclude that the proper resolution of the question is
beyond any doubt.

78a
100 S. Ct. 2578, 65 L. Ed. 2d 665 (1980) (same); Santa
Clara Pueblo v. Martinez, 436 U.S. 49, 72, 98 S. Ct. 1670,
56 L. Ed. 2d 106 (1978) (“As we have repeatedly
emphasized, Congress’ authority over Indian matters is
extraordinarily broad ....”); Mancari, 417 U.S. at 551-52,
94 S. Ct. 2474 (noting that “[t]he plenary power of
Congress to deal with the special problems of Indians is
drawn both explicitly and implicitly from the
Constitution itself”).
Conversely, the Constitution totally displaced the
states from having any role in these affairs and “divested
[them] of virtually all authority over Indian commerce
and Indian tribes.” Seminole Tribe of Fla. v. Florida, 517
U.S. 44, 62, 116 S. Ct. 1114, 134 L. Ed. 2d 252 (1996); see
also Ablavsky, Beyond the Indian Commerce Clause,
supra at 1043-44 (noting that the federal government’s
Indian affairs powers collectively amounted to what
present-day doctrine terms field preemption).
Responding to the problem under the Articles of
Confederation of states openly flouting the federal
strategy with respect to the Indians, the Framers
specifically intended that the Constitution would
prevent the states from exercising their sovereignty in
a way that interfered with federal Indian policy. See
William C. CANBY, § 2.1 AMERICAN INDIAN LAW IN A
NUTSHELL, (7th Ed.) [hereinafter CANBY, AMERICAN
INDIAN LAW]. As in its dealings with foreign nations, it
was important that the United States speak with one
voice in making peace with or deploying military force
against the Indians without being undercut by the
various contrary policies individual states might adopt if
left to their own devices.

79a
The writings and actions of both the Washington
Administration and the First Congress amply
demonstrate this early conception of the national
Government as having primacy over Indian affairs.
President George Washington himself explained in a
letter to the Governor of Pennsylvania that the federal
Government, under the new Constitution, “possess[ed]
the only authority of regulating an intercourse with [the
Indians], and redressing their grievances.” Letter from
George Washington to Thomas Mifflin (Sept. 4, 1790), in
6 The PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL
SERIES 188, 189 (Mark A. Mastromarino ed., 1996). And
the First Congress reinforced this exceptionally broad
understanding of federal authority through the adoption
of the Indian Intercourse Act of 1790, Act of July 22,
1790, §§ 1-3, 1 Stat. 137-38. See, e.g., Marsh v. Chambers,
463 U.S. 783, 790, 103 S. Ct. 3330, 77 L. Ed. 2d 1019 (1983)
(“An act ‘passed by the first Congress assembled under
the Constitution, many of whose members had taken
part in framing that instrument, is contemporaneous and
weighty evidence of its true meaning.’” (alteration
omitted) (quoting Wisconsin v. Pelican Ins. Co., 127
U.S. 265, 297, 8 S. Ct. 1370, 32 L. Ed. 239 (1888))). The
legislation provided exclusively for federal management
of essential aspects of Indian affairs: the regulation of
trade with Indians, prohibition on purchases of Indian
land except by federal agents, and the federalization of
crimes committed by non-Indians against Indians. See
COHEN’S, supra, § 1.03[2]. And early Congresses
repeatedly reaffirmed this expansive understanding of
federal power by reenacting the statute in various forms
throughout the late eighteenth and early nineteenth
century. See Act of June 30, 1834, ch. 161, 4 Stat. 729; Act

80a
of Mar. 30, 1802, ch. 13, 2 Stat. 139; Act of Mar. 3, 1799,
ch. 46, 1 Stat. 743; Act of May 19, 1796, ch. 30, 1 Stat. 469;
Act of Mar. 1, 1793, ch. 19, 1 Stat. 329.
These acts further evince that, from its earliest
days, Congress viewed itself as having an obligation to
sustain the Indians and tribes as a separate people
belonging to separate nations and to protect them from
harm by the states and their inhabitants. See Lummi
Indian Tribe v. Whatcom Cnty., 5 F.3d 1355, 1358 (9th
Cir. 1993) (internal citations omitted) (“Courts
considering the [Indian Intercourse] Act’s purpose have
agreed that Congress intended to protect Indians from
the ‘greed of other races,’ and from ‘being victimized by
artful scoundrels inclined to make a sharp bargain.’”
(first quoting United States v. Candelaria, 271 U.S. 432,
442, 46 S. Ct. 561, 70 L. Ed. 1023 (1926); then quoting
Tuscarora Nation of Indians v. Power Auth., 257 F.2d
885, 888 (2d Cir. 1958), vacated as moot sub nom.,
McMorran v. Tuscarora Nation of Indians, 362 U.S.
608, 80 S. Ct. 960, 4 L. Ed. 2d 1009 (1960))); Stephen L.
Pevar, The Rights of Indians and Tribes 96 (4th ed.
2012). This duty has deep historical roots. As related
above, the federal Government engaged with the
Indians in the decades following ratification as part of its
westward expansion project, utilizing not only
diplomatic tools like treaties, but also military might. See
supra Background Part I. By virtue of its manifold and
dominant powers over Indian affairs, the national
Government gradually subjugated the western lands,
eventually enveloping the Indian tribes and
extinguishing many aspects of their external

81a
sovereignty, including their ability to deal with other
countries as independent nations.
As a consequence of the Indians’ partial surrender
of sovereign power, the federal Government naturally
took on an attendant duty to protect and provide for the
well-being of the “domestic dependent [Indian] nations.”
Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 13, 8 L.
Ed. 25 (1831) (stating that Indian tribes “look to our
government for protection; rely upon its kindness and its
power; appeal to it for relief to their wants”); see also
Mancari, 417 U.S. at 552, 94 S. Ct. 2474 (“In the exercise
of the war and treaty powers, the United States
overcame the Indians and took possession of their lands,
sometimes by force, leaving them ... [a] dependent
people, needing protection ....” (quoting Bd. of Cnty.
Comm’rs v. Seber, 318 U.S. 705, 715, 63 S. Ct. 920, 87 L.
Ed. 1094 (1943))); supra Background Part II. That is,
owing to the federal Government’s expansive Indian
affairs powers and the way in which it has wielded those
powers to divest Indians of their ancestral lands, the
Government bears a responsibility to protect the tribes
from external threats. Similarly, the Government has an
overarching duty to provide for the welfare of tribes. See
CANBY, AMERICAN INDIAN LAW, supra § 3.1; COHEN’S,
supra, § 5.04.23 Numerous pieces of Indian federal
23

As discussed, this obligation has been characterized as akin to a
guardian-ward relationship, or, in more contemporary parlance, a
trust relationship. See supra Background Part II; compare
Cherokee, 30 U.S. at 13 (referring to the tribes as “domestic
dependent nations” and explaining “[t]heir relation to the United
States resembles that of a ward to his guardian”), with Menominee
Indian Tribe of Wis. v. United States, 577 U.S. 250, 136 S. Ct. 750,
757, 193 L. Ed. 2d 652 (2016) (noting the “general trust relationship

82a
legislation have been passed pursuant to this federal
duty.24 Indeed, we know of no court that has found
Congress’s power wanting when Congress has invoked
its duty to the tribes and enacted legislation clearly
aimed at keeping its enduring covenant. See, e.g.,
Mancari, 417 U.S. at 551-52, 94 S. Ct. 2474 (“Of necessity
the United States assumed the duty of furnishing ...
protection [to the Indians], and with it the authority to
do all that was required to perform that obligation ....”
(quoting Seber, 318 U.S. at 715, 63 S. Ct. 920)); Kagama,
118 U.S. at 383-84, 6 S. Ct. 1109 (“Indian tribes are the
wards of the nation. They are communities dependent on
the United States ... From their very weakness and
helplessness ... there arises the duty of protection, and
between the United States and the Indian tribes”) (internal
quotation marks omitted).
24

See, e.g., Indian Health Care Improvement Act, 25 U.S.C. § 1602
(explaining that the legislation was passed “in fulfillment of [the
Government’s] special trust responsibilities and legal obligations to
Indians”); Indian Self-Determination and Education Assistance
Act, 25 U.S.C. § 450a(a) (“The Congress hereby recognizes the
obligation of the United States to respond to the strong expression
of the Indian people for self-determination by assuring maximum
Indian participation in the direction of educational as well as other
Federal services to Indian communities so as to render such
services more responsive to the needs and desires of those
communities.”); Elementary and Secondary Education Act, 20
U.S.C. § 7401 (“It is the policy of the United States to fulfill the
Federal Government’s unique and continuing trust relationship
with and responsibility to the Indian people for the education of
Indian children.”); American Indian Agricultural Resource
Management Act, 25 U.S.C. § 1307 (“[T]he United States has a trust
responsibility to protect, conserve, utilize, and manage Indian
agricultural lands consistent with its fiduciary obligation and its
unique relationship with Indian tribes.”).

83a
with it the power. This has always been recognized by
the executive, and by congress, and by this court,
whenever the question has arisen.”); Perrin v. United
States, 232 U.S. 478, 486, 34 S. Ct. 387, 58 L. Ed. 691
(1914) (“It must also be conceded that, in determining
what is reasonably essential to the protection of the
Indians, Congress is invested with a wide discretion, and
its action, unless purely arbitrary, must be accepted and
given full effect by the courts.”); Worcester, 31 U.S. at
556-57 (explaining that the Constitution vests Congress
with broad Indian affairs powers and that Congress has
“[f]rom the commencement of our government ... passed
acts to regulate trade and intercourse with the Indians;
which treat the[ tribes] as nations, respect their rights,
and manifest a firm purpose to afford that protection
which treaties stipulate”); Cherokee Nation, 30 U.S. at
13.25
Chief among the external threats to the Indian
tribes were the states and their inhabitants. See
Kagama, 118 U.S. at 384, 6 S. Ct. 1109 (The Indian tribes
“owe no allegiance to the states, and receive from them
no protection. Because of the local ill feeling, the people
of the states where they are found are often their
deadliest enemies.”); CANBY, AMERICAN INDIAN LAW,
supra § 3.1. And the Supreme Court has long recognized
and repeatedly reaffirmed the federal Government’s
25

Though some of the cited cases are permeated with paternalistic
overtones and objectionable descriptions of Indians, it is no less true
today than it was centuries ago that the national Government owes
an obligation to provide for the welfare of the Indians—and that it
is armed with the power to do so. See, e.g., Mancari, 417 U.S. at 55152, 94 S. Ct. 2474.

84a
ongoing duty to protect tribes from the states and vice
versa—as well as its power to do so. See Kagama, 118
U.S. at 384, 6 S. Ct. 1109; Cherokee Nation, 30 U.S. at 13;
Worcester, 31 U.S. at 556-57; Mancari, 417 U.S. at 55152, 94 S. Ct. 2474.
In light of the foregoing, ICWA represents the
convergence of key aspects of FEDERAL INDIAN LAW.
First, as Congress expressly noted in its congressional
findings, ICWA was enacted pursuant to the “plenary
power over Indian affairs” that the Constitution places
in the federal government.26 25 U.S.C. § 1901(1). This
authority is exclusive to the federal government, and the
Framers specifically intended to prevent the states from
interfering with its exercise, either by taking their own
disparate stances in dealing with tribal governments or
by otherwise exercising their sovereignty in a manner
contrary to federal Indian policy. See Seminole Tribe of
Fla., 517 U.S. at 62, 116 S. Ct. 1114; Ablavsky, Beyond
the Indian Commerce Clause, supra at 1043-44. Just as
the Constitution was meant to preclude the states from
undertaking their own wars or making their own
26

We find it notable that, in enacting ICWA, Congress explicitly
contemplated whether it was constitutionally authorized to do so.
See H.R. REP. No. 95-1386, at 13-15 (discussing the constitutionality
of ICWA, including that ICWA falls within Congress’s plenary
power over Indian affairs); Rostker v. Goldberg, 453 U.S. 57, 64, 101
S. Ct. 2646, 69 L. Ed. 2d 478 (1981) (“The customary deference
accorded the judgments of Congress is certainly appropriate when,
as here, Congress specifically considered the question of the Act’s
constitutionality.”). Though this judgment is not dispositive, we
grant it due deference. See Perrin, 232 U.S. at 486, 34 S. Ct. 387
(“[I]n determining what is reasonably essential to the protection of
the Indians, Congress is invested with a wide discretion[.]”).

85a
treaties with the Indian tribes, see James Madison, Vices
of the Political System of the United States, in 9 THE
PAPERS OF JAMES MADISON 345, 348 (Robert A. Rutland
et al. eds., 1975), so too does it empower the federal
government to ensure states do not spoil relations with
the Indian tribes through the unwarranted taking and
placement of Indian children in non-Indian foster and
adoptive homes.27 As with the federal government’s

27

JUDGE DUNCAN contends that the principle that the federal
government may prevent states from interfering with federal policy
toward the tribes does not apply here because ICWA does not
totally exclude states from Indian child custody proceedings. He
contends that ICWA instead “does the opposite of ‘excluding’” by
“leav[ing] many adoptions under state jurisdiction ... while imposing
‘Federal standards’ on those state proceedings.” DUNCAN, CIRCUIT
JUDGE, OP. at 48 (citing §§ 1911(b) & 1902). But JUDGE DUNCAN’S
suggestion that ICWA “co-opts” the machinery of state courts in
service to the federal government is highly misleading. DUNCAN,
CIRCUIT JUDGE, OP. at 49. Far from pressing the states into federal
service, ICWA minimizes any intrusion on state sovereignty by
permitting states to exercise some jurisdiction over Indian Child
custody proceedings so long as the state courts respect the federal
rights of Indian children, families, and tribes. Section “1911(a)
establishes exclusive jurisdiction in the tribal courts for
proceedings concerning an Indian child who resides or is domiciled
within the reservation.” Holyfield, 490 U.S. at 36, 109 S. Ct. 1597
(internal quotation marks omitted) (emphasis added). And while
Section 1911(b) allows states to exercise some concurrent
jurisdiction over cases involving “children not domiciled on the
reservation,” it establishes that jurisdiction over such proceedings
still “presumptively” lies with the tribal courts. Id. at 36, 109 S. Ct.
1597 (internal quotation marks omitted) (emphasis added). This
means that, except in limited circumstances, the case may remain in
state court only with the consent of the Indian child’s parents,
custodian, and tribe. See § 1911(b). This is all to say, that the statute
allows states to participate in an activity that is presumptively and

86a
dealings with any other nation, the Constitution dictates
that the government address relations with the Indian
tribes on behalf of the nation as a whole without state
interference, be it with respect to war making, peace
treaties, or child custody practices.
Second, ICWA falls within the federal government’s
continuing trust relationship with the tribes, which
includes a specific obligation to protect the tribes from
the states. We earlier recounted the arbitrary and
abusive child removal and assimilation practices that led
Congress to conclude that it was necessary and proper
for it to enact ICWA. See supra Background Part IV-V;
see also Antoine, 420 U.S. at 203, 95 S. Ct. 944. Briefly
stated, throughout the late nineteenth and well into the
twentieth century, the federal government was
intimately involved in programs ostensibly to “educate”
Indian children at off-reservation schools that sought to
imbue them with white Christian values and
permanently shed them of and sever them from their
tribal heritage. Although the federal Government
eventually discontinued this assimilationist policy,
Congress found that abusive Indian child custody
practices continued at the state level, often leading to
the “wholesale” and unwarranted removal of Indian
children from their homes by state child welfare
agencies and adjudicatory bodies, see H.R. REP. No. 951386, at 9; see also Indian Child Welfare Act of 1977:
Hearing Before the S. Select Committee on Indian Affs.,
95th Cong. 320 (1977) (statement of James Abourezk,
could wholly be reserved to the tribes or the federal government is
an indulgence of state interests, not an invasion thereof.

87a
Chairman, S. Select Comm. on Indian Affs.) (describing
the massive removal as resulting in “cultural genocide”).
Congress heard and received extensive evidence on this
plundering of tribal communities’ children, including
testimony that the vast removal of Indian children from
their homes and communities constituted an existential
threat to tribes. See 124 CONG. REC. 38,103 (1978)
(statement of Minority sponsor Rep. Robert
Lagomarsino) (“For Indians generally and tribes in
particular, the continued wholesale removal of their
children by nontribal government and private agencies
constitutes a serious threat to their existence as ongoing, self-governing communities.”); see also H.R. REP.
No. 95-1386, at 9-10 (declaring that the removal of Indian
children was a “crisis of massive proportions,”
representing “perhaps the most tragic and destructive
aspect of Indian life”).
After reviewing this testimony and evidence
concerning the massive removal of Indian children from
their tribal communities by the states, Congress found
that “there is no resource that is more vital to the
continued existence and integrity of Indian tribes than
their children”; “that an alarmingly high percentage of
Indian families are broken up by the removal, often
unwarranted, of their children from them by nontribal
public and private agencies”; and “that an alarmingly
high percentage of such children are placed in nonIndian foster and adoptive homes and institutions.” 25
U.S.C. § 1901(3)-(4). And Congress directly attributed
this threat to the states “exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies,” observing

88a
that they had “often failed to recognize the essential
tribal relations of Indian people and the cultural and
social standards prevailing in Indian communities and
families.” Id. § 1901(5).
Thus, ICWA also falls within Congress’s “plenary
powers to legislate on the problems of Indians” in order
to fulfill its enduring trust obligations to the tribes.
Antoine, 420 U.S. at 203, 95 S. Ct. 944. Indeed, the
congressional findings in the statute expressly invoke
this “responsibility for the protection and preservation
of Indian tribes and their resources” and state “that the
United States has a direct interest, as trustee, in
protecting Indian children.” 25 U.S.C. § 1901(2)-(3). The
law was intended to combat an evil threatening the very
existence of tribal communities, and it would be difficult
to conceive of federal legislation that is more clearly
aimed at the Government’s enduring trust obligations to
the tribes. Moreover, it fulfills the government’s duty to
protect the tribes from the states by regulating relations
between the two—a power that the Framers specifically
intended that the Constitution bestow on the federal
government.28 See CANBY, AMERICAN INDIAN LAW § 2.1
28

The opposing opinion misapprehends the significance to our
analysis of the federal government’s history of removing Indian
children from their families and tribes to place them at offreservation boarding schools. See DUNCAN, CIRCUIT JUDGE, OP. at
50-51. In the view of the opposing opinion, that the boarding school
policy began in the latter half of the nineteenth century, and not the
Founding era, means that the federal government’s assimilation
policy is irrelevant in determining whether Congress was
authorized to enact ICWA. This is squarely contrary to the
Supreme Court’s explicit direction that historical “practice [is] an
important interpretive factor even when the nature or longevity of

89a

that practice is subject to dispute, and even when that practice
began after the founding era.” Noel Canning, 573 U.S. at 525, 134 S.
Ct. 2550 (emphasis added). But more importantly, JUDGE
DUNCAN’S observation about the start of the boarding school policy
misses the point: Since the Nation’s founding, the federal
government has viewed itself as owing an affirmative duty to
promote tribal welfare generally and to provide for Indian children
specifically, as well as having the power to do so—obligations that
arise under what is now described as a trust relationship between
the tribes and the government. See Br. of Prof. Ablavsky at 20
(describing federal financing of placement of Indian children in
Quaker homes during the Washington administration); see also
FLETCHER, FEDERAL INDIAN LAW § 5.2. This relationship, at one
time, led the federal government to pursue misguided policies that
harmed the tribes, including its efforts at assimilating Indian
children through the use of boarding schools during the nineteenth
and twentieth centuries. And decades after the height of the federal
government’s ill-founded promotion of Indian boarding schools, the
states continued to perpetuate the destruction of tribal culture by
removing massive numbers of Indian children from the custody of
their parents. See supra Background Part IV-V. In the face of these
abusive child welfare practices and pursuant to the government’s
trust duty to the tribes—which, again, is rooted in the Nation’s
Founding era—Congress enacted ICWA to protect the tribes.
Stated differently, Founding-era history confirms Congress’s
“plenary power[ ]” and responsibility “to legislate on the problems
of Indians,” Antoine, 420 U.S. at 203, 95 S. Ct. 944, and the history
of Indian child removal demonstrates that the unwarranted
breakup of Indian families was such a problem. Congress was
effectuating its trust obligations to the tribes when it acted to halt
the wrongful Indian child custody practices that had once been
carried out by the federal government and were continuing to be
practiced by states at the time of ICWA’s enactment, and this is
exactly what the Constitution empowers the federal government to
do.

90a
(“The central policy ... was one of separating Indians and
non-Indians and subjecting nearly all interaction
between the two groups to federal control.”).
Plaintiffs raise several arguments in favor of
cabining Congress’s authority to redress the evils
attending state child welfare proceedings involving
Indian children. We review their contentions and find
them wanting.
First, seeking to surmount the mountain of case law
sustaining Congress’s plenary authority to regulate with
respect to Indians, Plaintiffs point out that the Court
remarked that this power is “not absolute” in Delaware
Tribal Business Committee v. Weeks, 430 U.S. 73, 84, 97
S. Ct. 911, 51 L. Ed. 2d 173 (1977). A cursory review of
the cited authority reveals that it affords no support to
Plaintiffs’ position. The above-quoted statement was
made with regard to the justiciability of a challenge to
Congress’s “exercise of control over tribal property.” Id.
at 83, 97 S. Ct. 911. In other words, the Court was
addressing only whether it in fact had authority to
adjudicate the dispute—not the extent of Congress’s
authority to regulate Indian tribes. In any event, the
Court concluded that the controversy was justiciable
and upheld the challenged enactment. Id. at 90, 97 S. Ct.
911. Delaware Tribal Business Committee in no way
shackles Congress’s authority to regulate Indian tribes.
Plaintiffs next contend that the meaning of
commerce in the Indian and Interstate Commerce
Clauses is equivalent. Plaintiffs thus seek to import
Interstate Commerce Clause jurisprudence into the
Indian Commerce Clause in order to limit Congress’s
power under the latter; they argue that the latter clause

91a
does not authorize ICWA because children are not
“persons ... in commerce” and child custody cases do not
substantially affect commerce with Indian tribes. We
find Plaintiffs’ construction of the Indian Commerce
Clause unduly cramped, at odds with both the original
understanding of the clause and the Supreme Court’s
more recent instructions. See Printz, 521 U.S. at 905, 117
S. Ct. 2365 (looking to “historical understanding and
practice” as well as “the jurisprudence of this Court” to
determine whether a federal enactment was
constitutional). More fundamentally, the history, text,
and structure of the Constitution demonstrate that the
federal Government, including Congress, has plenary
authority over all Indian affairs and that this power is in
no way limited to the regulation of economic activity.
And, as stated, Congress does not derive its plenary
power solely from the Indian Commerce Clause, but
rather from the holistic interplay of the constitutional
powers granted to Congress to deal with the Indian
tribes as separate nations. See Ablavsky, Beyond the
Indian Commerce Clause, supra at 1026.
The history refutes Plaintiffs’ attempt to equate the
Interstate and Indian Commerce Clauses. Indeed, since
the framing of the Constitution, “Indian ‘commerce’
[has] mean[t] something different” than “interstate
commerce.” Id. The Framers debated and approved the
Indian Commerce Clause separately from the Interstate
Commerce Clause, and, during ratification, the clauses
were viewed as so distinct in content that “no one during
ratification interpreted the Indian Commerce Clause to
shed light on the Interstate ... Commerce Clause[ ], or
vice versa.” Id. at 1027; see also Matthew L.M.

92a
FLETCHER, ICWA and the Commerce Clause, in THE
INDIAN CHILD WELFARE ACT AT 30: FACING THE
FUTURE 32 (FLETCHER et al. eds., 2009) [hereinafter
FLETCHER, ICWA and the Commerce Clause]. Though
both provisions use the term “commerce,” the historical
evidence from the time of the Constitution’s framing
indicates that interpreting “commerce” identically in the
Interstate and Indian Commerce Clauses is a “trap” that
“would tend to obliterate the original meaning and
intent of the Indian Commerce Clause.” FLETCHER,
ICWA and the Commerce Clause, supra, at 31. Put
simply, “[c]ommerce with Indian tribes must be
interpreted on its own terms rather than in the shadow
of ... the Interstate Commerce Clause.” Ablavsky,
Beyond the Indian Commerce Clause, supra, at 1028,
1029 (noting that eighteenth century references to
“commerce” with Indians included the exchange of
religious ideas with tribes and sexual intercourse with
Indians); see also FLETCHER, ICWA and the Commerce
Clause, supra at 8-9.
Legislation from the beginning of the Constitutional
era further demonstrates that the Constitution confers
synergistic and comprehensive powers on the federal
Government to manage relations with Indian tribes,
regardless of whether the regulated activity is economic
in nature. As noted above, the Indian Intercourse Act of
1790 embraced many noneconomic subjects, including
the regulation of criminal conduct by non-Indians
against Indians. In enacting the law, the First Congress
plainly conceived of its power to extend into regulation
of noneconomic activity relating to Indian tribes. See
Jack M. Balkin, Commerce, 109 MICH. L. REV. 1, 24-26

93a
(2010) (discussing the Act and its successors and stating
that “Congress clearly believed that it could reach both
economic and noneconomic activity under the Indian
Commerce Clause,” given that the Act reaches
noneconomic criminal conduct, such as murder); see also
Akhil Reed Amar, America’s Constitution and the Yale
School of Constitutional Interpretation, 115 YALE L.J.
1997, 2004 n.25 (2006). Since then, Congress has
repeatedly exercised its Indian affairs authority for
matters far beyond mere economic exchange. See, e.g.,
Indian Health Care Improvement Act, 25 U.S.C. §§ 1601
et seq.; Tribally Controlled Community College
Assistance Act, 25 U.S.C. § 1801(7)(B).
Furthermore, “[t]he scope of federal power under
the Indian commerce clause has developed under
Supreme Court decisions differently than the powers
over foreign and interstate commerce.” COHEN’S, supra,
§ 4.01[1][a]. The Court has explicitly underscored the
distinction between the clauses, explaining that “the
Indian Commerce Clause accomplishes a greater
transfer of power from the States to the Federal
Government than does the Interstate Commerce
Clause.” Seminole Tribe, 517 U.S. at 62, 116 S. Ct. 1114
(observing that, though “the States still exercise some
authority over interstate trade[, they] have been
divested of virtually all authority over Indian commerce
and Indian tribes”). In short, it is “well established that
the Interstate Commerce and Indian Commerce Clauses
have very different applications”; unlike the former
clause, which “is concerned with maintaining free trade
among the States,” “the central function of the Indian
Commerce Clause is to provide Congress with plenary

94a
power to legislate in the field of Indian affairs.” Cotton
Petroleum Corp. v. New Mexico, 490 U.S. 163, 192, 109
S. Ct. 1698, 104 L. Ed. 2d 209 (1989) (emphasis added);
see also United States v. Lomayaoma, 86 F.3d 142, 145
(9th Cir. 1996) (noting that the Indian Commerce clause
“confers more extensive power on Congress than does
the Interstate Commerce Clause”). And the Supreme
Court has continually made clear that Congress’s Indian
affairs power is not limited to regulating economic
activity. See Lara, 541 U.S. at 200, 124 S. Ct. 1628
(affirming power of tribes to criminally prosecute
nonmembers); United States v. Holliday, 70 U.S. (3
Wall.) 407, 410-11, 416-17, 18 L. Ed. 182 (1865) (upholding
under the Indian Commerce Clause a federal statute
that criminally sanctioned the sale of liquor to Indians,
reasoning that the law “regulates the intercourse
between the citizens of the United States and [Indian]
tribes, which is another branch of commerce, and a very
important one”); Worcester, 31 U.S. at 559 (explaining
that the array of Indian affairs powers conferred on
Congress by the Constitution “comprehend all that is
required for the regulation of our intercourse with the
Indians”). Any contention that ICWA is beyond
Congress’s authority to legislate with regard to Indian
affairs is unfounded.
Alternatively, Plaintiffs argue that, even if the
Constitution grants Congress plenary power with
respect to Indian affairs, ICWA nonetheless exceeds
Congress’s legislative authority because it reaches
Indian children who are not yet enrolled tribal members.
We find no merit in this argument. Pursuant to its Indian
affairs power, Congress has long regulated persons

95a
without any tribal connection when their conduct affects
Indians. See, e.g., Indian Intercourse Act, § 1, 1 Stat. 137
(requiring any person who seeks “to carry on any trade
or intercourse with the Indian tribes” to obtain a license
from the federal government); United States v. Mazurie,
419 U.S. 544, 556-58, 95 S. Ct. 710, 42 L. Ed. 2d 706 (1975)
(upholding federal criminal statute, passed pursuant to
the Indian Commerce Clause and applied to non-Indians
for conduct on private, non-Indian land within a
reservation). Indeed, “Congress’ plenary powers to
legislate on the problems of Indians” often results in
statutes that impact—and are directly aimed at—nonIndians. Antoine, 420 U.S. at 203, 95 S. Ct. 944; see also
Dick v. United States, 208 U.S. 340, 357, 28 S. Ct. 399, 52
L. Ed. 520 (1908) (“As long as these Indians remain a
distinct people, with an existing tribal organization,
recognized by the political department of the
government, Congress has the power to say with whom,
and on what terms, they shall deal ....”). This type of
regulation has been upheld repeatedly, even when it
extends outside the bounds of the reservation or Indian
country. See, e.g., United States v. Nice, 241 U.S. 591,
597, 36 S. Ct. 696, 60 L. Ed. 1192 (1916) (“The power of
Congress to regulate or prohibit traffic in intoxicating
liquor with tribal Indians within a state, whether upon
or off an Indian reservation, is well settled. It has long
been exercised, and has repeatedly been sustained by
this court.”) (emphasis added); United States v. FortyThree Gallons of Whiskey, 93 U.S. 188, 195, 23 L. Ed. 846
(1876) (sustaining Congress’s power to require
forfeiture of liquor sold outside of Indian country by a
non-Indian to a tribal member); Holliday, 70 U.S. (3
Wall.) at 416-17 (upholding statute that criminally

96a
sanctioned sale of liquor by a non-Indian to an Indian
outside of Indian country); COHEN’S, supra, § 5.01[3]
(explaining that the Indian Commerce Clause
comprehends “transactions outside of Indian country.”).
Simply put, Congress’s Indian affairs power does not
hinge on whether an entity affected by a regulation is a
member of an Indian tribe, and there is no authority in
the case law for the novel constraint on congressional
power that Plaintiffs proffer.
JUDGE DUNCAN’s objections to Congress’s power to
enact ICWA center on concerns that the statute
impermissibly interferes with state sovereignty by
legislating federal protections applicable to Indian
children in state child welfare proceedings. He raises
similar contentions when arguing that ICWA
contravenes the anticommandeering principle, which we
address below in our anticommandeering discussion. See
infra Discussion Part II.A.2. But that issue is distinct
from the question of whether Congress under Article I
may legislate on the particular subject matter at issue:
providing minimum protections for Indian children and
families in child custody proceedings in order to prevent
and rectify the massive removal of Indian children from
their communities.29 See supra note 21. To the extent the
29

The opposing opinion misreads us as somehow suggesting that the
“Tenth Amendment vanishes” when Congress has plenary power to
legislate in a certain field. SEE DUNCAN, CIRCUIT JUDGE, OP. at 28.
To the contrary, we have explained that the question of Congress’s
Article I authority to legislate on a given subject matter is separate
from the anticommandeering inquiry and other federalism
concerns—as well as other constitutional constraints on Congress’s
legislative authority. See supra note 21. And our analysis therefore
tracks this basic understanding about the distinct constitutional

97a
opposing opinion alleges a Tenth Amendment violation
independent of any anticommandeering problem,
centuries of Supreme Court precedent declaring
Congress’s duty to protect tribes from the states and
Congress’s corresponding “plenary power[ ] to legislate
on the problems of Indians” compel us to reject JUDGE
DUNCAN’s arguments for imposing new restraints on
this authority. Antoine, 420 U.S. at 203, 95 S. Ct. 944; see
also, e.g., Mancari, 417 U.S. at 551-52, 94 S. Ct. 2474;
Kagama, 118 U.S. at 383-84, 6 S. Ct. 1109. Indeed,
preventing the states from exercising their sovereign
power in a manner that interferes with federal policy
toward the Indian tribes is precisely what the
Constitution was intended to do. See Worcester, 31 U.S.
at 559 (“[The Constitution] confers on congress the
powers of war and peace; of making treaties, and of
regulating commerce with foreign nations, and among
the several states, and with the Indian tribes. These
powers comprehend all that is required for the
regulation of our intercourse with the Indians. They are
not limited by any restrictions on their free actions. The
shackles imposed on this power, in the confederation, are
discarded.”). It was exactly this concern that led the
Framers to confer on the federal government exclusive,
plenary power over Indian affairs through myriad
interrelated constitutional provisions. See Ablavsky,
Beyond the Indian Commerce Clause at 1043-44.
inquiries presented: first, we address whether ICWA is within the
range of Congress’s Indian affairs authority, and second, we
consider whether ICWA contravenes the anticommandeering
doctrine. Compare Discussion Part II.A.1 with Discussion
Part.II.A.2.

98a
JUDGE DUNCAN’s argument suffers from another
fundamental defect. His overarching premise is that
ICWA violates the Tenth Amendment—and thus
exceeds Congress’s Article I authority—because it
“encroaches” on an area of “traditional” state regulation,
the field of domestic relations. DUNCAN, CIRCUIT
JUDGE, OP. at 15, 40 n.58. Yet, as JUDGE HIGGINSON
cogently explains, this assertion is squarely at odds with
the Supreme Court’s decision in Garcia v. San Antonio
Metropolitan Transit Authority, where the Court
emphatically
rejected
as
unprincipled
and
unadministrable a conception of Tenth Amendment
protections that turns on whether a regulated activity is
one that is traditionally within a state’s purview.
HIGGINSON, CIRCUIT JUDGE, OP. at 1-2; see Garcia, 469
U.S. 528, 546-47, 105 S. Ct. 1005, 83 L. Ed. 2d 1016 (1985)
(“We therefore now reject, as unsound in principle and
unworkable in practice, a rule of state immunity from
federal regulation that turns on a judicial appraisal of
whether a particular governmental function is ‘integral’
or ‘traditional.’”)
First, “[t]here is no ‘general doctrine implied in the
Federal Constitution that the two governments,
national and state, are each to exercise its powers so as
not to interfere with the free and full exercise of the
powers of the other.’” Maryland v. Wirtz, 392 U.S. 183,
195, 88 S. Ct. 2017, 20 L. Ed. 2d 1020 (1968) (quoting Case
v. Bowles, 327 U.S. 92, 101, 66 S. Ct. 438, 90 L. Ed. 552
(1946)). Rather, pursuant to the Supremacy Clause, “the
Federal Government, when acting within a delegated
power, may override countervailing state interests,”
whether those interests are labeled traditional,

99a
fundamental, or otherwise. Id. In ratifying the
Constitution, the states consented to the subordination
of their interests—even those interests that are
traditional state prerogatives—to those of the federal
government when it acts pursuant to its constitutional
powers. See Garcia, 469 U.S. at 549, 105 S. Ct. 1005. “In
the words of James Madison to the Members of the First
Congress: ‘Interference with the power of the States
was no constitutional criterion of the power of Congress.
If the power was not given, Congress could not exercise
it; if given, they might exercise it, although it should
interfere with the laws, or even the Constitution of the
States.’” Id. (quoting 2 Annals of Cong. 1897 (1791)).
Moreover, on a more practical level, requiring courts
to attempt to ascertain whether a given area of
regulation is sufficiently within the historical province of
states to qualify for protection would “result in linedrawing of the most-arbitrary sort.” Id. at 545, 105 S. Ct.
1005. “[T]he genesis of state governmental functions
stretches over a historical continuum from before the
Revolution to the present, and courts would have to
decide by fiat precisely how longstanding a pattern of
state involvement had to be for federal regulatory
authority to be defeated.” Id. And, as the Garcia Court
observed, aside from longevity, there is a total lack “of
objective criteria” by which to identify unenumerated
“fundamental’ elements of state sovereignty.” Id. at 549,
105 S. Ct. 1005.
The Garcia Court therefore held that the entirety of
the constitutional protections for states’ retained
sovereignty in the federalist system are found in the
limitations inherent in Congress’s enumerated Article I

100a
powers30 and “in the structure of the Federal
government itself,” which assigns the states a role in,
among other things, selecting the executive and
legislative branches of the federal government. Id. at
550-51, 105 S. Ct. 1005. This structure reflects the
Framers’ desire “to protect the States from
overreaching by Congress” through their participation
in the democratic system and the political process, and
not by judicial assessment of whether a federal practice
intrudes on some inviolable area of state sovereignty
that went unmentioned in the Constitution despite its
supposed importance. Id. In short, Garcia made clear
that any “attempt to draw the boundaries of state
regulatory immunity in terms of ‘traditional
governmental function’ is not only unworkable but is
also inconsistent with established principles of
federalism.” Id. at 554, 105 S. Ct. 1005.
As JUDGE HIGGINSON points out, this is precisely
the type of disfavored line drawing in which JUDGE
DUNCAN’s opinion engages: it erroneously attempts to
shield states from ICWA’s minimum protections on the
30

The modern anticommandeering doctrine was developed postGarcia, and it is also rooted in the Tenth Amendment’s reservation
of state sovereignty. See, e.g., New York, 505 U.S. at 188, 112 S. Ct.
2408; Printz, 521 U.S. at 932, 117 S. Ct. 2365. And the Court has of
course long recognized that states retain sovereign immunity from
most private suits, including in post-Garcia decisions. See, e.g.,
Seminole Tribe, 517 U.S. at 47, 116 S. Ct. 1114. Garcia, nevertheless,
remains good law, as evidenced by citations to it in the Court’s
leading anticommandeering cases, see New York, 505 U.S. at 155,
112 S. Ct. 2408; Printz, 521 U.S. at 932, 117 S. Ct. 2365, meaning the
type of unenumerated spheres of state sovereignty JUDGE DUNCAN
relies upon simply do not exist.

101a
ground that the law touches on domestic relations, a
sphere of regulation “traditionally” within the purview
of states. HIGGINSON, CIRCUIT JUDGE, OP. at 1-2. The
opposing opinion thus “risks resuscitating a
misunderstanding of state sovereignty that entangles
judges with the problematic policy task of deciding what
issues are so inherent in the concept and history of state
sovereignty that they fall beyond the reach of
Congress.” HIGGINSON, CIRCUIT JUDGE, OP. at 2.
Recognizing that Garcia’s reasoning dooms its
argument, the opposing opinion attempts to distinguish
that decision based on the fact that the statute at issue
in Garcia was enacted pursuant to Congress’s Interstate
Commerce Clause authority, whereas ICWA stems from
Congress’s power over Indian affairs. See DUNCAN,
CIRCUIT JUDGE, OP. at 40 n.58. However, the Garcia
Court’s reasoning for expressly rejecting a Tenth
Amendment test that looks to whether a federal
regulation encroaches on a ‘traditional governmental
function’ applies with equal force regardless of the
enumerated power pursuant to which Congress acts.
Moreover, it would be nonsensical for the Tenth
Amendment to impose more stringent federalism
limitations on Congress when it regulates under its
Indian affairs authority than under its Interstate
Commerce power. It is well settled that states retain
sovereign authority under the Tenth Amendment “only
to the extent that the Constitution has not divested
them of their original powers and transferred those
powers to the Federal Government,” id. at 549, 105 S.
Ct. 1005, and “the Indian Commerce Clause
accomplishes a greater transfer of power from the

102a
States to the Federal Government than does the
Interstate Commerce Clause.” Seminole Tribe, 517 U.S.
at 62, 116 S. Ct. 1114. In other words, if any distinction
exists between the limitations federalism places on
Congress’s Indian affairs power and its Interstate
Commerce power, it would be that Congress has more
freedom to regulate with respect to Indian affairs, not
less. See id.; Cotton Petroleum Corp., 490 U.S. at 192, 109
S. Ct. 1698; see also Lomayaoma, 86 F.3d at 145;
Ablavsky, Beyond the Indian Commerce Clause, supra
at 1043-44.
The opposing opinion further contends that Garcia
is inapposite because that case “concerned whether
‘incidental application’ of general federal laws
‘excessively interfered with the functioning of state
governments.’” DUNCAN, CIRCUIT JUDGE, OP. at 40 n.58
(quoting Printz, 521 U.S. at 932, 117 S. Ct. 2365). But the
same is true with ICWA. Like the provision of the Fair
Labor Standards Act at issue in Garcia that applied to
both public and private employers, ICWA is a generally
applicable law. Under the statute, as explained infra
Discussion Part II.A.2.b, any burdens faced by states
are “nothing more than the same ... obligations” that
“private [actors] have to meet.” Garcia, 469 U.S. at 554,
105 S. Ct. 1005. Because ICWA’s mandates may be
borne either by private actors or state actors, any
burdens on states are “merely incidental applications” of
the statute. Printz, 521 U.S. at 932, 117 S. Ct. 2365.
JUDGE DUNCAN thus fails to persuasively distinguish
Garcia, confirming that the opposing opinion’s argument
for limiting Congress’s Indian affairs authority under
the Tenth Amendment is “unsound in principle and

103a
unworkable in practice.” Garcia, 469 U.S. at 546, 105 S.
Ct. 1005.
The opposing opinion also posits, in essence, that
Congress’s authority to enact ICWA turns on whether
there is either a Supreme Court decision blessing a
statute that operates just like ICWA or a Founding-era
federal law that regulates Indian children and applies
within state child welfare proceedings. See DUNCAN,
CIRCUIT JUDGE, OP. at 29-56. Because neither exist,
ICWA must fall, according to the opposing opinion. Such
reasoning is misguided.
First, it is unsurprising that there is no Foundingera federal Indian statute conferring rights that apply in
state proceedings. As JUDGE COSTA notes, it would have
been anachronistic and bizarre for the early Congresses
to have passed a law specifically pertaining to child
custody proceedings because it was not until the middle
of the nineteenth century that state adoption law shifted
to allow for the adjudication of child placements in
judicial proceedings. See COSTA, CIRCUIT JUDGE, OP. at
16-17; see also Naomi Cahn, Perfect Substitutes or the
Real Thing?, 52 DUKE L.J. 1077, 1112-17 (2003). And
there was no need during the Founding era for
legislation that operated like ICWA as there was no
massive removal of Indian children from their families at
the hands of state administrative or judicial bodies. It
was only during the 1970s that the scale of the ongoing,
state-driven problem of Indian child removal was
brought to Congress’s attention. See supra Background
Part IV. Over a four-year span, Congress considered
voluminous evidence of the systematic removal of Indian
children from their families and tribes through state

104a
proceedings. FLETCHER, FEDERAL INDIAN LAW, supra
§ 8.8. Faced with the unique and alarming nature of this
evil, Congress determined it was necessary to enact
ICWA in order to protect Indian children, families, and
tribes within those state proceedings. Thus, deciding
ICWA’s constitutionality by looking to whether the
Founders enacted a federal law conferring rights to
Indian families and tribes within child custody
proceedings is as nonsensical as deciding that federal
regulation of the internet is unconstitutional because the
early Congresses lacked the prescience to regulate a
non-existent technology.
Second, the absence of a Supreme Court decision
squarely addressing a federal Indian statute that creates
rights applicable in state proceedings does not lend
credence to the opposing opinion’s position. As discussed
infra Discussion Part II.A.2.a.i, the Supreme Court has
repeatedly held that state courts are bound by the
Supremacy Clause to apply validly preemptive federal
law, and there is thus ample Supreme Court precedent
supporting Congress’s authority to enact laws applicable
in state proceedings. See, e.g., McCarty v. McCarty, 453
U.S. 210, 235-36, 101 S. Ct. 2728, 69 L. Ed. 2d 589 (1981)
(federal military benefits statute guaranteeing “retired
pay” to a retired servicemember preempted state’s
community property law that otherwise would have
provided upon divorce for dividing the retirement pay
between the former spouses); Hisquierdo v. Hisquierdo,
439 U.S. 572, 590, 99 S. Ct. 802, 59 L. Ed. 2d 1 (1979)
(federal Railroad Retirement Act’s scheme for pension
benefits, which excluded a spouse of a railroad employee
from entitlement to such benefits upon divorce,

105a
preempted state law’s definition of community property
subject to division). That there may be no case affirming
a federal statute that creates rights related to Indians
that apply in state courts evidences only the history just
discussed and the fact that few questioned Congress’s
ability to legislate in this manner given the wealth of
Supreme Court precedents upholding the preemptive
force of federal law. Indeed, ICWA itself has been a part
of the United State Code for over forty years without a
significant Tenth Amendment challenge to the law
reaching the Supreme Court or the courts of our sister
circuits, which would surely be puzzling if the statute
were truly the radical, unprecedented federal overreach
that the opposing opinion contends. Thus, the lack of a
Supreme Court case directly addressing an Indian law
like ICWA that creates rights applicable in state court
proceedings speaks not to the absence of federal
authority to enact such a statute, but instead to
historical circumstance and federal authority that is so
well established as to be unquestionable.
To summarize, ICWA’s constitutionality does not
hinge on JUDGE DUNCAN’s exceptionally pinched
framing that would have the statute rise or fall based on
the historical sanctioning of an exact analogue that
Congress would have had no occasion to enact. Rather,
the salient question is whether the history and text of
the Constitution and congressional practice suggest that
ICWA is within Congress’s plenary Indian affairs
authority. See Noel Canning, 573 U.S. at 533, 134 S. Ct.
2550 (“The Founders knew they were writing a
document designed to apply to ever-changing
circumstances over centuries. After all, a Constitution is

106a
‘intended to endure for ages to come,’ and must adapt
itself to a future that can only be ‘seen dimly,’ if at all.”
(quoting M’Culloch v. Maryland, 17 U.S. (4 Wheat). 316,
415, 4 L. Ed. 579 (1819))); Heller, 554 U.S. at 578, 128 S.
Ct. 2783. Given the extensive history of federal
government efforts to provide for the welfare of Indian
children and tribes, including legislation specifically
designed to protect Indians from mistreatment by the
states and their citizens, this question can only be
answered in the affirmative.
Searching in vain for case law to support its
unorthodox position, the opposing opinion improvidently
relies on two inapposite Supreme Court decisions,
Seminole Tribe of Florida v. Florida, 517 U.S. 44, 116 S.
Ct. 1114, 134 L. Ed. 2d 252 (1996), and United States v.
Lara, 541 U.S. 193, 124 S. Ct. 1628, 158 L. Ed. 2d 420
(2004). In Seminole Tribe, the Court considered an issue
wholly absent from the present case: Congress’s power
to abrogate states’ sovereign immunity. 517 U.S. at 47,
116 S. Ct. 1114. That case concerned the Indian Gaming
Regulatory Act, which was passed pursuant to the
Indian Commerce Clause. Id. One provision in the law
authorized tribes to sue states in federal court to compel
them to negotiate in good faith to establish a tribal-state
compact governing gaming activities. Id. The Court
nullified that provision; it reasoned that, although the
Constitution vests Congress with “complete law-making
authority” with respect to Indian affairs, “the Eleventh
Amendment [generally] prevents congressional
authorization of suits by private parties against
unconsenting states.” Id. at 72, 116 S. Ct. 1114.

107a
JUDGE DUNCAN emphasizes this uncontroversial
statement, but it does not advance his argument.
DUNCAN, CIRCUIT JUDGE, OP. at 35-36. In holding that
Congress could not abrogate a state’s sovereign
immunity pursuant to its Indian affairs power, Seminole
Tribe simply recognized that, even when Congress holds
plenary authority over a field of legislation, that power
is still subject to limitations imposed by other
constitutional provisions. See id.; Williams, 393 U.S. at
29, 89 S. Ct. 5; Condon, 528 U.S. at 149, 120 S. Ct. 666. It
is for this reason that, as explained supra note 21, we
first address Congress’s Article I authority to legislate
over ICWA’s subject matter and then separately
consider whether ICWA is consistent with the
anticommandeering doctrine and other constitutional
guarantees.
To the extent JUDGE DUNCAN asserts that Seminole
Tribe prohibits Congress from regulating in state
“sovereign matters like adoption proceedings,”
DUNCAN, CIRCUIT JUDGE, OP. at 36, we disagree.
Seminole Tribe addressed only limitations on Congress’s
power to override states’ sovereign immunity from suit
by private parties. See id. at 47. It has no bearing on the
scope of Congress’s Article I authority when, as here,
private suits against a state are not at issue. Indeed, the
Court carefully noted that its opinion in no way touched
upon other aspects of the Tenth Amendment. See id. at
61 n.10 (expressly declining to opine on whether the
statute contravened the anticommandeering doctrine
because this argument “was not considered below ... and
is not fairly within the question presented”); see also id.
at 183 n.65 (Souter, J., dissenting) (cautioning that the

108a
views expressed in his dissenting opinion on the issue of
state sovereign immunity “should not be understood [as]
tak[ing] a position on” the “scope of the Tenth
Amendment” in other respects). Furthermore, the
Supreme Court has expressly held that even in fields
like domestic relations that are generally the exclusive
territory of state regulation, Congress can enact
legislation that preempts contrary state law. See, e.g.,
McCarty, 453 U.S. at 235-36, 101 S. Ct. 2728. In sum, any
reliance on Seminole Tribe as imposing a limit on
Congress’s ability to exercise its Indian affairs authority
to create federal rights that apply within child custody
proceedings is misplaced.31
The Supreme Court’s decision and reasoning in
Lara, 541 U.S. at 196, 124 S. Ct. 1628, also does not apply
to the present case. There, the Court considered the
constitutionality of a statute enacted in response to an
earlier Court ruling in Duro v. Reina, 495 U.S. 676, 110
S. Ct. 2053, 109 L. Ed. 2d 693 (1990). In Duro, the Court
held that tribes had been dispossessed of their inherent
authority to prosecute nonmember Indians by virtue of
their status as dependent sovereigns subject to the
authority of the United States. Id. at 679, 110 S. Ct. 2053.
Congress promptly passed a law seeking to avoid the
31

We note that JUDGE DUNCAN mischaracterizes the Defendants as
supposedly making the “core” argument that simply because
Congress has plenary authority over Indian affairs it “can ipso
facto” regulate sovereign state affairs. DUNCAN, CIRCUIT JUDGE,
OP. at 33-34, 36 n.52. This contention is not raised in the Defendants’
briefing nor was it advanced at oral argument. Defendants’ actual
argument is that, as an initial matter, Congress has authority to
enact ICWA and second that ICWA does not violate the
anticommandeering doctrine.

109a
Court’s ruling in Duro by “recogniz[ing] and
reaffirm[ing]” that tribes’ inherent sovereignty includes
the power to exercise criminal jurisdiction over
nonmember Indians. Lara, 541 U.S. at 196, 124 S. Ct.
1628; see also United States v. Enas, 255 F.3d 662, 669
(9th Cir. 2001) (citing 25 U.S.C. § 1301(2)). That statute
was challenged in Lara as exceeding Congress’s
authority. See 541 U.S. at 200, 124 S. Ct. 1628. The case
thus presented the specific question of whether
Congress could statutorily alter limits that had been
placed on tribes’ inherent sovereign powers as a result
of their dependent status.
The Court answered this question in the affirmative,
reasoning that Congress was in effect “relax[ing]
restrictions that the political branches” had previously
placed on the exercise of inherent tribal authority. Id. at
196, 124 S. Ct. 1628. In recognizing Congress’s power to
remove such restrictions, the Court discussed several
relevant considerations. For example, one consideration
was that Congress, with the Court’s approval, had a
long-established practice of adjusting the limits on the
sovereign authority of tribes and other “dependent
entities” such as Hawai’i and Puerto Rico. Id. 203-04, 124
S. Ct. 1628. This history of congressional action was
germane to deciding whether Congress could continue
to adjust the scope of tribal autonomy. However, the
Lara Court’s considerations are of no relevance where,
as with ICWA, Congress is not altering the scope of
tribes’ retained sovereign power.
Instead, in enacting ICWA, Congress simply
employed its power to set policy with respect to the
Indian tribes by conferring minimum federal protections

110a
on Indian children, parents, and tribes in state child
custody
proceeding.
Stated
differently,
the
considerations in Lara are inapplicable because, unlike
the statute at issue in Lara, ICWA affirmatively grants
new rights, protections, and safeguards to individual
Indians and tribes in state proceedings and does not
restore or remove any inherent sovereign authority the
tribes possessed prior to their becoming dependents of
the United States. Take, for instance, § 1911(b), which
permits tribes to intervene in an off-reservation child
custody case and invoke ICWA’s placement preferences.
That this provision cannot be read to restore sovereign
authority to a tribe is clear from the fact that it grants
the very same right to an Indian child’s parents or
relatives; a power cannot be sovereign in nature if it can
just as easily be exercised by individual tribal members
as by tribes themselves. Cf. Lara, 541 U.S. at 200, 124 S.
Ct. 1628 (upholding tribes’ inherent sovereign power to
prosecute nonmember Indians). Similarly, § 1912(b)
provides indigent Indian parents or custodians a right to
appointed counsel in state child custody proceedings—a
right not conferred on the sovereign tribes at all. These
provisions grant rights to Indian tribes, parents, and
relatives pursuant to Congress’s power to regulate
relations between states, the federal government, and
the tribes, and they simply do not implicate the Indian
tribes’ inherent sovereign power.32

32

JUDGE DUNCAN is correct that in Lara the Court noted that it was
not confronted “with a question dealing with potential
constitutional limitations on efforts to legislate far more radical
changes in tribal status.” Lara, 541 U.S. at 205, 124 S. Ct. 1628;
DUNCAN, CIRCUIT JUDGE, OP. at 33-34 n.33. But as explained above,

111a
In sum, Lara’s unique analytical approach cannot be
applied wholesale to assess an enactment like ICWA
that does not restore tribal sovereignty but instead
affirmatively regulates Indian affairs by establishing a
range of federal protections that apply when an Indian
child is involved in a state child custody proceeding.
Lara’s reasoning is therefore far removed from the
Article I issue presented in this case.
Based on the Framers’ intent to confer on the
federal Government exclusive responsibility for Indian
affairs, the centuries-long history of the Government’s
exercise of this power, and the extensive body of binding
Supreme Court decisions affirming and reaffirming this
authority, we conclude that ICWA “represent[s] the
exercise of [ ] power[s] conferred on Congress by the
Constitution.” Murphy, 138 S. Ct. at 1479. At a bare
minimum, ICWA is “necessary and proper,” U.S. CONST.
art. I, sec. 8—that is, “plainly adapted,” M’Culloch v.
Maryland, 17 U.S. (4 Wheat). 316, 421, 4 L. Ed. 579
(1819)—to solving “the problems of Indians,” Antoine,
420 U.S. at 203, 95 S. Ct. 944, and thus fulfilling the
federal government’s trust duty to the tribes as it is
squarely targeted at rectifying “perhaps the most tragic
and destructive aspect of Indian life.” H.R. REP. No. 951386, at 9-10.33 A contrary holding would render
Congress impotent to remedy and prevent repetition of
ICWA does not effect any change whatsoever in tribal sovereignty.
JUDGE DUNCAN is therefore incorrect that the instant challenge to
ICWA presents the question Lara left undecided.
33

Notably, Plaintiffs do not expressly contend that ICWA exceeds
the auxiliary powers granted to Congress under the Necessary and
Proper Clause.

112a
the depredations visited upon Indian children, tribes,
and families, an injustice to which the federal
Government itself has contributed and apologized. See
146 CONG. REC. E1453 (Sept. 12, 2000) (quoting apology
of Assistant Secretary for Indian Affairs, Department of
the Interior remarks on Sept. 8, 2000). Such a result
would be not only a sad irony, but a grievous judicial
straitjacketing of a coordinate branch of government.
We decline to vitiate Congress’s authority in a field in
which the Supreme Court has held that it wields plenary
power. See Lara, 541 U.S. at 200, 124 S. Ct. 1628 (2004);
Ramah Navajo Sch. Bd., Inc., 458 U.S. at 837, 102 S. Ct.
3394; White Mountain Apache Tribe, 448 U.S. at 142, 100
S. Ct. 2578. Instead, we follow the Court’s sustained
admonitions that Congress is empowered fully to make
good on its trust obligations to Indian tribes. See, e.g.,
Mancari, 417 U.S. at 551-52, 94 S. Ct. 2474; Antoine, 420
U.S. at 203, 95 S. Ct. 944; Kagama, 118 U.S. at 383-84, 6
S. Ct. 1109.
2.

ICWA
Does
Not
Violate
Anticommandeering Principle.

the

We turn to the second prong of the preemption
analysis and consider whether ICWA runs afoul of the
anticommandeering doctrine. Under the Articles of
Confederation, the federal government largely lacked
the power to govern the people directly and instead was
restricted to giving commands to the states that it was
often powerless to enforce. New York, 505 U.S. at 16162, 112 S. Ct. 2408 (citing Lane Cnty. v. Oregon, 74 U.S.
(7 Wall.) 71, 76, 19 L. Ed. 101 (1868)). To rectify this
impotency, the Framers inverted this relationship in the
Constitution, empowering Congress to “exercise its

113a
legislative authority directly over individuals rather
than over States.” Id. at 164, 112 S. Ct. 2408. Citing this
history, Justice O’Connor inaugurated the modern
anticommandeering doctrine, in New York v. United
States, stating that it represents the Framers’ structural
decision to withhold from Congress the power to directly
command state executives and state legislatures to do
its bidding. See id.
The Constitution’s Supremacy Clause, provides,
however, that “the Laws of the United States ... shall be
the supreme Law of the Land; and the Judges in every
State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. CONST. art. VI, cl. 2. Thus, a
distinction exists between a law that unconstitutionally
“conscript[s] state governments as [the federal
government’s] agents,” New York, 505 U.S. at 178, 112
S. Ct. 2408, and a law that establishes federal rights or
obligations that the states must honor despite any
conflict with state law. We consider, then, whether
ICWA falls into the former camp or the latter.
a.

In Requiring State Courts to Apply
Preemptive Federal Law, ICWA Does
Not Violate the Anticommandeering
Doctrine.

The district court determined that ICWA
unconstitutionally commandeers the states by requiring
state courts to apply its minimum protections in their
child custody proceedings. However, when considering
whether a federal law violates the anticommandeering
doctrine, the Supreme Court has consistently drawn a

114a
distinction between a state’s courts and its political
branches.
Because the Supremacy Clause obligates state
courts to apply federal law as the “supreme Law of the
Land” and provides that “the Judges in every State shall
be bound thereby,” the anticommandeering principle
that Justice O’Connor formulated in New York does not
apply to properly enacted federal laws that state courts
are bound to enforce. As Justice Scalia made clear in
Printz, “the Constitution was originally understood to
permit imposition of an obligation on state judges to
enforce federal prescriptions, insofar as those
prescriptions related to matters appropriate for the
judicial power.” Printz, 521 U.S. at 907, 117 S. Ct. 2365.
State courts were viewed as distinctive because, “unlike
[state] legislatures and executives, they applied the law
of other sovereigns all the time,” including federal law as
mandated by the Supremacy Clause. Id. Thus, it is wellestablished that Congress has the power to pass laws
enforceable in state courts. See Palmore v. United
States, 411 U.S. 389, 402, 93 S. Ct. 1670, 36 L. Ed. 2d 342
(1973); Testa v. Katt, 330 U.S. 386, 394, 67 S. Ct. 810, 91
L. Ed. 967 (1947); see also Second Employers’ Liability
Cases, N.H. & H.R. Co., 223 U.S. 1, 57, 32 S. Ct. 169, 56
L. Ed. 327 (1912); Claflin v. Houseman, 93 U.S. 130, 13637, 23 L. Ed. 833 (1876). Although these “[f]ederal
statutes enforceable in state courts do, in a sense, direct
state judges to enforce them, ... this sort of federal
‘direction’ of state judges is mandated by the text of the
Supremacy Clause.” New York, 505 U.S. at 178-79, 112
S. Ct. 2408. In other words, it is inherent in the
Supremacy Clause’s provision that federal law “shall be

115a
the supreme Law of the Land” that state courts must
enforce federal law. U.S. CONST. art. VI, cl. 2.
In the district court’s erroneous view, ICWA’s
standards do not bind states courts because ICWA itself
does not supply a federal cause of action. Although the
district court noted the settled principle that state
courts must apply federal law to a federal cause of action,
it did not recognize the equally settled obligation on
state courts to honor federal rights when they are
implicated in a case arising out of a state-law cause of
action. Failing to appreciate this duty, the court below
thought that ICWA cannot bind state courts because it
“modif[ies]” the substantive standards applicable to
child custody cases, which arise from state law. Thus, the
district court believed that ICWA improperly
commandeers state courts and therefore cannot
preempt conflicting state law.
There is no support in the Supreme Court’s
precedents for this novel limit on federal preemption.
See, e.g., Haywood v. Drown, 556 U.S. 729, 736, 129 S. Ct.
2108, 173 L. Ed. 2d 920 (2009) (“[A]lthough States retain
substantial leeway to establish the contours of their
judicial systems, they lack authority to nullify a federal
right or cause of action they believe is inconsistent with
their local policies.” (emphasis added)). The Supreme
Court has long made clear that, even in areas of
traditional state prerogative, such as domestic relations,
a federal right may preempt state causes of action “to
the extent of any conflict” between the two. Hillman v.
Maretta, 569 U.S. 483, 490-91, 133 S. Ct. 1943, 186 L. Ed.
2d 43 (2013) (quoting Crosby, 530 U.S. at 372, 120 S. Ct.
2288). In other words, when the standard application of

116a
substantive state family law “clearly conflict[s]” with
“federal enactments” in an area in which Congress may
validly exercise its Article I authority, state law “must
give way.” Id. (quoting Ridgway v. Ridgway, 454 U.S.
46, 55, 102 S. Ct. 49, 70 L. Ed. 2d 39 (1981)) (federal
statute requiring that life insurance benefits be paid
according to a specific “order of precedence” preempted
state law directing that proceeds be paid to a different
beneficiary).
More to the point, the Supreme Court has expressly
held that federal law can “modify” the substance of state
law claims. Take, for example, McCarty v. McCarty, 453
U.S. 210, 101 S. Ct. 2728, 69 L. Ed. 2d 589 (1981). There,
a federal military benefits statute provided for a
different division of retirement benefits upon divorce
than a state’s community property law. Id. at 235-36, 101
S. Ct. 2728. The Court held that the federal law
preempted state law, thereby altering the substantive
law applicable to a state-law cause of action. Id.; see also
Egelhoff v. Egelhoff ex rel. Breiner, 532 U.S. 141, 143,
121 S. Ct. 1322, 149 L. Ed. 2d 264 (2001) (holding that
ERISA preempted state law regarding allocation of
certain assets upon divorce during state probate
proceeding); Hisquierdo v. Hisquierdo, 439 U.S. 572,
590, 99 S. Ct. 802, 59 L. Ed. 2d 1 (1979) (holding that
federal law preempted state law’s definition of
community property subject to division with respect to
federal pension benefits). And in Jinks v. Richland
County, the Court affirmed that federal law cannot only
“modify” the substance of a state law claim, but indeed
can keep alive a state law cause of action that would

117a
otherwise be time-barred.34 538 U.S. 456, 459, 123 S. Ct.
1667, 155 L. Ed. 2d 631 (2003) (upholding the federal
supplemental jurisdiction statute’s provision tolling
state law claims while they are pending in federal court,
thus permitting such claims, if they are dismissed from
federal court, to proceed in state court, though they
otherwise may be barred by the running of a state’s
limitations period).
As amici point out, these laws are not unique: a host
of federal statutes change the standards applicable to
state causes of action, including in family law
proceedings. See, e.g., Servicemembers Civil Relief Act,
50 U.S.C. § 3911, et seq.; Parental Kidnapping
Prevention Act, 28 U.S.C. § 1738A; Full Faith and
Credit for Child Support Orders Act, 28 U.S.C. § 1738B;
Foreign Sovereign Immunities Act, 28 U.S.C. § 1330, et
seq.; Intercountry Adoption Act of 2000, 42 U.S.C.
§ 14954. And state courts have long applied these
requirements without ever questioning Congress’s
authority to impose them.
For example, in In re Larson, a California appeals
court held that the federal Soldiers’ and Sailors’ Civil
Relief Act (SSCRA), which affords rights to
servicemembers who are “prejudiced” in state court
34

While it is unquestionable that federal law may alter the
“‘substance’ of state-law rights of action,” the Supreme Court has
left unresolved the validity of “federal laws that regulate statecourt ‘procedure.’” See Jinks, 538 U.S. at 464, 123 S. Ct. 1667. We
need not weigh in on this unsettled question because ICWA’s
challenged provisions grant rights and protections to Indian tribes
and families that are substantive in nature. Cf. id. at 464-65, 123 S.
Ct. 1667 (tolling of state law limitations period is substantive).

118a
proceedings “by reason of [their] military service,”
overrode otherwise applicable state law. 81 Cal.App.2d
258, 183 P.2d 688, 690 (Cal. Dist. Ct. App. 1st 1947),
disapproved of on other grounds by In re Marriage of
Schiffman, 28 Cal.3d 640, 169 Cal.Rptr. 918, 620 P.2d 579
(1980) (citing Pub. L. No. 86-721, 54. Stat. 1180, now
titled Servicemembers Civil Relief Act, 50 U.S.C. § 391).
In that case, the state trial court had granted a mother’s
petition to have her child’s last name changed to hers
from that of her former spouse. Id. at 690-91. The father
appealed, averring that, because he was in the armed
forces and detained as a prisoner of war in Germany at
the of time of the mother’s petition, he was entitled to
relief under the SSCRA. Id. at 690. Acknowledging that
the mother had “proceeded in accordance with the
applicable statutes of this state,” the appeals court
nonetheless recognized that the federal statute
superseded state law and vacated the lower court’s
order to permit the father to challenge the petition. Id.
at 690-91. At no point did the state court suggest that
the SSCRA impinged on state sovereignty. See also, e.g.,
In re China Oil & Gas Pipeline Bureau, 94 S.W.3d 50,
59 (Tex. App. 2002) (applying Foreign Sovereign
Immunities Act burden of proof to determine whether
foreign state had waived immunity from state law
breach of contract, breach of fiduciary duty, and fraud
claims); State ex rel. Valles v. Brown, 97 N.M. 327, 639
P.2d 1181, 1186 (1981) (applying Parental Kidnapping
Prevention Act to determine whether the state court
could modify a child custody decree).
In light of the Supreme Court’s express decisions
upholding federal law’s ability to alter substantive

119a
aspects of state claims and the robust history of federal
statutes that do just that, there can be little doubt that
the district court erred by determining that ICWA’s
provisions preempting state law were instead a violation
of the anticommandeering doctrine. Thus, to the extent
that the rights created by ICWA conflict with states’
child custody laws, the Supremacy Clause requires state
judges to honor ICWA’s substantive provisions. See
New York, 505 U.S. at 178-79, 112 S. Ct. 2408 (explaining
that state judges are required under the Supremacy
Clause to enforce federal law).
i.

Sections 1912(e)-(f), 1915(a)-(b)

Applying these principles to the case at bar, we
conclude that “to the extent of any conflict” between the
rights created by ICWA and state law, Hillman v.
Maretta, 569 U.S. at 490, 133 S. Ct. 1943, state courts are
obliged to honor those rights by applying ICWA’s
substantive evidentiary standards for foster care
placement and parental termination orders, 25 U.S.C.
§ 1912(e)-(f), as well as the federal law’s child placement
preferences, id. § 1915(a)-(b). Each of these provisions
creates federal rights in favor of Indian children,
families, and tribes that potentially alter the substantive
standards applicable in child custody proceedings. We
note that these provisions do in fact conflict with the
otherwise applicable law of the State Plaintiffs. For
example, in furthering its goal of protecting “the best
interests of Indian children,” id. § 1902, ICWA prohibits
terminating the parental rights of an Indian child’s
biological parents absent a determination “beyond a
reasonable doubt ... that the continued custody of the
child by the parent ... is likely to result in serious

120a
emotional or physical damage to the child.” Id. § 1912(f).
The State Plaintiffs, on the other hand, generally use the
far less stringent “best interests of the child” analysis
and “clear and convincing” evidentiary standard.35
Consequently, as between these differing standards,
state courts are compelled to employ ICWA’s
heightened protections in proceedings involving Indian
children. Indeed, state courts have not hesitated do so.36
See, e.g., In re W.D.H., 43 S.W.3d 30, 37 (Tex. App. 2001)
(“We conclude that it is not possible to comply with both
the two-prong test of the Family Code, which requires a
35

See IND. CODE §§ 31-35-2-4(b)(2) and 31-37-14-2 (2019) (setting
forth a four-element test to terminate parental rights, including
that termination is “in the best interests of the child,” and requiring
proof of each element by “clear and convincing” evidence); LA.
CHILD. CODE art. 1015, 1035, 1037 (2019) (stating that in order to
terminate parental rights a court must find by “clear and convincing
evidence” that a parent has committed one of an enumerated list of
offenses and that it is in the “best interests of the child” to terminate
the rights); TEX. FAM. CODE § 161.001 (2019) (requiring a showing
by “clear and convincing evidence” “that termination is in the best
interest of the child” and that the parent committed one of an
enumerated list of offenses).
36

Some state courts have determined that certain of ICWA’s
provisions do not conflict with—and therefore do not preempt—
state law but rather mandate additional protections that state
courts must implement. See, e.g., K.E. v. State, 912 P.2d 1002, 1004
(Utah Ct. App. 1996) (holding that ICWA does not preempt the
state’s “statutory grounds for termination of parental rights” but
instead “requires a specific finding for termination proceedings”
that continued custody by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the child “in
addition to those [findings] required by state law and imposes a
separate burden of proof for that finding.” (citing 25 U.S.C.
§ 1912(f))).

121a
determination of the best interest of the child under the
‘Anglo’ standard, and the ICWA, which views the best
interest of the Indian child in the context of maintaining
the child’s relationship with the Indian Tribe, culture,
and family.”); Yavapai–Apache Tribe v. Mejia, 906
S.W.2d 152, 170 (Tex. App. 1995) (stating that ICWA
“was specifically directed at preventing the infiltration
of Anglo standards” in custody proceedings involving
Indian children); In re Adoption of M.T.S., 489 N.W.2d
285, 288 (Minn. Ct. App. 1992) (concluding that ICWA’s
preference for placing an Indian child with an Indian
family member provides a “higher standard of
protection” for an Indian guardian than the state’s best
interests standard, which would otherwise apply in
determining a child’s custodial placement (citing 25
U.S.C. §§ 1915(a), 1921)). This is “no more than an
application of the Supremacy Clause.” New York, 505
U.S. at 178, 112 S. Ct. 2408.
In sum, § 1912(e) and (f)’s evidentiary standards and
§ 1915(a) and (b)’s placement’s preferences simply
supply substantive rules enforceable in state court and
do not violate the Tenth Amendment.
ii.

Sections 1915(e), 1917, and 1951(a)

We likewise find no constitutional infirmity in
ICWA’s provisions that require state courts to maintain
and make available certain records pertaining to custody
proceedings involving Indian children. See 25 U.S.C.
§§ 1915(e), 1917, and 1951(a). Section 1915(e) requires
state courts to retain a record “evidencing the efforts to
comply” with ICWA’s placement preferences and
“ma[k]e available” this record, upon request, to the
Secretary or an Indian child’s tribe. Id. § 1915(e). Under

122a
§ 1917, once an adopted Indian child attains majority, the
state court that “entered the final decree” of adoption
“shall,” upon the Indian adoptee’s application, “inform”
her of her biological parents’ tribal affiliation and
provide other information that “may be necessary to
protect any rights from the individual’s tribal
relationship.” Id. § 1917. And § 1951(a) requires state
courts to provide the federal government with a copy of
the adoption decree in any proceeding involving an
Indian child. Id. § 1951(a).
Though these recordkeeping provisions arguably do
not supply rules of decision like those in §§ 1912(e)-(f)
and 1915(a)-(b), the original understanding of the
Supremacy Clause nonetheless compels state courts to
effectuate their mandate. As explained in Printz v.
United States, “the first Congresses required state
courts to record applications for citizenship ... [and] to
transmit abstracts of citizenship applications and other
naturalization records to the Secretary of State.” 521
U.S. at 905-06, 117 S. Ct. 2365 (citing Act of Mar. 26,
1790, ch. 3, § 1, 1 Stat. 103; Act of June 18, 906 1798, ch.
54, § 2, 1 Stat. 567). From the dawn of the constitutional
era, then, federal law placed specific recordkeeping and
sharing requirements on state courts, and these duties
were viewed as congruent with the state courts’
obligations under the Supremacy Clause. The history
thus makes clear that this sort of requirement cannot be
considered commandeering in violation of the Tenth
Amendment. See Marsh, 463 U.S. at 790, 103 S. Ct. 3330.
Plaintiffs have provided no authority for deviating from
this original understanding, and so we hew to it.

123a
State Plaintiffs contend that, rather than applying
to state courts, §§ 1915(e) and 1951(a) instead impose
obligations on state agencies and thereby violate the
anticommandeering doctrine. We address these
provisions in turn and disagree with the States’
conclusion as to each.
Though § 1915(e) applies to the “State,” it does not
specify whether that term refers to state courts or
agencies. The regulation implementing § 1915(e),
however, expressly permits states to designate either
their courts or agencies as “the repository for th[e]
information” required to be maintained by § 1915(e).” 25
C.F.R. § 23.141 (“The State court or agency should notify
the BIA whether these records are maintained within
the court system or by a State agency.”). Substantively,
the regulation requires only that “court records” be
maintained. 81 Fed. Reg. at 38,849-50. This imposes no
direct burden on states.
State Plaintiffs do not challenge the BIA’s
construction of § 1915(e).37 Thus, their complaint that
§ 1915(e) and its implementing regulation impermissibly

37

Such a challenge would be unavailing in any event. Because the
BIA’s determination that state courts may maintain the records
contemplated by § 1915(e) is at minimum a reasonable
interpretation of an ambiguous statute that the BIA administers,
see Miss. Band Choctaw Indians v. Holyfield, 490 U.S. at 40 n.13,
109 S. Ct. 1597 (“Section 1915(e) ... requires the court to maintain
records ‘evidencing the efforts to comply with the order of
preference specified in this section.’” (emphasis added)), it is
entitled to Chevron deference. See Chevron, U.S.A., Inc. v. Nat.
Res. Def. Council, Inc., 467 U.S. 837, 104 S. Ct. 2778, 81 L. Ed. 2d
694 (1984); infra Discussion Part II.D.

124a
burdens their agencies rings hollow, given that Plaintiffs
themselves have elected to designate their agencies,
rather than courts, as the entities charged with
complying with these provisions. States are not “pressed
into federal service” when they affirmatively choose to
obligate their executive, rather than judicial, officers to
implement an otherwise valid federal obligation. See
Printz, 521 U.S. at 905, 117 S. Ct. 2365. In other words,
§ 1915(e) and its implementing regulation are not “direct
orders to the governments of the States” but rather let
states exercise their discretion to require either their
courts or child welfare agencies to maintain and make
available the required records. Murphy, 138 S. Ct. at
1478. The constitutionality of these provisions does not
rise or fall based on a state’s preference.
For similar reasons, we disagree with JUDGE
DUNCAN’s contention that § 1951(a), which requires
state courts to furnish adoption records to the federal
government, invalidly commandeers state agencies.
DUNCAN, CIRCUIT JUDGE, OP. at 104-06. Notably, no
party takes this position. This is likely because on its face
the provision applies only to state courts. See 25 U.S.C.
§ 1951(a) (requiring “[a]ny State court entering a final
decree or order in any Indian child adoptive placement”
to provide certain records). And the records that must
be furnished by a state court pursuant to this provision
are not the type of records commonly held by state
agencies; instead, the records are naturally produced as
part of state court proceedings, and state courts are
therefore in the best position to maintain and provide

125a
the records to the federal government.38 Id. That the
regulations implementing § 1951(a) purport to provide
states the flexibility to instead designate an agency to
fulfill the duties it imposes does not change that the law
is by default aimed at state courts. See 25 C.F.R. § 23.140
(specifying that designating an agency relieves state
courts of their obligations under § 1951(a)). And a state’s
wholly voluntary choice to utilize its political branches in
place of its courts cannot, as we have explained,
constitute commandeering of those political branches.
We therefore conclude that state courts are bound
by the Supremacy Clause to apply §§ 1915(e), 1917, and
1951(a).39

38

Section 1951(a) specifically requires that the following information
be supplied to the Secretary: (1) the names and tribal affiliation of
the Indian child; (2) the names and addresses of the child’s biological
parents; (3) the names and addresses of the adoptive parents; and
(4) the identity of an agency that has information relating to the
child’s adoptive placement. 25 U.S.C. § 1951(a).
39

We also disagree with JUDGE DUNCAN’S asserted distinction
between § 1917 and the other recordkeeping provisions. DUNCAN,
CIRCUIT JUDGE, OP. at 97-98 &- 98 n.138. JUDGE DUNCAN maintains
that § 1917, which confers upon adult Indian adoptees the right to
obtain from courts information pertaining to their tribal
relationship, is a valid preemption provision because it is “best
read” as regulating private actors, not states. But the same could be
said for § 1915(e), which confers rights upon Indian tribes to obtain
records. And both provisions require state courts to retain records
so that an Indian individual or tribe may later obtain them. Thus, if
§ 1917 is best read as applying to private actors, so too is § 1915(e).
We find it unnecessary to resolve this question, however, because
like §§ 1915(e) and 1951(a), § 1917 places duties on state courts to
maintain records—a special type of obligation that was understood
from the nation’s very beginning to validly bind state courts under

126a
b. The Challenged Provisions Do
Commandeer Other State Actors.

Not

We next consider whether ICWA commandeers
state actors other than state courts. Our determination
that the preemption and commandeering analyses are
mirror images of one another leads us to the conclusion
that if ICWA regulates private actors—and therefore
preempts conflicting state law—it does not contravene
the anticommandeering doctrine. A survey of the
Supreme Court’s precedents in this area makes clear
that a law meets this requirement so long as it
establishes rights that are legally enforceable by or
against private parties. This test is necessarily satisfied
when Congress enacts a general regulation applicable to
any party who engages in an activity, regardless of
whether that party is a State or private actor. The
Supreme Court has thus stressed in its Tenth
Amendment decisions that “the anticommandeering
doctrine does not apply when Congress evenhandedly
regulates an activity in which both States and private
actors engage.” Murphy, 138 S. Ct. at 1478. It is
unsurprising, then, that in each case in which the Court
has found an anticommandeering violation, the statute
at issue directly and exclusively commanded a state’s
legislature or executive officers to undertake an action
or refrain from acting without mandating that private
actors do the same.
For
example,
in
the
first
modern
anticommandeering case, New York v. United States,
the Supremacy Clause. See Printz, 521 U.S. at 905-06, 117 S. Ct.
2365.

127a
the Supreme Court held that a federal law
impermissibly commandeered state actors to implement
federal legislation when it gave states “[a] choice
between two unconstitutionally coercive” alternatives:
to either dispose of radioactive waste within their
boundaries according to Congress’s instructions or “take
title” to, and assume liabilities for, the waste. 505 U.S. at
175-76, 112 S. Ct. 2408. The Court was clear: Congress
cannot compel “the States to enact or enforce a federal
regulatory program.” Id. at 176, 112 S. Ct. 2408
(emphasis added). Notably, the statute did not place any
legally enforceable rights or restrictions on private
parties, instead operating only upon the states.
Similarly, in Printz v. United States, the Court held
that a provision of the Brady Handgun Violence
Prevention Act requiring state chief law enforcement
officers to conduct background checks on handgun
purchasers “conscript[ed] the State’s officers directly”
and was therefore invalid. 521 U.S. at 935, 117 S. Ct.
2365. The Court explained that the statute violated the
anticommandeering principle because it was aimed
solely at state executive officers, requiring them “to
conduct investigation in their official capacity, by
examining databases and records that only state officials
have access to. In other words, the suggestion that
extension of this statute to private citizens would
eliminate the constitutional problem posits the
impossible.” Id. at 932 n.17, 117 S. Ct. 2365 (N.B. that
“the burden on police officers [imposed by the Brady
Act] would be permissible [under the Tenth
Amendment] if a similar burden were also imposed on
private parties with access to the relevant data” (first

128a
alteration in original) (emphasis added) (internal
quotation marks and citation omitted)). Accordingly, the
Court rejected as irrelevant the Government’s
argument that the Act imposed only a minimal burden
on state executive officers, stating that it was not
“evaluating whether the incidental application to the
States of a federal law of general applicability
excessively interfered with the functioning of state
governments,” but rather a law whose “whole object ...
[was] to direct the functioning of the state executive.”
Id. at 931-32, 117 S. Ct. 2365. Again, the law did nothing
to alter the rights or obligations of private parties, but
served only to bind the States.
Recently, in Murphy v. NCAA, the Court concluded
that a federal law that prohibited states from
authorizing sports gambling ran afoul of the
anticommandeering doctrine. 138 S. Ct. at 1478. The
statute violated state sovereignty, the Court explained,
by “unequivocally dictat[ing] what a state legislature
may and may not do.” Id. In reaching this conclusion, the
Court reviewed its Tenth Amendment jurisprudence
and clarified the distinction between statutes that
impermissibly commandeer state actors and those that
may incidentally burden the states but, nevertheless, do
not offend the Tenth Amendment. The mediating
principle, the Court announced, is that a regulation is
valid so long as it “evenhandedly regulates an activity in
which both States and private actors engage.” Id. at
1478. This occurs when a statute confers either legal
rights or restrictions on private parties that participate
in the activity, and thus the law is “best read” as
regulating private parties.

129a
A review of two cases cited by Murphy in which the
Court upheld statutes imposing incidental burdens or
obligations on states is instructive as to what
permissible, evenhanded regulation entails. First, in
Reno v. Condon, the Court unanimously upheld the
Driver’s Privacy Protection Act (DPPA), a federal
regulatory scheme that restricted the ability of states
and private parties to disclose a driver’s personal
information without consent. 528 U.S. 141, 151, 120 S. Ct.
666, 145 L. Ed. 2d 587 (2000). In determining that the
anticommandeering doctrine did not apply, the Court
distinguished the law from those invalidated in New
York and Printz:
[T]he DPPA does not require the States in their
sovereign capacity to regulate their own
citizens; rather it regulates the States as the
owners of [Department of Motor Vehicle] data
bases. It does not require the [state] Legislature
to enact any laws or regulations, and it does not
require state officials to assist in the
enforcement of federal statutes regulating
private individuals ....
Id. The statute, moreover, “applied equally to state[s]
and private” resellers of motor vehicle information.
Murphy, 138 S. Ct. at 1479; see Condon, 528 U.S. at 151,
120 S. Ct. 666 (explaining that the statute was “generally
applicable”). That compliance with the DPPA’s
provisions would “require time and effort on the part of
state employees” posed no constitutional problem, then,
because private actors engaged in the regulated
enterprise were also subject to the statute’s
requirements. Condon, 528 U.S. at 150, 120 S. Ct. 666. In

130a
short, because the law created restrictions enforceable
against private resellers, it satisfied the “best read” test
as articulated in Murphy.
Second, in Baker v. South Carolina, the Court also
rejected a Tenth Amendment challenge to a federal
enactment. 485 U.S. 505, 513-15, 108 S. Ct. 1355, 99 L.
Ed. 2d 592 (1988). At issue in that case was a statute that
eliminated the federal income tax exemption for interest
earned on certain bonds issued by state and local
governments unless the bonds were registered. Id. at
507-08, 108 S. Ct. 1355. The Court treated the provision
“as if it directly regulated States by prohibiting outright
the issuance of [unregistered] bearer bonds.” Id. at 511,
108 S. Ct. 1355. But critically, the provision applied not
only to states but to any entity issuing the bonds,
including “local governments, the Federal Government,
[and] private corporations.” Id. at 526-27, 108 S. Ct. 1355.
In upholding the provision, the Court reasoned that it
merely “regulat[ed] a state activity” and did not “seek to
control or influence the manner in which States regulate
private parties.” Id. at 514, 108 S. Ct. 1355. “That a State
wishing to engage in certain activity must take
administrative and sometimes legislative action to
comply with federal standards regulating that activity is
a commonplace that presents no constitutional defect.”
Id. at 514-15, 108 S. Ct. 1355 (requiring “state officials ...
to devote substantial effort” to comply with the statute
is “an inevitable consequence” of Congress validly
regulating the state’s activity). Such a federal law thus
does not commandeer state actors, but merely
establishes standards applicable to any actor who
chooses to engage in an activity that Congress may

131a
validly regulate through legislation. See id. It creates
legally
enforceable
obligations—in
Baker,
a
prohibition—that affect private parties.
As both a textual and practical matter, the
provisions Plaintiffs challenge apply “evenhandedly” to
“an activity in which both States and private actors
engage.” Murphy, 138 S. Ct. at 1478. Sections 1912(a)
and (d), for example, impose notice and “active efforts”
requirements, respectively, on the “party” seeking the
foster care placement of, or termination of parental
rights to, an Indian child.40 Because plaintiffs bring a
facial challenge, there is no need to look beyond the
language of these provisions—which plainly is facially
neutral, see Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449-50, 128 S. Ct. 1184,
170 L. Ed. 2d 151 (2008) (“In determining whether a law
is facially invalid, we must be careful not to go beyond
the statute’s facial requirements and speculate about
‘hypothetical’ or ‘imaginary’ cases.”); see also United
States v. Raines, 362 U.S. 17, 22, 80 S. Ct. 519, 4 L. Ed.
2d 524 (1960) (“The delicate power of pronouncing an Act

40

Section 1912(a) requires “the party seeking the foster care
placement of, or termination of parental rights to, an Indian child”
to “notify the parent or Indian custodian and the Indian child’s tribe
... of the pending proceedings and of their right to intervention.” 25
U.S.C. § 1912(a) (emphasis added).
Section 1912(d) states that “[a]ny party seeking to effect a foster
care placement of, or termination of parental rights to, an Indian
child” to “satisfy the court that active efforts have been made to
provide remedial services ... to prevent the breakup of the Indian
family and that these efforts have proved unsuccessful.” Id.
§ 1912(d) (emphasis added).

132a
of Congress unconstitutional is not to be exercised with
reference to hypothetical cases thus imagined.”).41 The
statute applies to any party seeking a foster care
placement or the termination of parental rights,
regardless of whether that party is a state agent or
private individual. Id.
Furthermore, even were we to consider how these
provisions are actually applied in child custody
proceedings, it is clear that they do in fact apply to
private parties. ICWA defines “foster care placement”
to embrace “any action removing an Indian child from
its parent or Indian custodian for temporary placement
in a foster home or institution or the home of a guardian
41

Our court recently reaffirmed this principle. In Freedom Path,
Inc. v. Internal Revenue Service, we examined a facial challenge to
an IRS Revenue Ruling by an organization that had received a
proposed denial from the IRS of its application for tax-exempt
status. See 913 F.3d 503, 506 (5th Cir. 2019). We explained that “[t]o
find the unconstitutionality [the organization] claims requires that
we go beyond the language of the Revenue Ruling and analyze the
way in which the IRS applies it beyond the text. On a facial
challenge, however, we do not look beyond the text ... [A] facial
challenge to a statute considers only the text of the statute itself,
not its application to the particular circumstances of an individual.”
Id. at 508 (internal quotation marks and citations omitted)
(emphasis added) (quoting Field Day, LLC v. Cnty. of Suffolk, 463
F.3d 167, 174 (2d Cir. 2006)). And, even if we were to construe
Plaintiffs’ complaint as an as-applied challenge, the proper remedy
would not be the wholesale invalidation of the statutory provisions
that the district court’s order effected and for which Plaintiffs and
Judge Duncan argue. Rather, demonstrating that the statute may
be applied unconstitutionally warrants only an injunction against
the statute being applied in that unconstitutional manner. See
Citizens United v. Fed. Election Comm’n, 558 U.S. 310, 331, 130 S.
Ct. 876, 175 L. Ed. 2d 753 (2010).

133a
or conservator.” 25 U.S.C. § 1903(1)(i) (emphasis added).
As Defendants observe, actions to appoint guardians or
conservators are often private actions that do not
involve the state as a party. See, e.g., J.W. v. R.J., 951
P.2d 1206, 1212-13 (Alaska 1998) (determining that a
custody dispute between a father and stepfather
constituted a “foster care placement” under ICWA); In
re Guardianship of J.C.D., 686 N.W.2d 647, 649 (S.D.
2004); In re Custody of C.C.M., 149 Wash.App. 184, 202
P.3d 971, 977 (2009) (holding that grandparents’ petition
for nonparental custody of their Indian grandchild
“qualifies as an action for foster care placement under
ICWA”). Similarly, private parties may bring
proceedings to terminate parental rights. See, e.g., TEX.
FAM. CODE. ANN. § 102.003 (permitting, among others, a
“parent,” “the child through a court-appointed
representative,” or “a guardian” to bring such an action);
33 TEX. PRAC. HANDBOOK OF TEX. FAMILY LAW § 19:2
(2018); see also Matter of Adoption of T.A.W., 186
Wash.2d 828, 383 P.3d 492, 496 (Wash. 2016) (holding
that ICWA’s “active efforts provision ... appl[ies] to
privately initiated terminations” and remanding for trial
court to determine whether “active efforts ha[d] been”
made to prevent the breakup of the Indian family); D.J.
v. P.C., 36 P.3d 663, 673 (Alaska 2001) (“[W]e hold that
ICWA applies to termination proceedings when a party
other than the state seeks the termination.”); S.S. v.
Stephanie H., 241 Ariz. 419, 388 P.3d 569, 573–74 (Ariz.
Ct. App. 2017) (“[W]e conclude that ICWA applies to a
private termination proceeding just as it applies to a
proceeding commenced by a state-licensed private
agency or public agency.”); In re N.B., 199 P.3d 16, 19
(Colo. App. 2007) (“ICWA’s plain language is not limited

134a
to action by a social services department.”). Thus, from
both a textual and practical standpoint, it cannot
seriously be disputed that these provisions apply to
private parties. See 25 U.S.C. § 1903(1)(i); J.W., 951 P.2d
at 1212-13.
Similarly, § 1912(e) and (f)—which require qualified
expert witness testimony before, respectively, either
the foster care placement of, or termination of parental
rights to, an Indian child—are also evenhanded
regulations that do not effect an invalid
commandeering.42 Neither provision expressly refers to
state agencies. And when read in conjunction with
§ 1912(d)’s language placing burdens on “[a]ny party”
involved in foster care or parental termination
proceedings relating to Indian children, § 1912(e) and (f)
must also reasonably be understood to apply to “any
party” engaged in these proceedings. This
understanding, moreover, comports with how state
courts have read and applied these provisions. See, e.g.,
In re Mahaney, 146 Wash.2d 878, 51 P.3d 776, 786 (2002)
42

Section 1912(e) provides that no foster care placement may be
ordered in involuntary proceedings in state court absent “a
determination, supported by clear and convincing evidence,
including testimony of qualified expert witnesses, that the
continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage to the child.”
25 U.S.C. § 1912(e).
Section 1912(f) requires that no termination of parental rights may
be ordered in involuntary proceedings in state court absent
“evidence beyond a reasonable doubt, including testimony of
qualified expert witnesses, that the continued custody of the child
by the parent or Indian custodian is likely to result in serious
emotional or physical damage to the child.” Id. § 1912(f).

135a
(holding that § 1912(e)’s expert witness requirement
applied to an action exclusively between private
parties—an Indian mother and her children’s paternal
grandmother—regarding a foster care placement); D.J.,
36 P.3d at 673 (holding that § 1912(f) applied to an action
between an Indian child’s maternal grandmother and his
biological father regarding the termination of the
father’s parental rights); Matter of Baby Boy Doe, 127
Idaho 452, 902 P.2d 477, 484 (1995) (holding that
prospective adoptive parents satisfied “their burden of
proof” under § 1912(f) “with testimony of [a] qualified
expert witness[ ]”). Thus, § 1912(e) and (f), like § 1912 (a)
and (d), are generally applicable provisions. See Murphy,
138 S. Ct. at 1478; see also Condon, 528 U.S. at 151, 120
S. Ct. 666.
State Plaintiffs’ contention that the aforementioned
provisions commandeer state executive officers is
reminiscent of the argument made by South Carolina—
and rejected by the Court—in Condon. There, South
Carolina claimed that the DPPA “thrusts upon the
States all of the day-to-day responsibility for
administering its complex provisions ... and thereby
makes state officials the unwilling implementors of
federal policy.” 528 U.S. at 149-50, 120 S. Ct. 666
(internal quotation marks omitted). But ICWA, like the
DPPA, does not require states “to enact any laws or
regulations, and it does not require state officials to
assist in the enforcement of federal statutes regulating
private individuals.” Id. at 151, 120 S. Ct. 666. Unlike the
statutes in New York, Printz, and Murphy, § 1912 does
not create obligations or restrictions enforceable solely
against states. See Murphy, 138 S. Ct. at 1481

136a
(determining that a provision of the gambling regulation
at issue did not constitute a valid “preemption provision
because there is no way in which [it] c[ould] be
understood as a regulation of private actors”) (emphasis
added); Printz, 521 U.S. at 932 n.17, 117 S. Ct. 2365
(explaining that extending “to private citizens” the
federal statute’s directives “posits the impossible”); New
York, 505 U.S. at 160, 112 S. Ct. 2408 (“[T]his is not a
case in which Congress has subjected a State to the same
legislation applicable to private parties.”). Instead, its
provisions simply impose the same, generally applicable
burden on any party engaged in a custody proceeding
involving an Indian child. Cf. Condon, 528 U.S. at 151,
120 S. Ct. 666 (noting that the regulation of data bases
applied to “private resellers” of motor vehicle
information along with states); Baker, 485 U.S. at 52627, 108 S. Ct. 1355 (stating that the requirement that
bearer bonds be registered in order to be eligible for a
federal income tax exemption applied to “local
governments, the Federal Government, [and] private
corporations”). Thus, § 1912 (a), (d), (e), and (f)
“evenhandedly regulate[ ] an activity in which both
States and private actors engage,” and the
anticommandeering doctrine does not apply. See
Murphy, 138 S. Ct. at 1478.
JUDGE DUNCAN posits two reasons why the
evenhandedness principle ought not apply to the
challenged provisions. First, he asserts that ICWA
compels states to regulate private individuals. DUNCAN,
CIRCUIT JUDGE, OP. at 89-91. Not so. As discussed,
ICWA is a comprehensive federal regulatory scheme
that regulates private individuals by creating rights and

137a
restrictions in favor of Indian individuals and tribes in
child custody proceedings involving Indian children. In
so doing, ICWA places legal obligations on parties to
these proceedings, whether individuals or state actors.
See Condon, 528 U.S. at 150, 120 S. Ct. 666 (finding no
anticommandeering problem in the fact that compliance
with the DPPA would “require time and effort on the
part of state employees”). Just as the DPPA “regulate[d]
the States as the owners of data bases,” id. at 151, 120 S.
Ct. 666, ICWA regulates the states as participants in
Indian child custody proceedings—placing the same
requirements on states as it does on any private party.
This fits the bill of an evenhanded regulation.43

43

JUDGE DUNCAN’S assertion that ICWA imposes “critical duties”
on state actors is irrelevant to determining whether the statute is
consistent with the anticommandeering doctrine. DUNCAN,
CIRCUIT JUDGE, OP. at 91. Nowhere in the Court’s commandeering
cases has it made mention of, or found dispositive, whether the
obligations imposed on states by a regulation were important to the
statutory scheme’s success. In Condon, for example, that the
DPPA’s restrictions applied to states was surely “crucial” to the
law’s efficacy. See 528 U.S. at 143-44, 120 S. Ct. 666 (noting that
“Congress found that many States ... sell driver’s personal
information” and that the statute “establishes a regulatory scheme”
that expressly “restricts the States’ ability to disclose a driver’s
personal information”); id. at 143, 120 S. Ct. 666 (citing 139 Cong.
Rec. 9468 (Nov. 16, 1993) (explaining that a purpose of “this
legislation is to protect a wide range of individuals, [to] protect them
from the State agencies [that,] often for a price, a profit to the State,
[ ] release lists”) (statement of Sen. Warner)); see also Baker, 485
U.S. at 510-11, 108 S. Ct. 1355 (noting that the challenged provision
“completes th[e] statutory scheme” setup by Congress). The
evenhandedness inquiry does not turn on whether the statute
imposes “critical” duties—or even “trivial” duties, for that matter—

138a
Second, JUDGE DUNCAN asserts that ICWA
regulates states in their sovereign capacity. DUNCAN,
CIRCUIT JUDGE, OP. at 91-92. Whereas Congress
regulated states as participants in the market for bonds
in Baker and the market for driver’s information in
Condon, JUDGE DUNCAN contends that ICWA does not
regulate states as market participants but rather as
sovereigns carrying out their duty to protect children.
But in Condon, the statute at issue “regulate[d] the
disclosure of personal information contained in the
records of state motor vehicle departments.” 528 U.S. at
143, 120 S. Ct. 666. The regulation of motor vehicles, of
course, is a quintessential state function. As explained
above, the provision was nevertheless upheld because it
“regulate[d] the States as the owners of data bases;” that
is, as participants in the market for drivers’ personal
information. Id. at 151, 120 S. Ct. 666. The situation is the
same here. Though family law is as a general matter
committed to the states, but see, e.g., McCarty, 453 U.S.
at 235-36, 101 S. Ct. 2728, the activity at issue here—
child custody proceedings—involves private parties as
litigants.44 ICWA, then, “regulates the States as”
on states, but rather whether those duties apply equally to both
states and private actors. See Murphy, 138 S. Ct. at 1478.
44

Citing Printz, JUDGE DUNCAN also asserts that the “salient
question” in determining whether the evenhandedness exception
applies is “whether a federal law requires states officials to act ‘in
their official capacity’ to implement a federal program.” DUNCAN,
CIRCUIT JUDGE, OP. at 93 (quoting Printz, 521 U.S. at 932 n.17, 117
S. Ct. 2365). This test cannot be squared with the Court’s cases. In
Condon, for example, compliance with the DPPA required action by
state officials acting in their official capacity. See 528 U.S. at 150, 120
S. Ct. 666 (“We agree with South Carolina’s assertion that the

139a
participants in these proceedings, and the reasoning of
Baker and Condon applies equally here.
Because § 1912 (a), (d), (e), and (f) are “evenhanded,”
we conclude they are necessarily “best read” as
pertaining to private actors within that phrase’s
meaning in Murphy. Id. at 1478, 1479. This follows from
our earlier conclusion that a law is “best read” as
regulating private actors—and therefore can be given
preemptive effect—when it creates legal rights and
obligations enforceable by or against private actors.
Because an evenhanded regulation genuinely applies to
private parties (as well as states), it necessarily
establishes legal rights and obligations applicable to
private parties (as well as states).
This is demonstrated by even a cursory review of
§ 1912 (a), (d), (e), and (f). The obligations the provisions
DPPA’s provisions will require time and effort on the part of state
employees ....”); see also Baker, 485 U.S. at 514-15, 108 S. Ct. 1355
(“That a State wishing to engage in certain activity must take
administrative and sometimes legislative action to comply with
federal standards regulating that activity is a commonplace that
presents no constitutional defect.”). The salient question, rather, is
whether the statute applies equally to both states and private
actors. This is clear from the portion of Printz JUDGE DUNCAN
purports to rely on. As the Court in Printz explained, the
background check requirement at issue “undoubtedly” would have
been consistent with the anticommandeering doctrine if its burdens
could have been extended equally to both state actors and private
actors. 521 U.S. at 932 n.17, 117 S. Ct. 2365 (emphasis added). The
problem, however, was that the burden the statute placed on state
law enforcement officers by its very nature could not possibly be
borne by private persons. Id. (“[T]he suggestion that extension of
this statute to private persons would eliminate the constitutional
problem posits the impossible.”).

140a
impose are enforceable against any private party
seeking a foster placement for, or the termination of
parental rights to, an Indian child. And, viewed
inversely, these obligations are an array of rights in
favor of and enforceable by private parties. Section
1912(a) grants Indian parents and tribes the right to
notice of pending child custody proceedings. Id.
§ 1912(a). Further, § 1912(d) grants to Indian children,
tribes, and families the right to maintain their tribal and
family unit “subject only to certain (federal)
constraints.” Id. § 1912(d); Murphy, 138 S. Ct. at 1480.
Specifically, the provision confers upon private actors an
enforceable right to demand in custody proceedings that
“active efforts” be made to keep an Indian family intact
before the foster care placement of, or termination of
parental rights to, an Indian child. See D.J., 36 P.3d at
674 (reversing the termination of parental rights to an
Indian child because, inter alia, the trial court failed to
make findings as to whether active efforts had been
made to prevent the breakup of the Indian family).
Sections 1912(e) and (f) similarly provide enforceable
federal rights to Indian parents to maintain their
families absent testimony from qualified expert
witnesses regarding detriment to the child from the
parents’ continued custody. 25 U.S.C. § 1912(e), (f).
Plaintiffs’ argument that ICWA is not
evenhanded—and thus is not best read as applying to
private parties—because state actors are more
frequently bound by its provisions is also misplaced. As
an initial matter, a “best read” inquiry that turns on the
factual question of whom is most likely to engage in the
regulated conduct would demand record evidence that is

141a
absent here, and there is no indication that the Supreme
Court has ever performed such a fact-bound evaluation
as part of its commandeering analyses. More
importantly, an “evenhanded” law is “best read” as
regulating private parties not because its burdens may
happen to fall upon states more or less frequently than
private actors as a factual matter, but instead, as we
have explained, because such a law necessarily
establishes rights or obligations that are legally
enforceable by or against private parties.
The Murphy Court’s discussion of Morales v. Trans
World Airlines, Inc., in which the Court considered
whether the federal Airline Deregulation Act of 1978
(ADA) preempted States from passing their own laws
prohibiting
allegedly
deceptive
airline
fare
advertisements, confirms this conclusion. Id. at 1480
(citing Morales, 504 U.S. at 391, 112 S. Ct. 2031). At issue
in Morales was a provision of the ADA that removed
earlier federal airline regulations. 504 U.S. at 378, 112 S.
Ct. 2031. “To ensure that the States would not undo
federal deregulation with regulation of their own,” the
ADA provided that “no State or political subdivision
thereof ... shall enact or enforce any law, rule, regulation,
standard or other provision having the force and effect
of law relating to rates, routes, or services of any
[covered] air carrier.” Murphy, 138 S. Ct. at 1480
(alteration in original) (quoting 49 U.S.C. § 1305;
Morales, 504 U.S. at 378, 112 S. Ct. 2031). The Court held
that the provisions validly preempted state law. Id. at
391, 112 S. Ct. 2031. As the Court in Murphy explained:
[t]his language [in the ADA] might appear to
operate directly on the States [and thus

142a
constitute an invalid attempt at preemption],
but it is a mistake to be confused by the way in
which a preemption provision is phrased ... [I]f
we look beyond the phrasing employed in the
Airline
Deregulation
Act’s
preemption
provision, it is clear that this provision operates
just like any other federal law with preemptive
effect. It confers on private entities (i.e., covered
carriers) a federal right to engage in certain
conduct subject only to certain (federal)
constraints.
Id. at 1480. The Court’s analysis did not turn on the
frequency with which state and private actors engaged
in the regulated conduct; indeed, it is axiomatic that
private actors could not regulate airlines. Rather, as the
Murphy Court made clear, what was dispositive in
determining that the statute was “best read” as
regulating private actors—and thus preempted state
law —was that it created legally enforceable private
rights. Id. at 1480. Accordingly, Plaintiffs’ argument is
of no moment. Sections 1912 (a), (d), (e), and (f) are
evenhanded regulations, and they therefore do not
violate the anticommandeering doctrine and may validly
preempt conflicting state law.
Although Plaintiffs limit their arguments on appeal
primarily to the aforementioned portions of § 1912, the
district court’s ruling that ICWA violates the
anticommandeering doctrine was far more sweeping,
invalidating all portions of the statute that alter the
substantive law applicable in cases arising out of state
causes of action. As discussed, the district court’s theory
that ICWA commandeers state courts in this manner is

143a
based on a flawed premise. See supra Discussion Part
II.A.2.i. ICWA’s provisions beyond those already
discussed in § 1912 also validly preempt conflicting state
law because they are part of a comprehensive statute,
the “whole object of” which, Printz, 521 U.S. at 900, 117
S. Ct. 2365, is to “confer[ ] on private entities”—namely
Indian children, families, and tribes—”a federal right.”
Murphy, 138 S. Ct. at 1480; see 25 U.S.C. § 1902
(declaring Congress’s policy in enacting ICWA of
“protect[ing] the best interests of Indian children and
promot[ing] the stability and security of Indian families
and tribes”). An inquiry into ICWA’s individual
provisions, moreover, reveals that they operate to
confer rights on private actors. For instance, § 1911,
grants the Indian custodian of an Indian child and that
child’s tribe the right to intervene in child custody
proceedings.45 Section 1912(b) confers upon indigent
45

Several jurisdictions have recognized that § 1911(c) creates
federal rights in favor of tribes and therefore have concluded that
the provision preempts otherwise applicable state law permitting
only licensed attorneys to represent parties. See, e.g., In re Elias L.,
277 Neb. 1023, 767 N.W.2d 98, 104 (2009). These courts have
explained that the tribal right to intervene is unfettered and that
otherwise applicable state law would “not only burden the right of
tribal intervention, it will essentially deny that right in many cases.”
State ex rel. Juvenile Dep’t of Lane Cnty. v. Shuey, 119 Or.App. 185,
850 P.2d 378, 381 (1993); see also In re N.N.E., 752 N.W.2d 1, 12
(Iowa 2008); J.P.H. v. Fla. Dep’t of Children & Families, 39 So. 3d
560 (Fla. Dist. Ct. App. 2010) (per curiam). In essence, these state
courts have understood that they are bound to permit tribes to
intervene without being represented by licensed counsel because to
require otherwise would “frustrate[ ] the deliberate purpose of
Congress” in enacting this measure. Hillman, 569 U.S. at 494, 133
S. Ct. 1943 (internal quotation marks and citation omitted).

144a
Indian parents “the right to court-appointed counsel in
any removal, placement, or termination proceeding.” Id.
§ 1912(b). And § 1913(b) affords Indian parents the right
to withdraw their consent to a foster care placement at
any time. Id. § 1913(b).46
46

ICWA’s placement preference provisions, § 1915(a) & (b), likewise
create federal rights for Indian children, tribes, and families that
apply in Indian child custody proceedings. Because the placement
preferences are valid premptive federal laws, state adjudicators are
bound under the Supremacy Clause to apply these provisions. See
supra Discussion Part II.A.2.a(i).
Indeed, JUDGE DUNCAN acknowledges that the placement
preferences apply in state court and preempt contrary state law. He
broadly suggests, however, that the placement preferences also
separately “direct action by state agencies and officials.” DUNCAN,
CIRCUIT JUDGE, OP. at 83-84. But reading the placement-preference
provisions to require state agencies to perform executive or
legislative tasks is contrary to the statute’s plain text. The
provisions merely require the body adjudicating an Indian child
custody proceeding to apply the preferences contained therein in
deciding contested claims unless there is good cause not to. See 25
U.S.C. § 1915(a) (“In any adoptive placement of an Indian child ..., a
preference shall be given, in the absence of good cause to the
contrary ....”); id. § 1915(b) (“In any foster care or preadoptive
placement, a preference shall be given, in the absence of good cause
to the contrary ....”).
As JUDGE DUNCAN concedes, this straight-forward interpretation
does not present an anticommandeering problem. See New York,
505 U.S. at 178-79, 112 S. Ct. 2408 (“Federal statutes enforceable in
state courts do, in a sense, direct state judges to enforce them, but
this sort of federal ‘direction’ of state judges is mandated by the text
of the Supremacy Clause.”); cf. Murphy, 138 S. Ct. at 1480-81
(observing that “every form of preemption is based on a federal law
that regulates the conduct of private actors” and invalidating a
federal statute that barred states from authorizing sports gambling
because the statute did “not confer any federal rights on private

145a
Given that the entire purpose and effect of the
provisions the district court erroneously invalidated is
to confer rights and protections upon private actors, viz.,
Indian tribes, families, and children, we conclude that
they are “best read” as regulating private parties.
Murphy, 138 S. Ct. at 1479, 1480 (“In sum, regardless of
the language used by Congress ..., every form of
preemption is based on a federal law that regulates the
conduct of private actors, not the States.”). That the
Supremacy Clause prevents states from interfering with
these federal rights does not transform ICWA into an
unconstitutional command to state actors. See Murphy,
138 S. Ct. at 1480. Rather, such a restriction on states is
inherent to preemption. See id. at 1479. It would thus be
error on multiple levels to conclude that ICWA
unconstitutionally commandeers state actors, and we
decline to do so.47
actors” and instead could be understood only as “a direct command
to the States”). JUDGE DUNCAN’S interpretation of § 1915(a) & (b)
as separately directing state administrative action—which he
argues is unconstitutional—is thus not only plainly unreasonable
given the text of the statute, but also contrary to settled canons of
statutory construction. See United States v. Jin Fuey Moy, 241 U.S.
394, 401, 36 S. Ct. 658, 60 L. Ed. 1061 (1916) (stating that a statute
must be interpreted to avoid constitutional doubt if reasonably
possible).
47

The opposing opinion again makes much of the unremarkable fact,
already discussed above, see supra note 21, that though Congress
may hold plenary authority over a given field of legislation, any laws
passed pursuant to that plenary power must still be consistent with
the anticommandeering doctrine and other constitutional principles.
See DUNCAN, CIRCUIT JUDGE, OP. at 27-29. In a misguided attempt
to illustrate this point, the opposing opinion conjures up various
hypothetical federal laws concerning subjects on which Congress

146a

exercises exclusive legislative authority that would alter the rules
applicable to various state causes of actions in state proceedings.
For example, the opposing opinion imagines a federal law
“mandating different comparative fault rules in state court suits
involving Swedish visa holders,” and appears to postulate that,
notwithstanding Congress’s plenary power in regulating commerce
with foreign nations, see U.S. CONST. art. I, § 8, cl. 3, such a law
would be beyond Congress’s legislative authority. DUNCAN,
CIRCUIT JUDGE, OP. at 29.
First, these are far-fetched, counterfactual, law-school exam
hypotheticals that are wholly detached from the kind of real and
pressing human problems that ICWA addresses; rational
legislators would neither see the need for such legislation nor enact
such unfair and unworkable laws. As Justice Frankfurter observed,
“[t]he process of Constitutional adjudication does not thrive on
conjuring up horrible possibilities that never happen in the real
world and devising doctrines sufficiently comprehensive in detail to
cover the remotest contingency. Nor do we need go beyond what is
required for a reasoned disposition of the kind of controversy now
before the Court.” Garcia, 469 U.S. 528, 105 S. Ct. 1005 (quoting
New York v. United States, 326 U.S. 572, 583, 66 S. Ct. 310, 90 L. Ed.
326 (1946) (Frankfurter, J.)). Though a ridiculous law can be
imagined, it is unnecessary to fence off an inviolable area of
sovereignty reserved to the states in order to prevent it. And it
bears emphasizing that we nowhere contend, as JUDGE DUNCAN
pretends, that Tenth Amendment principles like the
anticommandeering doctrine “vanish” in the face of Congress’s
plenary authority over Indian affairs. DUNCAN, CIRCUIT JUDGE,
OP. at 69. This is a strawman, as evidenced by the fact that we
specifically address Plaintiffs’ anticommandeering contentions after
concluding that ICWA is within the subject matter upon which
Congress is authorized to legislate.
Moreover, it is unclear precisely what point JUDGE DUNCAN is
attempting to make with his parade of supposed horribles. He
appears to consider it obvious that his imagined laws would “of
course” exceed Congress’s power solely because they set standards
applicable to state causes of action in state court proceedings.

147a
To summarize, ICWA is a law of the United States
made in pursuance of the Congress’s constitutional
authority. Further, ICWA does not violate the
anticommandeering doctrine because it does not directly
command state legislatures or executive officials to
enact or administer a federal program. Rather, any
burden it places on state actors is incidental and falls
DUNCAN, CIRCUIT JUDGE, OP. at 35. But, as JUDGE DUNCAN
himself fully acknowledges elsewhere in his opinion, it is well
established that Congress can validly set substantive standards in
state court proceedings when acting pursuant to its Article I
powers, including by “altering” the substance of state causes of
action. DUNCAN, CIRCUIT JUDGE, OP. at 102-03 (“The Supreme
Court has ruled that federal standards may supersede state
standards even in realms of traditional state authority such as
family and community property law. ... [W]henever a federal
standard supersedes a state standard, the federal standard can be
said to ‘modify a state created cause of action.’”); see also Jinks, 538
U.S. at 464-65, 123 S. Ct. 1667 (holding that federal laws that
“change the ‘substance’ of state-law rights of action” do not violate
state sovereignty). And, while JUDGE DUNCAN expresses some
doubt as to Congress’s authority to regulate the procedure by which
state courts’ handle state-created causes of action, he wholly
concedes that ICWA creates substantive standards, not procedural
ones. DUNCAN, CIRCUIT JUDGE, OP. at 102 (“ICWA enacts
substantive child-custody standards applicable in state child
custody proceedings ... To the extent those substantive standards
compel state courts ... we conclude they are valid preemption
provisions.”). Thus, if JUDGE DUNCAN is arguing that his
hypothetical laws would outstrip Congress’s power because they
would regulate state court procedure rather than substance, he has
already conceded that ICWA is not like those laws. And if he is
arguing that the laws would be unconstitutional merely because
they apply to state causes of actions in state court proceedings, his
position is squarely contradicted by on-point Supreme Court
precedent and his own words in this very case.

148a
evenhandedly on private parties participating in the
same regulated activity. Under the Supremacy Clause,
then, ICWA is the supreme law of the land, and judges
in every state shall be bound thereby. ICWA and the
Final Rule therefore preempt conflicting state law, and
the district court erred by concluding otherwise.
B. Equal Protection
The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any
person within its jurisdiction the equal protection of the
laws.” U.S. CONST. amend. 14, § 1. This clause is
implicitly incorporated into the Fifth Amendment’s
guarantee of due process. See Bolling v. Sharpe, 347 U.S.
497, 499, 74 S. Ct. 693, 98 L. Ed. 884 (1954). We apply the
same analysis with respect to equal protection claims
under the Fifth and Fourteenth Amendments. See
Richard v. Hinson, 70 F.3d 415, 417 (5th Cir. 1995). In
evaluating an equal protection claim, strict scrutiny
applies to laws that rely on classifications of persons
based on race. See id. But where the classification is
political, rational basis review applies. See Mancari, 417
U.S. at 555, 94 S. Ct. 2474. This means that the law is
strongly presumed to be constitutional, and we will
invalidate it only when the classification bears no
rational connection to any legitimate government
purpose. See F.C.C. v. Beach Commc’ns, Inc., 508 U.S.
307, 314-15, 113 S. Ct. 2096, 124 L. Ed. 2d 211 (1993).
The district court granted summary judgment to the
Plaintiffs, concluding that § 1903(4)—setting forth
ICWA’s definition of “Indian child” for purposes of
determining when ICWA applies in state Indian child
custody proceedings—is a racial classification that

149a
cannot withstand strict scrutiny.48 Because ICWA’s
provisions are based on classifications of Indians, such as
“Indian child,” “Indian family,” and “Indian foster
home,” we must first examine whether these are
political or race-based classifications and thus which
level of scrutiny applies. “We review the
constitutionality of federal statutes de novo.” Nat’l Rifle
Ass’n of Am., Inc. v. Bureau of Alcohol, Tobacco,
Firearms, & Explosives, 700 F.3d 185, 192 (5th Cir.
2012).
1.

Level of Scrutiny

Congress has exercised plenary power “over the
tribal relations of the Indians ... from the beginning.”
Lone Wolf, 187 U.S. at 565, 23 S. Ct. 216. The Supreme
Court’s decisions “leave no doubt that federal legislation
with respect to Indian tribes ... is not based upon
impermissible racial classifications.” United States v.
Antelope, 430 U.S. 641, 645, 97 S. Ct. 1395, 51 L. Ed. 2d
701 (1977). “Literally every piece of legislation dealing
with Indian tribes and reservations ... single[s] out for
special treatment a constituency of tribal Indians living
on or near reservations.” Mancari, 417 U.S. at 552, 94 S.
Ct. 2474. “If these laws, derived from historical
relationships and explicitly designed to help only
Indians, were deemed invidious racial discrimination, an
48

As described above, we conclude that Plaintiffs have standing to
challenge 25 U.S.C. § 1915(a) to (b) and Final Rule §§ 23.129 to
23.132 on equal protection grounds. The district court’s analysis of
whether the ICWA classification was political or race-based focused
on § 1903(4), presumably because § 1903(4) provides a threshold
definition of “Indian child” that must be met for any provision of
ICWA to apply in child custody proceedings in state court.

150a
entire Title of the United States Code (25 U.S.C.) would
be effectively erased and the solemn commitment of the
Government toward the Indians would be jeopardized.”
Id.
In the foundational case of Morton v. Mancari, the
Supreme Court rejected an equal-protection challenge
to a BIA employment preference for Indians over nonIndians that applied regardless of whether the Indian
beneficiary lived or worked on or near a reservation. Id.
at 539 n.4, 555, 94 S. Ct. 2474. The Court began by noting
that Congress has repeatedly enacted preferences for
Indians like the one at issue and that these preferences
have several overarching purposes: “to give Indians a
greater participation in their own self-government; to
further the Government’s trust obligation toward the
Indian tribes; and to reduce the negative effect of having
non-Indians administer matters that affect Indian tribal
life.” Id. at 541-42, 94 S. Ct. 2474 (footnotes omitted). The
Court then stated that central to the resolution of
whether the preference constituted a political or racial
classification was “the unique legal status of Indian
tribes under federal law and ... the plenary power of
Congress, based on a history of treaties and the
assumption of a ‘guardian-ward’ status, to legislate on
behalf of federally recognized Indian tribes.” Id. at 551,
94 S. Ct. 2474.
In view of this “historical and legal context,” the
Court upheld the preference, determining that it served
a “legitimate, nonracially based goal.” Id. at 553-54, 94 S.
Ct. 2474. Specifically, the preference was “reasonably
designed to further the cause of Indian self-government
and to make the BIA more responsive to the needs of its

151a
constituent groups.” Id. at 554, 94 S. Ct. 2474.
Significantly, the Court observed that because the
preference was limited to members of federally
recognized tribes, it thus was “not directed towards a
‘racial’ group consisting of ‘Indians’ ... In this sense, the
preference is political rather than racial in nature.” Id.
at 553 n.24, 94 S. Ct. 2474. This was true even though
individuals were also required to possess “one-fourth or
more degree Indian blood” to be eligible for the
preference. Id. The ruling, moreover, was consistent
with “numerous” Court decisions upholding legislation
that singled out Indians for special treatment. Id. at 55455, 94 S. Ct. 2474. The Court concluded its opinion by
broadly holding that “[a]s long as the special treatment
can be tied rationally to the fulfillment of Congress’
unique obligation toward the Indians, such legislative
judgments will not be disturbed.” Id. at 555, 94 S. Ct.
2474.
The district court erroneously construed Mancari
narrowly and sought to distinguish it from ICWA for
two primary reasons. First, the district court read
Mancari’s blessing of special treatment for Indian to be
limited to laws “directed at Indian self-government and
affairs on or near Indian lands.” The district court
apparently concluded that ICWA did not meet either of
these requirements, and reasoned that strict scrutiny
therefore applied. Second, the district court observed
that ICWA’s definition of Indian child—which includes
children under eighteen years of age who are eligible for
membership in a federally recognized tribe and have a
biological parent who is a member of a tribe, 25 U.S.C.
§ 1903(4)(b)—extends beyond members of federally

152a
recognized tribes, whereas the preference in Mancari
was restricted to current tribal members and thus
“operated to exclude many individuals who are racially
to be classified as Indians.” Citing tribal membership
laws that include a requirement of lineal descent, see,
e.g., Navajo Nation Code § 701, the district court
concluded that, since ICWA covers Indian children who
are eligible for membership in a tribe, “[t]his means one
is an Indian child [within the meaning of ICWA] if the
child is related to a tribal ancestor by blood.” In the view
of the district court, ICWA therefore “uses ancestry as
a proxy for race,” and the law is therefore subject to
strict scrutiny.
We disagree with the district court’s reasoning and
conclude that Mancari stands for the broader
proposition that as long as “legislation that singles out
Indians for ... special treatment can be tied rationally to
the fulfillment of Congress’ unique obligation toward the
Indians,” the statute “will not be disturbed.” Mancari,
417 U.S. at 554-55, 94 S. Ct. 2474. In other words, if a
statute is reasonably related to the special governmentto-government political relationship between the United
States and the Indian tribes, it does not violate equal
protection principles. Mancari—and its progeny—
confirm that classifications relating to Indians need not
be specifically directed at Indian self-government to be
considered political classifications for which rational
basis scrutiny applies. Id. at 555, 94 S. Ct. 2474 (“As long
as the special treatment can be tied rationally to the
fulfillment of Congress’ unique obligation toward the
Indians, such legislative judgments will not be
disturbed.”); see also, e.g., Washington v. Confederated

153a
Bands & Tribes of Yakima Indian Nation, 439 U.S. 463,
500-01, 99 S. Ct. 740, 58 L. Ed. 2d 740 (1979) (“It is settled
that ‘the unique legal status of Indian tribes under
federal law’ permits the Federal Government to enact
legislation singling out tribal Indians, legislation that
might otherwise be constitutionally offensive.” (quoting
Mancari, 417 U.S. at 551-52, 94 S. Ct. 2474)).
In United States v. Antelope, for instance, the Court
expressly recognized that, although some of its earlier
decisions relating to Indians “involved preferences or
disabilities directly promoting Indian interests in selfgovernment,” its precedent “point[s] more broadly to
the conclusion that federal regulation of Indian affairs is
not based upon impermissible classifications.” 430 U.S.
641, 646-47, 97 S. Ct. 1395, 51 L. Ed. 2d 701 (1977) (first
citing Mancari, 417 U.S. at 553 n.24, 94 S. Ct. 2474; then
citing Fisher v. District Court, 424 U.S. 382, 96 S. Ct.
943, 47 L. Ed. 2d 106 (1976) (PER CURIAM)) (holding that
a federal statute subjecting individual Indians to federal
criminal jurisdiction due to their status as tribal
members did not violate equal protection); see also, e.g.,
Washington v. Wash. State Comm. Passenger Fishing
Vessel Ass’n, 443 U.S. 658, 673 n.20, 99 S. Ct. 3055, 61 L.
Ed. 2d 823 (1979) (determining that a treaty granting
Indians certain preferential fishing rights did not violate
equal protection because the Court “has repeatedly held
that the peculiar semisovereign and constitutionally
recognized status of Indians justifies special treatment
on their behalf when rationally related to the
Government’s ‘unique obligation toward the Indians’”
(quoting Mancari, 417 U.S. at 555, 94 S. Ct. 2474)); Moe
v. Confederated Salish & Kootenai Tribes, 425 U.S. 463,

154a
479-80, 96 S. Ct. 1634, 48 L. Ed. 2d 96 (1976) (sustaining
tribal members’ immunity from state sales tax for
cigarettes sold on the reservation and explaining that
“[a]s long as the special treatment can be tied rationally
to the fulfillment of Congress’ unique obligation toward
the Indians, such legislative judgments will not be
disturbed.” (quoting Mancari, 417 U.S. at 555, 94 S. Ct.
2474)).
Moreover, even if preferences for Indians were
limited to those directly furthering tribal selfgovernment—a proposition that, as demonstrated, is
unsupportable—it is clear that ICWA is aimed squarely
at this legislative purpose. As discussed, prior to
enacting ICWA, Congress considered testimony about
the devastating impacts of removing Indian children
from tribes and placing them for adoption and foster care
in non-Indian homes. See supra Background Part IV.
The Tribal Chief of the Mississippi Band of Choctaw
Indians, we noted, testified that “the chances of Indian
survival are significantly reduced” by removing Indian
children from their homes and raising them in nonIndian households where they are “denied exposure to
the ways of their People ... [T]hese practices seriously
undercut the tribes’ ability to continue as self-governing
communities. Probably in no area is it more important
that tribal sovereignty be respected than in an area as
socially and culturally determinative as family
relationships.” Hearing on S. 1214 before the S. Select.
Comm. on Indian Affairs, 95th Cong. 157 (1977).
This testimony undoubtedly informed Congress’s
finding that children are the most vital resource “to the
continued existence and integrity of Indian tribes,”

155a
which itself reflects Congress’s intent to further tribal
self-government. 25 U.S.C. § 1901(3). Moreover, the
Supreme Court has recognized that in enacting ICWA,
“Congress was concerned not solely about the interests
of Indian children and families, but also about the impact
on the tribes themselves of the large numbers of Indian
children adopted by non-Indians. The numerous
prerogatives accorded the tribes through ICWA’s
substantive provisions must, accordingly, be seen as a
means of protecting not only the interests of individual
Indian children and families, but also of the tribes
themselves.” Holyfield, 490 U.S. at 50, 109 S. Ct. 1597
(internal citations omitted); see also id. (noting evidence
before Congress at the time ICWA was considered that
the “[r]emoval of Indian children from their cultural
setting seriously impacts ... long-term tribal survival”
(quoting S. Rep. No. 597, 95th Cong., 2d Sess. 52 (1977)).
Thus, it is clear that Congress intended ICWA to further
both tribal self-government and the survival of tribes.
See 25 U.S.C. § 1901(3); see also COHEN’S, supra
§ 11.01[2] (“ICWA’s objective of promoting the stability
and security of Indian tribes and families encompasses
the interest of Indian nations in their survival as peoples
and self-governing communities ....”).
We also are unpersuaded by the district court’s
reasoning that differential treatment for Indians is only
subject to rational basis review when it applies to
Indians living on or near reservations. The Supreme
Court has long recognized Congress’s broad power to
regulate Indians and Indian tribes on and off the
reservation. See, e.g., United States v. McGowan, 302
U.S. 535, 539, 58 S. Ct. 286, 82 L. Ed. 410 (1938)

156a
(“Congress possesses the broad power of legislating for
the protection of the Indians wherever they may be
within the territory of the United States.” (quoting
United States v. Ramsey, 271 U.S. 467, 471, 46 S. Ct. 559,
70 L. Ed. 1039 (1926)); Perrin, 232 U.S. at 482, 34 S. Ct.
387 (acknowledging Congress’s power to regulate
Indians “whether upon or off a reservation and whether
within or without the limits of a state”). And courts have
repeatedly upheld government preferences for Indians,
regardless as to whether the Indians receiving “special
treatment” were located on or near a reservation. See,
e.g., Am. Fed’n of Gov’t Emps. v. United States, 330 F.3d
513, 516, 521 (D.C. Cir. 2003) (rejecting an equal
protection challenge to a federal defense spending
measure that provided a contracting preference for
firms with less than “51 percent Native American
ownership” even though the preference was “not
restricted to Indian activities on or near reservations or
Indian land”). Indeed, the preference in Mancari itself
did not require that the Indians benefiting from the
employment preference live on or near a reservation,
and the non-Indian employees who challenged the
preference averred that “none of them [were] employed
on or near an Indian reservation.” Mancari, 417 U.S. at
539 n.4, 94 S. Ct. 2474.
The district court’s additional rationale for finding
an equal protection violation here—that unlike the
statute in Mancari, ICWA’s definition of Indian child
extends to children who are only eligible for membership
but not-yet enrolled in a tribe—is also flawed. Though
the district court made much of the fact that a child’s
tribal eligibility generally turns on having a blood

157a
relationship with a tribal ancestor, this does not equate
to a proxy for race, as the district court believed.
Originally, Indian tribes “were self-governing
sovereign political communities.” Wheeler, 435 U.S. at
322-23, 98 S. Ct. 1079; see also Sarah Krakoff,
Inextricably Political: Race, Membership, and Tribal
Sovereignty, 87 WASH. L. REV. 1041 (2012) [hereinafter
Krakoff]. The Constitution, moreover, recognizes tribes’
political status both explicitly and implicitly. See, e.g.,
U.S. CONST. art. I, § 8 (empowering Congress “to
regulate commerce with foreign Nations, among the
several States, and with the Indian Tribes”). And as
explained, the history of the post-ratification period
demonstrates that the federal government treated
tribes as quasi-sovereigns from the very start.49 See
Ablavsky, Beyond the Indian Commerce Clause, supra
at 1061-67. Though the relationship between the
government and the tribes has evolved since then, it has
always been considered a relationship between political
entities. See Cherokee Nation v. Georgia, 30 U.S. (5 Pet.)
1, 16, 8 L. Ed. 25 (1831) (Marshall, C.J.) (describing
Indian tribes as “domestic dependent nations”);
Kahawaiolaa v. Norton, 386 F.3d 1271, 1278 (9th Cir.
49

To be sure, this course of dealing was not between powers on
equal footing; the Court, as noted, has described the tribes as
“wards of the nation” and “dependent on the United States,” which,
in turn, owes a “duty of protection” to Indian tribes. Kagama, 118
U.S. at 383-84, 6 S. Ct. 1109 (emphasis omitted); see also Mancari,
417 U.S. at 551, 94 S. Ct. 2474 (characterizing the relationship
between the tribes and federal government as that of “guardianward”). But this dependent, quasi-sovereign status does not change
that tribes are fundamentally political bodies with whom the federal
government must manage relations as with any other nation.

158a
2004) (“Historically, the formal relationship between the
United States and American Indian tribes has been
political, rather than race-based.”); COHEN’S, supra
§ 4.01[1][a]; see generally Krakoff, supra, at 1060-78.
Beginning in 1934 with passage of the Indian
Reorganization Act, the federal government entered
into a new chapter wherein it officially acknowledged
Indian tribes’ rights of self-governance by authorizing
tribes to apply for federally-recognized status. See
Indian Reorganization Act, 25 U.S.C. §§ 5101 et seq.
Official federal recognition of Indian tribes is “a formal
political act” that “institutionaliz[es] the government-togovernment relationship between the tribe and the
federal government.” Cal. Valley Miwok Tribe v. United
States, 515 F.3d 1262, 1263 (D.C. Cir. 2008) (quoting
COHEN’S, supra § 3.02[3] (2005 ed.)); see also Krakoff,
supra, at 1075. Though inevitably tied in part to
ancestry, tribal recognition and tribal sovereignty
center on a group’s status as a continuation of a historical
political entity. See 25 C.F.R. § 83.11(c), (e) (criteria for
a tribe to receive federal recognition include that the
tribe has “maintained political influence or authority
over its members as an autonomous entity from 1900
until the present” and that its members “descend from a
historical Indian tribe”); Sarah Krakoff, They Were Here
First: American Indian Tribes, Race, and the
Constitutional Minimum, 69 Stan. L. Rev. 491, 538
(2017) (explaining that the descent criterion for federal
recognition is “a proxy for connection[ ] to a political
entity, specifically a tribe, which existed historically”);
Federal Acknowledgment of American Indian Tribes, 80
Fed. Reg. 37862, 37,867 (2015). In this way, federally

159a
recognized tribal status is an inherently political
classification. See Mancari, 417 U.S. at 553 n.24, 94 S. Ct.
2474.
In view of this history, we cannot say that simply
because ICWA’s definition of “Indian child” includes
minors eligible for tribal membership (who have a
biological parent who is a tribal member), the
classification is drawn along racial lines. Tribal eligibility
does not inherently turn on race, but rather on the
criteria set by the tribes, which are present-day political
entities.50 Just as the United States or any other
50

As the Tribes explain, under some tribal membership laws,
eligibility extends to children without Indian blood, such as the
descendants of persons formerly enslaved by tribes who became
members after they were freed or the descendants of persons of any
ethnicity who have been adopted into a tribe. See, e.g., Treaty with
the Cherokees, 1866, U.S.—Cherokee Nation of Indians, art. 9, July
19, 1866, 14 Stat. 799 (providing that the Cherokee Nation “further
agree that all freedmen who have been liberated by voluntary act of
their former owners or by law, as well as all free colored persons
who were in the country at the commencement of the rebellion, and
are now residents therein, or who may return within six months,
and their descendants, shall have all the rights of native
Cherokees”); Cherokee Nation v. Nash, 267 F. Supp. 3d 86, 132, 14041 (D.D.C. 2017) (holding that Cherokee Freedmen enjoy full
citizenship rights as members of the Cherokee Nation because
Congress has never abrogated or amended the relevant treaty
terms). Accordingly, a child may fall under ICWA’s membership
eligibility standard because his or her biological parent became a
member of a tribe, despite not being racially Indian. Additionally,
many racially Indian children, such as those affiliated with nonfederally recognized tribes, do not fall within ICWA’s definition of
“Indian child.” When it comes to ICWA’s definition of Indian child,
race is thus both underinclusive—because it does not capture these
descendants of freed enslaved persons or other adoptive members
who are not “racially” Indians—and overinclusive—because it

160a
sovereign may choose to whom it extends citizenship, so
too may the Indian tribes.51 That tribes may use ancestry
embraces “racially” Indian children who are not enrolled in or
eligible for membership in a recognized tribe or who lack a biological
parent who is a member of a recognized tribe.
51

For illustrative purposes, we note that jus sanguinis, or
citizenship based on descent, is a common feature of the citizenship
laws of foreign nations. See, e.g., Irish Nationality and Citizenship
Act, 2001 (Act. No. 15/2001) (Ir.) (individuals with any direct
ancestor who was an Irish citizen are eligible for Irish ancestry,
provided that the applicant’s parent was recorded in Ireland’s
foreign births register); Kodikas Ellenikes Ithageneias [KEI] [Code
of Greek Citizenship] A:1,10 (Gr.) (establishing that children of
Greek parents are Greek by birth, and providing that aliens of
Greek ethnic origin are eligible to obtain citizenship by
naturalization); The Law of the Republic of Armenia on the
Citizenship of the Republic of Armenia (Nov. 6, 1995), as amended
through Feb. 26, 2017, by RA Law No. 75-N (Arm.) (providing that
a person may be granted Armenian citizenship without residing in
Armenia or speaking Armenian if he or she is of Armenian
ancestry); Law of Return, 5710-1950, SH No. 51 p. 159 (1950) (Isr.)
(extending the right of citizenship to any “Jew” wishing to
immigrate to Israel); Law of Return (Amendment No. 2), 5730-1970,
SH No. 586 p. 34 (1970) (Isr.) (clarifying that “Jew” means any
person born of a Jewish mother or who converted to Judaism, and
vesting the right of citizenship in any child, grandchild, or spouse of
a Jew, as well as any spouse of a child of a Jew or any spouse of a
grandchild of a Jew); Legge 5 febbraio 1992, no. 91, G.U. Feb. 15,
1992, n.38 (It.) (guaranteeing citizenship to any person whose father
or mother are citizens, and providing that Italian citizenship may be
granted to aliens whose father or mother or whose direct ancestors
to the second degree were citizens by birth); Law of 2 April 2009 on
Polish Citizenship, Dz. U. z. 2012 r. poz. 161 (Feb. 14, 2012) (Pol.)
(stating that individuals within two degrees of Polish ancestry may
be eligible for Polish citizenship). That one may be eligible for
citizenship based on their ancestry does not, of course, alter the fact
that citizenship and eligibility therefor—like actual and potential

161a
as part of their criteria for determining membership
eligibility does not change that ICWA does not classify
in this way; instead, ICWA’s Indian child designation
classifies on the basis of a child’s connection to a political
entity based on whatever criteria that political entity
may prescribe.52 See Santa Clara Pueblo v. Martinez,
436 U.S. 49, 72 n.32, 98 S. Ct. 1670, 56 L. Ed. 2d 106 (1978)
(“A tribe’s right to define its own membership for tribal
membership in a federally recognized tribe—are political matters
concerning the rights and obligations that come from membership
in a polity.
52

Moreover, even if ICWA did classify on the basis of blood quantum
as do some other laws respecting Indian affairs, it does not
necessarily follow that strict scrutiny would apply. See generally
Matthew L.M. FLETCHER, Politics, Indian Law, and the
Constitution, 108 CAL. L. REV. 495, 532-46 (2020) (arguing that,
based on the historical understanding of the Indian affairs power,
Congress has complete authority to determine who is an Indian and
it is never a suspect classification); Mancari, 417 U.S. at 552, 94 S.
Ct. 2474 (applying rational basis review to law that classified on the
basis of blood quantum). Because ICWA simply looks to tribal
eligibility and the tribal membership of a child’s birth parents, we
need not decide what level of scrutiny applies when Congress
classifies on the basis of more remote Indian ancestry. We note,
however, that some scholars have explained that “the appearance
of ‘Indian’ within the [text of the] U.S. Constitution likely dooms
[any] equal protection challenge to Indian classifications.” Gregory
Ablavsky, Race, Citizenship, and Original Constitutional
Meanings 70 STAN. L. REV. 1025, 1074 (2018). Either the use of
“‘Indian’ in the Constitutional is a political classification” and thus
“the use of Indian in ICWA and similar statutes must also be read
as a political classification,” or the references to Indians in the
Constitution must be understood as “bound up with historical
conceptions of race” and “the Constitution itself” therefore
acknowledges and “authorizes distinctions based on Native
ancestry.” Id.

162a
purposes has long been recognized as central to its
existence as an independent political community.”).
The district court determined, and Plaintiffs now
argue, that ICWA’s definition of “Indian child” “mirrors
the impermissible racial classification in Rice [v.
Cayetano, 528 U.S. 495, 120 S. Ct. 1044, 145 L. Ed. 2d
1007 (2000)], and is legally and factually distinguishable
from the political classification in Mancari.” We
disagree.
In Rice, the Court held that a provision of the
Hawaiian Constitution that permitted only “Hawaiian”
people to vote in the statewide election for the trustees
of the Office of Hawaiian Affairs (OHA) violated the
Fifteenth Amendment. Id. at 515, 120 S. Ct. 1044.
“Hawaiian” was defined by statute as “any descendant
of the aboriginal peoples inhabiting the Hawaiian
Islands which exercised sovereignty and subsisted in the
Hawaiian Islands in 1778, and which peoples thereafter
have continued to reside in Hawai[‘]i.” Id. at 509, 120 S.
Ct. 1044. (citation and internal quotation marks
omitted). The Court emphasized that the statute
classified citizens “solely because of their ancestry,”
determining that the legislature’s purpose in doing so
was to use ancestry as a proxy for race. Id. at 514-17, 120
S. Ct. 1044. In reaching its ruling, the Rice Court
expressly reaffirmed Mancari’s central holding that,
because classifications based on Indian tribal
membership are “not directed towards a ‘racial’ group
consisting of ‘Indians,’” but instead apply “only to
members of ‘federally recognized’ tribes,” they are
“political rather than racial in nature.” Rice, 528 U.S. at

163a
519-20, 120 S. Ct. 1044 (quoting Mancari, 417 U.S. at 553
n.24, 94 S. Ct. 2474).
The facts and legal issues in Rice are clearly
distinguishable from the present case. As a threshold
matter, Rice specifically involved voter eligibility in a
state-wide election for a state agency, and the Court
found only that the law at issue violated the Fifteenth
Amendment. As should be obvious, the Fifteenth
Amendment, which deals exclusively with voting rights,
is not implicated in this case. But even assuming Rice’s
holding would apply to an equal protection challenge,
ICWA’s definition of “Indian child” is a fundamentally
different sort of classification than the challenged law in
Rice.
The Court in Rice specifically noted that native
Hawaiians did not enjoy the same status as members of
federally recognized tribes, who are constituents of
quasi-sovereign political communities. Id. at 522, 120 S.
Ct. 1044. Instead, ancestry was the sole, directly
controlling criteria for whether or not an individual
could vote in the OHA election. But unlike the ancestral
requirement in Rice, ICWA’s eligibility standard simply
recognizes that some Indian children have an imperfect
or inchoate tribal membership. That is, the standard
embraces Indian children who possess a potential but
not-yet-formalized affiliation with a current political
entity—a federally recognized tribe. See Mancari, 417
U.S. at 553 n.24, 94 S. Ct. 2474.
An appreciation for how tribal membership works
makes this manifest. As Congress understood in
enacting ICWA, tribal membership “typically requires
an affirmative act by the enrollee or her parent,” 81 Fed.

164a
Reg. at 38,782, and a “minor, perhaps infant, Indian does
not have the capacity to initiate the formal, mechanical
procedure necessary to become enrolled in his tribe,”
H.R. REP. No. 95-1386, at 17 (1978). Thus, Congress was
not drawing a racial classification by including the
eligibility requirement but instead recognizing the
realities of tribal membership and classifying based on a
child’s status as a member or potential member of a
quasi-sovereign political entity, regardless of his or her
ethnicity. And because ICWA does not single out
children “solely because of their ancestry or ethnic
characteristics,” Rice, 528 U.S. at 515, 120 S. Ct. 1044,
Rice is inapposite.
In short, we find Rice wholly inapplicable except
insofar as it reaffirmed the holdings of Mancari and its
progeny that laws that classify on the basis of Indian
tribal membership are political classifications. It
therefore does not alter our conclusion that ICWA’s
definition of “Indian child” is a political classification
subject to rational basis review. See Mancari, 417 U.S.
at 555, 94 S. Ct. 2474.
Plaintiffs also separately contend that ICWA’s
lowest-tiered adoptive placement preference for “other
Indian families” constitutes a racial classification.53 See
53

53 25 U.S.C. § 1915(a) provides:

In any adoptive placement of an Indian child under State law, a
preference shall be given, in the absence of good cause to the
contrary, to a placement with
(1) a member of the child’s extended family;
(2) other members of the Indian child’s tribe; or

165a
25 U.S.C. § 1915(a)(3). This preference, they argue,
treats Indian tribes as “fungible” and does not account
for the array of differences between tribes, which, in
turn, evinces a desire to keep Indian children within a
larger Indian “race.” We disagree for reasons similar to
our holding regarding ICWA’s Indian child designation.
Like the hiring preference in Mancari, this adoption
placement preference—like all of ICWA’s placement
preferences—”applies only to members of federally
recognized tribes.” Mancari, 417 U.S. at 554 n.24, 94 S.
Ct. 2474 (internal quotation marks omitted); see also 25
U.S.C. § 1903(3) (defining “Indian” as encompassing only
members of federally recognized tribes). Because on its
face the provision is limited to “members of federally
recognized tribes,” “the preference is political rather
than racial in nature.” Mancari, 417 U.S. at 554 n.24, 94
S. Ct. 2474 (internal quotation marks omitted).
Accordingly, it, too, is subject only to rational basis
review.54
2.

Rational Basis Review

Having determined that ICWA’s Indian child and
family designations are political classifications, we need
look no further than Rice to determine their
constitutionality. Even in setting aside the Hawai’i
election law at issue, the Court stated in no uncertain
terms that statutes that fulfill “Congress’ unique
obligation toward the Indians” are constitutional. Id. at
(3) other Indian families.
54

For the same reasons, ICWA’s foster care placement preferences
based on tribal membership trigger only rational basis review. See
25 U.S.C. § 1915(b).

166a
520, 120 S. Ct. 1044 (quoting Mancari, 417 U.S. at 555,
94 S. Ct. 2474). “Of course,” the Rice Court elaborated,
“as we have established in a series of [post-Mancari]
cases, Congress may fulfill its obligations and
responsibilities to the Indian tribes by enacting
legislation dedicated to their circumstances and needs.”
Id. at 519, 120 S. Ct. 1044 (citing Wash. State Comm.
Passenger Fishing Vessel Ass’n, 443 U.S. at 673 n.20, 99
S. Ct. 3055; Antelope, 430 U.S. at 645-47, 97 S. Ct. 1395;
Del. Tribal Bus. Comm. v. Weeks, 430 U.S. 73, 84-85, 97
S. Ct. 911, 51 L. Ed. 2d 173 (1977); Moe, 425 U.S. at 47980, 96 S. Ct. 1634; Fisher, 424 U.S. at 390-91, 96 S. Ct.
943).
This is precisely what ICWA does. We have already
described at length the “circumstances and needs” that
gave rise to ICWA. Id.; see supra Background Part IVV. Suffice it to say that, in enacting the statute,
Congress explicitly found that “an alarmingly high
percentage of Indian families are broken up by the
removal, often unwarranted, of their children from them
by nontribal public and private agencies and that an
alarmingly high percentage of such children are placed
in non-Indian foster and adoptive homes and
institutions.” 25 U.S.C. § 1901(4). It further concluded
“that the States, exercising their recognized jurisdiction
over Indian child custody proceedings through
administrative and judicial bodies, have often failed to
recognize the essential tribal relations of Indian people
and the cultural and social standards prevailing in Indian
communities and families.” Id. § 1901(5). It therefore
enacted ICWA “to protect the best interests of Indian
children and to promote the stability and security of

167a
Indian tribes and families.” Id. U.S.C. § 1902. By
systematically favoring the placement of Indian children
with Indian tribes and families in child custody
proceedings, Congress sought to ensure that children
who are eligible for tribal membership are raised in
environments that engender respect for the traditions
and values of Indian tribes, thereby increasing the
likelihood that the child will eventually join a tribe and
contribute to “the continued existence and integrity of
Indian tribes.” Id. § 1901(3). It cannot be reasonably
gainsaid that these measures have some rational
connection to Congress’s goal of fulfilling its broad and
enduring trust obligations to the Indian tribes.55 See
Mancari, 417 U.S. at 555, 94 S. Ct. 2474. Indeed, JUDGE
DUNCAN does not truly argue to the contrary. Instead,
he raises what amount to two arguments that ICWA
uses impermissible means to further Congress’s
obligations to the Indian tribes.
First, JUDGE DUNCAN argues that ICWA is
irrational because it extends beyond internal tribal
affairs and intrudes into state proceedings. DUNCAN,
CIRCUIT JUDGE, OP. at 65. As we discuss at length when
addressing Plaintiffs’ federalism-based arguments,
ICWA’s creation of federal rights that state courts must
honor is not a violation of state sovereignty. More
fundamentally, however, the degree to which a law
intrudes on state proceedings has no bearing on whether
55

In addition to the reasons stated above, that ICWA furthers
Congress’s legislative aim of discharging its duties to tribes is
strongly suggested by the fact that 486 federally recognized
tribes—over 80% of all such tribes in this nation—have joined as
amici in support of upholding ICWA’s constitutionality.

168a
that law is rationally linked to protecting Indian tribes.
One can imagine any number of overbearing measures
that would advantage Indians at the expense of the
states or other members of society that would
nonetheless promote Indian welfare. A federal law could
simply effectuate a direct transfer of wealth from state
coffers to the Indian tribes, for example, which would
almost certainly run afoul of various constitutional
provisions. But there would be no debate that the law
rationally furthered the well-being of tribes, which is
sufficient to overcome an equal protection challenge
when rational basis review applies. See Nordlinger v.
Hahn, 505 U.S. 1, 10, 112 S. Ct. 2326, 120 L. Ed. 2d 1
(1992) (“[U]nless a classification warrants some form of
heightened review because it jeopardizes exercise of a
fundamental right or categorizes on the basis of an
inherently suspect characteristic, the Equal Protection
Clause requires only that the classification rationally
further a legitimate [government] interest.”).
Though JUDGE DUNCAN couches this objection as an
aspect of rational basis review, he appears to apply a far
more searching standard of scrutiny.56 For example, he
56

JUDGE DUNCAN contends that he is “faithfully following the
tailoring analysis for Indian classifications laid out by Mancari,
Rice, and Adoptive Couple.” DUNCAN, CIRCUIT JUDGE, OP. at 64
n.93. But the Supreme Court has expressly stated that
“classifications based on tribal status” are not “suspect,”
Confederated Bands & Tribes of Yakima Indian Nation, 439 U.S.
at 501, 99 S. Ct. 740, and, again, the Court has repeatedly reaffirmed
that laws that neither infringe on a fundamental right nor involve a
suspect classification warrant only rational basis review, which does
not include the type of “tailoring analysis” JUDGE DUNCAN employs.
See, e.g., Beach Commc’ns, Inc., 508 U.S. at 313, 113 S. Ct. 2096 (“In

169a
relies on the Rice Court’s statement that, because the
OHA elections in that case affected the state as a whole,
extending “Mancari to th[at] context would [ ] permit a
State, by racial classification, to fence out whole classes
of its citizens from decisionmaking in critical state
affairs.” DUNCAN, CIRCUIT JUDGE, OP. at 61-62 (quoting
528 U.S. at 522, 120 S. Ct. 1044). As we have stated,
though, Rice centered on the Fifteenth Amendment, and
even if the law were instead examined under the
Fourteenth Amendment, it would be subject to strict
scrutiny because it classified on the basis of race and
areas of social and economic policy, a statutory classification that
neither proceeds along suspect lines nor infringes fundamental
constitutional rights must be upheld against equal protection
challenge if there is any reasonably conceivable state of facts that
could provide a rational basis for the classification.”). If JUDGE
DUNCAN reads the cases he cites to sub silentio overrule Supreme
Court precedent to establish that Indian classifications are
inherently suspect or otherwise subject to a stricter tailoring
requirement than any other non-suspect classification, his
conclusion runs counter to virtually every federal appeals court to
have explicitly considered the issue. See, e.g., Am. Fed’n of Gov’t
Employees, AFL-CIO v. United States, 330 F.3d 513, 520 (D.C. Cir.
2003) (“[O]rdinary rational basis scrutiny applies to Indian
classifications just as it does to other non-suspect classifications
under equal protection analysis.”(citation omitted)); Artichoke Joe’s
California Grand Casino v. Norton, 353 F.3d 712, 732 (9th Cir. 2003)
(“The [Mancari] Court held that legislative classifications
furthering that same purpose were political and, thus, did not
warrant strict scrutiny instead of ordinary, rational-basis
scrutiny[.]”). In other words, it is firmly established that ordinary
rational basis scrutiny applies in an equal protection challenge to an
Indian classification, and under standard rational basis review,
factors like the degree of intrusion on state sovereignty are simply
not relevant to whether one can imagine a legitimate government
interest furthered by the classification.

170a
discriminated with respect to a fundamental
constitutional right. See Nordlinger, 505 U.S. at 10, 112
S. Ct. 2326. ICWA does neither. See San Antonio Indep.
Sch. Dist. v. Rodriguez, 411 U.S. 1, 33, 93 S. Ct. 1278, 36
L. Ed. 2d 16 (1973) (limiting “fundamental rights” for
purposes of equal protection analysis to those rights
protected by the constitution). Thus, whether ICWA
incidentally disadvantages some groups in state court
proceedings is of no moment. See Romer v. Evans, 517
U.S. 620, 632, 116 S. Ct. 1620, 134 L. Ed. 2d 855 (1996)
(stating that “a law will be sustained” on rational basis
review “if it can be said to advance a legitimate
government interest, even if the law seems unwise or
works to the disadvantage of a particular group, or if the
rationale for it seems tenuous” (citing New Orleans v.
Dukes, 427 U.S. 297, 96 S. Ct. 2513, 49 L. Ed. 2d 511
(1976))).
Moreover, even if such a factor were relevant to
ICWA’s validity, we would disagree that the law’s
purpose or effect is analogous to the Hawai’i law at issue
in Rice. Unlike the OHA election qualifications, ICWA
regulates relations between states, the federal
government, and the Indian tribes. The law is an
example of congressional control over federal-tribal
affairs—an interest completely absent in Rice. See Rice,
528 U.S. at 518, 120 S. Ct. 1044 (noting that to sustain
Hawai’i’s restriction under Mancari, it would have to
“accept some beginning premises not yet established in
[its] case law,” such as that Congress “has determined
that native Hawaiians have a status like that of Indians
in organized tribes”); see also Kahawaiolaa, 386 F.3d at
1279 (rejecting an equal protection challenge brought by

171a
Native Hawaiians, who were excluded from the U.S.
Department of the Interior’s formal tribal
acknowledgement process, and concluding that the
recognition of Indian tribes was political). Thus, there is
no concern that ICWA excludes a class of citizens from
participation in their own self-government; even when
ICWA reaches into state court adoption proceedings,
those proceedings are simultaneously affairs of states,
tribes, and Congress. See 25 U.S.C. § 1901(3) (“[T]here is
no resource that is more vital to the continued existence
and integrity of Indian tribes than their children.”). The
Rice Court’s caution against fencing off a class of citizens
from participation in state affairs thus does not apply to
ICWA for multiple reasons.
What remains of JUDGE DUNCAN’s contentions
amount to objections that ICWA’s Indian child and
family designations are under- and over-inclusive.
ICWA applies to Indian children who are only eligible
for tribal membership and may never join a tribe, he
points out, as well as when an Indian child’s biological
parents do not oppose placement of an Indian child with
a non-Indian family. Based on this, JUDGE DUNCAN
argues that the law could be applied in scenarios where
it does not further Congress’s goals of ensuring the
continued survival of Indian tribes and preventing the
unwilling breakup of Indian families. DUNCAN, CIRCUIT
JUDGE, OP. at 67-71. Similarly, because ICWA in some
instances favors placement of an Indian child with an
Indian family of a different tribe over placement with a
non-Indian family, JUDGE DUNCAN contends that the
statute treats the tribes as fungible and does not always
promote Congress’s goal of linking Indian children with

172a
their particular tribes. DUNCAN, CIRCUIT JUDGE, OP. at
71-73. But the Supreme Court has clearly stated that
these are not grounds for invalidating a law on rational
basis review.
“Rational-basis review tolerates overinclusive
classifications, underinclusive ones, and other imperfect
means-ends fits.” St. Joan Antida High Sch. Inc. v.
Milwaukee Pub. Sch. Dist., 919 F.3d 1003, 1010 (7th Cir.
2019) (collecting Supreme Court cases). “[L]egislation
‘does not violate the Equal Protection Clause merely
because the classifications [it makes] are imperfect.’”
New York City Transit Auth. v. Beazer, 440 U.S. 568, 592
n.39, 99 S. Ct. 1355, 59 L. Ed. 2d 587 (1979) (quoting
Dandridge v. Williams, 397 U.S. 471, 485, 90 S. Ct. 1153,
25 L. Ed. 2d 491 (1970)). “Even if the classification
involved here is to some extent both underinclusive and
overinclusive, and hence the line drawn by Congress
imperfect, it is nevertheless the rule that in a case like
this ‘perfection is by no means required.’” Id. (quoting
Vance v. Bradley, 440 U.S. 93, 108, 99 S. Ct. 939, 59 L.
Ed. 2d 171 (1979)). On rational-basis review, a statutory
classification “comes to us bearing a strong presumption
of validity, and those attacking the rationality of the
legislative classification have the burden to negative
every conceivable basis which might support it.” Beach
Commc’ns, Inc., 508 U.S. at 314-15, 113 S. Ct. 2096
(emphasis added) (cleaned up). All of this is to say that it
is immaterial whether one can imagine scenarios in
which ICWA’s classifications do not further ICWA’s
goals; that the classifications could further legitimate

173a
goals in some instances is wholly sufficient to sustain the
law’s constitutionality.57

57

JUDGE DUNCAN contends that his arguments are somehow
different from contentions that ICWA is overinclusive because
“[e]ligibility—one of only two ways to trigger ICWA—makes the
law cover children (like the ones here) with no actual connection to
a tribe” and “allowing ICWA to override birth parents’ wishes to
place their children with non-Indians ... makes nonsense of ICWA’s
key goal of preventing the break-up of Indian families.” DUNCAN,
CIRCUIT JUDGE, OP. at 68-69 n.95. But a law that employs a
classification that applies to some individuals or in some situations
in which it does not further the legislature’s objectives is the precise
definition of an overinclusive law, and the Supreme Court has
repeatedly reaffirmed that such a statute survives rational basis
review. See, e.g., Burlington N. R. Co. v. Ford, 504 U.S. 648, 653–54,
112 S. Ct. 2184, 119 L. Ed. 2d 432 (1992) (upholding against equal
protection challenge state’s differing venue rules for domestically
incorporated corporations because legislature could have rationally
concluded that many corporations are headquartered in their state
of incorporation and venue rule would promote convenient
litigation, despite many corporations not having their principal
place of business in their state of incorporation); Vance v. Bradley,
440 U.S. 93, 106, 99 S. Ct. 939, 59 L. Ed. 2d 171 (1979) (upholding
Foreign Service’s mandatory 60-year retirement age because
Congress could rationally believe that it promoted the maintenance
of “a vigorous and competent” Service, notwithstanding many
people over 60 being more “vigorous and competent” than many
people under 60); Dandridge v. Williams, 397 U.S. 471, 486, 90 S. Ct.
1153, 25 L. Ed. 2d 491 (1970) (upholding state’s cap on welfare
awarded to families with dependent children because it was rational
to believe it would encourage families to seek employment, despite
the fact that many such families contain “no person who is
employable”). Thus, even if JUDGE DUNCAN is correct that some
Indian children as classified by ICWA never ultimately join an
Indian tribe and that some Indian birth parents do not object to the
placement of their children with non-Indian families, this does not
mean that ICWA does not pass constitutional muster. It is enough

174a
Further, ICWA is irrational in the scenarios that
JUDGE DUNCAN proposes only if we artificially cabin the
interests that ICWA may serve. But “it is entirely
that Congress could have rationally believed that some Indian
children would join a tribe and some Indian birth parents would
object to a non-Indian family placement.
Perhaps seeking to overcome this clear infirmity in its reasoning,
the opposing opinion makes much of the Supreme Court’s statement
in Adoptive Couple v. Baby Girl that it would “raise equal
protection concerns” to apply ICWA in a manner that “put certain
vulnerable children at a great disadvantage solely because an
ancestor—even a remote one—was an Indian.” DUNCAN, CIRCUIT
JUDGE, OP. at 62, 70 (quoting 570 U.S. at 655, 133 S. Ct. 2552). He
contends that ICWA violates equal protection principles because it
allegedly disadvantages Indian children by making it more difficult
for non-Indians to adopt them. But the Court was merely cautioning
in dictum that ICWA may be vulnerable to an as-applied challenge
in the rare situation in which applying its classification to a specific
set of facts is wholly irrational. See City of Cleburne, Tex. v.
Cleburne Living Ctr., 473 U.S. 432, 448, 105 S. Ct. 3249, 87 L. Ed. 2d
313 (1985) (holding that applying city ordinance to particular
plaintiffs violated equal protection because classification was
irrational in that specific instance). This is a different matter than
Plaintiffs’ facial challenge to the statute, which requires that the
“challenger ... establish that no set of circumstances exists under
which the Act would be valid.” United States v. Salerno, 481 U.S.
739, 745, 107 S. Ct. 2095, 95 L. Ed. 2d 697 (1987). “The fact that
[ICWA] might operate unconstitutionally under some conceivable
set of circumstances is insufficient to render it wholly invalid[.]” Id.
Lastly, we reject JUDGE DUNCAN’S supposition that the Indian
children whom Plaintiffs seek to adopt would be put at “great
disadvantage” by being placed in the care of an Indian relative or
family pursuant to ICWA’s preferences. DUNCAN, CIRCUIT JUDGE,
OP. at 68-70. That is a value-laden policy determination that courts
are ill-equipped to make, especially without the type of detailed
fact-finding as to specific home placements that is largely absent
from the record before us.

175a
irrelevant for constitutional purposes whether the
conceived reason for the challenged distinction actually
motivated the legislature.” Id. And “a legislative choice
is not subject to courtroom fact-finding and may be
based on rational speculation unsupported by evidence
or empirical data.” Id. In other words, JUDGE DUNCAN
errs by limiting his analysis to ICWA’s goals as he
narrowly defines them; any conceivable legitimate goal
may be grounds to sustain ICWA’s constitutionality so
long as one can rationally articulate a way in which the
law’s Indian child and family classifications would
theoretically further it.
In this light, it is clear that ICWA’s classifications
are not irrational even in the situations JUDGE DUNCAN
suggests. It is rational to think that ensuring that an
Indian child is raised in a household that respects Indian
values and traditions makes it more likely that the child
will eventually join an Indian tribe—thus “promot[ing]
the stability and security of Indian tribes,” 25 U.S.C.
§ 1902—even when the child’s parents would rather the
child be placed with a non-Indian family. And we reject
the notion that ICWA’s preference for Indian families
treats tribes as fungible. As Defendants point out, many
contemporary tribes descended from larger historical
bands and continue to share close relationships and
linguistic, cultural, and religious traditions, so placing a
child with another Indian family could conceivably
further the interest in maintaining the child’s ties with
his or her tribe or culture. See, e.g., Greg O’Brien,
Chickasaws: The Unconquerable People, Mississippi
History Now (September 23, 2020, 9:20 AM), https://ms
historynow.mdah.state.ms.us/articles/8/chickasaws-the-

176a
unconquerable-people (noting that, “[c]ulturally, the
Chickasaws were (and are) similar to the Choctaws; both
groups spoke a nearly identical language, their societies
were organized matrilineally (meaning that ancestry
was traced only through the mother’s line), political
power was decentralized so that each of their seven or
so villages had their own chiefs and other leaders, and
they viewed the sun as the ultimate expression of
spiritual power for its ability to create and sustain life”).
By providing a preference for placing Indian children
with a family that is part of a formally recognized Indian
political community that is interconnected to the child’s
own tribe, ICWA enables that child to avail herself of the
numerous benefits—both tangible and intangible—that
come from being raised within this context. And even if
this were not the case, Congress could rationally
conclude that placing an Indian child with a different
tribe would fortify the ranks of that other tribe,
contributing to the continued existence of the Indian
tribes as a whole. See 25 U.S.C. §§ 1901(3), 1902;
Holyfield, 490 U.S. at 49, 109 S. Ct. 1597.
In sum, § 1903(4)’s definition of an “Indian child” and
§ 1915(a)(3)’s Indian family preference can be rationally
linked to the trust relationship between the tribes and
the federal government, as well as to furthering tribal
sovereignty and self-government. They therefore do not
violate constitutional equal protection principles, and

177a
the district court erred by concluding otherwise.58 See
Mancari, 417 U.S. at 555, 94 S. Ct. 2474.
C. Nondelegation Doctrine
We next review Plaintiffs’ challenge to 25 U.S.C.
§ 1915(c) under the nondelegation doctrine. Article I of
the Constitution vests “[a]ll legislative Powers” in
Congress. U.S. CONST. art. 1, § 1, cl. 1. “In a delegation
challenge, the constitutional question is whether the
statute has” impermissibly “delegated legislative
power.” Whitman v. Am. Trucking Ass’ns, 531 U.S. 457,
472, 121 S. Ct. 903, 149 L. Ed. 2d 1 (2001). Section 1915(c)
allows Indian tribes to establish through tribal
resolution a different order of preferred placement than
that set forth in § 1915(a) and (b).59 Section 23.130 of the
Final Rule provides that a tribe’s established placement
preferences apply over those initially specified in
ICWA.60 The district court determined that these
provisions violated the nondelegation doctrine,
reasoning that § 1915(c) grants Indian tribes the power
58

We similarly conclude that ICWA’s foster care preferences
survive rational basis review and thus do not violate equal
protection.
59

The provision states: “In the case of a placement under subsection
(a) or (b) of this section, if the Indian child’s tribe shall establish a
different order of preference by resolution, the agency or court
effecting the placement shall follow such order so long as the
placement is the least restrictive setting appropriate to the
particular needs of the child, as provided in subsection (b) of this
section.” 25 U.S.C. § 1915(c).
60

“If the Indian child’s Tribe has established by resolution a
different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply.” 25 C.F.R. § 23.130.

178a
to change legislative preferences with binding effect on
the states and that Indian tribes are not part of the
federal government of the United States and therefore
cannot exercise federal legislative or executive
regulatory power over non-Indians on non-tribal lands.
As an initial matter, Defendants argue that the
district court’s analysis of the constitutionality of these
provisions ignores the inherent sovereign authority of
tribes. They contend that § 1915(c) merely recognizes
and incorporates a tribe’s exercise of its inherent
sovereignty over Indian children and therefore is not a
delegation of authority from Congress. Ultimately,
however, we need not decide whether the Indian tribes’
inherent sovereign authority extends to establishing
rights that can be conferred on its potential members in
state court proceedings because Congress can extend
tribal jurisdiction by delegating its power through an
“express authorization [in a] federal statute.” Strate v.
A-1 Contractors, 520 U.S. 438, 445, 117 S. Ct. 1404, 137
L. Ed. 2d 661 (1997); see also United States v. Enas, 255
F.3d 662, 666-67 (9th Cir. 2001) (en banc) (explaining the
“dichotomy between inherent and delegated power” and
that “[w]hen Congress bestows additional power upon a
tribe—augments its sovereignty, one might say—this
additional grant of power is referred to as ‘delegation’”);
cf. Mazurie, 419 U.S. at 557, 95 S. Ct. 710 (“We need not
decide whether this independent authority is itself
sufficient for the tribes to impose Ordinance No. 26. It is
necessary only to state that the independent tribal
authority is quite sufficient to protect Congress’ decision
to vest in tribal councils this portion of its own authority

179a
to ‘regulate Commerce ... with the Indian tribes.’”)
(alterations in original).
As we have stated, Congress possesses the
authority to enact ICWA pursuant to its constitutional
legislative power. See supra Discussion Part II.A. And
the limitations on Congress’s ability to delegate its
legislative power are “less stringent in cases where the
entity exercising the delegated authority itself
possesses independent authority over the subject
matter.” Mazurie, 419 U.S. at 556-57, 95 S. Ct. 710.
Such a rule may arguably be justified by the fact
that the Supreme Court has long recognized that
Congress may incorporate the laws of another sovereign
into federal law without violating the nondelegation
doctrine. In United States v. Sharpnack, 355 U.S. 286,
293-94, 78 S. Ct. 291, 2 L. Ed. 2d 282 (1958), for instance,
the Supreme Court upheld a federal statute that
prospectively incorporated states’ criminal law and
made it applicable in federal enclaves within each state,
though the states, of course, lacked the power to
legislate in these enclaves. Rather than an
impermissible delegation of Congress’s legislative
power, the Court reasoned that the law was a
“deliberate continuing adoption by Congress” of state
law as binding federal law. Id.; see also Gibbons v.
Ogden, 22 U.S. (9 Wheat.) 1, 80, 6 L. Ed. 23 (1824)
(“Although Congress cannot enable a State to legislate,
Congress may adopt the provisions of a State on any
subject.”); United States v. Palmer, 465 F.2d 697, 699700 (6th Cir. 1972) (holding that the incorporation of
state law into 18 U.S.C. § 1955, which prohibits
operating an illegal gambling business and defines such

180a
an illicit business as one that violates state or local law,
does not violate the nondelegation doctrine). This same
reasoning applies to laws enacted by Indian tribes, for
“Indian tribes are unique aggregations possessing
attributes of sovereignty over both their members and
their territory.” Mazurie, 419 U.S. at 557, 95 S. Ct. 710;
see also S. Pac. Transp. Co. v. Watt, 700 F.2d 550, 556
(9th Cir. 1983) (determining that the Secretary of the
Interior did not improperly subdelegate administrative
authority by requiring tribal consent as a condition
precedent to granting a right-of-way across tribal lands
to a railroad because the Secretary simply
“incorporate[d] into the decision-making process the
wishes of a body with independent authority over the
affected lands”).
Section 1915(c) provides that a tribe may pass, by its
own legislative authority, a resolution reordering the
placement preferences set forth by Congress in § 1915(a)
or (b). Pursuant to this section, a tribe may assess, for
example, whether the most appropriate placement for
an Indian child is with members of the child’s extended
family, the child’s tribe, or other Indian families. It is
beyond debate that it would be within Indian tribes’
authority to set these same standards in tribal child
custody proceedings. See, e.g., Fisher, 424 U.S. at 390, 96
S. Ct. 943 (upholding exclusive tribal jurisdiction over
adoption proceedings among tribal members located in
Indian country); Montana, 450 U.S. at 564, 101 S. Ct.
1245 (noting tribes’ “inherent power to determine tribal
membership [and] regulate domestic relations among
members”). And just as the law at issue in Sharpnack
incorporated the laws of a state on a matter with respect

181a
to which the state was authorized to legislate and
applied it in an area in which the state was not
authorized to legislate, so § 1915(c) incorporates the law
of Indian tribes on a matter within the tribes’
jurisdiction and makes it applicable in an area that might
otherwise be beyond the tribes’ power to regulate. Thus,
§ 1915(c) can be characterized as a valid “deliberate
continuing adoption by Congress” of tribal law as
binding federal law. Sharpnack, 355 U.S. at 293-94, 78 S.
Ct. 291; 25 U.S.C. § 1915(c); 81 Fed. Reg. at 38,784
(statement by the BIA noting that “through numerous
statutory provisions, ICWA helps ensure that State
courts incorporate Indian social and cultural standards
into decision-making that affects Indian children”).
But § 1915(c)’s validity is not dependent solely on
this framing. Courts have frequently upheld delegations
of congressional authority to Indian tribes without
reference to federal incorporation of their law. In United
States v. Mazurie, for example, the Supreme Court
considered a federal law that allowed the tribal council
of the Wind River Tribes, with the approval of the
Secretary of the Interior, to adopt ordinances to control
the introduction of alcoholic beverages by non-Indians
on privately owned land within the boundaries of the
reservation. See 419 U.S. at 547, 557, 95 S. Ct. 710. As
the Court later explained, Congress indicated its intent
to delegate authority to tribes in the statute’s
requirement that liquor transactions conform “‘with an
ordinance duly adopted’ by the governing tribe.” Rice v.
Rehner, 463 U.S. 713, 730-31, 103 S. Ct. 3291, 77 L. Ed.
2d 961 (1983) (quoting 18 U.S.C. § 1161) (examining the
same statute challenged in Mazurie). The Court ruled

182a
that such a delegation of congressional power did not
violate the nondelegation doctrine. Mazurie, 419 U.S. at
546, 557, 95 S. Ct. 710. Tribes possess “a certain degree
of independent authority over matters” relating to their
“internal and social relations,” the Court reasoned,
including the “distribution and use of intoxicants” within
the reservation’s bounds. Id. And this independent tribal
authority provided Congress with a sufficient basis for
vesting in tribes Congress’s own power to regulate
Indian affairs. Id.
Similarly, in Bugenig v. Hoopa Valley Tribe, the
Ninth Circuit, sitting en banc, determined that Congress
had expressly delegated authority to the Hoopa Valley
Tribe to regulate conduct by nonmembers. See 266 F.3d
1201, 1223 (9th Cir. 2001) (en banc). In that case, the
Hoopa Tribe had ratified a constitution in 1972 stating
that the Tribe’s jurisdiction “extend[s] to all lands within
the confines of the” reservation and that the Tribe could
regulate “the use and disposition of property upon the
reservation,” including by non-members. Id. at 1212.
Later, Congress passed a statute stating that “existing
gove[r]ning documents of the Hoopa Valley Tribe and
the governing body established and elected thereunder
... are hereby ratified and confirmed.” Id. at 1207-08
(quoting 25 U.S.C. § 1300i-7). The Tribe then passed a
resolution prohibiting harvesting timber within a
certain zone on the reservation. Id. at 1208. Shortly after
the resolution’s adoption, a non-member purchased
property in this zone and began clearing its timber. Id.
The Tribe attempted to enjoin her timber removal,
arguing that Congress had vested in it the authority to
regulate within the reservation, regardless of

183a
ownership. Id. at 1209. The Ninth Circuit agreed.
Reading together the tribal constitution and the
congressional enactment that “ratified and confirmed”
the Tribe’s governing documents, the court found that
Congress had “delegated authority to regulate all the
lands within the” reservation, including those owned by
non-Indians. Id. at 1216. The court also determined that
the delegation was valid because “Congress can delegate
to Indian tribes those powers that are within the sphere
of the Indian Commerce Clause.” Id. at 1223 n.12.
Like the statutes in Mazurie and Bugenig, § 1915(c)
contains an express delegation to tribes. See 25 U.S.C.
§ 1915(c) (permitting “the Indian child’s tribe” to alter
the order of placement preferences). And because the
authority to alter placement preferences with respect to
specific tribes is within Congress’s power, Congress can
validly delegate this authority to Indian tribes. See
Bugenig, 266 F.3d at 1223 n.12. Thus, Congress has
validly “augment[ed]” tribal power by delegating
additional authority via § 1915(c). Enas, 255 F.3d at 667.
JUDGE DUNCAN presents two arguments as to why
§ 1915(c) violates nondelegation principles. First, he
contends that the provision delegates Congress’s core
legislative power and thereby violates the bicameralism
and presentment requirements that Congress must
adhere to when enacting law. DUNCAN, CIRCUIT JUDGE,
OP. at 110-11. Second, he argues that, even if § 1915(c) is
construed as a delegation of regulatory authority, it
violates nondelegation principles because it entrusts the
authority to a party outside the federal government.
DUNCAN, CIRCUIT JUDGE, OP. at 112. Neither contention
is ultimately persuasive. At the threshold, we note that

184a
JUDGE DUNCAN takes up the contention that § 1915(c)
specifically violates bicameralism and presentment
wholly sua sponte; no party or amicus raised it in the
district court, before the panel, or in en banc briefing.61
This is likely because the nondelegation doctrine already
provides that Congress may not delegate to other actors
the core legislative power that would be subject to the
bicameralism and presentment requirements, see
Loving v. United States, 517 U.S. 748, 758, 116 S. Ct.
1737, 135 L. Ed. 2d 36 (1996), and thus the nondelegation
inquiry, already accounts for bicameralism and
presentment. See John F. Manning, The Nondelegation
Doctrine as a Canon of Avoidance, 2000 SUP. CT. REV.
223, 240 (2000) (“The nondelegation doctrine protects
[important] interests by forcing specific policies through
the process of bicameralism and presentment[.]”); see
also Jackson v. Stinnett, 102 F.3d 132, 135 n.3 (5th Cir.
1996) (rejecting a reading of a statute that would
61

The district court also did not raise or pass on this issue. We
ordinarily do not consider issues in this posture. See Burell v.
Prudential Ins. Co. of Am., 820 F.3d 132, 140 (5th Cir. 2016) (“To
preserve an argument, it must be raised to such a degree that the
district court has an opportunity to rule on it.” (cleaned up));
Firefighters’ Ret. Sys. v. EisnerAmper, L.L.P., 898 F.3d 553, 561
(5th Cir. 2018) (“It is the general rule, of course, that a federal
appellate court does not consider an issue not passed upon below.”
(internal quotation marks omitted)). Moreover, “[i]n our adversarial
system of adjudication, we follow the principle of party presentation
... ‘[I]n the first instance and on appeal ..., we rely on the parties to
frame the issues for decision and assign to courts the role of neutral
arbiter of matters the parties present.’” United States v. SinenengSmith, 140 S. Ct. 1575, 1579, 206 L. Ed. 2d 866 (2020) (third set of
alterations in original) (quoting Greenlaw v. United States, 554 U.S.
237, 128 S. Ct. 2559, 171 L. Ed. 2d 399 (2008)).

185a
“approach[ ] a violation of the Presentment Clause and
the nondelegation doctrine” (emphasis added)). In a
nondelegation challenge, the nondelegation question
both subsumes and precedes the presentment and
bicameralism questions, rending those latter inquiries
superfluous.
Bicameralism and presentment are only separately
implicated—to the exclusion of nondelegation—when
Congress devises a scheme by which it (or its legislative
agent) purports to enact law through a process other
than that prescribed by Article I, Section 7 of the
Constitution. “Absent retained congressional veto
power or other such retained authority ... which is
‘legislative in its character and effect,’ the presentment
clauses are not [separately] implicated and the only
question is one involving the delegation doctrine.”
United States v. Scampini, 911 F.2d 350, 352 (9th Cir.
1990) (quoting INS v. Chadha, 462 U.S. 919, 952, 103 S.
Ct. 2764, 77 L. Ed. 2d 317 (1983)) (internal citation
omitted); see also Metro. Washington Airports Auth. v.
Citizens for Abatement of Aircraft Noise, Inc., 501 U.S.
252, 276, 111 S. Ct. 2298, 115 L. Ed. 2d 236 (1991)
(“Congress cannot exercise its legislative power to enact
laws without following the bicameral and presentment
procedures specified in Article I.” (emphasis added)). An
arrangement in which specifically Congress or its agents
attempt to enact legislation through an unconstitutional
process is the only situation that can give rise to a
procedural violation of bicameralism or presentment
without also implicating nondelegation; it is still
Congress that is purporting to enact law but doing so
without complying with constitutionally mandated

186a
procedures. In light of this framing, it makes sense that
the Supreme Court has consistently performed only a
nondelegation analysis when examining challenges to
the vesting of power in parties other than Congress or
its agents. See, e.g., Mazurie, 419 U.S. at 556-58, 95 S. Ct.
710; Loving, 517 U.S. at 758, 116 S. Ct. 1737; Am.
Trucking Ass’ns, 531 U.S. at 472-76, 121 S. Ct. 903;
Mistretta v. United States, 488 U.S. 361, 371-79, 109 S.
Ct. 647, 102 L. Ed. 2d 714 (1989). Neither Congress nor
its agents are involved in the tribal resolution
contemplated by § 1915(c). The cases JUDGE DUNCAN
relies upon addressing the procedures Congress must
use when enacting legislation are therefore of little
relevance to the present case. E.g., Chadha, 462 U.S. at
959, 103 S. Ct. 2764, Clinton v. City of New York, 524
U.S. 417, 447–48, 118 S. Ct. 2091, 141 L. Ed. 2d 393 (1998);
Metro. Washington Airports Auth. 501 U.S. at 276, 111
S. Ct. 2298.
Evaluated under the proper rubric, § 1915(c) does
not represent an invalid delegation. As to JUDGE
DUNCAN’s first contention, he appears to argue that
§ 1915(c) implicates the core legislative power because
Congress, in setting a default rule that tribes may alter
under congressionally-defined circumstances, has
effectively permitted the tribes to “change specifically
enacted Congressional priorities.” DUNCAN, CIRCUIT
JUDGE, OP. at 109. We note the counterintuitive nature
of the opposing opinion’s proposed holding that
Congress delegates too much discretion when it
provides some guidance and exercises some control over
an issue by setting a default standard rather than
leaving the implementation of a statute entirely to the

187a
delegee’s discretion. Moreover, countless other federal
statutes set a default standard that applies unless
another party chooses to act, and these laws often grant
the delegee far more power to negate the normal
functioning of federal law than does § 1915(c). See, e.g.,
16 U.S.C. § 1536 (permitting an Endangered Species
Committee made up of high-ranking executive branch
officials to suspend the otherwise applicable
requirements of the Endangered Species Act for
particular projects); 7 U.S.C. § 136p (allowing the
Environmental Protection Agency (EPA) to exempt
state and federal agencies from the Federal Insecticide,
Fungicide and Rodenticide Act); 43 U.S.C. § 1652
(permitting the Secretary of the Interior and other
federal officials to “waive any procedural requirements
of law or regulation which they deem desirable to waive
in order to” construct the Trans-Alaska Pipeline); 42
U.S.C. § 1315 (permitting states, with approval from the
Department of Health and Human Services, to
customize their Medicaid programs in ways that would
otherwise violate the Social Security Act). Indeed, many
federal statutes specifically delegate to another,
separate sovereign the authority to alter the federal
standard in matters related to the sovereign’s
jurisdiction. See, e.g., 20 U.S.C. § 1415(b)(6)(B)
(providing that the statute of limitation for bringing an
administrative claim under the Individuals with
Disabilities Education Act is two-years “or, if the State
has an explicit time limitation for presenting such a
complaint under this subchapter, in such time as the
State law allows”); 11 U.S.C. § 522 (permitting state law
to alter the default property exemptible from a
bankruptcy estate); 12 U.S.C. § 2279aa-12(b)(2)

188a
(permitting states to enact law overriding exemption
from state registration and qualification laws for
securities guaranteed by the Federal Agricultural
Mortgage Corporation); 42 U.S.C. § 14503(a), (e)
(exempting nonprofit and governmental entities from
liability for the acts of volunteers but allowing state law
to override exemption in several specific ways).62 Courts
have repeatedly affirmed Congress’s authority to allow
another party to override the federal default for specific
applications of a law without violating nondelegation
principles. See, e.g., Am. Fuel & Petrochemical Mfrs. v.
EPA, 937 F.3d 559, 578 (D.C. Cir. 2019), cert. denied sub
nom. Valero Energy Corp. v. EPA, 140 S. Ct. 2792, 206
L. Ed. 2d 955 (2020) (mem.) (upholding against
nondelegation challenge law permitting the EPA to alter
otherwise statutorily mandated renewable fuel quotas);
62

JUDGE DUNCAN attempts to distinguish between laws that permit
another party to waive statutory requirements and those that
permit a party to “re-write enacted statutes.” DUNCAN, CIRCUIT
JUDGE, OP. at 111. n.149. But the opposing opinion offers no
reasoned analysis as to why a waiver, which effectively deletes text
from a statute for specific applications of the law or adds text
establishing specific exceptions to a statutory regime, is less of a
“rewrit[ing of] enacted statutes” than the reordering of the
placement preferences for limited applications of ICWA that the
statute authorizes Indian tribes to bring about. This failing is
particularly apparent in JUDGE DUNCAN’s handling of the cited
federal laws that permit another sovereign to override a statutory
default, just as ICWA does here. DUNCAN, CIRCUIT JUDGE, OP. at
113 n.150. Simply repeating the phrase “alter the text” is no
substitute for meaningfully distinguishing these laws, and the
opposing opinion does nothing to explain how § 1915(c) authorizes
“alter[ing] the text” of a statute any more than the myriad other
federal laws cited here that permit a party other than Congress to
change a statute’s functioning for certain limited applications.

189a
Defs. of Wildlife v. Chertoff, 527 F. Supp. 2d 119, 124
(D.D.C. 2007) (noting that permitting executive officials
to waive environmental laws for limited purposes does
not violate nondelegation where it did not “alter the text
of any statute, repeal any law, or cancel any statutory
provision” because the statute itself “retains the same
legal force and effect as it had when it was passed by
both houses of Congress and [was] presented to the
President”); In re Border Infrastructure Envtl. Litig.,
284 F. Supp. 3d 1092, 1140 (S.D. Cal. 2018), aff’d, 915 F.3d
1213 (9th Cir. 2019), cert. denied sub nom. Animal Legal
Def. Fund v. Dep’t of Homeland Sec., 139 S. Ct. 594, 202
L. Ed. 2d 428 (2018) (same).
JUDGE
DUNCAN’s
second
contention—that
Congress may not delegate authority of any sort to a
party outside the federal government—is also easily
disposed of. Whether framed as a prospective
incorporation of another sovereign’s law or a delegation
of regulatory authority, the Supreme Court has long
approved of federal statutes that permit another
sovereign to supply key aspects of the law, including an
explicit delegation of authority to the Indian tribes. See
Mazurie, 419 U.S. at 556-57, 95 S. Ct. 710; Gibbons, 22
U.S. (9 Wheat.) at 80, Wilkerson v. Rahrer, 140 U.S. 545,
562, 11 S. Ct. 865, 35 L. Ed. 572 (1891) (“[W]hile the
legislature cannot delegate its power to make a law, it
can make a law which leaves it to municipalities or the
people to determine some fact or state of things, upon
which the action of the law may depend.”). But see
Knickerbocker Ice Co. v. Stewart, 253 U.S. 149, 164, 40 S.
Ct. 438, 64 L. Ed. 834 (1920) (holding that Congress may
not delegate to the states its exclusive authority over

190a
admiralty and maritime law because the Constitution
specifically entrusts that power to Congress to maintain
nationwide uniformity). Indeed, the Supreme Court
itself routinely looks to the law of other sovereigns to fill
in important aspects of federal statutes. In the context
of a § 1983 claim, for instance, analogous state personal
injury torts supply, inter alia, the statute of limitations
in which the federal claim may be brought. See Wallace
v. Kato, 549 U.S. 384, 387, 127 S. Ct. 1091, 166 L. Ed. 2d
973 (2007) (“Section 1983 provides a federal cause of
action, but in several respects relevant here federal law
looks to the law of the State in which the cause of action
arose.”). The inescapable message of these long-standing
statutes and Supreme Court precedents is clear:
Congress does not invalidly delegate regulatory power
simply because it prospectively incorporates into federal
law the decision-making of another sovereign on a
matter within that sovereign’s jurisdiction.63 Cf.
Kentucky Div., Horsemen’s Benev. & Protective Ass’n,
Inc. v. Turfway Park Racing Ass’n, Inc., 20 F.3d 1406,
1417 (6th Cir. 1994) (“[T]he separation of powers
principle and, a fortiori, the nondelegation doctrine,
simply are not implicated by Congress’ ‘delegation’ of
power to the States.”).

63

Even if the Indian tribes were not sovereigns in their own right,
it does not necessarily follow that incorporating their decisionmaking into federal law would violate the nondelegation doctrine,
as the Supreme Court has historically upheld even delegations of
authority to private entities against such challenges. See Currin v.
Wallace, 306 U.S. 1, 1, 59 S. Ct. 379, 83 L. Ed. 441 (1939); United
States v. Rock Royal Co-op., 307 U.S. 533, 577–78, 59 S. Ct. 993, 83
L. Ed. 1446 (1939).

191a
It is thus unsurprising that JUDGE DUNCAN offers
no binding precedent to support a rule that regulatory
power cannot be delegated outside the federal
government, relying entirely on concurrences and
secondary sources for his novel approach. See DUNCAN,
CIRCUIT JUDGE, OP. at 112. And, because he offers no
explanation or limiting principle to differentiate the
present case from those cited above, one is struck by the
sheer breadth of the opposing proposed opinion’s
holding, which would likely render myriad federal laws
invalid and conflict with binding Supreme Court
precedents. See, e.g., Mazurie, 419 U.S. at 556-57, 95 S.
Ct. 710.
In sum, § 1915(c) validly integrates tribal
sovereigns’ decision-making into federal law, regardless
of whether it is characterized as a prospective
incorporation of tribal law or an express delegation by
Congress under its Indian affairs authority.
Accordingly, § 1915(c) does not violate the nondelegation
doctrine.64

64

Because we would not hold that any provision of ICWA is
unconstitutional, a severability analysis is unnecessary. However,
even if we were to conclude that certain portions of ICWA violate
the Constitution, we would hold that ICWA’s severability clause, 25
U.S.C. § 1963, is fully enforceable, meaning that only those specific
provisions of the law that are unconstitutional are invalid and the
remainder of the statute remains in full effect. See Seila Law LLC
v. Consumer Fin. Protect. Bureau, 140 S. Ct. 2183, 2209, 207 L. Ed.
2d 494 (2020) (“When Congress has expressly provided a
severability clause, our task is simplified. We will presume that
Congress did not intend the validity of the statute in question to
depend on the validity of the constitutionally offensive provision

192a
D. The Final Rule
The district court held that, to the extent §§ 23.106
to 23.122, 23.124 to 23.132, and 23.140 to 23.141 of the
Final Rule were binding on State Plaintiffs, they
violated the APA for three reasons: the provisions (1)
purported to implement an unconstitutional statute; (2)
exceeded the scope of the Interior Department’s
statutory authority to implement ICWA; and (3)
reflected an impermissible construction of § 1915.
Reviewing the district court’s legal conclusions de novo,
we conclude that the Final Rule does not contravene the
APA. Fath v. Texas Dep’t of Transp., 924 F.3d 132, 136
(5th Cir. 2018).
1.

The Constitutionality of ICWA

Because we conclude, for reasons discussed earlier
in this opinion, that the challenged provisions of ICWA
are constitutional, we also determine that the district
court erred by concluding that the Final Rule was
invalid because it implemented an unconstitutional
statute. Thus, the statutory basis for the Final Rule is
constitutionally valid.
2.

The Scope of the BIA’s Authority

Congress authorized the Secretary of the Interior to
promulgate “rules and regulations as may be necessary
to carry out the provisions” of ICWA. 25 U.S.C. § 1952.
Pursuant to this provision, the BIA, acting under
authority delegated by the Interior Department, issued
guidelines in 1979 for state courts in Indian child custody
unless there is strong evidence that Congress intended otherwise.”
(internal quotation and ellipses omitted)).

193a
proceedings that were “not intended to have binding
legislative effect.” 44 Fed. Reg. at 67,584. The BIA
explained that, generally, “when the Department writes
rules needed to carry out responsibilities Congress has
explicitly imposed on the Department, those rules are
binding.” Id. However, when “the Department writes
rules or guidelines advising some other agency how it
should carry out responsibilities explicitly assigned to it
by Congress, those rules or guidelines are not, by
themselves, binding.” Id. With respect to ICWA, the
1979 BIA did not interpret the language and legislative
history of 25 U.S.C. § 1952 to indicate that Congress
intended the BIA to supervise state judiciaries, and it
noted that enacting federal regulations that were
primarily applicable in state court proceedings would
raise federalism concerns. Id. The agency concluded that
such binding regulations were “not necessary” in any
event because the BIA then believed that state courts
were “fully capable” of honoring the rights created by
ICWA. Id.
In 2016, however, the BIA changed course and
issued the Final Rule, which, in an effort to bring about
greater uniformity in Indian child custody cases, sets
binding standards governing the rights of Indian
children, families, and tribes in such proceedings. See 25
C.F.R. §§ 23 et seq.; 81 Fed. Reg. at 38,779, 38,785. The
BIA explained that its earlier, nonbinding guidelines
were “insufficient to fully implement Congress’s goal of
nationwide protections for Indian children, parents, and
Tribes.” 81 Fed. Reg. at 38,782. Without the Final Rule,
the BIA stated, state-by-state determinations about
how to implement ICWA would continue to result in

194a
widely differing standards of protection “with
potentially devastating consequences” for the Indian
populations that ICWA was intended to benefit. See id.
Echoing the district court’s reasoning, Plaintiffs
argue that the BIA did not provide a sufficient
explanation for its change in position regarding its
authority to issue binding regulations. It is not clear,
however, whether they also contend that, regardless of
the adequacy of the explanation for the new position, the
BIA simply lacks authority under § 1952 to promulgate
binding regulations. In any event, we assume Plaintiffs
properly present both challenges. As to the latter
argument that the BIA lacks authority under ICWA to
issue binding regulations, we employ the familiar
framework set forth in Chevron, U.S.A., Inc. v. Natural
Res. Def. Council, Inc., 467 U.S. 837, 842-43, 104 S. Ct.
2778, 81 L. Ed. 2d 694 (1984). Under Chevron, we review
“an agency’s construction of the statute which it
administers,” by asking “two questions.” Id. at 842, 104
S. Ct. 2778. First, we must examine whether the statute
is ambiguous. Id. “If the intent of Congress is clear, that
is the end of the matter; for the court, as well as the
agency, must give effect to the unambiguously
expressed intent of Congress.” Id. at 842-43, 104 S. Ct.
2778. But “if the statute is silent or ambiguous with
respect to the specific issue, the question for the court is
whether the agency’s answer is based on a permissible
construction of the statute.” Id. at 843, 104 S. Ct. 2778.
We must uphold an agency’s reasonable interpretation
of an ambiguous statute. Id. at 844, 104 S. Ct. 2778.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the

195a
Department authority to promulgate rules and
regulations that implement private rights that state
courts must honor. In stating that “the Secretary shall
promulgate such rules and regulations as may be
necessary to carry out the provisions of this chapter,”
the text of § 1952 confers broad authority on the
Department to promulgate rules and regulations it
deems necessary to carry out ICWA. This language
clearly grants the BIA the authority to promulgate
standards that are binding upon all parties; this is
inherent in the statute’s use of the term “rules,” for a
rule is not a rule if it can be disregarded at will. Still, the
Final Rule does place a duty on state courts to respect
the rights it implements, which we will grant is
somewhat unusual in the world of administrative law.
See 81 Fed. Reg. 38,778. Because it may be arguable that
“Congress has not directly addressed the precise
question at issue”—that is, whether the BIA is
authorized to promulgate rules and regulations that
effectively bind state courts—we will assume arguendo
that § 1952 is ambiguous on the subject. See Chevron, 467
U.S. at 843, 104 S. Ct. 2778.
The BIA’s interpretation of § 1952 is valid under the
second Chevron step because it is a reasonable
construction of the statute. See 467 U.S. at 843-44, 104 S.
Ct. 2778. As Defendants point out, § 1952’s language is
substantively identical to other statutes conferring
broad delegations of rulemaking authority. Indeed, the
Supreme Court has held that “[w]here the empowering
provision of a statute states simply that the agency may
‘make ... such rules and regulations as may be necessary
to carry out the provisions of this Act’ ... the validity of a

196a
regulation promulgated thereunder will be sustained so
long as it is reasonably related to the purposes of the
enabling legislation.” Mourning v. Family Publ’ns
Serv., Inc., 411 U.S. 356, 369, 93 S. Ct. 1652, 36 L. Ed. 2d
318 (1973) (quoting 42 U.S.C. § 1408) (cleaned up); see
also City of Arlington v. F.C.C., 569 U.S. 290, 306, 133 S.
Ct. 1863, 185 L. Ed. 2d 941 (2013) (noting a lack of
“case[s] in which a general conferral of rulemaking or
adjudicative authority has been held insufficient to
support Chevron deference for an exercise of that
authority within the agency’s substantive field”); AT&T
Corp. v. Iowa Utils. Bd., 525 U.S. 366, 377-78, 119 S. Ct.
721, 142 L. Ed. 2d 835 (1999) (determining that the
Federal Communications Commission had authority to
issue regulations based on statutory language
permitting the agency to “prescribe such rules and
regulations as may be necessary in the public interest to
carry out” the statute). Here, § 1952’s text is nearly
identical to the statutory language at issue in Mourning,
and the Final Rule’s binding standards for Indian child
custody proceedings are obviously related to ICWA’s
purpose of establishing minimum federal standards in
child custody proceedings involving Indian children. See
25 U.S.C. § 1902. Thus, the BIA was reasonable in
interpreting § 1952 to confer on it the authority to
promulgate the Final Rule.
Neither Plaintiffs nor JUDGE DUNCAN argues that
setting binding standards for child custody proceedings
is unrelated to ICWA’s purpose, for clearly it is not.
Instead, Plaintiffs and JUDGE DUNCAN primarily

197a
contend that the BIA reversed its position without
providing an adequate explanation.65
We must note the conceptual difference between the
Chevron inquiry, which asks whether an agency’s
substantive interpretation of a statute is a reasonable
one, and the procedural question of whether an agency
provided an adequate explanation for its decision to
switch from one statutory interpretation to another. See
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 1001 n.4, 125 S. Ct. 2688, 162 L. Ed.
2d 820 (2005) (noting that any inconsistency in an
agency’s explanation for changing course “bears on
whether the [agency] has given a reasoned explanation
for its current position, not on whether its interpretation
is consistent with the statute”). To be sure, there are
situations where the procedures by which an agency
65

Like with Plaintiffs, it is not clear whether JUDGE DUNCAN
separately argues that, regardless of the adequacy of the
explanation given for the change, it is unreasonable in the first
instance for the BIA to interpret § 1952 to authorize the Final Rule
because Congress could not have intended to allow the agency to set
standards applicable in state courts. But any such argument would
simply be inconsistent with the Supreme Court’s holdings in
Mourning and related cases regarding the breadth of authority
delegated by broadly worded rules-enabling statutes. Under these
precedents, so long as a rule is reasonably related to the statute’s
purpose, it is not unreasonable to interpret the BIA’s delegated
authority to encompass it. See Mourning, 411 U.S. at 369, 93 S. Ct.
1652. Moreover, Congress clearly considered it to be within its
power to set standards applicable in child custody proceedings, as
there is no dispute that many provisions of ICWA do precisely that.
There is thus no reason to presume that Congress would implicitly
exclude such authority from its broad authorization to the BIA to
promulgate rules it deems necessary to ICWA’s implementation.

198a
adopts a new statutory interpretation—including
whether the agency provided a reasoned explanation for
changing its position—may be relevant to whether a
court should defer to an agency’s interpretation of a
statute. More specifically, when it is necessary for a
court to interpret a statute committed to an agency’s
implementation, Chevron deference may be withheld if
the agency failed to adequately explain why it shifted to
its current interpretation. Cf. Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2125, 195 L. Ed. 2d 382 (2016).
But the Chevron framework is inapposite where a
plaintiff directly challenges an agency rulemaking as
violating the APA—as opposed to the statute that is
being interpreted—because the agency arbitrarily
departed from a prior statutory interpretation. When a
plaintiff merely argues that an agency violated the APA
by not providing sufficient reasons for its change of
position, it is unnecessary for a court to actually decide
whether the new statutory interpretation is correct to
resolve the question; indeed, an agency can violate the
APA by switching to a statutory interpretation that is
wholly reasonable under Chevron if it does so without
providing an adequate explanation for the change. See
Brand X, 545 U.S. at 1001, 125 S. Ct. 2688 (stating that
an agency “is free within the limits of reasoned
interpretation to change course if it adequately justifies
the change” (emphasis added)); 5 U.S.C. § 706(2)(A), (C)
(calling for courts to separately evaluate whether an
agency action is arbitrary and capricious and whether an
agency action is in excess of statutory authority). And
because there is no need to interpret the statute when
the challenge is only to the adequacy of an agency’s
explanation for its changed position, there is no need to

199a
determine whether to defer to the agency’s new
interpretation under Chevron. JUDGE DUNCAN
therefore errs by characterizing the question of whether
the BIA provided an adequate explanation for its
changed position as a component of Chevron step two.
Moreover, we disagree that the BIA failed to
provide an adequate explanation for its change of course.
“The mere fact that an agency interpretation contradicts
a prior agency position is not fatal. Sudden and
unexplained change, or change that does not take
account of legitimate reliance on prior interpretation,
may be arbitrary, capricious [or] an abuse of discretion.
But if these pitfalls are avoided, change is not
invalidating, since the whole point of Chevron is to leave
the discretion provided by the ambiguities of a statute
with the implementing agency.” Smiley v. Citibank (S.
Dakota), N.A., 517 U.S. 735, 742, 116 S. Ct. 1730, 135 L.
Ed. 2d 25 (1996) (internal citations and quotation marks
omitted). The agency must provide a “reasoned
explanation” for its new policy, but “it need not
demonstrate to a court’s satisfaction that the reasons for
the new policy are better than the reasons for the old
one.” F.C.C. v. Fox Television Stations, Inc., 556 U.S.
502, 515, 129 S. Ct. 1800, 173 L. Ed. 2d 738 (2009). “[I]t
suffices that the new policy is permissible under the
statute, that there are good reasons for it, and that the
agency believes it to be better, which the conscious
change of course adequately indicates.” Id.
In the preamble to the Final Rule, the BIA directly
addressed its reasons for departing from its earlier
interpretation that it had no authority to promulgate
binding regulations applicable in child custody

200a
proceedings. The agency explained that, contrary to its
previous position that nothing in the text of the statute
indicated a congressional intent to authorize such
binding regulations, Supreme Court precedent
established that the text of § 1952 conferred “a broad and
general grant of rulemaking authority” and
“presumptively authorize[s the] agenc[y] to issue rules
and regulations addressing matters covered by the
statute.” 81 Fed. Reg. at 38,785 (collecting Supreme
Court cases). The BIA also justified its determination
that ICWA granted it the authority to promulgate
binding regulations based on having “carefully
considered public comments on the issue” and, in light of
this commentary, having reconsidered and rejected its
statements in 1979 that it lacked such authority. See id.
at 38,785-86. And the BIA directly responded to the
federalism concerns raised in 1979 and by present-day
commentators. It explained that such concerns were
misplaced because the Constitution conferred upon
Congress plenary power over Indian affairs and that,
when “a power is delegated to Congress in the
Constitution, the Tenth Amendment expressly disclaims
any reservation of that power to the States.” Id. at
38,789 (internal quotation marks omitted) (quoting New
York, 505 U.S. at 156, 112 S. Ct. 2408). Because
Congress’s plenary power authorized it to enact ICWA
and because Congress had validly delegated authority to
the BIA in § 1952 to implement ICWA, the agency
determined
that
the
Final
Rule
did
not
unconstitutionally encroach on state authority. See id.
Further, the BIA discussed why it now considered
binding regulations necessary to implement ICWA: In

201a
1979, the BIA “had neither the benefit of the Holyfield
Court’s carefully reasoned decision nor the opportunity
to observe how a lack of uniformity in the interpretation
of ICWA by State courts could undermine the statute’s
underlying purposes.” 81 Fed. Reg. at 38,787. In Miss.
Band of Choctaw Indians v. Holyfield, the Supreme
Court considered the meaning of the term “domicile” in
25 U.S.C. § 1911, which ICWA left undefined and the
BIA left open to state interpretation under its 1979
Guidelines. 490 U.S. at 43, 51, 109 S. Ct. 1597. “Section
1911 lays out a dual jurisdictional scheme” in which
tribal courts have exclusive jurisdiction over custody
proceedings concerning an Indian child “who resides or
is domiciled within the reservation of” her tribe,
whereas state courts have concurrent jurisdiction with
tribal courts “in the case of children not domiciled on the
reservation.” Id. at 36, 109 S. Ct. 1597. The Court held
that “it is most improbable that Congress would have
intended to leave the scope of the statute’s key
jurisdictional provision subject to definition by state
courts as a matter of state law,” given that “Congress
was concerned with the rights of Indian families vis-àvis state authorities” and considered “States and their
courts as partly responsible for the problem it intended
to correct” through ICWA. Id. at 45, 109 S. Ct. 1597.
Because Congress intended for ICWA to address a
nationwide problem, the Court determined that the lack
of nationwide uniformity resulting from varied state-law
definitions of this term frustrated Congress’s intent. Id.
The Court’s reasoning in Holyfield applies with
equal force here. Congress’s concern with safeguarding
the rights of Indian families and communities was not

202a
limited to § 1911 but rather extended to all provisions of
ICWA. Thus, as the BIA explained, the provisions of
ICWA that the statute left open to state interpretation
in 1979, including many that Plaintiffs now challenge,
were subject to the same lack of uniformity the Supreme
Court identified as contrary to Congress’s intent in
Holyfield. 81 Fed. Reg. at 38,779, 38,782 (explaining that
the result of “conflicting State-level” interpretations of
ICWA “is that many of the problems Congress intended
to address by enacting ICWA persist today”). In view of
Holyfield and “37 years of real-world ICWA
application,” id. at 38,786, the BIA concluded that
issuing binding rules for child custody proceedings was
“necessary to carry out the provisions” of ICWA, an
authority that was included in Congress’s broad grant of
rulemaking authority under § 1952. The BIA thus
supplied a “reasoned explanation” for reversing its
earlier position on its need and authority to issue binding
regulations, Fox Television Stations, 556 U.S. at 515, 129
S. Ct. 1800.
JUDGE DUNCAN’s belief that ICWA is inconsistent
with principles of federalism suffuses his critique of the
BIA’s explanation for its change of interpretation.
Because the BIA’s prior interpretation was
constitutionally permissible and its new interpretation is
not, he appears to argue, Congress could not have
intended the new interpretation, and whatever
explanation the BIA provided for the change was
therefore inadequate. See DUNCAN, CIRCUIT JUDGE, OP.
at 120-22. For the reasons discussed above with respect
to ICWA’s statutory provisions, we disagree that the
BIA’s new interpretation of its § 1952 authority violates

203a
the Constitution. But more importantly, in judging the
adequacy of the BIA’s explanation, it does not
necessarily matter whether the BIA’s new
interpretation is actually constitutional, nor even
whether Congress in fact intended § 1952 to confer
authority to promulgate rules that would be binding in
state court proceedings. These questions are relevant
only to whether the BIA’s new interpretation of § 1952
is a substantively reasonable interpretation and a
constitutional application of the statute, which, again,
are separate questions from the procedural matter of
whether the agency gave a sufficient explanation for its
decision to change course.
When specifically examining whether an agency met
the procedural requirement that it provide an adequate
explanation, all that is necessary is a “minimal level of
analysis” from which the agency’s reasoning may be
discerned, Encino Motorcars, 136 S. Ct. at 2125—
regardless of whether the court finds the reasoning fully
persuasive. In other words, the agency decision must
simply be non-arbitrary. When an agency “display[s]
awareness that it is changing position” and provides
coherent reasons for doing so, the test is satisfied. Id. at
2126. Here, it is enough that the BIA “believe[d]” its
prior interpretation of § 1952 to be an incorrect
reflection of Congressional intent and set forth its
reasons for thinking so. Fox Television Stations, 556
U.S. at 515, 129 S. Ct. 1800. The same is true for the
BIA’s reasoned determination that its issuance of
binding regulations does not pose federalism problems.
It does not matter to this inquiry whether a court thinks
the agency’s interpretation or legal analysis is incorrect,

204a
nor that a court disagrees with the agency’s decision as
a policy matter. See id.; cf. DUNCAN, CIRCUIT JUDGE, OP.
at 123 (arguing that conflicting state court decisions
were not numerous and long-standing enough to justify
issuing regulations to enforce uniformity).
Contrary to Plaintiffs’ contentions, the BIA
explained why it changed its interpretation of § 1952 and
why it believed the Final Rule was needed based on its
years of study and public outreach. See 81 Fed. Reg.
38,778-79, 38,784-85. In promulgating the rule, the BIA
relied on Supreme Court precedent, its own expertise in
Indian affairs, its specific experience in administering
ICWA and other Indian child-welfare programs, state
interpretations and best practices,66 public hearings, and
tribal consultations. See id. Thus, the BIA’s change of
course was not “arbitrary, capricious, [or] an abuse of
discretion” because it was not sudden and unexplained.
See Smiley, 517 U.S. at 742, 116 S. Ct. 1730; 5 U.S.C.
§ 706(a)(2). The district court’s contrary conclusion was
error.
3.

The BIA’s Construction of § 1915

Title 25 U.S.C. § 1915 sets forth preferences for the
placement of Indian children unless good cause can be
shown to depart from them. 25 U.S.C. § 1915(a)-(b). The
1979 Guidelines advised that the term “good cause” in
§ 1915 “was designed to provide state courts with
flexibility in determining the disposition of a placement
66

Since ICWA’s enactment in 1978, several states have
incorporated the statute’s requirements into their own laws or have
enacted detailed procedures for their state agencies to collaborate
with tribes in child custody proceedings.

205a
proceeding involving an Indian child.” 44 Fed. Reg. at
67,584. However, § 23.132(b) of the 2016 Final Rule, now
specifies that “[t]he party seeking departure from
[§ 1915’s] placement preferences should bear the burden
of proving by clear and convincing evidence that there is
‘good cause’ to depart from the placement preferences.”
25 C.F.R. § 23.132(b). The district court determined that
Congress unambiguously intended the ordinary
preponderance-of-the-evidence standard to apply and
that the BIA’s imposition of a higher standard was
therefore not entitled to Chevron deference.
Defendants contend that the Final Rule’s
clarification of the meaning of “good cause” and
imposition of a clear-and-convincing-evidence standard
are entitled to Chevron deference. Plaintiffs respond
that the Final Rule’s fixed definition of “good cause” is
contrary to ICWA’s intent to provide state courts with
flexibility.
We conclude that the BIA’s interpretation of § 1915
is entitled to Chevron deference. For purposes of
Chevron step one, the statute is silent with respect to
which evidentiary standard applies. See 25 U.S.C.
§ 1915; Chevron, 467 U.S. at 842, 104 S. Ct. 2778. The
district court relied on the canon of expressio unius est
exclusio alterius (“the expression of one is the exclusion
of others”) in deciding that Congress unambiguously
intended that a preponderance-of-the-evidence standard
was necessary to show good cause under § 1915. The
court reasoned that, because Congress specified a
heightened evidentiary standard in other provisions of
ICWA but did not do so with respect to § 1915, Congress

206a
did not intend for the heightened clear-and-convincingevidence standard to apply. This was error.
“When interpreting statutes that govern agency
action, ... a congressional mandate in one section and
silence in another often suggests not a prohibition but
simply a decision not to mandate any solution in the
second context, i.e., to leave the question to agency
discretion.” Catawba Cty. v. E.P.A., 571 F.3d 20, 36 (D.C.
Cir. 2009) (internal quotation marks omitted) (quoting
Cheney R.R. Co. v. ICC, 902 F.2d 66, 69 (D.C. Cir. 1990));
accord In Defense of Animals v. United States Dep’t of
the Interior, 751 F.3d 1054, 1066 n.20 (9th Cir. 2014)
(same); see also Texas Office Pub. Util. Counsel v.
F.C.C., 183 F.3d 393, 443 (5th Cir. 1999) (noting that the
expressio unius canon is of “limited usefulness ... in the
administrative context”). “[T]hat Congress spoke in one
place but remained silent in another, as it did here,
rarely if ever suffices for the direct answer that Chevron
step one requires.” Catawba Cty. v. E.P.A., 571 F.3d at
36 (internal quotation marks and citation omitted); see
also Adirondack Med. Ctr. v. Sebelius, 740 F.3d 692
(D.C. Cir. 2014) (“The expressio unius canon is a ‘feeble
helper in an administrative setting, where Congress is
presumed to have left to reasonable agency discretion
questions that it has not directly resolved.’” (quoting
Cheney R.R. Co., 902 F.2d at 68-69)); Tex. Rural Legal
Aid, Inc. v. Legal Servs. Corp., 940 F.2d 685, 694 (D.C.
Cir. 1991) (“Under Chevron, we normally withhold
deference from an agency’s interpretation of a statute
only when Congress has directly spoken to the precise
question at issue, and the expressio canon is simply too
thin a reed to support the conclusion that Congress has

207a
clearly resolved this issue.” (internal quotation marks
and citations omitted)).
JUDGE DUNCAN argues that there is no indication
that Congress intended to require a heightened
standard of proof for § 1915. DUNCAN, CIRCUIT JUDGE,
OP. at 125-26. But this misses the point. The question is
not whether Congress intended to require a heightened
standard, but rather whether it intended to prohibit one.
The statute is silent as to the matter, and when “the
statute is silent ... with respect to the specific issue,” we
assume that Congress delegated the matter to agency
discretion and proceed to Chevron step two.67 Chevron,
467 U.S. at 842, 104 S. Ct. 2778.
Under Chevron step two, the BIA’s determination
as to the applicable evidentiary standard is reasonable.
See Chevron, 467 U.S. at 844, 104 S. Ct. 2778. As stated,
the broad grant of rule-making authority in § 1952
permits the BIA to enact rules that are not foreclosed by
statute “so long as [they are] reasonably related to the
67

This is why Plaintiffs’ and Judged Duncan’s references to Grogan
v. Garner, 498 U.S. 279, 286, 111 S. Ct. 654, 112 L. Ed. 2d 755 (1991),
are inapposite. Grogan addressed the standard of proof that applied
to exceptions from dischargability of debt in the Bankruptcy Code,
see id., a set of laws that courts are tasked with interpreting in the
first instance. Congress had not delegated to an agency the
authority to issue rules interpreting the Bankruptcy Code, and the
Grogan court was therefore tasked with determining the best
interpretation of the statutory provision, not simply whether a
particular agency interpretation was reasonable. Thus, the Grogan
Court’s ruling that, under those circumstances, statutory silence
suggested that the preponderance-of-the-evidence standard
applied does not indicate that statutory silence prohibits an agency
from applying a heightened evidentiary standard to the issue.

208a
purposes of the enabling legislation.” Mourning, 411
U.S. at 36, 93 S. Ct. 1278. The BIA’s suggestion that the
clear-and-convincing standard should apply was derived
from the best practices of state courts. 81 Fed. Reg. at
38,843. The preamble to the Final Rule explains that,
since ICWA’s passage, “courts that have grappled with
the issue have almost universally concluded that
application of the clear and convincing evidence
standard is required as it is most consistent with
Congress’s intent in ICWA to maintain Indian families
and Tribes intact.” Id. (citing, inter alia, In re MKT, 368
P.3d 771, 786 (Okla. 2016); Gila River Indian Cmty. v.
Dep’t. of Child Safety, 238 Ariz. 531, 363 P.3d 148, 152-53
(Ariz. Ct. App. 2015); In re Alexandria P., 228 Cal. App.
4th 1322, 1340, 176 Cal.Rptr.3d 468 (2014)). Because the
BIA’s interpretation of § 1915 as not prohibiting a
heightened standard of proof is not inconsistent with the
statutory provision, and because § 23.132(b) was based
on the persuasive reasoning in state court decisions and
is designed to further congressional intent, we conclude
it is reasonable and entitled to Chevron deference.
In considering Chevron step two, JUDGE DUNCAN
again blends the question of whether the BIA fulfilled
the APA’s procedural requirement that it provide an
adequate explanation for changing the way it interprets
a statute it administers—a claim the Plaintiffs have not
raised with respect to § 23.132(b)—with the substantive
question of whether it is reasonable to interpret the
BIA’s rulemaking authority to authorize the provision.
DUNCAN, CIRCUIT JUDGE, OP. at 128. Though we
disagree that the BIA failed to provide a reasoned
explanation for its changed position, this is neither here

209a
nor there. Our precedents at most establish that, in a
direct challenge to an agency rulemaking as beyond
statutory authority, the agency’s departure from
longstanding practice justifies a more searching review
at Chevron step two to determine whether the new
position is reasonable. See Chamber of Com. of United
States of Am. v. United States Dep’t of Labor, 885 F.3d
360, 380 (5th Cir. 2018) (stating that we greet sudden
claims that a long-standing statute grants sweeping new
powers with “a measure of skepticism” (quoting Util.
Air Regul. Grp. v. EPA, 573 U.S. 302, 324, 134 S. Ct.
2427, 189 L. Ed. 2d 372 (2014))). This is a different
question from whether the agency provided an adequate
explanation for shifting away from a longstanding
interpretation.68 And even if the BIA’s explanation for
changing course were insufficient, our caselaw does not
indicate that such a deficiency inherently renders the
agency’s new interpretation an unreasonable
construction of the statute. Plaintiffs have alleged only
that § 23.132(b) is prohibited by § 1915. Thus, the sole
issue is whether the regulation is permissible under
ICWA. See Chevron, 467 U.S. at 842-43, 104 S. Ct. 2778.
The adequacy of the explanation for the BIA’s new

68

To be sure, how long an agency adhered to a prior statutory
interpretation may be a relevant consideration when a plaintiff does
allege a procedural APA violation because an agency’s explanation
for a change of course must account for reliance interests
engendered by its prior policy. See Fox Television Stations, Inc.,
556 U.S. at 515, 129 S. Ct. 1800 (citing Smiley, 517 U.S. at 742, 116
S. Ct. 1730). But Plaintiffs have not raised such a challenge to
§ 23.132(b).

210a
position is separate from, and immaterial to, this
question.
JUDGE DUNCAN offers no argument as to why it is
unreasonable to interpret § 1915 to permit the BIA to
require the clear-and-convincing evidence standard
beyond his reference to the expressio unius canon,
which we have already found insufficient to foreclose the
BIA’s application of that standard. And because the BIA
was reasonable in interpreting § 1915 not to prohibit a
heightened standard of proof, we conclude that
§ 23.132(b) did not exceed the BIA’s statutory authority.
See 5 U.S.C. § 706(a)(2).
***
For these reasons, we conclude as follows: First,
Plaintiffs have standing to press their claims except as
to §§ 1913(d) and 1914. Next, the en banc court holds that
Congress was authorized to enact ICWA. We conclude
that this authority derives from Congress’s enduring
obligations to Indian tribes and its plenary authority to
discharge this duty. And, although the en banc majority
decides otherwise as to some provisions and the en banc
court is equally divided as to others, we would hold that
none of ICWA’s provisions violate the Tenth
Amendment’s anticommandeering doctrine. Thus, we
would hold that ICWA validly preempts any conflicting
state law, and we dissent from the en banc majority’s
decision to the extent it differs from this conclusion.
In addition, for the en banc court, we hold that
ICWA’s “Indian Child” designation and the portions of
the Final Rule that implement it do not offend equal
protection principles because they are based on a

211a
political classification and are rationally related to the
fulfillment of Congress’s unique obligation toward
Indians, and we REVERSE the district court’s
determination to the contrary. And, though the en banc
court is equally divided on the matter, we would likewise
determine that ICWA’s adoptive placement preference
for “other Indian families,” and its foster care placement
preference for a licensed “Indian foster home,” and the
regulations implementing these preferences are
consistent with equal protection.
We also hold for the en banc court that § 1915(c) does
not contravene the nondelegation doctrine because the
provision is either a valid prospective incorporation by
Congress of another sovereign’s law or a delegation of
regulatory authority. We therefore REVERSE this
aspect of the district court’s ruling.
Further, we hold for the en banc court that the BIA
acted within its statutory authority in issuing binding
regulations, and we hold for the en banc court that the
agency did not violate the APA when it changed its
position on the scope of its authority because the agency
provided a reasonable explanation for its new stance.
And we hold for the en banc court that the portions of
the Final Rule that implement all parts of ICWA other
than §§ 1912(d)-(f) and 1915(e) do not violate the APA.
We thus REVERSE the district court’s contrary
conclusions.
Although a majority of the en banc court disagrees,
we would also conclude that the portions of the Final
Rule implementing §§ 1912(d)-(f) and 1915(e) are valid
because these statutory provisions are constitutional,
and we would hold that the provision of the Final Rule

212a
implementing § 1915’s “good cause” standard is
reasonable. We thus dissent from the en banc majority’s
decision that these portions of the Final Rule are invalid.
Because we conclude that that the challenged
provisions of ICWA are constitutional in all respects and
that the Final Rule validly implements the statute, we
would reverse the district court in full and render
judgment in favor of Defendants on all claims. We
dissent from those portions of the en banc majority’s
decision that fail to do so.

213a
Stuart Kyle Duncan, Circuit Judge:†
We consider challenges to the Indian Child Welfare
Act of 1978 (“ICWA”), 92 Stat. 3069, 25 U.S.C. §§ 1901–
1963, and its implementing regulations, 81 Fed. Reg.
38,778 (June 14, 2016) (“The Final Rule”).
ICWA is a federal law that regulates state fostercare and adoption proceedings involving Indian children.
The law is challenged by three states, which claim it
abridges their sovereignty, and by several couples
†

JUDGES SMITH, ELROD, WILLETT, ENGELHARDT, and OLDHAM
join JUDGE DUNCAN’S opinion in full. JUDGE JONES joins all except
Parts III(A)(2) (equal protection as to “Indian child”) and that
portion of Part III(B)(2)(a) concerning preemption by the appointed
counsel provision in 25 U.S.C. § 1912(d).
CHIEF
JUDGE
OWEN
joins
Part
III(B)
(anticommandeering/preemption) and Part III(D)(3) (“good cause”
standard in 25 C.F.R. § 23.132(b) violates APA). See infra Owen,
C.J., concurring in part and dissenting in part.
JUDGE SOUTHWICK joins Parts III(B)(1)(a)(i)–(ii) (anticommandeering as to § 1912(d)–(f)); Part III(B)(2)(a) (preemption);
Part III(B)(2)(b) (in part) (no preemption, only as to § 1912(d)–(f));
Part III(B)(2)(c) (in part) (preemption, except as to the discussion
of § 1951(a)); and Part III(D)(1) (in part) (Final Rule violates APA
to extent it implements § 1912(d)–(f)).
JUDGE HAYNES joins Part I (standing); Part III(A)(3) (equal
protection as to “other Indian families”); Parts III(B)(1)(a)(i),
III(B)(1)(a)(iv), III(B)(1)(a)(ii) (in part), III(B)(1)(b) (in part), and
III(B)(2)(b) (in part) (anti-commandeering/preemption as to
§§ 1912(d)–(e) and 1915(e)); Part III(D)(1) (in part) (Final Rule
violates APA to extent it implements provisions found
unconstitutional in those portions of Parts III(A) and (B) that
JUDGE HAYNES joins); and Part III(D)(3) (“good cause” standard in
25 C.F.R. § 23.132(b) fails at Chevron step one). See infra Haynes,
J., concurring.

214a
seeking to adopt Indian children, who claim it unfairly
blocks them from doing so. The case is one of first
impression and raises many intricate issues. That should
come as no surprise, given that “[t]he condition of the
Indians in relation to the United States is perhaps unlike
that of any other two people in existence .... marked by
peculiar and cardinal distinctions which exist no where
else.” Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 16,
8 L. Ed. 25 (1831) (Marshall, C.J.); see also COHEN’S
Handbook of FEDERAL INDIAN LAW § 1.01 (2019)
[hereinafter “COHEN’S”] (“The field of Indian law and
policy is extraordinarily complex, rich, controversial,
and diverse.”). To guide the reader through our lengthy
decision, we provide this summary.
First, we conclude ICWA exceeds Congress’s power
to the extent it governs state proceedings. Congress, to
be sure, has “plenary” authority to legislate on Indian
affairs. United States v. Lara, 541 U.S. 193, 200, 124 S.
Ct. 1628, 158 L. Ed. 2d 420 (2004) (quoting Cotton
Petroleum Corp. v. New Mexico, 490 U.S. 163, 192, 109
S. Ct. 1698, 104 L. Ed. 2d 209 (1989)). But ICWA does
something that, to our knowledge, no FEDERAL INDIAN
LAW has ever tried: it governs states’ own
administrative and judicial proceedings. That is an
unheard-of exercise of the Indian affairs power, and
neither Supreme Court precedent nor founding-era
practice justifies it. And ICWA is all the more jarring
because of its subject matter: domestic relations. That
subject “belongs to the laws of the states, and not to the
laws of the United States,” and is “one in regard to which
neither the congress of the United States, nor any
authority of the United States, has any special

215a
jurisdiction.” Ex parte Burrus, 136 U.S. 586, 594, 10 S.
Ct. 850, 34 L. Ed. 500 (1890). And yet ICWA co-opts the
states to create, in essence, a federal adoption system for
Indian children. The Constitution does not empower
Congress to do that. To say otherwise would mock “our
federal system, [in which] the National Government
possesses only limited powers [and] the States and the
people retain the remainder.” Bond v. United States, 572
U.S. 844, 854, 134 S. Ct. 2077, 189 L. Ed. 2d 1 (2014).
Second, in the alternative, we conclude many parts
of ICWA are unconstitutional or unlawful. ICWA’s
unequal standards for “Indian children” and “Indian
families” violate the Fifth Amendment’s equal
protection guarantee by failing to rationally link children
to tribes. Many provisions commandeer states by
conscripting their agencies, officials, and courts into a
federal regulatory program. Another provision
delegates to Indian tribes the power to change enacted
federal law setting child placement preferences.
Declaratory relief is proper as to those provisions.
Finally, a 2016 rule implementing ICWA violates the
Administrative Procedure Act by exceeding the
agency’s authority over state courts. To that extent, the
rule must be declared unlawful.
Our decision does not affect all of ICWA. Some
provisions do not govern state proceedings—such as
those giving tribes exclusive jurisdiction over onreservation children, those permitting states and tribes
to adjust their jurisdictions, and those granting funds for
tribal programs. These provisions are not challenged
here and do not fall within our decision. With that
qualification, we affirm the district court’s judgment

216a
declaring parts of ICWA and
unconstitutional and unlawful.

the Final

Rule

TABLE OF CONTENTS
Background .................................................................... 216a
I.
Indian Child Welfare Act................................... 216a
II. Final Rule............................................................. 221a
III. Parties .................................................................. 222a
IV. District Court Proceedings ............................... 226a
Standard of Review....................................................... 227a
Discussion ...................................................................... 228a
I.
Article III Standing............................................ 228a
II. Challenge to Congress’s Power to Enact
ICWA.................................................................... 238a
III. Challenges to Specific ICWA Provisions ........ 278a
A. Fifth Amendment Equal Protection .......... 279a
B. Commandeering and Preemption ............... 299a
1. Commandeering ..................................... 304a
2. Preemption ............................................. 323a
C. Nondelegation ............................................... 339a
D. Administrative Procedure Act ................... 350a
E. Remedy .......................................................... 365a
BACKGROUND
I.

Indian Child Welfare Act

In 1978, Congress enacted ICWA out of concern that
too many Indian children were being unjustifiably
removed from their families and adopted by nonIndians. Specifically, Congress found that “an

217a
alarmingly high percentage of Indian families [were
being] broken up by the removal, often unwarranted, of
their children from them by nontribal public and private
agencies and that an alarmingly high percentage of such
children [were being] placed in non-Indian foster and
adoptive homes and institutions.” 25 U.S.C. § 1901(4).
Congress also found that “the States, exercising their
recognized jurisdiction over Indian child custody
proceedings through administrative and judicial bodies,
ha[d] often failed to recognize the essential tribal
relations of Indian people and the cultural and social
standards prevailing in Indian communities and
families.” § 1901(5). ICWA therefore set “minimum
Federal standards” for removing Indian children and
placing them in foster and adoptive homes “which will
reflect the unique values of Indian culture.” § 1902.
These standards sought “to protect the best interests of
Indian children and to promote the stability and security
of Indian tribes and families.” Id. As authority for the
law, Congress invoked its “plenary power over Indian
affairs,” grounded in the Indian Commerce Clause and
“other constitutional authority.” § 1901(1); see U.S.
CONST. art. I, § 8, cl. 3 (vesting Congress with “Power ...
[t]o regulate Commerce ... with the Indian Tribes”).
ICWA applies to a “child custody proceeding”
involving an “Indian child.” § 1903(1), (4).1 Such
proceedings
include
foster
care
placements,
terminations of parental rights, and preadoptive and
1

An “Indian child” is defined as “any unmarried person who is under
age eighteen and is either (a) a member of an Indian tribe or (b) is
eligible for membership in an Indian tribe and is the biological child
of a member of an Indian tribe.” § 1903(4).

218a
adoptive placements. § 1903(1)(i)–(iv). If a proceeding
involves an Indian child living on a tribe’s reservation,
the tribe has exclusive jurisdiction. § 1911(a). For offreservation Indian children, state courts exercise
concurrent jurisdiction with tribal courts, but must
transfer a proceeding to tribal jurisdiction upon request
of either parent or the child’s tribe, absent good cause or
a parent’s objection. § 1911(b); see also Yavapai-Apache
Tribe v. Mejia, 906 S.W.2d 152, 162 (Tex. App.—Houston
[14th Dist.], Aug. 24, 1995, pet. denied) (explaining
“state courts may exercise jurisdiction concurrently
with the tribal courts” in proceedings involving offreservation children).
For proceedings remaining under state jurisdiction,
ICWA imposes numerous requirements. For instance, a
party seeking foster placement, or termination of
parental rights, must notify the Indian child’s parent and
tribe of that party’s “right to intervene.” §§ 1911(c),
1912(a).2 Indigent parents have the “right to courtappointed counsel.” § 1912(b). Any party has “the right
to examine all reports or other documents filed with the
court[.]” § 1912(c). To prevail, the party seeking
placement or termination must prove that “active efforts
have been made to provide remedial services and
rehabilitative programs designed to prevent the
breakup of the Indian family” and “have proved
unsuccessful.” § 1912(d). The party must also offer
evidence, “including testimony of qualified expert
witnesses,” that the parent’s continued custody will
2

The Secretary of the Interior must be notified if the parent or
custodian cannot be found. § 1912(a).

219a
likely cause the child “serious emotional or physical
damage.” § 1912(e)–(f). Proof must be by “clear and
convincing evidence” for foster placement, § 1912(e), and
“beyond a reasonable doubt” for termination, § 1912(f).
If parents voluntarily consent to a placement or to
termination of rights, they can withdraw consent “at any
time” before the process ends. § 1913(b)–(c). Following
an adoption, the birth parents may withdraw consent
based on fraud or duress for up to two years. § 1913(d).
A child, parent, or tribe may also sue to invalidate the
placement or termination for any violation of §§ 1911,
1912, or 1913. § 1914.
ICWA also dictates where Indian children may be
placed. In adoptions governed by state law, an Indian
child must be placed, absent “good cause,” with “(1) a
member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian
families.” § 1915(a). Similarly, in foster or pre-adoptive
placements, an Indian child must be placed (again,
absent good cause) with: (1) extended family; (2) a foster
home “licensed, approved, or specified” by the tribe; (3)
a licensed “Indian foster home”; or (4) an “institution for
children” either tribe-approved or operated by a suitable
Indian organization. § 1915(b)(i)–(iv). In any case, the
child’s tribe may “establish a different order of
preference by resolution,” which the “agency or court
effecting the placement shall follow,” provided “the
placement is the least restrictive setting appropriate to
the particular needs of the child.” § 1915(c). The “State”
must maintain a record of an Indian child’s placement
that “evidenc[es] the efforts to comply with the order of
preference specified in [§ 1915]” and that “shall be made

220a
available at any time upon request of the Secretary or
the Indian child’s tribe.” § 1915(e).
ICWA also requires state courts to maintain and
transmit various records. For instance, upon request of
an adopted Indian eighteen or older, a court must
provide “the tribal affiliation, if any, of the individual’s
biological parents and ... such other information as may
be necessary to protect any rights flowing from the
individual’s tribal relationship.” § 1917. Additionally, a
state court must provide the Secretary with a copy of a
final adoption decree “together with such other
information as may be necessary to show” various
matters. § 1951(a).3
Finally, ICWA contains a severability clause
providing that, “[i]f any provision ... or the applicability
thereof is held invalid, the remaining provisions ... shall
not be affected thereby.” § 1963.4

3

Those matters are: (1) the child’s name and tribal affiliation, (2) the
names and addresses of biological parents, (3) the names and
addresses of adoptive parents, and (4) “the identity of any agency
having files or information relating to such adoptive placement.”
§ 1951(a)(1)–(4); see also 25 C.F.R. §§ 23.140–141 (additional
recordkeeping requirements applicable to both courts and
agencies).
4

ICWA contains other provisions unrelated to state child-custody
proceedings, such as provisions permitting jurisdictional
agreements between states and Indian tribes (§ 1919); provisions
addressing the Secretary’s approval of tribal re-assumption of
jurisdiction (§ 1918); and provisions concerning grants and funding
for tribal child and family programs (§§ 1931–1933). As explained
infra III(E), our decision does not affect these provisions.

221a
II. Final Rule
In 1979, the Bureau of Indian Affairs (“BIA”)
promulgated guidelines (the “1979 Guidelines”) to assist
state courts in applying ICWA. See 44 Fed. Reg. 67,584
(Nov. 26, 1979); see also 25 U.S.C. § 1952 (authorizing
Secretary of Interior to “promulgate such rules and
regulations ... necessary” to implement ICWA). The
1979 Guidelines were “not intended to have binding
legislative effect.” 44 Fed. Reg. at 67,584. BIA found
nothing in ICWA or its legislative history to suggest
that Congress intended the Department to exercise
“supervisory authority” over courts deciding Indian
child-custody matters. Id. Such authority would be “so
at odds with concepts of both federalism and separation
of powers that it should not be imputed to Congress in
the absence of an express declaration of Congressional
intent to that effect.” Id. Rather, “[p]rimary
responsibility” for interpreting ICWA “rests with the
courts that decide Indian child custody cases.” Id. In
particular, the Guidelines mentioned the “good cause”
standard, which was “designed to provide state courts
with flexibility in determining the disposition of a
placement proceeding involving an Indian child.” Id.; see
§ 1915(a)–(b).
In 2016, BIA changed course and promulgated new
regulations (the “Final Rule”) that “set binding
standards for Indian child-custody proceedings in State
courts.” 81 Fed. Reg. 38,778, 38,785 (June 14, 2016). BIA
stated it “no longer agrees with statements it made in
1979 suggesting that it lacks the authority to issue
binding regulations.” Id. at 38,786. It now found binding
standards “necessary,” see § 1952, given “divergent

222a
interpretations of ICWA provisions by State courts and
uneven implementation by State agencies.” 81 Fed. Reg.
at 38,787. In particular, the new regulations restrict
what constitutes “good cause” to depart from ICWA’s
placement preferences. See id. at 38,843–47. The “good
cause” standard, the new regulations assert, is not
determined by the “best interests of the child” but is
instead “a limited exception” to the preferences. Id. at
38,847. Accordingly, the new regulations limit “good
cause” to five factors. See 25 C.F.R. § 23.132(c).
Moreover, the party seeking departure “should” bear
the burden of proving good cause “by clear and
convincing evidence.” Id. § 23.132(b). BIA acknowledged
that the clear-and-convincing standard “is not
articulated in section 1915,” but asserted courts have
“almost universally concluded” it is the right standard.
81 Fed. Reg. at 38,843. Finally, BIA explained the Final
Rule only “advises” that the standard “‘should’ be
followed,” but “does not categorically require that
outcome” and “declines to establish a uniform standard
of proof on this issue.” Id.
III. Parties
A. Plaintiffs
Plaintiffs are the states of Texas, Louisiana, and
Indiana (collectively, the “State Plaintiffs”), and seven
individual plaintiffs—Chad and Jennifer Brackeen (the
“Brackeens”), Nick and Heather Libretti (the
“Librettis”),
Altagracia
Socorro
Hernandez

223a
(“Hernandez”), and Jason and Danielle Clifford (the
“Cliffords”) (collectively, “Individual Plaintiffs”).5
1.

A.L.M., Y.R.J., and the Brackeens

In 2015, A.L.M. was born in New Mexico to
unmarried parents. His biological mother is a member of
the Navajo Nation and his biological father is a member
of the Cherokee Nation. Soon after birth, his mother
brought A.L.M. to live in Texas with his paternal
grandmother. The Child Protective Services Division
(“CPS”) of the Texas Department of Family and
Protective Services (“DFPS”) removed A.L.M. when he
was 10 months old and placed him in foster care with the
Brackeens. In 2017, his biological parents voluntarily
terminated their rights to A.L.M. and, along with his
guardian ad litem, supported the Brackeens’ adoption
petition. At the adoption hearing, representatives of the
Navajo and Cherokee Nations agreed to designate
Navajo as A.L.M.’s tribe because the Navajo had located
an alternate placement with non-family tribal members
in New Mexico. The Texas family court denied the
Brackeens’ petition, concluding they failed to prove by
clear and convincing evidence good cause to depart from
ICWA’s placement preferences. The DFPS announced
its intention to remove A.L.M. from their care and
transfer him to the Navajo family. The Brackeens
obtained an emergency stay and filed this lawsuit. The
proposed Navajo placement then withdrew, and the
Brackeens finalized A.L.M.’s adoption.

5

References to “Plaintiffs” include both State Plaintiffs and
Individual Plaintiffs.

224a
The Brackeens are now engaged in Texas state
court proceedings to adopt A.L.M.’s half-sister, Y.R.J.,
who was born in June 2018 to A.L.M.’s biological mother.
The Navajo Nation again opposes the Brackeens’
petition to adopt Y.R.J. based on ICWA’s placement
preferences. The proceedings are ongoing. See In re Y.J.,
No. 02-19-235-CV, 2019 WL 6904728, at *1 (Tex. App.—
Fort Worth, Dec. 19, 2019, pet. filed) (remanding for
further proceedings).
2.

Baby O., Hernandez, and the Librettis

In 2016, Baby O. was born in Nevada to plaintiff
Hernandez, a non-Indian. Her biological father, E.R.G.,
is descended from members of the Ysleta del sur Pueblo
Tribe (“Pueblo”) but was not an enrolled member when
Baby O. was born. With E.R.G.’s support, Hernandez
decided to have the Librettis adopt Baby O., who
accompanied the Librettis home three days after her
birth. The Pueblo Tribe intervened in the Nevada
custody proceedings and identified numerous
alternative Indian-family placements for Baby O. under
ICWA. After the Librettis joined this lawsuit, however,
the tribe withdrew its objections and the Librettis
finalized Baby O.’s adoption in late 2018.
3.

Child P. and the Cliffords

Born in 2011 in Minnesota, Child P. was placed in
foster care in 2014 when her biological parents were
arrested and charged with various drug-related
offenses. For two years Child P. moved from placement
to placement until Minnesota terminated her mother’s
rights and placed her with the Cliffords in 2016, who
have since sought to adopt her. Child P.’s maternal

225a
grandmother, R.B., is a member of the White Earth
Band of the Ojibwe Tribe (the “White Earth Band”).
After Child P. initially entered foster care in 2014, the
White Earth Band notified the court that she was
ineligible for membership. After Child P. was placed
with the Cliffords, however, the tribe changed its
position, notified the court that Child P. was eligible for
membership, and has since announced that Child P. is a
member. As a result, Minnesota removed Child P. from
the Cliffords and placed her with R.B. in 2018. The state
trial court concluded that the Cliffords had not
established “good cause” to deviate from ICWA’s
preferences by “clear and convincing evidence,” a
decision since affirmed on appeal. See In re S.B., No.
A19-225, 2019 WL 6698079, at *6 (Minn. Ct. App. Dec. 9,
2019). Child P.’s adoption, however, has not been finally
approved; until it is, the Cliffords remain eligible to
adopt her.
B. Defendants
Defendants are the United States of America and
various federal agencies and officials, referred to
collectively as the “Federal Defendants.”6 Shortly after
this suit was filed, the Cherokee Nation, Oneida Nation,
Quinault Indian Nation, and Morongo Band of Mission
Indians (collectively, the “Tribal Defendants”) were
allowed to intervene as defendants. On appeal, we
6

Specifically, they are the United States Department of the Interior
and its Secretary Deb Haaland, in her official capacity; the BIA and
its Acting Assistant Secretary for Indian Affairs Darryl LaCounte,
in his official capacity; and the United States Department of Health
and Human Services and its Secretary Xavier Becerra, in his official
capacity.

226a
granted the Navajo Nation’s motion to intervene as a
defendant.7
IV. District Court Proceedings
Plaintiffs sued in federal district court seeking
injunctive relief and a declaration that ICWA and the
Final Rule violate various provisions of the Constitution
and the APA. Defendants moved to dismiss for lack of
standing. The district court denied the motion, finding
that at least one Plaintiff had standing to bring each
claim. Plaintiffs then moved for summary judgment on
all their claims, which the district court granted in part
and denied in part. See Brackeen v. Zinke, 338 F. Supp.
3d 514 (N.D. Tex. 2018).
First, the district court ruled that ICWA
discriminates on the basis of a racial classification that
fails to satisfy strict scrutiny and therefore violates the
Fifth Amendment’s equal protection component.
Second, the court ruled that ICWA’s provision
empowering Indian tribes to re-order placement
preferences improperly delegates federal legislative
power. Third, the court ruled that various provisions of
ICWA “commandeer” state agencies, officials, and
courts in violation of Article I and the Tenth
Amendment and do not validly preempt conflicting state
laws. Fourth, the court ruled that various provisions of
the Final Rule violate the APA. Finally, the court ruled
that ICWA as a whole exceeds Congress’s power under

7

References to “Defendants” include both Federal Defendants and
Tribal Defendants.

227a
the Indian Commerce Clause.8 The court’s final
judgment therefore declared certain provisions of
ICWA and the Final Rule unconstitutional.9
On appeal, a panel of our court reversed the district
court on all grounds. Brackeen v. Bernhardt, 937 F.3d
406 (5th Cir. 2019). JUDGE OWEN dissented in part. Id. at
441–46 (OWEN, J., dissenting in part). We granted en
banc rehearing. Brackeen v. Bernhardt, 942 F.3d 287
(2019).
STANDARD OF REVIEW
“We review a grant of summary judgment de novo,
applying the same standard as the district court.” All.
for Good Gov’t v. Coal. for Better Gov’t, 901 F.3d 498, 504
(5th Cir. 2018) (citation omitted). “We review de novo
the constitutionality of federal statutes.” United States
v. McGinnis, 956 F.3d 747, 752 (5th Cir. 2020) (citation
omitted). We must set aside final agency action under
the APA if “such action was ‘arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with

8

The court denied summary judgment on Plaintiffs’ Fifth
Amendment claim based on parents’ fundamental rights to “make
decisions concerning the care, custody, and control of their
children.” Troxel v. Granville, 530 U.S. 57, 120 S. Ct. 2054, 147 L.
Ed. 2d 49 (2000). The court reasoned those rights had never been
extended to foster families, prospective adoptive parents, or
“adoptive parents whose adoption is open to collateral attack.”
Brackeen, 338 F. Supp. 3d at 546. Plaintiffs have not appealed that
ruling.
9

Specifically, it declared unconstitutional 25 U.S.C. §§ 1901–23 and
1951–52, as well as 25 C.F.R. §§ 23.106–22, 23.124–32, and 23.140–41.

228a
law.’” Sw. Elec. Power Co. v. EPA, 920 F.3d 999, 1013
(5th Cir. 2019) (quoting 5 U.S.C. § 706(2)(A)).
DISCUSSION
We proceed as follows. First, we address whether
Plaintiffs have Article III standing to assert their
claims, and conclude they do (infra I). Next, we address
whether ICWA exceeds Congress’s constitutional
power over Indian affairs (infra II). Agreeing with the
district court in part, we conclude that ICWA exceeds
Congress’s power to the extent it governs state childcustody proceedings. Alternatively (infra III), we
address the court’s holdings that parts of ICWA and the
Final Rule violate the Fifth Amendment equal
protection guarantee (III(A)); the anti-commandeering
and preemption doctrines (III(B)); the nondelegation
doctrine (III(C)); and the APA (III(D)). Concluding that
parts of ICWA and the Final Rule are unconstitutional
or unlawful on those grounds, we then address the
appropriate remedy (III(E)).
I.

Article III Standing

We first address whether Plaintiffs have Article III
standing. The district court ruled they did, concluding
that the State Plaintiffs had standing to assert claims
that ICWA exceeds Congress’s power, commandeers
states, and violates the nondelegation doctrine; that the
Individual Plaintiffs had standing to assert equal
protection claims; and that all Plaintiffs had standing to
challenge the Final Rule under the APA.
We review standing de novo. Stringer v. Whitley,
942 F.3d 715, 720 (5th Cir. 2019). Article III standing
requires plaintiffs to show an injury traceable to

229a
defendants’ conduct that a judicial decision would likely
redress. See Thole v. U.S. Bank N.A., 140 S. Ct. 1615,
1618, 207 L. Ed. 2d 85 (2020) (citing Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560–61, 112 S. Ct. 2130, 119 L. Ed.
2d 351 (1992)); see also Texas v. United States, 945 F.3d
355, 374 (5th Cir. 2019) (standing requires “injury,
causation, and redressability”) (citation omitted). At
least one plaintiff must have standing “for each claim he
seeks to press and for each form of relief that is sought.”
Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650, 198 L. Ed. 2d 64 (2017) (citation omitted). “[T]he
presence of one party with standing is sufficient to
satisfy Article III’s case-or-controversy requirement.”
Rumsfeld v. Forum for Acad. & Inst. Rights, Inc., 547
U.S. 47, 52 n.2, 126 S. Ct. 1297, 164 L. Ed. 2d 156 (2006).
A.
The claims that ICWA exceeds Congress’s power,
commandeers states, and improperly delegates
legislative power are, in essence, claims that ICWA
encroaches on states’ prerogatives to administer childcustody proceedings. State Plaintiffs have standing to
bring these claims, which assert injuries unique to
states, caused by the Federal Defendants’
administration of ICWA, and redressable by a favorable
decision.
We have found that states “may have standing
based on (1) federal assertions of authority to regulate
matters [states] believe they control, (2) federal
preemption of state law, and (3) federal interference
with the enforcement of state law.” Texas v. United
States, 809 F.3d 134, 153 (5th Cir. 2015) (citations
omitted), aff’d by equally divided Court, 136 S. Ct. 2271,

230a
195 L. Ed. 2d 638 (2016) (Mem.).10 Those principles easily
encompass State Plaintiffs’ claims that ICWA hijacks
their child-custody machinery and improperly supplants
their child-custody standards, either directly or by
delegation to tribes. They also explain why State
Plaintiffs have standing to assert under the APA that
the Final Rule improperly issued regulations purporting
to bind state administration of child-custody
proceedings. See id. at 151–54 (holding federal statute
may afford states standing to vindicate injury to their
“quasi-sovereign” interests) (citing Massachusetts v.
EPA, 549 U.S. 497, 518–20, 127 S. Ct. 1438, 167 L. Ed. 2d
248 (2007)); Texas, 945 F.3d at 384 (states have standing
to challenge statute infringing sovereign interest in
“applying their own laws and policies”); see also 5 U.S.C.
§ 702 (affording right of judicial review to persons
“suffering legal wrong because of agency action, or
adversely affected or aggrieved by agency action”).11
10

See also Tex. Office of Pub. Util. Councel v. FCC, 183 F.3d 393,
449 (5th Cir. 1999) (“States have a sovereign interest in ‘the power
to create and enforce a legal code.’”) (quoting Alfred L. Snapp &
Son, Inc. v. Puerto Rico ex rel. Barez, 458 U.S. 592, 601, 102 S. Ct.
3260, 73 L. Ed. 2d 995 (1982)).
11

Defendants contest State Plaintiffs’ standing to bring a
nondelegation challenge to § 1915(c), which allows tribes to vary
ICWA’s placement preferences. Defendants say any injury is
speculative because no evidence shows that a tribally-reordered
preference has affected proceedings in the plaintiff states. See
Lujan, 504 U.S. at 560, 112 S. Ct. 2130 (injury must be “actual or
imminent, not conjectural or hypothetical” (internal quotation
marks omitted)). We disagree. As State Plaintiffs note, one Texas
tribe, the Alabama-Coushatta, has filed its reordered preferences
with the Texas DFPS. The claimed injury from § 1915(c) is thus
sufficient to support standing. See, e.g., Susan B. Anthony List v.

231a
B.
The equal protection claims assert ICWA and the
Final Rule wrongly discriminate against Indian children
and non-Indian families. The Individual Plaintiffs claim
this unequal treatment permeates the law and
regulations, beginning with the threshold definition of
“Indian child.” See 25 U.S.C. § 1903(4). They claim the
placement preferences for Indian children, § 1915(a)–(b),
“impose a naked preference for ‘Indian families’ over
families of any other race,” and make non-Indians show
“good cause” to depart from them, id. They claim the
collateral attack provisions, §§ 1913(d) and 1914, make
their adoptions of Indian children more vulnerable to
being overturned. Finally, they claim the Final Rule
implementing these provisions adds to their injuries.12
The State Plaintiffs assert similar claims on behalf of
“children in their care,” alleging ICWA and the Final
Rule “require [their] agencies and courts” to “carry out
the racially discriminatory policy objectives of [ICWA]”
and to expend “resources and money” in doing so. All
Plaintiffs seek a declaration that §§ 1913(d), 1914, and
1915 are unconstitutional and an injunction prohibiting
the Federal Defendants from implementing those
sections “by regulations, guidelines, or otherwise.” They
Driehaus, 573 U.S. 149, 158, 134 S. Ct. 2334, 189 L. Ed. 2d 246 (2014)
(“An allegation of future injury may suffice if the threatened injury
is ‘certainly impending,’ or there is a ‘substantial risk that the harm
will occur.’”) (cleaned up).
12

See, e.g., 25 C.F.R. §§ 23.129–32 (implementing preferences); id.
§ 23.132(b) (party seeking departure from preferences must prove
“good cause” by “clear and convincing evidence”); id. §§ 23.136–37
(implementing collateral attack provisions).

232a
also seek declaratory relief and an injunction prohibiting
the Federal Defendants from enforcing funding
mechanisms tied to states’ compliance with ICWA. See
42 U.S.C. §§ 622(b)(9), 677(b)(3)(G).
We agree with the district court that the Individual
Plaintiffs have standing to challenge ICWA and the
Final Rule.13 As persons seeking to adopt Indian
children, the Individual Plaintiffs are “objects” of the
contested provisions, and the “ordinary rule” is that they
have standing to challenge them. Contender Farms,
L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258, 264–266 (5th
Cir. 2015) (quoting Lujan, 504 U.S. at 561, 112 S. Ct.
2130). Their adoptions have been burdened, in various
ways, by ICWA’s unequal treatment of non-Indians. For
instance, the Brackeens’ adoption of A.L.M. was
hampered and delayed by the preferences,14 burdens
13

We therefore need not consider whether the State Plaintiffs have
standing to bring equal protection claims on behalf of Indian
children in their care.
14

Defendants argue that, because the Brackeens’ adoption of
A.L.M. was completed in January 2018, their claims regarding
A.L.M. are moot. We disagree. The situation falls within the
“capable of repetition, yet evading review” exception to mootness
because (1) A.L.M.’s adoption was “in its duration too short to be
fully litigated prior to [its being settled]”; and (2) given the
Brackeens’ announced intent to adopt other Indian children, “there
was a reasonable expectation that [they] would be subjected to the
same action again.” Kucinich v. Tex. Democratic Party, 563 F.3d
161, 164 (5th Cir. 2009) (citation omitted). JUDGE WIENER’S partial
dissent argues neither prong applies. As to prong one, he contends
the Brackeens “could have litigated their ICWA challenges in state
court during A.L.M.’s July 2017 adoption proceedings, long before”
the district court’s October 2018 judgment. WIENER OP. at 5 n.18.
We disagree. The Brackeens were contesting the preferences

233a
they are again suffering in trying to adopt A.L.M.’s halfsister, Y.R.J. See Y.J., 2019 WL 6904728, at *5 (noting
the Navajo seek “a judgment that Y.J. be placed in
accordance with ICWA preferences”). Moreover, the
Brackeens’ adoption of A.L.M. (and Y.R.J. too, if
successful) will be open to collateral attack under
ICWA.15 Similarly, the Cliffords’ attempt to foster Child
P. has been thwarted by the pre-adoptive preferences—
they failed to show good cause to depart by “clear and
convincing evidence”—and they will be hampered by the
adoptive preferences in their planned adoption of Child
P. If the Brackeens and the Cliffords were Indians, or if

during the state proceedings, but those proceedings were settled in
December 2017 due to the fortuity that the Navajo placement “was
no longer available” and no others materialized. As to the second
prong, JUDGE WIENER contends the Brackeens’ “stated reluctance
to adopt other Indian children was too vague.” Id. We disagree. The
Brackeens needed to show only a “reasonable expectation” they
would again face ICWA’s burdens. Kucinich, 563 F.3d at 164. They
did so by alleging they “intend[ed]” to foster and adopt other Indian
children, and then by supplementing the record to document their
effort to adopt Y.R.J., beginning with their letter to the state
agency in September 2018. See, e.g., FEC v. Wis. Right to Life, Inc.,
551 U.S. 449, 463, 127 S. Ct. 2652, 168 L. Ed. 2d 329 (2007) (second
prong satisfied when plaintiff “credibly claimed that it planned” to
engage in similar activity subject to prior regulation).
15

Specifically, the Brackeens’ adoption of A.L.M. remains open to
attack under § 1914, and their prospective adoption of Y.R.J. would
be open to attack under both §§ 1913(d) and 1914. Unlike § 1913(d),
which allows a collateral attack based on fraud or duress only for
two years after the adoption, § 1914 specifies no time frame for a
collateral attack based on a claimed violation of any provision of
§§ 1911–1913.

234a
the children they sought to adopt were non-Indians,
none of these obstacles would exist.
Those unequal burdens are injuries-in-fact for equal
protection purposes. An equal protection injury consists
in “[d]iscriminatory treatment at the hands of the
government.” Time Warner Cable, Inc. v. Hudson, 667
F.3d 630, 636 (5th Cir. 2012) (alteration in original).16 If
plaintiffs show such disparate treatment, then “no
further showing of suffering based on that unequal
positioning is required for purposes of standing.” Time
Warner, 667 F.3d at 636; see also Ne. Fla. Chapter of
Associated Gen. Contractors v. City of Jacksonville, 508
U.S. 656, 666, 113 S. Ct. 2297, 124 L. Ed. 2d 586 (1993)
(“The ‘injury in fact’ in an equal protection case ... is the
denial of equal treatment resulting from the imposition
of the barrier, not the ultimate inability to obtain the
benefit.”). The Individual Plaintiffs have made that
showing here.17 And their injuries are traceable, in part,
16

See also Moore v. Bryant, 853 F.3d 245, 250 (5th Cir. 2017)
(explaining “the gravamen of an equal protection claim is
differential governmental treatment”); Contender Farms, 779 F.3d
at 266 (“An increased regulatory burden typically satisfies the
injury in fact requirement.”) (citation omitted).
17

The Federal Defendants argue no Plaintiff has standing to
challenge the collateral attack provisions because it is “speculative”
whether any such attack will occur. We disagree. The injury arises
from those provisions’ unequal treatment of the adoptions, not from
any collateral attack itself. That injury is concrete, “irrespective of
whether the plaintiff[s] will sustain an actual or more palpable
injury as a result of the unequal treatment.” Time Warner, 667 F.3d
at 636 (citation omitted). We disagree with JUDGE DENNIS that this
injury is not imminent under Barber v. Bryant, 860 F.3d 345 (5th
Cir. 2017). DENNIS OP. at 41–42. There, plaintiffs brought equal
protection claims against a Mississippi law that protected persons

235a
to the Federal Defendants’ implementing ICWA
through the Final Rule and to their inducing state
officials to apply ICWA through the leverage of child
welfare funds. See K.P. v. LeBlanc, 627 F.3d 115, 123
(5th Cir. 2010) (traceability requires only that
defendants “significantly contributed” to injury); see
also Inclusive Cmtys. Project, Inc. v. Dep’t of Treasury,
946 F.3d 649, 655 (5th Cir. 2019) (causation “doesn’t
require a showing ... that the defendant’s actions are the
very last step in the chain of causation” and “isn’t
precluded where the defendant’s actions produce a
determinative or coercive effect upon the action of
someone else”) (quoting Bennett v. Spear, 520 U.S. 154,
167, 169, 117 S. Ct. 1154, 137 L. Ed. 2d 281 (1997))
(internal quotation marks omitted).
Finally, our decision would redress the Individual
Plaintiffs’ injuries. Redressability means a decision’s
“practical consequences” would “significant[ly] increase
holding traditional beliefs about marriage, sexual relations, and sex
from discriminatory state action in specified areas, such as licensing
or celebrating marriages. Barber, 860 F.3d at 351. We held plaintiffs
lacked a “certainly impending” injury because they had not alleged
they “plan[ned] to engage” in any conduct covered by the statute.
Id. at 357. Although one plaintiff did “stat[e] his intention to marry,”
he did not allege that he was seeking marriage-related services from
someone who might refuse or “even that he intended to get married
in Mississippi.” Id. The Brackeens are in a different position. Unlike
the Barber plaintiffs, the Brackeens have engaged in conduct
covered by §§ 1913 and 1914—adopting Indian children—and their
adoptions are now vulnerable to collateral attack, unlike adoptions
of non-Indian children. That “[d]iscriminatory treatment at the
hands of the government” is a present injury-in-fact, regardless of
whether “an actual or more palpable injury” will later materialize in
the form of a collateral attack. Time Warner, 667 F.3d at 636.

236a
... the likelihood” of relief. Utah v. Evans, 536 U.S. 452,
464, 122 S. Ct. 2191, 153 L. Ed. 2d 453 (2002). “The relief
sought needn’t completely cure the injury, however; it’s
enough if the desired relief would lessen it.” Inclusive
Cmtys. Project, 946 F.3d at 655 (citation omitted); see
also Dep’t of Tex., Veterans of the Foreign Wars of U.S.
v. Tex. Lottery Comm’n, 760 F.3d 427, 432 (5th Cir. 2014)
(en banc) (a decision need only relieve “a [plaintiff’s]
discrete injury,” not his “every injury”) (citation
omitted). Here, the requested relief would redress the
Individual Plaintiffs’ injuries in numerous ways. For
instance, it would make overcoming ICWA’s
preferences easier, because the Individual Plaintiffs
would no longer have to justify departure “by clear and
convincing evidence.” 25 C.F.R. § 23.132(b)
(implementing § 1915(a)–(b)). It would also remove state
child welfare officials’ obligations to implement the
preferences, efforts “critical to the success of the ...
preferences.” 81 Fed. Reg. at 38,839; see also infra
III(B)(1)(a)(iii) (discussing state officials’ required
assistance with finding preferred placements).
Additionally, Federal Defendants would be barred from
inducing state officials to implement ICWA, including
the preferences, by withholding funding.18 Finally, the
requested relief would make the adoptions less
18

See 42 U.S.C. § 622(b)(9) (to qualify for Title IV-B funds, a state’s
child welfare plan must describe “the specific measures taken by the
State to comply with the Indian Child Welfare Act”); id. § 624(a)
(authorizing HHS Secretary to pay child welfare funds to a state
“that has a plan developed in accordance with section 622”); see also
45 C.F.R. §§ 1355.34(b)(2)(ii)(E), 1355.36 (HHS regulations
authorizing withholding of Title IV-B and Title IV-E funds based
on, inter alia, failure to comply with ICWA).

237a
vulnerable to being overturned: it would declare
unenforceable the collateral attack provisions
themselves (§§ 1913(d), 1914), the underlying grounds
for invalidity (§§ 1911–1913), as well as the implementing
regulations (25 C.F.R. §§ 23.136–137). So, while a
favorable decision would not guarantee the success of
the Individual Plaintiffs’ adoptions, its “practical
consequences” would “lessen” their “discrete injur[ies]”
caused by ICWA’s unequal treatment of Indian children
and non-Indian families. Evans, 536 U.S. at 464, 122 S.
Ct. 2191; Inclusive Cmtys. Project, 946 F.3d at 655; Dep’t
of Tex., Veterans of Foreign Wars of the U.S., 760 F.3d
at 432.19 That is enough to satisfy redressability.

19

Redressability does not turn on whether our decision would
determine the outcome of the Brackeens’ adoption of Y.R.J. So, we
need not address JUDGE COSTA’S view that redressability may
never depend on the impact of a federal decision on a state court.
See COSTA OP. at 3–11. We note that JUDGE COSTA concedes the
Brackeens have standing to bring APA claims because “a
declaratory judgment against the Interior Secretary would bind her
when it comes to enforcing the department’s challenged
regulations.” Id. at 9 (citing Franklin v. Massachusetts, 505 U.S.
788, 803, 112 S. Ct. 2767, 120 L. Ed. 2d 636 (1992)). We agree.
Consider, though, that one ground for the Brackeens’ APA claims is
that the Final Rule implements ICWA provisions that violate their
equal protection rights. Thus, to decide that APA claim, we would
in any event have to address whether the relevant parts of ICWA
violate equal protection. See 5 U.S.C. § 706(2)(B) (courts may “hold
unlawful and set aside agency action ... contrary to constitutional
right”); see also Tex. Office of Pub. Utility Counsel, 183 F.3d at 410
(“The intent of Congress in 5 U.S.C. § 706(2)(B) was that courts
should make an independent assessment of a citizen’s claim of
constitutional right when reviewing agency decision-making.”)
(citation omitted).

238a
II. Challenge to Congress’s Power to Enact ICWA
We first consider whether ICWA is unconstitutional
because Congress lacks power to regulate state childcustody proceedings involving Indian children. The
district court held ICWA exceeds Congress’s power.
The panel reversed, reasoning that “the Indian
Commerce Clause grants Congress plenary power over
Indian affairs.” Brackeen, 937 F.3d at 434 (citing Lara,
541 U.S. at 200, 124 S. Ct. 1628). On en banc rehearing,
Defendants continue to defend ICWA as a valid exercise
of Congress’s “plenary and exclusive authority over
Indian affairs,” derived from the Indian Commerce
Clause, U.S. CONST. art. I, § 8, cl. 3, and the Treaty
Clause, art. II, § 2, cl. 2, as well as “preconstitutional
powers.”
We agree with Defendants that Congress has ample
power to legislate respecting Indians, and also that the
Supreme Court has described that power in broad terms
that go beyond trade. We cannot agree, however, that
Congress’s authority is broad enough to justify ICWA’s
intrusion on state child-custody proceedings. To the
contrary, the Supreme Court has warned that an
exercise of Congress’s Indian power that “interfere[s]
with the power or authority of any State” would mark a
“radical change[ ] in tribal status.” Lara, 541 U.S. at 205,
124 S. Ct. 1628. ICWA presents precisely such an
interference with state authority. We therefore hold
that, to the extent ICWA governs child-custody

239a
proceedings under
Congress’s power.20

state

jurisdiction,

it

exceeds

A.
In urging us to uphold ICWA, Defendants rely
heavily on two propositions: that Congress’s Indian
affairs power goes beyond commerce with tribes and
that the power is “plenary and exclusive.” We therefore
consider at the outset whether those propositions, of
their own force, justify ICWA. They do not. Both
propositions are true as far as they go, but relying on
them to uphold ICWA would set virtually no limit on
Congress’s authority to override state sovereignty and
control state government proceedings.
Defendants are correct that, under binding Supreme
Court precedent, Congress’s authority to legislate on
Indian affairs extends beyond regulating commerce with
Indian tribes. Despite their textual proximity, the
Indian Commerce Clause has a “very different
application[ ]” from the Interstate Commerce Clause.
Cotton Petroleum Corp., 490 U.S. at 192, 109 S. Ct. 1698.
“[T]he central function of the Indian Commerce Clause,”
the Court has explained, “is to provide Congress with
plenary power to legislate in the field of Indian affairs.”
Id. (citing Morton v. Mancari, 417 U.S. 535, 551–52, 94 S.
20

We reject Defendants’ argument that this issue is not before us
because the district court did not rule on it. To the contrary, the
district court ruled on the issue of congressional authority as a
necessary part of Defendants’ preemption claims. See Murphy v.
NCAA, 138 S. Ct. 1461, 1479, 200 L. Ed. 2d 854 (2018) (preemption
requires considering, first, whether the law “represent[s] the
exercise of a power conferred on Congress by the Constitution”).

240a
Ct. 2474, 41 L. Ed. 2d 290 (1974); COHEN’S at 207–08 &
nn.2, 3, 9–11 (1982)). Longstanding patterns of federal
legislation bear this out. For example, in addition to
commercial fields like land21 and mineral development,22
Congress has enacted Indian-related legislation in noncommercial fields like criminal law,23 education,24

21

See, e.g., 25 U.S.C. § 177 (requiring federal approval of any
“purchase, grant, lease, or other conveyance of lands ... from any
Indian nation or tribe of Indians”); id. § 81 (requiring Secretary of
Interior approval for contracts leasing Indian lands); Fed. Power
Comm’n v. Tuscarora Indian Nation, 362 U.S. 99, 119, 80 S. Ct. 543,
4 L. Ed. 2d 584 (1960) (purpose of 25 U.S.C. § 177 is to “prevent
unfair, improvident or improper disposition” of Indian lands).
22

See, e.g., 25 U.S.C. §§ 2101–2108 (development of tribal mineral
resources).
23

See, e.g., 18 U.S.C. § 1153 (placing certain crimes by “[a]ny Indian”
within Indian country under federal criminal jurisdiction); McGirt
v. Oklahoma, 140 S. Ct. 2452, 2482, 207 L. Ed. 2d 985 (2020) (state
lacked jurisdiction to prosecute Indian defendant under Major
Crimes Act for crime committed on reservation); Lara, 541 U.S. at
199–200, 124 S. Ct. 1628 (upholding statute conferring on tribes
criminal jurisdiction over nonmember Indians); United States v.
Antelope, 430 U.S. 641, 97 S. Ct. 1395, 51 L. Ed. 2d 701 (1977)
(upholding Major Crimes Act); United States v. Kagama, 118 U.S.
375, 385, 6 S. Ct. 1109, 30 L. Ed. 228 (1886) (same).
24

See, e.g., 25 U.S.C. § 2000 (“It is the policy of the United States to
fulfill the Federal Government’s unique and continuing trust
relationship with and responsibility to the Indian people for the
education of Indian children ....”). See also COHEN’S § 22.03[1][a]
(“Beginning with the 1794 Treaty with the Oneida, over 150 treaties
between tribes and the United States have included educational
provisions. For almost as long a time, Congress has legislated to
provide for Indian education generally.”) (footnotes omitted).

241a
probate,25 health care,26 and housing assistance.27
Consequently, we cannot agree with Plaintiffs that
ICWA is unconstitutional because it does not regulate
tribal “commerce.” Whatever the validity of that
argument as a matter of original constitutional meaning,
cf. Adoptive Couple v. Baby Girl, 570 U.S. 637, 659–65,
133 S. Ct. 2552, 186 L. Ed. 2d 729 (2013) (Thomas, J.,
concurring), it is foreclosed by Supreme Court cases
interpreting the Indian Commerce Clause to extend
beyond commercial interactions with tribes.
Defendants are also correct that the Supreme Court
has often described Congress’s Indian power as “plenary
and exclusive.” See, e.g., Lara, 541 U.S. at 200, 124 S. Ct.
1628 (citing Washington v. Confederated Bands &
Tribes of the Yakima Indian Nation, 439 U.S. 463, 470–
71, 99 S. Ct. 740, 58 L. Ed. 2d 740 (1979) (“Yakima
Nation”); Negonsott v. Samuels, 507 U.S. 99, 103, 113 S.
Ct. 1119, 122 L. Ed. 2d 457 (1993); United States v.
Wheeler, 435 U.S. 313, 323, 98 S. Ct. 1079, 55 L. Ed. 2d
303 (1978)). The Court has used that broad phrase in
various ways—sometimes to signal “the breadth of
25

See, e.g., 25 U.S.C. § 2205 (authorizing tribes to adopt probate
codes for distribution of trust or restricted lands located on
reservations or otherwise subject to tribal jurisdiction).
26

See, e.g., 25 U.S.C. § 1601(1) (“Federal health services to maintain
and improve the health of the Indians are consonant with and
required by the Federal Government’s historical and unique legal
relationship with, and resulting responsibility to, the American
Indian people.”). See also Cohen’s § 22.04 (discussing federal
healthcare for Indian tribes).
27

See, e.g., 25 U.S.C. §§ 4101–4243 (establishing housing grant
program for tribes).

242a
congressional power to legislate in the area of Indian
affairs,” sometimes to confirm “the supremacy of federal
over state law in this area,” and other times “as a
shorthand for general federal authority to legislate on
health, safety, and morals within Indian country, similar
to the states’ police powers.” COHEN’S § 5.02[1] (citing
inter alia Lara, 541 U.S. at 200, 124 S. Ct. 1628; Yakima
Nation, 439 U.S. at 470, 99 S. Ct. 740; Cotton Petroleum
Corp., 490 U.S. at 192, 109 S. Ct. 1698).28 More recently,
the Court has formulated the principle this way: “As
dependents, the [Indian] tribes are subject to plenary
control by Congress.” Michigan v. Bay Mills Indian
Cmty., 572 U.S. 782, 788, 134 S. Ct. 2024, 188 L. Ed. 2d
1071 (2014) (citing Lara, 541 U.S. at 200, 124 S. Ct.
1628).29
Merely describing Congress’s authority as
“plenary,” however, does not settle ICWA’s validity.
“The power of Congress over Indian affairs,” the
Supreme Court has explained, “may be of a plenary
nature; but it is not absolute.” Del. Tribal Bus. Comm.
28

See also Gregory Ablavsky, Beyond the Indian Commerce
Clause, 124 YALE L.J. 1012, 1014 (2015) (“Ablavsky, Indian
Commerce”) (“Plenary power, as used by the Court, has two distinct
meanings. Sometimes the Court uses the term interchangeably with
‘exclusive,’ to describe federal power over Indian affairs to the
exclusion of states. But the Court also uses the term to describe the
doctrine that the federal government has unchecked authority over
Indian tribes, including their internal affairs.”) (footnotes omitted).
29

Cf. McGirt, 140 S. Ct. at 2462 (“This Court long ago held that the
Legislature wields significant constitutional authority when it
comes to tribal relations, possessing even the authority to breach its
own promises and treaties.”) (citing Lone Wolf v. Hitchcock, 187
U.S. 553, 566–68, 23 S. Ct. 216, 47 L. Ed. 299 (1903)).

243a
v. Weeks, 430 U.S. 73, 84, 97 S. Ct. 911, 51 L. Ed. 2d 173
(1977) (quoting United States v. Alcea Band of
Tillamooks, 329 U.S. 40, 54, 67 S. Ct. 167, 91 L. Ed. 29
(1946) (plurality op.)); see also COHEN’S § 5.04[1]
(“Federal power to regulate Indian affairs is ‘plenary
and exclusive,’ but not absolute.”) (footnotes omitted). In
this realm, as in any, Congress’s power is limited by
other constitutional guarantees. See New York v. United
States, 505 U.S. 144, 156, 112 S. Ct. 2408, 120 L. Ed. 2d
120 (1992) (“Congress exercises its conferred powers
subject to the limitations contained in the
Constitution.”).30 Among the most critical is the
Constitution’s structural guarantee of state sovereignty.
See, e.g., Printz v. United States, 521 U.S. 898, 918–19,
117 S. Ct. 2365, 138 L. Ed. 2d 914 (1997) (“Although the
30

See, e.g., Hodel v. Irving, 481 U.S. 704, 710, 718, 107 S. Ct. 2076, 95
L. Ed. 2d 668 (1987) (holding federal law regulating “descent and
devise of Indian lands” violated the Takings Clause); Weeks, 430
U.S. at 83–84, 97 S. Ct. 911 (“plenary” congressional power “in
matters of Indian affairs” subject to “equal protection component of
the Fifth Amendment”); Mancari, 417 U.S. at 551–55, 94 S. Ct. 2474
(same); United States v. Creek Nation, 295 U.S. 103, 109–10, 55 S.
Ct. 681, 79 L. Ed. 1331 (1935) (power over Indian lands “subject to
... pertinent constitutional restrictions,” including Takings Clause).
A different question is to what extent the Constitution applies to
the tribes themselves. “As separate sovereigns pre-existing the
Constitution, tribes have historically been regarded as
unconstrained by those constitutional provisions framed specifically
as limitations on federal or state authority.” United States v.
Bryant, 136 S. Ct. 1954, 1962, 195 L. Ed. 2d 317 (2016) (quoting
Santa Clara Pueblo v. Martinez, 436 U.S. 49, 56, 98 S. Ct. 1670, 56
L. Ed. 2d 106 (1978)). Thus, “[t]he Bill of Rights does not apply to
Indian tribes.” Plains Commerce Bank v. Long Family Land &
Cattle Co., 554 U.S. 316, 337, 128 S. Ct. 2709, 171 L. Ed. 2d 457
(2008).

244a
States surrendered many of their powers to the new
Federal Government, they retained ‘a residuary and
inviolable sovereignty,’ [which] ... is reflected
throughout the Constitution’s text”) (quoting THE
FEDERALIST No. 39, at 245 (J. Madison)). No Supreme
Court decision even hints that Congress’s Indian affairs
power trumps state sovereignty. To the contrary, the
Court has held that Congress’s power to regulate Indian
commerce—despite being “under the exclusive control
of the Federal Government”—cannot “dissipate” the
“background principle of state sovereign immunity.”
Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 72, 116 S.
Ct. 1114, 134 L. Ed. 2d 252 (1996). Similarly, the Court
has recognized that states did not surrender “their
immunity against Indian tribes when they adopted the
Constitution.” Blatchford v. Native Vill. of Noatak and
Circle Vill., 501 U.S. 775, 781–82, 111 S. Ct. 2578, 115 L.
Ed. 2d 686 (1991). Those decisions defy the radical notion
that Congress may deploy its “plenary” Indian power
without regard to state sovereignty or the Tenth
Amendment. See also infra II(B) (discussing additional
precedents).
To say otherwise, as Defendants do, would erase the
distinction between federal and state power—namely,
that “[t]he Constitution confers on Congress not plenary
legislative power but only certain enumerated powers,”
with “all other legislative power ... reserved for the
States.” Murphy v. NCAA, 138 S. Ct. 1461, 1476, 200 L.
Ed. 2d 854 (2018) (emphasis added). Nor does it follow
that, because the Constitution gives Congress power
over Indian affairs, “the Tenth Amendment expressly
disclaims any reservation of that power to the States.”

245a
New York, 505 U.S. at 156, 112 S. Ct. 2408. That begs the
question, then, whether the Indian power includes
authority to govern state child-custody proceedings.
That “question[ ] of great importance and delicacy,” id.
at 155, 112 S. Ct. 2408 (cleaned up), has not been squarely
resolved by the Supreme Court. But the Court has
strongly suggested the answer: it has warned that an
exercise of Congress’s Indian affairs power that
“interfere[s] with the power or authority of any State”
would mark a “radical change[ ]” in tribal relations with
the states. Lara, 541 U.S. at 205, 124 S. Ct. 1628; see also
infra II(B). And, as we explain below, no founding-era
treaty, statute, or congressional practice supports
ICWA’s unprecedented reach. See infra II(C).
We therefore cannot agree with JUDGE DENNIS that
ICWA’s intrusion on state government proceedings fails
even to implicate the Tenth Amendment. See DENNIS
OP. at 67. According to JUDGE DENNIS, when Congress
deploys its Indian power, the Tenth Amendment
vanishes. A court need ask only whether Congress “may
legislate on the particular subject matter at issue”—
here, Indian children and families “in child custody
proceedings.” Id. Because Congress has “plenary
power” over that subject, raising the Tenth Amendment
as a barrier would “impos[e] new restraints on
[Congress’s] authority.” Id.
That is a remarkable view. Imagine its applying to
hypothetical exercises of Congress’s other “plenary”
powers—say, its “plenary power to make rules for the
admission of aliens,” Kleindienst v. Mandel, 408 U.S.
753, 766, 92 S. Ct. 2576, 33 L. Ed. 2d 683 (1972), or its
“plenary power over the Territories,” District of

246a
Columbia v. Carter, 409 U.S. 418, 430, 93 S. Ct. 602, 34
L. Ed. 2d 613 (1973), or its “plenary power to legislate
for the District of Columbia,” Palmore v. United States,
411 U.S. 389, 393, 93 S. Ct. 1670, 36 L. Ed. 2d 342 (1973),
or its “plenary power ... to regulate foreign commerce,”
Buttfield v. Stranahan, 192 U.S. 470, 496, 24 S. Ct. 349,
48 L. Ed. 525 (1904). Suppose Congress enacted rules in
those areas that purported to govern state proceedings,
as ICWA does. Imagine a federal law mandating
different comparative fault rules in state tort suits
involving Swedish visa holders. Or unique proof
standards for Guamanians in state probate proceedings.
Or laxer parol evidence rules for D.C. residents
embroiled in state contract litigation. Or stricter
adverse possession rules for French merchants in state
property disputes. Would those federal laws, directly
controlling state administrative and civil proceedings, be
immune from the Tenth Amendment because
Congress’s authority in those areas is “plenary”? Of
course not. Neither is ICWA.31
In sum, the settled proposition that “tribes are
subject to plenary control by Congress,” Bay Mills, 572
U.S. at 788, 134 S. Ct. 2024, does not answer the novel
question whether Congress can control state childcustody proceedings involving Indian children. We now
turn to that question.

31

We agree with JUDGE DENNIS that these hypotheticals are “farfetched” and “ridiculous.” DENNIS OP. at 104 n.47. That is the point
of a reductio ad absurdum.

247a
B.
To answer it, we consider whether any Supreme
Court precedent—or, failing that, any longstanding
founding-era congressional practice—justifies the use of
Congress’s Indian affairs power to govern state childcustody proceedings involving Indian children. See, e.g.,
Printz, 521 U.S. at 905, 117 S. Ct. 2365 (explaining
“contemporaneous legislative exposition of the
Constitution ..., acquiesced in for a long term of years,
fixes the construction to be given its provisions”) (citing
Myers v. United States, 272 U.S. 52, 175, 47 S. Ct. 21, 71
L. Ed. 160 (1926)). As we explain below (infra II(B)(1)–
(2), II(C)), we find neither precedent nor historical
evidence justifying the modern use of Congress’s power
here. See Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S.
519, 549, 132 S. Ct. 2566, 183 L. Ed. 2d 450 (2012)
(“NFIB”) (“Sometimes the most telling indication of a
severe constitutional problem is the lack of historical
precedent for Congress’s action.”) (cleaned up).
We pause to make a point about method. Our
analysis does not ask—as JUDGE DENNIS supposes—
whether any “Founding-era federal law ... applie[d]
within state child welfare proceedings.” DENNIS OP. at
72. JUDGE COSTA also tags us with a similarly absurd
view. See COSTA OP. at 16 (imagining we seek a
founding-era practice “explicitly bless[ing] federal
intervention in state domestic relations proceedings”
pursuant to the Indian affairs power) (emphasis added).
But that approach to discerning the original extent of
federal power “border[s] on the frivolous.” District of
Columbia v. Heller, 554 U.S. 570, 582, 128 S. Ct. 2783,
171 L. Ed. 2d 637 (2008). No one thinks, and we do not

248a
claim, that states were adjudicating adoptions in 1787.
Instead, we examine whether comparable founding-era
uses of the Indian power justify ICWA’s modern
intrusion into state custody proceedings.32 See, e.g., infra
at 383–84 (asking whether ICWA is justified by
“comparable founding-era exercises of Congress’s
Indian affairs power”). Testing whether the old maps
onto the new is standard constitutional analysis.33 So, we
do not ask the specific (and meaningless) question
whether founding-era Indian power was used to govern
“state domestic relations proceedings”; we do ask the
more general (and meaningful) question whether that
power was used to govern “state proceedings,” “state
governments,” “state governmental functions,” or “a
state’s own proceedings that involve Indians.” See infra
II(C). Thus, the supposed rebuttals to our analysis—that
state court “adjudication of child placements” did not
exist “until the middle of the nineteenth century,”
DENNIS OP. at 72, and “would not exist for another eight
decades” after the founding era, COSTA OP. at 16—
incinerate a straw man.
32

See, e.g., Printz, 521 U.S. at 905–09, 117 S. Ct. 2365 (examining
whether founding-era federal laws requiring state courts to
perform various naturalization functions justified the Brady Act’s
requiring state police to perform gun background checks).
33

See, e.g., Heller, 554 U.S. at 582, 128 S. Ct. 2783 (“Just as the First
Amendment protects modern forms of communications, and the
Fourth Amendment applies to modern forms of search, the Second
Amendment extends, prima facie, to all instruments that constitute
bearable arms, even those that were not in existence at the time of
the founding.”) (citing Reno v. ACLU, 521 U.S. 844, 849, 117 S. Ct.
2329, 138 L. Ed. 2d 874 (1997); Kyllo v. United States, 533 U.S. 27,
35–36, 121 S. Ct. 2038, 150 L. Ed. 2d 94 (2001)).

249a
That clarification made, we proceed to our analysis.
1.
No Supreme Court decision supports Congress’s
deploying its Indian affairs power to govern state
government proceedings. Indeed, the Court’s
precedents point in the opposite direction: such use of
the Indian power marks a “radical change[ ] in tribal
status” because it “interfere[s] with the power [and]
authority of [the] State[s].” Lara, 541 U.S. at 205, 124 S.
Ct. 1628.
The logical place to begin is Fisher v. District Court
of Sixteenth Judicial District of Montana, 424 U.S. 382,
96 S. Ct. 943, 47 L. Ed. 2d 106 (1976), because it involves
the same subject as this case: tribal authority over
adoptions. Pursuant to the Indian Reorganization Act,
25 U.S.C. § 5123 (formerly cited as 25 U.S.C. § 476), the
Northern Cheyenne Tribe vested its tribal court with
exclusive jurisdiction over adoptions among tribe
members. Fisher, 424 U.S. at 387, 96 S. Ct. 943. The
Supreme Court upheld the exclusion of state-court
jurisdiction because it would “interfere with the powers
of self-government conferred upon the [tribe].” Id. The
Court emphasized, however, that the tribe’s exclusive
jurisdiction was limited to adoptions where the child, the
birth parents, and the adoptive parents were “each and
all members of the [tribe]” and “reside within the
exterior boundaries of the [reservation].” Id. at 384 n.6,
96 S. Ct. 943. The Court therefore concluded the tribal
ordinance implemented an “overriding federal policy”

250a
that ousted state-court jurisdiction “over litigation
involving reservation Indians.” Id. at 390, 96 S. Ct. 943.34
The law at issue in Fisher is the mirror opposite of
ICWA. Fisher held Congress could keep states out of onreservation adoptions among tribe members. By
contrast, this case asks whether Congress can directly
regulate state proceedings involving off-reservation
adoptions by non-Indians. See, e.g., 25 U.S.C. § 1915(a)
(applying ICWA preferences to “any adoptive
placement of an Indian child under State law”).35 Fisher
involved Congress’s valid attempt to promote a tribe’s
“right ... to govern itself independently of state law.” 424
U.S. at 386, 96 S. Ct. 943. But this case asks whether
Congress can legislate standards governing a state’s
own child-custody proceedings. To be sure, Fisher does
not squarely address whether Congress has power to do
so. But the decision provides no support for the
proposition that Congress may use its Indian affairs
power to regulate state proceedings.
Speaking directly to that question is United States
v. Lara, 541 U.S. 193, 124 S. Ct. 1628, 158 L. Ed. 2d 420
(2004), a more recent examination of the Indian affairs
power. Lara was a double jeopardy case in which the
Indian defendant, Lara, was first prosecuted by a
34

The Court also rejected an equal protection challenge to the
ordinance, which we discuss infra II(A)(2).
35

We note that one aspect of ICWA is similar to the law upheld in
Fisher. Section 1911(a) reserves to a tribe exclusive jurisdiction
“over any child custody proceeding involving an Indian child who
resides or is domiciled within the reservation of such tribe.” Our
decision does not affect that section because it does not regulate
state proceedings.

251a
different tribe and then prosecuted for a similar crime
by the United States. 541 U.S. at 196–97, 124 S. Ct. 1628.
Lara’s tribal prosecution was authorized by 25 U.S.C.
§ 1301(2), which allows tribes to prosecute other tribes’
members. Id. at 197–98, 124 S. Ct. 1628.36 He argued his
tribal prosecution was an exercise of “delegated federal
authority,” such that his federal prosecution constituted
double jeopardy. Id. The Supreme Court disagreed,
concluding that § 1301(2) recognized tribes’ “inherent
power” to prosecute nonmember Indians and that the
federal prosecution did not place Lara in double
jeopardy. Id. at 198, 210, 124 S. Ct. 1628. The Court
discussed several “considerations” leading it to conclude
the statute validly exercised Congress’s Indian affairs
power. Id. at 200–07, 124 S. Ct. 1628.
First, as noted, the Court confirmed that Congress
has “broad general powers to legislate in respect to
Indian tribes,” powers typically described as “plenary
and exclusive.” Id. at 200, 124 S. Ct. 1628 (quoting
Yakima Nation, 439 U.S. at 470-71, 99 S. Ct. 740).
Second, the Court had consistently approved
adjustments of “tribal sovereign authority” similar to
the expansion of criminal jurisdiction here. Id. at 202–03,
124 S. Ct. 1628. Third, the Court found § 1301(2) did not
have an “unusual legislative objective,” given
Congress’s history of “ma[king] adjustments to the
autonomous status of other such dependent entities,”
such as the Philippines or Puerto Rico. Id. at 203, 124 S.
36

The Supreme Court had previously held tribes could not
prosecute members of other tribes in Duro v. Reina, 495 U.S. 676,
688, 110 S. Ct. 2053, 109 L. Ed. 2d 693 (1990), but Congress
responded with § 1301(2).

252a
Ct. 1628. Fourth, the Court found no “explicit language
in the Constitution suggesting a limitation” on
Congress’s action. Id. at 204, 124 S. Ct. 1628. Fifth, the
Court found the jurisdictional change “limited” because
the tribe already had jurisdiction over its own members
as well as “authority to control events that occur upon
[its] own land.” Id. The Court cautioned, however, that
it was “not now faced with a question dealing with
potential constitutional limits on congressional efforts to
legislate far more radical changes in tribal status. In
particular, this case involves no interference with the
power or authority of any State.” Id. at 205, 124 S. Ct.
1628 (emphasis added).37
ICWA’s encroachment on state child-custody
proceedings cannot survive scrutiny under these Lara
factors. To begin with, unlike in Lara, Defendants point
us to no Supreme Court cases approving an expansion of
“tribal sovereign authority” remotely like the one
contemplated by ICWA. Id. at 202–03, 98 S. Ct. 1011.
Nor—as discussed infra—have Defendants identified
any founding-era congressional history of regulating
state proceedings, thus marking ICWA as having an
“unusual legislative objective.” Id. at 203, 98 S. Ct. 1011.
Indeed, ICWA is also “unusual” in that it intrudes into
the domestic relations realm “long ... regarded as a
virtually exclusive province of the States.” Sosna v.
37

Additionally, the Court explained that its prior decisions
implicitly recognized that Congress could relax limitations on
tribes’ criminal jurisdiction. Lara, 541 U.S. at 205–07, 124 S. Ct. 1628
(citing, inter alia, Oliphant v. Suquamish Tribe, 435 U.S. 191, 98 S.
Ct. 1011, 55 L. Ed. 2d 209 (1978); Duro, 495 U.S. 676, 110 S. Ct. 2053,
109 L. Ed. 2d 693).

253a
Iowa, 419 U.S. 393, 404, 95 S. Ct. 553, 42 L. Ed. 2d 532
(1975). Whereas in Lara no “explicit [constitutional]
language” barred expanding one tribe’s criminal
jurisdiction over other tribe members, 541 U.S. at 204,
124 S. Ct. 1628, the Tenth Amendment plainly reserves
to states “[t]he whole subject of the domestic relations
of ... parent and child ....” Burrus, 136 U.S. at 593–94, 10
S. Ct. 850. Unlike the “limited” jurisdictional expansion
in Lara, ICWA forces tribes into off-reservation state
proceedings involving non-Indians. 541 U.S. at 204, 124
S. Ct. 1628. Finally, and most obviously, ICWA seeks the
“radical change[ ] in tribal status” foreshadowed in Lara:
ICWA’s stated purpose is to “interfere[ ] with the power
[and] authority of [the] State[s].” Id. at 205, 124 S. Ct.
1628.38

38

JUDGE DENNIS contends the Lara factors “are of no relevance”
because, in ICWA, “Congress is not altering the scope of the tribes’
retained sovereign power” but is instead “grant[ing] new rights,
protections, and safeguards” to tribes and families. DENNIS OP. at
77. We disagree. Nowhere does Lara limit its analysis to federal
laws that “alter[ ] ... tribes’ retained sovereign power,” as JUDGE
DENNIS claims. Rather, Lara deploys various “considerations” to
assess whether the Constitution “authorizes” Congress’s use of its
Indian affairs power. See Lara, 541 U.S. at 200, 124 S. Ct. 1628.
Those considerations bear directly on ICWA’s validity. To be sure,
the statute in Lara passed muster because it merely “relax[ed]”
prior statutory restrictions on “the tribes’ exercise of inherent
prosecutorial power.” Id. at 200, 207, 124 S. Ct. 1628. But Lara
expressly reserved the question whether there are “potential
constitutional limits on congressional efforts to legislate far more
radical changes in tribal status,” and “[i]n particular” for statutes
that “interfere[ ] with the power or authority of [a] State.” Id. at
205, 124 S. Ct. 1628. The question that Lara reserved is the one
presented by ICWA—whether by “interfer[ing] with the power or

254a
Finally, Seminole Tribe, 517 U.S. 44, 116 S. Ct. 1114,
134 L. Ed. 2d 252, confirms that Congress cannot deploy
its Indian affairs power to override state sovereignty. In
that case, the Court rejected the proposition that the
Indian Gaming Regulatory Act, enacted under the
Indian Commerce Clause, could validly abrogate state
sovereign immunity. Id. at 72–73, 116 S. Ct. 1114. The
Court squarely held that Congress’s “exclusive”
authority over Indian commerce does not “dissipate” a
state’s immunity from federal suit: “[T]he background
principle of state sovereign immunity embodied in the
Eleventh Amendment is not so ephemeral as to dissipate
when the subject of the suit is an area, like the regulation
of Indian commerce, that is under the exclusive control
of the Federal Government.” Id. at 72, 116 S. Ct. 1114.
Seminole Tribe’s holding removes any basis for
Defendants’ core argument that, because Congress’s
Indian affairs authority is “plenary,” Congress can ipso
facto regulate state sovereign matters like adoption
proceedings. To the contrary, “[e]ven when the
Constitution vests in Congress complete law-making
authority over a particular area” like Indian affairs, id.,
the exercise of that power remains subject to the
Constitution’s guarantees of state sovereignty.39
authority of [a] State,” id., ICWA exceeds Congress’s authority to
legislate for Indian tribes.
39

JUDGE DENNIS claims Seminole Tribe “has no bearing” on this
question because it “addressed only limitations on Congress’s
power to override states’ sovereign immunity from suit by private
parties.” DENNIS OP. at 75. That is incorrect. States’ immunity from
private suits is “a fundamental aspect of the sovereignty which the
States enjoyed before the ratification of the Constitution,” and
which is confirmed “by the Tenth Amendment.” Alden v. Maine, 527

255a
2.
Defendants cite various Supreme Court decisions as
support for ICWA, but none suffice.
Defendants cite Lara repeatedly, but only for the
general proposition that Congress’s Indian affairs power
has been described as “plenary and exclusive.” They do
not, however, discuss Lara in any detail nor analyze
ICWA’s validity under the considerations Lara sets out.
As already discussed, incanting the formula that
Congress’s power in this area is “plenary and exclusive”
begs the question whether Congress may use that power
to regulate state child-custody proceedings. The same
can be said for other broad formulations of the Indian
affairs power Defendants cite. For example, Tribal
Defendants quote the seminal opinion in Worcester v.
Georgia for the proposition that federal treaties and

U.S. 706, 713, 119 S. Ct. 2240, 144 L. Ed. 2d 636 (1999); see also
Blatchford, 501 U.S. at 781–82, 111 S. Ct. 2578 (rejecting notion that
state surrender of immunity against tribes was “inherent in the
constitutional compact”). Thus, contrary to JUDGE DENNIS’s view,
Seminole Tribe is not cabined to the “states’ sovereign immunity
from suit by private parties,” but bears directly on whether
Congress’s Indian power may ipso facto override state sovereignty
as a general matter. JUDGE DENNIS also asserts that Seminole
Tribe “carefully noted that its opinion in no way touched upon other
aspects of the Tenth Amendment.” DENNIS OP. at 75. That misreads
the decision. The footnote JUDGE DENNIS cites only declined to
decide whether the gaming law at issue violated the Tenth
Amendment by “mandat[ing] state regulation of Indian gaming,” a
question “not considered below.” Seminole Tribe, 517 U.S. at 61
n.10, 116 S. Ct. 1114. Neither the cited footnote, nor anything else
in the decision, creates the artificial distinction JUDGE DENNIS
seeks to create here.

256a
laws “contemplate ... that all intercourse with [Indians]
shall be carried on exclusively by the government of the
union.” 31 U.S. (6 Pet.) 515, 519, 8 L. Ed. 483 (1832)
(emphasis added); see also id. at 561 (op. of Marshall,
C.J.) (same). It is unclear what that proposition has to do
with this case. Worcester itself has no bearing on it: the
decision held that Georgia could not apply its criminal
laws on Cherokee territory and in contravention of a
federal treaty. See id. at 561 (explaining that “[t]he
Cherokee nation, then, is a distinct community
occupying its own territory ... in which the laws of
Georgia can have no force”).40
Federal Defendants cite Washington v. Washington
State Commercial Passenger Fishing Vessel Ass’n
(“Fishing Vessel”), 443 U.S. 658, 99 S. Ct. 3055, 61 L. Ed.
2d 823 (1979), presumably because that decision
40

In a similar vein is the Supreme Court’s recent decision in McGirt,
140 S. Ct. 2452, 207 L. Ed. 2d 985. The Court held that certain lands
in Oklahoma remained “Indian country” for purposes of the Major
Crimes Act, 18 U.S.C. § 1153(a), and thus that Oklahoma state
courts lacked jurisdiction to try an Indian defendant for crimes he
committed on those lands. Id. at 2459. McGirt reiterates the familiar
propositions that Congress has “significant constitutional authority
when it comes to tribal relations,” id. at 2462—in that case, the
authority to establish an Indian reservation—and that “State courts
generally have no jurisdiction to try Indians for conduct committed
in ‘Indian country,’” id. at 2459 (citing Negonsott v. Samuels, 507
U.S. 99, 102–03, 113 S. Ct. 1119, 122 L. Ed. 2d 457 (1993)). The
decision, however, offers no support for the proposition that
Congress’s Indian affairs power extends to controlling state
proceedings. The Court remarked only that “States have no
authority to reduce federal reservations lying within their borders,”
id. at 2462, a settled proposition harkening back to Chief Justice
Marshall’s admonition in Worcester.

257a
required the state of Washington to accommodate the
treaty rights of Indians with respect to off-reservation
fishing sites. Indeed, at en banc argument, Federal
Defendants identified Fishing Vessel as their best case.41
Rec. of Oral Argument at 8:45–9:50. But the treatybased limitation on state regulation allowed in Fishing
Vessel is nothing like ICWA’s intrusion into state childcustody proceedings. The 1850s-era treaties in Fishing
Vessel guaranteed tribes the “right of taking fish, at all
usual and accustomed grounds and stations ... in common
with all citizens of the Territory.” 443 U.S. at 674, 99 S.
Ct. 3055. The Court read those treaties to guarantee
tribes a portion of yearly fishing runs, which could not
be invalidated by state law or regulation. Id. at 684–85,
99 S. Ct. 3055.42 Requiring state regulatory forbearance
to federal treaties, however, is worlds away from
Congress’s dictating separate standards for state childcustody proceedings involving Indian children.
Furthermore, unlike in Fishing Vessel, here Defendants
41

Even so, counsel effectively admitted Fishing Vessel does not go
far enough to support ICWA. When pressed for prior authority
allowing Congress’s “plenary” power to interfere with state childcustody proceedings, counsel responded that “this”—i.e. the instant
challenge to ICWA—”is the case that presents that [issue].” Rec. of
Oral Argument at 10:30–10:55.
42

Fishing Vessel is one in a long line of cases resolving conflicts
between tribal treaty rights and non-tribal interests or state
regulation. See, e.g., Herrera v. Wyoming, 139 S. Ct. 1686, 203 L. Ed.
2d 846 (2019); Puyallup Tribe v. Dep’t of Game of Wash., 391 U.S.
392, 88 S. Ct. 1725, 20 L. Ed. 2d 689 (1968); Seufert Bros. Co. v.
United States, 249 U.S. 194, 39 S. Ct. 203, 63 L. Ed. 555 (1919);
United States v. Winans, 198 U.S. 371, 25 S. Ct. 662, 49 L. Ed. 1089
(1905).

258a
cannot rely on over a century of federal treaties bearing
on the precise subject matter at issue. Cf. Lara, 514 U.S.
at 203–04, 115 S. Ct. 1331 (finding Indian affairs power
justified by Congress’s history of similar actions); see
also id. at 201, 115 S. Ct. 1331 (treaties “can authorize
Congress to deal with ‘matters’ with which otherwise
‘[it] could not deal’”).43
Tribal Defendants cite several decisions for the
proposition that Congress may legislate with respect to
Indian activity that does not occur “on or near the
reservation.” This general principle is true, of course,
but again it begs the question whether ICWA validly
regulates state child-custody proceedings. The cited
cases themselves offer no guidance on that question. For
example, United States v. McGowan held that Congress
validly denominated as “Indian country” a tract of
federal land occupied by an Indian colony, remarking
that Congress may legislate for the “protection of the
Indians wherever they may be.” 302 U.S. 535, 539, 58 S.
43

Federal Defendants also cite Antoine v. Washington, 420 U.S. 194,
95 S. Ct. 944, 43 L. Ed. 2d 129 (1975), which, similar to Fishing
Vessel, recognized Congress may ratify agreements with Indian
tribes that preclude states from applying contrary state law. In
Antoine, a tribe ceded part of its land to the United States in
exchange for preserving hunting and fishing rights. The Court held
that the Supremacy Clause prevented the State of Washington from
applying its hunting and fishing laws to Indians on the ceded lands.
See id. at 203–04, 95 S. Ct. 944 (citing, inter alia, Choate v. Trapp,
224 U.S. 665, 32 S. Ct. 565, 56 L. Ed. 941 (1912); Perrin v. United
States, 232 U.S. 478, 34 S. Ct. 387, 58 L. Ed. 691 (1914); Dick v.
United States, 208 U.S. 340, 28 S. Ct. 399, 52 L. Ed. 520 (1908)).
Neither Antoine, nor any decision it relied on, suggests Congress
may impose Indian-specific standards on state proceedings.

259a
Ct. 286, 82 L. Ed. 410 (1938) (citation omitted). Morton
v. Ruiz invalidated under the APA an agency policy
excluding federal assistance for tribe members living
near reservations, noting “[t]he overriding duty of our
Federal Government to deal fairly with Indians
wherever located.” 415 U.S. 199, 236, 94 S. Ct. 1055, 39
L. Ed. 2d 270 (1974). Perrin v. United States upheld a
federal ban on selling alcohol on lands ceded by the
Yankton Sioux Tribe, based on Congress’s power “to
prohibit the introduction of intoxicating liquors into an
Indian reservation, ... and to prohibit traffic in such
liquors with tribal Indians, whether upon or off a
reservation and whether within or without the limits of
a state.” 232 U.S. 478, 482, 34 S. Ct. 387, 58 L. Ed. 691
(1914).44 Finally, United States v. Kagama upheld
Congress’s power to enact a criminal code for crimes
committed by Indians on Indian reservations, observing
that only the federal government possessed that power
and that “the theater of its exercise is within the
geographical limits of the United States.” 118 U.S. 375,
384–85, 6 S. Ct. 1109, 30 L. Ed. 228 (1886). As this
summary shows, these decisions say nothing about
whether Congress may exercise its Indian affairs power
to regulate a state sovereign function like child-custody
44

Nor does Perrin’s modern sequel, United States v. Mazurie, 419
U.S. 544, 95 S. Ct. 710, 42 L. Ed. 2d 706 (1975), support Defendants’
position. Like Perrin, Mazurie only concerns Congress’s Indian
commerce power to regulate alcohol sales to Indians and the
“introduction of alcoholic beverages into Indian country.” Mazurie,
419 U.S. at 554, 95 S. Ct. 710 (and collecting cases). Mazurie upheld
Congress’s use of that power to ban alcohol sales by a non-Indian
who owned land within a reservation. Id. at 546–47, 555–56, 95 S. Ct.
710.

260a
proceedings.45 And, to the extent these decisions touch
on that question, they deny Congress’s power to do so.
See, e.g., Kagama, 118 U.S. at 383, 6 S. Ct. 1109
(observing the federal code “does not interfere with the
process of the state courts within the reservation ... [but]
is confined to the acts of an Indian of some tribe, of a

45

JUDGE HIGGINSON claims our view would resurrect the
“governmental function” analysis rejected by Garcia v. San
Antonio Metropolitan Transit Authority, 469 U.S. 528, 546–47, 105
S. Ct. 1005, 83 L. Ed. 2d 1016 (1985). HIGGINSON OP. at 1; see also
DENNIS OP. at 68–74. We disagree. In deciding whether federal
wage standards could apply to municipal employees, Garcia
rejected the test in National League of Cities v. Usery, 426 U.S. 833,
852, 96 S. Ct. 2465, 49 L. Ed. 2d 245 (1976), which exempted from
federal regulation “integral” or “traditional” state government
functions. Garcia, 469 U.S. at 546–47, 105 S. Ct. 1005. Garcia is
inapposite for several reasons. First, Garcia addressed the
Commerce Clause, not the Indian affairs power. As discussed,
whether the latter encroaches on state authority is one key to its
valid use by Congress. See, e.g., Lara, 541 U.S. at 205, 124 S. Ct. 1628
(asking whether use of the Indian affairs power “involve[d] ...
interference with the power or authority of any State”). Second, our
view does not depend, as Usery did, on “apprais[ing] ... whether a
particular governmental function is ‘integral’ or ‘traditional.’”
Garcia, 469 U.S. at 546–47, 105 S. Ct. 1005. Instead, we ask whether
the Indian affairs power has ever been used to regulate state
government proceedings of any kind. Third, Garcia concerned
whether “incidental application” of general federal laws
“excessively interfered with the functioning of state governments.”
Printz, 521 U.S. at 932, 117 S. Ct. 2365 (discussing, inter alia, Usery
and Garcia). Here, by contrast, we address a law whose “whole
object ... [is] to direct the functioning of the state [administrative
and judicial proceedings]” in child custody cases. Id.; see also infra
III(B)(1)(b) (explaining ICWA does not “evenhandedly” regulate
state and private activity).

261a
criminal character, committed within the limits of the
reservation”).46
C.
Finding no Supreme Court precedent justifying
ICWA’s intrusion on state sovereignty, we next
examine whether ICWA is nonetheless supported by
any comparable founding-era exercises of Congress’s
Indian affairs power. “[E]arly congressional enactments
‘provid[e] contemporaneous and weighty evidence of the
Constitution’s meaning.’” Nev. Comm’n on Ethics v.
Carrigan, 564 U.S. 117, 122, 131 S. Ct. 2343, 180 L. Ed.
2d 150 (2011) (alteration in original) (quoting Printz, 521
U.S. at 905, 117 S. Ct. 2365). When assessing the
constitutionality of a federal law, the Supreme Court
looks to founding-era legislation for any light it may shed
on the scope of Congress’s authority. See, e.g., Printz,
521 U.S. at 905–07, 117 S. Ct. 2365 (canvassing “statutes
enacted by the first Congresses” to determine whether
Congress could compel state officers to implement
federal law).47 Evidence that the first Congresses used
46

Defendants also suggest ICWA is authorized by
“preconstitutional powers.” But they fail to explain how that is so.
As State Plaintiffs point out, the Supreme Court’s reference to
“preconstitutional powers” in Lara referred to the United States’
early relationship with Indian tribes, which at that time resembled
“military and foreign policy [more] than a subject of domestic or
municipal law.” 541 U.S. at 201, 124 S. Ct. 1628. While such authority
spoke to the issue in Lara—Congress’s power to alter the scope of
tribes’ inherent sovereignty—it has no bearing on ICWA, a law
having nothing to do with military or foreign policy and everything
to do with state domestic law.
47

See also Bowsher v. Synar, 478 U.S. 714, 723–24, 106 S. Ct. 3181,
92 L. Ed. 2d 583 (1986) (relying on Congress’s “Decision of 1789” to

262a
federal power over Indian tribes to regulate state
proceedings would be “contemporaneous and weighty
evidence” that the Constitution permits ICWA’s
encroachment on state child-custody proceedings.
Bowsher v. Synar, 478 U.S. 478 U.S. 714, 723–24, 106 S.
Ct. 3181, 92 L. Ed. 2d 583 (1986). “Conversely,” if no such
evidence exists, “we would have reason to believe that
the power was thought not to exist.” Printz, 521 U.S. at
905, 117 S. Ct. 2365. Amici Indian law experts, as well as
the Navajo Nation intervenors, have amassed
considerable evidence illuminating early use of the
Indian affairs power, which we have carefully
considered. See Br. for Prof. Gregory Ablavsky as
Amicus Curiae at 5–20 (“Ablavsky Br.”); Br. for Indian
Law Scholars as Amici Curiae at 3–8 (“Indian Law
Scholars Br.”); Br. for Intervenor Navajo Nation at 11–
12 & nn.5–6 (“Navajo Nation Br.”). We cannot agree,
however, that this evidence supports ICWA’s modernday intrusion into state child-custody proceedings.
Ample founding-era evidence shows that Congress’s
Indian affairs power was intended to be both broad in
subject matter and exclusive of state authority. The
framing generation understood Congress’s power to
reject congressional role in officer removal); Marsh v. Chambers,
463 U.S. 783, 790, 103 S. Ct. 3330, 77 L. Ed. 2d 1019 (1983) (placing
particular weight on “[a]n act ‘passed by the First Congress
assembled under the Constitution, many of whose members had
taken part in framing that instrument’” (quoting Wisconsin v.
Pelican Ins. Co., 127 U.S. 265, 297, 8 S. Ct. 1370, 32 L. Ed. 239
(1888))); McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316, 401, 4 L.
Ed. 579 (1819) (reasoning “[t]he power [to incorporate the Bank of
the United States] was exercised by the first congress elected under
the present constitution”).

263a
include, for example, “making war and peace, purchasing
certain tracts of [Indians’] lands, fixing the boundaries
between [Indians] and our people, and preventing the
latter settling on lands left in possession of the former.”
33 JOURNALS OF THE CONTINENTAL CONGRESS, 17741789, 458 (Roscoe R. Hill ed., 1936).48 Additionally, it was
understood that Congress’s power would displace the
prior authority of states under the Articles of
Confederation to deal directly with tribes. Defending
this centralization, James Madison wrote that
Congress’s power to regulate commerce with Indian
tribes was “very properly unfettered” from “obscure
and contradictory” limitations in the Articles that
extended national power only to Indians “not members”
of States and made it subservient to state legislation.
THE FEDERALIST No. 42, at 219 (James Madison)
(George W. Carey & James McClellan eds., 2001).49
Confirming this view was Anti-Federalist Abraham
Yates, Jr., who concluded, to his chagrin, that the new
Constitution would “totally surrender into the hands of
48

See also JOSEPH STORY, COMMENTARIES ON THE CONSTITUTION
§ 533, at 381 (Rotunda & Nowak ed. 1987)
(“STORY”) (describing federal Indian power as the “right of
exclusive regulation of trade and intercourse with [Indians], and the
... authority to protect and guarantee their territorial possessions,
immunities, and jurisdiction”).
OF THE UNITED STATES

49

See also ST. GEORGE TUCKER, VIEW OF THE CONSTITUTION OF
UNITED STATES 196 (Liberty Fund 1999) (1803) (discussing
Articles’ “obscure” and “contradictory” limitations on national
power over Indians) (citing THE FEDERALIST No. 42); STORY § 533,
at 380 (observing Articles attempted to “accomplish impossibilities
[respecting power over Indians]; to reconcile a partial sovereignty
in the Union, with complete sovereignty in the states”).
THE

264a
Congress the management and regulation of the Indian
affairs.” Abraham Yates, Jr. (Sydney), To the Citizens of
the State of New-York (June 13-14, 1788), reprinted in 20
THE DOCUMENTARY HISTORY OF THE RATIFICATION OF
THE CONSTITUTION 1153, 1156–58 (John P. Kaminski et
al. eds., 2004). This view was later echoed by the
Washington administration: “[T]he United States have,
under the constitution, the sole regulation of Indian
affairs, in all matters whatsoever.” Letter from Henry
Knox to Israel Chapin (Apr. 28, 1792), reprinted in 1
AMERICAN STATE PAPERS: INDIAN AFFAIRS 231–32
(Lowrie & Clarke eds., 1832).
Especially relevant is the first Congress’s
enactment of the Trade and Intercourse Act, see Act of
July 22, 1790, 1 Cong. Ch. 33, 1 Stat. 137, which, with its
statutory successors, was the primary federal statute
governing Indian affairs until the 1830s. See Ablavsky,
Indian Commerce, at 1023. The Act prohibited “any
trade or intercourse with the Indian tribes” without a
federal license; prohibited the sale of land by Indians or
Indian tribes unless executed by federal treaty; and
extended federal criminal jurisdiction to crimes
committed by non-Indians against Indians. Congress
later amended the Act to require federal approval to
cross into Indian country and to authorize the United
States military to arrest violators of the Act. See Act of
May 19, 1796, 4 Cong. Ch. 30, § 3, 1 Stat. 469, 470; id. §§ 5,
16.
None of this evidence speaks to the question before
us, which is whether Congress may use its Indian affairs
power to regulate a state’s own child-custody
proceedings. As already observed, the fact that

265a
Congress’s power goes beyond regulating tribal trade
begs the question whether it allows Congress to
regulate state governments. Also beside the point is the
fact that Congress’s power was intended to exclude
state authority over tribes. This prevented states from,
for instance, nullifying federal treaties securing Indian
lands.50 That evidence would be relevant if the issue
were whether ICWA could exclude state courts from
adoptions involving tribe members. See Fisher, 424 U.S.
at 390, 96 S. Ct. 943 (upholding exclusion of state
jurisdiction for adoptions among tribe members). But
ICWA presents the opposite scenario: it seeks to force
federal and tribal standards into state proceedings.
Amici point us to no founding-era evidence even
suggesting Congress thought its Indian affairs power
extended that far.51 The most pertinent example of
Indian legislation from the first Congress—the Trade
50

See, e.g., Worcester, 31 U.S. at 561 (explaining that “[t]he
Cherokee nation ... is a distinct community occupying its own
territory ... in which the laws of Georgia can have no force”); see also
Ablavsky, Indian Commerce, at 1045–50 (describing Georgia’s
ultimately unsuccessful efforts to assert its “territorial
sovereignty” against Cherokee treaty).
51

JUDGE DENNIS similarly relies on evidence of early state
resistance to federal Indian treaties, such as New York’s
undermining the Fort Stanwix Treaty with the Six Nations and
Georgia’s own conflicting treaties with Creek Indians. See DENNIS
OP. at 8 (citing COHEN’S § 1.02[3]; Robert N. Clinton, The Dormant
Indian Commerce Clause, 27 CONN. L. REV. 1055, 1147 (1995)). This
evidence has the same flaws as amici’s, however. It supports
Congress’s traditional power to bar states from subverting federal
Indian treaties. But it does not involve, and so says nothing about,
Congress’s power to impose Indian-specific standards on state
proceedings.

266a
and Intercourse Act—addresses various aspects of the
federal government’s relationship with Indians. It says
nothing about regulating a state’s own proceedings that
involve Indians.
Amici and the Navajo Nation also cite evidence that
early Congresses used their authority to protect Indian
children. But their evidence again fails to speak to the
issue before us. For example, amici point to evidence
that the federal government was “reluctantly” involved
in the “widespread trade in captured children, both
Indian and white,” such as by “paying federal monies as
ransom for children.” Ablavsky Br. at 19 (citing, inter
alia, Christina Snyder, Slavery in Indian Country: The
Changing Face of Captivity in Early America 173–74
(2010)). They also point to federal superintendence of
Indian children by “placing [them] within AngloAmerican communities” and founding a “federally-run
boarding school system.” Ablavsky Br. at 19, 20 (citing
25 U.S.C. §§ 271-304b; FREDERICK E. HOXIE, A FINAL
PROMISE: THE CAMPAIGN TO ASSIMILATE THE INDIANS,
1880-1920, 189–210 (1984)). And they cite various federal
policies vis-à-vis Indian children, such as funding
education, allotting lands to Indian orphans, and
establishing trust funds. See Indian Law Scholars Br. at
3–8.52 Finally, the Navajo Nation cites numerous federal
52

See, e.g., Treaty with the Oneida, etc., art. III, Nov. 11, 1794, 7
Stat. 47 (providing for education of tribe’s children); Treaty with the
Kaskaskia art. III, Aug. 13, 1803, 7 Stat. 78 (providing funding for a
Catholic priest “to instruct as many of their children as possible in
the rudiments of literature”); Treaty with the Choctaw art. XIV,
Sept. 27, 1830, 7 Stat. 333 (providing lands to unmarried children
and orphans); Treaty with the Shawnee art. VIII, May 10, 1854, 10
Stat. 1053 (establishing trust fund for orphans); Treaty with the

267a
treaties that make “repeated promises ... for the welfare
of tribal children.” Navajo Nation Br. at 11–12 & nn.5–
6.53 We assume only for argument’s sake that all this
evidence concerns founding-era practices relevant to
the original understanding of the Indian affairs power.
But see infra II(D) (explaining the federal boardingschool system dates from the late nineteenth century).
Even then, the evidence shows only that the federal
government has long shouldered responsibility for
protecting Indian children. None of it, however, speaks
to whether Congress may regulate state government
proceedings involving Indian children.54

Cherokee, art. XXV, July 19, 1866, 14 Stat. 799 (providing for
education of Cherokee orphan children in an “asylum” controlled by
Cherokee government).
53

See, e.g., Treaty with the Nez Percés art. V, June 11, 1855, 12 Stat.
957 (providing two schools supplied with books, furniture,
stationery, and teachers for free to the tribe’s children); Treaty with
the Seminoles art. III, May 9, 1832, 7 Stat. 368 (promising “a blanket
and a homespun frock” to each Seminole child); Treaty with the
Delawares, Supp. Art., Sept. 24, 1829, 7 Stat. 327 (requiring “thirtysix sections of the best land” be sold for “the support of schools for
the education of Delaware children”); Articles of Agreement with
the Creeks, Nov. 15, 1827, 7 Stat. 307 (providing $5,000 for
“education and support of Creek children at the school in
Kentucky”).
54

JUDGE DENNIS relies heavily on this kind of evidence to support
his argument that the “trust relationship” between the Federal
Government and Indian tribes justifies ICWA. DENNIS OP. at 16–
17, 20–21, 59; see, e.g., Cohen’s § 5.04[3][a] (“One of the basic
principles of Indian law is that the federal government has a trust
or special relationship with Indian tribes.”). As explained below, the
trust relationship fails to support the notion that Congress may

268a
D.
Relying on much of the same historical evidence we
have examined, JUDGE DENNIS mounts an elaborate
originalist defense of ICWA. See DENNIS OP. at 5–25,
52–66. We agree with JUDGE DENNIS that ICWA’s
validity hinges on Congress’s founding-era exercise of
its Indian affairs power. See id. at 5 (citing N.L.R.B. v.
Noel Canning, 573 U.S. 513, 524, 134 S. Ct. 2550, 189 L.
Ed. 2d 538 (2014); Heller, 554 U.S. at 605–10, 128 S. Ct.
2783). But we sharply disagree with his analysis. As
explained, no founding-era treaty, statute, or practice
features anything like ICWA’s foisting federal
standards on state governments. See supra II(C).
ICWA’s goal of managing tribal-state relations may
harken back to the late eighteenth century, but its
methods were first born in the late 1970s. The leading
Indian law treatise puts it accurately: “While
reaffirming basic principles of tribal authority over
tribal members, ICWA also inserts federal and tribal
law into family matters long within the domain of the
states.” COHEN’S § 11.01[1]. By enacting rules for state
officials and for state proceedings, ICWA outstrips the
historical record and so cannot be supported by any
original understanding of the Indian affairs power.
We offer these additional responses to JUDGE
DENNIS.
First, JUDGE DENNIS invokes the exclusivity of
Congress’s Indian power to support ICWA. Because the
power “is exclusive to the federal government,” it
impose federal standards on state child-custody proceedings. See
infra II(D).

269a
“totally displaced the states from having any role in
[Indian] affairs.” DENNIS OP. at 58, 53; see id. at 53
(comparing Indian affairs power to “field preemption”);
see also COSTA OP. at 13–14 (relying on “exclusive” and
“undivided” nature of federal Indian power). JUDGE
DENNIS contends that ICWA deploys this exclusive
authority against states. “Just as the Constitution was
meant to preclude the states from undertaking their own
wars or making their own treaties with the Indian
tribes,” he argues, “so too does it empower the federal
government to ensure states do not spoil relations with
the Indian tribes” by placing Indian children with nonIndian families. Id. at 58 (citation omitted). We disagree.
The exclusivity of Congress’s Indian power does not
help justify ICWA. Quite the contrary. ICWA does the
opposite of “excluding” states from Indian adoptions: it
leaves many adoptions under state jurisdiction, see 25
U.S.C. § 1911(b), while imposing “Federal standards” on
those state proceedings. Id. § 1902. If ICWA were akin
to the founding-era practice of reserving war-making
and treaty powers to the United States, then ICWA
would “totally displace[ ] the states from having any
role” in Indian adoptions. DENNIS OP. at 53.55 As
55

The same follows from JUDGE DENNIS’S examples of “[s]tate
officials ... [who] acknowledged the federal government’s plenary
authority over Indian affairs under the new constitution.” DENNIS
OP. at 13. Those examples involved war- and treaty-making
authority that the state officials conceded was entrusted to the
federal government under the new Constitution. For instance, in a
December 1789 letter, South Carolina Governor Charles Pinckney
implored President Washington to conclude a treaty with “hostile
Indian tribes” leagued with the Spanish. See DENNIS OP. at 13
(quoting Letter from Charles Pinckney to George Washington (Dec.

270a
discussed, that is what Congress did in Fisher when it
excluded tribal adoptions from state jurisdiction. See
supra II(B)(1) (discussing Fisher, 424 U.S. 382, 96 S. Ct.
943, 47 L. Ed. 2d 106). ICWA is not that. It does not bar
state jurisdiction but co-opts it, thereby imposing
federal yardsticks on state officials and state
proceedings. The exclusivity of federal Indian power
argues for invalidating ICWA, not upholding it.56
Second, JUDGE DENNIS invokes the federal
government’s “trust relationship” with Indian tribes to
support ICWA. DENNIS OP. at 59. This “unique”
relationship creates federal obligations “to preserve
tribal self-governance, promote tribal welfare, and ...
manag[e] tribal assets.” Id. at 16–17 (citing MATTHEW
L.M. FLETCHER, PRINCIPLES OF FEDERAL INDIAN LAW
§ 5.2 (1st ed. 2017) [hereinafter FLETCHER]); see also
14, 1789), 4 PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL
SERIES 401, 404 (Dorothy Twohig ed., 1993)). The “similar
acknowledgments” by the Georgia and Virginia legislatures, id.
(citing Ablavsky, Indian Commerce, at 1043), also involved treaties
and war: Georgia’s request that the federal government negotiate a
peace treaty with the Creek, and Virginia’s inquiry about the
propriety of supplying tribes with ammunition. See Ablavsky,
Indian Commerce, at 1043.
56

We do not imply that Congress may never delegate to states
authority over Indian matters. See, e.g., Bryant, 136 S. Ct. at 1960
(observing that, “[i]n 1953, Congress ... g[ave] six States [criminal]
‘jurisdiction over specified areas of Indian country within the States
and provid[ed] for the [voluntary] assumption of jurisdiction by
other States’”) (first three brackets added; internal quotation marks
omitted). But no one defends ICWA on that basis, presumably
because ICWA does the opposite: it imposes federal and tribal
standards on proceedings within state jurisdiction. See 25 U.S.C.
§§ 1901(5), 1903(1), 1911(b).

271a
COHEN’S § 5.04[3][a]. In this relationship, JUDGE
DENNIS finds “a specific obligation to protect the tribes
from the states,” which he claims ICWA furthers.
DENNIS OP. at 59. Principally, he evokes the federal
government’s
late-nineteenth-century
policy
of
“Christianizing” Indian children in boarding schools, id.
at 22–25, 59–60, arguing that ICWA remedies similarly
“abusive Indian child custody practices continued at the
state level.” Id. at 59. ICWA thus fulfills the federal
government’s trust obligation by “protect[ing] the tribes
from the states.” Id. at 61. Again, we disagree.
Even assuming there is a federal duty to (as JUDGE
DENNIS phrases it) “protect the tribes from the states,”
it would not authorize ICWA’s imposition on state
proceedings. No founding-era example shows the United
States fulfilling its trust obligations that way. History
tells a different story. The trust doctrine arose out of
early treaties, statutes—principally, the Trade and
Intercourse Act and its successors, supra II(C)—and
the Supreme Court decisions in Johnson v. M’Intosh, 21
U.S. (8 Wheat.) 543, 5 L. Ed. 681 (1823), Cherokee
Nation, and Worcester. See COHEN’S § 5.04[3][a];
FLETCHER § 5.2; WILLIAM C. CANBY, JR., AMERICAN
INDIAN LAW IN A NUTSHELL 16–17 (7th ed. 2020)
[hereinafter CANBY].57 Those sources do show the
57

The key passages undergirding the trust doctrine are from Chief
Justice Marshall’s Cherokee Nation opinion:
[I]t may well be doubted whether those tribes which
reside within the acknowledged boundaries of the United
States can, with strict accuracy, be denominated foreign
nations. They may, more correctly, perhaps, be
denominated domestic dependent nations. They occupy a

272a
federal government sometimes acted to restrain states
on behalf of tribes, but only in the sense of preventing
states from unauthorized trading, encroaching on tribal
land, or subverting treaties.58 Never did the United
States purport to “protect tribes” by enacting federal
territory to which we assert a title independent of their
will, which must take effect in point of possession when
their right of possession ceases. Meanwhile they are in a
state of pupilage. Their relation to the United States
resembles that of a ward to his guardian.
They look to our government for protection; rely upon its
kindness and its power; appeal to it for relief to their
wants; and address the president as their great father.
They and their country are considered by foreign nations,
as well as by ourselves, as being so completely under the
sovereignty and dominion of the United States, that any
attempt to acquire their lands, or to form a political
connexion with them, would be considered by all as an
invasion of our territory, and an act of hostility.
30 U.S. (5 Pet.) at 17–18; see also COHEN’S § 5.04[3][a] (explaining
Marshall’s Cherokee Nation opinion “provided the basis for
analogizing the government-to-government relationship between
tribes and the federal government as a trust relationship”).
58

See COHEN’S § 5.04[3][a] (explaining Trade and Intercourse Acts
“imposed a statutory restraint on alienation on all tribal land for the
purpose of ensuring federal rather than state or individual control
over acquisition of Indian land”); CANBY at 17 (under the same Acts,
“[n]on-Indians were prohibited from acquiring Indian lands by
purchase or treaty ..., or from settling on those lands or entering
them for hunting or grazing”); see also Worcester, 31 U.S. at 557 (the
Acts “manifestly consider the several Indian nations as distinct
political communities, having territorial boundaries, within which
their authority is exclusive, and having a right to all the lands within
those boundaries, which is not only acknowledged, but guarantied
[sic] by the United States”).

273a
standards for state proceedings. See also supra II(C)
(discussing absence of such evidence from founding-era
sources). The same is true for early federal laws
regarding crimes against Indians. See, e.g., CANBY at 17
(noting “[d]epredations by non-Indians against Indians
were made a federal crime”). These laws provided
federal compensation for victims, id., and later for
prosecution under federal jurisdiction.59 While such laws
excluded state jurisdiction, they did not pretend to enact
standards for state courts or officials. Indeed, in
upholding a later federal law punishing on-reservation
Indian crimes, the Supreme Court stressed that the law
“does not interfere with the process of the state courts
within the reservation, nor with the operation of state
laws.” Kagama, 118 U.S. at 383, 6 S. Ct. 1109.60

59

See, e.g., Mary Christina Wood, Indian Land and the Promise of
Native Sovereignty: The Trust Doctrine Revisited, 1994 Utah L.
Rev. 1471, 1497 n.122 (discussing so-called “bad men” clauses in, for
example, the Treaty with the Northern Cheyenne and Northern
Arapahoe art I, May 10, 1868, 15 Stat. 655).
60

JUDGE DENNIS emphasizes Kagama’s statement that Indian
tribes “owe no allegiance to the states, and receive from them no
protection,” and that “[b]ecause of the local ill feeling, the people of
the states where they are found are often their deadliest enemies.”
DENNIS OP. at 67 (quoting Kagama, 118 U.S. at 384, 6 S. Ct. 1109).
That colorful dicta has no bearing on the issue before us. As
discussed, Kagama decided only that the United States could
punish as a federal crime the murder of an Indian by an Indian on a
reservation, even though situated within a state. See 118 U.S. at
377–78, 6 S. Ct. 1109; see also id. at 383, 6 S. Ct. 1109 (noting the law
was “confined to the acts of an Indian of some tribe, of a criminal
character, committed within the limits of the reservation”); see also
supra II(B)(2) (discussing Kagama).

274a
That brings us to JUDGE DENNIS’s main historical
example—the era of federal “assimilation” of Indian
children in boarding schools. DENNIS OP. at 22–25, 59. As
we grasp his argument, JUDGE DENNIS contends that,
because the federal government once engaged in this
widespread removal and re-education of Indian children,
it must also have power to prevent states from engaging
in similar “abusive Indian child custody practices.” Id. at
59.61 We reject this argument.
To begin with, JUDGE DENNIS’s key evidence dates
from the late nineteenth century, not the founding era.
See, e.g., COHEN’S § 1.04 (“In 1879, Indian education
began to shift to federal boarding schools so that Indian
students could be removed completely from family and
tribal life.”).62 It therefore provides less insight into
Congress’s Indian power as conceived by the founding
generation. See Printz, 521 U.S. at 905, 117 S. Ct. 2365
(explaining
that
“contemporaneous
legislative
exposition of the Constitution ..., acquiesced in for a long
term of years, fixes the construction to be given its
provisions” (citing Myers, 272 U.S. at 175, 47 S. Ct. 21)
61

The Federal Defendants similarly defend ICWA on the grounds
that “Congress plainly has authority to address the massive
removal of children from tribal communities.”
62

See also COHEN’S § 1.04 (during this period “[t]he full brunt of
reeducation was directed toward Indian children, who were shipped
away from the reservation or brought together at reservation
schools”); Ablavsky Br. at 20 (discussing the “federally-run
boarding school system, which took Indian children, often without
their parents’ consent, as part of its efforts to civilize them”) (citing
25 U.S.C. §§ 271–304b; FREDERICK E. HOXIE, A FINAL PROMISE:
THE CAMPAIGN TO ASSIMILATE THE INDIANS, 1880–1920, 189–210
(1984)).

275a
(emphasis added));63 cf. Heller, 554 U.S. at 614, 128 S. Ct.
2783 (observing that “discussions [that] took place 75
years after the ratification of the Second Amendment ...
do not provide as much insight into its original meaning
as earlier sources”).
But even if this evidence concerned founding-era
practice, it would not prove what JUDGE DENNIS claims.
As we have said again and again, none of the history
shows the United States using its Indian power to
legislate for state governments. The boarding-school era
makes the same point from a different angle. It shows
the federal government adopting a policy towards
Indian children—one roundly condemned today—and
then changing its own policy in a more enlightened
direction. See COHEN’S § 1.05 (recounting “[a] marked
change in attitude toward Indian policy [that] began in
the mid-1920s ... away from assimilation policies and
toward more tolerance and respect for traditional
aspects of Indian culture”). It is a mystery how an era of
misguided federal policy proves Congress can dictate
rules for states. None of this is to say there have been no
abuses in how states have handled Indian adoptions. It
is only to say that, in seeking a remedy, Congress cannot
turn state governments into federal adoption agencies.

63

See also Marsh, 463 U.S. at 790, 103 S. Ct. 3330 (observing that
“[a]n act passed by the first Congress assembled under the
Constitution, many of whose members had taken part in framing
that instrument, ... is contemporaneous and weighty evidence of its
true meaning” (citation omitted) (cleaned up)); McCulloch, 17 U.S.
at 401 (relying on fact that the contested power “was exercised by
the first congress elected under the present constitution”).

276a
The Tenth Amendment and the Constitution’s structure
forbid it.
One final point. According to JUDGE COSTA’s
separate opinion, there is nothing “novel” about ICWA’s
“interfer[ing] with state domestic relations proceedings”
because “the federal government has been a constant,
often deleterious presence in the life of the Indian family
from the beginning.” COSTA OP. at 15. But relying on the
same evidence as JUDGE DENNIS, including the
boarding-school era, see id. at 12–17, JUDGE COSTA also
fails to identify a single example of Congress’s deploying
its Indian power to regulate a state’s administrative or
judicial machinery.64 Thus, his denial that ICWA is a
“novel” use of that power is baffling. Id. at 15. That view
64

JUDGE COSTA does dial the volume up to eleven, however. “[T]he
most tragic irony” of our opinion, he claims, is that after two
centuries of federal power “often used to destroy tribal life,” we
would “reject[ ] that power when it is being used to sustain tribal
life.” Id. at 12. “It would be news to Native Americans,” he
continues, that the same federal power used to wage war against
them, steal their lands, displace them, and “‘civiliz[e]’” their children
“does not [also] reach the Indian family.” Id. Where to begin? First,
nothing prevents the federal government from mending its ways
and using its power “to sustain tribal life.” It has tried to do that for
nearly a century. See COHEN’S § 1.05 (era of “Indian
Reorganization,” beginning in 1928, “shift[ed] ... toward more
tolerance and respect for traditional aspects of Indian culture”). The
issue before us, however, is whether the federal government’s
benevolence may include conscripting state governments as
adoption agencies. If the Indian affairs power is a blank check, as
JUDGES DENNIS and COSTA appear to think, the answer is yes.
Second, no one denies that federal power “reach[es] the Indian
family.” COSTA OP. at 12. The issue here is whether it also reaches
the state administrative and judicial proceedings that ICWA
purports to govern.

277a
would likely surprise the leading Indian law
commentator, Felix Cohen, who wrote that “ICWA ...
inserts federal and tribal law into family matters long
within the domain of the states.” COHEN’S § 11.01[1]. It
would also surprise then-Assistant Attorney General
Patricia Wald, who testified to Congress about ICWA
(and who would later serve as Chief Judge of the D.C.
Circuit). Flagging the “serious constitutional question”
raised by ICWA, Wald warned “that the federal interest
in the off-reservation context is so attenuated that the
10th Amendment and general principles of federalism
preclude[ ] the wholesale invasion of state power
contemplated by [ICWA].” H.R. REP. No. 95-1386, at 39–
40 (1978), as reprinted in 1978 U.S.C.C.A.N. 7530, 7562–
63. Of course, Wald’s views—or Felix Cohen’s, for that
matter—do not settle ICWA’s constitutionality. But at
least those commentators recognized, unlike JUDGE
COSTA, that ICWA’s intrusion on state power was
unprecedented.
***
We sum up this part. Neither judicial nor
congressional precedent supports ICWA’s trespass on
state child-custody proceedings. While offering evidence
that Congress has deployed its Indian affairs power
broadly, exclusive of state authority, and in aid of Indian
children, neither Defendants nor their amici nor JUDGE
DENNIS offer founding-era examples of Congress’s using
this power to intrude on state governmental functions as
ICWA does. “Legislative novelty is not necessarily fatal;
there is a first time for everything. But sometimes the
most telling indication of a severe constitutional problem
is the lack of historical precedent for Congress’s action.”

278a
NFIB, 567 U.S. at 549, 132 S. Ct. 2566 (Roberts, C.J.)
(cleaned up) (quoting Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 505, 130 S. Ct.
3138, 177 L. Ed. 2d 706 (2010)). The founding generation
launched the Constitution in an atmosphere of intense
suspicion about federal encroachment on state
sovereignty. See Centinel Letter I (Oct. 5, 1787) (warning
power of the proposed government would “necessarily
absorb the state legislatures and judicatories” and
“melt[ ] [the United States] down into one empire”),
reprinted in THE ESSENTIAL ANTIFEDERALIST 102
(W.B. Allen & Gordon Lloyd eds., 2002). If Congress had
deployed its Indian affairs power to govern state
governments, some evidence would remain. Finding
none, we have “reason to believe that the power was
thought not to exist.” Printz, 521 U.S. at 905, 117 S. Ct.
2365.
The Constitution gives Congress sweeping powers
over Indians. But the power Congress claims in ICWA
finds no support in any Supreme Court decision or
founding-era practice. To permit Congress to regulate
state child-custody proceedings, whenever they involve
Indian children, is incompatible with “our federal
system, [in which] the National Government possesses
only limited powers [and] the States and the people
retain the remainder.” Bond, 572 U.S. at 854, 134 S. Ct.
2077. To the extent ICWA governs child-custody
proceedings under state jurisdiction, it exceeds
Congress’s power.
III. Challenges to Specific ICWA Provisions
Alternatively, we address Plaintiffs’ claims that
parts of ICWA violate the Fifth Amendment (III(A));

279a
the commandeering doctrine (III(B)); the nondelegation
doctrine (III(C)); and the APA (III(D)). We then
consider the appropriate remedy (III(E)).
A. Fifth Amendment Equal Protection
We first address whether ICWA violates the equal
protection component of the Fifth Amendment. See
Adarand Constructors, Inc. v. Pena, 515 U.S. 200, 215–
27, 235, 115 S. Ct. 2097, 132 L. Ed. 2d 158 (1995); Bolling
v. Sharpe, 347 U.S. 497, 499, 74 S. Ct. 693, 98 L. Ed. 884
(1954). “Fifth Amendment equal protection claims
against federal actors are analyzed under the same
standards as Fourteenth Amendment equal protection
claims against state actors.” Butts v. Martin, 877 F.3d
571, 590 (5th Cir. 2017) (citing Weinberger v. Wiesenfeld,
420 U.S. 636, 638 n.2, 95 S. Ct. 1225, 43 L. Ed. 2d 514
(1975)). Laws that classify citizens by race or ancestry
trigger “the ‘most rigid scrutiny.’” Fisher v. Univ. of
Tex., 570 U.S. 297, 309–10, 133 S. Ct. 2411, 186 L. Ed. 2d
474 (2013) (citing, inter alia, Rice v. Cayetano, 528 U.S.
495, 517, 120 S. Ct. 1044, 145 L. Ed. 2d 1007 (2000);
Bolling, 347 U.S. at 499, 74 S. Ct. 693; quoting Loving v.
Virginia, 388 U.S. 1, 11, 87 S. Ct. 1817, 18 L. Ed. 2d 1010
(1967)). Laws that do not classify in those ways,
however, must still be “rationally related to a legitimate
governmental purpose.” Clark v. Jeter, 486 U.S. 456, 461,
108 S. Ct. 1910, 100 L. Ed. 2d 465 (1988) (citing San
Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 17, 93
S. Ct. 1278, 36 L. Ed. 2d 16 (1973)).
Plaintiffs claim ICWA violates equal protection: (1)
by treating “Indian children” differently from nonIndian children; and (2) by preferring “Indian families”
over non-Indian families. Both classifications, they

280a
argue, are racial and fail strict scrutiny. Alternatively,
Plaintiffs say neither classification rationally links
children with their tribes. Relying heavily on Mancari,
Defendants counter that ICWA adopts “political”
classifications subject to rational basis review. They say
ICWA turns on a child’s actual or potential tribal
affiliation, not race, and so rationally furthers
“Congress’s ‘unique obligation toward the Indians.’”
They also defend ICWA’s preference for Indian over
non-Indian families because “many tribes have deep
historic and cultural connections with other tribes, and
... many Indian children may be eligible for membership
in more than one tribe.”
Siding with Plaintiffs, the district court concluded
ICWA classifies by race and fails strict scrutiny. The
court stressed that ICWA covers children “simply
eligible for [tribal] membership who have a biological
Indian parent.”65 Brackeen, 338 F. Supp. 3d at 533.
Surveying membership criteria, the court reasoned that
ICWA applies if a child is “related to a tribal ancestor by
blood.” Id. The court also found that ICWA fails strict
scrutiny because it is not narrowly tailored to
maintaining tribal ties. ICWA applies to “eligible”
children who may “never be members of their ancestral
tribe.” Id. at 533, 536 ICWA also “priorit[izes] a child’s
placement with any Indian,” regardless of tribe, thus
“impermissibly ... treat[ing] ‘all Indian tribes as an
undifferentiated mass.’” Id. at 535 (cleaned up) (quoting

65

See § 1903(4) (defining Indian child as an unmarried minor who is
either a tribal member or “eligible for membership in an Indian
tribe and ... the biological child of a member of an Indian tribe”).

281a
United States v. Bryant, 136 S. Ct. 1954, 1968, 195 L. Ed.
2d 317 (2016) (Thomas, J., concurring)).
1.

Even assuming ICWA classifies by tribe,
not race, it still must rationally link
children to tribes.

The parties dispute whether ICWA classifies by
race or tribe. Under Supreme Court precedent, which
we examine below, that is a close question. Whatever the
answer, though, the cases teach that the classifications
still must rationally further ICWA’s goal of linking
children with tribes. Because we resolve the equal
protection challenges on that basis (infra III(A)(2)–(3)),
we need not decide whether ICWA classifies by race.
Here we provide necessary context for our analysis by
surveying the Court’s Indian-classification cases from
Mancari (1974) to Adoptive Couple (2013).
The seminal case is Mancari, which upheld a federal
preference for hiring “Indians” at the Bureau of Indian
Affairs (“BIA”). 417 U.S. at 551–55, 94 S. Ct. 2474.
“Indian” meant a tribe member with “one-fourth or
more degree Indian blood.” Id. at 553 n.24, 94 S. Ct. 2474.
The Court found this a “political rather than racial”
preference because it excluded many “racial[ ]” Indians
and was granted to Indians only “as members of quasisovereign tribal entities.” Id. at 553 n.24, 554, 94 S. Ct.
2474. Separately, the Court required the preference to
be “reasonable and rationally designed to further Indian
self-government.” Id. at 555, 94 S. Ct. 2474.66
66

As the Court explained, the preference: (1) was “an employment
criterion reasonably designed to further the cause of Indian selfgovernment,” Mancari, 417 U.S. at 554, 94 S. Ct. 2474; (2) insured

282a
Importantly, the preference “d[id] not cover any other
Government agency or activity,” and so did not raise
“the obviously more difficult question that would be
presented by a blanket exemption for Indians from all
civil service examinations.” Id. at 554, 94 S. Ct. 2474.67
From 1974 to 1979, the Court applied Mancari to
turn back similar equal protection challenges. It upheld
laws: (1) granting a tribe sole jurisdiction over on“participation by the governed in the governing agency,” id.; (3) was
akin to requiring officials to reside in the jurisdictions they govern,
id.; (4) applied only to the BIA, whose “legal status [w]as truly sui
generis” because it “governed ... [tribal entities] in a unique
fashion,” id.
67

Given our discussion of Mancari, we are puzzled by JUDGE
COSTA’S insistence that we harbor “the notion that the Constitution
prohibits the federal government from granting preferences to
tribe members.” COSTA OP. at 18. JUDGE COSTA quotes nothing
from our opinion to prove that claim. To the contrary, we recognize
that Mancari permits certain federal preferences for tribe
members. See 417 U.S. at 538, 541, 94 S. Ct. 2474 (upholding BIA
hiring preference for Indians and noting “[t]he federal policy of
according some hiring preference to Indians in the Indian service
dates at least as far back as 1834”) (citations omitted). But the issue
here—one Mancari itself recognized—is the permissible extent of
those preferences. See id. at 554, 94 S. Ct. 2474 (observing that “the
BIA is truly sui generis,” that “the preference does not cover any
other Government agency or activity,” and consequently that “we
need not consider the obviously more difficult question that would
be presented by a blanket exemption for Indians from all civil
service examinations”). JUDGE COSTA pivots from this baseless
claim to accuse us of “activis[m],” COSTA OP. at 20, and to propose a
debate—one far afield from the issues in this case—over whether
“[o]riginalism usually goes AWOL when the issue is whether the
government may grant preferences to historically disadvantaged
groups,” id. at 18. We decline the invitation.

283a
reservation adoptions;68 (2) barring states from taxing
on-reservation sales;69 (3) disbursing treaty funds based
on tribe membership;70 (4) creating a criminal code for
Indian lands;71 (5) authorizing states to exercise
jurisdiction over in-state Indian lands;72 and (6) securing
fishing rights to certain tribes.73 These cases emphasized
two things about permissible Indian classifications.
First, they turn on tribal status, not race. Second, they
reasonably further tribal interests—for instance, in selfgovernment, economic development, and protecting
Indian lands.74
68

Fisher, 424 U.S. at 384 n.5, 387, 389–91, 96 S. Ct. 943.

69

Moe v. Confederated Salish & Kootenai Tribes of the Flathead
Reservation, 425 U.S. 463, 475–80, 96 S. Ct. 1634, 48 L. Ed. 2d 96
(1976).
70

Weeks, 430 U.S. at 79–85, 97 S. Ct. 911.

71

Antelope, 430 U.S. at 646–47 & n.7, 97 S. Ct. 1395.

72

Yakima Nation, 439 U.S. at 471–76, 484, 99 S. Ct. 740.

73

Fishing Vessel, 443 U.S. at 684, 99 S. Ct. 3055–85f.

74

See, e.g., Fisher, 424 U.S. at 387–91, 96 S. Ct. 943 (noting the law
classified not by race but by the tribe’s “quasi-sovereign status,”
and “further[ed] ... Indian self-government” by excluding state
jurisdiction); Moe, 425 U.S. at 475–80, 96 S. Ct. 1634 (“special [tax]
treatment” turned on treaty and furthered “Congress’ unique
obligation toward the Indians” (quoting Mancari, 417 U.S. at 555,
94 S. Ct. 2474) (cleaned up)); Weeks, 430 U.S. at 79–85, 97 S. Ct. 911
(distribution turned on whether recipients were descendants of
Delawares who maintained tribal membership); Antelope, 430 U.S.
at 646 & n.7, 97 S. Ct. 1395 (criminal code applied based on whether
defendants were “enrolled [tribe] members” and acted “within ...
Indian country” (citing Mancari, 417 U.S. at 553 n.24, 94 S. Ct.
2474)); Yakima Nation, 439 U.S. at 471–76, 500–02, 99 S. Ct. 740
(state jurisdiction turned only on “tribal status and land tenure,”

284a
Moving ahead several years, two decisions have
clarified how equal protection applies to Indian
classifications. Those are Rice and Adoptive Couple.75
Rice asked whether the Hawaii Constitution could
allow only “Hawaiians” to elect trustees of a state
“Hawaiian Affairs” agency. 528 U.S. at 499, 120 S. Ct.

and was “fairly calculated” to balance non-Indian rights with “tribal
self-government”); Fishing Vessel, 443 U.S. at 673 & n.20, 99 S. Ct.
3055 (fishing rights turned on tribal status, not race).
75

Plaintiffs argue that a more radical limit on Mancari arises from
the Supreme Court’s 1995 decision in Adarand. That decision
addressed a federal program that paid highway contractors to hire
subcontractors controlled by “socially and economically
disadvantaged individuals.” 515 U.S. at 204, 115 S. Ct. 2097. The
program presumed social disadvantage if individuals were “black,
Hispanic, Asian Pacific, Subcontinent Asian, [or] Native
Americans.” Id. at 207, 115 S. Ct. 2097 (citation omitted) (emphasis
added). Without discussing Mancari, the Court treated these as
“race-based presumptions,” id. at 208, 115 S. Ct. 2097, subject to
strict scrutiny. Although Adarand did not specifically address the
Native American category, more than one federal judge has
cautioned that Adarand may undercut Mancari. See id. at 244–45 &
n.3, 115 S. Ct. 2097 (Stevens, J., dissenting) (warning the majority’s
reasoning “would view the special preferences that the National
Government has provided to Native Americans since 1834 as
comparable to” race discrimination (citing Mancari, 417 U.S. at 541,
551–52, 553–54 & n.24, 94 S. Ct. 2474)); Williams v. Babbitt, 115 F.3d
657, 665 (9th Cir. 1997) (“If Justice Stevens is right about the logical
implications of Adarand, Mancari’s days are numbered.”); but see
Am. Fed’n of Gov’t Emps., AFL-CIO v. United States, 330 F.3d 513,
520–23 (D.C. Cir. 2003) (rejecting argument that Adarand impacts
scrutiny for appropriations preference “promoting the economic
development of federally recognized Indian tribes”). Because we do
not decide whether ICWA’s classifications are race-based, however,
we need not address whether Adarand undercuts Mancari.

285a
1044. The Court held that the classification violated the
Fifteenth Amendment. Id. The definition of
“Hawaiian”—”any descendant of the aboriginal peoples”
inhabiting the islands since 1778—was “a proxy for race”
because it traced a person’s genetic relationship to
aboriginal “races.” Id. at 514–16, 120 S. Ct. 1044.
Relevant here, Rice held the voting restriction was not
justified by Mancari. Id. at 518–22, 120 S. Ct. 1044.
Even assuming native Hawaiians were like Indian
tribes, the Court refused to “extend the limited
exception of Mancari to [this] new and larger
dimension.” Id. at 518, 520, 120 S. Ct. 1044. Mancari’s
hiring preference was “rationally designed to further
Indian self-government” in a “sui generis” context. Id.
at 520, 120 S. Ct. 1044 (quoting Mancari, 417 U.S. at 554,
555, 94 S. Ct. 2474). But the decision could not support
limiting voting for state offices to “a class of tribal
Indians.” Id. This was because Mancari concerned only
“the internal affair of a quasi sovereign” (a tribe), while
the election in Rice concerned the entire “State of
Hawaii.” Id. “To extend Mancari to this context,” the
Court held, “would be to permit a State, by racial
classification, to fence out whole classes of its citizens
from decisionmaking in critical state affairs.” Id. at 522,
120 S. Ct. 1044. Thus, in deciding Rice, the Court
clarified that Mancari’s “limited” hiring preference for
Indians could not support preferring Indians in “critical
state affairs” like an election. Id. at 520, 522, 120 S. Ct.
1044.76

76

See, e.g., Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th Cir.
2004) (explaining Rice stands for the proposition that “Congress

286a
The second key decision is Adoptive Couple, which
interpreted ICWA in a dispute between an Indian child’s
adoptive parents and her biological father. 570 U.S. at
643–46, 133 S. Ct. 2552. The Court held that certain
ICWA provisions—its termination standard (§ 1912(f)),
active-efforts requirement (§ 1912(d)), and placement
preferences (§ 1915(a))—do not apply where the child’s
biological father never had custody because he had
abandoned the child. Id. at 648, 651–56, 133 S. Ct. 2552.77
Relevant here, the Court warned that certain
applications of ICWA may deny a child equal protection.
Specifically, the Court warned against applying
ICWA to “put certain vulnerable children at a great
disadvantage solely because an ancestor—even a remote
one—was an Indian.” Id. at 655, 133 S. Ct. 2552. It
observed that “a biological Indian father could abandon
his child in utero and refuse any support for the birth
mother ... and could then play his ICWA trump card at
the eleventh hour to override the mother’s decision and
the child’s best interests.” Id. at 656, 133 S. Ct. 2552. If
may not authorize special treatment for a class of tribal Indians in a
state election”).
77

The Court explained that the termination standard—requiring a
showing that the parent’s “continued custody” may seriously harm
the child, § 1912(f)—would not apply where a parent never had
custody. Adoptive Couple, 570 U.S. at 648, 133 S. Ct. 2552. Similarly,
the active-efforts requirement—requiring “active efforts” to
“prevent the breakup of the Indian family,” § 1912(d)—would not
apply where the parent had abandoned the child (there being no
Indian family to “break up”). Id. at 651–53, 133 S. Ct. 2552. Finally,
the placement preferences would not apply “if no alternative party
that is eligible to be preferred ... has come forward.” Id. at 654, 133
S. Ct. 2552.

287a
ICWA required that result, “many prospective adoptive
parents would surely pause before adopting any child
who might possibly qualify as an Indian under the
ICWA.” Id. “Such an interpretation,” the Court stated,
“would raise equal protection concerns.” Id.
In sum, in equal protection challenges the Supreme
Court has permitted Indian classifications based on
tribal status (not race), if they rationally further federal
obligations to tribes. This is logical, given the
Constitution itself includes the category of “Indian
Tribes.” See U.S. CONST. art. I, § 8, cl. 3 (vesting
Congress with power to “regulate Commerce ... with the
Indian Tribes”).78 At the same time, the Court has
warned that Indian classifications may raise equal
protection concerns when deployed outside the tribal
context. A classification may go beyond internal tribal
matters and interfere with state affairs (as in Rice), or it
may disadvantage a child with tenuous links to a tribe
(as in Adoptive Couple).
ICWA’s classifications exist in the twilight between
tribe and race. As Defendants point out, ICWA links its
“Indian child” definition to tribes: a child must be a tribe
member or at least “eligible” for membership and the
offspring of a member. See § 1903(4). As Plaintiffs
respond, however, whether a child is “eligible” for
78

See also, e.g., United States v. Zepeda, 792 F.3d 1103, 1117 (9th
Cir. 2015) (Kozinski, J., concurring in the judgment) (“The Supreme
Court has stressed time and time again that federal regulation of
Indian tribes does not equate to federal regulation of the Indian
race.” (citing Fisher, 424 U.S. at 390, 96 S. Ct. 943), Antelope, 430
U.S. at 646, 97 S. Ct. 1395, and Mancari, 417 U.S. at 553 n.24, 94 S.
Ct. 2474).

288a
membership often turns on a child’s quantum of Indian
blood. For instance, one child in this case, Y.L.M., is
eligible for membership in the Navajo Tribe because she
is one-half “Navajo Indian Blood.” As Plaintiffs
forcefully argue, the fact that ICWA may apply
depending on the degree of “Indian blood” in a child’s
veins comes queasily close to a racial classification.79
For present purposes, we need not decide whether
ICWA classifies by race or tribe. Regardless, the
Supreme Court still requires the law’s classifications be
“reasonable and rationally designed” to further federal
obligations toward tribes. Rice, 528 U.S. at 520, 120 S.
Ct. 1044 (quoting Mancari, 417 U.S. at 555, 94 S. Ct.
2474). As explained below, ICWA’s separate standards
for Indian children—standards which govern state
proceedings, apply to children with tenuous connections
to a tribe, and allow birth parents’ wishes to be
overridden—fail to rationally further tribal interests.
That is even more evident with respect to ICWA’s
preference for Indian over non-Indian families, which is
divorced from Congress’s goal of keeping children linked
to their tribe.80

79

See, e.g., Zepeda, 792 F.3d at 1117 (Kozinski, J., concurring in the
judgment) (making applicability of Indian Major Crimes Act turn,
even partially, on “proof of some quantum of Indian blood” creates
an “overt racial classification”); id. at 1119–20 (Ikuta, J., concurring
in the judgment) (use of “blood quantum test” in same law is
foreclosed by Rice’s “opposition to ‘ancestral tracing of this
sort’”(cleaned up) (quoting Rice, 528 U.S. at 510, 120 S. Ct. 1044)).
80

JUDGE DENNIS takes issue with our tailoring analysis on two
related grounds. First, he chides us for not “truly” arguing that
ICWA fails rational basis review but instead only arguing that

289a
2.

The “Indian child” classification fails to
rationally further ICWA’s goal of linking
children to tribes.

For three related reasons, ICWA’s disparate
standards for “Indian children” fail to rationally further
federal obligations toward Indian tribes.
First, ICWA creates separate standards for Indian
children that extend beyond internal tribal affairs and
intrude into state proceedings. Mancari long ago
cautioned that a “blanket exemption” for Indians in the
civil service system would raise “obviously ... difficult”
equal protection problems. 417 U.S. at 554, 94 S. Ct.
2474. Rice amplified this warning, holding an Indian
classification could not “extend” beyond a tribe’s
“internal affair[s]” into an “affair of the State,” like an
election. 528 U.S. at 520–22, 120 S. Ct. 1044. ICWA does
just what Mancari foretold and Rice forbade: it creates
disparate standards for Indian children in state
proceedings. By exporting a blanket Indian exception
into state proceedings, ICWA violates Rice and severs
any connection to internal tribal concerns.
Compare this intrusion on state jurisdiction with the
law upheld in Fisher. Supra II(B)(1). Fisher approved
exclusive tribal jurisdiction for adoptions where the
“ICWA uses impermissible means” to further Congress’s tribal
obligations. DENNIS OP. at 120. Second, he contends we “apply a far
more searching standard of scrutiny” than rational basis. Id. at 120–
21. The simple answer to both contentions is that we are faithfully
following the tailoring analysis for Indian classifications laid out by
Mancari, Rice, and Adoptive Couple. JUDGE DENNIS’S analysis, by
contrast, proceeds as if those precedents had no bearing on this
question at all, which is incorrect. See infra III(A)(2)–(3).

290a
child, birth parents, and adoptive parents were “each
and all members of the [tribe] and ... reside[d] within the
exterior boundaries of the [reservation].” 424 U.S. at 384
n.6, 96 S. Ct. 943. That limited measure was “justified”
because it “further[ed] the congressional policy of Indian
self-government.” Id. at 391, 96 S. Ct. 943. By contrast,
ICWA dictates different standards for Indian children
within “the States[‘] ... recognized jurisdiction.”
§ 1901(5). By imposing “Indian child” standards on state
proceedings, ICWA severs the link to tribal selfgovernment or any other tribal interest identified by the
Supreme Court.
In disagreeing with this analysis, Defendants and
JUDGE DENNIS misread Rice. First, they claim Rice
merely reaffirmed Mancari and nothing more. DENNIS
OP. at 117. Not so: Rice specified that Mancari’s
“limited” and “sui generis” Indian classification could
not apply outside the tribal context to a state-wide
election. 528 U.S. at 520–22, 120 S. Ct. 1044. Thus, JUDGE
DENNIS is wrong to argue that “the degree to which
[ICWA] intrudes on state proceedings has no bearing on
whether [ICWA] is rationally linked to protecting
Indian tribes.” DENNIS OP. at 120. To the contrary, Rice
said this is a critical factor: an Indian classification
cannot be transplanted from the “internal affair[s]” of
tribes into external matters concerning all state citizens.
508 U.S. at 520; see, e.g., Kahawaiolaa v. Norton, 386
F.3d 1271, 1279 (9th Cir. 2004) (explaining that, after
Rice, “Congress may not authorize special treatment for
a class of tribal Indians in a state election”). Next,
Defendants and JUDGE DENNIS say Rice, unlike this
case, concerned the Fifteenth Amendment. DENNIS OP.

291a
at 121. That is true but misses the point. Rice said an
Indian class could not be used “in critical state affairs.”
528 U.S. at 522, 120 S. Ct. 1044. Child-custody
proceedings are no less critical to states than was the
agency election in Rice. See, e.g., Palmore v. Sidoti, 466
U.S. 429, 433, 104 S. Ct. 1879, 80 L. Ed. 2d 421 (1984)
(“The State ... has a duty of the highest order to protect
the interests of minor children, particularly those of
tender years.”). Finally, Defendants argue that, unlike
in Rice, ICWA does not “bar any person ... from
participating in child-custody proceedings” (emphasis
added). That is beside the point. Rice did not turn on
whether people’s rights were “barred” or only limited.
Its point was that a tribal classification—which could
limit participation in a tribe’s “internal affair[s]”—
cannot do so in “affair of the [s]tate,” like the state
election in Rice or the state custody proceedings here.
Id. at 520, 120 S. Ct. 1044.81
Second, ICWA covers children only “eligible” for
tribal membership. Enacting ICWA, Congress declared
“there is no resource that is more vital to the continued
81

JUDGE DENNIS goes so far as to say that state child-custody
proceedings involving Indian children are somehow no longer
purely state affairs. Relying on Congress’s finding that Indian
children are tribes’ “vital” “resource[s],” 25 U.S.C. § 1901(3), he
claims: “[E]ven when ICWA reaches into state court adoption
proceedings, those proceedings are simultaneously affairs of states,
tribes, and Congress.” DENNIS OP. at 122. No authority supports
that remarkable claim. ICWA’s own findings recognize that “the
States” have “their recognized jurisdiction over Indian child
custody proceedings through administrative and judicial bodies,” 25
U.S.C. § 1901(5), and its provisions maintain the distinction between
state and tribal jurisdiction, id. § 1911(a), (b).

292a
existence and integrity of Indian tribes than their
children.” § 1901(3) (emphasis added). But ICWA applies
not only to child tribe members, but also to a child only
“eligible for membership in an Indian tribe and ... the
biological child of a member of an Indian tribe.” § 1903(4)
(emphasis added). As Defendants tell us, “[m]embership
in an Indian tribe is generally not conferred
automatically upon birth,” but requires “affirmative
steps” by parents or guardians. See 81 Fed. Reg. at
38,783 (explaining “Tribal membership ... is voluntary
and typically requires an affirmative act by the enrollee
or her parent”). This means ICWA applies to a child who
is not, and may never become, a tribe member.
Federal Defendants respond that, because a child’s
“formal enrollment” in a tribe depends on parents or
guardians, eligibility is a “proxy” for the child’s “not-yetformalized tribal affiliation.” This is just a complicated
way of saying that a child only eligible for membership
may never become a member, and may have no other
tangible connection to a tribe. The cases before us
illustrate the point better than any abstract discussion
could.
Take A.L.M., whom the Brackeens eventually
adopted, with his birth parents’ approval, over
objections by the Navajo Nation. A.L.M.’s only tie to the
Navajo is that his mother is a member (his father is
Cherokee). But neither A.L.M. nor his birth parents
have ever lived on the Navajo reservation during
A.L.M.’s life, except for the “day he was born and the
next day.” The Navajo never tried to participate in
A.L.M.’s adoption proceedings. And the only reason
A.L.M. is considered Navajo (and not Cherokee) is that

293a
“representatives of the Cherokee and Navajo Nations ...
reached an agreement in the hallway outside the hearing
room that A.L.M. would become a member of the Navajo
Nation because only the Navajo had identified a
potential foster placement.” Or take Child P., whom the
Cliffords are trying to adopt over objections by the
White Earth Band of Ojibwe Indians. Child P. is linked
to the White Earth Band through her maternal
grandmother, R.B. Before Child P. was placed with the
Cliffords, the tribe wrote the state court that Child P.
was ineligible for membership. After placement,
however, the tribe changed its position and declared
Child P. eligible. This triggered ICWA’s placement
preferences: Child P. was taken from the Cliffords and
placed with R.B., whose foster license had been
previously revoked by the state.
As these cases illustrate, ICWA permits a child’s
inchoate tribal membership to override her placement in
state proceedings.82 ICWA thereby “put[s] certain
82

JUDGE DENNIS waves away this (and the next) tailoring flaw in
ICWA because he claims they only make the law “under- and overinclusive.” DENNIS OP. at 122–23. We disagree. First, JUDGE
DENNIS again disregards what Mancari, Rice, and Adoptive Couple
teach about tailoring: overbroad Indian classifications divorced
from tribal interests create equal protection problems. See
Mancari, 417 U.S. at 554, 94 S. Ct. 2474; Rice, 528 U.S. at 520–22,
120 S. Ct. 1044; Adoptive Couple, 570 U.S. at 655, 133 S. Ct. 2552.
Second, the “eligibility” criterion does not merely make ICWA
“over-inclusive.” Eligibility—one of only two ways to trigger
ICWA—makes the law cover children (like the ones here) with no
actual connection to a tribe. Third, as discussed below, allowing
ICWA to override birth parents’ wishes to place their children with
non-Indians does not mean ICWA only has “imperfect means-ends
fit[ ].” Dennis Op. at 123 (citation omitted). Instead, it makes

294a
vulnerable children at a great disadvantage solely
because an ancestor—even a remote one—was an
Indian.” Adoptive Couple, 570 U.S. at 655, 133 S. Ct.
2552. This squarely raises the “equal protection
concerns” forecast by the Supreme Court in Adoptive
Couple.83
Third, ICWA overrides the wishes of biological
parents who support their child’s adoption outside the
tribe. When enacting ICWA, Congress proclaimed that
too many Indian families were being “broken up” when
non-tribal agencies engaged in the “often unwarranted”
“removal” of children and placed them with “non-Indian”
families. § 1901(4). But ICWA applies even when an
Indian child’s parents do not oppose adoption outside the
tribe. In other words, ICWA applies in circumstances
entirely unlike those that gave rise to the law—
situations where no Indian family is being “broken up”
by state authorities and where parents themselves

nonsense of ICWA’s key goal of preventing the break-up of Indian
families. See 25 U.S.C. § 1901(4). Finally, JUDGE DENNIS discounts
ICWA’s first tailoring flaw—namely, its intrusion into state
proceedings in defiance of Mancari and Rice. Taken together, these
three flaws show ICWA fails to rationally further its goals.
83

Few provisions in Title 25 define “Indian” to include persons
“eligible” for tribal membership. See, e.g., 25 U.S.C. § 2511(3)
(defining “Indian” this way for purposes of tribal school grants).
None of these provisions, however, has any impact on state
proceedings as ICWA does. Cf., e.g., § 2502(a)(1) (authorizing
federal grants to tribes that operate certain schools). Consequently,
none is affected by our holding that ICWA’s inclusion of “eligible”
members is one factor that severs its connection to tribal interests.

295a
acquiesce in children’s being placed in “non-Indian foster
[or] adoptive homes.” Id.
Again, the cases before us illustrate the point. Take
Baby O., the child of Altagracia Hernandez (a nonIndian) and E.R.G. (descended from members of the
Ysleta del sur Pueblo Tribe). Both parents supported
Baby O.’s adoption by the non-Indian Librettis—indeed,
Hernandez is a plaintiff in this case alongside the
Librettis. Yet the Pueblo, asserting E.R.G. was a
member, intervened and proposed numerous Indianfamily placements under ICWA. Or again take A.L.M.,
whose Navajo mother and Cherokee father both
testified they support A.L.M.’s adoption by the nonIndian Brackeens. Nonetheless, the Navajo sought to
block the Brackeens’ adoption of A.L.M. in favor of
placing the child with unrelated tribe members, and is
now doing the same with the Brackeens’ attempt to
adopt A.L.M.’s half-sister, Y.R.J. See In re Y.J., 2019
WL 6904728, at *3–5.
As Plaintiffs point out, allowing ICWA to override
birth parents’ wishes in this way again raises the “equal
protection concerns” foreshadowed by Adoptive Couple.
In that case, the Court warned ICWA was open to equal
protection challenge if it allowed a tribe member “to
override the mother’s decision and the child’s best
interests” and thus “put certain vulnerable children at a
great disadvantage solely because an ancestor—even a
remote one—was an Indian.” 570 U.S. at 655–56, 133 S.
Ct. 2552. What the Court foretold there is what has
happened here to A.L.M, Y.R.J., and Baby O.: their
parents’ wishes were potentially or actually overridden
by a non-custodial tribe member’s invocation of ICWA.

296a
Applying ICWA in this way does nothing to further
Congress’s original aim of preventing Indian families’
being “broken up” by the “unwarranted removal” of
their children and placement with non-Indian families.
§ 1901(4).
In sum, we conclude that ICWA’s “Indian child”
classification violates the equal protection component of
the Fifth Amendment.84
3.

The “Indian family” classification fails to
rationally further ICWA’s goal of linking
children to tribes.

We next consider Plaintiffs’ claim that ICWA
impermissibly discriminates against non-Indian
families. While Plaintiffs challenge ICWA’s placement
preferences as a whole on this basis, the logical focus of
the claim is on the adoptive preference for “other Indian
families” in § 1915(a), as well as the preference for a
licensed “Indian foster home” in § 1915(b). See
§§ 1915(a)(3), 1915(b)(iii). In these provisions, ICWA’s
preference for “Indian” over “non-Indian” families is
most evident. Plaintiffs argue this privileging of Indian
over non-Indian families is a racial classification that
fails strict scrutiny. As with the Indian child
classification, however, we assume arguendo that
“Indian family” is a tribal, not a racial, category. We do
so because we agree with Plaintiffs’ alternative
argument that the preference fails to rationally further
84

As the district court found, this conclusion directly impacts the
placement preferences in § 1915(a) and (b), the collateral attack
provisions in §§ 1913 and 1914, and the Final Rule provisions in 25
C.F.R. §§ 23.129–132.

297a
Congress’s goal of keeping Indian children linked to
their own tribe. As Plaintiffs correctly point out,
“placing a tribal child with a different Indian tribe does
not even conceivably advance the continued existence
and integrity of the child’s tribe.”
ICWA’s overriding purpose was to safeguard the
continued “existence and integrity of Indian tribes” by
protecting “their children” from unwarranted removal.
§ 1901(3). Congress invoked the United States’ interest
“in protecting Indian children who are members or
eligible for membership in an Indian tribe.” Id. Congress
also faulted states for “often fail[ing] to recognize the
essential tribal relations of Indian people.” § 1901(5).
Many of ICWA’s provisions seek to further this tribefocused goal. For instance, a tribe has exclusive
jurisdiction of adoptions involving an Indian child
domiciled “within the reservation of such tribe.”
§ 1911(a) (emphasis added). Right to intervene is given
to “the Indian child’s tribe.” § 1911(c). And some of
ICWA’s placement preferences are tribe-based—
obviously the preference for “other members of the
Indian child’s tribe” (§ 1915(a)(2)), but also the
preference for “a member of the child’s extended family”
(§ 1915(a)(1), 1915(b)(i)), who is presumably of the same
tribe.
ICWA, however, also has provisions broadly
preferring “Indian families” over non-Indian families. A
non-Indian family seeking to adopt or foster an Indian
child, absent “good cause to the contrary,” will fail if
“other Indian families” or “Indian foster home[s]” are
available. §§ 1915(a)(3), 1915(b)(iii). Nothing requires
these Indian families or homes to be of a child’s tribe. See

298a
§ 1903(3) (relevantly defining “Indian” as “any person
who is a member of an Indian tribe”). In fact, they are
virtually assured not to be: otherwise, they would
qualify as “other members of the Indian child’s tribe.”
§ 1915(a)(2).
We agree with Plaintiffs that a naked preference for
Indian over non-Indian families does nothing to further
ICWA’s stated aim of ensuring that Indian children are
linked to their tribe. This conclusion follows a fortiori
from our conclusion that ICWA’s Indian child category
is insufficiently linked to federal tribal interests. The
Indian child category encompassed children who were
not, and may never be, members of a tribe. Even more,
ICWA’s preference for “Indian families” lacks any
connection to a child’s tribe: as explained, the Indian
families preferred over non-Indian families are, by
definition, not members of the child’s tribe. Thus, the
preference has no rational link to maintaining a child’s
links with his tribe. Similarly, the Indian child category
ran afoul of Mancari, Fisher, and Rice by creating a
blanket exception for Indian children in state childcustody proceedings. The Indian family category does
the same: by definition, Indian families have a
statutorily-conferred advantage over non-Indian
families with respect to state adoptions and foster
placements. Even assuming the Indian family category
is tribal and not racial, ICWA extends the category far
beyond Mancari and Fisher, and infiltrates the kind of
“critical state affairs” that Rice forbade. See Rice, 528
U.S. at 522, 120 S. Ct. 1044.
In response, Federal Defendants argue that this
“Indian family” preference is not merely a “preference

299a
for ‘generic “Indianness.”’” They assert it instead
“reflects the reality that many tribes have deep historic
and cultural connections with other tribes, and that
many Indian children may be eligible for membership in
more than one tribe.” We are unpersuaded. Even
accepting that some tribes are interrelated, ICWA’s
Indian family preference is not limited in that way.
Rather, the preference privileges Indian families of any
tribe, regardless of their connection to the child’s tribe,
over all non-Indian families. ICWA’s classification
therefore does not rationally further linking children to
their tribes.
In sum, we conclude ICWA’s preferring Indian over
non-Indian families violates the equal protection
component of the Fifth Amendment.
B. Commandeering and Preemption
The district court concluded numerous provisions of
ICWA “commandeer” state agencies and courts in
violation of Article I and the Tenth Amendment.85 See
Brackeen, 338 F. Supp. 3d at 538–41. The court also ruled
that the preemption doctrine does not save these
provisions because they “directly command states.” Id.
at 541. On appeal, Defendants argue ICWA does not
commandeer states because it evenhandedly regulates
an activity in which both states and private parties
engage. They also claim the challenged provisions

85

Specifically, the court found invalid §§ 1901–23 and 1951–52, which
“include the congressional findings and declaration of policy,
definitions, child custody proceedings, record keeping, information
availability, and timetables.”

300a
merely create federal rights enforceable in state courts
under the Supremacy Clause.
The anti-commandeering doctrine recognizes the
“fundamental
structural”
principal
that
“the
Constitution ... withhold[s] from Congress the power to
issue orders directly to the States.” Murphy, 138 S. Ct.
at 1475; see generally Printz, 521 U.S. 898, 117 S. Ct.
2365, 138 L. Ed. 2d 914; New York, 505 U.S. 144, 112 S.
Ct. 2408, 120 L. Ed. 2d 120; FERC v. Mississippi, 456
U.S. 742, 102 S. Ct. 2126, 72 L. Ed. 2d 532 (1982); Hodel
v. Va. Surface Mining & Reclamation Ass’n., Inc., 452
U.S. 264, 101 S. Ct. 2352, 69 L. Ed. 2d 1 (1981). To be
sure, Congress may encourage states to regulate as it
wishes. For instance, Congress may “attach conditions
on the receipt of federal funds” under the Spending
Clause. New York, 505 U.S. at 167, 112 S. Ct. 2408
(quoting South Dakota v. Dole, 483 U.S. 203, 206, 107 S.
Ct. 2793, 97 L. Ed. 2d 171 (1987)). Or it may offer states
the option of regulating “private activity ... according to
federal standards or having state law pre-empted by
federal regulation.” Id. (citing Hodel, 452 U.S. at 288, 101
S. Ct. 2352). What Congress cannot do, however, is issue
“a simple command to state governments to implement
legislation enacted by Congress.” Id. at 176, 112 S. Ct.
2408. Nor may it “compel the States to enact or
administer a federal regulatory program.” Id. at 188, 112
S. Ct. 2408. This anti-commandeering doctrine reflects a
basic principle: “[t]he Constitution confers on Congress
not plenary legislative power but only certain
enumerated powers,” and “conspicuously absent” from
those is “the power to issue direct orders to the
governments of the States.” Murphy, 138 S. Ct. at 1476.

301a
The Supreme Court has deployed this doctrine to
declare unconstitutional federal legislation commanding
state legislatures, officers, and agencies. For instance,
Congress could not make state legislatures “take title”
to radioactive waste, nor make state executive agencies
“regulat[e] [waste] according to the instructions of
Congress.” New York, 550 U.S. at 175–76, 127 S. Ct.
1610; see also Murphy, 138 S. Ct. at 1476 (the law in New
York “issued orders to either the legislative or executive
branch of state government”). Congress also could not
compel state or local officers to conduct background
checks under a federal firearms law. Printz, 521 U.S. at
903–04, 933, 117 S. Ct. 2365. Such a requirement—even
if it involved only “discrete, ministerial tasks,” id. at 929,
117 S. Ct. 2365—would amount to “the forced
participation of the States’ executive in the actual
administration of a federal program.” Id. at 918, 117 S.
Ct. 2365. Finally, Congress could not prohibit states
from “author[izing]” sports gambling because that
would “unequivocally dictate[ ] what a state legislature
may and may not do.” Murphy, 138 S. Ct. at 1470, 1478.
Different dynamics come into play when asking—as
the district court did here—whether federal law
commandeers state courts. This is due to the Supremacy
Clause, which binds “the Judges in every State” to
follow validly enacted federal law. U.S. CONST. art. VI,
cl. 2; see Kansas v. Garcia, 140 S. Ct. 791, 801, 206 L. Ed.
2d 146 (2020) (Supremacy Clause “provides ‘a rule of
decision’ for determining whether federal or state law
applies in a particular situation” (quoting Armstrong v.
Exceptional Child Ctr., Inc., 575 U.S. 320, 324, 135 S. Ct.
1378, 191 L. Ed. 2d 471 (2015))). Thus, Congress may, “in

302a
a sense, direct state judges” by enacting federal law
state courts must apply. New York, 505 U.S. at 178–79,
112 S. Ct. 2408.86 Similarly, state judges must apply
federal law that validly preempts applicable state law.
Murphy, 138 S. Ct. at 1479. So, if federal law is
enforceable in state courts or preempts state law, no
“commandeering” arises from the fact that state courts
must apply the federal enactment—rather, this is what
the Supremacy Clause demands. New York, 505 U.S. at
179, 112 S. Ct. 2408; see also Printz, 521 U.S. at 907, 117
S. Ct. 2365 (state courts “have been viewed distinctively
in this regard” because “unlike legislatures and
executives, they applied the law of other sovereigns all
the time”). The Supremacy Clause, however, assumes
the same limit on Congress’s power that the anticommandeering doctrine does—that Congress may
regulate only individuals, not state governments.87 In
that regard, then, the operation of the Supremacy
Clause overlaps with anti-commandeering.
Finally, we should not lose sight of why anticommandeering is critical. First, the doctrine protects

86

See also id. at 179, 112 S. Ct. 2408 (explaining “this sort of federal
‘direction’ of state judges is mandated by the text of the Supremacy
Clause”); Printz, 521 U.S. at 907, 117 S. Ct. 2365 (suggesting “the
Constitution was originally understood to permit imposition of an
obligation on state judges to enforce federal prescriptions”).
87

See New York, 505 U.S. at 178, 112 S. Ct. 2408 (federal laws
enforceable in state courts “involve congressional regulation of
individuals, not congressional requirements that States regulate”);
Murphy, 138 S. Ct. at 1481 (explaining “every form of preemption is
based on a federal law that regulates the conduct of private actors,
not the States”).

303a
the division of power between federal and state
governments, which “secures to citizens the liberties
that derive from the diffusion of sovereign power” and
“reduce[s] the risk of tyranny and abuse from either
front.” New York, 505 U.S. at 181–82, 112 S. Ct. 2408
(citations omitted). Second, the doctrine “promotes
political accountability” by letting voters know “who to
credit or blame” for good or bad policies. Murphy, 138 S.
Ct. at 1477.88 Third, the doctrine “prevents Congress
from shifting the costs of regulation to the States.”
Murphy, 138 S. Ct. at 1477.89
With that background in mind, we proceed to our
analysis.
We
first
address
Plaintiffs’
anticommandeering challenges (infra III(B)(1)). We next
address whether the preemption doctrine saves any of
the challenged provisions (infra III(B)(2)). As the
Supreme Court has done in this area, we analyze the
challenged provisions separately.90 ICWA touches many
88

See also New York, 505 U.S. at 169, 112 S. Ct. 2408 (“[W]here the
Federal Government directs the States to regulate, it may be state
officials who will bear the brunt of public disapproval, while the
federal officials who devised the regulatory program may remain
insulated from the electoral ramifications of their decision.”).
89

See also Printz, 521 U.S. at 930, 117 S. Ct. 2365 (“By forcing state
governments to absorb the financial burden of implementing a
federal regulatory program, Members of Congress can take credit
for ‘solving’ problems without having to ask their constituents to
pay for the solutions with higher federal taxes.”).
90

See, e.g., Murphy, 138 S. Ct. at 1470 (analyzing only the component
of the Professional and Amateur Sports Protection Act, 28 U.S.C.
§ 3702(1), that prohibits states from “authoriz[ing] by law” sports
betting); Printz, 521 U.S. at 902–03, 117 S. Ct. 2365 (analyzing only
those Brady Act sections, 18 U.S.C. § 922(s)(2), 922(s)(6)(C),

304a
aspects of state child-custody proceedings. It would not
be implausible to find constitutionally problematic
provisions alongside permissible ones.91
1.

Commandeering

As discussed, the anti-commandeering doctrine
typically asks whether federal law conscripts state
agencies or officials. This part therefore focuses on
Plaintiffs’ claims that ICWA compels action by state
child welfare agencies. Where Plaintiffs instead
challenge provisions compelling state courts, we
consider those claims under preemption analysis, infra.
a.

ICWA’s active-efforts, expert-witness,
placement-preference, placement-record,
and notice provisions commandeer state
agencies.

No Defendant denies that ICWA requires action by
state child welfare agencies. This is unsurprising. What
prompted ICWA, after all, were concerns about Indian
families’ treatment by “State[ ] ... administrative and
judicial bodies.” § 1901(5) (emphasis added). ICWA
obviously covers matters—child-custody proceedings—
922(s)(6)(B), applicable to a “chief law enforcement officer”); New
York, 505 U.S. at 152–54, 174–77, 112 S. Ct. 2408 (analyzing
separately the “take title” provision of the Low-Level Radioactive
Waste Policy Amendments Act, 42 U.S.C. § 2021e(d)(2)(C)).
91

See, e.g., Murphy, 138 S. Ct. at 1481 (analyzing regulation of state
legislatures in PASPA § 3702(1) separately from the “closely
related provision” in § 3702(2) regulating “private conduct”); New
York, 505 U.S. at 173–75, 112 S. Ct. 2408 (two of the Act’s
“incentives” were valid under Spending Clause and preemption,
whereas “take-title” provision commandeered states).

305a
lying within the purview of state agencies.92 ICWA’s
regulations, moreover, describe actions that must be
taken
by
“State
agencies,”
“governmental
93
organizations,” and “State actors.” For instance,
ICWA’s placement preferences “create[ ] an obligation
on State agencies and courts to implement the policy
outlined in the statute.” 81 Fed. Reg. at 38,839 (emphasis
added). Thus, the idea that ICWA compels state
agencies seems incontestable. As the district court
concluded, Texas “indisputably demonstrated that the
ICWA requires [Texas’s] executive agencies to carry

92

See, e.g., TEX. HUM. RES. CODE § 40.002(b)(1), (2) (providing Texas
Department of Family and Protective Services “shall ... provide
protective services for children” as well as “family support and
family preservation services”); TEX. FAM. CODE § 262.001(a)
(authorizing “governmental entity with an interest in the child” to
take actions to protect child).
93

See, e.g., 81 Fed. Reg. at 38,779 (ICWA sought to remedy failures
by “State agencies and courts”); id. at 38,780 (noting “[s]everal
ICWA provisions do apply, either directly or indirectly, to State and
private agencies”); id. at 38,790 (“active efforts” require
“substantial and meaningful actions by agencies,” meaning
“agencies of government”); id. at 38,791 (agreeing “active efforts”
“require States to affirmatively provide Indian families with
substantive services”); id. at 38,792 (definition of “agency” includes
“governmental organizations”); id. at 38,814 (“active efforts”
requirement “ensure[s] that State actors ... provide necessary
services to parents of Indian children”). See also, e.g., Miss. Band of
Choctaw Indians v. Holyfield, 490 U.S. 30, 45 n.18, 109 S. Ct. 1597,
104 L. Ed. 2d 29 (1989) (observing ICWA sought to address “the
failure of State officials [and] agencies” to consider “the special
problems and circumstances of Indian families”) (internal quotation
omitted).

306a
out its provisions.” Brackeen, 338 F. Supp. 3d at 540. It
specifically found that the relevant agency, the DFPS,
must, among other things[:] serve notice of suit
on Indian tribes, verify a child’s tribal status,
make a diligent effort to find a suitable
placement according to the ICWA preferences
and show good cause if the preference are not
followed, ensure a child is enrolled in his tribe
before referring him for adoption, and keep a
written record of the placement decision.
Id. at 540 & n.18. Defendants dispute none of this.94
Turning to the specific challenges before us, we
conclude the following ICWA provisions commandeer
state agencies.
i. Active efforts (§ 1912(d)). We begin with the
“active efforts” requirement in § 1912(d). Any “party”
seeking to place an Indian child in foster care, or to
terminate parental rights, must “satisfy the court that
active efforts have been made to provide remedial
services ... designed to prevent the breakup of the Indian
family and that these efforts have proved unsuccessful.”
Id. State agencies are “parties” that seek placement or
termination with respect to Indian children.95
94

JUDGE DENNIS’S opinion does not squarely address whether
ICWA commands state agencies. We understand his view to be that
the point is immaterial because ICWA “evenhandedly regulates an
activity in which both States and private actors engage.” DENNIS
OP. at 89 (quoting Murphy, 138 S. Ct. at 1478). We disagree and
respond below.
95

See, e.g., N.M. v. Tex. Dep’t of Fam. & Prot. Servs., No. 03-1900240-CV, 2019 WL 4678420, at *1 (Tex. App. —Austin Sept. 26,

307a
Consequently, ICWA’s active-efforts requirement
demands extensive action by state and local agencies as
a condition to fulfilling their obligations to Indian
children.96 For example, in Doty-Jabbaar v. Dallas
County Child Protective Services, a state appellate court
concluded a county agency failed ICWA’s active-efforts
requirement before terminating a birth mother’s rights.
19 S.W.3d 870, 875–76 (Tex. App.—Dallas 2000, pet.
denied). Although the agency had given the mother a
seven-point plan including “drug treatment, parenting
classes, and psychological evaluations,” the court found
insufficient evidence that “these remedial services and
rehabilitation programs had proven unsuccessful.” Id. at
875.97

2019, no pet.) (ICWA case involving Texas DFPS’s efforts “to
terminate the parent-child relationship of N.M. and the children’s
father”); Tex. Fam. Code §§ 153.371(10), 101.0133 (as child’s
managing conservator, DFPS has “the right to designate the
[child’s] primary residence,” including foster placement); see also 81
Fed. Reg. at 38,792 (“any party” in § 1912 includes “governmental
organizations”).
96

See 25 C.F.R. § 23.2 (defining “active efforts” to mean
“affirmative, active, thorough, and timely efforts” to “maintain or
reunite an Indian child with his or her family”); see also, e.g., In re
D.E.D.I., 568 S.W.3d 261, 262–63 (Tex. App.—Eastland 2019, no
pet.) (trial court “specifically found” that DFPS “made active efforts
to provide remedial services and rehabilitation programs” under
ICWA).
97

Cf., e.g., In re J.L.C., 582 S.W.3d 421, 433–34 (Tex. App.—Amarillo
2018, pet. ref’d) (finding ICWA active-efforts burden satisfied
because “the [DFPS] had appropriately engaged [the parent] with
services but the Department’s efforts had failed”)

308a
ICWA’s regulations confirm that active-efforts
demands action by state agencies. Through the “‘active
efforts’ provision ... Congress intended to require States
to affirmatively provide Indian families with substantive
services.” 81 Fed. Reg. at 38,791. The “active-efforts
requirement,” they emphasize, “is one critical tool to
ensure that State actors ... provide necessary services to
parents of Indian children.” Id. at 38,814 (emphasis
added).98 The Final Rule even specifies the efforts
required by § 1912(d)—including eleven categories of
remedial services—”[w]here an agency is involved in the
child-custody proceeding.” 25 C.F.R. § 23.2.99
We therefore conclude that the active-efforts
requirement in § 1912(d) commandeers states in
violation of Article I and the Tenth Amendment. See
also Brackeen, 937 F.3d at 443 (OWEN, J., dissenting in
part) (concluding § 1912(d) “means that a State cannot
place an Indian child in foster care, regardless of the
exigencies of the circumstances, unless it first provides
the federally specified services and programs without
success”).

98

See also id. at 38,814 (active-efforts requirement sought to
remedy failures by “agencies of government”); id. at 38,790 (the
“active efforts requirement” is one of ICWA’s “primary tools” to
address failures by “agencies of government” and should therefore
be “interpreted in a way that requires substantial and meaningful
actions by agencies to reunite Indian children with their families”).
99

The term “agency” includes “governmental organizations.” 81
Fed. Reg. at 38,792; see also 80 Fed. Reg. 10,146, 10,151 (“[a]gency”
includes a “public agency and their employees, agents or officials
involved in and/or seeking to place a child in a child custody
proceeding”).

309a
ii. Expert witnesses (§ 1912(e), (f)). We reach the
same conclusion as to the “expert witness” requirements
in § 1912(e) and (f). These provisions prohibit placement
or termination absent “evidence, including testimony of
qualified expert witnesses, that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.” § 1912(e) (foster placement); § 1912(f)
(termination). ICWA thus “requires the testimony of
qualified expert witnesses for foster-care placement and
for adoptive placements.” 81 Fed. Reg. at 38,829 (citing
§ 1912(e), (f)); see also 25 C.F.R. § 23.122(a) (specifying
expert qualifications). As a result, state agencies must
present the testimony of expert witnesses, with specific
qualifications, when they seek to place an Indian child in
foster care or terminate parental rights. See also
Brackeen, 937 F.3d at 443–44 (OWEN, J., dissenting in
part) (concluding § 1912(e) “places the burden on a State,
not a court, to present expert witness testimony in order
to effectuate foster care for Indian children”).
For instance, a Texas appellate court recently found
that the DFPS failed to justify terminating parental
rights under ICWA because “the Department failed to
produce testimony of a ‘qualified expert witness’ as
required under the Act.” S.P. v. Tex. Dep’t of Fam. &
Prot. Servs., No. 03-17-00698-CV, 2018 WL 1220895, at
*3 (Tex. App.—Austin Mar. 9, 2018, no pet.). Although
DFPS offered testimony by the child’s caseworker that
termination was in the child’s best interest, the court
concluded the caseworker did not have “the requisite
expertise to satisfy the federal requirement.” Id. at *4.
For instance, the caseworker was not “recognized by the

310a
Muscogee tribe,” nor did she have “substantial
experience in the delivery of child and family services to
Indians or knowledge of [the tribe’s] prevailing social
and cultural standards and childrearing practices.” Id.100
The court therefore concluded the state agency failed to
meet the “qualified expert witness” requirement in
§ 1912(f) and reversed the termination of parental
rights. Id. at *4–5.101
We conclude that § 1912(e) and (f) require state
agencies and officials to bear the cost and burden of
adducing expert testimony to justify placement of
Indian children in foster care, or to terminate parental
rights. The expert-witness requirements in § 1912(e)
and (f) therefore commandeer states.
iii. Placement preferences (§ 1915(a)–(d)). We
also conclude that the placement preferences in
§ 1915(a)–(d) violate the anti-commandeering doctrine to
the extent they direct action by state agencies and
officials. These provisions require that, absent good
cause, “preference shall be given” to specific adoptive
and foster placements for an Indian child.102 Insofar as
100

See 80 Fed. Reg. at 10,157 (ICWA guidelines providing, inter
alia, that a qualified expert “should have specific knowledge of the
Indian tribe’s culture and customs”).
101

See also, e.g., In re K.S., 448 S.W.3d 521, 539, 544–45 (Tex. App.—
Tyler 2014, pet. denied) (affirming state agency’s termination of
parental rights under ICWA based on testimony of a “Cherokee
Nation representative” who “was qualified as an expert witness”
under § 1912(f)).
102

See § 1915(a) (requiring adoptive preference in favor of (1)
extended family, (2) other tribe members; or (3) other Indian
families); § 1915(b) (requiring different foster-care preferences);

311a
these preferences constrain state courts, we examine
below whether they are valid preemption provisions.
Quite apart from state courts, however, the preferences
appear to independently demand efforts by state
agencies and officials.
ICWA’s regulations support this reading. The
placement preferences, they state, “create[ ] an
obligation on State agencies and courts to implement the
policy outlined in the statute” and “require that State
agencies and courts make efforts to identify and assist
extended family and Tribal members with preferred
placements.” 81 Fed. Reg. at 38,839 (emphases added).
These “State efforts to identify and assist preferred
placements are critical to the success of the statutory
placement preferences.” Id. at 38,839–40 (emphasis
added) (collecting decisions). Further confirming this
view, ICWA’s guidelines, see 80 Fed. Reg. 10,146,
specify duties that “[t]he agency seeking a preadoptive,
adoptive or foster care placement of an Indian child must
always follow.” 80 Fed. Reg. at 10,157 (emphases
added). For example, to justify deviating from the
preferences, the agency must prove that “a diligent
search has been conducted to seek out and identify
placement options”—including detailed notices to the
parents or custodian, “known, or reasonably
identifiable” extended family, the child’s tribe, and—for
foster or preadoptive placements—ICWA-specified
institutions. Id. And, as discussed, ICWA guidelines
specify that the “agency” that must undertake these
§ 1915(c) (tribes may re-order preferences); § 1915(d) (preference
decisions must accord with “prevailing social and cultural
standards” of pertinent Indian community).

312a
efforts includes a “public agency and their employees,
agents or officials.” Id. at 10,151.103
State decisions confirm that ICWA’s placement
preferences may result in demanding extensive actions
by state child welfare agencies. For example, in Native
Village of Tununak v. State, the Alaska Supreme Court
addressed the duties of the Alaska Office of Child
Services (“OCS”) to implement the placement
preferences. 334 P.3d 165, 177–78 (Alaska 2014). To
safeguard ICWA’s preferences, courts “must
searchingly inquire about ... OCS’s efforts to comply
with achieving[ ] suitable § 1915(a) placement
preferences” and, in turn, OCS must “identify[ ] early in
a [child welfare proceeding] all potential preferred
adoptive placements.” Id. at 178.104

103

Surprisingly, Tribal Defendants contend the preferences apply
“exclusively to state courts” and “are not mandates requiring that
state executive branch employees enforce federal law.” ICWA’s
regulations show the opposite is true.
104

See also, e.g., Alexandra K. v. Dep’t of Child Safety, No. 1 CA-JV
19-0081, 2019 WL 5258095, at *1 (Ariz. Ct. App. Oct. 17, 2019)
(observing “[t]he [Arizona Department of Child Safety] case
manager testified DCS had not located any ICWA-compliant
placement and that the Navajo Nation had not suggested any”);
People in Interest of M.D., 920 N.W.2d 496, 503 (S.D. 2018) (noting
“[South Dakota Department of Social Services] workers also
testified during the dispositional hearing to their familiarity with
ICWA placement preferences, [and] their efforts to find a suitable
placement for all the children”); id. at 504 (concluding that “because
DSS explored the availability of a suitable placement for child with
a diligent search, but was unsuccessful, there was good cause for
departure from the placement preferences”) (quoting David S. v.

313a
In sum, to the extent the placement preferences in
§ 1915(a)–(d) require implementation efforts by state
agencies and officials, that violates the anticommandeering doctrine.
iv. Placement record (§ 1915(e); 25 C.F.R.
§ 23.141). We also conclude that the related placementrecord requirements in § 1915(e) commandeer states
(along with its implementing regulation in 25 C.F.R. §
23.141). This provision requires “the State” to “maintain[
] ... [a] record” of any Indian child placements under
state law. § 1915(e). The record must “evidenc[e] the
efforts to comply with the order of preference specified
in [§ 1915]” and “shall be made available at any time upon
the request of the Secretary or the Indian child’s tribe.”
Id. In turn, the Final Rule specifies: (1) the record’s
minimum contents, 25 C.F.R. § 23.141(b); (2) that “[a]
State agency or agencies may be designated to be the
repositories for this information,” id. § 23.141(c), and (3)
that “[t]he State court or agency should notify the
[Bureau of Indian Affairs] whether these records are
maintained within the court system or by a State
agency,” id.
As then-JUDGE OWEN reasoned in her panel dissent,
these requirements commandeer states because they
are “direct orders to the States.” 937 F.3d at 444, 446
(OWEN, J., dissenting in part). The statute and
regulation each command “the State” to create, compile,
and maintain the required record and furnish it upon
request to the child’s tribe or the Secretary. § 1915(e); 25
State, Dep’t of Health & Social Servs., 270 P.3d 767, 782 (Alaska
2012)) (cleaned up).

314a
C.F.R. § 23.141(a). Furthermore, the regulations explain
that § 1915(e) “work[s] in concert” with the placement
preferences to “require that State agencies and courts
make efforts to identify and assist extended family and
Tribal members with preferred placements.” 81 Fed.
Reg. at 38,839.105 Consequently, as JUDGE OWEN
correctly concluded, the placement-record requirements
offend “the very principle of separate state sovereignty”
because their “whole object ... [is] to direct the
functioning of the state executive” in service of a federal
regulatory program. 937 F.3d at 445 (OWEN, J.,
dissenting in part) (quoting Printz, 521 U.S. at 932, 117
S. Ct. 2365).
Tribal Defendants attempt to justify these
requirements as merely making states perform
administrative actions, such as “provid[ing] the federal
government with information.” See also Printz, 521 U.S.
at 918, 117 S. Ct. 2365 (declining to address
constitutionality of laws “requir[ing] only the provision
of information to the Federal Government” by state
officials).106 But the challenged provisions demand more
105

See also id. (explaining Congress intended “reading Sections
1915(a) and 1915(e) together” to “demand[ ] documentable ‘efforts
to comply’ with the ICWA placement preferences”).
106

JUDGE DENNIS also cites Printz, 521 U.S. at 905–06, 117 S. Ct.
2365, for the proposition that early federal laws required state
courts to record citizenship applications and transmit naturalization
records. DENNIS OP. at 86. But Printz did not decide whether those
laws set a constitutional precedent. See 521 U.S. at 918, 117 S. Ct.
2365. And, even assuming the recordkeeping obligations in § 1915(e)
may be fulfilled by state courts, those obligations go well beyond the
early examples in Printz. See also infra III(B)(2)(c) (discussing
similar obligations imposed on state courts by § 1951(a)).

315a
than “provid[ing] information.” The required record
must not only compile documents but also “evidenc[e]”
the state’s “efforts to comply” with ICWA’s placement
preferences. § 1915(e).107 The whole point is to help
implement the placement preferences, which, as
explained, demand action by state agencies. See also 81
Fed. Reg. at 38,839 (preferences “create[ ] an obligation
on State agencies and courts”). More than an obligation
to “provide information,” then, § 1915(e) demands states
document the “forced participation of the States’
executive in the actual administration of a federal
program.” Printz, 521 U.S. at 918, 117 S. Ct. 2365.108

107

See also 25 C.F.R. § 23.141(a), (b) (to justify departing from
preferences, record “must contain ... detailed documentation of the
efforts to comply with the placement preferences”); 81 Fed. Reg. at
38,839 (“Section 1915(e) requires that, for each placement, the State
must maintain records evidencing the efforts to comply with the
order of preference specified in section 1915.”).
108

JUDGE DENNIS sees no commandeering because the regulation
implementing § 1915(e) “permits states to designate either their
courts or agencies ... as the entities charged with complying with”
the requirement. DENNIS OP. at 87; see 25 C.F.R. § 23.141(c)
(allowing designation of “[a] State agency or agencies” as
“repository for this information”); id. (requiring “State court or
agency” to notify BIA whether records are kept “within the court
system or by a State agency”). We disagree. Whatever option the
state chooses, either its agencies or its courts are co-opted into
administering a federal program. JUDGE DENNIS’S premise seems
to be that requiring state courts to implement § 1915(e) would not
be commandeering. That is mistaken. As explained below, forcing
state courts to administer a federal recordkeeping regime violates
anti-commandeering just as much as forcing agencies to do it. See
infra III(B)(2)(c) (addressing recordkeeping requirement in
§ 1951(a)).

316a
v. Notice (§ 1912(a)). Finally, we find § 1912(a)
unconstitutional because it commandeers state agencies.
Under this section, any “party” seeking to place an
Indian child in foster care, or to terminate parental
rights, “shall notify the parent or Indian custodian and
the Indian child’s tribe, by registered mail with return
receipt requested, of the pending proceedings and of
their right of intervention.” Id.109 The regulations
describe this as “one of ICWA’s core procedural
requirements in involuntary child-custody proceedings.”
81 Fed. Reg. at 38,809. It applies to state agencies. See
id. at 38,792 (“any party” in § 1912(a) includes
“governmental organizations”).110 The provision thereby
imposes detailed111 obligations on state agencies, which
109

If the identity or location of the parent, custodian, or tribe cannot
be determined, “such notice shall be given to the Secretary in like
manner, who shall have fifteen days after receipt to provide the
requisite notice.” Id. The proceeding may not commence until ten
days after receipt of notice by the parent, custodian, tribe, or the
Secretary. Id.
110

See also, e.g., In re Morris, 491 Mich. 81, 815 N.W.2d 62, 72–76, 83
(2012) (discussing § 1912(a) notice requirement and conditionally
reversing order based on failure of court to ensure that state
Department of Human Services notified child’s tribe); In re Desiree
F., 83 Cal.App.4th 460, 99 Cal. Rptr. 2d 688, 696 (2000) (finding it
was “the duty of the Fresno County Department of Social Services
to notify the Tribe or the Secretary” and invalidating court orders
due to “the failure of the respective county welfare agencies and
juvenile courts to comply with the clear provisions of the ICWA”).
111

See, e.g., 25 C.F.R. § 23.111(a)(1), (c) (court must ensure “party
seeking placement” sends notice “by registered or certified mail
with return receipt requested”); id. § 23.111(d)(1)–(6) (14 different
statements that must appear in notice); id. § 23.111(e) (if parent,
custodian, or tribe not ascertainable, requiring notice to BIA,

317a
the Final Rule concedes will consume significant time
and money.112
As explained, the anti-commandeering doctrine
forbids Congress from imposing administrative duties
on state agencies and officials. See, e.g., New York, 550
U.S. at 176, 188, 127 S. Ct. 1610 (Congress cannot issue
“a simple command to state governments to implement
legislation enacted by Congress,” nor “compel the States
to enact or administer a federal regulatory program”).
Because that is what § 1912(a) does, it is
unconstitutional.
b. ICWA does not “evenhandedly regulate”
state and private activity.
Defendants’
principal
response
on
anticommandeering is to invoke the principle that the
doctrine “does not apply when Congress evenhandedly
regulates an activity in which both States and private
actors engage.” Murphy, 138 S. Ct. at 1478. For instance,
they point out that private parties, as well as state
agencies, may seek to be appointed as a child’s guardian
or conservator or to terminate parental rights. Similarly,
JUDGE DENNIS observes that some of the challenged
provisions (notice and active efforts) refer to “any party”
seeking placement or termination, and thus apply
“regardless of whether that party is a state agent or
including “as much information as is known regarding the child’s
direct lineal ancestors”).
112

81 Fed. Reg. at 38,863 (estimating at 81,900 the “[t]otal annual
burden hours” for “State court[s] and/or agenc[ies]” to provide
notices); id. at 38,864 (estimating at $260,442 the “annual cost
burden” of providing required notices).

318a
private individual.” See § 1912(a), (d); DENNIS OP. at 94.
In advancing this argument, both Tribal Defendants and
JUDGE DENNIS rely heavily on South Carolina v. Baker,
485 U.S. 505, 108 S. Ct. 1355, 99 L. Ed. 2d 592 (1988), and
Reno v. Condon, 528 U.S. 141, 120 S. Ct. 666, 145 L. Ed.
2d 587 (2000). DENNIS OP. at 92–93. They are right to do
so, because those decisions undergird the “evenhanded
regulation” principle. See Murphy, 138 S. Ct. at 1478–79
(discussing Baker and Condon). But examining those
decisions shows the principle does not apply to ICWA.
Baker involved a federal law denying a tax
exemption to interest earned on state and local bonds
issued in unregistered (“bearer”) form. 485 U.S. at 510,
108 S. Ct. 1355. The law treated private bonds similarly.
Id. The Supreme Court rejected South Carolina’s
argument that the law commandeered states by coercing
them to enact and administer a registered bond scheme.
Id. at 513–14, 108 S. Ct. 1355. At most, the law
“effectively prohibit[ed]” states from issuing bearer
bonds pursuant to a “‘generally applicable’” law treating
state and private bonds equally. Id. at 514, 108 S. Ct.
1355 (citation omitted). The Court emphasized that the
challenged law “d[id] not ... seek to control or influence
the manner in which States regulate private parties.” Id.
Relying on Baker, Condon rejected South Carolina’s
commandeering challenge to a federal law restricting
state DMVs from disclosing drivers’ personal
information. 528 U.S. at 144, 120 S. Ct. 666. The law also
restricted private disclosure and resale of such
information. Id. at 146, 120 S. Ct. 666. Distinguishing its
commandeering decisions in New York and Printz, the
Court explained that, here, the challenged law “d[id] not

319a
require the States in their sovereign capacity to regulate
their own citizens,” did not require state legislatures to
enact any laws, and “d[id] not require state officials to
assist in the enforcement of federal statutes regulating
private individuals.” Id. at 151, 120 S. Ct. 666.
Additionally, the law regulated states only as “the
owners of data bases,” and as part of “the universe of
entities that participate as suppliers to the market for
motor vehicle information.” Id.
For two main reasons, the “evenhanded regulation”
principle from Baker and Condon has no application
here. First, the laws challenged in those cases, unlike
ICWA, did not compel states “to regulate their own
citizens.” Condon, 528 U.S. at 151, 120 S. Ct. 666; see also
Murphy, 138 S. Ct. at 1479. ICWA emphatically does. As
explained, ICWA requires state agencies to provide
remedial services to Indian families (§ 1912(d); 25 C.F.R.
§ 23.2; 81 Fed. Reg. at 38,814); to adduce expert witness
testimony (§ 1912(e), (f); 25 C.F.R. § 23.122(a); 81 Fed.
Reg. at 38,829); to assist Indian families and tribes with
preferred placements (§ 1915(a)–(d); 81 Fed. Reg. at
38,839–40); to compile records evidencing efforts to
comply with placement preferences (§ 1915(e); 25 C.F.R.
§ 23.141); and to provide detailed notices to parents,
custodians, and tribes (§ 1912(a); 25 C.F.R. § 23.111).
This is especially evident as to the placement
preferences: ICWA “creates an obligation on State
agencies and courts to implement” the preferences by
“mak[ing] efforts to identify and assist extended family
and Tribal members.” 81 Fed. Reg. at 38,839 (emphasis
added). These efforts are “critical to the success of the
statutory placement preferences.” Id. at 38,839–40. The

320a
fact that ICWA imposes “critical” duties on state actors
concerning private persons sets it worlds apart from the
tax law in Baker (which, at most, effectively prohibited
states from issuing bearer bonds) and the privacy law in
Condon (which restricted agency disclosure of drivers’
information). Instead, ICWA fits Condon’s description
of laws that commandeer states by “requir[ing] state
officials to assist in the enforcement of federal statutes
regulating private individuals.” Condon, 528 U.S. at 151,
120 S. Ct. 666.
Second, unlike the laws in Baker and Condon,
ICWA regulates states “in their sovereign capacity.”
Condon, 528 U.S. at 151, 120 S. Ct. 666; see also Murphy,
138 S. Ct. at 1478. In Baker and Condon, Congress
regulated states as participants in the bond market
(Baker, 485 U.S. at 510, 108 S. Ct. 1355) and the “market
for motor vehicle information” (Condon, 528 U.S. at 151,
120 S. Ct. 666). Because private parties also participated
in those markets, and were treated similarly, those
decisions could speak of Congress “evenhandedly
regulat[ing] an activity in which both States and private
parties engage.” Murphy, 138 S. Ct. at 1479. ICWA is a
different animal. It regulates states, not as market
participants, but as sovereigns fulfilling their “duty of
the highest order to protect the interests of minor
children, particularly those of tender years.” Palmore,
466 U.S. at 433, 104 S. Ct. 1879. The contrast with
regulating state participation in bond or data markets
could hardly be greater. As State Plaintiffs correctly
observe, “child welfare is not a market regulated by
Congress in which public and private actors participate,”
but is instead “the sovereign obligation of the States.”

321a
Once again, ICWA’s regulations clinch the point: they
assert that ICWA balances federal interests in Indian
families and tribes “with the States’ sovereign interest
in child-welfare matters.” 81 Fed. Reg. at 38,789
(emphasis added).
JUDGE DENNIS responds that, because certain
ICWA provisions may apply to private parties as well as
state agencies, this triggers the Baker/Condon
“evenhanded regulation” principle. DENNIS OP. at 93–
101. We disagree. First, this view overlooks that Baker
and Condon do not apply to a federal law that regulates
states as sovereigns113 and compels them to regulate
private parties.114 Baker, 485 U.S. at 514, 108 S. Ct. 1355;
113

JUDGE DENNIS suggests that Condon addressed a law regulating
states as sovereigns, and not as market participants, because
“regulation of motor vehicles ... is a quintessential state function.”
DENNIS OP. at 98. We disagree. Congress enacted the privacy law
in Condon because it “found that many States ... sell [drivers’]
personal information to individuals and businesses,” 528 U.S. at 143,
120 S. Ct. 666, just as “private persons” do, id. at 146, 120 S. Ct. 666.
The law thus “regulate[d] the States as the owners of data bases,”
not as sovereigns. Id. at 151, 120 S. Ct. 666.
114

We disagree with JUDGE DENNIS that the duties imposed on
state employees by the federal law in Condon are anything like
ICWA’s commandeering of state agencies. See DENNIS OP. at 98. In
Condon, state DMV employees had to spend “time and effort” to
“learn and apply” the patchwork of federal restrictions on disclosing
driver information. 528 U.S. at 144–45, 150, 120 S. Ct. 666. But the
employees were “not require[d] ... to assist in the enforcement of
[the] federal statute[ ].” Id. at 151, 120 S. Ct. 666. ICWA, by
contrast, requires state agencies to “implement” the heart of the
law—placement preferences—by “identify[ing] and assist[ing]”
potential placements. 81 Fed. Reg. at 38,839–40; see also id. at
38,839 (stating the preferences “create[ ] an obligation on State
agencies and courts to implement the policy outlined in the statute”)

322a
Condon, 528 U.S. at 151, 120 S. Ct. 666; see also Murphy,
138 S. Ct. at 1479. ICWA does both. Second, JUDGE
DENNIS’s view mistakes the “activity” ICWA regulates.
Cf. Murphy, 138 S. Ct. at 1478 (considering “an activity
in which both States and private actors engage”). ICWA
directly regulates state “child custody proceeding[s].” §
1903(1). This is not regulation of an “activity” states
engage in alongside private actors, like bond issuance or
data sharing. Instead, this is regulation of state
administrative and judicial “proceedings” in service of a
federal regulatory goal. The anti-commandeering
doctrine forbids that.115 Third, under JUDGE DENNIS’s
view, Congress could conscript state officials into a
federal program, provided it requires private actors to
participate too. The anti-commandeering cases do not
support that view. The salient question, rather, is
whether a federal law requires state officials to act “in
their official capacity” to implement a federal program.
See Printz, 521 U.S. at 932 n.17, 117 S. Ct. 2365 (Brady
(emphasis added). JUDGE DENNIS also misunderstands our point
that state agencies’ role here is “critical.” See DENNIS OP. at 97 n.43.
The point is not that commandeering depends on whether the state
actor’s forced action is “critical” or “trivial.” Rather, the point is that
ICWA’s regulations describe state agencies as playing a “critical”
role in “implement[ing]” the law, see 81 Fed. Reg. at 38,839–40, a
telltale sign that the agencies are being “compel[led] ... to ...
administer a federal regulatory program,” New York, 505 U.S. at
188, 112 S. Ct. 2408.
115

See New York, 505 U.S. at 178, 112 S. Ct. 2408 (explaining
“Congress ... may not conscript state governments as its agents”);
Murphy, 138 S. Ct. at 1479 (Congress cannot “regulate the States’
sovereign authority to ‘regulate their own citizens’”) (quoting
Condon, 528 U.S. at 151, 120 S. Ct. 666).

323a
Act did not “merely require [state officers] to report
information in their private possession” but instead to do
so “in their official capacity”). ICWA does so. That parts
of ICWA may also compel private parties does not dilute
the fact that ICWA “compel[s] the States to ...
administer a federal regulatory program.” New York,
505 U.S. at 188, 112 S. Ct. 2408.116
2.

Preemption

We now consider whether the challenged ICWA
provisions do not commandeer states but are, instead,
valid preemption provisions. See Murphy, 138 S. Ct. at
1479 (considering whether PASPA § 3702(1) was “a valid
preemption provision”). The district court ruled
preemption could not save any of those provisions
because they “directly command states” and not
“‘private actors.’” Brackeen, 338 F. Supp. 3d at 541
(quoting Murphy, 138 S. Ct. at 1481). On appeal,
Defendants argue the challenged provisions confer

116

As part of his argument that certain sections of ICWA are
“evenhanded” (and therefore do not commandeer states), JUDGE
DENNIS also finds that these sections are “necessarily ‘best read’ as
pertaining to private actors.” DENNIS OP. at 99. But this argument
grafts onto commandeering a preemption principle—namely, that a
federal law preempts only if it is “best read as one that regulates
private actors.” Murphy, 138 S. Ct. at 1479. JUDGE DENNIS cites no
authority for the proposition that the two analyses may be blended
into one. Moreover, the most recent Supreme Court decision
addressing commandeering and preemption—Murphy—treats the
two analyses separately. See 138 S. Ct. at 1478–79 (commandeering);
id. at 1479–81 (preemption). We will therefore follow the Supreme
Court and address the “best read” issue under preemption, not
commandeering.

324a
federal rights on Indian children, families, and tribes
that preempt conflicting state laws.
“Preemption doctrine reflects the basic concept,
grounded in the Supremacy Clause, that federal law can
trump contrary state law.” Butler v. Coast Elec. Power
Ass’n, 926 F.3d 190, 195 (5th Cir. 2019) (citing Arizona
v. United States, 567 U.S. 387, 398–99, 132 S. Ct. 2492,
183 L. Ed. 2d 351 (2012)). This occurs when federal law
conflicts with state law, expressly preempts state law,
or excludes state legislation by occupying an entire field.
See Murphy, 138 S. Ct. at 1480 (identifying “three
different types of preemption—’conflict,’ ‘express,’ and
‘field’”) (citation omitted).117 To have any kind of
preemptive effect, however, a federal law must meet
two conditions: it (1) “must represent the exercise of a
power conferred on Congress by the Constitution,” and
(2) must be “best read” as a law that “regulates the
conduct of private actors, not the States.” Murphy, 138
S. Ct. at 1479, 1481.118
At the outset, we note that ICWA implicates
“conflict” preemption only. ICWA lacks an express
preemption clause and no one contends ICWA occupies

117

See also generally City of El Cenizo, Tex. v. Texas, 890 F.3d 164,
176–81 (5th Cir. 2018) (field and conflict preemption); Franks Inv.
Co., LLC v. Union Pac. R. Co., 593 F.3d 404, 407–08 (5th Cir. 2010)
(express preemption).
118

See also Alden, 527 U.S. at 731, 119 S. Ct. 2240 (explaining “the
Supremacy Clause enshrines as ‘the supreme Law of the Land’ only
those Federal Acts that accord with the constitutional design”)
(citing Printz, 521 U.S. at 924, 117 S. Ct. 2365).

325a
the field of Indian child-custody proceedings.119 We also
note that various ICWA provisions potentially conflict
with state laws.120 For instance, ICWA grants an
indigent parent the right to appointed counsel, § 1912(b),
which may exceed some state guarantees. ICWA also
grants a child’s tribe the right to intervene, § 1911(c), a
right not automatically granted by some state laws.
Substantively, ICWA imposes an onerous standard for
terminating parental rights—proof “beyond a
reasonable doubt” that continued custody “is likely to
result in serious emotional or physical damage to the
child.” § 1912(f). States, by contrast, generally allow
termination based on “clear and convincing evidence”
that a parent has committed certain offenses and that
termination is in “the best interest of the child.” See, e.g.,
Tex. Fam. Code § 161.001(b)(1), (2).121 ICWA’s
placement preferences may also conflict with state
standards, under which placements depend on the child’s

119

See, e.g., In re A.B., 245 P.3d 711, 718–19 (Utah 2010) (ICWA does
not implicate express or field preemption); In re W.D.H., 43 S.W.3d
30, 35–36 (Tex. App.—Houston [14th Dist.] 2001, pet. denied)
(ICWA implicates only conflict preemption).
120

See generally New Mexico v. Mescalero Apache Tribe, 462 U.S.
324, 333–34, 103 S. Ct. 2378, 76 L. Ed. 2d 611 (1983) (discussing
special considerations governing preemption of state law by
“federal and tribal interests”) (and collecting decisions).
121

See also, e.g., In re W.D.H., 43 S.W.3d at 37, 36 (explaining Texas
law “is based on the ‘Anglo’ standard for determining the best
interest of the child,” which is “‘notably different’” from ICWA’s
termination standard) (first quoting Doty-Jabbaar, 19 S.W.3d at
877); and then (citing Yavapai-Apache Tribe, 906 S.W.2d at 168)

326a
best interests.122 Such conflicts, while not inevitable,123
should come as no surprise. Whereas states seek only to
promote a child’s best interests, ICWA also seeks to
“promote the stability and security of Indian tribes and
families.” § 1902.
With that background in mind, we proceed to the
preemption analysis. We assume for purposes of this
part only that ICWA is a valid exercise of Congress’s
power. See Murphy, 138 S. Ct. at 1479. We therefore
focus on whether the challenged provisions are “best
read” as regulating private instead of state actors. Id.
a.

The provisions that regulate private
actors are valid preemption provisions.

Contrary to the district court’s ruling, see Brackeen,
338 F. Supp. 3d at 541, we conclude that several
provisions of ICWA are valid preemption provisions
because they are best read as regulating private actors.
For example, ICWA gives a child’s Indian custodian and
tribe the “right to intervene at any point” in a state court
foster care or termination proceeding. § 1911(c). An
indigent parent or Indian custodian has “the right to
court-appointed counsel” in certain proceedings.
122

Compare 81 Fed. Reg. at 38,840 (explaining “[ICWA] requires
that States apply a preference for the listed placement categories”
in § 1915), with TEX. FAM. CODE § 162.016(b) (court shall grant
adoption if “the adoption is in the best interest of the child”); LA.
CHILD. CODE arts. 1217(B), 1255(B) (the court’s “basic
consideration” in adoption decree “shall be the best interests of the
child”).
123

See, e.g., In re A.B., 245 P.3d at 720–21 (tribe’s right to seek
invalidation under § 1914 does not conflict with state notice-ofappeal requirements).

327a
§ 1912(b).124 Any party has “the right to examine all
reports or other documents” filed in proceedings.
§ 1912(c). ICWA also confers various parental rights in
voluntary termination proceedings, such as the right to
have the terms of consent “fully explained in detail” and
in comprehensible language (§ 1913(a)); the right to
withdraw consent to a placement at any time or to a
termination or adoption prior to final decree (§ 1913(b),
(c)); and the right to withdraw consent based on “fraud
or duress” up to two years after an adoption decree
(§ 1913(d)). An Indian child, parent, custodian, or tribe
may seek invalidation of a placement or termination
action based on a violation of sections 1911, 1912, and
1913. § 1914. Additionally, a “biological parent” or prior
Indian custodian may petition for return of custody
when an adoption is set aside or the adoptive parents
consent. § 1916(a). Finally, upon reaching age 18, an
adopted Indian may obtain from the court information
about his birth parents’ “tribal affiliation,” along with
other information “necessary to protect any rights
flowing from [his] tribal membership.” § 1917.
The district court held none of the challenged
provisions—including these—could validly preempt
state law because they “directly command states.”
Brackeen, 338 F. Supp. 3d at 541. We disagree as to the
provisions discussed above, which are best read to
address private actors, not states. We therefore
conclude those provisions (§§ 1911(c); 1912(b); 1913,

124

JUDGE JONES does not agree that § 1912(b) is a valid preemption
provision and so does not join this part to the extent it concludes
otherwise.

328a
1914, 1916(a), and 1917125) are valid preemption
provisions.126 See Haywood v. Drown, 556 U.S. 729, 736,
129 S. Ct. 2108, 173 L. Ed. 2d 920 (2009) (explaining
states “lack authority to nullify a federal right or cause
of action”).

125

State Plaintiffs suggest that, by requiring an adult adoptee be
informed of his birth parents’ tribal affiliation, § 1917 improperly
imposes on courts a “non-judicial obligation[ ].” We disagree. The
right granted by § 1917 resembles rights recognized in various state
laws providing courts may unseal adoption records upon request of
adoptees. See generally Shannon Clark Kief, Annotation,
Restricting Access to Judicial Records of Concluded Adoption
Proceedings, 103 A.L.R. 5th 255 (2002) (collecting and analyzing
cases). JUDGE DENNIS argues that, if § 1917 creates a preemptive
right (as we conclude), then so does the placement-record provision
in § 1915(e). DENNIS OP. at 89 n.39. We disagree. Unlike § 1917,
§ 1915(e) imposes a detailed recordkeeping regime on states
designed to implement the placement preferences. See supra
III(B)(1)(a)(iv).
126

See, e.g., In re J.L.T., 544 S.W.3d 874, 879 (Tex. App.—El Paso
2017, no pet.) (§ 1911(c) preempts state rule requiring tribe to file
written pleading to intervene); Dep’t of Human Servs. v. J.G., 260
Or.App. 500, 317 P.3d 936, 944 (Or. Ct. App. 2014) (§ 1914 preempts
Oregon “preservation rule”); In re K.B., 682 N.W.2d 81, 2004 WL
573793, at *3 (Iowa Ct. App. 2004) (table) (concluding “when a tribe
has a statutory right of intervention under ICWA, state-law
doctrines of estoppel may not be applied to deprive it of that right”);
State ex rel. Juvenile Dept. of Lane Cnty. v. Shuey, 119 Or.App. 185,
850 P.2d 378, 379–81 (1993) (tribe’s right of intervention in § 1911(c)
preempts state laws requiring tribe be represented by attorney).

329a
b. The provisions that command state
agency action are not valid preemption
provisions.
Conversely, we conclude that the provisions of
ICWA discussed in the commandeering part are not
valid preemption provisions. They are best read as
regulating states, not private actors. Murphy, 138 S. Ct.
at 1479.
In our commandeering discussion, supra III(B)(1),
we considered ICWA’s provisions requiring active
efforts (§ 1912(d)), expert witnesses (§ 1912(e), (f)),
placement preferences (§ 1915(a)–(d)), placement
records (§ 1915(e)), and notice (§ 1912(a)). We found
these provisions impose duties on state agencies to
provide remedial services to Indian families (§ 1912(d);
25 C.F.R. § 23.2; 81 Fed. Reg. at 38,814); to adduce
expert witness testimony (§ 1912(e), (f); 25 C.F.R.
§ 23.122(a); 81 Fed. Reg. at 38,829); to assist Indian
families and tribes with preferred placements
(§ 1915(a)–(d); 81 Fed. Reg. at 38,839–40); to compile
records evidencing efforts to comply with placement
preferences (§ 1915(e); 25 C.F.R. § 23.141); and to furnish
notice to parents, custodians, and tribes (§ 1912(a)). We
therefore concluded these provisions transgress the
commandeering rule.
That also means they are not valid preemption
provisions. “[E]very form of preemption is based on a
federal law that regulates the conduct of private actors,
not the States.” Murphy, 138 S. Ct. at 1481. These
provisions regulate, not private persons, but the conduct
of state agencies and officials. They therefore cannot
validly preempt conflicting state law. See, e.g., Printz,

330a
521 U.S. at 935, 117 S. Ct. 2365 (explaining a federal
“command [to] the States’ officers ... to administer or
enforce a federal regulatory program” is “fundamentally
incompatible with our constitutional system of dual
sovereignty”).
Federal Defendants respond that these provisions
merely grant Indian children and parents “federally
conferred rights,” which “may constrain state childprotection agencies” but do not “directly regulate[ ]
States.” We disagree. As we have explained at length,
these provisions do not merely “constrain” state
agencies but, instead, require state agencies to
undertake extensive actions. See supra III(A)(1). Thus,
it is immaterial whether they can somehow be
characterized, through verbal legerdemain, as securing
“federally conferred rights.”127 The salient point is that
“[t]here is no way in which th[ese] provision[s] can be
understood as a regulation of private actors.” Murphy,
138 S. Ct. at 1481 (emphasis added). They instead
regulate state agencies, which means they commandeer
states and cannot have valid preemptive effect. See, e.g.,
New York, 505 U.S. at 178, 112 S. Ct. 2408 (“Where a
federal interest is sufficiently strong to cause Congress
to legislate, it must do so directly; it may not conscript
state governments as its agents.”).
127

For instance, Federal Defendants awkwardly re-cast § 1912(d) as
securing to Indian children “the right not to be placed in foster care
... without proof that ‘active efforts have been made to provide
remedial services and rehabilitative programs.’” This overlooks the
key point that the provision “require[s] States to affirmatively
provide Indian families with substantive services.” 81 Fed. Reg. at
38,791.

331a
c.

The placement preferences, placement
standards, and termination standards
are valid preemption provisions for state
courts. The recordkeeping requirement is
not.

The district court ruled that certain ICWA
provisions were not valid preemption provisions because
they require state courts to “incorporat[e] federal
standards that modify state created causes of action.”
Brackeen, 338 F.Supp.3d at 539, 542. The court focused
on ICWA’s requirement that courts apply the § 1915
placement preferences, which it characterized as “a
direct command from Congress to the states.” Id. at 540.
More broadly, the court concluded that whenever ICWA
commands courts to apply “federal standards” in state
causes of action, it commandeers states and does not
validly preempt state law. Id. at 541. On appeal,
Defendants argue that the district court’s rationale
failed to account for the “well established power of
Congress to pass laws enforceable in state courts,”
which those courts must apply under the Supremacy
Clause. See, e.g., New York, 505 U.S. at 178, 112 S. Ct.
2408.
To resolve this question, we first review some
background principles. The Supremacy Clause binds
state courts of competent jurisdiction, save in narrow
circumstances, to adjudicate federal causes of action.
See, e.g., Haywood, 556 U.S. at 734–36, 129 S. Ct. 2108;
Howlett v. Rose, 496 U.S. 356, 367–75, 110 S. Ct. 2430, 110
L. Ed. 2d 332 (1990); Testa v. Katt, 330 U.S. 386, 394–95,

332a
67 S. Ct. 810, 91 L. Ed. 967 (1947).128 This obligation
sometimes includes applying federal procedural rules
connected with the federal action. See, e.g., Dice v.
Akron, Canton & Youngstown R.R., 342 U.S. 359, 363,
72 S. Ct. 312, 96 L. Ed. 398 (1952) (state court required
to apply FELA jury-trial right despite state rule
requiring court to make certain findings); Cent. Vt. Ry.
Co. v. White, 238 U.S. 507, 512, 35 S. Ct. 865, 59 L. Ed.
1433 (1915) (state court required to apply FELA burden
of proof despite contrary state rule). Additionally, a
state procedural rule may be preempted if it interferes
with a federal cause of action. See, e.g., Felder v. Casey,
487 U.S. 131, 147-150, 108 S. Ct. 2302, 101 L. Ed. 2d 123
(1988) (state notice-of-injury prerequisite preempted in
§ 1983 actions); Brown v. W. Ry. of Ala., 338 U.S. 294,
298–99, 70 S. Ct. 105, 94 L. Ed. 100 (1949) (state pleading
rule barred because it interfered with federal rights). By
contrast, however, no authority supports the proposition
that Congress may prescribe procedural rules for statelaw claims in state courts. See, e.g., Felder, 487 U.S. at
138, 108 S. Ct. 2302 (recognizing the “unassailable
proposition ... that States may establish the rules of
procedure governing litigation in their own courts”);
Suesz v. Med-1 Solutions, LLC, 757 F.3d 636, 651 (7th
Cir. 2014) (Sykes, J., concurring) (“[I]t’s doubtful that
Congress has the power to prescribe procedural rules

128

This rule does not apply “only in two narrowly defined
circumstances: first when Congress expressly ousts state courts of
jurisdiction; and second, when a state court refuses jurisdiction
because of a neutral state rule regarding the administration of the
courts.” Haywood, 556 U.S. at 735, 129 S. Ct. 2108 (internal
quotation marks and citations omitted).

333a
for state-law claims in state courts.”) (citing, inter alia,
Anthony Bellia, Jr., Federal Regulation of State Court
Procedures, 110 YALE L. J. 947 (2001)).
The question we address here fits neatly into none
of these categories. ICWA creates no federal cause of
action state courts must enforce. Nor does ICWA enact
federal procedural rules that state courts must prefer
over their own procedures. Nor does ICWA impose
procedural rules for state-law claims in state courts.129
That, as noted, would likely be a bridge too far. Instead,
ICWA enacts substantive child-custody standards
applicable in state child-custody proceedings. For
instance, ICWA requires courts to place Indian children
with certain persons (§ 1915), and also requires courts to
make specific findings under a heightened standard of
proof before an Indian child may be placed in a foster
home or his parents’ rights terminated (§ 1912(e) and
(f)).
To the extent those substantive standards compel
state courts (as opposed to state agencies), we conclude
they are valid preemption provisions. As already
129

Jinks v. Richland County, 538 U.S. 456, 123 S. Ct. 1667, 155 L.
Ed. 2d 631 (2003), does not support the proposition that Congress
may impose procedural rules on state claims in state courts. Jinks
upheld Congress’s authority to toll state limitations periods for
state-law claims while removed to federal court under supplemental
jurisdiction. Id. at 459, 462–63, 123 S. Ct. 1667; see 28 U.S.C.
§ 1367(d). The Court rejected the argument that this rule violated
state sovereignty by regulating state-court “procedure,” because
“tolling of limitations periods falls on the ‘substantive’ side of the
line.” 538 U.S. at 464–65, 123 S. Ct. 1667. The Court disclaimed any
holding that “Congress has unlimited power to regulate practice
and procedure in state courts.” Id. at 465, 123 S. Ct. 1667.

334a
discussed, the Supremacy Clause requires state courts
to apply validly enacted federal law. See Printz, 521 U.S.
at 907, 117 S. Ct. 2365; New York, 505 U.S. at 178–79, 112
S. Ct. 2408. The Supreme Court has ruled that federal
standards may supersede state standards even in realms
of traditional state authority such as family and
community property law. See, e.g., Boggs v. Boggs, 520
U.S. 833, 117 S. Ct. 1754, 138 L. Ed. 2d 45 (1997);
McCarty v. McCarty, 453 U.S. 210, 101 S. Ct. 2728, 69 L.
Ed. 2d 589 (1981); Hisquierdo v. Hisquierdo, 439 U.S.
572, 99 S. Ct. 802, 59 L. Ed. 2d 1 (1979); see also Egelhoff
v. Egelhoff ex rel. Briener, 532 U.S. 141, 151–52, 121 S.
Ct. 1322, 149 L. Ed. 2d 264 (2001) (observing “we have
not hesitated to find state family law pre-empted when
it conflicts with ERISA”) (citing Boggs, 520 U.S. at 833,
117 S. Ct. 1754). For instance, Egelhoff held ERISA
preempted a state probate rule and so dictated, contrary
to state law, the beneficiaries of pension and insurance
proceeds. 532 U.S. at 147–50, 121 S. Ct. 1322. Similarly,
McCarty held a federal military benefits law preempted
state community property rules, thus altering the
property division upon divorce. 453 U.S. at 223–35, 101
S. Ct. 2728. And, more recently, Hillman v. Maretta held
that a federal law setting the “order of precedence” for
paying federal life-insurance benefits preempted a state
cause of action that directed the benefits to another
person. 569 U.S. 483, 491–94, 133 S. Ct. 1943, 186 L. Ed.
2d 43 (2013).
This preemption rule embraces some of the ICWA
provisions challenged here. Specifically, ICWA’s
substantive standards requiring state courts to observe
placement preferences (§ 1915) and make placement or

335a
termination findings (§ 1912(e) and (f)) are valid
preemption provisions. The district court’s view that
these standards “modify state created causes of action,”
Brackeen, 338 F.Supp.3d at 539, is a matter of
terminology not legal analysis: whenever a federal
standard supersedes a state standard, the federal
standard can be said to “modify a state created cause of
action.” In McCarty, for instance, the federal benefits
law could be said to “modify” a state cause of action for
dividing marital property. McCarty, 453 U.S. at 223–35,
101 S. Ct. 2728. The same for Hillman, where the
preempted state law “interfere[d]” with the federal
scheme “by creating a [state] cause of action” directing
proceeds to beneficiaries other than those specified by
federal law. 569 U.S. at 494, 133 S. Ct. 1943.
In any event, instead of casting preemption in terms
of whether federal law “modifies” a state cause of action,
the Supreme Court has put the analysis more
straightforwardly: “[S]tate law is naturally preempted
to the extent of any conflict with a federal statute.”
Crosby v. Nat’l Foreign Trade Council, 530 U.S. 363,
373, 120 S. Ct. 2288, 147 L. Ed. 2d 352 (2000); see also,
e.g., Arizona, 567 U.S. at 399, 132 S. Ct. 2492 (“[S]tate
laws are preempted when they conflict with federal
law.”). If ICWA’s placement preferences apply in a state
proceeding, preemption means a state court must prefer
them to conflicting state standards.130 But “this sort of

130

Elsewhere in this opinion, we conclude the § 1915 placement
preferences violate the equal protection component of the Fifth
Amendment. See supra III(A)(2), (3). Our discussion in this Part of
the preemptive effect of those preferences is separate from and

336a
federal ‘direction’ of state judges is mandated by the text
of the Supremacy Clause,” and so is not commandeering.
New York, 505 U.S. at 178–79, 112 S. Ct. 2408.131
We reach a different conclusion, however, as to
§ 1951(a), which requires state courts to provide the
Secretary with a copy of an Indian child’s final adoption
decree, “together with ... other information.” The
district court held this provision unconstitutional,
casting it as part of ICWA’s command to states to
“administer” a federal regulatory program. Brackeen,
338 F.Supp.3d at 541-42. On appeal, Defendants argue
the provision is merely an “information-sharing”
requirement the Supreme Court all but approved in
Printz. We disagree. Printz left open whether requiring
“the provision of information to the Federal
Government” amounts to commandeering. See 521 U.S.
at 918, 117 S. Ct. 2365 (noting “we ... do not address” that
issue because it is “not before us”). As State Plaintiffs
point out, however, § 1951(a) makes state courts do more
than share information. The provision spearheads a
“recordkeeping” regime that demands state courts (1)
transmit to the Secretary a variety of information, see 25
independent of our holding that the preferences violate the Fifth
Amendment.
131

State Plaintiffs worry that this principle would permit Congress
“to prescribe sentences for state-law drug offenses, or to require
imposition of strict liability in auto-accident cases.” We think not.
We cannot fathom where Congress would get the power to do those
things. Here, we have assumed—for this part only—that Congress
has the power to enact ICWA. But see supra II (separately
concluding Congress lacks power to enact ICWA to extent it
governs state proceedings).

337a
C.F.R. § 23.140;132 (2) maintain a specified “record” of
every Indian child placement, see id. § 23.141(a), (b);133
and (3) “make the record available within 14 days of a
request” by the tribe or Secretary, id. § 23.141(a). States
have the option of designating either their courts or
agencies as the “repository” for this information. Id. §
23.141(c). The regulations estimate complying with this
regime will consume large amounts of state court and
agency resources every year. See 81 Fed. Reg. at 38,863.
Unlike the other provisions discussed in this part,
§ 1951(a) is not a substantive child-custody standard
state courts must apply under the Supremacy Clause.
Rather, the provision imposes an extensive
recordkeeping obligation directly on state courts and
agencies. This is not a valid preemption provision
because it regulates the conduct of states, not private
actors. Cf. Murphy, 138 S. Ct. at 1481 (explaining “every
form of preemption is based on a federal law that
regulates the conduct of private actors, not the States”).
By conscripting state courts and agencies into
administering this system, § 1951(a) violates the
132

The information pertains to the child’s tribal affiliation, the names
and addresses of the child’s birth and adoptive parents, and “the
identity of any agency having files or information relating to such
adoptive placement.” § 1951(a)(1)–(4); see also 25 C.F.R.
§ 23.140(a)(1)–(6) (detailing additional requirements).
133

“The record must contain, at a minimum, the petition or
complaint, all substantive orders entered in the child-custody
proceeding, the complete record of the placement determination
(including, but not limited to, the findings in the court record and
the social worker’s statement), and, if the placement departs from
the placement preferences, detailed documentation of the efforts to
comply with the placement preferences.” Id. § 23.141(b).

338a
principle that “Congress cannot compel the States to
enact or enforce a federal regulatory program.” Printz,
521 U.S. at 935, 117 S. Ct. 2365. We therefore hold that
§ 1951(a) violates the commandeering doctrine and is not
a valid preemption provision.
***
Summing up part III, we find the following
provisions unconstitutional to the extent they command
state agencies (supra III(B)(1)(a), (B)(2)(c)):


The active-efforts requirement in § 1912(d)



The expert-witness requirement in § 1912(e)
and (f)



The placement preferences in § 1915(a) and (b)



The placement-record requirement in § 1915(e)



The notice requirement in § 1912(a)



The recordkeeping requirement in § 1951(a).

We also conclude that none of these are valid preemption
provisions (supra III(B)(2)(b)).
On the other hand, we find the following are valid
preemption provisions (supra III(B)(2)(a), (c)):


The right to intervene in § 1911(c)



The right to appointed counsel in § 1912(b)



The right to examine reports and documents in
§ 1912(c)



The right to withdraw consent in § 1913(b) and
(c)

339a


The right to collaterally attack a decree in
§ 1913(d)



The right to petition to invalidate a decree in
§ 1914



The right to petition for return of custody in
§ 1916(a)



The right to obtain tribal affiliation information
in § 1917



Courts’ obligation to apply the placement
preferences in § 1915



Courts’ obligation to apply the placement and
termination standards in § 1912(e) and (f).

C. Nondelegation
We now consider whether ICWA § 1915(c)
unconstitutionally delegates legislative power to Indian
tribes. As discussed, ICWA establishes preferences for
placements of Indian children. See § 1915(a), (b). Section
1915(c) empowers tribes to reorder those preferences:
In the case of a placement under subsection (a)
or (b) of this section, if the Indian child’s tribe
shall establish a different order of preference by
resolution, the agency or court effecting the
placement shall follow such order so long as the
placement is the least restrictive setting
appropriate to the particular needs of the child,
as provided in subsection (b) of this section.

340a
§ 1915(c). ICWA’s regulations confirm that a tribe’s
rewritten preferences trump the order established by
Congress.134
The district court ruled § 1915(c) and its
implementing regulations violate the nondelegation
doctrine for two reasons. First, the court held that
§ 1915(c) invalidly attempts to delegate Congress’s
“inherent legislative power to create law.” Brackeen,
338 F. Supp. 3d at 536. Second, even if § 1915(c)
delegates only regulatory power, that power cannot be
delegated outside the federal government to an Indian
tribe. The panel reversed, reasoning that the provision
merely exercised Congress’s longstanding authority to
“incorporate the laws of another sovereign into federal
law” and that tribes have “inherent authority” to
regulate their members and domestic relations.
Brackeen, 937 F.3d at 436–37. We agree with the district
court that § 1915(c) impermissibly delegates legislative
power to Indian tribes.
1.
“The nondelegation doctrine is rooted in the
principle of separation of powers that underlies our
tripartite system of Government.” Mistretta v. United
States, 488 U.S. 361, 371, 109 S. Ct. 647, 102 L. Ed. 2d 714
134

See 25 C.F.R. § 23.130(b) (“If the Indian child’s Tribe has
established by resolution a different order of preference than that
specified in ICWA, the Tribe’s placement preferences apply.”); id.
§ 23.131(c) (“If the Indian child’s Tribe has established by resolution
a different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply, so long as the placement is the
least-restrictive setting appropriate to the particular needs of the
Indian child, as provided in paragraph (a) of this section.”).

341a
(1989). Typically, a nondelegation claim challenges
Congress’s “transferring its legislative power to another
branch of Government.” Gundy v. United States, 139 S.
Ct. 2116, 2121, 204 L. Ed. 2d 522 (2019) (plurality op.); see
also, e.g., Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 472, 121 S. Ct. 903, 149 L. Ed. 2d 1 (2001) (a
delegation challenge asks “whether the statute has
delegated legislative power to [an] agency”). Such
challenges are usually unsuccessful because the
Supreme Court requires Congress to provide only an
“intelligible principle” guiding execution of the
delegated authority. See Touby v. United States, 500
U.S. 160, 165, 111 S. Ct. 1752, 114 L. Ed. 2d 219 (1991);
see also, e.g., United States v. Whaley, 577 F.3d 254, 263
(5th Cir. 2009) (the “modern [nondelegation] test is
whether Congress has provided an ‘intelligible principle’
to guide the agency’s regulations,” which “can be broad”)
(citations omitted). But § 1915(c), as the district court
correctly recognized, presents an atypical nondelegation
issue for two main reasons: the statute delegates
lawmaking—not merely regulatory—authority, and it
does so to an entity outside the federal government.
“The fundamental precept of the delegation doctrine
is that the lawmaking function belongs to Congress, and
may not be conveyed to another branch or entity.”
Loving v. United States, 517 U.S. 748, 758, 116 S. Ct.
1737, 135 L. Ed. 2d 36 (1996) (citing U.S. CONST., art. I,
§ 1; Field v. Clark, 143 U.S. 649, 692, 12 S. Ct. 495, 36 L.
Ed. 294 (1892)). That forbidden conveyance is what
§ 1915(c) purports to do. It does not delegate to tribes
authority merely to regulate under Congress’s general
guidelines. Cf., e.g., Touby, 500 U.S. at 165, 111 S. Ct.

342a
1752 (nondelegation not implicated “merely because
[Congress] legislates in broad terms, leaving a certain
degree of discretion to executive or judicial actors”)
(citing J.W. Hampton, Jr., & Co. v. United States, 276
U.S. 394, 409, 48 S. Ct. 348, 72 L. Ed. 624 (1928)). Rather,
it empowers tribes to change the substantive
preferences Congress enacted in § 1915(a) and (b) and to
bind courts, agencies, and private persons to follow
them. As the district court correctly reasoned, “[t]he
power to change specifically enacted Congressional
priorities and impose them on third parties can only be
described as legislative.” Brackeen, 338 F. Supp. 3d at
537; see also INS v. Chadha, 462 U.S. 919, 952, 103 S. Ct.
2764, 77 L. Ed. 2d 317 (1983) (explaining “action that had
the purpose and effect of altering the legal rights, duties
and relations of persons” is “essentially legislative in
purpose and effect”). This “delegation of power to make
the law,” Chief Justice Marshall explained long ago,
“cannot be done.” Loving, 517 U.S. at 759, 116 S. Ct. 1737
(quoting Wayman v. Southard, 23 U.S. (10 Wheat.) 1, 42,
6 L. Ed. 253 (1825) (Marshall, C.J.)); see also A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S. 495,
529, 55 S. Ct. 837, 79 L. Ed. 1570 (1935) (“The Congress
is not permitted to abdicate or to transfer to others the
essential legislative functions with which it is vested.”).
If Congress wants to enact a new order of
preferences, it must follow the constitutional demands of
presentment and bicameralism. See U.S. CONST. art. I,
§ 1; id. § 7, cl. 2, 3; see also, e.g., Chadha, 462 U.S. at 951,
103 S. Ct. 2764 (“[T]he Framers were acutely conscious
that the bicameral requirement and the Presentment
Clauses
would
serve
essential
constitutional

343a
functions.”). But § 1915(c) orchestrates their evasion.
Just as Congress cannot authorize laws to be amended
by a single chamber, see Chadha, 462 U.S. at 959, 103 S.
Ct. 2764, or by the President, see Clinton v. City of New
York, 524 U.S. 417, 447–48, 118 S. Ct. 2091, 141 L. Ed. 2d
393 (1998), it may not empower laws to be rewritten by
an outside entity. For instance, in Metropolitan
Washington Airports Authority v. Citizens for the
Abatement of Aircraft Noise, Inc., 501 U.S. 252, 276, 111
S. Ct. 2298, 115 L. Ed. 2d 236 (1991), Congress
established a Board of Review, composed of nine
members of Congress, that exercised veto power over a
regional airport authority. The Court held the Board’s
authority was an unconstitutional delegation of federal
power: Congress may “act with conclusive effect” only
“through enactment by both Houses and presentment to
the President.” Id. at 275, 111 S. Ct. 2298 n.19 (quoting
Bowsher, 478 U.S. at 759, 106 S. Ct. 3181 (Stevens, J.,
concurring in the judgment)). If Congress could delegate
such authority to another entity, “it would be able to
evade the carefully crafted restraints spelled out in the
Constitution.” Id. at 275, 111 S. Ct. 2298 n.20 (quoting
Bowsher, 478 U.S. at 755, 106 S. Ct. 3181 (Stevens, J.,
concurring in the judgment)).135
135

JUDGE DENNIS suggests that, by discussing the Constitution’s
presentment and bicameralism requirements, we have sua sponte
raised an issue not addressed by the district court or the parties.
DENNIS OP. at 132. Not so. Nondelegation, presentment, and
bicameralism are interrelated doctrines, as JUDGE DENNIS himself
recognizes. See id. (stating that the nondelegation inquiry “already
accounts for bicameralism and presentment”) (citing, inter alia,
John F. Manning, The Nondelegation Doctrine as a Canon of
Avoidance, 2000 SUP. CT. REV. 223, 240 (2000)).

344a
These principles bar the delegated authority
exercised by a tribe under § 1915(c). In § 1915(a) and (b),
Congress set forth a statutory order of preferences for
placing Indian children, but § 1915(c) gives tribes the
authority by “resolution” to overrule this order. The
tribe can thereby “amend[ ] the standards” Congress
enacted, Chadha, 462 U.S. at 954, 103 S. Ct. 2764,
sapping them of “legal force or effect,” Clinton, 524 U.S.
at 438, 118 S. Ct. 2091. As a result, a state court or
agency must no longer follow the priorities voted on by
Congress and signed by the President in adjudicating an
Indian child’s placement. Instead they “shall follow” the
tribe’s priorities. § 1915(c). Whether Congress “intended
such a result” is “of no moment.” Clinton, 524 U.S. at
445-46, 118 S. Ct. 2091. Congress cannot validly enact
something called “Public Law [95-608] as modified by [an
Indian child’s tribe].” Id. at 448, 118 S. Ct. 2091. The
Constitution bars Congress from authorizing action that
“alter[s] the legal rights, duties, and relations of persons
... outside the Legislative Branch.” Metro. Wash.
Airports, 501 U.S. at 276, 111 S. Ct. 2298 (quoting
Chadha, 462 U.S. at 951, 103 S. Ct. 2764).136

136

JUDGE DENNIS tries to compare § 1915(c) to federal laws that “set
a default standard that applies unless another party chooses to act.”
DENNIS OP. at 134. The cited laws, however, empower agencies or
other government actors only to grant waivers from otherwise
applicable requirements, not to re-write enacted statutes. See id. at
134–35 (citing, inter alia, 16 U.S.C. § 1536(h)(1), allowing a
committee to “grant an exemption” from certain requirements of
the Endangered Species Act). Indeed, one of the cases JUDGE
DENNIS cites upheld a similar waiver provision against a
nondelegation challenge in part because “the Secretary ha[d] no
authority to alter the text of any statute, repeal any law, or cancel

345a
Finally, even assuming § 1915(c) delegates only
regulatory—as opposed to legislative—authority, it is
still unconstitutional because it delegates that authority
outside the federal government. “By any measure,
handing off regulatory power to a private entity is
‘legislative delegation in its most obnoxious form.’” Dep’t
of Transp. v. Ass’n of Am. R.R., 575 U.S. 43, 62, 135 S.
Ct. 1225, 191 L. Ed. 2d 153 (2015) (Alito, J., concurring)
(quoting Carter v. Carter Coal Co., 298 U.S. 238, 311, 56
S. Ct. 855, 80 L. Ed. 1160 (1936)); see also, e.g., Gary
Lawson, Delegation and Original Meaning, 88 VA. L.
REV. 327, 351–53 (2002) (explaining that delegating
executive power to non-federal actors violates Article II
Appointments and Take-Care Clauses). An Indian tribe
is “not part of the Government at all,” which “would
necessarily mean that it cannot exercise ... governmental
power.” Ass’n of Am. R.R., 575 U.S. at 1253, 135 S. Ct.
2332 (Thomas, J., concurring). To be sure, Indian tribes
are often described as “possessing attributes of
sovereignty,” United States v. Mazurie, 419 U.S. 544,
557, 95 S. Ct. 710, 42 L. Ed. 2d 706 (1975) (citing
Worcester, 31 U.S. at 557), but this sovereignty has “‘a
unique and limited character’ ... center[ed] on the land
held by the tribe and on tribal members within the
reservation.” Plains Commerce Bank v. Long Family
Land & Cattle Co., 554 U.S. 316, 327, 128 S. Ct. 2709, 171
any statutory provision, in whole or in part.” Def. of Wildlife v.
Chertoff, 527 F. Supp. 2d 119, 124 (D.D.C. 2007) (addressing
Secretary of Homeland Security’s authority to waive federal
environmental law under the REAL ID Act of 2005) (emphasis
added). Unlike the waiver provisions JUDGE DENNIS cites, § 1915(c)
empowers tribes to “alter the text” of the placement preferences
Congress enacted in § 1915(a) and (b).

346a
L. Ed. 2d 457 (2008) (quoting United States v. Wheeler,
435 U.S. 313, 323, 98 S. Ct. 1079, 55 L. Ed. 2d 303 (1978)
and citing Mazurie, 419 U.S. at 557, 95 S. Ct. 710). As
relevant here, Indians have no sovereignty over nonIndians and no sovereignty over state proceedings. See,
e.g., Plains Commerce Bank, 554 U.S. at 330, 128 S. Ct.
2709 (“[E]fforts by a tribe to regulate nonmembers,
especially on non-Indian fee land, are ‘presumptively
invalid.’”) (quoting Atkinson Trading Co. v. Shirley, 532
U.S. 645, 659, 121 S. Ct. 1825, 149 L. Ed. 2d 889 (2001));
see also infra (discussing this proposition in greater
detail).137
In sum, § 1915(c) violates the nondelegation
doctrine, either because it delegates Congress’s
137

JUDGE DENNIS counters that § 1915(c) is like “long approved”
federal laws “that permit another sovereign to supply key aspects
of the law”—for instance, when 42 U.S.C. § 1983 incorporates a state
limitations period. DENNIS OP. at 136. We disagree. Section 1915(c)
permits tribes, not merely to “supply key aspects of the law,” but to
change the order of preferences Congress enacted. Supplementing
§ 1983 actions with state limitations periods is a different animal.
Congress “endorse[d] the borrowing of state-law limitations
provisions” in § 1988, but only “where doing so is consistent with
federal law.” Owens v. Okure, 488 U.S. 235, 239, 109 S. Ct. 573, 102
L. Ed. 2d 594 (1989). It is one thing for a state statute to supplement
an otherwise-silent federal provision; it is quite another for a state
(or a tribe) to alter the provisions of enacted federal law. In a similar
vein, JUDGE DENNIS also cites federal laws supposedly delegating
to “separate sovereign[s]” authority to change “the federal
standard in matters related to the sovereign’s jurisdiction.” DENNIS
OP. at 134–35 (emphasis omitted) (citing, e.g., 20 U.S.C.
§ 1415(b)(6)(B), allowing state law to set time limitation for bringing
an IDEA administrative claim). This again misses the point. None
of these laws allows a different sovereign to alter the text of enacted
federal law.

347a
lawmaking function or because it delegates authority to
entities outside the federal government altogether.
2.
Defendants’
unavailing.

arguments

to

the

contrary

are

Defendants first argue that § 1915(c) is not a
delegation at all but only another example of Congress’s
adopting the laws of another sovereign. For example,
they rely on United States v. Sharpnack, 355 U.S. 286,
78 S. Ct. 291, 2 L. Ed. 2d 282 (1958), which upheld the
Assimilative Crimes Act (“ACA”) against a
nondelegation challenge. Applying to federal enclaves,
the ACA criminalizes actions that “would be punishable
... within the jurisdiction of the State, Territory,
Possession, or District in which such place is situated.”
Id. at 287–88, 78 S. Ct. 291; see 18 U.S.C. § 13(a). “Rather
than being a delegation by Congress of its legislative
authority to the States,” Sharpnack held this practice is
“a deliberate continuing adoption by Congress for
federal enclaves” of crimes that “have been already put
in effect by the respective States.” 355 U.S. at 294, 78 S.
Ct. 291.
Defendants contend ICWA § 1915(c) merely follows
the pattern of the ACA by incorporating another
sovereign’s law. We disagree. The ACA’s strategy is to
“borrow[ ] state law to fill gaps in the federal criminal
law on enclaves.” Parker Drilling Mgmt. Servs., Ltd. v.
Newton, 139 S. Ct. 1881, 1891, 204 L. Ed. 2d 165 (2019)
(cleaned up). Section 1915(c) of ICWA does not “fill
gaps” in federal law; it empowers tribes to change
federal law. Cf., e.g., Lewis, 523 U.S. at 160, 118 S. Ct.

348a
1135 (explaining the ACA fills gaps only “where
Congress has not defined the missing offenses”) (eaned
up). Moreover, the Supreme Court has clarified that the
ACA cannot adopt state laws that “effectively rewrite
an offense definition that Congress carefully
considered.” Id. at 164, 118 S. Ct. 1135 (citing Williams
v. United States, 327 U.S. 711, 718, 66 S. Ct. 778, 90 L.
Ed. 962 (1946)). As a result, the ACA’s “continuing
adoption” of state law does not evade the Constitution’s
lawmaking requirements. ICWA does: § 1915(c)
contemplates that tribal “resolution[s]” will supersede
law already enacted in §§ 1915(a) and (b).138
Defendants next rely on United States v. Mazurie.
That decision addressed whether, pursuant to a federal
statute, a tribe could regulate alcohol sales on nonIndian fee lands within the boundaries of its reservation.
419 U.S. at 546–48, 95 S. Ct. 710. The Supreme Court
held the tribe could do so on two grounds. First,
limitations on delegating legislative power are “less
stringent in cases where the entity exercising the
delegated authority itself possesses independent
authority over the subject matter.” Id. at 556, 95 S. Ct.
710 (citing United States v. Curtiss-Wright Export
Corp., 299 U.S. 304, 319–22, 57 S. Ct. 216, 81 L. Ed. 255
(1936)). Second, “tribes are unique aggregations
possessing attributes of sovereignty over both their
members and their territory,” which empowers them to
138

The same may be said for the Federal Tort Claims Act (“FTCA”),
on which Defendants also rely. The FTCA makes the United States
liable in tort “in accordance with the [state] law of the place where
the act or omission occurred.” 28 U.S.C. § 1346(b)(1). Like the ACA,
the FTCA completes the federal framework by adopting state law.

349a
“regulate[ ] their internal and social relations.” Mazurie,
419 U.S. at 557, 95 S. Ct. 710 (citing Worcester, 31 U.S.
at 557; Kagama, 118 U.S. at 381–82, 6 S. Ct. 1109;
McClanahan v. Ariz. State Tax Comm’n, 411 U.S. 164,
173, 93 S. Ct. 1257, 36 L. Ed. 2d 129 (1973)). Mazurie does
not apply to § 1915(c) for three reasons.
First, Indian tribes lack “independent authority”
over off-reservation matters. The Supreme Court—
citing Mazurie—has held that tribes’ “unique and
limited” sovereignty “centers on the land held by the
tribe and on tribal members within the reservation.”
Plains Commerce Bank, 554 U.S. at 330, 128 S. Ct. 2709
(citing Mazurie, 419 U.S. at 557, 95 S. Ct. 710). Section
1915(c), however, empowers tribes to alter placement
preferences with respect to off-reservation activities.
Second, tribes have only sharply limited authority over
nonmembers. See, e.g., Montana v. United States, 450
U.S. 544, 565, 101 S. Ct. 1245, 67 L. Ed. 2d 493 (1981)
(holding a tribe’s “inherent sovereign powers ... do not
extend to the activities of nonmembers of the tribe”).
Section 1915(c), however, empowers tribes to affect the
rights of non-Indian foster and adoptive parents. Third,
and most importantly, Mazurie does not even hint that
tribes have authority to bind state courts and agencies.
To the contrary, the statute in Mazurie explicitly
provided that tribal ordinances could be promulgated
only “so long as state law was not violated.” 419 U.S. at
547, 95 S. Ct. 710 (citing 18 U.S.C. § 1161). Thus, Mazurie
could not support the proposition that Congress can
delegate to a tribe authority to bind state courts or

350a
agencies. Defendants cite no other authority for that
unheard-of proposition.139
***
For these reasons, we hold that § 1915(c) and its
implementing regulations unconstitutionally delegate
federal legislative power.
D. Administrative Procedure Act
We now consider whether the Final Rule violates
the APA. The district court held it did for three reasons.
First, the court set aside the parts of the Final Rule that
implement the statutory provisions the court found
unconstitutional. Brackeen, 338 F.Supp.3d at 541-41.
Second, in the alternative the court found the BIA
exceeded its authority by issuing regulations binding on
state courts. Id. at 542-44. See 81 Fed. Reg. at 38,785–86.
Third, the court separately found invalid 25 C.F.R.
§ 23.132(b), which requires that “good cause” to depart
from the placement preferences be proved by clear and
convincing evidence. Id. at 544-46. The panel reversed.
Brackeen, 937 F.3d at 437–41. It found ICWA
139

JUDGE DENNIS suggests that, regardless of a tribe’s inherent
sovereignty, Congress can extend a tribe’s jurisdiction over state
proceedings through “express authorization” in a federal statute or
treaty. DENNIS OP. at 128 (quoting Strate v. A-1 Contractors, 520
U.S. 438, 445, 117 S. Ct. 1404, 137 L. Ed. 2d 661 (1997)). No authority
supports that proposition. The case JUDGE DENNIS cites addresses,
like Mazurie, only whether Congress may authorize tribes to
exercise authority over nonmembers within their reservations. See
Bugenig v. Hoopa Valley Tribe, 266 F.3d 1201, 1223 (9th Cir. 2001)
(en banc) (upholding federal statute that “ratified” tribe’s governing
documents giving it power to regulate reservation property,
including nonmembers’ property).

351a
constitutional, id. at 437, and the BIA’s interpretive
views entitled to Chevron deference, id. at 438–41.
We review the agency’s interpretation of ICWA
under the two-step framework from Chevron, USA, Inc.
v. Natural Resources Defense Council, Inc., 467 U.S.
837, 104 S. Ct. 2778, 81 L. Ed. 2d 694 (1984); see
generally, e.g., Sw. Elec. Power Co., 920 F.3d at 1014
(discussing Chevron). At step one, we ask “whether
Congress has directly spoken to the precise question at
issue.” Chevron, 467 U.S. at 842, 104 S. Ct. 2778. We
answer that question by “exhaust[ing] all the ‘traditional
tools’ of construction,” including “text, structure,
history, and purpose.” Kisor v. Wilkie, 139 S. Ct. 2400,
2415, 204 L. Ed. 2d 841 (2019) (quoting Chevron, 467 U.S.
at 843 n.9, 104 S. Ct. 2778; Pauley v. BethEnergy Mines,
Inc., 501 U.S. 680, 707, 111 S. Ct. 2524, 115 L. Ed. 2d 604
(1991) (Scalia, J., dissenting)). If that holistic reading of
the statute settles the matter, Chevron ends: we “must
give effect to the unambiguously expressed intent of
Congress.” Chevron, 467 U.S. at 842–43, 104 S. Ct. 2778.
On the other hand, if the statute is “truly ambiguous” on
the question, Kisor, 139 S. Ct. at 2414, we proceed to step
two, “asking whether the agency’s construction of the
statute is ‘permissible.’” Sw. Elec. Power Co., 920 F.3d
at 1014 (quoting Chevron, 467 U.S. at 843, 104 S. Ct.
2778). A permissible construction is one that
“reasonabl[y] accommodat[es] ... conflicting policies that
were committed to the agency’s care by the statute.”
Chevron, 467 U.S. at 845, 104 S. Ct. 2778 (quoting United
States v. Shimer, 367 U.S. 374, 382, 81 S. Ct. 1554, 6 L.
Ed. 2d 908 (1961)).

352a
1.
Having found parts of ICWA unconstitutional
(supra III(A)–(C)), we agree with the district court that
the Final Rule is invalid to the extent it implements
those unconstitutional statutory provisions. See
Brackeen, 338 F.Supp.3d at 541–42; see also 5 U.S.C.
§ 706(2)(A) (authorizing courts to set aside “unlawful”
agency action); see also F.C.C. v. Fox Television
Stations, Inc., 556 U.S. 502, 516, 129 S. Ct. 1800, 173 L.
Ed. 2d 738 (2009) (explaining “unlawful” agency action
“includes unconstitutional action”); Texas v. United
States, 497 F.3d 491, 500–01 (5th Cir. 2007) (observing
“[t]he authority of administrative agencies is
constrained by the language of the statutes they
administer”) (citing Massachusetts v. EPA, 549 U.S.
497, 532, 127 S. Ct. 1438, 167 L. Ed. 2d 248 (2007)). In the
alternative, we address below the more specific grounds
on which the district court concluded the Final Rule was
unlawful.
2.
The district court found the Final Rule invalid
because it purports to bind state courts’ implementation
of ICWA. Its ruling appears to rely on both Chevron
step one and two. See Brackeen, 338 F.Supp.3d at 542–
44. Defending the ruling on appeal, Individual Plaintiffs
focus on step two, arguing the BIA’s “novel
interpretation” of its authority in the Final Rule—which
reverses BIA’s position in the 1979 guidelines—does not
merit Chevron deference. See Chamber of Commerce v.
U.S. Dep’t of Labor, 885 F.3d 360, 380–81 (5th Cir. 2018)
(treating this “novel interpretation” argument under
Chevron step two). We resolve this question under step

353a
two. Therefore, we assume ICWA is “silent or
ambiguous” on whether the BIA has authority to bind
state courts. Chevron, 467 U.S. at 843, 104 S. Ct. 2778.
We ask only whether the BIA’s 2016 stance is a
“permissible construction of the statute.” Id.
In 1979, mere months after enactment, the BIA
emphatically concluded that ICWA did not authorize the
agency to bind state courts’ implementation of the
statute. 44 Fed. Reg. at 67,584. It would be “an
extraordinary step,” the BIA wrote, “[f]or Congress to
assign to an administrative agency such supervisory
control over courts.” Id. The agency recognized that
§ 1952 authorized it to issue rules “necessary to carry out
[ICWA].” Id. But § 1952, the BIA explained, allowed it
to make binding rules only for those parts of ICWA
delegating interpretive responsibility to the Secretary
of the Interior. Id.140 “Nothing” in the section’s text or
history, however, suggested Congress wanted the
agency to “exercise supervisory control over state or
tribal courts or to legislate for them with respect to
Indian child custody matters.” Id. The agency declined
to attribute to Congress “a measure so at odds with
concepts of both federalism and separation of powers ...
in the absence of an express declaration of Congressional
140

As an example, the agency cited § 1918, under which “the
Secretary is directed to determine whether a plan for reassumption
of jurisdiction is ‘feasible’ as that term is used in the statute.” 44
Fed. Reg. at 67,584. The agency noted it had already promulgated
regulations covering this section as well as “other areas where
primary responsibility for implementing portions of the Act rest
with this Department.” Id. (citing 44 Fed. Reg. 45,092 (July 31,
1979)).

354a
intent to that effect.” Id. After operating with this
understanding for 37 years, however, the agency
reversed course in 2016, determining that § 1952
authorizes it to “set binding standards for Indian childcustody proceedings in State courts.” 81 Fed. Reg. at
38,785.
When an agency abruptly departs from a
longstanding position, its “‘current interpretation ... is
entitled to considerably less deference.’” Chamber of
Commerce, 885 F.3d at 381 (quoting Watt v. Alaska, 451
U.S. 259, 272–73, 101 S. Ct. 1673, 68 L. Ed. 2d 80 (1981)).
Here, the agency “claims to discover in a long-extant
statute an unheralded power” of binding state courts’
implementation of ICWA, and so we “greet its
announcement with a measure of skepticism.” Util. Air
Regul. Grp. v. EPA, 573 U.S. 302, 324, 134 S. Ct. 2427,
189 L. Ed. 2d 372 (2014) (“UARG”). Indeed, BIA’s
“turnaround” from its previous stance “alone gives us
reason to withhold approval or at least deference for the
Rule.” Chamber of Commerce, 885 F.3d at 381 (citing
Gen. Elec. Co. v. Gilbert, 429 U.S. 125, 142, 97 S. Ct. 401,
50 L. Ed. 2d 343 (1976)). This principle is especially
prescient where, as here, the agency’s new position is
“not a contemporaneous interpretation of [ICWA]” and
“flatly contradicts the position which the agency had
enunciated at an earlier date, closer to the enactment of
the governing statute.” Id. (quoting Gilbert, 429 U.S. at
142, 97 S. Ct. 401); see also Udall v. Tallman, 380 U.S. 1,
16, 85 S. Ct. 792, 13 L. Ed. 2d 616 (1965) (giving
“particular[ ] ... respect” to the “contemporaneous
construction of a statute by the men charged with the
responsibility of setting its machinery in motion”)

355a
(cleaned up). To be sure, an agency’s changing its mind
does not alone defeat Chevron deference. See, e.g.,
Gonzalez-Veliz v. Barr, 938 F.3d 219, 234 (5th Cir. 2019)
(“An agency is not permanently bound to the first
reasoned decision that it makes.”). But the agency must
“show that there are good reasons for the new policy” by
providing a “reasoned explanation” for departing from
its previous position. Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2126, 195 L. Ed. 2d 382 (2016)
(quoting Fox Television Stations, 556 U.S. at 515–16, 129
S. Ct. 1800).141 The BIA has failed to do so here.
The 1979 BIA explained that empowering a federal
agency to control state courts would be an
“extraordinary” subversion of federalism and separation
of powers. 44 Fed. Reg. at 67,584. BIA’s 2016 response
to this point can charitably be described as anemic. The
141

JUDGE DENNIS criticizes us for including the agency’s reversal
“as a component of Chevron step two.” DENNIS OP. at 143. As our
discussion shows, however, both our court and the Supreme Court
have considered under Chevron step two an agency’s reversal-ofposition, as well as its belated discovery of novel authority in
statutes it has long administered. See Encino Motorcars, 136 S. Ct.
at 2125–26; UARG, 573 U.S. at 324, 134 S. Ct. 2427; Chamber of
Commerce, 885 F.3d at 380–81, 387; see also, e.g., Environmental
Integrity Project v. EPA, 969 F.3d 529, 544 (5th Cir. 2020)
(explaining “we take the agency’s change of position into account”
in deciding whether to apply Skidmore deference). JUDGE DENNIS
himself concedes that, when assessing an agency’s reading of a
statute, “Chevron deference may be withheld if the agency failed to
adequately explain why it shifted to its current interpretation.”
DENNIS OP. at 142 (citing Encino Motorcars, 136 S. Ct. at 2125).
That is the question we confront here—whether the BIA failed to
justify its discovery in § 1952 of authority whose existence it had
denied for the prior forty years.

356a
agency now says it “reconsidered” its 1979 view because
“Congress enacted ICWA to curtail State authority in
some respects,” including state court authority. 81 Fed.
Reg. at 38,788–89. But that fails to address the serious
question central to the agency’s 1979 position—namely,
whether Congress intended the BIA to control state
courts. The agency also now points out that Congress
can “pass laws enforceable in state courts.” Id. at 38,789
(citing, inter alia, Testa, 330 U.S. at 394, 67 S. Ct. 810).
But that settled principle long pre-dates the 1979
guidelines and, again, says nothing about whether a
federal agency can control state courts. Moreover, as
discussed, the Final Rule also purports to control state
agencies, supra III(B)(1), which raises anticommandeering problems the BIA ignores. The BIA
also invokes Congress’s “plenary power over Indian
affairs,” 81 Fed. Reg. at 38,789, but we have explained
that mouthing that shibboleth is not enough to override
state sovereignty. Supra II(A). Finally, purportedly
addressing the “Federalism concerns it noted in 1979,”
the BIA now cites the Supreme Court’s Brand X
decision. 81 Fed. Reg. at 38,789 (citing Nat’l Cable &
Telecomm. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 983, 125 S. Ct. 2688, 162 L. Ed. 2d 820 (2005)). But
Brand X has nothing to do with federalism; rather, it
addresses when a federal court’s interpretation of a
statute may deny Chevron deference to a federal
agency’s later interpretation. See id. at 982, 125 S. Ct.
2688 (holding federal court trumps if “its construction
follows from the [statute’s] unambiguous terms”).
The 1979 BIA also concluded that neither § 1952’s
language or history showed Congress gave the agency

357a
supervisory power over state courts. 44 Fed. Reg. at
67,584. The agency reasoned that, by authorizing rules
“necessary to carry out” ICWA, § 1952 only empowered
the BIA to issue regulations “to carry out the
responsibilities Congress had assigned to [the
Department] under [ICWA].” Id. BIA’s 2016 response
fails to engage this reasoning. It merely says that § 1952
is a “broad and general grant of rulemaking authority”
and that courts have held that similar provisions
“presumptively authorize agencies to issue rules and
regulations addressing matters covered by the statute.”
81 Fed. Reg. at 38,786. That ducks the point entirely. No
one doubts the language in § 1952 authorizes agency
rulemaking. See, e.g., Mourning v. Family Pub. Serv.,
411 U.S. 356, 369, 93 S. Ct. 1652, 36 L. Ed. 2d 318 (1973).
The 1979 BIA asked a different question: whether § 1952
authorizes regulations that bind state courts in state
proceedings. See 44 Fed. Reg. at 67,584 (“Nothing in the
language or legislative history of § 1952 compels the
conclusion that Congress intended to vest this
Department with such extraordinary power.”). No case
cited by the 2016 BIA confronts that question.142 Only
142

See 81 Fed. Reg. at 38,785 (citing AT&T Corp. v. Iowa Utils. Bd.,
525 U.S. 366, 378, 119 S. Ct. 721, 142 L. Ed. 2d 835 (1999); Am. Hosp.
Ass’n v. Nat’l Labor Relations Bd., 499 U.S. 606, 609–10, 111 S. Ct.
1539, 113 L. Ed. 2d 675 (1991); Mourning, 411 U.S. at 369, 93 S. Ct.
1652; City of Arlington v. FCC, 569 U.S. 290, 133 S. Ct. 1863, 1874,
185 L. Ed. 2d 941 (2013); Qwest Comm’ns Int’l Inc. v. FCC, 229 F.3d
1172, 1179 (D.C. Cir. 2000)). Of these cases, JUDGE DENNIS focuses
on Mourning because the agency-empowering language there was
“nearly identical” to § 1952. DENNIS OP. at 141 & n.65. That is
irrelevant, however, because Mourning did not address a federal
agency’s power over state courts or agencies; instead, it addressed
the scope of the Federal Reserve Board’s power to prevent

358a
one—AT&T Corp. v. Iowa Utilities Board—even comes
close, but it holds only that a federal agency can control
a state commission’s participation in a federal
telecommunications regime. See 525 U.S. 366, 378 n.6,
119 S. Ct. 721, 142 L. Ed. 2d 835 (1999) (asking whether
“the state commissions’ participation in the
administration of the new federal regime is to be guided
by federal-agency regulations”). Here we have the
opposite question: whether a federal agency can control
state courts and agencies acting under state jurisdiction.
The 1979 BIA concluded ICWA did not intend that
“extraordinary step,” 44 Fed. Reg. at 67,584, and the
2016 BIA offers no reason whatsoever for thinking
otherwise.
Finally, the BIA defends its new approach as needed
to harmonize “sometimes conflicting” state court
interpretations of ICWA over past decades. 81 Fed.
Reg. at 38,782. Merely because state courts have
sometimes disagreed about ICWA, however, says
nothing about whether Congress empowered the BIA to
control how state courts interpret it. Cf. 44 Fed. Reg. at
67,584 (stating 1979 BIA’s view that state courts “are
fully capable of carrying out the[ir] responsibilities
[under ICWA] without being under the direct
supervision of this Department”). Regardless, the BIA’s
2016 examples hardly show the “necessity” for such
authority. Its prime example is that some courts created

merchants from evading certain Truth in Lending Act disclosure
requirements. 411 U.S. at 361–62, 93 S. Ct. 1652.

359a
an “existing Indian family” exception to ICWA.143 But,
as the agency admits, the exception was repudiated by
the court that created it, is now recognized by “[o]nly a
handful” of courts, and has been rejected by a “swelling
chorus” of others. 81 Fed. Reg. at 38,801–02.
Also unpersuasive is the BIA’s reliance on
Holyfield. Id. at 38,786. Holyfield held that Congress did
not intend state law to define the term “domicile” in
ICWA § 1911, which gives tribes sole jurisdiction over
on-reservation children. 490 U.S. at 44–47, 109 S. Ct.
1597. The BIA claims that, in 1979, it lacked “the benefit
of the Holyfield Court’s carefully reasoned decision”
showing how ICWA could be undermined by “a lack of
uniformity” among state courts. 81 Fed. Reg. at 38,787.
That does not hold water. Holyfield pitted one state
court’s errant interpretation of ICWA against correct
interpretations by “several other state courts”—hardly
an interpretive crisis. 490 U.S. at 41 & n.14, 109 S. Ct.
1597. Moreover, the case involved ICWA’s “key
jurisdictional provision” dividing tribal from state
authority, id. at 45, 109 S. Ct. 1597, not any provision
governing how state courts apply ICWA. Cf. 44 Fed.
Reg. at 67,584 (1979 BIA disclaiming authority over
provisions concerning “the responsibilities of state or
tribal courts under the Act”). And Holyfield was on the
books for 27 years before BIA claimed the decision
inspired its 2016 policy change. 81 Fed. Reg. at 38,787.

143

See 81 Fed. Reg. 38782 (citing, e.g., Thompson v. Fairfax Cty.
Dep’t of Family Servs., 62 Va.App. 350, 747 S.E.2d 838, 847–48
(2013)).

360a
We treat that late-breaking revelation “with a measure
of skepticism.” UARG, 573 U.S. at 324, 134 S. Ct. 2427.
We therefore conclude the 2016 Rule fails to provide
a “reasoned explanation”144 for reversing the agency’s
nearly forty-year-old interpretation of § 1952 and
discovering novel authority to bind state courts. Encino
Motorcars, 136 S. Ct. at 2126 (quoting Fox Television
Stations, 556 U.S. at 515–16, 129 S. Ct. 1800). “An
arbitrary and capricious regulation of this sort is itself
unlawful and receives no Chevron deference.” Id. (citing
United States v. Mead Corp., 533 U.S. 218, 227, 121 S. Ct.
2164, 150 L. Ed. 2d 292 (2001)).
3.
The district court separately invalidated 25 C.F.R.
§ 23.132(b), part of the Final Rule that interprets the
“good cause” standard in § 1915. That provision
mandates specific placements for Indian children “in the
absence of good cause to the contrary.” See § 1915(a), (b).
In turn, the Final Rule states: “The party seeking
departure from the placement preferences should bear
the burden of proving by clear and convincing evidence
144

JUDGE DENNIS disagrees, arguing the BIA needed to provide
only a “minimal level of analysis” for its new position. DENNIS OP.
at 146 (quoting Encino Motorcars, 136 S. Ct. at 2125). But that is
not the standard. When agencies “change their existing policies,”
they must “provide a reasoned explanation for the change.” Encino
Motorcars, 136 S. Ct. at 2125; see also id. (explaining “a reasoned
explanation is needed for disregarding facts and circumstances that
underlay or were engendered by the prior policy”) (quoting Fox
Television Stations, 556 U.S. at 515–16, 129 S. Ct. 1800). As
explained, the 2016 BIA has not provided a “reasoned explanation”
for its about-face. It has provided a series of non sequiturs.

361a
that there is ‘good cause’ to depart from the placement
preferences.” 25 C.F.R. § 23.132(b) (emphasis added); see
also 81 Fed. Reg. at 38,844. The district court
invalidated this part of the rule under Chevron step one,
concluding it imposes a heightened burden of proof on
§ 1915 without statutory warrant. Brackeen, 338
F.Supp.3d at 545-46. We agree.
The step one inquiry is whether the statute
unambiguously forecloses the agency’s interpretation—
here, specifying a heightened burden for proving “good
cause” under § 1915. That section says nothing about a
burden of proof, as the BIA admits. See 81 Fed. Reg. at
38,843 (noting the clear-and-convincing standard “is not
articulated in section 1915”). The presumption, then, is
that the section incorporates, not a heightened standard
of proof, but the normal preponderance standard. See,
e.g., Grogan v. Garner, 498 U.S. 279, 286, 111 S. Ct. 654,
112 L. Ed. 2d 755 (1991) (statutory “silence” is
“inconsistent with the view that Congress intended to
require a special, heightened standard of proof”). But we
need not rely solely on that presumption: at step one, we
look beyond the “particular statutory provision in
isolation” and read the statute “as a symmetrical and
coherent regulatory scheme.” Sw. Elec. Power Co., 920
F.3d at 1023 (cleaned up). Doing so, we find that
Congress imposed a “clear and convincing evidence”
standard in a nearby provision: § 1912(e) forbids foster
placement unless “clear and convincing evidence” shows
likely harm from the parent’s continued custody. The
next subsection, § 1912(f), demands an even higher
showing—”beyond a reasonable doubt”—before
terminating the parent’s rights. Congress thus

362a
deliberately included heightened standards for proving
certain matters in § 1912(e) and (f), but not for proving
“good cause” in § 1915.145 We thus conclude Congress
elected not to impose a heightened standard in § 1915,
foreclosing the agency’s interpretation at Chevron step
one. See Chamber of Commerce, 885 F.3d at 369 (when
statute
“unambiguously
forecloses”
agency
interpretation, “that is the end of the matter”) (quoting
Chevron, 467 U.S. at 842–43, 104 S. Ct. 2778) (cleaned
up).
JUDGE DENNIS suggests this “negative-implication”
canon of statutory construction does not apply when
assessing the permissible scope of agency action.
DENNIS OP. at 148–49. See generally Jennings v.
Rodriguez, 138 S. Ct. 830, 844, 200 L. Ed. 2d 122 (2018)
(discussing negative-implication or expressio unius est
exclusio alterius canon) (citing SCALIA & GARNER,
READING LAW 107 (2012)). We disagree. Courts are to
use “all the ‘traditional tools’ of construction” at Chevron
step one. Kisor, 139 S. Ct. at 2415 (quoting Chevron, 467
U.S. at 843 n.9, 104 S. Ct. 2778). And both the Supreme
Court and our court have deployed the negativeimplication canon in the step one analysis.146 The
145

See Keene Corp. v. United States, 508 U.S. 200, 208, 113 S. Ct.
2035, 124 L. Ed. 2d 118 (1993) (“‘[W]here Congress includes
particular language in one section of a statute but omits it in another
..., it is generally presumed that Congress acts intentionally and
purposely in the disparate inclusion or exclusion.’”) (quoting
Russello v. United States, 464 U.S. 16, 23, 104 S. Ct. 296, 78 L. Ed.
2d 17 (1983)).
146

See, e.g., Barnhart v. Sigmon Coal Co., Inc., 534 U.S. 438, 452,
122 S. Ct. 941, 151 L. Ed. 2d 908 (2002); Brown v. Gardner, 513 U.S.
115, 120, 115 S. Ct. 552, 130 L. Ed. 2d 462 (1994); Acosta v. Hensel

363a
Chevron cases JUDGE DENNIS cites—which in any event
are all out-of-circuit—merely show that the canon
sometimes does not resolve step one. For instance, by
including an agency mandate in one section but not
another, Congress “may simply not have been focusing
on the point in the second context” and so left “the choice
... up to the agency.” Clinchfield Coal Co. v. Fed. Mine
Safety & Health Rev. Comm’n, 895 F.2d 773, 779 (D.C.
Cir. 1990); see also, e.g., Catawba County v. EPA, 571
F.3d 20, 36 (D.C. Cir. 2009). There is no evidence of that
here, however. To the contrary, Congress explicitly
mandated heightened standards-of-proof in sections
addressing foster and adoptive placements (§ 1912(e)
and (f)), but not in a nearby section (§ 1915) addressing
departures from placement preferences. Far from
suggesting Congress left the standard-of-proof up to the
agency, this pattern “signals the intentional omission” of
a heightened standard from § 1915, a decision the agency
cannot second-guess. Chamber of Commerce, 885 F.3d
at 373 (citing Russello, 464 U.S. at 23, 104 S. Ct. 296).
Sitting this debate out, the Federal Defendants’ sole
response is that the Final Rule suggests but does not
require the clear-and-convincing-evidence standard.
They argue that § 23.132(b) says only that courts
“should” impose that standard, and also point out that
the regulations state the rule “does not categorically
require [it]” and “declines to establish a uniform
standard of proof.” 81 Fed. Reg. 38,843. We are unsure
Phelps Constr. Co., 909 F.3d 723, 732 (5th Cir. 2018); Chamber of
Commerce, 885 F.3d at 373; Luminant Generation Co., LLC v.
EPA, 675 F.3d 917, 929 (5th Cir. 2012); Miss. Poultry Ass’n, Inc. v.
Madigan, 992 F.2d 1359, 1363–64 & n.29 (5th Cir. 1993).

364a
what to make of this strange argument. The Final Rule’s
whole purpose was to impose “uniformity” on state
courts, id. at 38,779, and the term “should” often
“create[s] mandatory standards.” Should, GARNER’S
DICTIONARY OF LEGAL USAGE (3d ed. 2011). Moreover,
the state courts hearing Plaintiffs’ cases have not read
the rule as a mere suggestion. Thus, whatever credence
we might give to the Federal Defendants’ view, we
would still find the rule invalid at step one because it
seeks to create (and has in fact created) a heightened
standard-of-proof in contravention of § 1915.
Alternatively, we would find this part of the rule
invalid at Chevron step two. As discussed above, we
view with “skepticism” an agency’s departure from
longstanding practices, especially those adopted
contemporaneously with the statute’s enactment.
Chamber of Commerce, 885 F.3d at 381 (quoting UARG,
573 U.S. at 324, 134 S. Ct. 2427); supra III(D)(1). The
BIA’s 2016 treatment of the § 1915 “good cause”
determination is strikingly at odds with its 1979 position.
In 1979, the BIA wrote that ICWA’s “use of the term
‘good cause’ was designed to provide state courts with
flexibility in determining the disposition of a placement
proceeding involving an Indian child.” 44 Fed. Reg. at
67,484. This supported BIA’s position that “[p]rimary
responsibility for interpreting” ICWA’s language “rests
with the courts that decide Indian child custody cases.”
Id. In 2016, BIA did a 180-degree reversal—seeking to
impose a one-size-fits-all standard on what it previously
stated was a “flexible” inquiry—without giving the
“reasoned explanation” needed to justify discarding a
longstanding agency view. Gonzalez-Veliz, 938 F.3d at

365a
234 (quoting Encino Motorcars, 136 S. Ct. at 2126). The
agency’s sole justification was that state courts have
“almost universally” adopted this standard. 81 Fed. Reg.
at 38,843. But that undermines the agency’s position. A
near-consensus by state courts in applying the statute—
one they have “primary responsibility” for
administering, 44 Fed. Reg. at 67,487—hardly justifies
the BIA’s newfound view that it must impose uniformity
on those same courts.
E. Remedy
We now address the question of remedy. Plaintiffs’
second amended complaint, the one operative here,
sought a declaration that specific sections of ICWA are
unconstitutional and an injunction prohibiting the
Federal
Defendants
from
implementing
or
administering those sections. It also sought vacatur of
the Final Rule. The district court, however, granted only
declaratory relief as to specific provisions of ICWA and
the Final Rule, and Plaintiffs have not cross-appealed
seeking to modify the district court’s judgment. See, e.g.,
Cooper Indus., Ltd. v. Nat’l Union Fire Ins. Co. of
Pittsburgh, Pa., 876 F.3d 119, 127 (5th Cir. 2017)
(explaining that “even a prevailing party must file a
cross-appeal to seek a modification of a judgment”)
(citing Ward v. Santa Fe Indep. Sch. Dist., 393 F.3d 599,
604 (5th Cir. 2004)). Having found discrete parts of
ICWA and the Final Rule unconstitutional and unlawful,
we would therefore affirm the district court’s judgment
to that extent. Specifically: (1) we would declare that the

366a
noted sections of ICWA are unconstitutional;147 and (2)
we would declare that the noted provisions of the Final
Rule are unlawful under § 706 of the APA.148
Finally, a word about severability. The modern
Supreme Court applies a “severability doctrine” to
determine whether invalid parts of a statute may be
excised from the rest. See, e.g., Free Enter. Fund, 561
U.S. at 508, 130 S. Ct. 3138 (“‘Generally speaking, when
confronting a constitutional flaw in a statute, we try to
limit the solution to the problem,’ severing any
‘problematic portions while leaving the remainder
intact.’”) (quoting Ayotte v. Planned Parenthood of
Northern New Eng., 546 U.S. 320, 328–29, 126 S. Ct. 961,
163 L. Ed. 2d 812 (2006)). For at least two reasons,
however, we need not perform that analysis here.
First, Plaintiffs do not challenge all of ICWA but
only particular provisions. We can therefore grant
Plaintiffs appropriate relief without delving into
severability.149 In that way, this case differs from cases

147

Those are: (1) 25 U.S.C. §§ 1915(a), 1915(b), 1913(d), 1914 (equal
protection); (2) 25 U.S.C. §§ 1912(a), 1912(d), 1912(e), 1912(f),
1915(a), 1915(b), 1915(e), 1951(a) (anti-commandeering); and (3) 25
U.S.C. § 1915(c) (nondelegation).
148

Those are: (1) all parts of the Final Rule that implement the
ICWA provisions declared unconstitutional; (2) all parts of the Final
Rule that purport to bind state courts; and (3) the requirement in
25 C.F.R. § 23.132(b) that good cause to depart from the placement
preferences be proved “by clear and convincing evidence.”
149

See, e.g., 28 U.S.C. § 2201(a) (authorizing courts to “declare the
rights and other legal relations of any interested party” in “a case
of actual controversy within its jurisdiction”); 5 U.S.C. § 706(2)

367a
where deciding severability was necessary to fashion
appropriate relief. Cf., e.g., Barr v. Am. Ass’n of Pol.
Consultants, 140 S. Ct. 2335, 2349, 207 L. Ed. 2d 784
(2020) (plaintiffs invoked “ordinary severability
principles” to argue for complete relief on their First
Amendment claim); Seila Law LLC v. Consumer Fin.
Prot. Bureau, 140 S. Ct. 2183, 2208, 207 L. Ed. 2d 494
(2020) (observing “[t]here is a live controversy between
the parties on th[e] question [of severability], and
resolving it is a necessary step in determining
petitioner’s entitlement to its requested relief”). Second,
the parties’ briefing contains little substantive analysis
on this point. We decline to perform a severability
analysis of a complex statute like ICWA when the
parties have not deeply engaged with the issue.150

(authorizing courts to “hold unlawful and set aside agency action,
findings, and conclusions” under various circumstances).
150

Even were we so inclined, we note that ICWA contains a
severability clause. See 25 U.S.C. § 1963. In that event, “[a]t least
absent extraordinary circumstances, the Court should adhere to the
text of the severability or nonseverability clause” because the
clause “leaves no doubt about what the enacting Congress wanted
if one provision of the law were later declared unconstitutional.”
American Ass’n, 140 S. Ct. at 2349.

368a
PRISCILLA R. OWEN, Chief Judge, concurring in part,
dissenting in part.
I.
A.
I first consider whether the States have standing.
For the reasons articulated in JUDGE DENNIS’s and
JUDGE COSTA’s opinions,1 the States do not have
standing to assert in this suit that the Indian Child
Welfare Act of 1978 (ICWA)2 violates the Equal
Protection Clause of the Fifth Amendment. As to all
other claims, I conclude that the States do have
standing.
The States have asserted various, often overlapping,
claims in Counts I through IV and Count VII of the live
complaint in the district court—the Second Amended
Complaint. Briefly summarized, the States seek a
determination that Congress did not have the authority
to supplant state law in child-welfare and adoption cases
with certain directives in ICWA, and that Congress
cannot require state courts to follow ICWA. The States
also contend that the Bureau of Indian Affairs (BIA)
violated the Administrative Procedure Act (APA) and
the federal Constitution when it promulgated the Final
Rule (Count I). The States contend that the Indian
Commerce Clause did not empower Congress to enact
certain provisions of ICWA (Count II); that adoption,
foster care, and pre-adoptive placement of “Indian
1

See Dennis, J., concurring and dissenting, part I(A)(1), p. 39 n.13;
Costa, J., concurring and dissenting, part I, p. 3 n.2.
2

25 U.S.C. §§ 1901-1923, 1951-1952.

369a
children” are not permissible subjects of regulation
under the Tenth Amendment (Count III); that ICWA
and the Final Rule violate anti-commandeering
principles under the Tenth Amendment (Count III); that
ICWA and the Final Rule violate the Equal Protection
Clause of the Fifth Amendment (Count IV); and that
ICWA and the Final Rule violate the non-delegation
doctrine of Article I, Section 1 because they “delegate to
Indian tribes the legislative and regulatory power to
pass resolutions in each Indian child custody proceeding
that alter the placement preferences state courts must
follow” (Count VII).
The States complain about the costs of complying
with ICWA and the Final Rule, including the hours and
resources that child-welfare agencies expend, costs
borne by the States to employ experts, and the time
consumed in state-court proceedings resolving ICWA
issues. The States further contend they “are directly and
substantially injured by the delegation of power over
placement preferences because it violates the
Constitution’s separation of powers through abdication
of Congress’s legislative responsibility and requires
State Plaintiffs to honor the legislation and regulation
passed by tribes in each child custody matter, which can
vary widely from one child to the next and one tribe to
another.”
The States have adequately alleged that they are
injured by ICWA and the Final Rule for standing
purposes.3 The determinative question is whether those
3

See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 112 S. Ct. 2130,
119 L. Ed. 2d 351 (1992) (“[T]he plaintiff must have suffered an
injury in fact—an invasion of a legally protected interest which is

370a
injuries could be redressed if a federal court were to
grant the relief the States seek in this case.
The States seek a declaration that parts of ICWA
are unconstitutional and therefore that state rather than
federal law governs. To the extent the States are
seeking to supplant ICWA with state substantive and
procedural law in child-welfare proceedings, such a
declaration would not redress the States’ injuries
because no state court would be bound by such a
declaration.4 Every state court would, of course, be free
to decide the constitutionality of ICWA de novo because
the rulings of the federal district court and of this court
would not bind state courts and would not bind private
litigants in state court proceedings. For this reason, the
assertion in JUDGE DUNCAN’s opinion that a decision of
this court “would also remove state child welfare
officials’
obligations
to
implement
[ICWA’s]
5
preferences” is, with great respect, incorrect.
The States contended in the district court that
because
various
provisions
of
ICWA
are
unconstitutional, the federal government cannot require
the States to comply with those provisions and therefore
(a) concrete and particularized ... and (b) actual or imminent, not
conjectural or hypothetical.” (citations, footnote, and internal
quotation marks omitted)).
4

See Aransas Project v. Shaw, 775 F.3d 641, 648 (5th Cir. 2014) (per
curiam) (“Redressability requires ‘a likelihood that the requested
relief will redress the alleged injury.’” (quoting Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 103, 118 S. Ct. 1003, 140 L. Ed. 2d
210 (1998))).
5

See DUNCAN, J., concurring and dissenting, part I(B), p. 21.

371a
could not withhold federal funding for child welfare as a
consequence of non-compliance with ICWA. Specifically,
the States requested the district court to hold that
certain statutes authorizing the Secretary to withhold
federal child welfare funds from states that do not
comply with ICWA, including 42 U.S.C. §§ 622(b)(9) and
677(b)(3)(G), are unconstitutional. The States sought an
injunction prohibiting the federal defendants from
implementing or enforcing those statutes in their initial
pleadings.
However, the States did not thereafter pursue any
relief in the district court regarding the withholding of
funds by the federal defendants. The States moved for
summary judgment, but they did not seek summary
judgment or request injunctive relief in their motion
with regard to federal funding of child welfare. They did
not cross-appeal in this court seeking such relief, nor
could they since they did not pursue it in the district
court. The question then arises as to whether there is
redressability at this point in the proceedings, since
standing must be present at each stage of litigation.6
A determination in this case that certain provisions
of ICWA, the Final Rule, or both were unconstitutional
would be a binding determination (res judicata) as
6

Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477-78, 110 S. Ct. 1249,
108 L. Ed. 2d 400 (1990) (“[The] case-or-controversy requirement
subsists through all stages of federal judicial proceedings, trial and
appellate. To sustain our jurisdiction in the present case, it is not
enough that a dispute was very much alive when suit was filed ....”
(first citing Deakins v. Monaghan, 484 U.S. 193, 199, 108 S. Ct. 523,
98 L. Ed. 2d 529 (1988); and then citing Steffel v. Thompson, 415 U.S.
452, 459 n.10, 94 S. Ct. 1209, 39 L. Ed. 2d 505 (1974))).

372a
between those States and the federal government. This
would mean that the States could categorically direct
their child-welfare agencies to cease compliance with the
provisions of ICWA if it were held unconstitutional.
Such relief would address injuries asserted by the States
and establishes the States’ Article III standing to raise
the constitutional challenges to ICWA, other than equal
protection. The States would no longer be burdened with
ICWA’s requirements and would not incur the costs and
expenses associated with compliance unless and until, in
a state-court proceeding, individual plaintiffs asserted
rights under ICWA and a final state-court judgment
were to hold, contrary to a judgment of this court or the
district court, that ICWA is constitutional and the State
is bound by its requirements in that state-court
proceeding. The potential for such a collision between
state and federal courts as to ICWA’s constitutionality
does not mean that federal courts cannot redress the
States’ injuries in the present case. A federal-court
judgment in the States’ favor in this case could
conceivably redress their injuries, though in the longer
term, a state court’s view of the constitutionality of
ICWA might ultimately carry the day were a conflict
between state-court holdings and federal-court holdings
to arise.
A judgment in the present case holding that the
States prevail against the federal defendants on their
claims that ICWA is unconstitutional could also
potentially be the basis for precluding the federal
government from withdrawing funding for a State’s
failure to comply with unconstitutional statutory or
regulatory provisions. Does that mean that the federal

373a
government is prohibited from using a “carrot/stick”
approach to persuade a State to comply with ICWA or
else withdraw funding? That issue was not raised or
briefed in the district court or this court. It has not been
decided. But the point is, it is not improbable that the
relief that the States do continue to seek in the present
case would, in future litigation between the States and
the federal government, preclude the federal
government from withholding child welfare funds under
ICWA as a consequence of the States’ failure to comply
with ICWA. The constitutionality of ICWA would be off
the table in any such future litigation between a State
who is a party to this case and the federal government.
Not all the States’ claims are grounded in the federal
Constitution. The States challenge 24 C.F.R. § 23.132(b)
on the basis that the clear-and-convincing-evidence
standard is contrary to 25 U.S.C. § 1915, and on the basis
that in promulgating the Final Rule, the Bureau of
Indian Affairs (BIA) did not provide a reasoned
explanation for reversing its prior, long-held
interpretation of ICWA. The relief sought by the States
in this regard would redress their complaint that the
Final Rule imposes too high a standard on state agencies
seeking to place a child other than in accordance with
ICWA’s preferences. The Final Rule’s offending
provisions would be abrogated and therefore would not
be a factor or at issue in state-court adoption or
placement proceedings. This would redress the injuries
identified by the States.
Accordingly, I concur in parts I(C) and (D) of JUDGE
DENNIS’s opinion, with the exception of the last sentence
in part I(D).

374a
B.
As to the standing of the individual plaintiffs, I
concur in part I(A)(1) of JUDGE DENNIS’s opinion, and
parts I and II(A) and the final paragraph of part II(B) of
JUDGE COSTA’s opinion.
I add these observations. None of the individual
plaintiffs have standing to press any of their claims,
other than those with regard to the APA and the Final
Rule, because nothing this court has to say about ICWA
binds any state court in adoption or foster care
placement cases when a private party asserts that
ICWA’s provisions are constitutional and must be
applied or that they are unconstitutional and cannot be
applied. Private parties in child-welfare and adoption
proceedings would not be bound by a judgment issued
by a federal district court or this court declaring rights
as between the Brackeens, for instance, and the federal
defendants, or as between the States and the federal
government.
The assertion in JUDGE DUNCAN’s opinion that the
individual plaintiffs’ claims are redressable because the
“Federal Defendants would be barred from inducing
state officials to implement ICWA, including the
preferences, by withholding funding,”7 is, with great
respect, erroneous. None of the individual plaintiffs have
standing to argue that the federal government is
precluded from withholding child welfare funds from a
State. They do not argue that they have a right or
interest that would permit them to insert themselves
7

DUNCAN, J., concurring and dissenting, part I(B), p. 21.

375a
into disputes as to funding between the federal
government and the States under ICWA. The individual
plaintiffs cite no statute or constitutional provision that
would confer such a right. Any relief granted to the
States regarding child-welfare funding under ICWA
would redress the individual plaintiffs’ claims, if at all,
only incidentally and tangentially. In any event, as
discussed above, the States did not pursue in the district
court their request for a declaration that the federal
defendants are barred from withholding child-welfare
funding under ICWA. Such relief was not granted by the
district court, and the States do not seek such relief in
this court. No judgment of this court could now grant the
relief that JUDGE DUNCAN’s opinion says would redress
the individual plaintiffs’ claims regarding ICWA’s
preferences.
The individual plaintiffs do have standing to
challenge the Final Rule. However, even were the Final
Rule abrogated in its entirety, ICWA’s statutory
preferences and other requirements would remain
intact. The individual plaintiffs do not have standing to
challenge ICWA’s provisions directly or in the abstract
in the present case. A judgment of this court would not
resolve any actual case or controversy as between the
individual plaintiffs and the federal defendants, other
than challenges to the Final Rule, for the reasons
considered above and in JUDGE DENNIS’s and JUDGE
COSTA’s opinions.

376a
II.
I agree with the conclusion in JUDGE DENNIS’s
opinion,8 as a general proposition, that Congress had the
authority under the Indian Commerce Clause9 to enact
ICWA. However, I do not join JUDGE DENNIS’s analysis
fully. I join part II(A) of JUDGE COSTA’s opinion as to
this issue.
III.
A.
Because I conclude that neither the States nor the
individual plaintiffs have standing to bring direct equal
protection challenges to ICWA’s statutory provisions, I
would not and do not reach the merits of any of those
claims. To the extent that equal protection claims have
been asserted by the individual plaintiffs in challenging
the Final Rule, I join the final paragraph in part II(B) of
JUDGE COSTA’s opinion. The individual plaintiffs have
standing to assert equal protection challenges to ICWA
in this context. I agree with the conclusion in JUDGE
DENNIS’s opinion that ICWA’s preferences are political
not racial. Those preferences withstand rational-basis
scrutiny. I therefore conclude that the Final Rule did not
violate the Equal Protection Clause in implementing
ICWA’s statutory preferences, including the preference
for “Indian Families.”

8
9

DENNIS, J., concurring and dissenting, part II(A)(1).

U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have Power ... To
regulate Commerce with foreign Nations, and among the several
States, and with the Indian Tribes.”).

377a
B.
Regarding the commandeering and preemption
claims, I join part II(A)(2)(a)(i) of JUDGE DENNIS’s
opinion and part III(B) of JUDGE DUNCAN’s opinion.
To clarify, with regard to part III(B)(1)(a)(iii) of
JUDGE DUNCAN’s opinion, I agree that 25 U.S.C.
§§ 1915(a)-(b), and implementing regulations, in large
measure violate the anti-commandeering doctrine.
However, the placement preferences set forth in that
statute and its implementing regulations, standing
alone, do not commandeer, as JUDGE DUNCAN’s opinion
explains.10 Those federal laws preempt contrary statelaw preferences. The commandeering occurs because
state agencies are directed to undertake action to
identify and assist individuals who might be entitled to
preference over others seeking to adopt or to provide
foster care. To the extent the state courts and state
agencies become aware of individuals who seek to have
ICWA’s preferences applied, ICWA’s preferences
should be followed.
C.
Only the State plaintiffs asserted claims that
Congress impermissibly delegated legislative power to
Indian tribes in ICWA. With regard to the nondelegation issues, I join part II(C) of JUDGE DENNIS’s
opinion.

10

DUNCAN, J., concurring and dissenting, part III(B)(1)(a)(iii), p. 83.

378a
D.
Regarding the APA claims, I join part III(D)(3) of
JUDGE DUNCAN’s opinion. I do not join part III(D)(2) of
that opinion because the discussion as to whether
regulations bind state courts is abstract. It is unclear
from the discussion which regulations purport to bind
state courts separate and apart from statutory
provisions which do bind state courts to the extent the
statutory provisions are constitutional.
E.
I would grant declaratory relief consistent with the
conclusions in this opinion.

379a
JACQUES L. WIENER, JR., Circuit Judge, dissenting in
part:
I concur with JUDGE DENNIS’s Opinion, except for
its holding on standing to challenge 25 U.S.C. § 1915(a)
and (b) on equal protection grounds. I also concur with
JUDGE COSTA in his partial dissent on standing. For the
reasons more explicitly stated below, I write separately
because the Plaintiffs’ second amended complaint is
deficient and should be dismissed for lack of standing.
JUDGES DUNCAN and DENNIS each conclude that
the Individual Plaintiffs, through the Brackeens and
Cliffords, have Article III standing to challenge
§ 1915(a) and (b) of ICWA on equal protection grounds.1
This conveniently allows the Opinions to proceed to the
merits of the Plaintiffs’ equal protection arguments.
Like JUDGE COSTA, I disagree with JUDGES DUNCAN’s
and DENNIS’s conclusions that the Plaintiffs have Article
III standing to challenge § 1915(a) and (b), so I would not
reach the merits of the Plaintiffs’ equal protection claim.
In addition to the redressability problems cited in JUDGE
COSTA’s dissent, JUDGES DUNCAN and DENNIS choose to
ignore three important facts: (1) the date that the most
recent complaint was filed, (2) the Brackeens’ delayed
supplementation of the record, and (3) the fact that the
Cliffords could have appealed their case to the
Minnesota Supreme Court but did not do so. Those facts
are dispositive of the Plaintiffs’ ability to show standing:
The Brackeens and Cliffords (and, by extension, all of
1

JUDGE DENNIS concludes that the Plaintiffs do not have standing
to challenge § 1913(d) and 1914, and I concur for the reasons
provided in that opinion.

380a
the Individual Plaintiffs) do not have standing to
challenge § 1915(a) and (b), so we do not have jurisdiction
to decide whether these parts of ICWA pass
constitutional muster.
I.

Background

The Plaintiffs filed their initial complaint in October
2017, seeking declaratory and injunctive relief, claiming
that ICWA and the Final Rule are unconstitutional and
violate the Administrative Procedure Act.2 At that time,
the Brackeens were attempting to adopt A.L.M., who
qualified as an “Indian child” under ICWA. A.L.M.’s
biological parents voluntarily terminated their parental
rights in May 2017, and the Brackeens completed their
adoption of A.L.M. in January 2018. The Plaintiffs filed a
second amended complaint two months later.
Presumably because they knew that standing would be
an issue, the Brackeens stated that they “also intend to
provide foster care for, and possibly adopt, additional
children in need. Because of their experience with the
Final Rule and ICWA, however, [they] are reluctant to
provide a foster home for other Indian children in the
future.” Despite their reluctance, however, the
Brackeens attempted to adopt A.L.M.’s sister, Y.R.J.,
who was born in June 2018—three months after the
second amended complaint was filed. The Plaintiffs
supplemented the district court record in October 2018
(after it had entered final judgment), notifying the court
that the Brackeens were attempting to adopt Y.R.J. The
2

See Brackeen v. Zinke, 338 F. Supp. 3d 514, 526–46 (N.D. Tex.
2018), rev’d sub nom. 937 F.3d 406 (5th Cir. 2019), reh’g en banc
granted, 942 F.3d 287 (5th Cir. 2019).

381a
Brackeens intervened in a state court adoption
proceeding in November 2018, seeking to terminate the
parental rights of Y.R.J.’s mother—eight months after
the second amended complaint was filed.3
The Plaintiffs also stated in their second amended
complaint that the Cliffords wished to adopt Child P., a
six-year-old girl whom the Cliffords had fostered since
July 2016. With the support of Child P.’s guardian ad
litem, the Cliffords moved to adopt Child P. The
Minnesota court denied their petition in January 2019
because Child P.’s tribe intervened in her case and
invoked ICWA’s placement preferences.4 The Cliffords
appealed the Minnesota court’s order, but the Minnesota
court of appeals affirmed.5 It does not appear that the
Cliffords timely appealed that court’s judgment.
II. Article III Standing
Under Article III of the United States Constitution,
federal courts only have jurisdiction over a “case” or
“controversy.”6 “To establish a ‘case or controversy,’ a
plaintiff must establish that it has standing.”7 Standing
requires that a plaintiff show (1) “an injury in fact” that
3

See In re Y.J., 2019 WL 6904728, at *3 (Tex. App. Dec. 19, 2019).

4

See In re Welfare of the Child in the Custody of: Comm’r of Human
Servs., No. 27-JV-15-483 (4th Dist. Minn. Jan. 17, 2019).
5

In re S.B., No. A19-0225, 2019 WL 6698079, at *6 (Minn. Ct. App.
Dec. 9, 2019).
6
7

See U.S. CONST. art. III, § 2, cl. 1.

Legacy Cmty. Health Servs., Inc. v. Smith, 881 F.3d 358, 366 (5th
Cir. 2018) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–61, 112
S. Ct. 2130, 119 L. Ed. 2d 351 (1992)).

382a
is (2) fairly traceable to the challenged action of the
defendant, and that is (3) likely to be “redressed by a
favorable decision.”8 JUDGES DUNCAN and DENNIS only
analyze standing to challenge § 1915(a) and (b) on equal
protection grounds as to the Brackeens and the
Cliffords. No other Individual or State Plaintiff can show
standing to challenge these provisions of ICWA.
Fatal to the Brackeens’ assertion of standing are the
facts that (1) they had already adopted A.L.M. prior to
the Plaintiffs’ filing of the second amended complaint,
and (2) their stated desires to adopt or provide foster
care for other Indian children were too vague to
constitute an injury in fact. The Brackeens must show
Article III standing both at the time of the filing of the
complaint and throughout the lawsuit.9 The court must
analyze standing at the time that the latest complaint is
filed.10

8

Lujan, 504 U.S. at 560–61, 112 S. Ct. 2130.

9

See Rockwell Int’l Corp. v. United States, 549 U.S. 457, 473–74, 127
S. Ct. 1397, 167 L. Ed. 2d 190 (2007) (noting that standing is assessed
at the time the complaint is filed); Arizonans for Off. Eng. v. Ariz.,
520 U.S. 43, 45, 117 S. Ct. 1055, 137 L. Ed. 2d 170 (1997) (“[A]n actual
controversy must be extant at all stages of review, not merely at
the time the complaint is filed.”).
10

See Rockwell, 549 U.S. at 473–74, 127 S. Ct. 1397 (“[W]hen a
plaintiff ... voluntarily amends the complaint, courts look to the
amended complaint to determine jurisdiction.”); Cnty. of Riverside
v. McLaughlin, 500 U.S. 44, 51, 111 S. Ct. 1661, 114 L. Ed. 2d 49
(1991) (analyzing standing at the time the second amended
complaint was filed).

383a
The first requirement of standing is that a plaintiff
must have suffered an “injury in fact.”11 An injury in fact
must be (1) concrete and particularized and (2) actual or
imminent, not conjectural or hypothetical.12 Some courts
have held that when “plaintiffs seek declaratory and
injunctive relief only, there is a further requirement that
they show a very significant possibility of future harm;
it is insufficient for them to demonstrate only a past
injury.”13 “A request for injunctive relief remains live
only so long as there is some present harm left to
enjoin.”14 “Past exposure to illegal conduct does not in
itself show a present case or controversy regarding
injunctive relief ... if unaccompanied by any continuing,
present adverse effects.”15
The Brackeens could not show an actual injury in
fact at the time the Plaintiffs filed the second amended
complaint because the Brackeens had already adopted
A.L.M. Actual injury requires the Plaintiffs to show that
they are presently affected by ICWA and the Final
Rule.16 The Brackeens’ injury was a “past injury,” which
11

Lujan, 504 U.S. at 560–61, 112 S. Ct. 2130.

12

Id. at 560, 112 S. Ct. 2130.

13

San Diego Cnty. Gun Rts. Comm. v. Reno, 98 F.3d 1121, 1126 (9th
Cir. 1996).
14

Taylor v. Resol. Tr. Corp., 56 F.3d 1497, 1502 (D.C. Cir. 1995).

15

O’Neal v. City of Seattle, 66 F.3d 1064, 1066 (9th Cir. 1995)
(omission in original) (quoting City of L.A. v. Lyons, 461 U.S. 95,
102, 103 S. Ct. 1660, 75 L. Ed. 2d 675 (1983)).
16

See N.J. Physicians, Inc. v. Obama, 653 F.3d 234, 239 (3d Cir.
2011) (noting that a plaintiff must be “presently impacted” by the
defendant’s actions).

384a
“is insufficient for them to demonstrate” the injury in
fact necessary to obtain injunctive or declaratory relief.17
Neither could the Brackeens show an imminent
injury in fact.18 Their stated desire to adopt or provide
foster care for other Indian children was too vague
because they had not specified a date or time that they
would attempt to adopt Y.R.J. or other Indian children.19
The Brackeens did not attempt to show that they
planned to adopt another Indian child until October
2018—seven months after the second amended
complaint had been filed and after final judgment had
been entered. At the time that the second amended
17

Reno, 98 F.3d at 1126.

18

JUDGE DUNCAN notes that he would reach the same conclusion as
to the Brackeens’ adoption of A.L.M. because it fits within the
“capable of repetition, yet evading review” exception to mootness.
This exception is inapposite, so the case would be moot were it not
lacking an injury in fact, because (1) the adoption proceedings were
not too short in duration to be fully litigated, and (2) there is no
reasonable expectation that the Brackeens would be subject to the
same injury again. See Davis v. Fed. Election Comm’n, 554 U.S. 724,
735, 128 S. Ct. 2759, 171 L. Ed. 2d 737 (2008). As to the first prong,
the Brackeens could have litigated their ICWA challenges in state
court during A.L.M.’s July 2017 adoption proceedings, long before
October 2018 when the district court entered judgment against the
Defendants. As to the second prong, the Brackeens’ stated
reluctance to adopt more Indian children was too vague, as
discussed above. See Lujan, 504 U.S. at 564, 112 S. Ct. 2130 (holding
that a sufficient specification of when the injury in fact will occur is
necessary).
19

See Reno, 98 F.3d at 1127 (holding that plaintiffs could not show
injury in fact, because “[t]he complaint does not specify any
particular time or date on which plaintiffs intend to violate the
Act”).

385a
complaint was filed, the Brackeens’ “intent” to provide
foster care for Indian children, or the “possibility” that
they would adopt any, was insufficient to show injury in
fact. As the Supreme Court has explicitly held, “[s]uch
‘some day’ intentions—without any description of
concrete plans, or indeed even any specification of when
the some day will be—do not support a finding of the
‘actual or imminent’ injury that our cases require.”20
The Brackeens’ standing issue in this case is similar
to those found in cases—some of which are cited in
JUDGE DENNIS’s Opinion—wherein the Supreme Court
has held that plaintiffs lack standing because their
injuries were not “imminent.” For example, in O’Shea v.
Littleton, the Court held that the plaintiffs lacked
standing because, even though they had suffered past
unconstitutional practices they could not prove a present
or future impact as a result of those practices.21 The
Court noted that the alleged imminent threat was not
“sufficiently real and immediate to show an existing
controversy simply because [the plaintiffs] anticipate
violating lawful criminal statutes and being tried for
their offenses.”22 Similarly, in City of Los Angeles v.
Lyons, the Court rejected the plaintiff’s standing
argument, noting that the complaint “depended on
whether [the plaintiff] was likely to suffer future injury
from the use of the chokeholds by police officers.”23
20

Lujan, 504 U.S. at 564, 112 S. Ct. 2130.

21

414 U.S. 488, 493, 495–96, 94 S. Ct. 669, 38 L. Ed. 2d 674 (1974).

22

Id. at 496, 94 S. Ct. 669.

23

461 U.S. at 105, 103 S. Ct. 1660. Although these cases arose in the
context of unconstitutional police practices, which are unlike

386a
Further, JUDGES DUNCAN and DENNIS err by
considering Y.R.J.’s proceedings for purposes of
standing because the Plaintiffs did not move to
supplement the record with information relating to the
Brackeens’ attempted adoption of Y.R.J. until October
10, 2018. Final judgment had been entered, however, on
October 4, 2018. The Supreme Court has explicitly held
that a lack of standing cannot be cured by evidence
entered into the record after final judgment.24 Unlike
Mathews v. Diaz, in which the Supreme Court held that
a supplemental pleading cured the jurisdictional defect,
the Brackeens’ supplementation of the district court
record occurred after judgment had been entered.25

allegedly unconstitutional adoptive proceedings, they are
instructive. Here, like the plaintiffs in O’Shea and Lyons, the
Plaintiffs are seeking future remedies based on past exposures to
harm, which JUDGES DUNCAN and DENNIS incorrectly classify as a
regulatory burden. On the contrary, there can be no regulatory
burden in a completed adoption proceeding, viz., the completed
adoption of A.L.M.
24

See Summers v. Earth Island Inst., 555 U.S. 488, 495 n.*, 129 S.
Ct. 1142, 173 L. Ed. 2d 1 (2009) (“After the District Court had
entered judgment, and after the Government had filed its notice of
appeal, respondents submitted additional affidavits to the District
Court. We do not consider these. If respondents had not met the
challenge to their standing at the time of judgment, they could not
remedy the defect retroactively.”).
25

Cf. 426 U.S. 67, 75, 96 S. Ct. 1883, 48 L. Ed. 2d 478 (1976). In
Mathews, cited by JUDGE DENNIS, the Court noted that “[a]
supplemental complaint would have eliminated this jurisdictional
issue; since the record discloses, both by affidavit and stipulation,
that the jurisdictional condition was satisfied, it is not too late, even
now, to supplement the complaint to allege this fact.” Id. (emphasis
added). Mathews involved Federal Rule of Civil Procedure 15(d),

387a
Finally, the Cliffords do not have standing to
challenge § 1915(b) because their claim is not
redressable.26 They could have appealed their challenges
to ICWA in Minnesota state court but likely missed the
deadline to appeal.27 The state of Minnesota is also not a
party to this lawsuit, so any ruling we make on the
which allows a party to file a supplemental pleading. See id. at 75,
96 S. Ct. 1883 n.8; accord Northstar Fin. Advisors Inc. v. Schwab
Inv., 779 F.3d 1036, 1044 (9th Cir. 2015). The Brackeens did not file
a supplemental pleading. Instead, they filed a supplement to the
record. Further, Mathews involved the issue of exhaustion, not
standing. See 426 U.S. at 75-76, 96 S. Ct. 1883. Finally, Mathews’
language that “even now,” filing a supplemental pleading would not
be “too late,” is dictum. In Mathews, the plaintiffs filed a
supplemental pleading after the complaint had been filed but before
final judgment had been entered. Id. at 75, 96 S. Ct. 1883 (noting
that the pleading was supplemented “while the case was pending in
the District Court”). There was no issue of filing a supplemental
pleading at the Supreme Court level; thus, this language is dictum.
Here, as stated, the Brackeens did not supplement the record until
after final judgment was entered, and this cannot cure the defective
complaint. See Prasco, LLC v. Medicis Pharm. Corp., 537 F.3d 1329,
1337 (Fed. Cir. 2008) (noting that “while ‘later events may not
create jurisdiction where none existed at the time of filing, the
proper focus in determining jurisdiction are the facts at the time the
complaint under consideration was filed’” (brackets and emphasis
omitted) (quoting GAF Bldg. Materials Corp. v. Elk Corp., 90 F.3d
479, 483 (Fed. Cir. 1996))).
26

See Susan B. Anthony List v. Dreihaus, 573 U.S. 149, 158, 134 S.
Ct. 2334, 189 L. Ed. 2d 246 (2014) (noting that redressability is a
requirement for standing)
27

See In re S.B., No. A19-0225, 2019 WL 6698079, at *1 (Minn. Ct.
App. Dec. 9, 2019) (showing no notice of appeal to the January 2020
judgment); see also Minn. R. Civ. App. P. 117 subd 1 (requiring filing
of notice of appeal within 30 days of the filing of the Court of
Appeals’ decision).

388a
constitutionality of ICWA would have no effect on the
Cliffords’ adoption proceedings.28
III. Conclusion
It would be convenient if we could ignore facts that
are dispositive of Article III standing—as do JUDGES
DUNCAN and DENNIS—and proceed to the merits in
important constitutional cases such as this. We are,
however, governed by the rule of law. And a federal
court cannot weigh in on an issue over which it lacks
jurisdiction, however appealing doing so might be. I
concur with JUDGE COSTA that the Plaintiffs lack
standing because their case is not redressable. And even
though I join JUDGES DENNIS’s well-reasoned and
thorough Opinion on the merits, I would reverse the
district court’s order that the Plaintiffs have Article III
standing to challenge 25 U.S.C. § 1915(a) and (b) on equal
protection grounds.

28

See Okpalobi v. Foster, 244 F.3d 405, 426–27 (5th Cir. 2001) (en
banc) (concluding that the plaintiffs’ claim was not redressable
because the defendants were “powerless to enforce [the Act]
against the plaintiffs (or to prevent any threatened injury from its
enforcement”)).

389a
HAYNES, Circuit Judge, concurring:
I concur with portions of both JUDGE DENNIS’s and
JUDGE DUNCAN’s Opinions (respectively, the “Dennis
Opinion” and the “Duncan Opinion”).1 On standing, I
concur with the conclusions of Part I of the Duncan
Opinion that Plaintiffs have standing to bring all their
claims.2
On the equal protection issues, I concur in part with
Part II(B)(2) of the Dennis Opinion that the definition of
“Indian child” does not violate the Equal Protection
Clause. As to the placement preferences, I conclude that
the first two prongs of ICWA § 1915(a)—concerning the
members of the child’s extended family and tribe—
withstand even strict scrutiny, so I concur with Part
II(B)(2) of the Dennis Opinion that they are
constitutional; but I concur with Part III(A)(3) of the
Duncan Opinion that the “other Indian families” prong
of ICWA § 1915(a) violates the Equal Protection Clause
because it fails to be rationally tied to fulfilling
Congress’s goals of protecting Indian tribes.
On the anti-commandeering/preemption issues, I
concur with the conclusion in Part II(A)(1) of the Dennis
Opinion that Congress had plenary authority under the
Indian Commerce Clause to enact ICWA, but I concur
with Parts III(B)(1)(a)(i) and III(B)(1)(a)(iv) and in part
with Parts III(B)(1)(a)(ii), III(B)(1)(b), and III(B)(2)(b)
1

All references to the Dennis Opinion and Duncan Opinion are to
the enumerated sections under the “Discussion” portion of each
opinion.
2

In that regard, I also agree with the conclusions of Parts I(A)(2)–
(D) of the Dennis Opinion.

390a
of the Duncan Opinion that ICWA §§ 1912(d), (e) and
1915(e) violate the anti-commandeering doctrine and are
invalid preemption provisions. With respect to the
remaining statutory provisions at issue, I concur with
the Dennis Opinion that they do not violate the anticommandeering doctrine and validly preempt state law.
On the nondelegation doctrine issue, I concur with
Part II(C) of the Dennis Opinion that ICWA § 1915(c)
does not violate that doctrine.
Lastly, on the Administrative Procedure Act issues,
I concur with Part III(D)(1) of the Duncan Opinion that
the Final Rule is invalid to the extent that it implements
the unconstitutional statutory provisions identified
above: ICWA §§ 1912 (d), (e), and 1915(e) and the “other
Indian families” prong of ICWA § 1915(a). However, to
the extent that the Final Rule implements constitutional
ICWA provisions, I concur with Part II(D)(1) of the
Dennis Opinion that those portions of the Final Rule are
valid. I also concur with Part II(D)(2) of the Dennis
Opinion that BIA did not exceed its authority in making
the Final Rule binding. But I concur with Part III(D)(3)
of the Duncan Opinion that the “good cause” standard in
25 C.F.R. § 23.132(b) fails at Chevron step one.

391a
STEPHEN A. HIGGINSON, Circuit Judge, concurring in
part, with whom JUDGE COSTA joins:
I concur in Judge Dennis’s comprehensive opinion
except for Discussion § I.A.2 and write separately to
highlight lessons I draw from two Supreme Court cases.
“Any rule of state immunity that looks to the
‘traditional,’ ‘integral,’ or ‘necessary’ nature of
governmental functions inevitably invites an unelected
federal judiciary to make decisions about which state
policies it favors and which ones it dislikes.” Garcia v.
San Antonio Metro. Transit Auth., 469 U.S. 528, 546, 105
S. Ct. 1005, 83 L. Ed. 2d 1016 (1985). Engaging in this
type of policy weighing, the dissent would strike a
statute that has garnered support from Congressional
members on both sides of the aisle, a large number of
states, and at least 325 federally recognized Indian
tribes and has been the law of the land for over four
decades.
Specifically, the dissent would hold that the
“structural guarantee of state sovereignty” limits
Congress’s authority to regulate state child custody
proceedings involving Indian children. It bases this on
two observations: “[n]o Supreme Court decision
supports Congress deploying its Indian affairs power to
govern state government proceedings,” and there is no
“comparable founding-era exercise[ ] of Congress’s
Indian affairs power.”
Yet, in Garcia, the Court explained why it rejected,
“as unsound in principle and unworkable in practice, a
rule of state immunity from federal regulation that turns
on a judicial appraisal of whether a particular

392a
governmental function is ‘integral’ or ‘traditional’”: (1)
“it prevents a court from accommodating changes in the
historical functions of States, changes that have resulted
in a number of once-private functions like education
being assumed by the States and their subdivisions”; (2)
it “results in line-drawing of the most arbitrary sort; the
genesis of state governmental functions stretches over a
historical continuum from before the Revolution to the
present, and courts would have to decide by fiat
precisely how longstanding a pattern of state
involvement had to be for federal regulatory authority
to be defeated”; (3) it is “unworkable,” in part “because
of the elusiveness of objective criteria for ‘fundamental’
elements of state sovereignty”; and (4) “[s]tate
sovereign interests ... are more properly protected by
procedural safeguards inherent in the structure of the
federal system than by judicially created limitations on
federal power.” 469 U.S. at 543–52, 105 S. Ct. 1005.
Contrary to this Supreme Court instruction, the dissent
risks resuscitating a misunderstanding of state
sovereignty that entangles judges with the problematic
policy task of deciding what issues are so inherent in the
concept and history of state sovereignty that they fall
beyond the reach of Congress.
“[T]he fact that the States remain sovereign as to all
powers not vested in Congress or denied them by the
Constitution offers no guidance about where the frontier
between state and federal power lies.” Id. at 550, 105 S.
Ct. 1005. Instead, it is the nature of our federalist system
that states retain sovereign authority “only to the
extent that the Constitution has not divested them of
their original powers and transferred those powers to

393a
the Federal Government.” Id. at 549, 105 S. Ct. 1005. As
JUDGE DENNIS comprehensively explains, the Indian
Commerce Clause has done exactly that with respect to
Indian Affairs.
But it is not only the dissent’s test that diverges
from Supreme Court authority—it would also be its
result. The Supreme Court has repeatedly recognized
that Congress can preempt state law that applies in
state domestic relations proceedings. See, e.g., Egelhoff
v. Egelhoff ex rel. Breiner, 532 U.S. 141, 146, 121 S. Ct.
1322, 149 L. Ed. 2d 264 (2001) (holding that ERISA
preempted application of Washington statute in state
probate proceedings); Boggs v. Boggs, 520 U.S. 833, 841,
117 S. Ct. 1754, 138 L. Ed. 2d 45 (1997) (holding that
ERISA preempted application of Louisiana community
property law in state probate proceedings); McCarty v.
McCarty, 453 U.S. 210, 232–33, 101 S. Ct. 2728, 69 L. Ed.
2d 589 (1981) (holding that federal law preempted
application of California community property law in
state divorce proceedings); Hisquierdo v. Hisquierdo,
439 U.S. 572, 590, 99 S. Ct. 802, 59 L. Ed. 2d 1 (1979)
(holding that the Railroad Retirement Act preempted
application of California community property law in
state divorce proceedings); Free v. Bland, 369 U.S. 663,
670, 82 S. Ct. 1089, 8 L. Ed. 2d 180 (1962) (holding that
federal law preempted application of Texas community
property law in state probate proceedings); Wissner v.
Wissner, 338 U.S. 655, 658–59, 70 S. Ct. 398, 94 L. Ed.
424 (1950) (holding that the National Service Life
Insurance Act preempted application of California
community property law in state probate proceedings);
McCune v. Essig, 199 U.S. 382, 389–90, 26 S. Ct. 78, 50

394a
L. Ed. 237 (1905) (holding that the Homestead Act
preempted application of Washington community
property law in state probate proceedings); see also
Gregory v. Ashcroft, 501 U.S. 452, 460, 111 S. Ct. 2395,
115 L. Ed. 2d 410 (1991) (“Congress may legislate in
areas traditionally regulated by the States.”). That is
exactly what Congress did here. See 25 U.S.C. § 1902
(declaring Congress’s intent to establish “minimum
Federal standards” to be applied in state child custody
proceedings involving Indian children).
The dissent relies primarily on Seminole Tribe v.
Florida, 517 U.S. 44, 116 S. Ct. 1114, 134 L. Ed. 2d 252
(1996), to support a contrary result. But even Chief
Justice Rehnquist—the author of Seminole Tribe and
perhaps the most faithful proponent of state’s rights—
explicitly recognized that Congress may preempt state
domestic relations law. See McCarty, 453 U.S. at 237, 101
S. Ct. 2728 (Rehnquist, J., dissenting) (“[T]he authority
of the States should not be displaced except pursuant to
the clearest direction from Congress.” (emphasis
added)); see also Bond v. United States, 572 U.S. 844,
858, 134 S. Ct. 2077, 189 L. Ed. 2d 1 (2014) (“‘[I]t is
incumbent upon the federal courts to be certain of
Congress’ intent before finding that federal law
overrides’ the ‘usual constitutional balance of federal and
state powers.’” (quoting Gregory, 501 U.S. at 460, 111 S.
Ct. 2395)). Although Chief Justice Rehnquist’s position
was narrower than the dissent’s here, see McCarty, 453
U.S. at 232, 101 S. Ct. 2728 (finding state community
property law preempted where (1) there was a conflict
between the federal and state laws and (2) the
consequences of the state law sufficiently injured the

395a
objectives of the federal program), I highlight it to
demonstrate how consequential the dissent’s retort to
clearly stated congressional authority actually is. Even
applying Chief Justice Rehnquist’s dissenting position,
the Indian Child Welfare Act (“ICWA”) stands. The
ICWA establishes “minimum Federal standards” to be
applied in state child custody proceedings involving
Indian children—it is hard to image a clearer indication
of Congress’s intent to preempt state law. 25 U.S.C.
§ 1902.
Just as “[n]one can dispute the central role
community property laws play in ... community property
States,” Boggs, 520 U.S. at 839–40, 117 S. Ct. 1754, it is
irrefutable that states have a compelling interest in their
child custody proceedings. Nevertheless, important,
longstanding, and binding Supreme Court precedent
recognizes both the United States’ unique and
compelling obligation to Indians, see United States v.
Lara, 541 U.S. 193, 200, 124 S. Ct. 1628, 158 L. Ed. 2d 420
(2004) (“[T]he Constitution grants Congress broad
general powers to legislate in respect to Indian tribes,
powers that we have consistently described as ‘plenary
and exclusive.’” (citations omitted)); see also McGirt v.
Oklahoma, 140 S. Ct. 2452, 2462, 207 L. Ed. 2d 985 (2020)
(“This Court long ago held that the Legislature wields
significant constitutional authority when it comes to
tribal relations.”), and dictates that “[t]he relative
importance to the State of its own law is not material
when there is a conflict with a valid federal law, for the
Framers of our Constitution provided that the federal
law must prevail,” Free, 369 U.S. at 666, 82 S. Ct. 1089.

396a
GREGG COSTA, Circuit Judge, concurring in part and
dissenting in part, with whom CHIEF JUDGE OWEN joins
as to Parts I and II(A) and the final paragraph of Part
II(B), with whom JUDGES WIENER and HIGGINSON join,
with whom JUDGE DENNIS joins as to Part II, and with
whom JUDGE SOUTHWICK joins as to part I:
Congress passed the Indian Child Welfare Act of
1978 on voice votes, a procedure typically reserved for
noncontroversial legislation. The law continues to enjoy
bipartisan support. See Brief of Members of Congress as
Amici Curiae in Support of Defendants-Appellants and
Reversal. Leading child welfare organizations believe
the law “embodies and has served as a model for the
child welfare policies that are [the] best practices
generally” and reflects “the gold standard for child
welfare policies and practices in the United States.”
Brief of Casey Family Programs and 30 Other
Organizations Working with Children, Families, and
Courts to Support Children’s Welfare as Amici Curiae in
Support of Appellants at 2; Letter from Child Welfare
Advocates to Elizabeth Appel, Off. of Regul. Aff. &
Collaborative Action, U.S. Dep’t of Interior (May 19,
2015), http://www.nativeamericanbar.org/wp-content/
uploads/2014/01/CFP-et-al-Support-Letter-Re-Propose
d-ICWA-Regulations.pdf.
Yet more than four decades into its existence, a
federal district court held key parts of the law
unconstitutional. That facial invalidation is contrary to
the longstanding views of state courts, where adoption

397a
proceedings of course take place.1 It is ironic that a
federal court saw infringements on state sovereignty
that the state courts themselves have not seen.
I.
Such ironies abound in this case. The most
astonishing irony results from this being a federal court
challenge to laws that apply in state adoption
proceedings. It will no doubt shock the reader who has
slogged through today’s lengthy opinions that, at least
when it comes to the far-reaching claims challenging the
Indian Child Welfare Act’s preferences for tribe
members, this case will not have binding effect in a
single adoption. That’s right, whether our court upholds
the law in its entirety or says that the whole thing
1

See, e.g., In re K.M.O., 280 P.3d 1203, 1214–15 (Wyo. 2012); In re
Phoenix L., 270 Neb. 870, 708 N.W.2d 786, 795–98 (Neb. 2006); In re
Baby Boy L., 103 P.3d 1099, 1106–07 (Okla. 2004); In re A.B., 663
N.W.2d 625, 634–37 (N.D. 2003), cert. denied, 541 U.S. 972, 124 S. Ct.
1875, 158 L. Ed. 2d 466 (2004); Ruby A. v. State, Dep’t of Health &
Soc. Servs., 2003 WL 23018276, at *4–5 (Alaska Dec. 29, 2003); In re
Marcus S., 638 A.2d 1158, 1158–59 (Me. 1994); In re Armell, 194
Ill.App.3d 31, 141 Ill.Dec. 14, 550 N.E.2d 1060, 1067–68 (1990), cert.
denied, 498 U.S. 940, 111 S. Ct. 345, 112 L. Ed. 2d 310 (1990); In re
Miller, 182 Mich.App. 70, 451 N.W.2d 576, 578–79 (Mich. Ct. App.
1990) (per curiam); In re Application of Angus, 60 Or.App. 546, 655
P.2d 208, 213 (Or. Ct. App. 1982), cert. denied, 464 U.S. 830, 104 S.
Ct. 107, 78 L. Ed. 2d 109 (1983); In re Appeal in Pima Cty. Juvenile
Action No. S-903, 130 Ariz. 202, 635 P.2d 187, 193 (Ariz. Ct. App.
1981), cert. denied, 455 U.S. 1007, 102 S. Ct. 1644, 71 L. Ed. 2d 875
(1982); In re Guardianship of D.L.L., 291 N.W.2d 278, 281 (S.D.
1980). But see In re Santos Y., 92 Cal. App. 4th 1274, 112 Cal.Rptr.2d
692 (Cal. Ct. App. 2001) (upholding “as applied” constitutional
challenges to ICWA when the child had never been part of an Indian
home).

398a
exceeds congressional power, no state family court is
required to follow what we say. See, e.g., Penrod Drilling
Corp. v. Williams, 868 S.W.2d 294, 296 (Tex. 1993) (PER
CURIAM) (noting that Texas state courts are “obligated
to follow only higher Texas courts and the United States
Supreme Court”); ASARCO Inc. v. Kadish, 490 U.S. 605,
617, 109 S. Ct. 2037, 104 L. Ed. 2d 696 (1989) (recognizing
that state courts “render binding judicial decisions that
rest on their own interpretations of federal law”).
There is a term for a judicial decision that does
nothing more than opine on what the law should be: an
advisory opinion. That is what the roughly 300 pages you
just read amount to.
The rule that federal courts cannot issue advisory
opinions is as old as Article III. See Hayburn’s Case, 2
U.S. 408, 2 Dall. 409, 410 n.*, 1 L. Ed. 436 (1792); 3 THE
CORRESPONDENCE AND PUBLIC PAPERS OF JOHN JAY
486–89 (Johnston ed. 1891) (August 8, 1793, letter from
Chief Justice Jay refusing to give the Washington
Administration advice on legal questions relating to war
between Great Britain and France); see also Flast v.
Cohen, 392 U.S. 83, 96, 88 S. Ct. 1942, 20 L. Ed. 2d 947
(1968) (“[I]t is quite clear that ‘the oldest and most
consistent thread in the federal law of justiciability is
that the federal courts will not give advisory opinions.’”
(quoting CHARLES ALAN WRIGHT, FEDERAL COURTS 34
(1963))). Early courts could just call such a case what it
was—a request for an advisory opinion, see, e.g.,
Muskrat v. United States, 219 U.S. 346, 361–63, 31 S. Ct.
250, 55 L. Ed. 246 (1911); United States v. Ferreira, 54
U.S. 13 How. 40, 51–52, 14 L. Ed. 40 (1851); Hayburn’s
Case, 2 Dall. at 410 n.*. The modern rise of public law

399a
litigation resulted in the development of doctrines likes
standing, ripeness, and mootness to enforce the “case or
controversy” requirement. See Cass R. Sunstein, What’s
Standing After Lujan? Of Citizen Suits, “Injuries,” and
Article III, 91 Mich. L. Rev. 163, 169 (1992) (noting that
the Supreme Court did not use the word “standing” until
1944 (citing Stark v. Wickard, 321 U.S. 288, 64 S. Ct. 559,
88 L. Ed. 733 (1944))). This compartmentalization of
justiciability law risks losing the forest for the trees.
Justiciability doctrines, with their various elements and
exceptions, have one underlying aim: ensuring federal
courts only hear cases that actually decide concrete
disputes. Decide is the key word here. When a judicial
opinion does not actually resolve a dispute, it has no
more legal force than a law review article.
The modern doctrinal box most concerned with
weeding out advisory opinions is the redressability
element of standing. “Satisfaction of this requirement
ensures that the lawsuit does not entail the issuance of
an advisory opinion without the possibility of any
judicial relief, and that the exercise of a court’s remedial
powers will actually redress the alleged injury.” Los
Angeles v. Lyons, 461 U.S. 95, 129, 103 S. Ct. 1660, 75 L.
Ed. 2d 675 (1983) (Marshall, J., dissenting).
The redressability requirement proves fatal to at
least the equal protection claim (which is really a claim
under the Fifth Amendment’s Due Process Clause
because ICWA is a federal law). Nothing we say about
equal protection will redress the Brackeens’ alleged
injury of potentially being subject to preferences that

400a
would favor tribe members in the adoption of Y.R.J.2
Their argument for redressability is that the family
court judge may, or even says he will, follow our
constitutional ruling. In other words, our opinion may
advise him on how to decide the adoption case before
him. This description of the plaintiffs’ argument reveals
why it doesn’t work. Maybe the opinion will convince the
family court judge, maybe it won’t. The same is true for
law review articles or legal briefs. But what is supposed
to separate court decisions from other legal writings is
that they actually resolve a dispute.
Yet JUDGE DENNIS’s Opinion signs off on plaintiffs’
redressability theory,3 finding it sufficient that it is
“‘substantially likely that [a state court] would abide by
an authoritative interpretation’ of ICWA.”4 DENNIS OP.
2

The States do not have standing to pursue the equal protection
claim because they are not “persons” entitled to the protection of
the Fifth Amendment. See South Carolina v. Katzenbach, 383 U.S.
301, 323–24, 86 S. Ct. 803, 15 L. Ed. 2d 769 (1966). They thus cannot
suffer an equal protection injury of their own. Indeed, neither the
opinion from the three-judge panel nor the en banc majority opinion
relies on the States for equal protection standing.
3

On their own, neither JUDGE DENNIS’s Opinion nor JUDGE
DUNCAN’s Opinion garners a majority of the court to find standing
for the equal protection claim. Combining the two opinions,
however, a majority concludes there is standing. I thus address both
opinions.
4

Don’t overlook the ellipsis—it obscures something critical. The
replaced language was not referring to a “state court” that might
follow the federal decision, but to “the President and other
executive and congressional officials.” Franklin, 505 U.S. at 803, 112
S. Ct. 2767. That lawsuit challenging a decennial reapportionment
of congressional seats was brought against the Secretary of
Commerce, who was certainly bound by the judgment, and the

401a
at 45 (quoting Franklin v. Massachusetts, 505 U.S. 788,
803, 112 S. Ct. 2767, 120 L. Ed. 2d 636 (1992)); see also id.
at 43 (stating that “the Texas trial court has indicated
that it will refrain from ruling on the Brackeens’ federal
constitutional claims pending a ruling from this court”).
Finding redressability based on the possibility that
another court will consider the opinion persuasive would
allow the requirements of standing to be satisfied by
advisory opinions—the very thing that the doctrine was
designed to prevent. Justice Scalia nailed the problem
with this reasoning:
If courts may simply assume that everyone
(including those who are not proper parties to an
action) will honor the legal rationales that
underlie their decrees, then redressability will
always exist. Redressability requires that the
court be able to afford relief through the exercise
of its power, not through the persuasive or even
awe-inspiring effect of the opinion explaining
the exercise of its power.
Franklin, 505 U.S. at 825, 112 S. Ct. 2767 (Scalia, J.,
concurring in part and in the judgment). It therefore is
not enough that the family court judge has indicated he

question was whether a ruling against that Cabinet member who
oversaw the census could influence the reapportionment even
though the President had ultimate policymaking authority in the
executive branch. Holding that the head of the relevant cabinet
agency could be sued was hardly extraordinary. What is
extraordinary—in fact unprecedented—is to find standing based on
the chance that another court might follow the federal decision not
because it has to but because it might want to.

402a
might, or even will, follow what the federal court
decides.
This court has no authority to resolve whether the
ICWA-mandated burden of proof will apply in the Y.R.J.
adoption. The binding effect of a legal decision—in
standing lingo, its ability to redress an injury—must
flow from the judgment itself. Id; see also United States
v. Juvenile Male, 564 U.S. 932, 937, 131 S. Ct. 2860, 180
L. Ed. 2d 811 (2011) (PER CURIAM) (rejecting the notion
that a case could be justiciable because “a favorable
decision in this case might serve as useful precedent for
respondent in a hypothetical [future] lawsuit”). But the
Brackeens would come up short even if a decision’s
precedential effect could establish redressability. Texas
courts do not have to follow the decisions of lower federal
courts on questions of federal law.5 Penrod Drilling

5

Apparently recognizing this problem, the Brackeens argue that “if
the Supreme Court affirmed, all courts would be bound by that
decision.” En Banc Brief of Individual Plaintiffs 63. The argument
ignores the principle explained above that redressability must come
from the judgment itself as opposed to the precedential force an
opinion may have.
And there is another problem with this argument, one again
recognized by Justice Scalia. Standing is determined at the outset
of a lawsuit, and no one then knows whether the case will be one of
the rare ones that makes it to the Supreme Court. Lujan v.
Defenders of Wildlife, 504 U.S. 555, 570 n.5, 112 S. Ct. 2130, 119 L.
Ed. 2d 351 (1992) (explaining that “standing is to be determined as
of the commencement of suit” and “at that point it could certainly
not be known that the suit would reach this Court”). If standing
depended on whether the Supreme Court granted cert, then a cert
denial would wipe away the years of litigation in the lower federal
courts.

403a
Corp., 868 S.W.2d at 296; see also Arizonans for Official
English v. Arizona, 520 U.S. 43, 58 n.11, 117 S. Ct. 1055,
137 L. Ed. 2d 170 (1997) (rejecting as “remarkable” the
idea that a state court must follow the precedent of lower
federal courts); Lockhart v. Fretwell, 506 U.S. 364, 375–
76, 113 S. Ct. 838, 122 L. Ed. 2d 180 (1993) (Thomas, J.,
concurring) (explaining that “neither federal supremacy
nor any other principle of federal law requires that a
state court’s interpretation of federal law give way to a
(lower) federal court’s interpretation”).
The bottom line is that both before and after the
district court held ICWA unconstitutional, the Texas
judge in the Y.R.J. adoption case (or any other) could
come out either way on an equal protection claim.
Indeed, the state court judge has already ruled on some
of the constitutional claims presented here. See In re
Y.J., 2019 WL 6904728, at *1 (Tex. App.—Fort Worth,
Dec. 19, 2019) (noting family court’s holding that ICWA
violated the anticommandeering doctrine). A petition
challenging that ruling is pending with the Supreme
Court of Texas. See In re Y.J., Tex. S. Ct. No. 20-0081
(petition available at 2020 WL 750104). Some of the
issues the petition asks the state high court to resolve
will sound familiar: whether ICWA was “lawfully
enacted by Congress” and whether it “discriminate[s] on
the basis of race.” Id. at 9, 13. What we think about those
same issues will have no binding effect on the state
courts that get to resolve the adoption, whether that be
the state supreme court or the family court judge. That
irrefutable point means our ruling on the lawfulness of
ICWA preferences cannot redress the plaintiffs’ injury.

404a
One might wonder if the advisory nature of this case
doesn’t always characterize declaratory judgments.
After all, “ordinarily a case or judicial controversy
results in a judgment requiring award of process of
execution to carry it into effect.” Fidelity Nat’l Bank &
Tr. Co. v. Swope, 274 U.S. 123, 132, 47 S. Ct. 511, 71 L.
Ed. 959 (1927). To be sure, there is an advisory flavor to
all declaratory actions: they resolve rights in a future
suit that has not yet fully materialized. Concerns that
declaratory judgments were advisory led the Supreme
Court to refuse to hear some claims for declaratory relief
before the enactment of the Declaratory Judgment Act
of 1934. Willing v. Chi. Auditorium Ass’n, 277 U.S. 274,
286–89, 48 S. Ct. 507, 72 L. Ed. 880 (1928) (Brandeis, J.)
(explaining that deciding whether a lessee would have
violated a lease by demolishing a building before the
demolition occurred would be a “declaratory judgment[,
which] relief is beyond the power conferred upon the
federal judiciary”); Liberty Warehouse Co. v. Grannis,
273 U.S. 70, 76, 47 S. Ct. 282, 71 L. Ed. 541 (1927) (holding
there was no jurisdiction over claim under Kentucky’s
declaratory-judgment law). But see Nashville, Cent. &
St. Louis Ry. v. Wallace, 288 U.S. 249, 258, 264–65, 53 S.
Ct. 345, 77 L. Ed. 730 (1933) (holding that federal courts
had jurisdiction over claim brought under state
declaratory-judgment law).
What saves proper declaratory judgments from a
redressability problem—but is lacking here—is that
they have preclusive effect on a traditional lawsuit that
is imminent.6 See 10B WRIGHT ET AL., supra, § 2771 (“A
6

The more common standing problem for declaratory judgments is
whether the second lawsuit “is of sufficient immediacy and reality.”

405a
declaratory judgment is binding on the parties before
the court and is claim preclusive in subsequent
proceedings as to the matters declared ....”); accord
RESTATEMENT (SECOND) OF JUDGMENTS § 33. Take an
insurance coverage dispute, which was the nature of the
case upholding the federal Declaratory Judgment Act
and remains the prototypical declaratory action today.
Aetna Life Ins. Co. v. Haworth, 300 U.S. 227, 57 S. Ct.
461, 81 L. Ed. 617 (1937). A federal court’s declaration,
in a case between the insurer and insured, of whether
there is coverage will bind those parties in a subsequent
lawsuit seeking to recover on the policy. See id. at 239,
243–44, 57 S. Ct. 461. That “definitive determination of
the legal rights of the parties” is what allows declaratory
judgments in federal court. Id. at 241, 57 S. Ct. 461. To
be justiciable, a declaratory judgment must seek
“specific relief through a decree of a conclusive
character.” Id.; accord MedImmune, Inc. v. Genentech,
Inc., 549 U.S. 118, 127, 127 S. Ct. 764, 166 L. Ed. 2d 604
(2007). In contrast, our resolution of the equal protection
question will conclude nothing.
A leading federal procedure treatise recognizes that
preclusive effect is what separates a permissible
declaratory judgment from an impermissible advisory
opinion:

See 10B CHARLES ALAN WRIGHT ET AL., FEDERAL PRACTICE &
PROCEDURE § 2757 (4th ed. 2020). That is part of standing’s injury
requirement, which requires an “actual or imminent” harm. Lujan,
504 U.S. at 560, 112 S. Ct. 2130 (1992) (quotations omitted). The
redressability problem this request for declaratory relief poses is
less common but no less fundamental.

406a
The federal Declaratory Judgment Act provides
that a declaratory judgment shall have the force
and effect of a final judgment or decree. The
very purpose of this remedy is to establish a
binding adjudication that enables the parties to
enjoy the benefits of reliance and repose secured
by res judicata. Denial of any preclusive effect,
indeed, would leave a procedure difficult to
distinguish from the mere advisory opinions
prohibited by Article III.
18A WRIGHT ET AL., supra, § 4446. This requirement
explains why you will not find a declaratory judgment
that lacks preclusive effect.
This case will be the first. There is no mutuality of
parties, nor is the state court judge who will decide
Y.R.J.’s case a party. The Brackeens have suggested
that a ruling in this federal case would bind the Navajo
Nation in state court. That is not true for multiple
reasons. For starters, the Navajo Nation was not a party
in the district court (it intervened on appeal), so standing
on that basis would not have existed when the suit was
filed or even when judgment was entered. See Lujan,
504 U.S. at 570 n.5, 112 S. Ct. 2130 (“[S]tanding is to be
determined as of the commencement of suit.”).7
7

Lujan is right on point. The plaintiff sought to establish
redressability by arguing that “by later participating in the suit”
two federal agencies “created a redressability (and hence a
jurisdiction) that did not exist at the outset.” Id. at 569 n.4, 112 S.
Ct. 2130. That argument did not work because “[t]he existence of
federal jurisdiction ordinarily depends on the facts as they exist
when the complaint is filed.” Id. (quoting Newman-Green, Inc. v.
Alfonzo-Larrain, 490 U.S. 826, 830, 109 S. Ct. 2218, 104 L. Ed. 2d

407a
Relatedly, it is doubtful that issue preclusion applies to
a party that does not litigate in the trial court. Apart
from these defects relating to the timing of Navajo
Nation’s entering this lawsuit, issue preclusion does not
usually apply to pure questions of law like whether
ICWA’s preferences violate the Fifth Amendment. John
G. & Marie Stella Kenedy Mem. Found. v. Dewhurst, 90
S.W.3d 268, 288 (Tex. 2002) (explaining that
“[d]eterminations of law are not generally given
preclusive effect” in refusing to give effect to federal
court ruling interpreting old land grant under Mexican
civil law); see also In re Westmoreland Coal Co., 968
F.3d 526, 532 (5th Cir. 2020); RESTATEMENT (SECOND)
OF JUDGMENTS § 29(7) (1982); 18 WRIGHT ET AL., supra,
§ 4425, at 697-701 (all recognizing same principle). This
ordinary reluctance to give preclusive effect to questions
of law becomes even stronger when, as here, the two
cases are in different forums and neither jurisdiction’s
highest court has resolved the issue. RESTATEMENT
(SECOND) OF JUDGMENTS § 29(7) cmt. i.
JUDGE DUNCAN’s Opinion states the plaintiffs need
only show that the “practical consequences” of a ruling
by this court would “significantly increase the likelihood
of relief.” Duncan Op. at 20. Note the opinion does not
say—and can’t say because no case does—that
redressability can be met when the “practical
consequence” is convincing a state court judge to follow
our lead. That distinction is critical. As I have recounted,
state courts have no obligation to follow a lower federal
893 (1989)). Any claim of postfiling redressability is even weaker
here because Navajo Nation did not intervene until the appeal.

408a
court’s ruling on federal law. In contrast, the executive
branch officials sued in cases like Franklin would be
bound in later litigation by the federal court’s
declaratory judgment. 505 U.S. at 803, 112 S. Ct. 2767
(recognizing that the Commerce Secretary’s role in
“litigating [the] accuracy” of the census meant that
declaratory relief against her would redress plaintiff’s
injuries). The Franklin redressability dispute was about
whether the Cabinet member being sued had sufficient
influence over the challenged policy even though the
President had the ultimate say (as is always the case).
On that question, a substantial likelihood that the
Commerce Secretary could influence the census
conducted by the department she headed established
redressability. 505 U.S. at 803, 112 S. Ct. 2767
(recognizing that it was the Commerce Secretary’s
“policy determination concerning the census” that was
being challenged); see also supra note 4. Franklin’s
unremarkable reasoning is why there is redressability
for the APA claims—a declaratory judgment against the
Interior Secretary would bind her when it comes to
enforcing the department’s challenged regulations.
But contrary to JUDGE DUNCAN’s Opinion, the
Plaintiffs’ standing to challenge regulations cannot
bootstrap the claims challenging ICWA’s statutory
preferences into federal court. DaimlerChrysler Corp. v.
Cuno, 547 U.S. 332, 352, 126 S. Ct. 1854, 164 L. Ed. 2d
589 (2006) (“[O]ur standing cases confirm that a plaintiff
must demonstrate standing for each claim he seeks to
press.”). Even without a regulation requiring “clear and
convincing” evidence to justify departing from the
preferences, the statutory preferences remain and must

409a
be applied by state court judges unless they hold them
unconstitutional. The benefit the individual Plaintiffs
would receive from a declaration that the “clear and
convincing evidence” regulation is invalid establishes
redressability for the APA claim challenging that
regulation; it does not show how a declaration that the
underlying statutory preferences are unconstitutional
would redress plaintiffs’ injuries. But see Duncan Op. at
21–22.
JUDGE DUNCAN’s second stab at redressability also
improperly cross-pollinates standing among different
claims. Redressability arising from a declaration that
any obligations the placement preferences impose on
child welfare officials violate anti-commandeering
principles at most establishes standing for that
“particular claim[ ],” Allen v. Wright, 468 U.S. 737, 752,
104 S. Ct. 3315, 82 L. Ed. 2d 556 (1984), not the equal
protection claim that seeks to declare unlawful the
preferences as they apply in state court proceedings.
But see Duncan Op. at 21–22. And the statutory
preferences remain on the books regardless of federal
funding based on ICWA compliance.8 But see id. at 21.
The final redressability theory in JUDGE DUNCAN’s
Opinion is that the “requested relief would make the
adoptions less vulnerable to being overturned” because
it “would declare unenforceable the collateral attack

8

CHIEF JUDGE OWEN also correctly notes that the funding issue
“was not raised or briefed in the district court or this court.” Owen
Op. at 5. Nor is it clear how the individual plaintiffs, as opposed to
the States which cannot assert a Fifth Amendment claim, are
injured by the funding issue.

410a
provisions themselves and the underlying grounds for
invalidity.” Duncan Op. at 21 (citing 25 U.S.C. §§ 19111914). This again mixes and matches claims against
different provisions instead of requiring the plaintiffs to
“demonstrate standing separately” for each claim.
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs., Inc.,
528 U.S. 167, 185, 120 S. Ct. 693, 145 L. Ed. 2d 610 (2000).
More fundamentally, it brings us back to where I
started: no state court judge has to follow what we say
about ICWA. Consequently, even if standing to
challenge the collateral review provisions somehow
transfers to support standing for challenging the
separate provisions establishing the preferences in the
first place, no state court has to follow a “ruling” we
make about the collateral review provisions. To a state
court judge, our “ruling” is nothing more than
pontifications about the law. Perhaps our view
persuades the state court, perhaps not.
So both of the opinions that find standing for the
equal protection claim end up basing that view, at least
in part, on the possibility that a Texas judge might
decide to follow our view of the law. Think about the
consequences of this unprecedented view of standing. A
plaintiff need only find a state court judge who says she
would defer to a federal court ruling on the difficult
constitutional issue she is facing. Presto! A plaintiff
could manufacture standing for a federal lawsuit even
when a declaratory judgment would not have preclusive
effect on any parties to the federal suit. Talk about
upsetting the state/federal balance.
This license to allow outsourcing of traditional state
court matters to federal court brings me back to the

411a
opening point. To supposedly vindicate federalism, we
offend it by deciding questions that state court judges
are equipped to decide and have for decades—with the
Supreme Court having a chance to review those rulings.
See, e.g., Adoptive Couple v. Baby Girl, 570 U.S. 637, 133
S. Ct. 2552, 186 L. Ed. 2d 729 (2013) (case arising in
South Carolina courts); cf. Moore v. Sims, 442 U.S. 415,
418, 434–35, 99 S. Ct. 2371, 60 L. Ed. 2d 994 (1979)
(holding that Younger abstention applies to family law
cases). That we disregard the limits of federal
jurisdiction to reach out and decide issues that are raised
directly in adoption cases makes our lack of faith in our
state court colleagues even more troubling. Why aren’t
they capable of deciding these issues that are squarely
before them? Any historical and institutional concerns
about state courts’ willingness to vindicate federal
constitutional rights are lessened when a federal statute
is being challenged. If anything, state court judges
would be more receptive to concerns, like the allegations
plaintiffs raise here, that a federal law is interfering with
constitutional protections for States and individuals.
If the case-or-controversy requirement means
anything, it prevents a federal court from opining on a
constitutional issue on the mere hope that some judge
somewhere may someday listen to what we say. No
limitation on Article III is more fundamental than our
inability to issue such an advisory opinion.
II.
A.
That brings us to the most tragic irony of today’s
opinions. After more than two centuries of courts’

412a
recognizing sweeping federal power over Indian affairs
when that power was often used to destroy tribal life,
our court comes within a whisker of rejecting that power
when it is being used to sustain tribal life. It would be
news to Native Americans that federal authority to
wage war against Indian nations, to ratify treaties laying
claim to more than a billion acres of Indian land, to
remove Indian communities to reservations, and to
establish schools aimed at “civilizing” Indian pupils does
not reach the Indian family. See United States v. Lara,
541 U.S. 193, 201–04, 124 S. Ct. 1628, 158 L. Ed. 2d 420
(2004); 1 COHEN’S HANDBOOK OF FEDERAL INDIAN LAW
§§ 1.01–03. Contrary to what a near-majority of our
court concludes, the same power Congress once relied on
to tear Indian children from Indian homes authorizes
Congress to enlist state courts in the project of
returning them.
Two centuries of federal domination over Indian
affairs are enough to sustain ICWA’s provisions
regulating state domestic relations proceedings.
Congress has “plenary and exclusive” authority “to
legislate in respect to Indian tribes.” Lara, 541 U.S. at
200, 124 S. Ct. 1628. This “broad power,” White
Mountain Apache Tribe v. Bracker, 448 U.S. 136, 142,
100 S. Ct. 2578, 65 L. Ed. 2d 665 (1980), is found in Article
I, which authorizes Congress to “regulate commerce ...
with the Indian tribes.” U.S. CONST. art. I, § 8. The
Indian Commerce Clause “accomplishes a greater
transfer of power from the States to the Federal
Government than does the Interstate Commerce
Clause.” Seminole Tribe of Fla. v. Florida, 517 U.S. 44,
62, 116 S. Ct. 1114, 134 L. Ed. 2d 252 (1996).

413a
JUDGE DENNIS well articulates how federal
supremacy in the field of Indian affairs grew out of the
Founding generation’s understanding of the relationship
between the new nation and tribes. From the outset, the
Continental Congress dealt with Indian tribes just as it
did foreign nations, wielding an indivisible bundle of
powers that encompassed war, diplomacy, and trade. En
Banc Brief for Professor Gregory Ablavsky in Support
of Defendants-Appellants and Reversal at 5–6. But
under the Articles of Confederation, some states claimed
much of the same authority, leaving the state and federal
governments jostling for control over Indian relations.
Gregory Ablavsky, Beyond the Indian Commerce
Clause, 124 YALE L.J. 1012, 1021–22 (2015) (discussing
ARTICLES OF CONFEDERATION OF 1781, art. IX, para. 4).
The Constitution solved this predicament by making
federal authority over Indian commerce, treatymaking,
and territorial administration exclusive. Id. The national
government soon claimed, with the apparent assent of
state leaders, undivided power over Indian affairs. Id. at
1041–44. DENNIS OP. at 7–13.
The Framers grounded federal power over Indian
affairs in both the explicit constitutional text and in
implicit
preconstitutional
understandings
of
9
sovereignty. Brief of Indian Law Scholars as Amici
9

Just as the Supreme Court has stressed that background
principles of state sovereign immunity inform interpretation of the
Eleventh Amendment, Seminole Tribe, 517 U.S. at 72, 116 S. Ct.
1114, the Court has recognized the relevance of the historical
context from which the plenary federal Indian power emerged. See
Lara, 541 U.S. at 201, 124 S. Ct. 1628 (tracing federal authority over
Indian affairs to “the Constitution’s adoption of preconstitutional
powers necessarily inherent in any Federal Government”); Morton

414a
Curiae in Support of Defendants-Appellants at 1. They
viewed relations between the United States and Indian
tribes as governed by the law of nations. Ablavsky,
supra, at 1059–67. Many early treaties embraced the
idea that the United States, as the more powerful
sovereign, owed a duty of protection to tribes. Brief of
Indian Law Scholars, at 1–2 (collecting examples). And
the Supreme Court emphasized that this responsibility
for Indian welfare imbued the federal government with
immense power at the expense of the states. See, e.g.,
Worcester v. Georgia, 31 U.S. 6 Pet. 515, 560–61, 8 L. Ed.
483 (1832); United States v. Kagama, 118 U.S. 375, 384,
6 S. Ct. 1109, 30 L. Ed. 228 (1886); United States v.
Rickert, 188 U.S. 432, 437–38, 23 S. Ct. 478, 47 L. Ed. 532
(1903).
How far does this power extend? The Supreme
Court has upheld federal authority to enact special
criminal laws, in the name of “continued guardianship,”
affecting U.S. citizens who are Indian tribe members.
United States v. Nice, 241 U.S. 591, 595–99, 36 S. Ct. 696,
60 L. Ed. 1192 (1916) (construing the General Allotment
Act of 1887). Congress may violate treaty obligations in
its disposal of tribal property, Lone Wolf v. Hitchcock,
187 U.S. 553, 564, 567–68, 23 S. Ct. 216, 47 L. Ed. 299
(1903) (validating congressional allotment in conflict
with treaty between the United States and Kiowa and
Comanche Tribes); unilaterally determine tribal
membership for the purposes of administering tribal
v. Mancari, 417 U.S. 535, 551–53, 94 S. Ct. 2474, 41 L. Ed. 2d 290
(1974) (“The plenary power of Congress to deal with the special
problems of Indians is drawn both explicitly and implicitly from the
Constitution itself.”).

415a
assets, Del. Tribal Bus. Cmte. v. Weeks, 430 U.S. 73, 84–
86, 97 S. Ct. 911, 51 L. Ed. 2d 173 (1977) (upholding
statute appropriating award made by Indian Claims
Commission); exercise eminent domain over tribal lands,
Cherokee Nation v. S. Kan. Ry. Co., 135 U.S. 641, 656–
67, 10 S. Ct. 965, 34 L. Ed. 295 (1890) (upholding
legislation granting railroad right of way through Indian
land); and single out Indian applicants for preferred
hiring in federal jobs, Mancari, 417 U.S. at 551–55, 94 S.
Ct. 2474 (sustaining constitutionality of Indian
Reorganization Act of 1934).10

10

The Supreme Court has recognized the extraordinary breadth of
federal power in another area where Congress wields plenary
authority: immigration. See Michael Doran, The Equal-Protection
Challenge to Federal Indian Law, 6 U. PA. J. L. & PUB. AFF. 1, 34–
42 (2020). The foundational cases recognizing plenary federal
authority over immigration and Indian affairs were decided just
three years apart and rely on similar reasoning. Compare Chae
Chan Ping v. United States, 130 U.S. 581, 9 S. Ct. 623, 32 L. Ed. 1068
(1889), with Kagama, 118 U.S. at 375, 6 S. Ct. 1109 (1886); see also
Doran, supra, at 34–36 (noting similarities in the reasoning of the
cases).
There is also symmetry in the scope of federal power over these two
subjects. Just as limited rational-basis review governs
classifications involving tribes, the immigration power allows the
federal government to discriminate among noncitizens in a way that
states may not. Compare Mathews v. Diaz, 426 U.S. 67, 79–80, 96 S.
Ct. 1883, 48 L. Ed. 2d 478 (1976) (Congress may withhold Medicare
eligibility from certain noncitizens), with Graham v. Richardson,
403 U.S. 365, 376, 91 S. Ct. 1848, 29 L. Ed. 2d 534 (1971) (states may
not constitutionally deny welfare benefits to certain noncitizens);
see also Doran, supra, at 36–39 & n.193 (drawing this comparison).
And because “the regulation of aliens is so intimately blended and
intertwined with responsibilities of the national government,”
“[a]ny concurrent state power that may exist is restricted to the

416a
Where do the states stand in relation to the “plenary
and exclusive” federal power over Indian affairs? They
are “divested of virtually all authority over Indian
commerce and Indian tribes.” Seminole Tribe, 517 U.S.
at 62, 116 S. Ct. 1114. The states, in ratifying the
Constitution, ceded to Congress “the exclusive right to
regulate ... intercourse with the Indians,” Worcester, 31
U.S. at 590, as clearly as the states gave Congress sole
power to “coin money, establish post offices, and declare
war,” id. at 580–81. Even when federal policy favoring
state control over Indian affairs reached its height,
Congress withheld from the states “general civil
regulatory powers ... over reservation Indians.” Bryan
v. Itasca Cty., 426 U.S. 373, 390, 96 S. Ct. 2102, 48 L. Ed.
2d 710 (1976) (interpreting Pub. L. 280); COHEN’S § 1.06
& n.32.
Some examples illustrate the limits of state
authority to regulate Indian affairs even in core areas of
state power like criminal law and taxation. Without
Congress’s blessing, states cannot exercise criminal
jurisdiction over Indian country. See Washington v.
Confederated Bands and Tribes of the Yakima Indian
Nation, 439 U.S. 463, 470–71, 99 S. Ct. 740, 58 L. Ed. 2d
740 (1979) (discussing federal authorization of state
jurisdiction under Pub. L. 280); United States v. John,
437 U.S. 634, 649–54, 98 S. Ct. 2541, 57 L. Ed. 2d 489
(1978) (holding state criminal jurisdiction precluded by
Major Crimes Act of 1885); Kagama, 118 U.S. at 379–80,
6 S. Ct. 1109. Congress can exempt Indians from state

narrowest of limits.” Hines v. Davidowitz, 312 U.S. 52, 66–68, 61 S.
Ct. 399, 85 L. Ed. 581 (1941).

417a
property taxes. Bd. of Comm’rs of Creek Cty. v. Seber,
318 U.S. 705, 715–18, 63 S. Ct. 920, 87 L. Ed. 1094 (1943).
Even when Congress has not legislated, exclusive
federal authority in the domain of Indian affairs may
preempt state regulation. McClanahan v. State Tax
Comm’n of Ariz., 411 U.S. 164, 165, 93 S. Ct. 1257, 36 L.
Ed. 2d 129 (1973) (invalidating state tax on tribe
member’s income earned on reservation); Bracker, 448
U.S. at 150–52, 100 S. Ct. 2578 (striking down state tax
on commercial activities of non-Indians on Indian land).
JUDGE DUNCAN’s Opinion proclaims ICWA a novel
exercise of congressional power because it interferes
with state domestic relations proceedings. But as JUDGE
DENNIS recounts, the federal government has been a
constant, often deleterious presence in the life of the
Indian family from the beginning. And, as will be
discussed, ICWA is hardly the only statute to impose
federal standards on state courts.
Congress’s interest in the destiny of Indian children
is older than the Republic itself. The Continental
Congress viewed Indian education as a wartime
strategy, authorizing a grant to Dartmouth College with
the hope that bringing Indian students to the school
would deter any possible attack by British-allied tribes.
Matthew L.M. FLETCHER & Wenona T. Singel, Indian
Children and the Federal-Tribal Trust Relationship, 95
NEB. L. REV. 885, 911 (2017). Following Independence,
more than one hundred treaties provided for Indian
education. Brief of Indian Law Scholars, at 4. But early
federal efforts to offer voluntary education programs
morphed into a “coercive and destructive” system of
boarding schools designed to assimilate Indian children.

418a
MATTHEW L.M. FLETCHER, PRINCIPLES OF FEDERAL
INDIAN LAW § 3.6 (1st ed. 2017); Brief of Ablavsky, at 20.
The federal government instituted its “civilization”
policy by force, punishing Indian families that resisted
turning over their children and hunting down the pupils
who escaped. FLETCHER, FEDERAL INDIAN LAW § 3.6.
At these schools, students were beaten for speaking
their native languages. COHEN’S § 1.04; Dennis Op. at
21–24. While these practices have abated, federal
involvement in Indian schooling has not. Under today’s
federal policy of Indian self-determination, Congress
provides substantial funding for Indian education and
continues to operate some schools with “tribal input and
... tribal control.” FLETCHER & Singel, supra, at 964; see
also Brief of Indian Law Scholars, at 4.
In the view of JUDGE DUNCAN’s Opinion, this
narrative sheds little light on whether Congress can set
standards for state adoptions involving Indian children
because no Supreme Court decision or “founding-era
congressional practice” explicitly blesses federal
intervention in state domestic relations proceedings.
Duncan Op. at 2, 29. But adoption as we know it today
did not exist at common law and did not become the
subject of state legislation until the mid-nineteenth
century. Stephen B. Presser, The Historical
Background of American Adoption Law, 11 J. Fam. L.
443, 443 (1971). It would have been “anachronistic ... and
bizarre,” in the words of one amicus, for the founding-era
Congress to attempt legislative interference with state
proceedings that would not exist for another eight
decades. Brief of Ablavsky, at 16; see also Brown v. Bd.
of Educ., 347 U.S. 483, 489–90, 74 S. Ct. 686, 98 L. Ed.

419a
873 (noting that the history of the Fourteenth
Amendment was “inconclusive” on the issue of school
segregation because “[i]n the South, the movement
toward free common schools, supported by general
taxation, had not yet taken hold” at the time of
enactment). Given that “at least during the first century
of America’s national existence ... Indian affairs were
more an aspect of military and foreign policy than a
subject of domestic or municipal law,” it should come as
no surprise that the focus of the broad federal power
over Indian affairs has shifted over time. Lara, 541 U.S.
at 200, 124 S. Ct. 1628 (internal citation omitted).
Still, JUDGE DUNCAN’s Opinion declares ICWA—as
a “federal Indian law [that] governs states’ own
administrative and judicial proceedings” for domestic
relations—to be highly “unusual,” and finds no historical
analogue for this (highly specific) category of legislation.
Duncan Op. at 2, 34. But while family court proceedings
typically are governed by state law, they are not a “no
fly zone” for federal interests. See Brief of Casey Family
Programs, at 24–26 (discussing federal laws that apply
in domestic relations cases). Take the Servicemember’s
Civil Relief Act. 50 U.S.C. §§ 3901–4043. The law sets
rules governing child custody proceedings in state
courts by, among other things, limiting the court’s
consideration of a servicemember’s deployment when
determining custody. See id. §§ 3931, 3938. In asserting
a federal interest in family court proceedings, the
Servicemember’s Civil Relief Act is not unique. To
further the federal government’s treatymaking and
foreign relations powers, the International Child
Abduction Remedies Act charges state courts with

420a
administering the Hague Convention on the Civil
Aspects of International Child Abduction to ensure
“prompt return” of abducted children. See 28 U.S.C.
§§ 9001–03. And JUDGE HIGGINSON cites several
examples of federal laws that preempt state domestic
relations law. Higginson Op. at 2-3 (citing cases
involving ERISA, the Railroad Retirement Act, the
National Service Life Insurance Act, and Homestead
Act). If these statutes permissibly “govern[ ] states’ own
administrative and judicial proceedings,” Duncan Op. at
2, why would Congress lack authority to do the same
through its “plenary and exclusive” power over Indian
affairs?
When Congress enacted ICWA, it declared the
removal of Indian children from their homes by state
officials “the most tragic and destructive aspect of
American Indian life today.” See H.R. REP. No. 95-1386,
at 9 (1978). Family-separation policies had “contributed
to a number of problems, including the erosion of
generations of Indians from Tribal communities, loss of
Indian traditions and culture, and long-term emotional
effects on Indian children caused by the loss of their
Indian identity.” Indian Child Welfare Act Proceedings,
Final Rule, 81 Fed. Reg. 38,864, 38, 780 (June 14, 2016)
(citing Hearing Before the Subcommittee on Indian
Affairs of the Senate Comm. on Interior & Insular
Affairs on Problems that Am. Indian Families Face in
Raising Their Children & How These Problems Are
Affected by Fed. Action or Inaction, 93 Cong., 2d Sess.,
at 1–2, 45–51 (1974)). Although ICWA can never heal
these wounds, it sought to stanch their bleeding. As the
culmination of extensive federal involvement in the
education and welfare of Indian children, the law falls

421a
well within the broad congressional power over Indian
affairs.
B.
This leads to today’s final irony. JUDGE DUNCAN’s
Opinion overrides the plenary federal power over Indian
affairs, with its deep textual and historical roots, based
on a principle that finds support in neither text nor
history: the notion that the Constitution prohibits the
federal government from granting preferences to tribe
members. Rather than credit copious originalist
evidence of the sweeping federal power over Indian
affairs, JUDGE DUNCAN’s Opinion adopts the atextual
and ahistorical argument that the Fifth Amendment’s
implicit equal protection guarantee strips Congress of
the power to enact tribal preferences. Duncan Op. at 71;
see Bolling v. Sharpe, 347 U.S. 497, 499, 74 S. Ct. 693, 98
L. Ed. 884 (1955) (recognizing that the Fourteenth
Amendment’s guarantee of “‘equal protection of the
laws’ is a more explicit safeguard of prohibited
unfairness” than the Fifth Amendment’s Due Process
Clause). That is nothing new. Originalism usually goes
AWOL when the issue is whether the government may
grant preferences to historically disadvantaged groups.
See, e.g., ERIC J. SEGALL, ORIGINALISM AS FAITH 127–30
(2018); CASS R. SUNSTEIN, RADICALS IN ROBES 131–42
(2005); Steven G. Calabresi & Gary Lawson, The Rule of
Law as a Law of Law, 90 Notre Dame L. Rev. 483, 490–
91 (2014); Michael B. Rappaport, Originalism and the
Colorblind Constitution, 89 NOTRE DAME L. REV. 71, 76
(2013); Stephen M. Griffin, Rebooting Originalism, 2008
U. ILL. L. REV. 1185, 1202–03; Jed Rubenfeld,
Affirmative Action, 107 YALE L.J. 427, 430–32 (1997);

422a
Eric Schnapper, Affirmative Action and the Legislative
History of the Fourteenth Amendment, 71 VA. L. REV.
753, 754 (1985).11
Ignoring the lack of historical support for a
constitutional ban on federal preferences to historicallydisadvantaged groups is especially flagrant in light of
200-plus years of jurisprudence recognizing vast federal
power over Indian affairs. As that authority flows in
part from the federal government’s plenary power over
foreign relations, there is nothing unusual or
unconstitutional about exercising it to grant
preferences. Preferring some nations over others—
through alliances, aid, and treaties, among other
things—is the essence of foreign policy. That’s why a
preference for tribe members “does not constitute racial
discrimination.” Mancari, 417 U.S. 553; see Bethany R.
Berger, Savage Equalities, 94 WASH. L. REV. 583, 627
(2019) (“ICWA’s definition of ‘Indian children,’ which
requires either tribal citizenship or that the child has a
tribal citizen parent and is eligible for citizenship, rests
squarely on the kind of ‘political rather than racial’
belonging of which Mancari approved.”). When
Congress “single[s] out [Indians] for special treatment,”
11

Although Professor Rappaport recognizes that some court
decisions rejecting the constitutionality of affirmative action
programs “engage[ ] in little discussion of the constitutional text and
almost no discussion of the history of the Fourteenth Amendment,”
he tries to push back on the prevailing scholarly view that the
original understanding allows states to pursue such policies.
Rappaport, supra, at 76. But even he recognizes that the historical
case is much different when it comes to claims that the federal
government cannot adopt policies that prefer disadvantaged
groups. Id. at 71 n.2, 73.

423a
it draws upon its expansive authority to structure
relations between the United States and another
sovereign. Mancari, 417 U.S. at 554–55, 94 S. Ct. 2474
(describing Indians as “members of quasi-sovereign
tribal entities”); accord Fisher v. Dist. Court, 424 U.S.
382, 390, 96 S. Ct. 943, 47 L. Ed. 2d 106 (1976) (explaining
that the jurisdiction of a tribal court “does not derive
from [ ] race ... but rather from the quasi-sovereign
status of [tribes] under federal law”). These preferences
further centuries-old interests animating the federal
government’s “special relationship” with tribes.
Mancari, 417 U.S. at 541–42, 552, 94 S. Ct. 2474.
C.
Why bother with these objections to the substantive
aspects of today’s opinions if, as I have explained, they
will have all the binding effect of a law review article?12
Because the procedural and substantive problems with
this case are two peas in the same activist pod.
Judicial restraint is a double victim of today’s tome.
The court ignores standing requirements that enforce
“the proper—and properly limited—role of the courts in
a democratic society.” Warth v. Seldin, 422 U.S. 490, 498,
95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975). And a willingness,
even eagerness, to strike down a 43-year-old federal law
that continues to enjoy bipartisan support scorns the
notion that “declar[ing] an Act of Congress
unconstitutional ... is the gravest and most delicate duty”
12

In addition to a federal court’s inability to create precedent for
state courts, the two equal protection challenges our court upholds
will not even be precedential within our circuit because we are
affirming the district court’s ruling by an equally divided vote.

424a
that federal judges are “called on to perform.” Blodgett
v. Holden, 275 U.S. 142, 147–48, 276 U.S. 594, 48 S. Ct.
105, 72 L. Ed. 206 (1927) (Holmes, J., concurring).
Whither the passive virtues? Alexander Bickel, The
Supreme Court 1960 Term Foreword: The Passive
Virtues, 75 HARV. L. REV. 40 (1961).
Whither the “conviction that it is an awesome thing
to strike down an act of the legislature approved by the
Chief Executive”? ROBERT H. JACKSON, THE STRUGGLE
FOR JUDICIAL SUPREMACY: A STUDY OF A CRISIS IN
AMERICAN POWER POLITICS 323 (Legal Classics ed.
2000).
Heaped, one must conclude, on the pile of broken
promises that this country has made to its Native
peoples.

425a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT.
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK NICHOLAS
LIBRETTI; STATE OF LOUISIANA; HEATHER LYNN
LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs - Appellees
v.
DAVID BERNHARDT, Secretary, U.S. Department of the
Interior; TARA SWEENEY, in her official capacity as
Acting Assistant Secretary for Indian Affairs; BUREAU
OF INDIAN AFFAIRS; UNITED STATES DEPARTMENT OF
INTERIOR; UNITED STATES OF AMERICA; ALEX AZAR,
In his official capacity as Secretary of the United States
Department of Health and Human Services; UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES,
Defendants - Appellants
CHEROKEE NATION; ONEIDA NATION; QUINAULT
INDIAN NATION; MORONGO BAND OF MISSION INDIANS,
Intervenor Defendants - Appellants
No. 18-11479
FILED August 9, 2019
MODIFIED August 16, 2019

426a
Affirmed in part, reversed in part, and rendered.
Owen, Circuit Judge, filed opinion concurring in part and
dissenting in part.
JAMES L. DENNIS, Circuit Judge:
This case presents facial constitutional challenges to
the Indian Child Welfare Act of 1978 (ICWA) and
statutory and constitutional challenges to the 2016
administrative rule (the Final Rule) that was
promulgated by the Department of the Interior to
clarify provisions of ICWA. Plaintiffs are the states of
Texas, Indiana, and Louisiana, and seven individuals
seeking to adopt Indian children. Defendants are the
United States of America, several federal agencies and
officials in their official capacities, and five intervening
Indian tribes. Defendants moved to dismiss the
complaint for lack of subject matter jurisdiction, but the
district court denied the motion, concluding, as relevant
to this appeal, that Plaintiffs had Article III standing.
The district court then granted summary judgment in
favor of Plaintiffs, ruling that provisions of ICWA and
the Final Rule violated equal protection, the Tenth
Amendment, the nondelegation doctrine, and the
Administrative Procedure Act. Defendants appealed.
Although we AFFIRM the district court’s ruling that
Plaintiffs had standing, we REVERSE the district
court’s grant of summary judgment to Plaintiffs and
RENDER judgment in favor of Defendants.

427a
BACKGROUND
I. The Indian Child Welfare Act (ICWA)
Congress enacted the Indian Child Welfare Act of
1978 (ICWA), 25 U.S.C. §§ 1901 et seq., to address rising
concerns over “abusive child welfare practices that
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption
or foster care placement, usually in non-Indian homes.”
Miss. Band Choctaw Indians v. Holyfield, 490 U.S. 30,
32, 109 S. Ct. 1597, 104 L. Ed. 2d 29 (1989). Recognizing
that a “special relationship” exists between the United
States and Indian tribes, Congress made the following
findings:
Congress has plenary power over Indian affairs. 25
U.S.C. § 1901(1) (citing U.S. Const. art. I, section 8, cl. 3
(“The Congress shall have Power ... To regulate
Commerce ... with the Indian Tribes.”)).
“[T]here is no resource that is more vital to the
continued existence and integrity of Indian tribes
than their children ....” Id. at § 1901(3).
“[A]n alarmingly high percentage of Indian families
are broken up by the removal, often unwarranted, of
their children from them by nontribal public and
private agencies and that an alarmingly high
percentage of such children are placed in non-Indian
foster and adoptive homes and institutions.” Id. at
§ 1901(4).
“States exercising their recognized jurisdiction over
Indian child custody proceedings through
administrative and judicial bodies, have often failed
to recognize the essential tribal relations of Indian

428a
people and the cultural and social standards
prevailing in Indian communities and families.” Id. at
§ 1901(5).
In light of these findings, Congress declared that it
was the policy of the United States “to protect the best
interests of Indian children and to promote the stability
and security of Indian tribes and families by the
establishment of minimum Federal standards for the
removal of Indian children from their families and the
placement of such children in foster or adoptive homes
which will reflect the unique values of Indian culture,
and by providing for assistance to Indian tribes in the
operation of child and family service programs.” Id. at
§ 1902.
ICWA applies in state court child custody
proceedings involving an “Indian child,” defined as “any
unmarried person who is under age eighteen and is
either (a) a member of an Indian tribe or (b) is eligible
for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” Id. at § 1903(4). In
proceedings for the foster care placement or termination
of parental rights, ICWA provides “the Indian custodian
of the child and the Indian child’s tribe [ ] a right to
intervene at any point in the proceeding.” Id. at
§ 1911(c). Where such proceedings are involuntary,
ICWA requires that the parent, the Indian custodian,
the child’s tribe, or the Secretary of the United States
Department of the Interior (Secretary or Secretary of
the Interior) be notified of pending proceedings and of
their right to intervene. Id. at § 1912. In voluntary
proceedings for the termination of parental rights or
adoptive placement of an Indian child, the parent can

429a
withdraw consent for any reason prior to entry of a final
decree of adoption or termination, and the child must be
returned to the parent. Id. at § 1913(c). If consent was
obtained through fraud or duress, a parent may petition
to withdraw consent within two years after the final
decree of adoption and, upon a showing of fraud or
duress, the court must vacate the decree and return the
child to the parent. Id. at § 1913(d). An Indian child, a
parent or Indian custodian from whose custody the child
was removed, or the child’s tribe may file a petition in
any court of competent jurisdiction to invalidate an
action in state court for foster care placement or
termination of parental rights if the action violated any
provision of ICWA §§ 1911–13. Id. at § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings
involving Indian children. Section 1915 requires that
“[i]n any adoptive placement of an Indian child under
State law, a preference shall be given, in the absence of
good cause to the contrary, to a placement with: (1) a
member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian
families.” Id. at § 1915(a). Similar requirements are set
for foster care or preadoptive placements. Id. at
§ 1915(b). If a tribe establishes by resolution a different
order of preferences, the state court or agency effecting
the placement “shall follow [the tribe’s] order so long as
the placement is the least restrictive setting appropriate
to the particular needs of the child.” Id. at § 1915(c).
The state in which an Indian child’s placement was
made shall maintain records of the placement, which
shall be made available at any time upon request by the

430a
Secretary or the child’s tribe. Id. at § 1915(e). A state
court entering a final decree in an adoptive placement
“shall provide the Secretary with a copy of the decree or
order” and information as necessary regarding “(1) the
name and tribal affiliation of the child; (2) the names and
addresses of the biological parents; (3) the names and
addresses of the adoptive parents; and (4) the identity of
any agency having files or information relating to such
adoptive placement.” Id. at § 1951(a). ICWA’s
severability clause provides that “[i]f any provision of
this chapter or the applicability thereof is held invalid,
the remaining provisions of this chapter shall not be
affected thereby.” Id. at § 1963.
II. The Final Rule
ICWA provides that “the Secretary [of the Interior]
shall promulgate such rules and regulations as may be
necessary to carry out [its] provisions.” 25 U.S.C. § 1952.
In 1979, the Bureau of Indian Affairs (BIA) promulgated
guidelines (the “1979 Guidelines”) intended to assist
state courts in implementing ICWA but without
“binding legislative effect.” Guidelines for State Courts;
Indian Child Custody Proceedings, 44 Fed. Reg. 67,584
(Nov. 26, 1979). The 1979 Guidelines left the “primary
responsibility” of interpreting certain language in
ICWA “with the [state] courts that decide Indian child
custody cases.” Id. However, in June 2016, the BIA
promulgated the Final Rule to “clarify the minimum
Federal standards governing implementation of
[ICWA]” and to ensure that it “is applied in all States
consistent with the Act’s express language, Congress’s
intent in enacting the statute, and to promote the
stability and security of Indian tribes and families.” 25

431a
C.F.R. § 23.101; Indian Child Welfare Act Proceedings,
81 Fed. Reg. 38,778, 38,868 (June 14, 2016). The Final
Rule explained that while the BIA “initially hoped that
binding regulations would not be necessary to carry out
[ICWA], a third of a century of experience has confirmed
the need for more uniformity in the interpretation and
application of this important Federal law.” 81 Fed. Reg.
at 38,782.
The Final Rule provides that states have the
responsibility of determining whether a child is an
“Indian child” subject to ICWA’s requirements. 25
C.F.R. §§ 23.107–22; 81 Fed. Reg. at 38,778, 38,869–73.
The Final Rule also sets forth notice and recordkeeping
requirements for states, see 25 C.F.R. §§ 23.140–41; 81
Fed. Reg. at 38,778, 38,875–76, and requirements for
states and individuals regarding voluntary proceedings
and parental withdrawal of consent, see 25 C.F.R.
§§ 23.124–28; 81 Fed. Reg. at 38,778, 38,873–74. The
Final Rule also restates ICWA’s placement preferences
and clarifies when they apply and when states may
depart from them. See 25 C.F.R. §§ 23.129–32; 81 Fed.
Reg. at 38,778, 38,874–75.
III.

The Instant Action
A. Parties
1. Plaintiffs

Plaintiffs in this action are the states of Texas,
Louisiana, and Indiana,1 (collectively, the “State
1

There are three federally recognized tribes in Texas: the Yselta
del Sur Pueblo, the Kickapoo Tribe, and the Alabama-Coushatta
Tribe. There are four federally recognized tribes in Louisiana: the
Chitimacha Tribe, the Coushatta Tribe, the Tunica-Biloxi Tribe, and

432a
Plaintiffs”), and seven individual Plaintiffs—Chad and
Jennifer Brackeen (the “Brackeens”), Nick and Heather
Libretti (the “Librettis”), Altagracia Socorro
Hernandez (“Hernandez”), and Jason and Danielle
Clifford (the “Cliffords”) (collectively, “Individual
Plaintiffs”) (together with State Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.
At the time their initial complaint was filed in the
district court, the Brackeens sought to adopt A.L.M.,
who falls within ICWA’s definition of an “Indian Child.”
His biological mother is an enrolled member of the
Navajo Nation and his biological father is an enrolled
member of the Cherokee Nation. When A.L.M. was ten
months old, Texas’s Child Protective Services (“CPS”)
removed him from his paternal grandmother’s custody
and placed him in foster care with the Brackeens. Both
the Navajo Nation and the Cherokee Nation were
notified pursuant to ICWA and the Final Rule. A.L.M.
lived with the Brackeens for more than sixteen months
before they sought to adopt him with the support of his
biological parents and paternal grandmother. In May
2017, a Texas court, in voluntary proceedings,
terminated the parental rights of A.L.M.’s biological
parents, making him eligible for adoption under Texas
law. Shortly thereafter, the Navajo Nation notified the
state court that it had located a potential alternative
placement for A.L.M. with non-relatives in New Mexico,
though this placement ultimately failed to materialize.
In July 2017, the Brackeens filed an original petition for
the Jena Band of Choctaw Indians. There is one federally
recognized tribe in Indiana: the Pokagon Band of Potawatomi
Indians.

433a
adoption, and the Cherokee Nation and Navajo Nation
were notified in compliance with ICWA. The Navajo
Nation and the Cherokee Nation reached an agreement
whereby the Navajo Nation was designated as A.L.M.’s
tribe for purposes of ICWA’s application in the state
proceedings. No one intervened in the Texas adoption
proceeding or otherwise formally sought to adopt
A.L.M. The Brackeens entered into a settlement with
the Texas state agency and A.L.M.’s guardian ad litem
specifying that, because no one else sought to adopt
A.L.M., ICWA’s placement preferences did not apply. In
January 2018, the Brackeens successfully petitioned to
adopt A.L.M. The Brackeens initially alleged in their
complaint that they would like to continue to provide
foster care for and possibly adopt additional children in
need, but their experience adopting A.L.M. made them
reluctant to provide foster care for other Indian children
in the future. Since their complaint was filed, the
Brackeens have sought to adopt A.L.M.’s sister, Y.R.J.
in Texas state court. Y.R.J., like her brother, is an Indian
Child for purposes of ICWA. The Navajo Nation
contests the adoption. On February 2, 2019, the Texas
court granted the Brackeens’ motion to declare ICWA
inapplicable as a violation of the Texas constitution, but
“conscientiously refrain[ed]” from ruling on the
Brackeens’ claims under the United States Constitution
pending our resolution of the instant appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby O.
for adoption at her birth, though Hernandez has

434a
continued to be a part of Baby O.’s life and she and the
Librettis visit each other regularly. Baby O.’s biological
father, E.R.G., descends from members of the Yselta del
sur Pueblo Tribe (the “Pueblo Tribe”), located in El
Paso, Texas, and was a registered member at the time
Baby O. was born. The Pueblo Tribe intervened in the
Nevada custody proceedings seeking to remove Baby O.
from the Librettis. Once the Librettis joined the
challenge to the constitutionality of the ICWA and the
Final Rule, the Pueblo Tribe indicated that it was willing
settle. The Librettis agreed to a settlement with the
tribe that would permit them to petition for adoption of
Baby O. The Pueblo Tribe agreed not to contest the
Librettis’ adoption of Baby O., and on December 19,
2018, the Nevada state court issued a decree of adoption,
declaring that the Librettis were Baby O.’s lawful
parents. Like the Brackeens, the Librettis alleged that
they intend to provide foster care for and possibly adopt
additional children in need but are reluctant to foster
Indian children after this experience.
c. The Cliffords & Child P.
The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the White
Earth Band for purposes of ICWA’s application in the
Minnesota state court proceedings. Pursuant to ICWA
section 1915’s placement preferences, county officials
removed Child P. from the Cliffords’ custody and, in
January 2018, placed her in the care of her maternal
grandmother, whose foster license had been revoked.
Child P.’s guardian ad litem supports the Cliffords’

435a
efforts to adopt her and agrees that the adoption is in
Child P.’s best interest. The Cliffords and Child P.
remain separated, and the Cliffords face heightened
legal barriers to adopting her. On January 17, 2019, the
Minnesota court denied the Cliffords’ motion for
adoptive placement.
2. Defendants
Defendants are the United States of America; the
United States Department of the Interior and its
Secretary Ryan Zinke, in his official capacity; the BIA
and its Director Bryan Rice, in his official capacity; the
BIA Principal Assistant Secretary for Indian Affairs
John Tahsuda III, in his official capacity; and the
Department of Health and Human Services (“HHS”)
and its Secretary Alex M. Azar II, in his official capacity
(collectively the “Federal Defendants”). Shortly after
this case was filed in the district court, the Cherokee
Nation, Oneida Nation, Quinault Indian Nation, and
Morengo Band of Mission Indians (collectively, the
“Tribal Defendants”) moved to intervene, and the
district court granted the motion. On appeal, we granted
the Navajo Nation’s motion to intervene as a defendant2
(together with Federal and Tribal Defendants,
“Defendants”).
2

The Navajo Nation had previously moved to intervene twice in the
district court. The first motion was for the limited purpose of
seeking dismissal pursuant to Rule 19, which the district court
denied. The Navajo Nation filed a second motion to intervene for
purposes of appeal after the district court’s summary judgment
order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation filed
the motion directly with this court.

436a
B. Procedural History
Plaintiffs filed the instant action against the Federal
Defendants in October 2017, alleging that the Final Rule
and certain provisions of ICWA are unconstitutional and
seeking injunctive and declaratory relief. Plaintiffs
argued that ICWA and the Final Rule violated equal
protection and substantive due process under the Fifth
Amendment and the anticommandeering doctrine that
arises from the Tenth Amendment. Plaintiffs
additionally sought a declaration that provisions of
ICWA and the Final Rule violated the nondelegation
doctrine and the Administrative Procedure Act (APA).
Defendants moved to dismiss, alleging that Plaintiffs
lacked standing. The district court denied the motion.
All parties filed cross-motions for summary judgment.
The district court granted Plaintiffs’ motion for
summary judgment in part, concluding that ICWA and
the Final Rule violated equal protection, the Tenth
Amendment, and the nondelegation doctrine, and that
the challenged portions of the Final Rule were invalid
under the APA.3 Defendants appealed. A panel of this
court subsequently stayed the district court’s judgment
pending further order of this court. In total, fourteen
amicus briefs were filed in this court, including a brief in
support of Plaintiffs and affirmance filed by the state of
Ohio; and a brief in support of Defendants and reversal
filed by the states of California, Alaska, Arizona,
Colorado, Idaho, Illinois, Iowa, Maine, Massachusetts,
Michigan, Minnesota, Mississippi, Montana, New Jersey,

3

The district court denied Plaintiffs’ substantive Due Process claim,
from which Plaintiffs do not appeal.

437a
New Mexico, Oregon, Rhode Island, Utah, Virginia,
Washington, and Wisconsin.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. See Texas v. United States, 497 F.3d
491, 495 (5th Cir. 2007). Summary judgment is
appropriate when the movant has demonstrated “that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). A genuine dispute of material fact
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106
S. Ct. 2505, 91 L. Ed. 2d 202 (1986).
DISCUSSION
I. Article III Standing
Defendants first contend that Plaintiffs lack
standing to challenge ICWA and the Final Rule. The
district court denied Defendants’ motion to dismiss on
this basis, concluding that Individual Plaintiffs had
standing to bring an equal protection claim; State
Plaintiffs had standing to challenge provisions of ICWA
and the Final Rule on the grounds that they violated the
Tenth Amendment and the nondelegation doctrine; and
all Plaintiffs had standing to bring an APA claim
challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins,
––– U.S. ––––, 136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635
(2016) (citing U.S. Const. art. III, § 2). “Standing to sue
is a doctrine rooted in the traditional understanding of a

438a
case or controversy.” Id. To meet the Article III
standing requirement, plaintiffs must demonstrate “(1)
an injury that is (2) fairly traceable to the defendant’s
allegedly unlawful conduct and that is (3) likely to be
redressed by the requested relief.” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 590, 112 S. Ct. 2130, 119 L. Ed. 2d
351 (1992) (internal quotations omitted). A plaintiff
seeking equitable relief must demonstrate a likelihood of
future injury in addition to past harm. See City of Los
Angeles v. Lyons, 461 U.S. 95, 105, 103 S. Ct. 1660, 75 L.
Ed. 2d 675 (1983). This injury must be “concrete and
particularized” and “actual or imminent, not conjectural
or hypothetical.” See Lujan, 504 U.S. at 560, 112 S. Ct.
2130 (cleaned up). “[S]tanding is not dispensed in gross,”
and “a plaintiff must demonstrate standing for each
claim he seeks to press and for each form of relief that is
sought.” Town of Chester, N.Y. v. Laroe Estates, Inc., –
–– U.S. ––––, 137 S. Ct. 1645, 1650, 198 L. Ed. 2d 64 (2017)
(quoting Davis v. Fed. Election Comm’n, 554 U.S. 724,
734, 128 S. Ct. 2759, 171 L. Ed. 2d 737 (2008)). “[T]he
presence of one party with standing is sufficient to
satisfy Article III’s case-or-controversy requirement.”
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 53 n.2, 126 S. Ct. 1297, 164 L. Ed. 2d
156 (2006). “This court reviews questions of standing de
novo.” Nat’l Rifle Ass’n of Am., Inc. v. McCraw, 719
F.3d 338, 343 (5th Cir. 2013).
A. Standing to Bring Equal Protection Claim
Plaintiffs challenged ICWA sections 1915(a)–(b),
1913(d), and 1914 and Final Rule sections 23.129–32 on
equal protection grounds, alleging that these provisions
impose regulatory burdens on non-Indian families

439a
seeking to adopt Indian children that are not similarly
imposed on Indian families who seek to adopt Indian
children. The district court concluded that Individual
Plaintiffs suffered and continued to suffer injuries when
their efforts to adopt Indian children were burdened by
ICWA and the Final Rule; that their injuries were fairly
traceable to ICWA and the Final Rule because these
authorities mandated state compliance; and that these
injuries were redressable because if ICWA and the
Final Rule were invalidated, then state courts would no
longer be required to follow them. Defendants disagree,
arguing that the Individual Plaintiffs cannot
demonstrate an injury in fact or redressability and thus
lack standing to bring an equal protection claim. For the
reasons below, we conclude that the Brackeens have
standing to assert an equal protection claim as to ICWA
sections 1915(a)–(b) and Final Rule sections 23.129–32,
but as discussed below, not as to ICWA sections 1913–
14. Accordingly, because one Plaintiff has standing, the
“case-or-controversy requirement” is satisfied as to this
claim, and we do not analyze whether any other
Individual Plaintiff has standing to raise it.4 See
Rumsfeld, 547 U.S. at 53 n.2, 126 S. Ct. 1297.
The district court concluded that ICWA section
1913(d), which allows a parent to petition the court to
vacate a final decree of adoption on the grounds that
4

State Plaintiffs argue that they have standing to bring an equal
protection challenge in parens patriae on behalf of their citizens. We
disagree. See South Carolina v. Katzenbach, 383 U.S. 301, 324, 86 S.
Ct. 803, 15 L. Ed. 2d 769 (1966) (“[A] State [does not] have standing
as the parent of its citizens to invoke [the Fifth Amendment Due
Process Clause] against the Federal Government, the ultimate
parens patriae of every American citizen.”).

440a
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years. Defendants argue that section
1914,5 and not section 1913(d), applies to the Brackeens’
state court proceedings and that, in any event, an injury
premised on potential future collateral attack under
either provision is too speculative. We need not decide
which provision applies here, as neither the Brackeens
nor any of the Individual Plaintiffs have suffered an
injury under either provision. Plaintiffs do not assert
that A.L.M.’s biological parents, the Navajo Nation, or
any other party seeks to invalidate the Brackeens’
adoption of A.L.M. under either provision. Plaintiffs’
proffered injury under section 1913 or section 1914 is
therefore too speculative to support standing. See
Lujan, 504 U.S. at 560, 112 S. Ct. 2130; see also Clapper
v. Amnesty Int’l USA, 568 U.S. 398, 409, 133 S. Ct. 1138,
185 L. Ed. 2d 264 (2013) (“[T]hreatened injury must be
certainly impending to constitute injury in fact, and [ ]
[a]llegations of possible future injury are not sufficient.”
(cleaned up)). To the extent Plaintiffs argue that an
injury arises from their attempts to avoid collateral
attack under section 1914 by complying with sections
1911–13, “costs incurred to avoid injury are insufficient
to create standing” where the injury is not certainly
impending. See Clapper, 568 U.S. at 417, 133 S. Ct. 1138.
5

“Any Indian child who is the subject of any action for foster care
placement or termination of parental rights under State law, any
parent or Indian custodian from whose custody such child was
removed, and the Indian child’s tribe may petition any court of
competent jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912, and 1913 of
this title.” 25 U.S.C. § 1914.

441a
The district court also concluded that ICWA section
1915, and sections 23.129–32 of the Final Rule, which
clarify section 1915, gave rise to an injury from an
increased regulatory burden. We agree. Prior to the
finalization of the Brackeens’ adoption of A.L.M., the
Navajo Nation notified the state court that it had located
a potential alternative placement for A.L.M. in New
Mexico. Though that alternative placement ultimately
failed to materialize, the regulatory burdens ICWA
section 1915 and Final Rule sections 23.129–32 imposed
on the Brackeens in A.L.M.’s adoption proceedings,
which were ongoing at the time the complaint was filed,
are sufficient to demonstrate injury. See Contender
Farms, L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258, 266
(5th Cir. 2015) (“An increased regulatory burden
typically satisfies the injury in fact requirement.”); see
also Rockwell Int’l Corp. v. United States, 549 U.S. 457,
473–74, 127 S. Ct. 1397, 167 L. Ed. 2d 190 (2007)
(standing is assessed at the time the complaint was
filed); Friends of the Earth, Inc. v. Laidlaw Envtl. Servs.
(TOC), Inc., 528 U.S. 167, 184, 120 S. Ct. 693, 145 L. Ed.
2d 610 (2000) (discussing Lyons, 461 U.S. at 108, 103 S.
Ct. 1660, and finding the injury requirement satisfied
where the alleged harmful conduct was occurring when
the complaint was filed).
Defendants contend that the Brackeens’ challenge
to section 1915 and sections 23.129–32 is moot. They
argue that, because the Brackeens’ adoption of A.L.M.
was finalized in January 2018 and the Navajo Nation will
not seek to challenge the adoption, section 1915’s
placement preferences no longer apply in A.L.M.’s
adoption proceedings. Plaintiffs argue that section
1915’s placement preferences impose on them the

442a
ongoing injury of increased regulatory burdens in their
proceedings to adopt A.L.M.’s sister, Y.R.J., which the
Navajo Nation currently opposes in Texas state court.
“A
corollary
to
this
case-or-controversy
requirement is that an actual controversy must be
extant at all stages of review, not merely at the time the
complaint is filed.” Genesis Healthcare Corp. v.
Symczyk, 569 U.S. 66, 71, 133 S. Ct. 1523, 185 L. Ed. 2d
636 (2013). “[A] case is moot when the issues presented
are no longer live or the parties lack a legally cognizable
interest in the outcome.” Powell v. McCormack, 395 U.S.
486, 496, 89 S. Ct. 1944, 23 L. Ed. 2d 491 (1969)(internal
quotation marks omitted). However, mootness will not
render a case non-justiciable where the dispute is one
that is “capable of repetition, yet evading review.” See
Murphy v. Hunt, 455 U.S. 478, 482, 102 S. Ct. 1181, 71 L.
Ed. 2d 353 (1982). “That exception applies where (1) the
challenged action is in its duration too short to be fully
litigated prior to cessation or expiration, and (2) there is
a reasonable expectation that the same complaining
party will be subject to the same action again.” Davis v.
Fed. Election Comm’n, 554 U.S. 724, 735, 128 S. Ct. 2759,
171 L. Ed. 2d 737 (2008) (internal citations and
quotations omitted). Here, the Brackeens were unable
to fully litigate a challenge to section 1915 before
successfully adopting A.L.M. Additionally, they have
demonstrated a reasonable expectation that they will be
subject to section 1915’s regulatory burdens in their
adoption proceedings involving A.L.M.’s sister, Y.R.J.
Thus, the Brackeens’ challenge to section 1915 is
justiciable on the grounds that it is capable of repetition,
yet evading review. See Hunt, 455 U.S. at 482, 102 S. Ct.
1181.

443a
Having thus found an injury with respect to ICWA
section 1915 and Final Rule sections 23.129–32, we
consider whether causation and redressability are met
here. See Lujan, 504 U.S. at 590, 112 S. Ct. 2130. The
Brackeens’ alleged injury is fairly traceable to the
actions of at least some of the Federal Defendants, who
bear some responsibility for the regulatory burdens
imposed by ICWA and the Final Rule. See Contender
Farms, L.L.P., 779 F.3d at 266 (noting that causation
“flow[ed] naturally from” a regulatory injury).
Additionally, the Brackeens have demonstrated a
likelihood that their injury will be redressed by a
favorable ruling of this court. In the Brackeens’ ongoing
proceedings to adopt Y.R.J., the Texas court has
indicated that it will refrain from ruling on the
Brackeens’ federal constitutional claims pending a ruling
from this court. Accordingly, Plaintiffs have standing to
bring an equal protection claim challenging ICWA
section 1915(a)–(b) and Final Rule sections 23.129–32.
See Lujan, 504 U.S. at 590, 112 S. Ct. 2130; Rumsfeld,
547 U.S. at 53 n.2, 126 S. Ct. 1297.
B. Standing to Bring Administrative Procedure
Act Claim
Plaintiffs first argue that ICWA does not authorize
the Secretary of the Interior to promulgate binding
rules and regulations, and the Final Rule is therefore
invalid under the APA. The district court ruled that
State Plaintiffs had standing to bring this claim,
determining that the Final Rule injured State Plaintiffs
by intruding upon their interests as quasi-sovereigns to

444a
control the domestic affairs within their states.6 A state
may be entitled to “special solicitude” in our standing
analysis if the state is vested by statute with a
procedural right to file suit to protect an interest and the
state has suffered an injury to its “quasi-sovereign
interests.” Massachusetts v. EPA, 549 U.S. 497, 518–20,
127 S. Ct. 1438, 167 L. Ed. 2d 248 (2007) (holding that the
Clean Air Act provided Massachusetts a procedural
right to challenge the EPA’s rulemaking, and
Massachusetts suffered an injury in its capacity as a
quasi-sovereign landowner due to rising sea levels
associated
with
climate
change).
Applying
Massachusetts, this court in Texas v. United States held
that Texas had standing to challenge the Department of
Homeland Security’s implementation and expansion of
the Deferred Action for Childhood Arrivals program
(DACA) under the APA. See 809 F.3d 134, 152 (5th Cir.
2015). This court reasoned that Texas was entitled to
special solicitude on the grounds that the APA created a
procedural right to challenge the DHS’s actions, and
DHS’s actions affected states’ sovereign interest in
creating and enforcing a legal code. See id. at 153
(internal quotations omitted).
Likewise, here, the APA provides State Plaintiffs a
procedural right to challenge the Final Rule. See id.; 5
U.S.C. § 702. Moreover, State Plaintiffs allege that the
Final Rule affects their sovereign interest in controlling
6

The district court also found an injury based on the Social Security
Act’s conditioning of funding on states’ compliance with ICWA.
However, because we find that Plaintiffs have standing on other
grounds, we decline to decide whether they have demonstrated
standing based on an alleged injury caused by the SSA.

445a
child custody proceedings in state courts. See Texas, 809
F.3d at 153 (recognizing that, pursuant to a sovereign
interest in creating and enforcing a legal code, states
may have standing based on, inter alia, federal
preemption of state law). Thus, State Plaintiffs are
entitled to special solicitude in our standing inquiry.
With this in mind, we find that the elements of standing
are satisfied. If, as State Plaintiffs alleged, the Secretary
promulgated a rule binding on states without the
authority to do so, then State Plaintiffs have suffered a
concrete injury to their sovereign interest in controlling
child custody proceedings that was caused by the Final
Rule. Additionally, though state courts and agencies are
not bound by this court’s precedent, a favorable ruling
from this court would remedy the alleged injury to
states by making their compliance with ICWA and the
Final Rule optional rather than compulsory. See
Massachusetts, 549 U.S. at 521, 127 S. Ct. 1438 (finding
redressability where the requested relief would prompt
the agency to “reduce th[e] risk” of harm to the state).
C. Standing to Bring Tenth Amendment Claim
For similar reasons, the district court found, and we
agree, that State Plaintiffs have standing to challenge
provisions of ICWA and the Final Rule under the Tenth
Amendment. The imposition of regulatory burdens on
State Plaintiffs is sufficient to demonstrate an injury to
their sovereign interest in creating and enforcing a legal
code to govern child custody proceedings in state courts.
See Texas, 809 F.3d at 153. Additionally, the causation
and redressability requirements are satisfied here, as a
favorable ruling from this court would likely redress
State Plaintiffs’ injury by lifting the mandatory burdens

446a
ICWA and the Final Rule impose on states. See Lujan,
504 U.S. at 590, 112 S. Ct. 2130.
D. Standing to Bring Nondelegation Claim
Finally, Plaintiffs contend that ICWA section
1915(c), which allows a tribe to establish a different
order of section 1915(a)’s placement preferences, is an
impermissible delegation of legislative power that binds
State Plaintiffs. Defendants argue that State Plaintiffs
cannot demonstrate an injury, given the lack of evidence
that a tribe’s reordering of section 1915(a)’s placement
preferences has affected any children in Texas, Indiana,
or Louisiana or that such impact is “certainly
impending.” State Plaintiffs respond that tribes can
change ICWA’s placement preferences at any time and
that at least one tribe, the Alabama-Coushatta Tribe of
Texas, has already done so. We conclude that State
Plaintiffs have demonstrated injury and causation with
respect to this claim, as State Plaintiffs’ injury from the
Alabama-Coushatta Tribe’s decision to depart from
ICWA section 1915’s placement preferences is concrete
and particularized and not speculative. See Lujan, 504
U.S. at 560, 112 S. Ct. 2130. Moreover, a favorable ruling
from this court would redress State Plaintiffs’ injury by
making a state’s compliance with a tribe’s alternative
order of preferences under ICWA section 1915(c)
optional rather than mandatory. See id.
Accordingly, having found that State Plaintiffs have
standing on the aforementioned claims, we proceed to
the merits of these claims. We note at the outset that
ICWA is entitled to a “presumption of constitutionality,”
so long as Congress enacted the statute “based on one or
more of its powers enumerated in the Constitution.” See

447a
United States v. Morrison, 529 U.S. 598, 607, 120 S. Ct.
1740, 146 L. Ed. 2d 658 (2000). “Due respect for the
decisions of a coordinate branch of Government demands
that we invalidate a congressional enactment only upon
a plain showing that Congress has exceeded its
constitutional bounds.” Id. (citing, among others, United
States v. Harris, 106 U.S. 629, 635, 1 S. Ct. 601, 27 L. Ed.
290 (1883)).
II. Equal Protection
The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any
person within its jurisdiction the equal protection of the
laws.” U.S. Const., amend. 14, § 1. This clause is
implicitly incorporated into the Fifth Amendment’s
guarantee of due process. See Bolling v. Sharpe, 347 U.S.
497, 499, 74 S. Ct. 693, 98 L. Ed. 884 (1954). We apply the
same analysis with respect to equal protection claims
under the Fifth and Fourteenth Amendments. See
Richard v. Hinson, 70 F.3d 415, 417 (5th Cir. 1995). In
evaluating an equal protection claim, strict scrutiny
applies to laws that rely on classifications of persons
based on race. See id. But where the classification is
political, rational basis review applies. See Morton v.
Mancari, 417 U.S. 535, 555, 94 S. Ct. 2474, 41 L. Ed. 2d
290 (1974). The district court granted summary
judgment on behalf of Plaintiffs, concluding that section
1903(4)—setting forth ICWA’s definition of “Indian
Child” for purposes of determining when ICWA applies
in state child custody proceedings—was a race-based
classification that could not withstand strict scrutiny.7
7

As described above, we conclude that Plaintiffs have standing to
challenge ICWA section 1915(a)–(b) and Final Rule sections 23.129–

448a
On appeal, the parties disagree as to whether section
1903(4)’s definition of “Indian Child” is a political or racebased classification and which level of scrutiny applies.
“We review the constitutionality of federal statutes de
novo.” Nat’l Rifle Ass’n of Am., Inc. v. Bureau of
Alcohol, Tobacco, Firearms, & Explosives, 700 F.3d 185,
192 (5th Cir. 2012).
A. Level of Scrutiny
We begin by determining whether ICWA’s
definition of “Indian child” is a race-based or political
classification and, consequently, which level of scrutiny
applies. The district court concluded that ICWA’s
“Indian Child” definition was a race-based classification.
We conclude that this was error. Congress has exercised
plenary power “over the tribal relations of the Indians ...
from the beginning, and the power has always been
deemed a political one, not subject to be controlled by
the judicial department of the government.” Lone Wolf
v. Hitchcock, 187 U.S. 553, 565, 23 S. Ct. 216, 47 L. Ed.
299 (1903). The Supreme Court’s decisions “leave no
doubt that federal legislation with respect to Indian
tribes ... is not based upon impermissible racial
classifications.” United States v. Antelope, 430 U.S. 641,
32 on equal protection grounds. The district court’s analysis of
whether the ICWA classification was political or race-based focused
on ICWA section 1903(4), presumably because section 1903(4)
provides a threshold definition of “Indian child” that must be met
for any provision of ICWA to apply in child custody proceedings in
state court. Because we are satisfied that our analysis would
produce the same result with respect to section 1903(4) and the
specific provisions Plaintiffs have standing to challenge, we
similarly confine our discussion of whether ICWA presents a
political or race-based classification to section 1903(4).

449a
645, 97 S. Ct. 1395, 51 L. Ed. 2d 701 (1977). “Literally
every piece of legislation dealing with Indian tribes and
reservations ... single[s] out for special treatment a
constituency of tribal Indians living on or near
reservations.” Mancari, 417 U.S. at 552, 94 S. Ct. 2474.
“If these laws, derived from historical relationships and
explicitly designed to help only Indians, were deemed
invidious racial discrimination, an entire Title of the
United States Code (25 U.S.C.) would be effectively
erased and the solemn commitment of the Government
toward the Indians would be jeopardized.” Id.
In Morton v. Mancari, the Supreme Court rejected
a challenge to a law affording to qualified Indian
applicants—those having one-fourth or more degree
Indian blood with membership in a federally recognized
tribe8—a hiring preference over non-Indians within the
BIA. Id. at 555, 94 S. Ct. 2474. The Court recognized that
central to the resolution of the issue was “the unique
legal status of Indian tribes under federal law and upon
the plenary power of Congress ... to legislate on behalf of
federally recognized Indian tribes.” Id. at 551, 94 S. Ct.
2474. It reasoned that the BIA’s hiring preference was
8

The United States currently recognizes 573 Tribal entities. See 84
Fed. Reg. 1,200 (Feb. 1, 2019). Federal recognition “is a formal
political act confirming the tribe’s existence as a distinct political
society, and institutionalizing the government-to-government
relationship between the tribe and the federal government.” See
California Valley Miwok Tribe v. United States, 515 F.3d 1262, 1263
(D.C. Cir. 2008) (quoting Cohen’s Handbook of Federal Indian Law
§ 3.02[3], at 138 (2005 ed.) (internal quotation marks omitted)). It
“[i]s a prerequisite to the protection, services, and benefits of the
Federal Government available to those that qualify.” 25 C.F.R.
§ 83.2.

450a
“granted to Indians not as a discrete racial group, but,
rather, as members of quasi-sovereign tribal entities
whose lives and activities are governed by the BIA in a
unique fashion.” Id. at 554, 94 S. Ct. 2474. The preference
was thus a non-racial “employment criterion reasonably
designed to further the cause of Indian self-government
and to make the BIA more responsive to the needs of its
constituent groups. It [was] directed to participation by
the governed in the governing agency.” Id. at 553–54, 94
S. Ct. 2474. The disadvantages to non-Indians resulting
from the hiring preferences were an intentional and
“desirable feature of the entire program for selfgovernment.”9 Id. at 544, 94 S. Ct. 2474.

9

Plaintiffs argue that, unlike the law in Mancari, ICWA is not a law
promoting tribal self-governance. However, prior to enacting
ICWA, Congress considered testimony from the Tribal Chief of the
Mississippi Band of Choctaw Indians about the devastating impacts
of removing Indian children from tribes and placing them for
adoption and foster care in non-Indian homes:
Culturally, the chances of Indian survival are significantly
reduced if our children, the only real means for the transmission
of the tribal heritage, are to be raised in non-Indian homes and
denied exposure to the ways of their People. Furthermore, these
practices seriously undercut the tribes’ ability to continue as selfgoverning communities. Probably in no area is it more important
that tribal sovereignty be respected than in an area as socially and
culturally determinative as family relationships.
Holyfield, 490 U.S. at 34, 109 S. Ct. 1597. This testimony
undoubtedly informed Congress’s finding that children are the most
vital resource “to the continued existence and integrity of Indian
tribes.” 25 U.S.C. § 1901(3). Thus, interpreting ICWA as related to
tribal self-government and the survival of tribes makes the most
sense in light of Congress’s explicit intent in enacting the statute.
See id.

451a
The district court construed Mancari narrowly and
distinguished it for two primary reasons: First, the
district court found that the law in Mancari provided
special treatment “only to Indians living on or near
reservations.” Second, the district court concluded that
ICWA’s membership eligibility standard for an Indian
child does not rely on actual tribal membership as did the
statute in Mancari. The district court reasoned that,
whereas the law in Mancari “applied ‘only to members
of ‘federally recognized’ tribes which operated to
exclude many individuals who are racially to be
classified as Indians,’” ICWA’s definition of “Indian
child” extended protection to children who were eligible
for membership in a federally recognized tribe and had a
biological parent who was a member of a tribe. The
district court, citing the tribal membership laws of
several tribes, including the Navajo Nation, concluded
that “[t]his means one is an Indian child if the child is
related to a tribal ancestor by blood.”
We disagree with the district court’s reasoning and
conclude that Mancari controls here. As to the district
court’s first distinction, Mancari’s holding does not rise
or fall with the geographical location of the Indians
receiving “special treatment.” See Mancari, 417 U.S. at
552, 94 S. Ct. 2474. The Supreme Court has long
recognized Congress’s broad power to regulate Indians
and Indian tribes on and off the reservation. See e.g.,
United States v. McGowan, 302 U.S. 535, 539, 58 S. Ct.
286, 82 L. Ed. 410 (1938) (“Congress possesses the broad
power of legislating for the protection of the Indians
wherever they may be within the territory of the United
States.”); Perrin v. United States, 232 U.S. 478, 482, 34
S. Ct. 387, 58 L. Ed. 691 (1914) (acknowledging

452a
Congress’s power to regulate Indians “whether upon or
off a reservation and whether within or without the
limits of a state”).
Second, the district court concluded that, unlike the
statute in Mancari, ICWA’s definition of Indian child
extends to children who are merely eligible for tribal
membership because of their ancestry. However,
ICWA’s definition of “Indian child” is not based solely on
tribal ancestry or race. ICWA defines an “Indian child”
as “any unmarried person who is under age eighteen and
is either (a) a member of an Indian tribe or (b) is eligible
for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” 25 U.S.C. § 1903(4).
As Defendants explain, under some tribal membership
laws, eligibility extends to children without Indian
blood, such as the descendants of former slaves of tribes
who became members after they were freed, or the
descendants of adopted white persons. Accordingly, a
child may fall under ICWA’s membership eligibility
standard because his or her biological parent became a
member of a tribe, despite not being racially Indian.
Additionally, many racially Indian children, such as
those belonging to non-federally recognized tribes, do
not fall within ICWA’s definition of “Indian child.”
Conditioning a child’s eligibility for membership, in part,
on whether a biological parent is a member of the tribe
is therefore not a proxy for race, as the district court
concluded, but rather for not-yet-formalized tribal
affiliation, particularly where the child is too young to
formally apply for membership in a tribe.10
10

The Navajo Nation’s membership code is instructive on these
points, despite the district court’s reliance on it to the contrary. The

453a
Our conclusion that ICWA’s definition of Indian
child is a political classification is consistent with both
the Supreme Court’s holding in Mancari and this court’s
holding in Peyote Way Church of God, Inc. v.
Thornburgh, 922 F.2d 1210, 1212 (5th Cir. 1991). In
Mancari, the hiring preference extended to individuals
who were one-fourth or more degree Indian blood and a
member of a federally recognized tribe. See 417 U.S. at
554, 94 S. Ct. 2474. Similarly, in Peyote Way, this court
considered whether equal protection was violated by
federal and state laws prohibiting the possession of
peyote by all persons except members of the Native
American Church of North America (NAC), who used
peyote for religious purposes. See 922 F.2d at 1212.
Applying Mancari’s reasoning, this court upheld the
preference on the basis that membership in NAC “is
limited to Native American members of federally
recognized tribes who have at least 25% Native
American ancestry, and therefore represents a political
classification.” Id. at 1216. ICWA’s “Indian child”
eligibility provision similarly turns, at least in part, on
whether the child is eligible for membership in a
federally recognized tribe. See California Valley Miwok
Tribe v. United States, 515 F.3d 1262, 1263 (D.C. Cir.
Navajo Nation explains that, under its laws, “blood alone is never
determinative of membership.” The Navajo Nation will only grant
an application for membership “if the individual has some tangible
connection to the Tribe,” such as the ability to speak the Navajo
language or time spent living among the Navajo people. “Having a
biological parent who is an enrolled member is per se evidence of
such a connection.” Additionally, individuals will not be granted
membership in the Navajo Nation, regardless of their race or
ancestry, if they are members of another tribe.

454a
2008) (federal recognition “is a formal political act” that
“institutionaliz[es] the government-to-government
relationship between the tribe and the federal
government.”); 25 U.S.C. § 1903(4).
The district court concluded, and Plaintiffs now
argue, that ICWA’s definition “mirrors the
impermissible racial classification in Rice [v. Cayetano,
528 U.S. 495, 120 S. Ct. 1044, 145 L. Ed. 2d 1007 (2000)],
and is legally and factually distinguishable from the
political classification in Mancari.” The Supreme Court
in Rice concluded that a provision of the Hawaiian
Constitution that permitted only “Hawaiian” people to
vote in the statewide election for the trustees of the
Office of Hawaiian Affairs (OHA) violated the Fifteenth
Amendment. 528 U.S. at 515, 120 S. Ct. 1044. “Hawaiian”
was defined by statute as “any descendant of the
aboriginal peoples inhabiting the Hawaiian Islands
which exercised sovereignty and subsisted in the
Hawaiian Islands in 1778, and which peoples thereafter
have continued to reside in Hawaii.” Id. The Court noted
the state legislature’s express purpose in using ancestry
as a proxy for race and held that “[d]istinctions between
citizens solely because of their ancestry are by their very
nature odious to a free people whose institutions are
founded upon the doctrine of equality.” Id. at 514–17, 120
S. Ct. 1044 (citing Hirabayashi v. United States, 320 U.S.
81, 100, 63 S. Ct. 1375, 87 L. Ed. 1774 (1943)).
Distinguishing Mancari, the Court noted that its
precedent did not afford Hawaiians a protected status
like that of Indian tribes; that the OHA elections were
an affair of the state and not of a “separate quasi
sovereign” like a tribe; and that extending “Mancari to
this context would [ ] permit a State, by racial

455a
classification, to fence out whole classes of its citizens
from decisionmaking in critical state affairs.” Id. at 522,
120 S. Ct. 1044.
Rice is distinguishable from the present case for
several reasons. Unlike Rice, which involved voter
eligibility in a state-wide election for a state agency,
there is no similar concern here that applying Mancari
would permit “by racial classification, [the fencing] out
[of] whole classes of [a state’s] citizens from
decisionmaking in critical state affairs.” See 528 U.S. at
518–22, 120 S. Ct. 1044. Additionally, as discussed above,
ICWA’s definition of “Indian child,” unlike the
challenged law in Rice, does not single out children
“solely because of their ancestry or ethnic
characteristics.” See id. at 515, 120 S. Ct. 1044 (emphasis
added). Further, unlike the law in Rice, ICWA is a
federal law enacted by Congress for the protection of
Indian children and tribes. See Rice, 528 U.S. at 518, 120
S. Ct. 1044 (noting that to sustain Hawaii’s restriction
under Mancari, it would have to “accept some beginning
premises not yet established in [its] case law,” such as
that Congress “has determined that native Hawaiians
have a status like that of Indians in organized tribes”);
see also Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th
Cir. 2004) (rejecting an equal protection challenge
brought by Native Hawaiians, who were excluded from
the U.S. Department of the Interior’s regulatory tribal
acknowledgement process, and concluding that the
recognition of Indian tribes was political). Additionally,
whereas the OHA elections in Rice were squarely state
affairs, state court adoption proceedings involving
Indian children are simultaneously affairs of states,
tribes, and Congress. See 25 U.S.C. § 1901(3) (“[T]here is

456a
no resource that is more vital to the continued existence
and integrity of Indian tribes than their children.”).
Because we find Rice inapplicable, and Mancari
controlling here, we conclude, contrary to the district
court’s determination, that ICWA’s definition of “Indian
child” is a political classification subject to rational basis
review. See Mancari, 417 U.S. at 555, 94 S. Ct. 2474.
B. Rational Basis Review
Having so determined that rational basis review
applies, we ask whether “the special treatment can be
tied rationally to the fulfillment of Congress’s unique
obligation toward the Indians.” Mancari, 417 U.S. at
555, 94 S. Ct. 2474. Given Congress’s explicit findings
and stated objectives in enacting ICWA, we conclude
that the special treatment ICWA affords Indian children
is rationally tied to Congress’s fulfillment of its unique
obligation toward Indian nations and its stated purpose
of “protect[ing] the best interests of Indian children and
[ ] promot[ing] the stability and security of Indian
tribes.” See 25 U.S.C. §§ 1901–02; see also Mancari, 417
U.S. at 555, 94 S. Ct. 2474. ICWA section 1903(4)’s
definition of an “Indian child” is a political classification
that does not violate equal protection.

III.

457a
Tenth Amendment

The district court concluded that ICWA sections
1901–2311 and 1951–5212 violated the anticommandeering
doctrine by requiring state courts and executive
agencies to apply federal standards to state-created
claims. The district court also considered whether
ICWA preempts conflicting state law under the
Supremacy Clause and concluded that preemption did
not apply because the law “directly regulated states.”
Defendants argue that the anticommandeering doctrine
does not prevent Congress from requiring state courts
to enforce substantive and procedural standards and
precepts, and that ICWA sets minimum procedural
standards that preempt conflicting state law. We
examine the constitutionality of the challenged
provisions of ICWA below and conclude that they
preempt conflicting state law and do not violate the
anticommandeering doctrine.
A. Anticommandeering Doctrine
The Tenth Amendment provides that “[t]he powers
not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the
States respectively, or to the people.” U.S. Const.
11

ICWA sections 1901–03 set forth Congress’s findings, declaration
of policy, and definitions. Sections 1911–23 govern child custody
proceedings, including tribal court jurisdiction, notice requirements
in involuntary and voluntary state proceedings, termination of
parental rights, invalidation of state proceedings, placement
preferences, and agreements between states and tribes.
12

Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior
to promulgate necessary rules and regulations.

458a
amend. X. Congress’s legislative powers are limited to
those enumerated under the Constitution. Murphy v.
Nat’l Collegiate Athletic Ass’n, ––– U.S. ––––, 138 S. Ct.
1461, 1476, 200 L. Ed. 2d 854 (2018). “[C]onspicuously
absent from the list of powers given to Congress is the
power to issue direct orders to the governments of the
States.” Id. The anticommandeering doctrine, an
expression of this limitation on Congress, prohibits
federal laws commanding the executive or legislative
branch of a state government to act or refrain from
acting.13 Id. at 1478 (holding that a federal law
prohibiting state authorization of sports gambling
violated the anticommandeering rule by “unequivocally
dictat[ing] what a state legislature may and may not
do”); Printz v. United States, 521 U.S. 898, 935, 117 S. Ct.
2365, 138 L. Ed. 2d 914 (1997) (holding that a federal law
requiring state chief law enforcement officers to conduct
background
checks
on
handgun
purchasers
“conscript[ed] the State’s officers directly” and was
invalid); New York v. United States, 505 U.S. 144, 175–
76, 112 S. Ct. 2408, 120 L. Ed. 2d 120 (1992) (holding that
a federal law impermissibly commandeered states to
13

Though Congress is prohibited from commandeering states, it can
“encourage a State to regulate in a particular way, or ... hold out
incentives to the States as a method of influencing a State’s policy
choices.” New York, 505 U.S. at 166, 112 S. Ct. 2408. For example,
Congress may also condition the receipt of federal funds under its
spending power. See id. at 167, 112 S. Ct. 2408. Defendants also
contend that ICWA is authorized under Congress’s Spending
Clause powers because Congress conditioned federal funding in
Title IV-B and E of the Social Security Act on states’ compliance
with ICWA. However, because we conclude that ICWA is
constitutionally permissible on other bases, we need not reach this
argument.

459a
implement federal legislation when it gave states “[a]
choice between two unconstitutionally coercive”
alternatives: to either dispose of radioactive waste
within their boundaries according to Congress’s
instructions or “take title” to and assume liabilities for
the waste).
1. State Courts
Defendants argue that because the Supremacy
Clause requires the enforcement of ICWA and the Final
Rule by state courts, these provisions do not run afoul of
the anticommandeering doctrine. We agree. The
Supremacy Clause provides that “the Laws of the
United States ... shall be the supreme Law of the Land;
and the Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any State to
the Contrary notwithstanding.” U.S. Const. art. VI, cl.
2. In setting forth the anticommandeering doctrine, the
Supreme Court drew a distinction between a state’s
courts and its political branches. The Court
acknowledged that “[f]ederal statutes enforceable in
state court do, in a sense, direct state judges to enforce
them, but this sort of federal “direction” of state judges
is mandated by the text of the Supremacy Clause.” New
York, 505 U.S. at 178–79, 112 S. Ct. 2408 (internal
quotation marks omitted). Early laws passed by the first
Congresses requiring state court action “establish, at
most, that the Constitution was originally understood to
permit imposition of an obligation on state judges to
enforce federal prescriptions, insofar as those
prescriptions related to matters appropriate for the
judicial power.” Printz, 521 U.S. at 907, 117 S. Ct. 2365.
State courts were viewed as distinctive because, “unlike

460a
[state] legislatures and executives, they applied the law
of other sovereigns all the time,” including as mandated
by the Supremacy Clause. Id. Thus, to the extent
provisions of ICWA and the Final Rule require state
courts to enforce federal law, the anticommandeering
doctrine does not apply. See id. at 928–29, 117 S. Ct. 2365
(citing Testa v. Katt, 330 U.S. 386, 67 S. Ct. 810, 91 L. Ed.
967 (1947), “for the proposition that state courts cannot
refuse to apply federal law a conclusion mandated by the
terms of the Supremacy Clause”).
2. State Agencies
Plaintiffs next challenge several provisions of ICWA
that they contend commandeer state executive agencies,
including
sections
1912(a)
(imposing
notice
requirements on “the party seeking the foster care
placement of, or termination of parental rights to, an
Indian child”), 1912(d) (requiring that “any party
seeking to effect a foster care placement of, or
termination of parental rights to, an Indian child under
State law shall satisfy the court that active efforts have
been made to provide remedial services and
rehabilitative programs designed to prevent the
breakup of the Indian family and that these efforts have
proved unsuccessful.”), 1915(c) (requiring “the agency or
court effecting [a] placement” adhere to the order of
placement preferences established by the tribe), and
1915(e) (requiring that “the State” in which the
placement was made keep a record of each placement,
evidencing the efforts to comply with the order of
preference, to be made available upon request of the
Secretary or the child’s tribe). See 25 U.S.C. §§ 1912,
1915. Plaintiffs argue that ICWA’s requirements on

461a
state agencies go further than the federal regulatory
scheme invalidated in Printz and impermissibly impose
costs that states must bear. Defendants contend that the
challenged provisions of ICWA apply to private parties
and state agencies alike and therefore do not violate the
anticommandeering doctrine.
In Printz, the Supreme Court affirmed its prior
holding that “[t]he Federal Government may not compel
the States to enact or administer a federal regulatory
program,” and “Congress cannot circumvent that
prohibition by conscripting the State’s officers directly.”
521 U.S. at 925, 935, 117 S. Ct. 2365 (quoting New York,
505 U.S. at 188, 112 S. Ct. 2408). The Printz Court,
rejecting as irrelevant the Government’s argument that
the federal law imposed a minimal burden on state
executive officers, explained that it was not “evaluating
whether the incidental application to the States of a
federal law of general applicability excessively
interfered with the functioning of state governments,”
but rather a law whose “whole object ... [was] to direct
the functioning of the state executive.” Id. at 931–32, 117
S. Ct. 2365. Expanding upon this distinction, the Court
in Murphy discussed Reno v. Condon, 528 U.S. 141, 120
S. Ct. 666, 145 L. Ed. 2d 587 (2000), and South Carolina
v. Baker, 485 U.S. 505, 108 S. Ct. 1355, 99 L. Ed. 2d 592
(1988), and held that “[t]he anticommandeering doctrine
does not apply when Congress evenhandedly regulates
an activity in which both States and private actors
engage.” 138 S. Ct. at 1478.
In Condon, the Court upheld a federal regulatory
scheme that restricted the ability of states to disclose a
driver’s personal information without consent. 528 U.S.

462a
at 151, 120 S. Ct. 666. In determining that the
anticommandeering doctrine did not apply, the Court
distinguished the law from those invalidated in New
York and Printz:
[This law] does not require the States in their
sovereign capacity to regulate their own citizens.
The [law] regulates the States as the owners of
[Department of Motor Vehicle] data bases. It does
not require the South Carolina Legislature to enact
any laws or regulations, and it does not require state
officials to assist in the enforcement of federal
statutes regulating private individuals.
Id. In Baker, the Court rejected a Tenth Amendment
challenge to a provision of a federal statute that
eliminated the federal income tax exemption for interest
earned on certain bonds issued by state and local
governments unless the bonds were registered, treating
the provision “as if it directly regulated States by
prohibiting outright the issuance of [unregistered]
bearer bonds.” 485 U.S. at 507–08, 511, 108 S. Ct. 1355.
The Court reasoned that the provision at issue merely
“regulat[ed] a state activity” and did not “seek to control
or influence the manner in which States regulate private
parties.” Id. at 514, 108 S. Ct. 1355. “That a State wishing
to engage in certain activity must take administrative
and sometimes legislative action to comply with federal
standards regulating that activity is a commonplace that
presents no constitutional defect.” Id. at 514–15, 108 S.
Ct. 1355. “[S]ubstantial effort[s]” to comply with federal
regulations are “an inevitable consequence of regulating
a state activity.” Id. at 514, 108 S. Ct. 1355.

463a
In light of these cases, we conclude that the
provisions of ICWA that Plaintiffs challenge do not
commandeer state agencies. Sections 1912(a) and (d)
impose notice and “active efforts” requirements on the
“party” seeking the foster care placement of, or
termination of parental rights to, an Indian child.
Because both state agencies and private parties who
engage in state child custody proceedings may fall under
these provisions, 1912(a) and (d) “evenhandedly
regulate[ ] an activity in which both States and private
actors engage.”14 See Murphy, 138 S. Ct. at 1478.
Moreover, sections 1915(c) and (e) impose an obligation
on “the agency or court effecting the placement” of an
Indian child to respect a tribe’s order of placement
preferences and require that “the State” maintain a
record of each placement to be made available to the
Secretary or child’s tribe. These provisions regulate
14

Similarly, section 1912(e) provides that no foster care placement
may be ordered in involuntary proceedings in state court absent “a
determination, supported by clear and convincing evidence,
including testimony of qualified expert witnesses, that the
continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage to the child.”
See 25 U.S.C. § 1912(e). Section 1912(f) requires that no termination
of parental rights may be ordered in involuntary proceedings in
state court absent evidence beyond a reasonable doubt of the same.
See id. at 1912(f). Neither section expressly refers to state agencies
and, in conjunction with section 1912(d), both sections must be
reasonably read to refer to “any party” seeking the foster care
placement of, or the termination of parental rights to, an Indian
child. Thus, like section 1912(d), sections 1912(e)–(f) “evenhandedly
regulate[ ] an activity in which both States and private actors
engage” and do not run afoul of the anticommandeering doctrine.
See Murphy, 138 S. Ct. at 1478; see also Condon, 528 U.S. at 151,
120 S. Ct. 666.

464a
state activity and do not require states to enact any laws
or regulations, or to assist in the enforcement of federal
statutes regulating private individuals. See Condon, 528
U.S. at 151, 120 S. Ct. 666; Baker, 485 U.S. at 514, 108 S.
Ct. 1355; see also Printz, 521 U.S. at 918, 117 S. Ct. 2365
(distinguishing statutes that merely require states to
provide information to the federal government from
those that command state executive agencies to actually
administer federal programs). To the contrary, they
merely require states to “take administrative ... action
to comply with federal standards regulating” child
custody proceedings involving Indian children, which is
permissible under the Tenth Amendment.15 See Baker,
485 U.S. at 514–15, 108 S. Ct. 1355.
15

In ruling otherwise, the district court discussed Murphy and
emphasized that adhering to the anticommandeering rule is
necessary to protect constitutional principles of state sovereignty,
promote political accountability, and prevent Congress from
shifting the costs of regulation to states. See Murphy, 138 S. Ct. at
1477. These principles do not compel the result reached by the
district court. See id. First, the anticommandeering doctrine is not
necessary here to protect constitutional principles of state
sovereignty because ICWA regulates the actions of state executive
agencies in their role as child advocates and custodians, and not in
their capacity as sovereigns enforcing ICWA. See id. at 1478; see
also Condon, 528 U.S. at 151, 120 S. Ct. 666 (concluding that the law
in question there “does not require the States in their sovereign
capacity to regulate their own citizens [but] regulates the States as
the owners of data bases”). The need to promote political
accountability is minimized here for similar reasons, as ICWA does
not require states to regulate their own citizens. See Murphy, 138
S. Ct. at 1477 (noting concern that, if states are required to impose
a federal regulation on their voters, the voters will not know who to
credit or blame and responsibility will be “blurred”). Finally, the
need to prevent Congress from shifting the costs of regulation to
states is also minimized here, where some of the requirements at

465a
B. Preemption
Defendants argue that, to the extent there is a
conflict between ICWA and applicable state laws in child
custody proceedings, ICWA preempts state law. The
Supremacy Clause provides that federal law is the
“supreme Law of the Land ... any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. Const. art. VI, cl. 2. Conflict
preemption occurs when “Congress enacts a law that
imposes restrictions or confers rights on private actors;
a state law confers rights or imposes restrictions that
conflict with the federal law; and therefore the federal
law takes precedence and the state law is preempted.”
Murphy, 138 S. Ct. at 1480. For a federal law to preempt
conflicting state law, two requirements must be
satisfied: The challenged provision of the federal law
“must represent the exercise of a power conferred on
Congress by the Constitution” and “must be best read as
one that regulates private actors” by imposing
restrictions or conferring rights. Id. at 1479–80. The
district court concluded that preemption does not apply
here, as ICWA regulates states rather than private
actors. We review de novo whether a federal law
issue, like those in sections 1912(d) and 1915(c), simply regulate a
state’s actions during proceedings that it would already be
expending resources on. ICWA’s recordkeeping and notice
requirements could impose costs on states, but we cannot conclude
that these costs compel application of the anticommandeering
doctrine. See Condon, 528 U.S. at 150, 120 S. Ct. 666 (a federal law
that “require[d] time and effort on the part of state employees” was
constitutional); Baker, 485 U.S. at 515, 108 S. Ct. 1355 (that states
may have to raise funds necessary to comply with federal
regulations “presents no constitutional defect”).

466a
preempts a state statute or common law cause of action.
See Friberg v. Kansas City S. Ry. Co., 267 F.3d 439, 442
(5th Cir. 2001).
Congress enacted ICWA to “establish[ ] minimum
Federal standards for the removal of Indian children
from their families and the placement of such children in
foster or adoptive homes which will reflect the unique
values of Indian culture.” 25 U.S.C. § 1902. Defendants
contend that these minimum federal standards preempt
conflicting state laws. Plaintiffs contend that preemption
does not apply here because ICWA regulates states and
not individuals, and nothing in the Constitution gives
Congress authority to regulate the adoption of Indian
children under state jurisdiction.
ICWA specifies that Congress’s authority to
regulate the adoption of Indian children arises under the
Indian Commerce Clause as well as “other constitutional
authority.” 25 U.S.C. § 1901(1). The Indian Commerce
Clause provides that “[t]he Congress shall have Power
To ... regulate Commerce ... with the Indian Tribes.” U.S.
Const. art. I, § 8, cl. 3. The Supreme Court has
repeatedly held that the Indian Commerce Clause
grants Congress plenary power over Indian affairs. See
U.S. v. Lara, 541 U.S. 193, 200, 124 S. Ct. 1628, 158 L.
Ed. 2d 420 (2004) (noting that the Indian Commerce and
Treaty Clauses are sources of Congress’s “plenary and
exclusive” “powers to legislate in respect to Indian
tribes”); Ramah Navajo Sch. Bd., Inc. v. Bureau of
Revenue of New Mexico, 458 U.S. 832, 837, 102 S. Ct.
3394, 73 L. Ed. 2d 1174 (1982) (discussing Congress’s
“broad power ... to regulate tribal affairs under the
Indian Commerce Clause”); Mancari, 417 U.S. at 551–

467a
52, 94 S. Ct. 2474 (noting that “[t]he plenary power of
Congress to deal with the special problems of Indians is
drawn both explicitly and implicitly from,” inter alia, the
Indian Commerce Clause). Plaintiffs do not provide
authority to support a departure from that principle
here.
Moreover, ICWA clearly regulates private
individuals. See Murphy, 138 S. Ct. at 1479–80. In
enacting the statute, Congress declared that it was the
dual policy of the United States to protect the best
interests of Indian children and promote the stability
and security of Indian families and tribes. 25 U.S.C.
§ 1902. Each of the challenged provisions applies within
the context of state court proceedings involving Indian
children and is informed by and designed to promote
Congress’s goals by conferring rights upon Indian
children and families.16 See H.R. REP. No. 95-1386, at 18
(1978) (“We conclude that rights arising under [ICWA]
16

Arguably, two of the challenged provisions of ICWA could be
construed to simultaneously “confer[ ] rights” on Indian children
and families while “imposing restrictions” on state agencies. See
Murphy, 138 S. Ct. at 1479–80. Section 1915(c) requires “the agency
or court effecting [a] placement” to adhere to a tribe’s established
order of placement preferences, and section 1915(e) requires states
to keep records and make them available to the Secretary and
Indian tribes. 25 U.S.C. § 1915(c), (e). However, Murphy instructs
that for a provision of a federal statute to preempt state law, the
provision must be “best read as one that regulates private actors.”
See 138 S. Ct. at 1479 (emphasis added). In light of Congress’s
express purpose in enacting ICWA, the legislative history of the
statute, and section 1915’s scope in setting forth minimum
standards for the “Placement of Indian children,” we conclude that
these provisions are “best read” as regulating private actors by
conferring rights on Indian children and families. See id.

468a
may be enforced, as of right, in the courts of the States
when their jurisdiction, as prescribed by local law, is
adequate to the occasion.” (quoting Second Employers’
Liability Cases, 223 U.S. 1, 59, 32 S. Ct. 169, 56 L. Ed.
327 (1912))). Thus, to the extent ICWA’s minimum
federal standards conflict with state law, “federal law
takes precedence and the state law is preempted.” See
Murphy, 138 S. Ct. at 1480.
IV.

Nondelegation Doctrine

Article I of the Constitution vests “[a]ll legislative
Powers” in Congress. U.S. Const. art. 1, § 1, cl. 1. “In a
delegation challenge, the constitutional question is
whether the statute has delegated legislative power to
the agency.” Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 472, 121 S. Ct. 903, 149 L. Ed. 2d 1 (2001). The
limitations on Congress’s ability to delegate its
legislative power are “less stringent in cases where the
entity exercising the delegated authority itself
possesses independent authority over the subject
matter.” See United States v. Mazurie, 419 U.S. 544,
556–57, 95 S. Ct. 710, 42 L. Ed. 2d 706 (1975). ICWA
section 1915(c) allows Indian tribes to establish through
tribal resolution a different order of preferred placement
than that set forth in sections 1915(a) and (b).17 Section
23.130 of the Final Rule provides that a tribe’s
17

The section provides: “In the case of a placement under subsection
(a) or (b) of this section, if the Indian child’s tribe shall establish a
different order of preference by resolution, the agency or court
effecting the placement shall follow such order so long as the
placement is the least restrictive setting appropriate to the
particular needs of the child, as provided in subsection (b) of this
section.” 25 U.S.C. § 1915(c).

469a
established placement preferences apply over those
specified in ICWA.18 The district court determined that
these provisions violated the nondelegation doctrine,
reasoning that section 1915(c) grants Indian tribes the
power to change legislative preferences with binding
effect on the states, and Indian tribes, like private
entities, are not part of the federal government of the
United States and cannot exercise federal legislative or
executive regulatory power over non-Indians on nontribal lands.
Defendants argue that the district court’s analysis of
the constitutionality of these provisions ignores the
inherent sovereign authority of tribes. They contend
that section 1915 merely recognizes and incorporates a
tribe’s exercise of its inherent sovereignty over Indian
children and therefore does not—indeed cannot—
delegate this existing authority to Indian tribes.
The Supreme Court has long recognized that
Congress may incorporate the laws of another sovereign
into federal law without violating the nondelegation
doctrine. See Mazurie, 419 U.S. at 557, 95 S. Ct. 710
(“[I]ndependent tribal authority is quite sufficient to
protect Congress’ decision to vest in tribal councils this
portion of its own authority ‘to regulate Commerce ...
with the Indian tribes.’”); United States v. Sharpnack,
355 U.S. 286, 293–94, 78 S. Ct. 291, 2 L. Ed. 2d 282 (1958)
(holding that a statute that prospectively incorporated
state criminal laws “in force at the time” of the alleged
crime was a “deliberate continuing adoption by
18

“If the Indian child’s Tribe has established by resolution a
different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply.” 25 C.F.R. § 23.130.

470a
Congress” of state law as binding federal law in federal
enclaves within state boundaries); Gibbons v. Ogden, 22
U.S. (9 Wheat.) 1, 80, 6 L. Ed. 23 (1824) (“Although
Congress cannot enable a State to legislate, Congress
may adopt the provisions of a State on any subject.”).
“Indian tribes are unique aggregations possessing
attributes of sovereignty over both their members and
their territory.” Mazurie, 419 U.S. at 557, 95 S. Ct. 710.
Though some exercises of tribal power require “express
congressional delegation,” the “tribes retain their
inherent power to determine tribal membership [and] to
regulate domestic relations among members ....” See
Montana v. United States, 450 U.S. 544, 564, 101 S. Ct.
1245, 67 L. Ed. 2d 493 (1981); see also Merrion v.
Jicarilla Apache Tribe, 455 U.S. 130, 170, 102 S. Ct. 894,
71 L. Ed. 2d 21 (1982) (“tribes retain the power to create
substantive law governing internal tribal affairs” like
tribal citizenship and child custody).
In Mazurie, a federal law allowed the tribal council
of the Wind River Tribes, with the approval of the
Secretary of the Interior, to adopt ordinances to control
the introduction of alcoholic beverages by non-Indians
on privately owned land within the boundaries of the
reservation. See 419 U.S. at 547, 557, 95 S. Ct. 710. The
Supreme Court held that the law did not violate the
nondelegation doctrine, focusing on the Tribes’ inherent
power to regulate their internal and social relations by
controlling the distribution and use of intoxicants within
the reservation’s bounds. Id. Mazurie is instructive here.
ICWA section 1915(c) provides that a tribe may pass, by
its own legislative authority, a resolution reordering the
three placement preferences set forth by Congress in
section 1915(a). Pursuant to this section, a tribe may

471a
assess whether the most appropriate placement for an
Indian child is with members of the child’s extended
family, the child’s tribe, or other Indian families, and
thereby exercise its “inherent power to determine tribal
membership [and] regulate domestic relations among
members” and Indian children eligible for membership.
See Montana, 450 U.S. at 564, 101 S. Ct. 1245.
State Plaintiffs contend that Mazurie is
distinguishable because it involves the exercise of tribal
authority on tribal lands, whereas ICWA permits the
extension of tribal authority over states and persons on
non-tribal lands. We find this argument unpersuasive. It
is well established that tribes have “sovereignty over
both their members and their territory.” See Mazurie,
419 U.S. at 557, 95 S. Ct. 710 (emphasis added). For a
tribe to exercise its authority to determine tribal
membership and to regulate domestic relations among
its members, it must necessarily be able to regulate all
Indian children, irrespective of their location.19 See
Montana, 450 U.S. at 564, 101 S. Ct. 1245 (tribes retain
inherent power to regulate domestic relations and
determine tribal membership); Merrion, 455 U.S. at 170,
102 S. Ct. 894 (tribes retain power to govern tribal
citizenship and child custody). Section 1915(c), by
recognizing the inherent powers of tribal sovereigns to
determine by resolution the order of placement
preferences applicable to an Indian child, is thus a
“deliberate continuing adoption by Congress” of tribal
law as binding federal law. See Sharpnack, 355 U.S. at
19

Indeed, as the BIA noted in promulgating the Final Rule, at least
78% of Native Americans lived outside of Indian country as of 2016.
See 81 Fed. Reg. at 38,778, 38,783.

472a
293–94, 78 S. Ct. 291; see also 25 U.S.C. § 1915(c); 81 Fed.
Reg. at 38,784 (the BIA noting that “through numerous
statutory provisions, ICWA helps ensure that State
courts incorporate Indian social and cultural standards
into decision-making that affects Indian children”). We
therefore conclude that ICWA section 1915(c) is not an
unconstitutional delegation of Congressional legislative
power to tribes, but is an incorporation of inherent tribal
authority by Congress. See Mazurie, 419 U.S. at 544, 95
S. Ct. 710; Sharpnack, 355 U.S. at 293–94, 78 S. Ct. 291.
V. The Final Rule
The district court held that, to the extent sections
23.106–22, 23.124–32, and 23.140–41 of the Final Rule
were binding on State Plaintiffs, they violated the APA
for three reasons: The provisions (1) purported to
implement an unconstitutional statute; (2) exceeded the
scope of the Interior Department’s statutory regulatory
authority to enforce ICWA with binding regulations;
and (3) reflected an impermissible construction of ICWA
section 1915. We examine each of these bases in turn.
A. The Constitutionality of ICWA
Because we concluded that the challenged
provisions of ICWA are constitutional, for reasons
discussed earlier in this opinion, the district court’s first
conclusion that the Final Rule was invalid because it
implemented an unconstitutional statute was erroneous.
Thus, the statutory basis of the Final Rule is
constitutionally valid.
B. The Scope of the BIA’s Authority
Congress authorized the Secretary of the Interior to
promulgate rules and regulations that may be necessary

473a
to carry out the provisions of ICWA. See 25 U.S.C.
§ 1952. Pursuant to this provision, the BIA, acting under
authority delegated by the Interior Department, issued
guidelines in 1979 for state courts in Indian child custody
proceedings that were “not intended to have binding
legislative effect.” 44 Fed. Reg. at 67,584. The BIA
explained that, generally, “when the Department writes
rules needed to carry out responsibilities Congress has
explicitly imposed on the Department, those rules are
binding.” Id. However, when “the Department writes
rules or guidelines advising some other agency how it
should carry out responsibilities explicitly assigned to it
by Congress, those rules or guidelines are not, by
themselves, binding.” Id. With respect to ICWA, the
BIA concluded in 1979 that it was “not necessary” to
issue binding regulations advising states how to carry
out the responsibilities Congress assigned to them; state
courts were “fully capable” of implementing the
responsibilities Congress imposed on them, and nothing
in the language or legislative history of 25 U.S.C. § 1952
indicated that Congress intended the BIA to exercise
supervisory control over states. Id. However, in 2016,
the BIA changed course and issued the Final Rule,
which sets binding standards for state courts in Indian
child-custody proceedings. See 25 C.F.R. §§ 23.101,
23.106; 81 Fed. Reg. at 38,779, 38,785. The BIA explained
that its earlier, nonbinding guidelines were “insufficient
to fully implement Congress’s goal of nationwide
protections for Indian children, parents, and Tribes.” 81
Fed. Reg. at 38,782. Without the Final Rule, the BIA
stated, state-specific determinations about how to
implement ICWA would continue “with potentially

474a
devastating consequences” for those Congress intended
ICWA to protect. See id.
In reviewing “an agency’s construction of the
statute which it administers,” we are “confronted with
two questions.” Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 842–43, 104 S. Ct. 2778, 81 L.
Ed. 2d 694 (1984). First, we must examine whether the
statute is ambiguous. Id. at 842, 104 S. Ct. 2778. “If the
intent of Congress is clear, that is the end of the matter;
for the court, as well as the agency, must give effect to
the unambiguously expressed intent of Congress.” Id.
But “if the statute is silent or ambiguous with respect to
the specific issue, the question for the court is whether
the agency’s answer is based on a permissible
construction of the statute.” Id. at 842–43, 104 S. Ct.
2778. We must uphold an agency’s reasonable
interpretation of an ambiguous statute. Id. at 844, 104 S.
Ct. 2778.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the
Department authority to promulgate binding rules and
regulations. ICWA provides that “the Secretary shall
promulgate such rules and regulations as may be
necessary to carry out the provisions of this chapter.” 25
U.S.C. § 1952. The provision’s plain language confers
broad authority on the Department to promulgate rules
and regulations it deems necessary to carry out ICWA.
This language can be construed to grant the authority to
issue binding rules and regulations; however, because
“Congress has not directly addressed the precise
question at issue,” we conclude that section 1952 is
ambiguous. See Chevron, 467 U.S. at 843, 104 S. Ct. 2778.

475a
Moving to the second Chevron step, we must
determine whether the BIA’s current interpretation of
its authority to issue binding regulations pursuant to
section 1952 is reasonable. See 467 U.S. at 843–44, 104 S.
Ct. 2778. Defendants argue that section 1952’s language
is substantively identical to other statutes conferring
broad delegations of rulemaking authority. Indeed, the
Supreme Court has held that “[w]here the empowering
provision of a statute states simply that the agency may
make ... such rules and regulations as may be necessary
to carry out the provisions of this Act ... the validity of a
regulation promulgated thereunder will be sustained so
long as it is reasonably related to the purposes of the
enabling legislation.” Mourning v. Family Publications
Serv., Inc., 411 U.S. 356, 369, 93 S. Ct. 1652, 36 L. Ed. 2d
318 (1973) (internal quotation marks omitted); see also
City of Arlington, Tex. v. F.C.C., 569 U.S. 290, 306, 133
S. Ct. 1863, 185 L. Ed. 2d 941 (2013) (noting a lack of
“case[s] in which a general conferral of rulemaking or
adjudicative authority has been held insufficient to
support Chevron deference for an exercise of that
authority within the agency’s substantive field”). Here,
section 1952’s text is substantially similar to the
language in Mourning, and the Final Rule’s binding
standards for Indian child custody proceedings are
reasonably related to ICWA’s purpose of establishing
minimum federal standards in child custody proceedings
involving Indian children. See 25 U.S.C. § 1902. Thus, the
Final Rule is a reasonable exercise of the broad
authority granted to the BIA by Congress in ICWA
section 1952.
Plaintiffs contend that the BIA reversed its position
on the scope of its authority to issue binding regulations

476a
after thirty-seven years and without explanation and its
interpretation was therefore not entitled to deference.
We disagree. “The mere fact that an agency
interpretation contradicts a prior agency position is not
fatal. Sudden and unexplained change, or change that
does not take account of legitimate reliance on prior
interpretation, may be arbitrary, capricious [or] an
abuse of discretion. But if these pitfalls are avoided,
change is not invalidating, since the whole point of
Chevron is to leave the discretion provided by the
ambiguities of a statute with the implementing agency.”
Smiley v. Citibank (S. Dakota), N.A., 517 U.S. 735, 742,
116 S. Ct. 1730, 135 L. Ed. 2d 25 (1996) (internal citations
and quotation marks omitted). The agency must provide
“reasoned explanation” for its new policy, though “it
need not demonstrate to a court’s satisfaction that the
reasons for the new policy are better than the reasons
for the old one.” F.C.C. v. Fox Television Stations, Inc.,
556 U.S. 502, 515, 129 S. Ct. 1800, 173 L. Ed. 2d 738
(2009). “[I]t suffices that the new policy is permissible
under the statute, that there are good reasons for it, and
that the agency believes it to be better, which the
conscious change of course adequately indicates.” Id.
The BIA directly addressed its reasons for
departing from its earlier interpretation that it had no
authority to promulgate binding regulations, explaining
that, under Supreme Court precedent, the text of
section 1952 conferred “a broad and general grant of
rulemaking authority.” 81 Fed. Reg. at 38,785 (collecting
Supreme Court cases). The BIA further discussed why
it now considered binding regulations necessary to
implement ICWA: In 1979, the BIA “had neither the
benefit of the Holyfield Court’s carefully reasoned

477a
decision nor the opportunity to observe how a lack of
uniformity in the interpretation of ICWA by State
courts could undermine the statute’s underlying
purposes.” 81 Fed. Reg. at 38,787 (citing Holyfield, 490
U.S. at 30, 109 S. Ct. 1597).
In Holyfield, the Supreme Court considered the
meaning of the term “domicile,” which ICWA section
1911 left undefined and the BIA left open to state
interpretation under its 1979 Guidelines. 490 U.S. at 43,
51, 109 S. Ct. 1597. The Court held that “it is most
improbable that Congress would have intended to leave
the scope of the statute’s key jurisdictional provision
subject to definition by state courts as a matter of state
law,” given that “Congress was concerned with the
rights of Indian families vis-à-vis state authorities” and
considered “States and their courts as partly responsible
for the problem it intended to correct” through ICWA.
Id. at 45, 109 S. Ct. 1597. Because Congress intended for
ICWA to address a nationwide problem, the Court
determined that the lack of nationwide uniformity
resulting from varied state-law definitions of this term
frustrated Congress’s intent. Id. The Holyfield Court’s
reasoning applies here. Congress’s concern with
safeguarding the rights of Indian families and
communities was not limited to section 1911 and
extended to all provisions of ICWA, including those at
issue here. Thus, as the BIA explained, all provisions of
ICWA that it left open to state interpretation in 1979,
including many that Plaintiffs now challenge, were
subject to the lack of uniformity the Supreme Court
identified in Holyfield and determined was contrary to
Congress’s intent. 81 Fed. Reg. at 38,782. Thus, in light
of Holyfield, the BIA has provided a “reasoned

478a
explanation” for departing from its earlier
interpretation of its authority under section 1952 and for
the need of binding regulations with respect to ICWA.
See Fox Television Stations, 556 U.S. at 515, 129 S. Ct.
1800.
In addition to assessing whether an agency’s
interpretation of a statute is reasonable under Chevron,
the APA requires that we “hold unlawful and set aside
agency action ... found to be ... arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law.” 5 U.S.C. § 706(2)(A). Contrary to Plaintiffs’
contentions, the BIA explained that the Final Rule
resulted from years of study and public outreach and
participation. See 81 Fed. Reg. 38,778, 38,784–85. In
promulgating the rule, the BIA relied on its own
expertise in Indian affairs, its experience in
administering ICWA and other Indian child-welfare
programs, state interpretations and best practices,20
public hearings, and tribal consultations. See id. Thus,
the BIA’s current interpretation is not “arbitrary,
capricious, [or] an abuse of discretion” because it was not
sudden and unexplained. See Smiley, 517 U.S. at 742, 116
S. Ct. 1730; 5 U.S.C. § 706(2)(A). The district court’s
contrary conclusion was error.

20

Since ICWA’s enactment in 1978, several states have
incorporated the statute’s requirements into their own laws or have
enacted detailed procedures for their state agencies to collaborate
with tribes in child custody proceedings.

479a
C. The BIA’s Construction of ICWA Section
1915
ICWA section 1915 sets forth three preferences for
the placement of Indian children unless good cause can
be shown to depart from them. 25 U.S.C. § 1915(a)–(b).
The 1979 Guidelines initially advised that the term “good
cause” in ICWA section 1915 “was designed to provide
state courts with flexibility in determining the
disposition of a placement proceeding involving an
Indian child.” 44 Fed. Reg. 67,584. However, section
23.132(b) of the Final Rule specifies that “[t]he party
seeking departure from [section 1915’s] placement
preferences should bear the burden of proving by clear
and convincing evidence that there is ‘good cause’ to
depart from the placement preferences.” 25 C.F.R.
§ 23.132(b). The district court determined that Congress
unambiguously intended the ordinary preponderanceof-the-evidence standard to apply, and the BIA’s
interpretation that a higher standard applied was
therefore not entitled to Chevron deference.
Defendants contend that the Final Rule’s clear-andconvincing standard is merely suggestive and not
binding. They further aver that the Final Rule’s
clarification of the meaning of “good cause” and
imposition of a clear-and-convincing-evidence standard
are entitled to Chevron deference. Plaintiffs respond
that state courts have interpreted the clear-andconvincing standard as more than just suggestive in
practice, and the Final Rule’s fixed definition of “good
cause” is contrary to ICWA’s intent to provide state
courts with flexibility.

480a
Though provisions of the Final Rule are generally
binding on states, the BIA indicated that it did not
intend for section 23.132(b) to establish a binding
standard. See 25 C.F.R. § 23.132 (“The party seeking
departure from the placement preferences should bear
the burden of proving by clear and convincing evidence
that there is ‘good cause’ to depart from the placement
preferences.” (emphasis added)). The BIA explained
that “[w]hile the final rule advises that the application of
the clear and convincing standard ‘should’ be followed, it
does not categorically require that outcome ... [and] the
Department declines to establish a uniform standard of
proof on this issue.” See 81 Fed. Reg. at 38,843.
The BIA’s interpretation of section 1915 is also
entitled to Chevron deference. For purposes of Chevron
step one, the statute is silent with respect to which
evidentiary standard applies. See 25 U.S.C. § 1915;
Chevron, 467 U.S. at 842, 104 S. Ct. 2778. The district
court relied on the canon of expressio unius est exclusio
alterius (“the expression of one is the exclusion of
others”) in finding that Congress unambiguously
intended that a preponderance-of-the-evidence standard
was necessary to show good cause under ICWA section
1915. The court reasoned that because Congress
specified a heightened evidentiary standard in other
provisions of ICWA, but did not do so with respect to
section 1915, Congress did not intend for the heightened
clear-and-convincing-evidence standard to apply. This
was error. “When interpreting statutes that govern
agency action, ... a congressional mandate in one section
and silence in another often suggests not a prohibition
but simply a decision not to mandate any solution in the
second context, i.e., to leave the question to agency

481a
discretion.” Catawba Cty., N.C. v. E.P.A., 571 F.3d 20,
36 (D.C. Cir. 2009). “[T]hat Congress spoke in one place
but remained silent in another ... rarely if ever suffices
for the direct answer that Chevron step one requires.”
Id. (cleaned up); see also Texas Rural Legal Aid, Inc. v.
Legal Servs. Corp., 940 F.2d 685, 694 (D.C. Cir. 1991)
(“Under Chevron, we normally withhold deference from
an agency’s interpretation of a statute only when
Congress has directly spoken to the precise question at
issue, and the expressio canon is simply too thin a reed
to support the conclusion that Congress has clearly
resolved this issue.”) (internal citations and quotation
marks omitted).
Under Chevron step two, the BIA’s current
interpretation of the applicable evidentiary standard is
reasonable. See Chevron, 467 U.S. at 844, 104 S. Ct. 2778.
The BIA’s suggestion that the clear-and-convincing
standard should apply was derived from the best
practices of state courts. 81 Fed. Reg. at, 38,843. The
Final Rule explains that, since ICWA’s passage, “courts
that have grappled with the issue have almost
universally concluded that application of the clear and
convincing evidence standard is required as it is most
consistent with Congress’s intent in ICWA to maintain
Indian families and Tribes intact.” Id. Because the BIA’s
current interpretation of section 1915, as set forth in
Final Rule section 23.132(b), was based on its analysis of
state cases and geared toward furthering Congress’s
intent, it is reasonable and entitled to Chevron
deference. Moreover, the BIA’s current interpretation is
nonbinding and therefore consistent with the 1979
Guidelines in allowing state courts flexibility to
determine “good cause.” Section 23.132(b) of the Final

482a
Rule is thus valid under the APA. See 5 U.S.C.
§ 706(2)(A).
***
For these reasons, we conclude that Plaintiffs had
standing to bring all claims and that ICWA and the Final
Rule are constitutional because they are based on a
political classification that is rationally related to the
fulfillment of Congress’s unique obligation toward
Indians; ICWA preempts conflicting state laws and does
not violate the Tenth Amendment anticommandeering
doctrine; and ICWA and the Final Rule do not violate
the nondelegation doctrine. We also conclude that the
Final Rule implementing the ICWA is valid because the
ICWA is constitutional, the BIA did not exceed its
authority when it issued the Final Rule, and the agency’s
interpretation of ICWA section 1915 is reasonable.
Accordingly, we AFFIRM the district court’s judgment
that Plaintiffs had Article III standing. But we
REVERSE the district court’s grant of summary
judgment for Plaintiffs and RENDER judgment in favor
of Defendants on all claims.

483a
PRISCILLA R. OWEN, Circuit Judge, concurring
in part and dissenting in part:
I agree with much of the majority opinion. But I
conclude that certain provisions of the Indian Child
Welfare Act (ICWA)1 and related regulations violate the
United States Constitution because they direct state
officers or agents to administer federal law. I therefore
dissent, in part.
The offending statutes include part of 25 U.S.C.
§ 1912(d) (requiring a State seeking to effect foster care
placement of an Indian child to “satisfy the court that
active efforts have been made to provide remedial
services and rehabilitative programs designed to
prevent the breakup of the Indian family and these
efforts have proved unsuccessful”), § 1912(e)
(prohibiting foster care placement unless a State
presents evidence from “qualified expert witnesses ...
that the continued custody of the child by the parent or
Indian custodian is likely to result in serious emotional
or physical damage to the child”), and § 1915(e)
(requiring that “[a] record of each such placement, under
State law, of an Indian child shall be maintained by the
State in which the placement was made, evidencing the
efforts to comply with the order of preference specified
in this section” and that “[s]uch record[s] shall be made
available at any time upon the request of the Secretary
or the Indian child’s tribe”). Regulations requiring
States to maintain related records also violate the
Constitution.2
1

25 U.S.C. §§ 1901 et seq.

2

See 25 C.F.R. § 23.141:

484a
The Supreme Court has made clear that Congress
cannot commandeer a State or its officers or agencies:
“[T]he Federal Government may not compel the States
to implement, by legislation or executive action, federal
regulatory programs.”3 “The anticommandeering
doctrine may sound arcane, but it is simply the
expression of a fundamental structural decision
incorporated into the Constitution, i.e., the decision to
withhold from Congress the power to issue orders
directly to the States.”4 “The legislative powers granted
to Congress are sizable, but they are not unlimited. The
Constitution confers on Congress not plenary legislative
power but only certain enumerated powers. Therefore,
all other legislative power is reserved for the States, as

(a) The State must maintain a record of every voluntary or
involuntary foster-care, preadoptive, and adoptive placement of
an Indian child and make the record available within 14 days of a
request by an Indian child’s Tribe or the Secretary.
(b) The record must contain, at a minimum, the petition or
complaint, all substantive orders entered in the child-custody
proceeding, the complete record of the placement determination
(including, but not limited to, the findings in the court record and
the social worker’s statement), and, if the placement departs from
the placement preferences, detailed documentation of the efforts
to comply with the placement preferences.
(c) A State agency or agencies may be designated to be the
repository for this information. The State court or agency should
notify the BIA whether these records are maintained within the
court system or by a State agency.
3

Printz v. United States, 521 U.S. 898, 925, 117 S. Ct. 2365, 138 L.
Ed. 2d 914 (1997).
4

Murphy v. Nat’l Collegiate Athletic Ass’n, ––– U.S. ––––, 138 S. Ct.
1461, 1475, 200 L. Ed. 2d 854 (2018).

485a
the Tenth Amendment confirms.”5 The Supreme Court
has recognized that “conspicuously absent from the list
of powers given to Congress is the power to issue direct
orders to the governments of the States. The
anticommandeering doctrine simply represents the
recognition of this limit on congressional authority.”6
The defendants in the present case contend that the
Indian Commerce Clause7 empowers Congress to direct
the States as it has done in the ICWA. They are
mistaken. “Where a federal interest is sufficiently
strong to cause Congress to legislate, it must do so
directly; it may not conscript state governments as its
agents.”8
The panel’s majority opinion concludes that the
ICWA does “not commandeer state agencies”9 because
it “evenhandedly regulate[s] an activity in which both
States and private actors engage.”10 This is incorrect
with respect to the part of 25 U.S.C. § 1912(d) addressed
to foster care placement, § 1912(e), § 1915(e), and 25
C.F.R. § 23.141.

5

Id. at 1476.

6

Id.

7

U.S. Const. art. I, § 8, cl. 3 (“The Congress shall have Power ... To
regulate Commerce with foreign Nations, and among the several
States, and with the Indian Tribes.”).
8

Murphy, 138 S. Ct. at 1477 (quoting New York v. United States,
505 U.S. 144, 178, 112 S. Ct. 2408, 120 L. Ed. 2d 120 (1992)).
9

Brackeen v. Bernhardt, ––– F.3d ––––, ––––, 2019 WL 3759491, at
*14 (5th Cir. 2019).
10
Id. (quoting Murphy, 138 S. Ct. at 1478).

486a
Though § 1912(d) nominally applies to “[a]ny party
seeking to effect a foster care placement of ... an Indian
child under State law,”11 as a practical matter, it applies
only to state officers or agents. Foster care placement is
not undertaken by private individuals or private actors.
That is a responsibility that falls upon state officers or
agencies. Those officers or agencies are required by
§ 1912(d) to “satisfy the court that active efforts have
been made to provide remedial services and
rehabilitative programs designed to prevent the
breakup of the Indian family and that these efforts have
proved unsuccessful.”12 That directive means that a
State cannot place an Indian child in foster care,
regardless of the exigencies of the circumstances, unless
it first provides the federally specified services and
programs without success. Theoretically, a State could
decline to protect Indian children in need of foster care.
It could, theoretically, allow Indian children to remain in
abusive or even potentially lethal circumstances. But
that is not a realistic choice, even if state law did not
apply across the board and include all children,
regardless of their Indian heritage.
Certain of the ICWA’s provisions are a transparent
attempt to foist onto the States the obligation to execute
a federal program and to bear the attendant costs.
Though the requirements in § 1912(d) are not as direct
as those at issue in Printz v. United States,13 the federal

11

25 U.S.C. § 1912(d).

12

Id.

13

521 U.S. 898, 117 S. Ct. 2365, 138 L. Ed. 2d 914 (1997).

487a
imperatives improperly commandeer state officers or
agents:
It is an essential attribute of the States’ retained
sovereignty that they remain independent and
autonomous within their proper sphere of authority.
See Texas v. White, 7 Wall. [700,] 725 [74 U.S. 700, 19
L. Ed. 227] [(1868)]. It is no more compatible with
this independence and autonomy that their officers
be “dragooned” (as Judge Fernandez put it in his
dissent below, [Mack v. United States], 66
F.3d[1025,] 1035 [(9th Cir. 1995)]) into administering
federal law, than it would be compatible with the
independence and autonomy of the United States
that its officers be impressed into service for the
execution of state laws.14
Similarly, § 1912(e) provides that “[n]o foster care
placement may be ordered” unless there is “qualified
expert witness[ ]” testimony “that the continued custody
of the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.”15 This places the burden on a State, not a court, to
present expert witness testimony in order to effectuate
foster care for Indian children. If the federal
government has concluded that such testimony is
necessary in every case involving an Indian child’s foster
care placement, then the federal government should
provide it. It cannot require the States to do so.
The requirements in 25 U.S.C. § 1912(d) apply to
termination of parental rights, not just foster care
14

Id. at 928, 117 S. Ct. 2365.

15

25 U.S.C. § 1912(e).

488a
placement. The laws of Indiana, Louisiana, and Texas
each permit certain individuals to petition for the
termination of parental rights in some circumstances,17
and § 1912(d) applies to all parties seeking termination,
not just state actors.18 At least superficially, § 1912(d)
appears to be an evenhanded regulation of an activity in
which both States and private actors engage.19 But it is
far from clear based on the present record that § 1912(d)
applies in a meaningful way to private actors and if so,
how many private actors, as compared to state actors,
have actually met its requirements. Additionally, it
appears that the State plaintiffs contend that “the
incidental application to the States of a federal law of
general applicability excessively interfered with the
functioning of state governments.”20 I would remand for
further factual development. It may be that in the vast
majority of involuntary parental termination
proceedings, the party seeking the termination is a state
official or agency. It also seems highly unlikely that
individuals or private actors seeking termination of
16

16

Id. § 1912(d).

17

See, e.g., Ind. Code §§ 31-35-2-4, 31-35-3.5-3 (2018); Ind. Code § 3135-3-4 (2013); La. Child. Code Ann. art. 1122 (2019); Tex. Fam. Code
Ann. § 102.005 (West 2019); Tex. Fam. Code Ann. § 161.005 (West
Supp. 2019).
18

.25 U.S.C. § 1912(d).

19

See Murphy v. Nat’l Collegiate Athletic Ass’n, ––– U.S. ––––, 138
S. Ct. 1461, 1478, 200 L. Ed. 2d 854 (2018) (“The anticommandeering
doctrine does not apply when Congress evenhandedly regulates an
activity in which both States and private actors engage.”).
20

Printz v. United States, 521 U.S. 898, 932, 117 S. Ct. 2365, 138 L.
Ed. 2d 914 (1997).

489a
parental rights (if and when permitted to do so under a
State’s laws) will have been in a position “to provide
remedial services and rehabilitative programs designed
to prevent the breakup of the Indian family.”21 It seems
much more likely that these requirements fall, de facto,
on the shoulders of state actors and agencies.
The records-keeping requirements in 25 U.S.C.
§ 1915(e) and 25 C.F.R. § 23.141 are direct orders to the
States.22 They do not apply to private parties in parental
termination or foster care placement proceedings. They
do not apply “evenhandedly [to] an activity in which both
States and private actors engage.”23
The Supreme Court expressly left open in Printz
whether federal laws “which require only the provision
of information to the Federal Government” are an
unconstitutional commandeering of a State or its officers
or agents.24 But the principles set forth in Printz lead to
the conclusion that Congress is without authority to
order the States to provide the information required by
§ 1915(e) and related regulations. Even were the burden
on the States of creating, maintaining, and supplying the
required information “minimal and only temporary,” the
21

25 U.S.C. § 1912(d).

22

Id. at § 1915(e) (“A record of each such placement, under State
law, of an Indian child shall be maintained by the State in which the
placement was made ....”); 25 C.F.R. § 23.141 (“The State must
maintain a record of every voluntary or involuntary foster-care,
preadoptive, and adoptive placement of an Indian child ....”).
23

Brackeen v. Bernhardt, ––– F.3d ––––, ––––, 2019 WL 3759491, at
*14 (5th Cir. 2019) (quoting Murphy, 138 S. Ct. at 1478).
24

521 U.S. at 918, 117 S. Ct. 2365.

490a
Supreme Court has reasoned that “where ... it is the
whole object of the law to direct the functioning of the
state executive, and hence to compromise the structural
framework of dual sovereignty, such a ‘balancing’
analysis is inappropriate.”25 The Supreme Court
stressed, “It is the very principle of separate state
sovereignty that such a law offends, and no comparative
assessment of the various interests can overcome that
fundamental defect.”26
The panel’s majority opinion concludes that the
requirements of 25 U.S.C. § 1915(e) and 25 C.F.R.
§ 23.141 do not commandeer state officers or agents
because they “regulate state activity and do not require
states to enact any laws or regulations, or to assist in the
enforcement of federal statutes regulating private
individuals.”27 But the statute orders States to maintain
records of each placement of an Indian child and requires
those records to “evidenc[e] the efforts to comply with
the order of preference specified in this section.”28 That
directs States to assist in the enforcement of the ICWA
by requiring States to document efforts to comply with
the ICWA’s preferences. The panel’s majority opinion
also cites three Supreme Court decisions, none of which
supports its holding regarding the creation and
maintenance of records.29 The statute at issue in Condon
25

Id. at 932, 117 S. Ct. 2365.

26

Id.

27

Brackeen, ––– F.3d at ––––, 2019 WL 3759491, at *14.

28

25 U.S.C. § 1915(e).

29

Brackeen, ––– F.3d at ––––, 2019 WL 3759491, at *14 (citing Reno
v. Condon, 528 U.S. 141, 151, 120 S. Ct. 666, 145 L. Ed. 2d 587 (2000);

491a
prohibited States from disclosing or selling personal
information they obtained from drivers in the course of
licensing drivers and vehicles, unless the driver
consented to the disclosure or sale of that information.30
The Court’s decision in Condon focused on that
prohibition rather than the statute’s additional
requirement that certain information be disclosed to
carry out the purposes of federal statutes including the
Clean Air Act and the Anti Car Theft Act of 1992.31 The
Baker decision did not concern a requirement that
States create and maintain records.32 The federal statute
at issue in Baker allowed a tax exemption for registered,
but not bearer, bonds, and the statute “cover[ed] not
only state bonds but also bonds issued by the United
States and private corporations.”33 As already discussed
above, the Printz decision expressly left open the
question of whether federal statutes requiring States to
provide information was constitutional,34 but the
rationale of Printz compels the conclusion that some of
the ICWA’s commandments result in a commandeering
of state officers and agents.
I agree with the panel’s majority opinion that in
some respects, the ICWA “merely require[s] states to
Printz, 521 U.S. at 918, 117 S. Ct. 2365; South Carolina v. Baker,
485 U.S. 505, 514, 108 S. Ct. 1355, 99 L. Ed. 2d 592 (1988)).
30

Condon, 528 U.S. at 143-44, 120 S. Ct. 666 (citing the Driver’s
Privacy Protection Act of 1994, 18 U.S.C. §§ 2721-2725).
31

Id. at 145, 148-51, 120 S. Ct. 666.

32

See Baker, 485 U.S. at 508-10, 108 S. Ct. 1355.

33

Id. at 510, 108 S. Ct. 1355.

34

Printz, 521 U.S. at 918, 117 S. Ct. 2365.

492a
‘take administrative ... action to comply with federal
standards regulating’ child custody proceedings
involving Indian children, which is permissible under the
Tenth Amendment.”35 Unlike the congressional
enactment at issue in Murphy, the ICWA does “confer
... federal rights on private actors interested in”36 foster
care placement, the termination of parental rights to an
Indian child, and adoption of Indian children. States
cannot override or ignore those private actors’ federal
rights by failing to give notice to interested or affected
parties or by failing to follow the placement preferences
expressed in the ICWA. If a State desires to place an
Indian child with an individual or individuals other than
the child’s birth parents, the State must respect the
federal rights of those upon whom the ICWA confers an
interest in the placement of the Indian child or Indian
children more generally. But 25 U.S.C. § 1912(d) (to the
extent it concerns foster care placement), § 1912(e),
§ 1915(e), and 25 C.F.R. § 23.141, require more than the
accommodation of private actors’ federal rights
regarding the placement of Indian children. Those
statutes and regulations commandeer state officers or
agents by requiring them “to provide remedial services
and rehabilitative programs designed to prevent the
breakup of the Indian family” and to demonstrate that
such “efforts have proved unsuccessful”;37 to present
“qualified expert witnesses” to demonstrate “that the
35

Brackeen, ––– F.3d at ––––, 2019 WL 3759491, at *14 (quoting
Baker, 485 U.S. at 515, 108 S. Ct. 1355).
36

Murphy v. Nat’l Collegiate Athletic Ass’n, ––– U.S. ––––, 138 S.
Ct. 1461, 1467, 200 L. Ed. 2d 854 (2018).
37

25 U.S.C. § 1912(d).

493a
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child”;38 and to create and
maintain records of every placement of an Indian child
as well as records “evidencing the efforts to comply with
the order of preference specified in this section.”39
That these statutes and regulations “serve[ ] very
important purposes” and that they are “most efficiently
administered” at the state level is of no moment in a
commandeering analysis.40 As Justice O-Connor, writing
for the Court in New York v. United States, so eloquently
expressed, “the Constitution protects us from our own
best intentions: It divides power among sovereigns and
among branches of government precisely so that we may
resist the temptation to concentrate power in one
location as an expedient solution to the crisis of the
day.”41

38

Id. § 1912(e).

39

Id. § 1915(e).

40

Printz v. United States, 521 U.S. 898, 931-32, 117 S. Ct. 2365, 138
L. Ed. 2d 914 (1997).
41

505 U.S. 144, 187, 112 S. Ct. 2408, 120 L. Ed. 2d 120 (1992).

494a
Appendix C
United States District Court, N.D. Texas,
Fort Worth Division.
CHAD BRACKEEN, et al., Plaintiffs,
v.
RYAN ZINKE, et al., Defendants,
CHEROKEE NATION, et al., Intervenors-Defendants.
Civil Action No. 4:17-cv-00868-O
Signed 10/04/2018
ORDER
Reed O’Connor, UNITED STATES DISTRICT
JUDGE
This case arises because three children, in need of
foster and adoptive placement, fortunately found loving
adoptive parents who seek to provide for them. Because
of certain provisions of a federal law, however, these
three children have been threatened with removal from,
in some cases, the only family they know, to be placed in
another state with strangers. Indeed, their removals are
opposed by the children’s guardians or biological
parent(s), and in one instance a child was removed and
placed in the custody of a relative who had previously
been declared unfit to serve as a foster parent. As a
result, Plaintiffs seek to declare that federal law, known

495a
as the Indian Child Welfare Act (the “ICWA”),
unconstitutional.
In this case, the State Plaintiffs have filed a Motion
for Summary Judgment (ECF No. 72), on April 26, 2018,
and the Individual Plaintiffs filed a Motion for Summary
Judgment (ECF No. 79), on the same day. Plaintiffs seek
judgment as a matter of law on all of their claims. The
parties appeared at a hearing on these motions and
presented oral arguments on August 1, 2018. See Hr’g
Tr., ECF No. 163. For the following reasons, the Court
finds Plaintiffs’ motions for summary judgment should
be and are hereby GRANTED in part and DENIED
in part.
I. BACKGROUND
First, the Court identifies the parties, next the legal
backdrop of this dispute, and then the parties’ claims,
drawing in large part on those facts set out in the Order
denying Defendants’ motions to dismiss. See July 24,
2018 Order, ECF No. 155. Following these sections, this
order will analyze the claims.
Plaintiffs are comprised of three states—Texas,
Louisiana, and Indiana, (collectively, the “State
Plaintiffs”), and seven individual Plaintiffs—Chad
Everett and Jennifer Kay Brackeen (the “Brackeens”),
Nick and Heather Libretti (the “Librettis”), Altagracia
Socorro Hernandez (“Ms. Hernandez”), and Jason and
Danielle Clifford (the “Cliffords”) (collectively, the
“Individual Plaintiffs”) (together with the State
Plaintiffs, “Plaintiffs”). State Pls.’ Br. Supp. Mot. Summ.
J. 1–2, ECF No. 74 [hereinafter “State Pls.’ Br.”].
Defendants are the United States of America; the
United States Department of the Interior (the

496a
“Interior”) and its Secretary Ryan Zinke (“Zinke”) in his
official capacity; the Bureau of Indian Affairs (the
“BIA”) and its Director Bryan Rice (“Rice”) in his
official capacity; the BIA Principal Assistant Secretary
for Indian Affairs John Tahsuda III (“Tahsuda”)1 in his
official capacity; the Department of Health and Human
Services (“HHS”) and its Secretary Alex M. Azar II
(“Azar”) (collectively the “Federal Defendants”). Id.
Shortly after this case was filed, the Cherokee Nation,
Oneida Nation, Quinalt Indian Nation, and Morengo
Band of Mission Indians (collectively, the “Tribal
Defendants”) filed an unopposed motion to intervene,
which the Court granted. See Trib. Defs.’ Mot.
Intervene, ECF No. 42; Mar. 28, 2018 Order, ECF No.
45.
Plaintiffs seek to declare unconstitutional certain
provisions of the ICWA and its accompanying
regulations (codified at 25 C.F.R. part 23), known as the
Indian Child Welfare Act Proceedings (the “Final
Rule”), as well as certain provisions of the Social
Security Act (the “SSA”) that predicate federal funding
for portions of state child-welfare payments on
compliance with the ICWA. Plaintiffs argue that the
1

Initially Plaintiffs sued Michael Black in his official capacity as
Acting Assistant Secretary of Indian Affairs. See Orig. Compl. ¶ 17,
ECF No. 1. On September 13, 2017, Secretary of the Interior Ryan
Zinke appointed Tahsuda as the Department of Interior’s Principal
Assistant Secretary of Indian Affairs. See Press Release, Secretary
Zinke Names John Tahsuda III the Principal Deputy Assistant
Secretary for Indian Affairs, Dep’t of the Int., (Sept. 13, 2017),
https://www.doi.gov/pressreleases/secretary-zinke-names-john-tah
suda-iii-principal-deputy-assistant-secretary-indian. Accordingly,
Tahsuda has been substituted as a Defendant.

497a
ICWA and the Final Rule implement a system that
mandates racial and ethnic preferences, in direct
violation of state and federal law. Am. Comp. ¶ 193, ECF
No. 35; 42 U.S.C. § 1996(b); Tex. Fam. Code §§ 162.015,
264.1085; La. Const. art. 1, § 3. Plaintiffs ask that the
Final Rule be declared invalid and set aside as a violation
of substantive due process and as not in accordance with
law (Counts One and Five). Am. Compl. ¶¶ 265, 349,
ECF No. 35; 5 U.S.C. § 705(2)(A). Plaintiffs also ask that
the ICWA, specifically sections 1901–23 and 1951–52, be
declared unconstitutional under Article One and the
Tenth Amendment of the United States Constitution
because these provisions violate the Commerce Clause,
intrude into state domestic relations, and violate the
anti-commandeering principle (Counts Two and Three).
Am. Compl. ¶¶ 281, 323, ECF No. 35. Finally, Plaintiffs
ask that the ICWA sections 1915(a)–(b) be declared
unconstitutional in violation of the equal protection
guarantee of the Fifth Amendment to the United States
Constitution and Individual Plaintiffs alone ask the same
sections be declared unconstitutional in violation of
substantive due process. (Counts Four and Six). Id.
¶¶ 338, 367. State Plaintiffs alone bring the final count,
seeking a declaration that ICWA section 1915(c) and
Final Rule section 23.130(b) violate the non-delegation
doctrine (Count Seven). Am. Compl. ¶ 376, ECF No. 35.
A. The ICWA and the SSA
Congress passed the ICWA in 1978 in response to
rising concerns over “abusive child welfare practices
that resulted in the separation of large numbers of
Indian children from their families and tribes through
adoption or foster care placement, usually in non-Indian

498a
homes.” Miss. Band of Choctaw Indians v. Holyfield,
490 U.S. 30, 32, 109 S. Ct. 1597, 104 L. Ed. 2d 29 (1989).
“Congress found that ‘an alarmingly high percentage of
Indian families [were being] broken up by the removal,
often unwarranted, of their children from them by
nontribal public and private agencies.’” Adoptive Couple
v. Baby Girl, 570 U.S. 637, 133 S. Ct. 2552, 2557, 186 L.
Ed. 2d 729 (2013) (quoting 25 U.S.C. § 1901(4)).
Recognizing “that there is no resource that is more vital
to the continued existence and integrity of Indian tribes
than their children,” Congress created a framework to
govern the adoption of Indian children.2 See 25 U.S.C.
§ 1901, et seq. This framework establishes: (1) placement
preferences in adoptions of Indian children; (2) good
cause to depart from those placement preferences; (3)
standards and responsibilities for state courts and their
agents; and (4) consequences flowing from
noncompliance with the statutory requirements. See id.
The ICWA established “minimum Federal
standards for the removal of Indian children from their
families and the placement of such children in foster or
adoptive homes.” 25 U.S.C. § 1902. The ICWA mandates
placement preferences in foster care, preadoptive, and
adoptive proceedings involving Indian children. Id.
§ 1915. It requires that “in any adoptive placement of an
2

See also Br. of Amicus Curiae 123 Federally Recognized Indian
Tribes, et al. in Opposition to Plaintiffs’ Motions for Summary
Judgment 1, ECF No. 138. (“Congress enacted the Indian Child
Welfares Act of 1978 (“ICWA” or “the Act”), 25 U.S.C. 1901 et seq.,
in response to a nationwide crisis—namely, the widespread and
wholesale displacement of Indian children from their families by
state child welfare agencies at rates far higher than those of nonIndian families.”).

499a
Indian child under State law, a preference shall be given,
in the absence of good cause to the contrary, to a place
with: (1) a member of the child’s extended family; (2)
other members of the Indian child’s tribe; or (3) other
Indian families.” Id. § 1915(a). Similar requirements are
set for foster care or preadoptive placements. Id.
§ 1915(b). If the Indian child’s tribal court should
establish a different order of the preferences than that
set by Congress, the state court or agency “shall follow
such order so long as the placement is the least
restrictive setting appropriate to the particular needs of
the child.” Id. § 1915(c).
Absent good cause, the state court shall transfer
proceedings concerning an Indian child to the Indian
child’s tribal court. 25 U.S.C. § 1911(b). In any state
court proceeding for the “foster care placement of, or
termination of parental rights to, an Indian child, the
Indian custodian of the child and the Indian child’s tribe
shall have a right to intervene at any point in the
proceeding.” Id. § 1911(c). The ICWA prohibits the
termination of parental rights for an Indian child in the
absence of “evidence beyond a reasonable doubt,
including testimony of qualified expert witnesses, that
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child.” Id. § 1912(f).
State agencies and courts must notify potential
intervenors and the Director of the BIA of an Indian
child matter. 25 U.S.C. § 1912. In any involuntary child
custody proceeding, the ICWA commands state
agencies and courts—when seeking foster care
placement of or termination of parental rights to an

500a
Indian child—to notify the parents or Indian custodian
and the Indian child’s tribe of the pending proceedings
and of their right to intervene. 25 U.S.C. § 1912(a).
Copies of these notices must be sent to the Secretary of
the Interior and the BIA. No foster care placement or
termination of parental rights proceeding may be held
until at least ten days after receipt of such a notice by
the parent or Indian custodian and tribe or the Secretary
of the Interior. Id. The ICWA also grants the Indian
custodian or tribe up to twenty additional days to
prepare for such proceedings. Id.
The ICWA dictates that an Indian parent or
guardian may not give valid consent to termination of
parental rights before ten days after the birth of the
Indian child. 25 U.S.C. § 1913(a). Before parental rights
are terminated “any parent or Indian custodian may
withdraw consent to a foster care placement under State
law at any time.” Id. § 1913(b). In any voluntary
proceeding for termination of parental rights or adoptive
placement of an Indian child, the biological parents or
the Indian tribe may withdraw consent for any reason
prior to the entry of a final decree, and the child shall be
returned. Id. § 1913(c). Finally, the ICWA permits the
parent of an Indian child to withdraw consent to a final
decree of adoption on the grounds that the consent was
obtained through fraud or duress for up to two years
after the final decree. Id. § 1913(d); Ind. Pls.’ Br. Supp.
Mot. Summ. J. 20, ECF No. 80 [hereinafter “Ind. Pls.’
Br.”].
The ICWA places recordkeeping duties on state
agencies and courts—to demonstrate their compliance
with the statute. 25 U.S.C. § 1915(e). Additionally, state

501a
courts entering final decrees must provide the Secretary
of the Interior with a copy of the decree or order, along
with the name and tribal affiliation of the child, names of
the biological parents, names of the adoptive parents,
and the identity of any agency having files or
information relating to the adoption. Id. § 1951.
If the state court or prospective guardian fails to
comply with the ICWA, the final child custody orders or
placements may be overturned, whether on direct
appeal or by another court of competent jurisdiction. 25
U.S.C. § 1914.3 To ensure state agencies and courts
comply with the ICWA’s mandates, it enables any
Indian child who is the subject of any action under the
ICWA, any parent or Indian custodian from whose
custody the child was removed, and the Indian child’s
tribe, to petition any court of competent jurisdiction to
invalidate a state court’s decision for failure to comply
with the ICWA sections 1911, 1912, and 1913. Id. Section
1914 has also been applied to allow collateral attacks of
adoptions after the close of the relevant window under
state law. See id.; Ind. Pls.’ Br. 6, ECF No. 80; see e.g.,
Belinda K. v. Baldovinos, No. 10-cv-2507-LHK, 2012
WL 13571, at *4 (N.D. Cal. Jan. 4, 2012).
Congress has also tied child welfare funding to
compliance with the ICWA. The SSA requires states
who receive child welfare funding through Title IV-B,
3

While a “court of competent jurisdiction” is not defined in the
ICWA or the Final Rule, state appellate courts and federal district
courts have heard challenges to adoption proceedings under the
ICWA. See e.g., Oglala Sioux Tribe v. Van Hunnik, 993 F.Supp.2d
1017, 1022 (D.S.D. 2014); Doe v. Mann, 285 F.Supp.2d 1229, 1231
(N.D. Cal. 2003).

502a
Part 1 of the SSA to file annual reports, including a
description of their compliance with the ICWA. Social
Security Amendments Act of 1994, Pub. L. No. 103-432,
§ 204, 108 Stat. 4398 (1994); 42 U.S.C. § 622(a). Title IVB funding is partially contingent on how well the states
demonstrate their compliance with the ICWA. Part ‘b’
requires that a state’s plan must also “contain a
description, developed after consultation with tribal
organizations ... in the State, of the specific measures
taken by the State to comply with the [ICWA].” 42
U.S.C. § 622(b).
Congress expanded the requirement for states to
comply with the ICWA to receive SSA funding in 1999
and 2008 when it amended Title IV-E to require states
to certify ICWA compliance to receive foster care and
adoption services funding. Foster Care Independence
Act of 1999, Pub. L. No. 106-69, § 101, 113 Stat. 1822
(1999); Fostering Connections to Success and Increasing
Adoptions Act of 2008, Pub. L. No. 110-351, § 301, 122
Stat. 3949 (2008). Finally, HHS regulations state that
the HHS Administration for Children and Families
(“ACF”) “will determine a title IV–E agency’s
substantial conformity with title IV–B and title IV–E
plan requirements” based on “criteria related to
outcomes.” 45 C.F.R. § 1355.34(a). Part ‘b’ of the same
section includes compliance with the ICWA. Id.
§ 1355.34(b).
In fiscal year 2018, Congress allocated to Texas
approximately $410 million in federal funding for Title
IV-B and Title IV-E programs, Louisiana received
approximately $64 million, and Indiana received
approximately $189 million. Am. Compl. ¶¶ 76–78, ECF

503a
No. 35. Plaintiffs argue that HHS and Secretary Azar
have the authority to administer funding under Title IVB and Title IV-E and are vested with discretion to
approve or deny a state’s compliance with the
requirements of 42 U.S.C. §§ 622, 677. Therefore,
Plaintiffs claim that funding under Title IV-B and IV-E
is dependent on compliance with the ICWA. Am. Compl.
¶ 80, ECF No. 35.
B. The 1979 Guidelines and Final Rule
In 1979, before passage of the Final Rule, the BIA
promulgated the Guidelines for State Courts—the
Indian Child Custody Proceedings (the “1979
Guidelines”). 44 Fed. Reg. 67,584 (Nov. 26, 1979). The
BIA intended these guidelines to assist in the
implementation of the ICWA but they were “not
intended to have binding legislative effect.” Id. The 1979
Guidelines left the “primary responsibility” for
interpreting the ICWA “with the courts that decide
Indian child custody cases.” Id. The 1979 Guidelines also
emphasized that “the legislative history of the [ICWA]
states explicitly that the use of the term ‘good cause’ was
designed to provide state courts with flexibility in
determining the disposition of a placement proceeding
involving an Indian child.” Id. As state courts applied the
ICWA, some held that the ‘good cause’ exception to the
ICWA placement preferences required a consideration
of a child’s best interest, including any bond or
attachment the child formed. Ind. Pls.’ Br. 7, ECF No.
80; see e.g., In re Interest of Bird Head, 213 Neb. 741, 331
N.W.2d 785, 791 (1983); In re Appeal in Maricopa Cnty.,
Juvenile Action No. A-25525, 136 Ariz. 528, 667 P.2d 228,
234 (Ariz. Ct. App. 1983). Other state courts limited the

504a
ICWA’s application to situations where the child had
some significant political or cultural connection to the
tribe. Ind. Pls.’ Br. 7, ECF No. 80; see e.g., In re Interest
of S.A.M., 703 S.W.2d 603, 608–09 (Mo. Ct. App. 1986);
Claymore v. Serr, 405 N.W.2d 650, 653–54 (S.D. 1987); In
re Adoption of T.R.M., 525 N.E.2d 298, 303 (Ind. 1988);
Hampton v. J.A.L., 658 So. 2d 331, 335 (La. Ct. App.
1995).
In June 2016, the BIA promulgated the Final Rule,
which purported to “clarify the minimum Federal
standards governing implementation of the [ICWA]”
and to ensure that it “is applied in all States consistent
with the Act’s express language.” 25 C.F.R. § 23.101.
The regulations declared that while the BIA “initially
hoped that binding regulations would not be necessary
to carry out [the ICWA], a third of a century of
experience has confirmed the need for more uniformity
in the interpretation and application of this important
Federal law.” 81 Fed. Reg. 38,782 (June 14, 2016).
Plaintiffs contend the main departure from the
previous decades of practice under the ICWA was the
Final Rule’s definition of the ‘good cause’ exception to
the preference placements and the evidentiary standard
required to show good cause. Am. Compl. ¶ 116, ECF
No. 35; Ind. Pls.’ Br. 60–63, ECF No. 80. The Final Rule
noted that “State courts ... differ as to what constitutes
‘good cause’ for departing from ICWA’s placement
preferences.” 81 Fed. Reg. at 38,782. In response, the
Final Rule mandates that “[t]he party urging that
ICWA preferences not be followed bears the burden of
proving by clear and convincing evidence the existence
of good cause” to deviate from such a placement. 81 Fed.

505a
Reg. at 38,838; see also 25 C.F.R. § 23.132(b). The Final
Rule further provides that state courts “may not
consider factors such as the participation of the parents
or Indian child in Tribal cultural, social, religious, or
political activities, the relationship between the Indian
child and his or her parents, whether the parent ever had
custody of the child, or the Indian child’s blood
quantum.” 81 Fed. Reg. at 38,868 (codified at 25 C.F.R.
§ 23.103(c)).
Plaintiffs contrast the text of the 1979 Guidelines
where “the use of the term ‘good cause’ was designed to
provide state courts with flexibility” with the Final
Rule, which now claims that “Congress intended the
good cause exception to be narrow and limited in scope.”
Compare 44 Fed. Reg. at 67,584 (Nov. 26, 1979), with 81
Fed. Reg. at 38,839 (June 14, 2016). Accordingly, the
Final Rule sets forth “five factors upon which courts
may base a determination of good cause to deviate from
the placement preferences,” and further “makes clear
that a court may not depart from the preferences based
on the socioeconomic status of any placement relative to
another placement or based on the ordinary bonding or
attachment that results from time spent in a nonpreferred placement that was made in violation of
ICWA.” 81 Fed. Reg. at 38,839; see also 25 C.F.R.
§ 23.132(c)–(e); Ind. Pls.’ Br. 7–9, ECF No. 80.
Beyond limiting what state courts may consider in
determining “good cause,” the Final Rule places more
responsibilities on states to determine if the child is an
Indian child. 25 C.F.R. § 23.107(a). These inquiries
“should be on the record,” and “state courts must
instruct the parties to inform the court if they

506a
subsequently receive information that provides reason
to know the child is an Indian child.” Id.; 25 C.F.R.
§ 23.107(b). Whenever a state court enters a final
adoption decree or an order in an Indian child placement,
the Final Rule requires the state court or agency to
provide a copy of the decree or order to the BIA. 25
C.F.R. § 23.140. The Final Rule also requires states to
“maintain a record of every voluntary or involuntary
foster care, preadoptive, and adoptive placement of an
Indian child and make the record available within 14
days of a request by an Indian child’s Tribe or the
Secretary [of the Interior].” 25 C.F.R. § 23.141.
In an involuntary foster care or termination of
parental rights proceeding, the Final Rule requires state
courts to ensure and document that the state agency has
used “active efforts” to prevent the breakup of the
Indian family. 25 C.F.R. § 23.120. The Final Rule defines
“active efforts” to include “assisting the parent or
parents or Indian custodian through the steps of a case
plan and with accessing or developing the resources
necessary to satisfy the case plan.” 25 C.F.R. § 23.2.
When determining if the child is an Indian child, only
the Indian tribe of which the child is believed to be a
member may determine whether the child is a member
of the tribe or eligible for membership. 25 C.F.R.
§ 23.108(a). “The State court may not substitute its own
determination regarding a child’s membership in a
Tribe, a child’s eligibility for membership in a Tribe, or a
parent’s membership in a Tribe.” Id. § 23.108(b).
When an Indian child is a member or eligible for
membership in only one tribe, that tribe must be
designated by the state court as the Indian child’s tribe.

507a
But when the child meets the definition of “Indian child”
for more than one tribe, then the Final Rule instructs
state agencies and courts to defer to “the Tribe in which
the Indian child is already a member, unless otherwise
agreed to by the Tribes,” or allow “the Tribes to
determine which should be designated as the Indian
child’s Tribe.” 25 C.F.R. §§ 23.109(b)–(c). Only when the
tribes disagree about the child’s membership may state
courts independently designate the tribe to which the
child belongs, and the Final Rule provides criteria the
courts must use in making that designation. Id.
§ 23.109(c)(2).
The Final Rule instructs state courts to dismiss a
voluntary or involuntary child custody proceeding when
the Indian child’s residence or domicile is on a
reservation where the tribe exercises exclusive
jurisdiction over child custody proceedings. 25 C.F.R.
§ 23.110(a). The Final Rule requires state courts to
terminate child custody proceedings if any party or the
state court has reason to believe that the Indian child
was improperly removed from the custody of his parent
or Indian custodian. 25 C.F.R. § 23.114.
C. The Adoption Proceedings
1. The Brackeens and A.L.M.
The Brackeens wished to adopt A.L.M, who was
born in Arizona to an unmarried couple, M.M. and J.J.
Ind. Pls.’ App. Supp. Mot. Summ. J. 60, ECF No. 81
[hereinafter “Ind. Pls.’ App.”]. A.L.M. is an Indian child
under the ICWA and the Final Rule because he is
eligible for membership in an Indian tribe—his biological
mother is an enrolled member of the Navajo Nation and
his biological father is an enrolled member of the

508a
Cherokee Nation. Id.; see 25 C.F.R. § 23.2. A few days
after A.L.M. was born, his biological mother brought
him to Texas to live with his paternal grandmother. Ind.
Pls.’ App. 61, ECF No. 81. When he was ten months old,
Child Protective Services (“CPS”), a division of the
Texas Department of Family and Protective Services
(“DFPS”), removed A.L.M. from his grandmother and
placed him in foster care with the Brackeens. Id. at 61.
Pursuant to the ICWA and the Final Rule, 25 C.F.R.
§ 23.11, the Cherokee Nation and the Navajo Nation
were notified of A.L.M.’s placement with the Brackeens.
Id. at 61–62. Because DFPS identified no ICWApreferred foster placement for A.L.M., he remained with
the Brackeens. Id. A.L.M. lived with the Brackeens for
more than sixteen months before, with the support of his
biological parents and paternal grandmother, the
Brackeens sought to adopt him. Id.
In May 2017, a Texas state court terminated the
parental rights of A.L.M.’s biological parents, making
him eligible for adoption under Texas law. Id. at 61.
Shortly thereafter, a year after the Brackeens took
custody of A.L.M., the Navajo nation notified the state
court that it had located a potential alternative
placement for A.L.M. with non-relatives in New Mexico.
Id. The Brackeens note that this placement would have
moved A.L.M away from both his biological parents and
the only home he has ever known. Id. at 61-62.
In July 2017, the Brackeens filed an original petition
seeking to adopt A.L.M. Id. at 62. The Cherokee and
Navajo Nations were notified of the adoption proceeding
in accordance with the ICWA and the Final Rule. Id.; see
25 U.S.C. § 1912; see 25 C.F.R. § 23.11. No one

509a
intervened in the Texas adoption proceeding or
otherwise formally sought to adopt A.L.M. Id. at 63. On
August 1, 2017, a Texas family court held a hearing
regarding the Brackeens’ petition for adoption. Id. at 62.
The Navajo Nation was designated as A.L.M.’s tribe,
but this “determination of [A.L.M.’s] Tribe for purposes
of ICWA and [the Final Rule] [did] not constitute a
determination for any other purpose.” 25 C.F.R.
§ 23.109(c)(3).
Under the ICWA and the Final Rule placement
preferences, absent good cause, an Indian child should
be placed with a member of the child’s extended family,
a member of the child’s Indian tribe, or another Indian
family, in that order. See 25 U.S.C. § 1915(a). The
Brackeens argued in state court that the ICWA’s
placement preferences should not apply because they
were the only party formally seeking to adopt A.L.M.,
and that good cause existed to depart from the
preferences. Ind. Pls.’ App. 63, ECF No. 81. The Final
Rule places the burden on the Brackeens, the party
seeking adoption, to prove “by clear and convincing
evidence that there was ‘good cause’” to allow them, a
non-Indian couple, to adopt A.L.M. 25 C.F.R. § 23.132(b).
The Brackeens submitted testimony by A.L.M.’s
biological parents, his court appointed guardian, and an
expert in psychology to show good cause. Ind. Pls.’ App.
62, ECF No. 81. However, Texas DFPS pointed to the
Final Rule’s heightened evidentiary requirements and
argued that the Brackeens did not provide clear and
convincing evidence of good cause to justify a departure
from the placement preferences. Id. at 61–62.

510a
In January 2018, the Brackeens successfully
petitioned to adopt A.L.M., but under the ICWA and the
Final Rule, the Brackeens’ adoption of A.L.M. is open to
collateral attack for two years. Id. at 64; see 25 U.S.C
§ 1914; Ind. Pls.’ Br. at 6, ECF No. 80; see e.g., Belinda
K. v. Baldovinos, No. 10-cv-2507-LHK, 2012 WL 13571,
at *4 (N.D. Cal. Jan. 4, 2012). Plaintiffs explain that the
Brackeens intend to continue to provide foster care for,
and possibly adopt, additional children in need. Ind. Pls.’
App. 64, ECF No. 81. But they are reluctant, after this
experience, to provide foster care for other Indian
children in the future. Id. Plaintiffs argue that the ICWA
and the Final Rule therefore interfere with the
Brackeens’ intention and ability to provide a home to
additional children. Am. Compl. ¶ 154, ECF No. 35.
Additionally, Plaintiffs argue that this legal regime
harms Texas’s interests by limiting the supply of
available, qualified homes necessary to help foster-care
children in general and Indian children in particular. Id.
2. The Librettis and Baby O.
The Librettis are a married couple living in Sparks,
Nevada. See Ind. Pls.’ App. 66, ECF No. 81. They sought
to adopt Baby O. when she was born in March 2016. Id.
at 67. Baby O.’s biological mother, Ms. Hernandez, felt
that she would be unable to care for Baby O. and wished
to place her for adoption at her birth. Id. at 72. Ms.
Hernandez has continued to be a part of Baby O.’s life
and she and the Librettis visit each other regularly. Id.
at 73. Baby O.’s biological father, E.R.G., descends from
members of the Ysleta del sur Pueblo Tribe (the “Pueblo
Tribe”), located in El Paso, Texas. Id. at 69. At the time

511a
of Baby O.’s birth, E.R.G. was not a registered member
of the Pueblo Tribe. Id. at 73.
The Pueblo Tribe intervened in the Nevada custody
proceedings in an effort to remove Baby O. from the
Librettis. Id. at 69. Once the Librettis joined the
challenge to the constitutionality of the ICWA and the
Final Rule, the Pueblo Tribe indicated its willingness to
discuss settlement. Id. at 69. The Librettis have agreed
to a settlement with the tribe that would permit them to
petition for adoption of Baby O. Id. at 70. But Plaintiffs
point out that any settlement would still be subject to
collateral attack under the ICWA for two years. Am.
Compl. ¶ 168, ECF No. 35. The Librettis intend to
petition to adopt Baby O. as soon as they are able and
are the only people who have indicated an intent to adopt
her. Ind. Pls.’ App. at 69–70, ECF No. 81.
Similar to the Brackeens, the Librettis intend to
provide foster care for and possibly adopt additional
children in need. Id. at 70. Due to their experiences with
the ICWA, the Librettis are “reluctant to provide a
foster home for other Indian children in the future.” Id.
3. The Cliffords and Child P.
The Cliffords live in Minnesota and seek to adopt
Child P. See Ind. Pls.’ App. 2, ECF No. 81. Child P.’s
maternal grandmother is a registered member of the
White Earth Band of Ojibwe Tribe (the “White Earth
Band”). Id. at 4. Child P. is a member of the White Earth
Band for the purposes of the ICWA only. Id. The
Minnesota state court considered itself bound by the
White Earth Band’s pronouncement and concluded that
the ICWA must apply to all custody determinations
concerning Child P. Id. at 4. However, because the

512a
ICWA placement preferences apply, county officials
removed Child P. from the Cliffords. Id. at 5–6. Child P.
was placed in the care of her maternal grandmother—
whose foster licensed had been revoked—in January
2018. Id. at 3–6.
Child P.’s guardian ad litem supports the Cliffords’
efforts to adopt her and agrees that the adoption is in
Child P’s best interest. Id. at 5. However, due to the
application of the ICWA, the Cliffords and Child P.
remain separated and the Cliffords face heightened legal
barriers to adopt Child P. Id. at 53. If the Cliffords are
successful in petitioning for adoption, that adoption may
be collaterally attacked for two years under the ICWA.
25 U.S.C. § 1915(a).
D. State Plaintiffs
Texas, Louisiana, and Indiana bring this suit in their
capacities as sovereign states. See Am. Compl. ¶ 178,
ECF No. 35. They claim that the ICWA and the Final
Rule harm state agencies charged with protecting child
welfare by usurping their lawful authority of the
regulation of child custody proceedings and
management of child welfare services. Id. Additionally,
State Plaintiffs contend the ICWA and the Final Rule
jeopardize millions of dollars in federal funding. Id. State
Plaintiffs each have at least one Indian tribe living
within their borders and have regular dealings with
Indian child adoptions and the ICWA.4 Id.

4

Three federally recognized tribes reside in Texas—Yselta del Sur
Pueblo in El Paso, Texas; the Kickapoo Tribe in Eagle Pass, Texas;
and the Alabama-Coushatta Tribe near Livingston, Texas. Both the
Kickapoo Tribe and the Alabama-Coushatta Tribe have

513a
Plaintiffs argue that the ICWA and the Final Rule
place significant responsibilities and costs on state
agencies and courts to carry out federal Executive
Branch directives. Id. at ¶ 187. Texas DFPS, Louisiana
Department of Child and Family Services (“DCFS”),
and the Indiana Department of Child Services (“DCS”)
each handle Indian child cases. See State Pls.’ App at 10,
370, 394, ECF No. 73.
The State Plaintiffs require their state agencies and
courts to act in the best interest of the child in foster
care, preadoptive, and adoptive proceedings. See id. at
37, 40, 44, 46, 64, 382. But the State Plaintiffs argue that
the ICWA and Final Rule require these courts and
agencies to apply the mandated placement preferences,
regardless of the child’s best interest, if the child at issue
is an “Indian child.” Am. Compl. ¶¶ 194–95, ECF No. 35.
Additionally, State Plaintiffs argue that the ICWA’s
requirement that state courts submit to mandates from
an Indian child’s tribe violates state sovereignty because
the Indian tribe is not an equal sovereign deserving full
faith and credit. Id. ¶ 196; 25 U.S.C. § 1915(c).

reservations in Texas. See State Pls’ App at 481, ECF No. 73. Four
tribes reside in Louisiana—the Chitimacha Tribe in Charenton,
Louisiana; Coushatta Tribe in Elton, Louisiana; the Tunica-Biloxi
Tribe in Marksville, Louisiana; and the Jena Band of Choctaw
Indians in Jena, Louisiana. Am. Compl. ¶ 180, ECF No. 35. One
federally recognized tribe resides in Indiana—the Pokagon Band of
Potawatomi Indians. Id. ¶ 181. For example, as of December 2017,
there were thirty-nine children in the care of Texas DFPS who were
verified to be enrolled or eligible for membership in a federally
recognized tribe, many of them living in Texas DFPS homes. Id. ¶
189.

514a
In every child custody case, the ICWA and Final
Rule require the State Plaintiffs to undertake additional
responsibilities, inquiries, and costs. As an example of
how the ICWA and the Final Rule affect state
administrative and judicial procedures, State Plaintiffs
submit the Texas CPS Handbook (the “Texas
Handbook”). Ind. Pls.’ App. 16 (Texas Handbook) § 1225,
ECF No. 73 [hereinafter “Texas Handbook”]. The Texas
Handbook contains Texas DFPS’s policies and
procedures for compliance with the ICWA and the Final
Rule. Id. at 9–29. First, these standards require that, in
every case, CPS workers determine if the child or child’s
family has Native American ancestry or heritage. Id. at
12. The Texas Handbook provides guidance on how to
ascertain if the ICWA and the Final Rule apply, how to
comply with it, and warns that failure to comply could
result in the final adoption order being overturned. Id.
at 9–29. The Texas Handbook also states that if an
Indian child is taken into DFPS custody, “almost every
aspect of the social work and legal case is affected.”
Texas Handbook § 5844. If the ICWA applies, the legal
burden of proof for removal, obtaining a final order
terminating parental rights, and restricting a parent’s
custody rights is higher. Id. Texas DFPS must serve the
child’s parent, tribe, Indian custodian, and the BIA with
a specific notice regarding the ICWA rights, and DFPS
and its caseworkers “must make active efforts to reunify
the child and biological Indian family.” Id. Finally, the
child must be placed according to the ICWA statutory
preferences; expert testimony on tribal child and family
practices may be necessary; and a valid relinquishment
of parental rights requires a parent to appear in court
and a specific statutory procedure is applied. Id.

515a
Indiana and Louisiana have similar requirements in
place to assure that their child welfare systems comply
with the ICWA and the Final Rule. See id. at 370–400.
Louisiana DCFS must maintain ongoing contact with
the Indian child’s tribe because each tribe may elect to
handle the ICWA differently. Am. Compl. ¶ 220, ECF
No. 35. They are also required to ensure that the state
agencies take “all reasonable steps” to verify the child’s
status. 25 C.F.R. § 23.124.
The ICWA and the Final Rule require state courts
to ask each participant, on the record, at the
commencement of child custody proceedings whether
the person knows or has reason to know whether the
child is an Indian child and directs the parties to inform
the court of any such information that arises later. 25
C.F.R. § 23.107(a). If the state court believes the child is
an Indian child, it must document and confirm that the
relevant state agency (1) used due diligence to identify
and work with all of the tribes that may be connected to
the child and (2) conducted a diligent search to find
suitable placements meeting the preference criteria for
Indian families. Id. §§ 23.107(b), 23.132(c)(5). The ICWA
and the Final Rule require the State Plaintiffs’ agencies
and courts to maintain indefinitely records of placements
involving Indian children and subject those records to
inspection by the Director of the BIA and the child’s
Indian tribe at any time. 25 U.S.C. §§ 1915(e), 1917; 25
C.F.R. §§ 23.140–41. State Plaintiffs claim this increases
costs for the agencies and courts who have to maintain
additional records not called for under state law and hire
or assign additional employees to maintain these records
indefinitely. Am. Compl. ¶ 225, ECF No. 35.

516a
The statutes also affect the State Plaintiffs’ rules of
civil procedure. The ICWA section 1911(c) and the Final
Rule dictate that the Indian child’s custodian and the
child’s tribe must be granted mandatory intervention.
Texas Rule of Civil Procedure 60 permits Texas courts
to strike the intervention of a party upon a showing of
sufficient cause by another party, but the ICWA
imposes a different legal standard of intervention to
child custody cases involving Indian children. Tex. R.
Civ. P. 60; 25 U.S.C. § 1911(c) (“In any State court
proceeding ... the Indian child’s tribe shall have a right
to intervene at any point in the proceeding.”) (emphasis
added). In Louisiana, any person with a justiciable
interest in an action may intervene. La. Code Civ. Proc.
art. 1091. In Indiana, a person may intervene as of right
or permissively, similar to the Federal Rules of Civil
Procedure. Ind. R. Tr. Proc. 24. The ICWA, however,
eliminates these requirements and provides mandatory
intervention for the Indian child’s custodian and the
child’s tribe. 25 U.S.C. § 1911(c).
Finally, the ICWA and the Final Rule override the
State Plaintiffs’ laws with respect to voluntary consent
to relinquish parental rights. See 25 U.S.C. § 1913(a); 25
C.F.R. § 23.125(e). Texas law permits voluntary
relinquishment of parental rights forty-eight hours after
the birth of the child; Louisiana allows surrender prior
to or after birth of the child, and surrender of maternal
rights five days after the birth of the child, and Indiana
permits voluntary termination of parental rights after
birth of the child. Tex. Fam. Code § 161,103(a)(1); La.
Child Code art. 1130; Ind. Code § 31-35-1-6. The ICWA
and Final Rule prohibit any consent until ten days after
the birth. 25 U.S.C. § 1913(a); 25 C.F.R. § 23.125(e).

517a
The ICWA and the Final Rule also affect how long a
final adoption decree is subject to challenge. Under the
ICWA, state courts must vacate a final adoption decree
involving an Indian child, and return the child to the
biological parent, any time within two years if the parent
withdraws consent on the grounds that it was obtained
through fraud or duress. 25 U.S.C. § 1913(d); 25 C.F.R.
§ 23.136. This directly conflicts with Texas, Louisiana,
and Indiana state law, which provide that an adoption
decree is subject to direct or collateral attack for no more
than one year. Tex. Fam. Code § 162.012(a) (up to six
months); Goodson v. Castellanos, 214 S.W.3d 741, 748–
49 (Tex. App.—Austin 2007, pet. denied); La. Child.
Code art. 1263 (up to six months); Ind. Code § 31-19-142 (up to six months after entry of adoption decree; or up
to one year after adoptive parents obtain custody,
whichever is later). It also contradicts the Texas
common law principle, as well as Indiana statutory law,
which hold that the best interest of the child is served by
concluding child custody decisions so that these
decisions are not unduly delayed. In re M.S., 115 S.W.3d
534, 548 (Tex. 2003); Ind. Code § 31-19-14-2. The ICWA
however permits the invalidation, by any court of
competent jurisdiction, of a state court’s final child
custody order if it fails to comply with the ICWA. 25
U.S.C. § 1914; 25 C.F.R. § 23.137.5
Finally, the State Plaintiffs contend if they fail to
comply with the ICWA, they risk losing funding for child
welfare services under Title IV-B and Title IV-E of the
SSA. Am. Compl. ¶ 243, ECF No. 35; 42 U.S.C. §§ 622,
677. Defendants Zinke, Rice, Tahsuda, and Azar, and
5

See supra note 3.

518a
their respective federal departments, determine if the
State Plaintiffs are in compliance with the ICWA’s
statutory requirements, and in turn, whether they are
eligible for continued funding under Title IV-B and Title
IV-E funding.
Plaintiffs moved for summary judgment on all
counts, arguing there is no dispute of material fact and
only questions of law remain. See ECF Nos. 72, 79. The
motions are ripe for review.
II. LEGAL STANDARD
The Court may grant summary judgment where the
pleadings and evidence show “that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“[T]he substantive law will identify which facts are
material.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986). A genuine
dispute as to any material fact exists “if the evidence is
such that a reasonable jury could return a verdict for the
nonmoving party.” Id. The movant must inform the
Court of the basis of its motion and demonstrate from
the record that no genuine dispute as to any material fact
exists. See Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106
S. Ct. 2548, 91 L. Ed. 2d 265 (1986).
When reviewing the evidence on a motion for
summary judgment, the Court must decide all
reasonable doubts and inferences in the light most
favorable to the non-movant. See Walker v. Sears,
Roebuck & Co., 853 F.2d 355, 358 (5th Cir. 1988). The
Court cannot make a credibility determination in light of
conflicting evidence or competing inferences. Anderson,
477 U.S. at 255, 106 S. Ct. 2505. If there appears to be

519a
some support for disputed allegations, such that
“reasonable minds could differ as to the import of the
evidence,” the Court must deny the motion. Id. at 250,
106 S. Ct. 2505.6
III.

ANALYSIS

Plaintiffs move for summary judgment, claiming
that the ICWA and the Final Rule violate: (1) the equal
protection requirements of the Fifth Amendment; (2)
the Due Process Clause of the Fifth Amendment; (3) the
Tenth Amendment; and (4) the proper scope of the
Indian Commerce Clause. Plaintiffs also argue that: (1)
the Final Rule violates the Administrative Procedure
Act (the “APA”); and (2) the ICWA violates Article I of
the Constitution.7 See generally Ind. Pls.’ Br., ECF No.
80; State Pls.’ Br., ECF No. 74.
A. Fifth Amendment Equal Protection Claim
Plaintiffs claim that sections 1915(a)–(b), section
1913(d), and section 1914 of the ICWA as well as sections
6

The Federal Defendants disputed facts relating to Individual
Plaintiffs’ standing in this case. See Fed. Defs.’ Br. Resp, ECF No.
124-1. But the dispute over standing was resolved in the July 24,
2018 Order, ECF No. 156. Neither the Federal nor Tribal
Defendants have disputed facts in the record relating to the claims
to be resolved by summary judgment. See Tribal Defs.’ Br. Supp.
Resp. Mot. Summ. J. 2 n.1, ECF No. 118. (“[Individual] Plaintiffs
rely on none of the other facts in their brief and declarations to
support their legal arguments, and none is relevant to the issues
currently before the court.”).
7

Individual Plaintiffs alone argue the Fifth Amendment due process
claim. See generally Ind. Pls.’ Br.; State Pls.’ Br.; Ind. Pls.’ Reply;
State Pls.’ Reply. State Plaintiffs alone argue the Article I nondelegation claim. Id.

520a
23.129–132 of the Final Rule violate the Fifth
Amendment’s guarantee of equal protection under the
laws. The parties primarily disagree about whether
sections 1915(a)–(b) of the ICWA rely on racial
classifications requiring strict scrutiny review. Ind. Pls.’
Br. 41, ECF No. 80; Fed. Defs.’ Br. Supp. Resp. Obj. Ind.
Mot. Summ. J. 14, ECF No. 123 [hereinafter “Fed. Defs.’
Resp. Ind.”]. Plaintiffs argue the ICWA provides special
rules in child placement proceedings depending on the
race of the child, which is permissible only if the racebased distinctions survive strict scrutiny. Ind. Pls.’ Br.
42–44. ECF No. 80; State Pls.’ Br. 57, ECF No. 74. The
Federal Defendants and Tribal Defendants (collectively,
“Defendants”) disagree, contending the ICWA
distinguishes children based on political categories,
which requires only a rational basis. Fed. Defs.’ Resp.
Ind. 11, ECF No. 123; Trib. Defs.’ Resp. 16, ECF No.
118. Resolution of this issue will direct the level of
scrutiny to be applied to Plaintiffs’ challenge of the
ICWA and Final Rule.
1. Appropriate Level of Review
Unlike the Fourteenth Amendment, the text of the
Fifth Amendment does not contain an equal protection
clause. But courts “employ the same test to evaluate
alleged equal protection violations under the Fifth
Amendment as under the Fourteenth Amendment.”
Richard v. Hinson, 70 F.3d 415, 417 (5th Cir. 1995)
(citing Adarand Constructors, Inc. v. Pena, 515 U.S.
200, 217, 115 S. Ct. 2097, 132 L. Ed. 2d 158 (1995)). This
means that to survive strict scrutiny, “federal racial
classifications, like those of a State, must serve a
compelling governmental interest, and must be

521a
narrowly tailored to further that interest.” Id. at 202, 115
S. Ct. 2097; see also Fisher v. Univ. of Tex. at Austin,
758 F.3d 633, 664 (5th Cir. 2014). On the other hand,
when a federal statute governing Indians relies on
political classifications, the legislation is permissible if
singling out Indians for “particular and special
treatment” is “tied rationally to the fulfillment of
Congress’ unique obligation toward the Indians.”
Morton v. Mancari, 417 U.S. 535, 554–55, 94 S. Ct. 2474,
41 L. Ed. 2d 290 (1974). This requirement mirrors typical
rational basis review which requires only that the
government show a statute is rationally related to a
legitimate government interest. See F.C.C. v. Beach
Commc’ns, Inc., 508 U.S. 307, 314, 113 S. Ct. 2096, 124 L.
Ed. 2d 211 (1993).
The parties rely on precedent developed by the
Supreme Court’s (and various circuits’) review of
statutes focused on American Indians and other native
peoples. See Mancari, 417 U.S. 535, 94 S. Ct. 2474; see
Rice v. Cayetano, 528 U.S. 495, 120 S. Ct. 1044, 145 L.
Ed. 2d 1007 (2000). The Supreme Court’s decisions in
Rice and Mancari explain the differences between
classifications based on race and those based on tribal
membership. See id. Plaintiffs argue that Rice controls
because the ICWA, like the statute in Rice, utilizes
ancestry as a proxy for a racial classification. Ind. Pls.’
Br. 42–44, ECF No. 80; State Pls.’ Reply 18, ECF 142.
Defendants counter that Mancari and other decisions
going back hundreds of years support their contention
that the ICWA’s Indian classification is based on
political characteristics. Fed. Defs.’ Resp. Ind. 11, ECF
No. 123; Trib. Defs.’ Resp. 16, ECF No. 118.

522a
a. Ancestry as Racial Classification
Plaintiffs argue that the placement preferences in
sections 1915(a)–(b) of the ICWA, as well as the
collateral-attack provisions in section 1913(d) and
section 1914, include race-based classifications like those
in Rice, which must survive strict scrutiny review. Ind.
Pls.’ Br. 41, ECF No. 80; State Pls.’ Br. 54–57, ECF No.
74. In Rice, the Supreme Court overturned a Hawaiian
statute restricting voter eligibility to only “native
Hawaiians” and those with “Hawaiian” ancestry for
positions at a state agency. Rice, 528 U.S. at 519, 120 S.
Ct. 1044. By declaring this restriction an unlawful racial
preference, the Supreme Court found that “ancestry can
be a proxy for race” and noted that “racial discrimination
is that which singles out ‘identifiable classes of persons
... solely because of their ancestry or ethnic
characteristics.’” Id. at 515, 120 S. Ct. 1044 (citation
omitted). The Supreme Court held that Hawaii had
“used ancestry as a racial definition and for a racial
purpose” and noted “ancestral tracing ... employs the
same mechanisms, and causes the same injuries, as laws
or statutes that use race by name.” Id. at 517, 120 S. Ct.
1044. Plaintiffs contend the ICWA preferences are no
different than the preferences struck down in Rice.
b. Tribal Membership
Classification

as

a

Political

Defendants respond that the ICWA’s placement
preferences rely on political classifications like the
statute in Mancari, rather than racial classifications like
the statute in Rice, and are therefore only subject to
rational basis review. Fed. Defs.’ Resp. Ind. 11, ECF No.
123; Trib. Defs.’ Resp. 16, ECF No. 118. In Mancari, the

523a
plaintiffs sought to declare unconstitutional a BIA hiring
standard that gave preference to Indian applicants. See
Mancari, 417 U.S. at 535, 94 S. Ct. 2474. The Supreme
Court upheld this hiring preference, concluding it was a
political, rather than a racial, preference. Id. Because the
preference was “an employment criterion reasonably
designed to further the cause of Indian self-government
and to make the BIA more responsive to the needs of its
constituent groups,” it was “reasonably and directly
related” to a legitimate non-racial goal. Id. at 554, 94 S.
Ct. 2474. The preference was designed to give those
Indians who were “members of quasi-sovereign tribal
entities” and who chose to apply for jobs at the BIA, an
opportunity to govern tribal activities in “a unique
fashion.” Id. at 554, 94 S. Ct. 2474. While the Supreme
Court held the preference was constitutional, its
decision was uniquely tailored to that particular set of
facts. Id. at 551, 94 S. Ct. 2474 (“the Indian preference
statute is a specific provision applying to a very specific
situation”); see Rice, 528 U.S. at 520, 120 S. Ct. 1044
(“The [Mancari] opinion was careful to note, however,
that the case was confined to the authority of the BIA,
an agency described as ‘sui generis.’”). Importantly, the
preference in Mancari applied “only to members of
‘federally recognized’ tribes which operated to exclude
many individuals who are racially to be classified as
Indians.” Id. at 555 n.24, 94 S. Ct. 2474. And this
preference provided special treatment only to Indians
living on or near reservations.8 Id. at 552, 94 S. Ct. 2474;
8

Defendants rely on a number of cases in support of their argument.
Those cases confirm however that this authority is directed at
Indian self-government and affairs on or near Indian lands. In
United States v. Antelope, the Supreme Court found no equal

524a
see also Rice, 528 U.S. at 516–17, 120 S. Ct. 1044 (“Simply
because a class defined by ancestry does not include all
members of the race does not suffice to make the
classification neutral”). Mancari therefore did not
announce that all arguably racial preferences involving
Indians are actually political preferences. Id. at 554, 94
S. Ct. 2474. Instead, the Supreme Court recognized that
applying its decision more broadly would raise the
“obviously more difficult question that would be
presented by a blanket exemption for Indians.” Id. at
554, 94 S. Ct. 2474.

protection violation because the legislation involved “federal
regulation of criminal conduct within Indian country implicating
Indian interest.” 430 U.S. 641, 646, 97 S. Ct. 1395, 51 L. Ed. 2d 701
(1977) (emphasis added); cf. Plains Comm. Bank v. Long Family
Land & Cattle Co., 554 U.S. 316, 330, 128 S. Ct. 2709, 171 L. Ed. 2d
457 (2008) (“[E]fforts by a tribe to regulate nonmembers, especially
on non-Indian fee land, are presumptively invalid.”). Other cases
cited by Defendants also relate to Indian affairs occurring in Indian
country. See, e.g., Fisher v. Dist. Court of Sixteenth Judicial Dist.
of Montana, in and for Rosebud Cty., 424 U.S. 382, 96 S. Ct. 943, 47
L. Ed. 2d 106 (1976); United States v. Mazurie, 419 U.S. 544, 95 S.
Ct. 710, 42 L. Ed. 2d 706 (1975); Miss. Band of Choctaw Indians v.
Holyfield, 490 U.S. 30, 109 S. Ct. 1597, 104 L. Ed. 2d 29 (1989); U.S.
v. Lara, 541 U.S. 193, 124 S. Ct. 1628, 158 L. Ed. 2d 420 (2004). Even
United States v. McGowan, 302 U.S. 535, 58 S. Ct. 286, 82 L. Ed. 410
(1938), dealt with prohibitions on Indian land. Similarly, the Fifth
Circuit found no equal protection violation in Peyote Way Church of
God, Inc. v. Thornburgh, where the federal government made an
exception under the Controlled Substance Act for a Native
American church’s use of peyote, when the church limited
membership to only members of federally recognized tribes who
have at least twenty-five percent Indian ancestry. 922 F.2d 1210
(5th Cir. 1991) (emphasis added).

525a
c. The ICWA Classification
The specific classification at issue in this case
mirrors the impermissible racial classification in Rice,
and is legally and factually distinguishable from the
political classification in Mancari. The ICWA’s
membership eligibility standard for an Indian child does
not rely on actual tribal membership like the statute in
Mancari. Id. at 554, n.24, 94 S. Ct. 2474 (the preference
only applied to members of federally recognized tribes,
which “operates to exclude many individuals who are
racially classified as ‘Indians’”); see 25 U.S.C. § 1903(4).
Instead, it defines an Indian child as one who is a
member “of an Indian tribe” as well as those children
simply eligible for membership who have a biological
Indian parent. See 25 U.S.C. § 1903(4). This means one is
an Indian child if the child is related to a tribal ancestor
by blood. See e.g. Navajo Nation Code § 701; see
Cherokee Const. art. IV, § 1; see Const. of White Earth
Nation, Chap. 2. Art. 1; see Yselta del Sur Pueblo Tribe
Code of Laws § 3.01; Ysleta del Sur Pueblo and Alabama
and Coushatta Indian Tribes of Texas Restoration Act,
Pub. Law 100-89, 101 Stat. 669 (1987). These
classifications are similar to the “blanket exemption for
Indians,” which Mancari noted would raise the difficult
issue of racial preferences, as well as the classifications
declared unconstitutional in Rice.9 528 U.S. at 499, 120 S.
9

At the hearing, the Federal Defendants identified specific
exceptions to the general rule that tribal membership eligibility
depends on biological ancestry. Aug. 1, 2018 Hr’g Tr. at 83:1–11. The
Federal Defendants noted some tribes may include African
Americans who are descendants of freed slaves and that some tribes
may include “adopted whites” as members. Id. Individual Plaintiffs
responded that the Supreme Court addressed similar limited

526a
Ct. 1044 (“racial discrimination is that which singles out
“identifiable classes of persons ... solely because of their
ancestry or ethnic characteristics.”).10 By deferring to
tribal membership eligibility standards based on
ancestry, rather than actual tribal affiliation, the
ICWA’s jurisdictional definition of “Indian children”
uses ancestry as a proxy for race and therefore “must be
analyzed by a reviewing court under strict scrutiny.”
Adarand, 515 U.S. at 227, 115 S. Ct. 2097.
2. Strict Scrutiny Review
Because the ICWA relies on racial classifications, it
must survive strict scrutiny. Courts “apply strict
scrutiny to all racial classifications to ‘smoke out’
illegitimate uses of race by assuring that [the
government] is pursuing a goal important enough to
warrant use of a highly suspect tool.” Grutter v.
Bollinger, 539 U.S. 306, 326, 123 S. Ct. 2325, 156 L. Ed.
2d 304 (2003). To survive strict scrutiny review, the

exceptions in Rice. Id. at 109. Indeed, Rice controls on this issue.
Defendants in that case argued that the preferential statute did not
rely on a racial category because it also could include descendants
of “Native Hawaiians” who were not racially Polynesian. Rice, 528
U.S. at 514, 120 S. Ct. 1044. The Court “reject[ed] this line of
argument” and noted immediately thereafter that “Ancestry can be
a proxy for race.” Id.
10

Notably, in Adoptive Couple v. Baby Girl, the Supreme Court
mentioned that an interpretation of provisions of the ICWA that
prioritizes a child’s Indian ancestry over all other interests “would
raise equal protection concerns.” 570 U.S. 637, 655, 133 S. Ct. 2552,
186 L. Ed. 2d 729 (2013); see Hr’g Tr. 103 (acknowledging the equal
protection violation Adoptive Couple referenced was race
discrimination).

527a
classifications must be “narrowly tailored to further a
compelling governmental interest.” Id.
a. Compelling Interest Requirement
Here, the Federal Defendants have not offered a
compelling governmental interest that the ICWA’s
racial classification serves, or argued that the
classification is narrowly tailored to that end. Rather,
the Federal Defendants rest their entire defense to this
claim on their argument that the ICWA classified
Indians politically, which requires only that it be
rationally tied to fulfillment of Congress’s unique
obligation to the Indians. Fed. Defs.’ Resp. Ind. 25, ECF
No. 123. Given the ICWA is a race-based statute,11 the
Government has failed to meet its burden to show the
challenged statute is narrowly tailored to a compelling
interest. Fisher, 758 F.3d at 664 (citation omitted).
Because the government did not prove—or attempt to
prove—why the ICWA survives strict scrutiny, it has
not carried its burden to defend the ICWA and Plaintiffs
are entitled to judgment as a matter of law on their equal
protection claim.12
11

In Rice, after determining that ancestry can be a proxy for race,
the Supreme Court noted the legislation at issue used ancestry “as
a racial definition and for a racial purpose,” and subsequently
referred to the legislation as being “based on race.” See Rice, 528
U.S. at 514, 523, 120 S. Ct. 1044. Accordingly, as described above,
the ICWA uses ancestry as a proxy for race and is therefore racebased.
12

Both Defendants requested an opportunity to provide additional
briefing if the Court concludes the ICWA contains racial
preferences. However, Defendants were on notice that Plaintiffs
sought judgment on all of their claims. This obligated Defendants to
meet their burden. See Apache Corp. v. W & T Offshore, Inc., 626

528a
b. Narrow Tailoring Requirement
The Federal Defendants argue that “fulfilling
Congress’s unique obligation toward the Indians” is a
legitimate government purpose supporting their
rational basis analysis. Fed. Defs.’ Resp. Ind. 312 ECF
No. 123 (citing Mancari, 417 U.S. at 555, 94 S. Ct. 2474).
Likewise, at the hearing on these motions the Tribal
Defendants offered “maintain[ing] the Indian child’s
relationship with the tribe” as a possible compelling
interest. Hr’g Tr. 87:23–25, ECF No. 163.13 The
F.3d 789, 798–99 (5th Cir. 2010) (when a party is on notice that its
opponent seeks judgment on all of its claims, it is obligated to
respond to all of the claims); see also United States v. Paradise, 480
U.S. 149, 193, 107 S. Ct. 1053, 94 L. Ed. 2d 203 (1987) (Stevens, J.
concurring) (“governmental decisionmaker who would make raceconscious decisions must overcome a strong presumption against
them”). The Federal Defendants have failed to do so, nor have they
offered a sufficient reason for this failure. Even so, at oral argument
the Court permitted them to offer any arguments they desired on
this issue even though they failed to brief it. The Federal
Defendants failed to articulate any interest they viewed as
compelling. See Hr’g Tr. 55–61.
13

The Federal Defendants similarly point to Congress’s obligation
to Indian tribes to justify Congressional authority to enact the
ICWA. To bolster those arguments, it notes that Congress intended
the ICWA to “protect the ‘continued existence and integrity of
Indian tribes’ by protecting their most vital resources—their
children.” Fed. Defs.’ Resp. Ind. 37, ECF No. 123 (emphasis added)
(quoting 25 U.S.C. § 1901(3)). The Federal Defendants note that in
congressional hearings about the ICWA there was considerable
emphasis “on the impact on the tribes themselves of the massive
removal of their children.” Id. (quoting Holyfield, 490 U.S. at 34, 109
S. Ct. 1597) (emphasis added). The emphasis on tribes is telling;
indeed the Indian Commerce Clause specifically references “Indian
Tribes.” U.S. Const. art. I, § 8, cl. 3.

529a
compelling interest standard necessarily requires a
stronger interest than is required under the broad
legitimate government purpose standard. See Richard,
70 F.3d at 417 (describing rational basis and strict
scrutiny review standards). Here, however, the Court
will assume these interests are compelling and will
evaluate whether the statute is narrowly tailored.
As stated above, a racial statute must be narrowly
tailored to a compelling government interest to survive
strict scrutiny. Grutter, 539 U.S. at 326, 123 S. Ct. 2325.
In other words, the statute’s means must be narrowly
tailored to its ends. Id. To evaluate whether a statute is
narrowly tailored to a compelling interest, the Supreme
Court has considered whether the statute covers too
many—or too few—people to achieve its stated purpose.
See Brown v. Entm’t Merchs. Ass’n, 564 U.S. 786, 804,
131 S. Ct. 2729, 180 L. Ed. 2d 708 (2011). The Supreme
Court labels statutes that fail this test as overinclusive,
underinclusive, or both. See id. A statute is overinclusive
when it “burdens more people than necessary to
accomplish the legislation’s goal.” Overinclusive.
Merriam-Webster’s Dictionary of Law (2016); see e.g.
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 578, 113 S. Ct. 2217, 124 L. Ed. 2d
472 (1993) (Blackmun, J. concurring) (an overinclusive
statute is “one that encompasses more ... than necessary
to achieve its goal”); see e.g. Mance v. Sessions (Ho, J.
dissenting from denial of rehearing en banc) (“a
categorical ban ... is over-inclusive—it prohibits a
significant number of transactions that fully comply with
state law.”) (emphasis added).

530a
Here, the statute is broader than necessary because
it establishes standards that are unrelated to specific
tribal interests and applies those standards to potential
Indian children. First, portions of the ICWA preferences
are unrelated to specific tribal interests in that the
statute includes as a priority a child’s placement with
any Indian, regardless of whether the child is eligible for
membership in that person’s tribe. See 25 U.S.C.
§ 1915(a)(3). By doing so, the ICWA preferences
categorically, and impermissibly, treat “all Indian tribes
as an undifferentiated mass.” United States v. Bryant, –
–– U.S. ––––, 136 S. Ct. 1954, 1968, 195 L. Ed. 2d 317
(2016) (Thomas, J., concurring). Applying the preference
to any Indian, regardless of tribe, is not narrowly
tailored to maintaining the Indian child’s relationship
with his tribe. See Br. for the Goldwater Inst. as Amicus
Curiae in Opposition to Defs.’ Mot. to Dismiss 5, ECF
No. 133 (“ICWA’s placement preferences do not depend
on tribal or political or cultural affiliation; they depend
on generic “Indianness.””). The ICWA applies to many
children who will never become members of any Indian
tribe, 25 U.S.C. § 1903(4), and the first preference is to
place the child with family members who may not be
tribal members at all. 25 U.S.C. § 1915(1). These
provisions burden more children than necessary to
accomplish the goal of ensuring children remain with
their tribes.
The ICWA’s racial classification applies to potential
Indian children, including those who will never be
members of their ancestral tribe, those who will
ultimately be placed with non-tribal family members,
and those who will be adopted by members of other
tribes. Because two of the three preferences have no

531a
connection to a child’s tribal membership, this blanket
classification of Indian children is not narrowly tailored
to a compelling governmental interest and thus fails to
survive strict scrutiny review. For these reasons, the
Court finds that Plaintiffs’ motion for summary
judgment on their equal protection claim is GRANTED.
B. Article I Non-Delegation Claim
State Plaintiffs also argue that section 1915 (c) of the
ICWA is unconstitutional because it delegates
congressional power to Indian tribes in violation of the
non-delegation doctrine outlined in Article I of the
Constitution. Article I, known as the vesting clause,
provides: “All legislative Powers ... shall be vested in a
Congress of the United States.” U.S. Const. I, § 1, cl.1.
State Plaintiffs argue that the ICWA impermissibly
grants Indian tribes the authority to reorder
congressionally enacted adoption placement preferences
by tribal decree and then apply their preferred order to
the states. State Pls.’ Br. 47, ECF No. 74. They also
contend that section 23.130 (b) of the Final Rule, which
provides that a tribe’s established placement
preferences apply over those specified in the ICWA,
violates the doctrine.14 Am. Compl. ¶ 372, ECF No. 35;
25 C.F.R. § 23.130 (b). Tribal Defendants respond that
the tribes are permissibly exercising regulatory power
subject to an intelligible principle. Tribal Defs.’ Br.
Supp. Resp. Mot. Summ. J. at 35, ECF No. 118
[hereinafter “Trib. Defs.’ Resp.”]. If so, Defendants

14

Texas provides that the Alabama-Coushatta-Tribe of Texas has
filed with DFPS a notice of different placement preferences. State
Pls.’ App. at 918, ECF No. 73.

532a
argue the ICWA survives the non-delegation challenge.
Id.
1. Legislative or Regulatory Power
Distinguishing between permissible and nonpermissible delegations of congressional power usually
requires asking whether Congress is delegating
discretion to create law or discretion to execute law.
Loving v. United States, 517 U.S. 748, 758, 116 S. Ct.
1737, 135 L. Ed. 2d 36 (1996). Congress plainly cannot
delegate its inherent legislative power to create law,
defined as the power to formulate binding rules
generally applicable to private individuals. Dep’t. of
Transp. v. Ass’n of Am. R.R.’s, ––– U.S. ––––, 135 S. Ct.
1225, 1246, 191 L. Ed. 2d 153 (2015) (Thomas, J.
concurring); A.L.A. Schechter Poultry Corp. v. United
States, 295 U.S. 495, 529, 55 S. Ct. 837, 79 L. Ed. 1570
(1935) (“The Congress is not permitted to abdicate or to
transfer to others the essential legislative functions with
which it is thus vested.”); see Wayman v. Southard, 10
Wheat. 1, 42–43, 6 L. Ed. 253 (1825) (Marshall, C.J.). On
the other hand, Congress may grant a federal agency the
regulatory power necessary to execute legislation as
well as interpret ambiguities therein. See City of
Arlington, Tex. v. F.C.C., 569 U.S. 290, 296, 133 S. Ct.
1863, 185 L. Ed. 2d 941 (2013).
An exercise of regulatory power does not empower
an entity to “formulate generally applicable rules of
private conduct.” Ass’n of Am. R.R.’s, 135 S. Ct. at 1252
(Thomas, J. concurring). The core of regulatory power
involves factual determination or policy judgment
necessary to execute the law. See Whitman v. Am.
Trucking Ass’ns, 531 U.S. 457, 474–75, 121 S. Ct. 903, 149

533a
L. Ed. 2d 1 (2001) (quoting Mistretta v. United States,
488 U.S. 361, 416, 109 S. Ct. 647, 102 L. Ed. 2d 714 (1989)
(Scalia, J., dissenting)). To determine whether a
delegation of regulatory power is proper, courts employ
the “intelligible principle” standard which states that
Congress properly delegates regulatory power to
federal agencies when it establishes an “intelligible
principle” on which the agency can base decisions.
Whitman v. Am. Trucking Ass’n, 531 U.S. 457, 474, 121
S. Ct. 903, 149 L. Ed. 2d 1 (2001). Defendants are correct
that the Supreme Court applies the test liberally and has
“almost never felt qualified to second-guess Congress
regarding the permissible degree of policy judgment
that can be left to those executing or applying the law.”
Id. at 474–75, 121 S. Ct. 903 (emphasis added).
Here, the Tribes were granted the power to change
the legislative preferences Congress enacted in the
ICWA, and those changes are binding on the States. See
25 U.S.C. § 1915(c); see also Br. of Amicus Curiae 123
Federally Recognized Indian Tribes et al. in Opposition
to Pls.’ Mots. Summ. J. 22–23, ECF No. 138 (“... ICWA
confirms tribes’ authority to enact placement
preferences for their member children, and as an
exercise of Congress’ established authority over Indian
affairs, requires that state courts, when exercising their
concurrent jurisdiction over those children, give effect
to those legislative preferences.”) (emphasis added). The
power to change specifically enacted Congressional
priorities and impose them on third parties can only be
described as legislative. Ass’n of Am. R.R.’s, 135 S. Ct.
at 1253–1254 (Thomas, J. concurring) (“an exercise of
policy discretion ... requires an exercise of legislative
power”). This is particularly true when the entity

534a
allowed to change those priorities is not tasked with
executing the law. Congress “cannot delegate its
exclusively legislative authority at all.” See Washington
v. Confederated Tribes of Colville Indian Reservation,
447 U.S. 134, 156, 100 S. Ct. 2069, 65 L. Ed. 2d 10 (1980);
White Mountain Apache Tribe v. Arizona, 649 F.2d
1274, 1281 (9th Cir. 1981). Accordingly, section 1915(c) of
the ICWA and section 23.130 (b) of the Final Rule violate
the non-delegation doctrine.
2. Federal Actor Requirement
Alternatively, even if Congress granted permissible
regulatory power through the ICWA, it impermissibly
granted federal regulatory power to an Indian tribe.
Congress certainly has authority to regulate the Indian
tribes. U.S. Const., art. 1, § 8, cl. 3. Likewise, tribes
unquestionably may regulate conduct on tribal lands and
reservations. Atkinson Trading Co., Inc. v. Shirley, 532
U.S. 645, 650–51, 121 S. Ct. 1825, 149 L. Ed. 2d 889 (2001).
And, Congress may obtain assistance from its
coordinate branches by delegating regulatory authority
without violating the non-delegation doctrine. Mistretta
v. United States, 488 U.S. 361, 372, 109 S. Ct. 647, 102 L.
Ed. 2d 714 (1989). But, Indian tribes are not a coordinate
branch of government. See Trib. Defs.’ Resp. 36–38,
ECF No. 118. (describing the Tribes as an independent
separate sovereign); see also Lawson, Delegation and
Original Meaning, 88 Va. L. Rev. 327, 352–53 (2002)
(Congress cannot delegate legislative or executive
power to a non-federal entity).
Nor is section 1915(c) saved because, as Tribal
Defendants argue, Congress recognized that Indian
tribes carry a unique, long-held, quasi-sovereign status,

535a
and may thus delegate federal authority to them. Trib.
Defs.’ Resp. 36–37, ECF No. 118. An Indian tribe, like a
private entity, is “not part of the [federal] Government
at all,” which “would necessarily mean that it cannot
exercise...governmental power.” Ass’n of Am. R.R.s, 135
S. Ct. at 1253 (Thomas, J. concurring); see also id. at
1237.
Therefore, whatever label is affixed to the tribes by
Defendants is inapposite. No matter how Defendants
characterize Indian tribes—whether as quasisovereigns or domestic dependent nations—the
Constitution does not permit Indian tribes to exercise
federal legislative or executive regulatory power over
non-tribal persons on non-tribal land. Id. The Court finds
Article I does not permit Congress to delegate its
inherent authority to the Tribes through section 1915(c)
of the ICWA or the BIA through section 23.130(b) of the
Final Rule, which unequivocally states tribal placement
preferences apply over those enacted by Congress in the
ICWA. Accordingly, Plaintiffs are entitled to judgment
as a matter of law on their non-delegation claim. For
these reasons, the Court finds that Plaintiffs’ motion for
summary judgment on their Article I non-delegation
claim is GRANTED.
C. Tenth
Claim

Amendment

Anti-Commandeering

Plaintiffs also claim that the ICWA and the Final
Rule commandeer the States in violation of the Tenth
Amendment. State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’
Br. 68, ECF No. 80. They specifically challenge the

536a
ICWA sections 1901–23 and 1951–52.15 Am. Compl.
¶ 284, ECF No. 35. The Federal Defendants respond
that Congress passed the ICWA pursuant to its
enumerated powers and thus authority over Indian
children was never reserved to the States. Fed. Defs.’
Br. Supp. Resp. States Mot. Summ. J. 29, ECF No. 121
[hereinafter “Fed. Defs.’ Resp. States”]. Tribal
Defendants argue that, to the extent the ICWA conflicts
with state law, state law is preempted by the Supremacy
Clause. Trib. Defs.’ Resp. 29, ECF No. 118.
The anti-commandeering principle “is simply the
expression of a fundamental structural decision
incorporated into the Constitution, i.e., the decision to
withhold from Congress the power to issue orders
directly to the states.” Murphy v. Nat’l Collegiate
Athletic Ass’n, ––– U.S. ––––, 138 S. Ct. 1461, 1475, 200
L. Ed. 2d 854 (2018). The Constitution grants to
“Congress not plenary legislative power but only certain
enumerated powers.” Id. at 1476. “Conspicuously absent
from the list of powers given to Congress is the power to
issue direct orders to the governments of the States”
because the Constitution “confers upon Congress the
power to regulate individuals, not States.” Murphy, 138
S. Ct. at 1476. Legislative power that is not enumerated
is reserved to the States through the Tenth
Amendment, and “Congress may regulate areas of
traditional state concern only if the Constitution grants

15

These provisions include the congressional findings and
declaration of policy, definitions, child custody proceedings, record
keeping, information availability, and timetables. See 25 U.S.C.
§§ 1901–23, 1951–52.

537a
it such power.” Adoptive Couple, 133 S. Ct. at 2566 (2013)
(Thomas, J. concurring).
The Court must therefore first consider whether
Congress may require state courts and agencies to apply
federal standards to exclusively state created causes of
action.16
1. Commandeering
Agencies

State

Courts

and

Plaintiffs argue that the ICWA unconstitutionally
requires state courts and executive agencies to apply
federal standards and directives to state created claims.
State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’ Br. 68, ECF No.
80. The Federal Defendants respond that the power to
enact the ICWA was granted to Congress by the Indian
Commerce Clause, was never reserved to the States,
and presents no constitutional problem. Fed. Defs.’
Resp. States 29, ECF No. 121. The Court finds that
requiring the States to apply federal standards to state
created claims contradicts the rulings in Murphy,
Printz, and New York. See Murphy, 138 S. Ct. 1461
(2018); Printz v. United States, 521 U.S. 898, 117 S. Ct.
2365, 138 L. Ed. 2d 914 (1997); New York v. United
States, 505 U.S. 144, 112 S. Ct. 2408, 120 L. Ed. 2d 120
(1992).

16

The ICWA includes federal requirements that apply in a state
child custody proceedings including: involuntary proceedings,
voluntary proceedings, and proceedings involving foster-care,
preadoptive, or adoptive placement, or termination of parental
rights. See 25 CFR §§ 23.103, 23.106.

538a
a. Federal Standards Applied in State
Created Claims
It is unquestionably true that state and federal
courts share concurrent jurisdiction in many legal
matters. See generally Mims v. Arrow Fin. Ser., LLC,
565 U.S. 368, 132 S. Ct. 740, 181 L. Ed. 2d 881 (2012). The
law is similarly clear about when a state court must hear
a federal claim. In Testa, the Supreme Court held that
where a state court would hear a comparable state law
claim it must also hear a federal claim. See Testa v. Katt,
330 U.S. 386, 67 S. Ct. 810, 91 L. Ed. 967 (1947) (emphasis
added). In other words, Congress may create a private
federal cause of action and authorize concurrent
jurisdiction in state courts. When it does so, the state
courts cannot refuse to hear the federal claim. Later, in
Haywood, the Supreme Court confirmed that states
“lack authority to nullify a federal right or cause of
action they believe is inconsistent with their local
policies.” Haywood v. Drown, 556 U.S. 729, 736, 129 S.
Ct. 2108, 173 L. Ed. 2d 920 (2009) (emphasis added). The
Supreme Court concluded that when “state courts as
well as federal courts are entrusted with providing a
forum for the vindication of federal rights,” state courts
may not refuse to adjudicate the federal claim. Id. at 735,
129 S. Ct. 2108. The controversy here, however, does not
involve a federal cause of action that may be adjudicated
in a federal forum. See 25 U.S.C. § 1915(a). Instead, the
ICWA commands that states modify existing state law
claims. Congress directs state courts to implement the
ICWA by incorporating federal standards that modify
state created causes of action. Id.

539a
b. The Murphy Standard
In Murphy, the Supreme Court ruled that a federal
statute prohibiting state legislatures from authorizing
sports gambling violated the anti-commandeering
doctrine because it directly regulated States rather than
individuals. See Murphy, 138 S. Ct. 1461. The Supreme
Court outlined three reasons why the anticommandeering principle is important. First, it is “one
of the Constitution’s structural protections of liberty.”
Id. at 1477. Second, the principle “promotes political
accountability.” Id. Third, it “prevents Congress from
shifting the costs of regulation to the States.” Id.
Congress violated all three principles when it
enacted the ICWA. First, the ICWA offends the
structure of the Constitution by overstepping the
division of federal and state authority over Indian affairs
by commanding States to impose federal standards in
state created causes of action. See 25 U.S.C. § 1915(a).
Second, because the ICWA only applies in custody
proceedings arising under state law, it appears to the
public as if state courts or legislatures are responsible
for
federally-mandated
standards,
meaning
“responsibility is blurred.” Murphy, 138 S. Ct. at 1477.
Third, the ICWA shifts “the costs of regulations to the
States” by giving the sole power to enforce a federal
policy to the States.17 Id. Congress is similarly not forced

17

As an example, the ICWA and the Final Rule require State
Plaintiffs’ agencies and courts to maintain indefinitely records of
placements involving Indian children, and subject those records to
inspection by the Director of the BIA and the child’s Indian tribe at
any time, as opposed to simply transferring those records to the

540a
to weigh costs the States incur enforcing the ICWA
against the benefits of doing so. In sum, Congress shifts
all responsibility to the States, yet “unequivocally
dictates” what they must do. Id.
That this case primarily involves state courts, rather
than legislative bodies or executive officers, does not
mean the principles outlined in Murphy, New York, and
Printz do not apply. In those cases, the Supreme Court
relied on the idea that “the Framers explicitly chose a
Constitution that confers upon Congress the power to
regulate individuals, not States.” Printz, 521 U.S. at 920,
117 S. Ct. 2365. Here, the ICWA regulates states. As
stated above, the ICWA requires that the state “in any
adoptive placement of an Indian child under state law, a
preference shall be given, in the absence of good cause
to the contrary, to a placement with: (1) a member of the
child’s extended family; (2) other members of the Indian
child’s tribe; or (3) other Indian families.” 25 U.S.C.
§ 1915(a). Similar requirements are set for foster care or
preadoptive placements. Id. § 1915(b). If the Indian
child’s tribal court establishes a different order of
preferences, the state court or agency “shall follow such
order so long as the placement is the least restrictive
setting appropriate to the particular needs of the child.”
Id. § 1915(c). That requirement is, on its face, a direct
command from Congress to the states. The Court finds
that the ICWA directly regulates the State Plaintiffs
and doing so contradicts the principles outlined by the
Supreme Court in Murphy. Cf. 138 S. Ct. 1461 (2018).
Notwithstanding this impact on the state courts, Texas
BIA so they may keep them indefinitely. 25 U.S.C. §§ 1915(e), 1917;
25 C.F.R. §§ 23.140–41.

541a
has also indisputably demonstrated that the ICWA
requires its executive agencies to carry out its
provisions.18 Hr’g Tr. at 22–23, ECF No. 163; State Pls.’
App. Supp. Mot. Summ. J. 28–29, ECF No. 73
[hereinafter State Pls.’ App.]. Accordingly, Congress
regulates States—not individuals—through the ICWA,
and the Constitution does not grant it that power.
Nor does the Indian Commerce Clause save the
ICWA’s mandate to the states. Federal Defendants
assert that the plenary power the Indian Commerce
Clause grants Congress permits directing states in child
custody proceedings involving Indian children eligible
for tribal membership, therefore no power was reserved
to the states, and no Tenth Amendment violation is
possible. Fed. Defs.’ Resp. States 29, ECF No. 121. But
regardless of the reach of the Indian Commerce Clause,
no provision in the Constitution grants Congress the
right to “issue direct orders to the governments of the
States,” and the Indian Commerce Clause can be no
different. Cf. Murphy, 138 S. Ct. at 1478. Like in
Murphy, there is no way to understand mandating state
enforcement of the ICWA “as anything other than a
direct command to the States. And that is exactly what
the anti-commandeering rule does not allow.” Murphy,
138 S. Ct. at 1481.

18

The Texas DFPS must, among other things; serve notice of suit
on Indian tribes, verify a child’s tribal status, make a diligent effort
to find a suitable placement according to the ICWA preferences and
show good cause if the preferences are not followed, ensure a child
is enrolled in his tribe before referring him for adoption, and keep a
written record of the placement decision. State Pls.’ App. 28–29,
ECF No. 73.

542a
2. State Law Preemption
Finally, the Tribal Defendants argue that the anticommandeering principle does not apply because the
ICWA, enacted pursuant to the Indian Commerce
Clause, simply preempts conflicting state laws
regulating individuals. Trib. Defs.’ Resp. 29, ECF No.
118. Preemption generally applies when federal and
state law conflict over matters in which they have
concurrent jurisdiction. See Wyeth v. Levine, 555 U.S.
555, 584, 129 S. Ct. 1187, 173 L. Ed. 2d 51 (2009). While
Supremacy Clause preemption may apply to a conflict
between state and “federal law that regulates the
conduct of private actors,” it cannot rescue a law that
directly regulates states. Murphy, 138 S. Ct. at 1481.
Even though the ICWA’s general policy is directed
towards protecting Indian children, 25 U.S.C. § 1902, its
specific provisions, like section 1915, directly command
states to enforce the ICWA without a comparable
federal enforcement mechanism and do not “impose any
federal restrictions on private actors.” Id. at § 1915;
Murphy, 138 S. Ct. at 1481. As such, these commands do
not result in a conflict between duly enacted state and
federal law. Rather, the provisions command states to
directly adopt federal standards in their state causes of
actions. This argument is not unlike the one rejected in
Murphy, where Congress relied on its commerce clause
power, yet even that express power does not permit it
to command states in this manner. Murphy, 138 S. Ct. at
1479.
Preemption arguments therefore cannot rescue the
ICWA’s impermissible direct commands to the states.
The ICWA is structured in a way that directly requires

543a
states to adopt and administer comprehensive federal
standards in state created causes of action. Therefore,
the Court finds that sections 1901–23 and 1951–52 of the
ICWA violate the anti-commandeering doctrine. For
these reasons, the Court finds that Plaintiffs’ motion for
summary judgment on their Tenth Amendment anticommandeering claim is GRANTED.
D. Administrative Procedure Act Claims
Plaintiffs also claim that the Final Rule violates the
APA because it: (1) purports to implement an
unconstitutional law and therefore must be vacated as
contrary to law; (2) exceeds the scope of Interior’s
statutory regulatory authority under the ICWA; (3)
reflects an impermissibly ambiguous construction of the
statute; and (4) is otherwise arbitrary and capricious.
Ind. Pls.’ Reply at 16, ECF No. 143; State Pls.’ Reply 18,
ECF No. 142; see also Ind. Pls’ Br., ECF 80. Defendants
respond that the Final Rule was properly passed and
promulgated, deserves Chevron deference, and stands
after Chevron review. Trib. Defs.’ Resp. 39–47, ECF No.
118; Fed. Defs.’ Resp. States 41, ECF No. 121.
1. Constitutionality Requirement
As a threshold matter, if the Final Rule purports to
implement an unconstitutional statute, the Court must
hold it unlawful and set it aside. 5 U.S.C. § 706. As
previously explained, the Court has concluded sections
1901–23 and 1951–52 of the ICWA are unconstitutional.
The challenged sections of the Final Rule that regulate
unconstitutional portions of the ICWA, 25 C.F.R.
§§ 23.106–112, §§ 23.114–19, §§ 23.121–22, §§ 23.124–28,
and §§ 23.130–132 must therefore also be set aside
because “the authority of administrative agencies is

544a
constrained by the language of the statute they
administer.” Texas v. United States, 497 F.3d 491, 500–
01 (5th Cir. 2007) (citing Massachusetts v. EPA, 549 U.S.
497, 127 S. Ct. 1438, 167 L. Ed. 2d 248 (2007)). For that
reason, Plaintiffs’ motion for summary judgment on
their APA claims is GRANTED. Alternatively, the
Court will address Plaintiffs’ arguments that the Final
Rule exceeds the scope of Interior’s—and thus the
BIA’s—statutory regulatory authority under the
ICWA,
reflects
an
impermissibly
ambiguous
construction of the statute, and is arbitrary and
capricious.
2. APA Statutory Authority Requirement
Plaintiffs argue that the challenged portions of the
Final Rule exceed the scope of the BIA’s regulatory
authority under the ICWA because the Final Rule
issues binding regulations—which the BIA previously
deemed unnecessary to enforce the ICWA—without the
statutory authority necessary to do so. Ind. Pls.’ Reply
17–19, ECF 143; State Pls.’ Reply 18, ECF No. 142.
“Expanding the scope” of a BIA regulation “in vast and
novel ways is valid only if it is authorized” by the ICWA.
Chamber of Commerce v. Dep’t of Labor, 885 F.3d 360,
369 (5th Cir. 2018). “A regulator’s authority is
constrained by the authority that Congress delegated it
by statute. Where the text and structure of a statute
unambiguously foreclose an agency’s statutory
interpretation, the intent of Congress is clear, and ‘that
is the end of the matter; for the court, as well as the
agency, must give effect to the unambiguously
expressed intent of Congress.’” Id. (quoting Chevron,
U.S.A., Inc. v. N.R.D.C., Inc., 467 U.S. 837, 842–43, 104

545a
S. Ct. 2778, 81 L. Ed. 2d 694 (1984)). When an agency
waits decades to discover a new interpretation of a rule
it “highlights the Rule’s unreasonableness,” and “gives
us reason to withhold approval or at least deference for
the Rule.” Id. at 380. When a court reviews an agency’s
construction of a statute and determines Congress has
spoken directly to an issue, the court must give effect to
Congress’s unambiguously expressed intent. Food &
Drug Admin. v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 121, 120 S. Ct. 1291, 146 L. Ed. 2d 121
(2000); City of Arlington, Tex. v. FCC, 569 U.S. 290, 133
S. Ct. 1863, 1874, 185 L. Ed. 2d 941 (2013); Chevron, 467
U.S. at 842–43, 104 S. Ct. 2778.
Here, Congress expressly and unambiguously
granted the Secretary of Interior authority to regulate
if necessary. Congress stated in the ICWA that “within
one hundred and eighty days after November 8, 1978,
the Secretary shall promulgate such rules and
regulations as may be necessary to carry out the
provisions in this chapter.” 25 U.S.C § 1952 (emphasis
added); see 44 Fed. Reg. 67,584. The BIA concluded that
the ICWA differs from most other federal statutes
because the majority of the work required to “carry out
the provisions” falls to state courts and administrative
agencies, not a federal agency. See, e.g., 25 U.S.C § 1915.
The BIA conceded as much when administering the 1979
Guidelines:
Promulgation of regulations with legislative effect
with respect to most of the responsibilities of state or
tribal courts under the act, however, is not necessary
to carry out the Act. State and tribal courts are fully
capable of carrying out the responsibilities imposed
on them by Congress without being under the direct

546a
supervision of this Department. Nothing in the
legislative history indicates that Congress intended
this Department to exercise supervisory control over
state or tribal courts or to legislate for them with
respect to Indian child custody matters. For
Congress to assign an administrative agency such
supervisory control over courts would be an
extraordinary step ... so at odds with concepts of both
federalism and separation of powers that it should
not be imputed to Congress in the absence of an
express declaration of Congressional intent to that
effect.
44 Fed. Reg. 67,584, (Nov. 26, 1979) (emphasis added).
Here, as outlined in the Court’s findings supra on
Plaintiffs’ anti-commandeering and non-delegation
claims, much of the authority to carry out the ICWA was
delegated to the States and Indian tribes. The BIA
admitted state and tribal courts were fully capable of
carrying out the ICWA without direct federal regulation
and allowed them to do so for over thirty years. 44 Fed.
Reg. 67,584 (Nov. 26, 1979). In establishing the Final
Rule, the BIA contradicted their earlier position and
asserted that section 1952 of the ICWA granted
authority to promulgate binding regulations. The BIA
provides justification for the change in position by
noting that state courts have applied the ICWA
inconsistently, which makes binding regulations
necessary. 81 Fed. Reg. 38,785. But when specifically
addressing the change in position about statutory
authority under section 1952, the BIA simply states that
it “no longer agrees with the statements it made in
1979.” Id. at 38,786. In the analysis that follows, the BIA

547a
never addresses the fact that the 1979 BIA determined
that “[n]othing in the language or legislative history of
25 U.S.C. 1952 compels the conclusion that Congress
intended to vest this Department with such
extraordinary power” and that nothing indicated
Congress intended the BIA to exercise supervisory or
legislative control over the state court. 44 Fed. Reg.
67,584, (Nov. 26, 1979). While the BIA expresses
frustration with how state courts and agencies are
applying the ICWA inconsistently, it does not address
how, suddenly, it no longer believes the ICWA primarily
tasks those state courts and agencies with the authority
to apply the statute as they see fit. 81 Fed. Reg. 38,782–
90.19
A current agency interpretation “in conflict with its
initial position, is entitled to considerably less
deference” and is met with “a measure of skepticism.”
Chamber, 885 F.3d at 381 (quoting Watt v. Alaska, 451
U.S. 259, 273, 101 S. Ct. 1673, 68 L. Ed. 2d 80 (1981); Util.
Air Regulatory Grp. v. EPA, 573 U.S. 302, 134 S. Ct.
2427, 2444, 189 L. Ed. 2d 372 (2014)). The 1979 BIA
acknowledged that “where...primary responsibility for
interpreting a statutory term rests with the courts,
administrative interpretations of statutory terms are
given important but not controlling significance.” 44
Fed. Reg. 67,584 (citing Batterton v. Francis, 432 U.S.
19

As an example, in 1979 the BIA provided that the good cause
standard “was designed to provide state courts with flexibility in
determining the disposition of a placement proceeding involving an
Indian child.” 44 Fed. Reg. 67,584. The Final Rule, however,
provided that “courts should only avail themselves of it in
extraordinary circumstances, as Congress intended the good cause
exception to be narrow and limited in scope.” 81 Fed. Reg. 38,839.

548a
416, 424–25, 97 S. Ct. 2399, 53 L. Ed. 2d 448 (1977)).
Because the BIA does not explain its change in position
over its authority to “carry out the provisions” and apply
the ICWA—and therefore its authority to issue binding
regulations—the Court finds those regulations remain
not necessary to carry out the ICWA. See 25 U.S.C
§ 1952. Accordingly, when the BIA promulgated
regulations with binding rather than advisory effect, it
exceeded the statutory authority Congress granted to it
to enforce the ICWA.20 The Court finds that 25 C.F.R.
§§ 23.106–22, §§ 23.124–32 and §§ 23.140–41 are
INVALID to the extent the regulations are binding on
the State Plaintiffs.

20

At the hearing, the Federal Defendants argued that the Final
Rule’s clear and convincing evidence standard is not binding on
state courts. Hr’g Tr. 40:7–20. That argument contradicts the Final
Rule itself which clearly implements binding regulations to
counteract the very discretion Defendants argue states are allowed.
See 25 CFR 23.132(b); see 81 Fed. Reg. 38,782, 38,786, 38,853. (“The
Department’s current nonbinding guidelines are insufficient to fully
implement Congress’s goal of nationwide protections for Indian
children...State courts will sometimes defer to the guidelines in
ICWA cases [but] State courts frequently characterize the
guidelines as lacking the force of law and conclude that they may
depart from the guidelines as they see fit.”; “As described above,
the Department concludes today that this binding regulation is
within the jurisdiction of the agency, was encompassed by the
statutory grant of rulemaking authority, and is necessary to
implement the Act.”; “The final rule generally uses mandatory
language, as it represents binding interpretations of Federal law.”).
The preamble to the Final Rule does note that the rule “does not
categorically require,” that the clear and convincing evidence
standard be followed, but that statement cannot change the fact
that the Final Rule itself was promulgated as a binding regulation.
81 Fed. Reg. 38,843.

549a
Assuming for the sake of argument that Congress
granted the BIA statutory authority to implement the
legally binding Final Rule, the Court will next consider
whether the Final Rule “fills in the statutory gaps” of an
ambiguous statute, and is entitled to Chevron deference.
See Brown & Williamson Tobacco Corp., 529 U.S. at 159,
120 S. Ct. 1291.
3. Chevron Deference and the Good Cause
Standard
When “a court reviews an agency’s construction of
the statute which it administers, it is confronted with
two questions. First, always, is the question whether
Congress has directly spoken to the precise question at
issue. If the intent of Congress is clear, that is the end of
the matter; for the court, as well as the agency, must
give effect to the unambiguously expressed intent of
Congress.” Chevron, 467 U.S. at 842–43, 104 S. Ct. 2778;
see, e.g., Encino Motorcars, LLC v. Navarro, ––– U.S. –
–––, 136 S. Ct. 2117, 2125, 195 L. Ed. 2d 382 (2016). If a
statutory term is ambiguous, courts will assume
Congress granted the implementing agency implicit
authority to fill in the resulting statutory gaps. Food and
Drug Admin., 529 U.S. at 159, 120 S. Ct. 1291. Commonly
referred to as Chevron deference, courts will defer to the
resulting agency interpretation if it is reasonable. See
Chevron, 467 U.S. at 837, 104 S. Ct. 2778.
Here, Plaintiffs claim that the BIA violated the APA
when it promulgated § 23.132(b) of the Final Rule, which
limits the evidence that may be considered by courts to
determine “good cause” under section 1915 of the ICWA.
Ind. Pls.’ Resp. 60–63, ECF No. 80; State Pls.’ Reply 18,
ECF No. 142. Defendants argue that the Final Rule’s

550a
interpretation of “good cause” is entitled to Chevron
deference. Trib. Defs.’ Resp. 39–47, ECF No. 118; Fed
Defs.’ Resp. Ind. 45–49, ECF No. 123.
“Where the text and structure of a statute
unambiguously foreclose an agency’s statutory
interpretation, the intent of Congress is clear, and ‘that
is the end of the matter; for the court, as well as the
agency, must give effect to the unambiguously
expressed intent of Congress.’” Chamber of Comm., 885
F.3d at 369 (quoting Chevron, 467 U.S. at 842–43, 104 S.
Ct. 2778). To determine whether a statute is ambiguous
under Chevron, a court must: (1) begin with the statute’s
language; (2) give undefined words their ordinary,
contemporary, common meaning; (3) read the statute’s
terms in proper context and consider them based on the
statute as a whole; and (4) consider a statute’s terms in
light of the statute’s purpose. Contender Farms, L.L.P
v. U.S. Dep’t of Agric., 779 F.3d 258, 269 (5th Cir. 2015).
But a current agency interpretation “in conflict with its
initial position, is entitled to considerably less
deference.” Chamber of Comm., 885 F.3d at 381 (quoting
Watt v. Alaska, 451 U.S. 259, 273, 101 S. Ct. 1673, 68 L.
Ed. 2d 80 (1981)).
Section 23.132(b) of the Final Rule interprets section
1915(b) of the ICWA, which provides in “any adoptive
placement of an Indian child under State law, a
preference shall be given, in the absence of good cause to
the contrary, to a placement with (1) a member of the
child’s extended family; (2) other members of the Indian
child’s tribe; or (3) other Indian families.” 25 U.S.C.
§ 1915 (b). The Final Rule states that a “party seeking
departure from the placement preferences should bear

551a
the burden of proving by clear and convincing evidence
that there is ‘good cause’ to depart from the placement
preferences.” 25 C.F.R. § 23.132(b).
Here, Plaintiffs contend that the Final Rule departs
from the BIA’s original 1979 interpretation and
contradicts the “good cause” standard set by the ICWA
because the Final Rule heightens the evidentiary
burden. Ind. Pls.’ Reply 20–23, ECF No. 143. Defendants
argue that “good cause” is an ambiguous term and it was
therefore appropriate for the BIA to promulgate—as
part of their interpretation of the term good cause—the
necessary evidentiary standard. Trib. Defs.’ Resp. 44–
45, ECF No. 118; Fed. Defs.’ Resp. Ind. 45, ECF No. 123.
Plaintiffs counter that the default evidentiary standard
in civil cases, preponderance of the evidence, applies to
section 1915 and accordingly the Final Rule’s clear and
convincing evidence standard is not a permissible
construction of the statute. Ind. Pls.’ Reply 20, ECF No.
143. The issue here is whether Congress established an
unambiguous evidentiary standard in section 1915 of the
ICWA. That determination is distinct from interpreting
the meaning of the term good cause.
Congress did not codify a preponderance of the
evidence standard in section 1915 of the ICWA. But
other portions of the ICWA specifically included
heightened evidentiary burdens. See 25 U.S.C. § 1912(e)
(establishing a clear and convincing evidence standard
for foster placements). Notably, unlike those sections,
section 1915 does not establish a heightened evidentiary
standard in conjunction with the good cause
requirement. “It is a ‘fundamental canon of statutory
construction that the words of a statute must be read in

552a
their context and with a view to their place in the overall
statutory scheme.’” Food & Drug Admin., 529 U.S. at
133, 120 S. Ct. 1291. Similarly, “where Congress includes
particular language in one section of a statute but omits
it in another ... it is generally presumed that Congress
acts intentionally and purposely in the disparate
inclusion or exclusion.” Keene Corp. v. United States, 508
U.S. 200, 208, 113 S. Ct. 2035, 124 L. Ed. 2d 118 (1993)
(quoting Russello v. United States, 464 U.S. 16, 23, 104
S. Ct. 296, 78 L. Ed. 2d 17 (1983)). Because Congress
included the clear and convincing evidence standard in
certain sections of the ICWA, but omitted it in section
1915, the Court presumes it did so intentionally.
When interpreting section 1915 the “silence is
inconsistent with the view that Congress intended to
require a special, heightened standard of proof” and “it
is fair to infer that Congress intended the ordinary
preponderance [of the evidence] standard to govern ...”
Grogan v. Garner, 498 U.S. 279, 286–88, 111 S. Ct. 654,
112 L. Ed. 2d 755 (1991). Here, a holistic reading of the
statute and the 1979 BIA guidelines confirms that
Congress intended the default preponderance of the
evidence standard to apply. Accordingly, defining an
evidentiary standard in a way that contradicts the
standard intended by Congress, as the BIA did in the
Final Rule, is contrary to law.
Because the Court finds that the BIA lacked
statutory authority to enact the challenged portions of
the Final Rule, and that the evidentiary standard in
section 1915 is unambiguous, Defendants are not
entitled to Chevron deference and the Final Rule’s
change of standard to clear and convincing evidence is

553a
contrary to law. For these reasons, the Court finds that
Plaintiffs’ motion for summary judgment on their APA
claim is GRANTED.
E. Fifth Amendment Due Process Claim
Individual Plaintiffs alone claim that sections 1910
(a) and (b) of the ICWA, as well as the Final Rule, violate
the Fifth Amendment Due Process Clause. Ind. Pls.’ Br.
49–55, ECF No. 80. Plaintiffs argue that ICWA’s racial
preferences “disrupt ... intimate familial relationships
based solely on the arbitrary fact of tribal membership”
and that families have a fundamental right “to make
decisions concerning the care, custody, and control of
their children.” Id. at 49, 50. The Federal Defendants
respond that this Court has no basis to “recognize a
fundamental right where the Supreme Court and Fifth
Circuit have refused to do so.” Fed. Defs.’ Resp. Ind. 33,
ECF No. 123. Defendants are correct.
The Supreme Court has recognized both custody
and the right to keep the family together as fundamental
rights. See Troxel v. Granville, 530 U.S. 57, 120 S. Ct.
2054, 147 L. Ed. 2d 49 (2000); Moore v. City of East
Cleveland, 431 U.S. 494, 97 S. Ct. 1932, 52 L. Ed. 2d 531
(1977). However, the Supreme Court has never applied
those rights to foster families. See Drummond v. Fulton
Cnty. Dep’t of Family & Children’s Servs., 563 F.2d
1200, 1207 (5th Cir. 1977) (en banc). Similarly, the
Supreme Court has not applied those rights in a
situation involving either prospective adoptive parents
or adoptive parents whose adoption is open to collateral
attack. For these reasons, the Court finds that Plaintiffs’
motion for summary judgment on their substantive due
process claim is hereby DENIED.

554a
F. Indian Commerce Clause Claim
Plaintiffs also claim Congress did not have the
constitutional authority to pass sections 1901–23 and
sections 1951–52 of the ICWA under the Indian
Commerce Clause. Ind. Pls.’ Br. 66, ECF No. 80; State
Pls.’ Br. 49–52, ECF No. 74. Defendants counter that the
Indian Commerce Clause grants Congress plenary
authority over Indian Affairs. Fed. Def’s Resp. Ind. 35,
ECF No. 123; Trib. Defs.’ Resp. 21–28, ECF No. 118. But
as shown above, Murphy does not permit Congress to
directly command the States in this regard, even when
it relies on Commerce Clause power. Murphy, 138 S. Ct.
at 1479. Therefore Plaintiffs’ request for a declaration
that these sections are unconstitutional is GRANTED.
IV.

CONCLUSION

For the reasons stated above, the Court finds that
Plaintiffs’ Motions for Summary Judgment (ECF Nos.
72, 79) should be and are hereby GRANTED in part
and DENIED in part.
SO ORDERED on this 4th day of October, 2018.

555a
Appendix D
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED
U.S. Const. art. III, § 2
The judicial power shall extend to all cases, in law and
equity, arising under this Constitution, the laws of the
United States, and treaties made, or which shall be
made, under their authority;--to all cases affecting
ambassadors, other public ministers and consuls;--to all
cases of admiralty and maritime jurisdiction;--to
controversies to which the United States shall be a
party;--to controversies between two or more states;-between a state and citizens of another state;--between
citizens of different states;--between citizens of the same
state claiming lands under grants of different states, and
between a state, or the citizens thereof, and foreign
states, citizens or subjects.
In all cases affecting ambassadors, other public
ministers and consuls, and those in which a state shall be
party, the Supreme Court shall have original
jurisdiction. In all the other cases before mentioned, the
Supreme Court shall have appellate jurisdiction, both as
to law and fact, with such exceptions, and under such
regulations as the Congress shall make.
The trial of all crimes, except in cases of impeachment,
shall be by jury; and such trial shall be held in the state
where the said crimes shall have been committed; but
when not committed within any state, the trial shall be
at such place or places as the Congress may by law have
directed.

556a
U.S. Const. art. VI
All debts contracted and engagements entered into,
before the adoption of this Constitution, shall be as valid
against the United States under this Constitution, as
under the Confederation.
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme law
of the land; and the judges in every state shall be bound
thereby, anything in the Constitution or laws of any
State to the contrary notwithstanding.
The Senators and Representatives before mentioned,
and the members of the several state legislatures, and
all executive and judicial officers, both of the United
States and of the several states, shall be bound by oath
or affirmation, to support this Constitution; but no
religious test shall ever be required as a qualification to
any office or public trust under the United States.
U.S. Const. amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any
person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.

557a
U.S. Const. amend. X
The powers not delegated to the United States by the
Constitution, nor prohibited by it to the states, are
reserved to the states respectively, or to the people.
25 U.S.C. § 1901
§ 1901. Congressional findings
Recognizing the special relationship between the United
States and the Indian tribes and their members and the
Federal responsibility to Indian people, the Congress
finds-(1) that clause 3, section 8, article I of the United States
Constitution provides that “The Congress shall have
Power * * * To regulate Commerce * * * with Indian
tribes1” and, through this and other constitutional
authority, Congress has plenary power over Indian
affairs;
(2) that Congress, through statutes, treaties, and the
general course of dealing with Indian tribes, has
assumed the responsibility for the protection and
preservation of Indian tribes and their resources;
(3) that there is no resource that is more vital to the
continued existence and integrity of Indian tribes than
their children and that the United States has a direct
interest, as trustee, in protecting Indian children who
are members of or are eligible for membership in an
Indian tribe;
(4) that an alarmingly high percentage of Indian families
are broken up by the removal, often unwarranted, of
their children from them by nontribal public and private
agencies and that an alarmingly high percentage of such

558a
children are placed in non-Indian foster and adoptive
homes and institutions; and
(5) that the States, exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, have often
failed to recognize the essential tribal relations of Indian
people and the cultural and social standards prevailing
in Indian communities and families.
25 U.S.C. § 1902
§ 1902. Congressional declaration of policy
The Congress hereby declares that it is the policy of this
Nation to protect the best interests of Indian children
and to promote the stability and security of Indian tribes
and families by the establishment of minimum Federal
standards for the removal of Indian children from their
families and the placement of such children in foster or
adoptive homes which will reflect the unique values of
Indian culture, and by providing for assistance to Indian
tribes in the operation of child and family service
programs.
25 U.S.C. § 1903
§ 1903. Definitions
For the purposes of this chapter, except as may be
specifically provided otherwise, the term-(1) “child custody proceeding” shall mean and include-(i) “foster care placement” which shall mean any
action removing an Indian child from its parent or
Indian custodian for temporary placement in a foster
home or institution or the home of a guardian or
conservator where the parent or Indian custodian

559a
cannot have the child returned upon demand, but
where parental rights have not been terminated;
(ii) “termination of parental rights” which shall mean
any action resulting in the termination of the parentchild relationship;
(iii) “preadoptive placement” which shall mean the
temporary placement of an Indian child in a foster
home or institution after the termination of parental
rights, but prior to or in lieu of adoptive placement;
and
(iv) “adoptive placement” which shall mean the
permanent placement of an Indian child for adoption,
including any action resulting in a final decree of
adoption.
Such term or terms shall not include a placement based
upon an act which, if committed by an adult, would be
deemed a crime or upon an award, in a divorce
proceeding, of custody to one of the parents.
(2) “extended family member” shall be as defined by the
law or custom of the Indian child’s tribe or, in the
absence of such law or custom, shall be a person who has
reached the age of eighteen and who is the Indian child’s
grandparent, aunt or uncle, brother or sister, brother-inlaw or sister-in-law, niece or nephew, first or second
cousin, or stepparent;
(3) “Indian” means any person who is a member of an
Indian tribe, or who is an Alaska Native and a member
of a Regional Corporation as defined in section 1606 of
Title 43;

560a
(4) “Indian child” means any unmarried person who is
under age eighteen and is either (a) a member of an
Indian tribe or (b) is eligible for membership in an Indian
tribe and is the biological child of a member of an Indian
tribe;
(5) “Indian child’s tribe” means (a) the Indian tribe in
which an Indian child is a member or eligible for
membership or (b), in the case of an Indian child who is
a member of or eligible for membership in more than one
tribe, the Indian tribe with which the Indian child has
the more significant contacts;
(6) “Indian custodian” means any Indian person who has
legal custody of an Indian child under tribal law or
custom or under State law or to whom temporary
physical care, custody, and control has been transferred
by the parent of such child;
(7) “Indian organization” means any group, association,
partnership, corporation, or other legal entity owned or
controlled by Indians, or a majority of whose members
are Indians;
(8) “Indian tribe” means any Indian tribe, band, nation,
or other organized group or community of Indians
recognized as eligible for the services provided to
Indians by the Secretary because of their status as
Indians, including any Alaska Native village as defined
in section 1602(c) of Title 43;
(9) “parent” means any biological parent or parents of an
Indian child or any Indian person who has lawfully
adopted an Indian child, including adoptions under tribal
law or custom. It does not include the unwed father

561a
where paternity has not been acknowledged or
established;
(10) “reservation” means Indian country as defined in
section 1151 of Title 18 and any lands, not covered under
such section, title to which is either held by the United
States in trust for the benefit of any Indian tribe or
individual or held by any Indian tribe or individual
subject to a restriction by the United States against
alienation;
(11) “Secretary” means the Secretary of the Interior;
and
(12) “tribal court” means a court with jurisdiction over
child custody proceedings and which is either a Court of
Indian Offenses, a court established and operated under
the code or custom of an Indian tribe, or any other
administrative body of a tribe which is vested with
authority over child custody proceedings.
25 U.S.C. § 1911
§ 1911. Indian tribe jurisdiction over Indian child
custody proceedings
(a) Exclusive jurisdiction
An Indian tribe shall have jurisdiction exclusive as to
any State over any child custody proceeding involving
an Indian child who resides or is domiciled within the
reservation of such tribe, except where such jurisdiction
is otherwise vested in the State by existing Federal law.
Where an Indian child is a ward of a tribal court, the
Indian tribe shall retain exclusive jurisdiction,
notwithstanding the residence or domicile of the child.
(b) Transfer of proceedings; declination by tribal court

562a
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child not domiciled or residing within the
reservation of the Indian child’s tribe, the court, in the
absence of good cause to the contrary, shall transfer such
proceeding to the jurisdiction of the tribe, absent
objection by either parent, upon the petition of either
parent or the Indian custodian or the Indian child’s tribe:
Provided, That such transfer shall be subject to
declination by the tribal court of such tribe.
(c) State court proceedings; intervention
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child, the Indian custodian of the child and the
Indian child’s tribe shall have a right to intervene at any
point in the proceeding.
(d) Full faith and credit to public acts, records, and
judicial proceedings of Indian tribes
The United States, every State, every territory or
possession of the United States, and every Indian tribe
shall give full faith and credit to the public acts, records,
and judicial proceedings of any Indian tribe applicable to
Indian child custody proceedings to the same extent that
such entities give full faith and credit to the public acts,
records, and judicial proceedings of any other entity.
25 U.S.C. § 1912
§ 1912. Pending court proceedings
(a) Notice; time for commencement of proceedings;
additional time for preparation

563a
In any involuntary proceeding in a State court, where
the court knows or has reason to know that an Indian
child is involved, the party seeking the foster care
placement of, or termination of parental rights to, an
Indian child shall notify the parent or Indian custodian
and the Indian child’s tribe, by registered mail with
return receipt requested, of the pending proceedings
and of their right of intervention. If the identity or
location of the parent or Indian custodian and the tribe
cannot be determined, such notice shall be given to the
Secretary in like manner, who shall have fifteen days
after receipt to provide the requisite notice to the parent
or Indian custodian and the tribe. No foster care
placement or termination of parental rights proceeding
shall be held until at least ten days after receipt of notice
by the parent or Indian custodian and the tribe or the
Secretary: Provided, That the parent or Indian
custodian or the tribe shall, upon request, be granted up
to twenty additional days to prepare for such
proceeding.
(b) Appointment of counsel
In any case in which the court determines indigency, the
parent or Indian custodian shall have the right to courtappointed counsel in any removal, placement, or
termination proceeding. The court may, in its discretion,
appoint counsel for the child upon a finding that such
appointment is in the best interest of the child. Where
State law makes no provision for appointment of counsel
in such proceedings, the court shall promptly notify the
Secretary upon appointment of counsel, and the
Secretary, upon certification of the presiding judge, shall

564a
pay reasonable fees and expenses out of funds which
may be appropriated pursuant to section 13 of this title.
(c) Examination of reports or other documents
Each party to a foster care placement or termination of
parental rights proceeding under State law involving an
Indian child shall have the right to examine all reports
or other documents filed with the court upon which any
decision with respect to such action may be based.
(d) Remedial services and rehabilitative programs;
preventive measures
Any party seeking to effect a foster care placement of,
or termination of parental rights to, an Indian child
under State law shall satisfy the court that active efforts
have been made to provide remedial services and
rehabilitative programs designed to prevent the
breakup of the Indian family and that these efforts have
proved unsuccessful.
(e) Foster care placement
determination of damage to child

orders;

evidence;

No foster care placement may be ordered in such
proceeding in the absence of a determination, supported
by clear and convincing evidence, including testimony of
qualified expert witnesses, that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.
(f) Parental rights termination orders; evidence;
determination of damage to child
No termination of parental rights may be ordered in
such proceeding in the absence of a determination,

565a
supported by evidence beyond a reasonable doubt,
including testimony of qualified expert witnesses, that
the continued custody of the child by the parent or
Indian custodian is likely to result in serious emotional
or physical damage to the child.
25 U.S.C. § 1913
§ 1913. Parental rights; voluntary termination
(a) Consent; record; certification matters; invalid
consents
Where any parent or Indian custodian voluntarily
consents to a foster care placement or to termination of
parental rights, such consent shall not be valid unless
executed in writing and recorded before a judge of a
court of competent jurisdiction and accompanied by the
presiding judge’s certificate that the terms and
consequences of the consent were fully explained in
detail and were fully understood by the parent or Indian
custodian. The court shall also certify that either the
parent or Indian custodian fully understood the
explanation in English or that it was interpreted into a
language that the parent or Indian custodian
understood. Any consent given prior to, or within ten
days after, birth of the Indian child shall not be valid.
(b) Foster care placement; withdrawal of consent
Any parent or Indian custodian may withdraw consent
to a foster care placement under State law at any time
and, upon such withdrawal, the child shall be returned to
the parent or Indian custodian.
(c) Voluntary termination of parental rights or adoptive
placement; withdrawal of consent; return of custody

566a
In any voluntary proceeding for termination of parental
rights to, or adoptive placement of, an Indian child, the
consent of the parent may be withdrawn for any reason
at any time prior to the entry of a final decree of
termination or adoption, as the case may be, and the
child shall be returned to the parent.
(d) Collateral attack; vacation of decree and return of
custody; limitations
After the entry of a final decree of adoption of an Indian
child in any State court, the parent may withdraw
consent thereto upon the grounds that consent was
obtained through fraud or duress and may petition the
court to vacate such decree. Upon a finding that such
consent was obtained through fraud or duress, the court
shall vacate such decree and return the child to the
parent. No adoption which has been effective for at least
two years may be invalidated under the provisions of
this subsection unless otherwise permitted under State
law.
25 U.S.C. § 1914
§ 1914. Petition to court of competent jurisdiction to
invalidate action upon showing of certain violations
Any Indian child who is the subject of any action for
foster care placement or termination of parental rights
under State law, any parent or Indian custodian from
whose custody such child was removed, and the Indian
child’s tribe may petition any court of competent
jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912,
and 1913 of this title.

567a
25 U.S.C. § 1915
§ 1915. Placement of Indian children
(a) Adoptive placements; preferences
In any adoptive placement of an Indian child under State
law, a preference shall be given, in the absence of good
cause to the contrary, to a placement with (1) a member
of the child’s extended family; (2) other members of the
Indian child’s tribe; or (3) other Indian families.
(b) Foster care or preadoptive placements; criteria;
preferences
Any child accepted for foster care or preadoptive
placement shall be placed in the least restrictive setting
which most approximates a family and in which his
special needs, if any, may be met. The child shall also be
placed within reasonable proximity to his or her home,
taking into account any special needs of the child. In any
foster care or preadoptive placement, a preference shall
be given, in the absence of good cause to the contrary, to
a placement with-(i) a member of the Indian child’s extended family;
(ii) a foster home licensed, approved, or specified by
the Indian child’s tribe;
(iii) an Indian foster home licensed or approved by an
authorized non-Indian licensing authority; or
(iv) an institution for children approved by an Indian
tribe or operated by an Indian organization which
has a program suitable to meet the Indian child’s
needs.

568a
(c) Tribal resolution for different order of preference;
personal preference considered; anonymity in
application of preferences
In the case of a placement under subsection (a) or (b) of
this section, if the Indian child’s tribe shall establish a
different order of preference by resolution, the agency
or court effecting the placement shall follow such order
so long as the placement is the least restrictive setting
appropriate to the particular needs of the child, as
provided in subsection (b) of this section. Where
appropriate, the preference of the Indian child or parent
shall be considered: Provided, That where a consenting
parent evidences a desire for anonymity, the court or
agency shall give weight to such desire in applying the
preferences.
(d) Social and cultural standards applicable
The standards to be applied in meeting the preference
requirements of this section shall be the prevailing social
and cultural standards of the Indian community in which
the parent or extended family resides or with which the
parent or extended family members maintain social and
cultural ties.
(e) Record of placement; availability
A record of each such placement, under State law, of an
Indian child shall be maintained by the State in which
the placement was made, evidencing the efforts to
comply with the order of preference specified in this
section. Such record shall be made available at any time
upon the request of the Secretary or the Indian child’s
tribe.

569a
25 U.S.C. § 1916
§ 1916. Return of custody
(a) Petition; best interests of child
Notwithstanding State law to the contrary, whenever a
final decree of adoption of an Indian child has been
vacated or set aside or the adoptive parents voluntarily
consent to the termination of their parental rights to the
child, a biological parent or prior Indian custodian may
petition for return of custody and the court shall grant
such petition unless there is a showing, in a proceeding
subject to the provisions of section 1912 of this title, that
such return of custody is not in the best interests of the
child.
(b) Removal from foster care home; placement
procedure
Whenever an Indian child is removed from a foster care
home or institution for the purpose of further foster care,
preadoptive, or adoptive placement, such placement
shall be in accordance with the provisions of this chapter,
except in the case where an Indian child is being
returned to the parent or Indian custodian from whose
custody the child was originally removed.
25 U.S.C. § 1917
§ 1917. Tribal affiliation information and other
information for protection of rights from tribal
relationship; application of subject of adoptive
placement; disclosure by court
Upon application by an Indian individual who has
reached the age of eighteen and who was the subject of
an adoptive placement, the court which entered the final

570a
decree shall inform such individual of the tribal
affiliation, if any, of the individual’s biological parents
and provide such other information as may be necessary
to protect any rights flowing from the individual’s tribal
relationship.
25 U.S.C. § 1918
§ 1918. Reassumption of jurisdiction over child custody
proceedings
(a) Petition; suitable plan; approval by Secretary
Any Indian tribe which became subject to State
jurisdiction pursuant to the provisions of the Act of
August 15, 1953 (67 Stat. 588), as amended by Title IV of
the Act of April 11, 1968 (82 Stat. 73, 78), or pursuant to
any other Federal law, may reassume jurisdiction over
child custody proceedings. Before any Indian tribe may
reassume jurisdiction over Indian child custody
proceedings, such tribe shall present to the Secretary for
approval a petition to reassume such jurisdiction which
includes a suitable plan to exercise such jurisdiction.
(b) Criteria applicable to consideration by Secretary;
partial retrocession
(1) In considering the petition and feasibility of the
plan of a tribe under subsection (a), the Secretary
may consider, among other things:
(i) whether or not the tribe maintains a
membership roll or alternative provision for
clearly identifying the persons who will be
affected by the reassumption of jurisdiction by
the tribe;

571a
(ii) the size of the reservation or former
reservation area which will be affected by
retrocession and reassumption of jurisdiction by
the tribe;
(iii) the population base of the tribe, or
distribution of the population in homogeneous
communities or geographic areas; and
(iv) the feasibility of the plan in cases of
multitribal occupation of a single reservation or
geographic area.
(2) In those cases where the Secretary determines
that the jurisdictional provisions of section 1911(a) of
this title are not feasible, he is authorized to accept
partial retrocession which will enable tribes to
exercise referral jurisdiction as provided in section
1911(b) of this title, or, where appropriate, will allow
them to exercise exclusive jurisdiction as provided in
section 1911(a) of this title over limited community or
geographic areas without regard for the reservation
status of the area affected.
(c) Approval of petition; publication in Federal Register;
notice; reassumption period; correction of causes for
disapproval
If the Secretary approves any petition under subsection
(a), the Secretary shall publish notice of such approval in
the Federal Register and shall notify the affected State
or States of such approval. The Indian tribe concerned
shall reassume jurisdiction sixty days after publication
in the Federal Register of notice of approval. If the
Secretary disapproves any petition under subsection (a),
the Secretary shall provide such technical assistance as

572a
may be necessary to enable the tribe to correct any
deficiency which the Secretary identified as a cause for
disapproval.
(d) Pending actions or proceedings unaffected
Assumption of jurisdiction under this section shall not
affect any action or proceeding over which a court has
already assumed jurisdiction, except as may be provided
pursuant to any agreement under section 1919 of this
title.
25 U.S.C. § 1919
§ 1919. Agreements between States and Indian tribes
(a) Subject coverage
States and Indian tribes are authorized to enter into
agreements with each other respecting care and custody
of Indian children and jurisdiction over child custody
proceedings, including agreements which may provide
for orderly transfer of jurisdiction on a case-by-case
basis and agreements which provide for concurrent
jurisdiction between States and Indian tribes.
(b) Revocation; notice; actions or proceedings unaffected
Such agreements may be revoked by either party upon
one hundred and eighty days’ written notice to the other
party. Such revocation shall not affect any action or
proceeding over which a court has already assumed
jurisdiction, unless the agreement provides otherwise.
25 U.S.C. § 1920
§ 1920. Improper removal of child from custody;
declination of jurisdiction; forthwith return of child:
danger exception

573a
Where any petitioner in an Indian child custody
proceeding before a State court has improperly removed
the child from custody of the parent or Indian custodian
or has improperly retained custody after a visit or other
temporary relinquishment of custody, the court shall
decline jurisdiction over such petition and shall
forthwith return the child to his parent or Indian
custodian unless returning the child to his parent or
custodian would subject the child to a substantial and
immediate danger or threat of such danger.
25 U.S.C. § 1921
§ 1921. Higher State or Federal standard applicable to
protect rights of parent or Indian custodian of Indian
child
In any case where State or Federal law applicable to a
child custody proceeding under State or Federal law
provides a higher standard of protection to the rights of
the parent or Indian custodian of an Indian child than the
rights provided under this subchapter, the State or
Federal court shall apply the State or Federal standard.
25 U.S.C. § 1922
§ 1922. Emergency removal or placement of child;
termination; appropriate action
Nothing in this subchapter shall be construed to prevent
the emergency removal of an Indian child who is a
resident of or is domiciled on a reservation, but
temporarily located off the reservation, from his parent
or Indian custodian or the emergency placement of such
child in a foster home or institution, under applicable
State law, in order to prevent imminent physical damage
or harm to the child. The State authority, official, or

574a
agency involved shall insure that the emergency
removal or placement terminates immediately when
such removal or placement is no longer necessary to
prevent imminent physical damage or harm to the child
and shall expeditiously initiate a child custody
proceeding subject to the provisions of this subchapter,
transfer the child to the jurisdiction of the appropriate
Indian tribe, or restore the child to the parent or Indian
custodian, as may be appropriate.
25 U.S.C. § 1923
§ 1923. Effective date
None of the provisions of this subchapter, except
sections 1911(a), 1918, and 1919 of this title, shall affect a
proceeding under State law for foster care placement,
termination of parental rights, preadoptive placement,
or adoptive placement which was initiated or completed
prior to one hundred and eighty days after November 8,
1978, but shall apply to any subsequent proceeding in the
same matter or subsequent proceedings affecting the
custody or placement of the same child.
25 U.S.C. § 1931
§ 1931. Grants for on or near reservation programs and
child welfare codes
(a) Statement of purpose; scope of programs
The Secretary is authorized to make grants to Indian
tribes and organizations in the establishment and
operation of Indian child and family service programs on
or near reservations and in the preparation and
implementation of child welfare codes. The objective of
every Indian child and family service program shall be

575a
to prevent the breakup of Indian families and, in
particular, to insure that the permanent removal of an
Indian child from the custody of his parent or Indian
custodian shall be a last resort. Such child and family
service programs may include, but are not limited to-(1) a system for licensing or otherwise regulating
Indian foster and adoptive homes;
(2) the operation and maintenance of facilities for the
counseling and treatment of Indian families and for
the temporary custody of Indian children;
(3) family assistance, including homemaker and home
counselors, day care, afterschool care, and
employment, recreational activities, and respite care;
(4) home improvement programs;
(5) the employment of professional and other trained
personnel to assist the tribal court in the disposition
of domestic relations and child welfare matters;
(6) education and training of Indians, including tribal
court judges and staff, in skills relating to child and
family assistance and service programs;
(7) a subsidy program under which Indian adoptive
children may be provided support comparable to that
for which they would be eligible as foster children,
taking into account the appropriate State standards
of support for maintenance and medical needs; and
(8) guidance, legal representation, and advice to
Indian families involved in tribal, State, or Federal
child custody proceedings.
(b) Non-Federal matching funds for related Social
Security or other Federal financial assistance programs;

576a
assistance for such programs unaffected; State licensing
or approval for qualification for assistance under
federally assisted program
Funds appropriated for use by the Secretary in
accordance with this section may be utilized as nonFederal matching share in connection with funds
provided under Titles IV-B and XX of the Social
Security Act or under any other Federal financial
assistance programs which contribute to the purpose for
which such funds are authorized to be appropriated for
use under this chapter. The provision or possibility of
assistance under this chapter shall not be a basis for the
denial or reduction of any assistance otherwise
authorized under Titles IV-B and XX of the Social
Security Act or any other federally assisted program.
For purposes of qualifying for assistance under a
federally assisted program, licensing or approval of
foster or adoptive homes or institutions by an Indian
tribe shall be deemed equivalent to licensing or approval
by a State.
25 U.S.C. § 1932
§ 1932. Grants for off-reservation programs for
additional services
The Secretary is also authorized to make grants to
Indian organizations to establish and operate offreservation Indian child and family service programs
which may include, but are not limited to-(1) a system for regulating, maintaining, and supporting
Indian foster and adoptive homes, including a subsidy
program under which Indian adoptive children may be
provided support comparable to that for which they

577a
would be eligible as Indian foster children, taking into
account the appropriate State standards of support for
maintenance and medical needs;
(2) the operation and maintenance of facilities and
services for counseling and treatment of Indian families
and Indian foster and adoptive children;
(3) family assistance, including homemaker and home
counselors, day care, afterschool care, and employment,
recreational activities, and respite care; and
(4) guidance, legal representation, and advice to Indian
families involved in child custody proceedings.
25 U.S.C. § 1933
§ 1933. Funds for on and off reservation programs
(a) Appropriated funds for similar programs of
Department of Health and Human Services;
appropriation in advance for payments
In the establishment, operation, and funding of Indian
child and family service programs, both on and off
reservation, the Secretary may enter into agreements
with the Secretary of Health and Human Services, and
the latter Secretary is hereby authorized for such
purposes to use funds appropriated for similar programs
of the Department of Health and Human Services:
Provided, That authority to make payments pursuant to
such agreements shall be effective only to the extent and
in such amounts as may be provided in advance by
appropriation Acts.
(b) Appropriation authorization under section 13 of this
title

578a
Funds for the purposes of this chapter may be
appropriated pursuant to the provisions of section 13 of
this title.
25 U.S.C. § 1934
§ 1934. “Indian” defined for certain purposes
For the purposes of sections 1932 and 1933 of this title,
the term “Indian” shall include persons defined in
section 1603(c) of this title.
25 U.S.C. § 1951
§ 1951. Information availability to and disclosure by
Secretary
(a) Copy of final decree or order; other information;
anonymity affidavit; exemption from Freedom of
Information Act
Any State court entering a final decree or order in any
Indian child adoptive placement after November 8, 1978,
shall provide the Secretary with a copy of such decree or
order together with such other information as may be
necessary to show-(1) the name and tribal affiliation of the child;
(2) the names and addresses of the biological parents;
(3) the names and addresses of the adoptive parents;
and
(4) the identity of any agency having files or
information relating to such adoptive placement.
Where the court records contain an affidavit of the
biological parent or parents that their identity remain
confidential, the court shall include such affidavit with

579a
the other information. The Secretary shall insure that
the confidentiality of such information is maintained and
such information shall not be subject to the Freedom of
Information Act (5 U.S.C. 552), as amended.
(b) Disclosure of information for enrollment of Indian
child in tribe or for determination of member rights or
benefits; certification of entitlement to enrollment
Upon the request of the adopted Indian child over the
age of eighteen, the adoptive or foster parents of an
Indian child, or an Indian tribe, the Secretary shall
disclose such information as may be necessary for the
enrollment of an Indian child in the tribe in which the
child may be eligible for enrollment or for determining
any rights or benefits associated with that membership.
Where the documents relating to such child contain an
affidavit from the biological parent or parents
requesting anonymity, the Secretary shall certify to the
Indian child’s tribe, where the information warrants,
that the child’s parentage and other circumstances of
birth entitle the child to enrollment under the criteria
established by such tribe.
25 U.S.C. § 1952
§ 1952. Rules and regulations
Within one hundred and eighty days after November 8,
1978, the Secretary shall promulgate such rules and
regulations as may be necessary to carry out the
provisions of this chapter.
25 U.S.C. § 1961
§ 1961. Locally convenient day schools

580a
(a) Sense of Congress
It is the sense of Congress that the absence of locally
convenient day schools may contribute to the breakup of
Indian families.
(b) Report to Congress; contents, etc.
The Secretary is authorized and directed to prepare, in
consultation with appropriate agencies in the
Department of Health and Human Services, a report on
the feasibility of providing Indian children with schools
located near their homes, and to submit such report to
the Select Committee on Indian Affairs of the United
States Senate and the Committee on Interior and
Insular Affairs of the United States House of
Representatives within two years from November 8,
1978. In developing this report the Secretary shall give
particular consideration to the provision of educational
facilities for children in the elementary grades.
25 U.S.C. § 1962
§ 1962. Copies to the States
Within sixty days after November 8, 1978, the Secretary
shall send to the Governor, chief justice of the highest
court of appeal, and the attorney general of each State a
copy of this chapter, together with committee reports
and an explanation of the provisions of this chapter.
25 U.S.C. § 1963
§ 1963. Severability
If any provision of this chapter or the applicability
thereof is held invalid, the remaining provisions of this
chapter shall not be affected thereby.

581a
25 C.F.R. § 23.101
§ 23.101 What is the purpose of this subpart?
The regulations in this subpart clarify the minimum
Federal standards governing implementation of the
Indian Child Welfare Act (ICWA) to ensure that ICWA
is applied in all States consistent with the Act's express
language, Congress's intent in enacting the statute, and
to promote the stability and security of Indian tribes and
families.
25 C.F.R. § 23.132
§ 23.132 How is a determination of “good cause” to
depart from the placement preferences made?
(a) If any party asserts that good cause not to follow the
placement preferences exists, the reasons for that belief
or assertion must be stated orally on the record or
provided in writing to the parties to the child-custody
proceeding and the court.
(b) The party seeking departure from the placement
preferences should bear the burden of proving by clear
and convincing evidence that there is “good cause” to
depart from the placement preferences.
(c) A court's determination of good cause to depart from
the placement preferences must be made on the record
or in writing and should be based on one or more of the
following considerations:
(1) The request of one or both of the Indian child's
parents, if they attest that they have reviewed the
placement options, if any, that comply with the order
of preference;

582a
(2) The request of the child, if the child is of sufficient
age and capacity to understand the decision that is
being made;
(3) The presence of a sibling attachment that can be
maintained only through a particular placement;
(4) The extraordinary physical, mental, or emotional
needs of the Indian child, such as specialized
treatment services that may be unavailable in the
community where families who meet the placement
preferences live;
(5) The unavailability of a suitable placement after a
determination by the court that a diligent search was
conducted to find suitable placements meeting the
preference criteria, but none has been located. For
purposes of this analysis, the standards for
determining whether a placement is unavailable
must conform to the prevailing social and cultural
standards of the Indian community in which the
Indian child's parent or extended family resides or
with which the Indian child's parent or extended
family members maintain social and cultural ties.
(d) A placement may not depart from the preferences
based on the socioeconomic status of any placement
relative to another placement.
(e) A placement may not depart from the preferences
based solely on ordinary bonding or attachment that
flowed from time spent in a non-preferred placement
that was made in violation of ICWA.
25 C.F.R. § 23.141
§ 23.141 What records must the State maintain?

583a
(a) The State must maintain a record of every voluntary
or involuntary foster-care, preadoptive, and adoptive
placement of an Indian child and make the record
available within 14 days of a request by an Indian child's
Tribe or the Secretary.
(b) The record must contain, at a minimum, the petition
or complaint, all substantive orders entered in the childcustody proceeding, the complete record of the
placement determination (including, but not limited to,
the findings in the court record and the social worker's
statement), and, if the placement departs from the
placement preferences, detailed documentation of the
efforts to comply with the placement preferences.
(c) A State agency or agencies may be designated to be
the repository for this information. The State court or
agency should notify the BIA whether these records are
maintained within the court system or by a State
agency.

